<html>
<title> - HEARINGS TO EXAMINE THREATS, RESPONSES, AND REGIONAL CONSIDERATIONS SURROUNDING IRAQ</title>
<body><pre>[Senate Hearing 107-658]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-658
 
                 HEARINGS TO EXAMINE THREATS, RESPONSES,
                      AND REGIONAL CONSIDERATIONS
                            SURROUNDING IRAQ
=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                       JULY 31 AND AUGUST 1, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                       U. S. GOVERNMENT PRINTING OFFICE
81-697                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)









  
                            C O N T E N T S

                              ----------                              

                        Wednesday, July 31, 2002

                                                                   Page

Ajami, Prof. Fouad, Majid Khadduri professor and director of 
  Middle East Studies, School of Advanced International Studies, 
  Johns Hopkins University, Washington, DC.......................   124
    Prepared statement...........................................   126
Butler, Hon. Richard, former Executive Chairman, UNSCOM; Diplomat 
  in Residence, Council on Foreign Relations, New York, NY.......     9
    Prepared statement...........................................    13
Cordesman, Prof. Anthony H., senior fellow and Arleigh A. Burke 
  Chair in Strategy, Center for Strategic and International 
  Studies, Washington, DC........................................    24
    Prepared statement...........................................    27
Duelfer, Charles, resident visiting scholar, Middle East Studies, 
  Center for Strategic and International Studies, Washington, DC; 
  former Deputy Executive Chairman, UNSCOM.......................    69
    Prepared statement including 2 op-ed articles................    71
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    46
Gallucci, Hon. Robert L., dean, Edmund A. Walsh School of Foreign 
  Service, Georgetown University, Washington, DC.................    64
    Prepared statement...........................................    67
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement    44
Halperin, Dr. Morton H., senior fellow, Council on Foreign 
  Relations, Washington, DC......................................    81
    Prepared statement...........................................    84
Hamaz, Dr. Khidhir, former Iraqi Nuclear Physicist; president, 
  Council on Middle Eastern Affairs, New York, NY................    15
    Prepared statement...........................................    20
Hoar, Gen. Joseph P., USMC (Ret.), former commander in chief of 
  U.S. Central Command (1991-1994), Del Mar, CA..................    76
Kemp, Dr. Geoffrey, director, Regional Srtategic Programs, The 
  Nixon Center, Washington, DC...................................   129
    Prepared statement...........................................   133
McInerney, Lt. Gen. Thomas G., USAF (Ret.), former Assistant Vice 
  Chief of Staff, U.S. Air Force, Washington, DC.................    78
    Prepared statement...........................................    80
Parris, Hon. Mark R., senior policy advisor, Baker, Donelson, 
  Bearman, & Caldwell, Washigton, DC.............................   136
    Prepared statement...........................................   139
Telhami, Dr. Shibley, Anwar Sadat Professor for Peace and 
  Development, University of Maryland, College Park, Md.; 
  nonresident senior fellow, Brookings Institution, Washington, 
  DC.............................................................   117
    Prepared statement...........................................   121
Wellstone, Hon. Paul, U.S. Senator from Minnesota, prepared 
  statement......................................................     6

                        Thursday, August 1, 2002

                                                                   Page

Al-Shabibi, Dr. Sinan, consultant to the United Nations, Geneva, 
  Switzerland....................................................   188
    Prepared statement...........................................   193
Berger, Samuel R., former National Security Advisor; president 
  and CEO, Stonebridge International LLC, Washington, DC.........   237
    Prepared statement...........................................   239
Feil, Col. Scott R., U.S. Army (Ret.), executive director, Role 
  of American Military Power, Association of the U.S. Army, 
  Arlington, VA..................................................   196
    Prepared statement...........................................   199
Francke, Rend Rahim, executive director, Iraq Foundation, 
  Washington, DC.................................................   177
    Prepared statement...........................................   183
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement   161
Marr, Dr. Phebe, former professor, National Defense University, 
  Washington, DC.................................................   165
    Prepared statement...........................................   170
Weinberger, Hon. Caspar, former Secretary of Defense; chairman, 
  Forbes Magazine, Washington, DC................................   231
    Prepared statement...........................................   235

             Additional Statements Submitted for the Record

Bennis, Phyllis, Institute for Policy Studies....................   265
Byler, J. Daryl, director, Mennonite Central Committee U.S. 
  Washington, DC.................................................   269
Pellot, Dr. Peter L., emeritus professor of Nutrition, University 
  of Massachusetts in Amherst and Dr. Colin Rowat, lecturer in 
  Economics, University of Birmingham............................   271


  HEARINGS TO EXAMINE THREATS, RESPONSES, AND REGIONAL CONSIDERATIONS 
                            SURROUNDING IRAQ

                              ----------                              


                        WEDNESDAY, JULY 31, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Dodd, Feingold, Wellstone, Bill 
Nelson, Lugar, Hagel, Chafee and Brownback.
    The Chairman. The hearing will come to order.
    Welcome, everyone, here this morning to what is the 
beginning of, I hope, for lack of a better phrase, a national 
dialog on a very important question. There are some very 
difficult decisions for the President and for the Congress, and 
we think it's important, the members of this committee, that we 
begin to discuss what is being discussed all over, but not here 
in the Congress so far.
    The attacks of 9/11 have forever transformed how Americans 
see the world. Through tragedy and pain, we have learned that 
we cannot be complacent about events abroad. We cannot be 
complacent about those who espouse hatred for us. We must 
confront clear danger with a new sense of urgency and resolve.
    Saddam Hussein's pursuit of weapons of mass destruction, in 
my view, is one of those clear dangers. Even if the right 
response to his pursuit is not so crystal clear, one thing is 
clear. These weapons must be dislodged from Saddam Hussein, or 
Saddam Hussein must be dislodged from power. President Bush has 
stated his determination to remove Saddam from power, a view 
many in Congress share. If that course is pursued, in my view, 
it matters profoundly how we do it and what we do after we 
succeed.
    The decision to go to war can never be taken lightly. I 
believe that a foreign policy, especially one that involves the 
use of force, cannot be sustained in America without the 
informed consent of the American people. And so just as we have 
done in other important junctures in our history, the Foreign 
Relations Committee today begins what I hope will be a national 
dialog on Iraq that sheds more light than heat and helps inform 
the American people so that we can have a more informed basis 
upon which they can draw their own conclusions.
    I'm very pleased and grateful for the close cooperation of 
my Republican colleagues, Senator Helms, in absentia, and his 
staff, in particular Senator Lugar and Senator Hagel, in 
putting these hearings together. This is a bipartisan effort. 
It reminds me of the way that things used to work in this 
committee when I joined it in 1973.
    I want to say a word now about what the hearings are not 
about, from my perspective. They are not designed to prejudice 
any particular course of action. They are not intended to 
short-circuit the debate taking place within the 
administration. I know I speak for all members of the committee 
in saying at the outset that we recognize our responsibility as 
we conduct these hearings to do so in a way that reflects the 
magnitude of the decisions the administration is wrestling with 
and the Congress will have to deal with.
    We've coordinated these hearings closely with the White 
House. We're honoring the administration's desire not to 
testify at this time. We expect, at some later date, to convene 
hearings at which the administration would send representatives 
to explain their thinking once it has been clarified and 
determined. We do not expect this week's hearings to exhaust 
all aspects of this issue. They are a beginning. But over the 
next 2 days, we hope to address several fundamental questions.
    First, what is the threat from Iraq? Obviously, to fully 
answer this question will require us to have additional and 
closed hearings on top of hearings in S-407 and discussions 
we've already had with the intelligence community. Second, 
depending on our assessment of the threat--or depending on 
one's assessment of the threat, what is the appropriate 
response? And, third, how do Iraq's neighbors, other countries 
in the region, and our allies see the, ``Iraqi problem''? And, 
fourth, and maybe most important, if we participate in Saddam's 
departure, what are our responsibilities the day after?
    In my judgment, President Bush is right to be concerned 
about Saddam Hussein's relentless pursuit of weapons of mass 
destruction and the possibility that he may use them or share 
them with terrorists. Other regimes hostile to the United 
States and our allies already have or seek to acquire weapons 
of mass destruction. What distinguishes Saddam is that he has 
used them against his own people and against Iran. And for 
nearly 4 years now Iraq has blocked the return of U.N. weapons 
inspectors.
    We want to explore Saddam's track record in acquiring, 
making, and using weapons of mass destruction and the 
likelihood, in the opinion of the experts that will come before 
us in the next 2 days--the likelihood that he would share them 
with terrorists.
    We want to know what capabilities Saddam has been able to 
rebuild since the inspectors were forced out of Iraq and what 
he now has or might soon acquire. We want to understand his 
conventional military strength and what dangers he poses to his 
neighbors as well as to our forces, should they intervene.
    Once we have established a better understanding of the 
threat, we want to look at the possible responses. The 
containment strategy pursued since the end of the gulf war and 
apparently supported by some in our military has kept Saddam 
boxed in. Some advocates for continuing this strategy believe 
it's exceeded their expectations. And some others advocate the 
continuation coupled with tough, unfettered weapons inspection. 
How practical is that? Others believe that containment raises 
the risks Saddam will continue to play cat and mouse with the 
inspectors, build more weapons of mass destruction and share 
them with those who wouldn't hesitate to use them against us. 
In this view, if we wait for the danger to become clear and 
present, it could become too late. It could be too late. Acting 
to change the regime, in this view, may be a better course.
    But a military response also raises questions. Some fear 
that attacking Saddam Hussein would precipitate the very thing 
we're trying to prevent, his last resort to weapons of mass 
destruction. We also have to ask whether resources can be 
shifted to a major military enterprise in Iraq without 
compromising the war on terror in other parts of the world.
    My father has an expression, God love him. He says, ``If 
everything's equally important to you, Joe, nothing is 
important.'' How do we prioritize? What is the relative value? 
What are the costs?
    We have to inquire about the cost of a major military 
campaign and the impact on our economy. As pointed out 
yesterday in one of the major newspapers in America, in today's 
dollars, the cost of the gulf war was about $75 billion. Our 
allies paid 80 percent of that, including the Japanese. If we 
go it alone, does it matter? Will we encompass and take on the 
whole responsibility? What impact will that have on American 
security and the economy? We have to consider what support 
we're likely to get from our key allies in the Middle East and 
Europe, and we must examine whether there are any consequences 
if we move for regional stability.
    Finally, the least explored, in my view, but in many ways 
the most critical question relates to our responsibilities, if 
any, for the day after Saddam is taken down, if taken down by 
the use of the U.S. military. This is not a theoretical 
exercise. In Afghanistan, the war was prosecuted exceptionally 
well, in my view, but the follow-through commitment to 
Afghanistan security and reconstruction has, in my judgment, 
fallen short.
    It would be a tragedy if we removed a tyrant in Iraq, only 
to leave chaos in its wake. The long suffering Iraqi people 
need to know a regime change would benefit them. So do Iraq's 
neighbors. We need a better understanding of what it would take 
to secure Iraq and rebuild it economically and politically. 
Answering these questions could improve the prospects for 
military success by demonstrating to Iraqis that we are 
committed to staying for the long haul.
    These are just some of the questions we hope to address 
today and tomorrow and in future hearings and, no doubt, in the 
fall. In short, we need to weigh the risks of action versus the 
risks of inaction.
    To reiterate my key point, if we expect the American people 
to support their government over the long haul when it makes a 
difficult decision, if the possibility exists that we may ask 
hundreds of thousands of our young men and women in uniform to 
put themselves in harm's way, if it is the consensus or a 
decision reached by the administration that thousands or tens 
of thousands of troops would be required to remain behind for 
an extended period of time, if those measures are required, 
then we must gain, in my view, the informed consent of the 
American people.
    I welcome our witnesses today. We have a group of extremely 
competent people, one of whom got on a plane in Sydney and 
traveled 24 hours straight to be here for this hearing, and 
others who have come from long distances, as well. These are 
men and women of stature, background knowledge, academic and 
practical understanding of the region and the country, and 
we're anxious to hear from them.
    I would now ask Senator Lugar if he would like to make an 
opening statement. And although we usually reserve opening 
statements just to the ranking member and the chairman, I 
would, since we only have a few members here at the moment, 
invite my other three colleagues if they would like to make a, 
``short''--not as long as the chairman's--short statement.
    When you get to be chairman, you can make long statements.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman, for 
your leadership in organizing these hearings and for a 
comprehensive statement that really does set forward the major 
issues we must discuss.
    I was an outspoken advocate for United States military 
action against Iraq that culminated in Desert Shield and Desert 
Storm. I urged President Bush at a very early date to seek 
congressional authorization for deployment of troops and the 
use of force in the Persian Gulf. At the time, many in and out 
of the administration feared the possibility of losing that 
vote. I believed all along the votes would be there, but had 
the votes for authorization not been there, it would have been 
far better to have known this at the beginning rather than to 
be surprised down the road that the Nation was not behind the 
President. A few weeks later, the House and Senate did vote to 
authorize President Bush to use military force against Iraq, 
and the administration benefited immensely from this overt 
decision of the American people.
    If President Bush determines that large-scale offensive 
military action is necessary against Iraq, I hope that he will 
follow the lead established by the previous Bush administration 
and seek congressional authorization. The administration must 
be assured of the commitment of the American people in pursuing 
policies and actions in Iraq after focused and vigorous 
discussion and debate. It is unfortunate that today, some 10 
years after the gulf war, we still face threats posed by Saddam 
Hussein. This did not necessarily have to be the case.
    On April 18, 1991, I wrote to President Bush urging him to 
send our forces to Baghdad and to complete the job. He was 
gracious enough to receive me in the White House to discuss 
that letter. I believe that while we had the forces present, we 
should end the regime of Saddam Hussein and build a democratic 
Iraq. And, for a number of reasons, our President chose instead 
to pursue a policy of containment. Those important reasons for 
that decision, then and now, include our plans for the future 
of a post-Saddam-Hussein Iraq and future stability of Iraq's 
neighbors.
    We must estimate soberly the human and economic costs of 
war plans and postwar plans. I am under no illusion that this 
will be an easy task. The President and the administration will 
have to make the case to the American people regarding the 
threat posed to the United States security by Saddam Hussein 
and the weapons of mass destruction he appears intent on 
producing and potentially utilizing against Americans and other 
targets.
    But the President will also have to make a persuasive case 
to our friends and allies, particularly those in the region. 
Simply put, Saddam Hussein remains a threat to the United 
States, allied, and regional security. However, the situation 
on the ground in the region has changed since 1991, and it is 
not at all clear that the tactics of that campaign should be 
re-employed today.
    Ten years ago, the United States had done the military and 
diplomatic spade work in the region. We had developed a war 
plan. Allies in the region permitted the United States forces 
to launch attacks from their territory. We had collected a 
coalition of willing and able allies. Our allies were willing 
to pay for $48 billion of the $61 billion cost. We were 
prepared to utilize the force necessary to defeat Iraqi forces. 
And, most importantly, we had the support of the American 
people. We have not yet determined if these same conditions are 
present today. They might be, but we have not yet engaged all 
the parties necessary to ensure a successful outcome.
    At the end of the Persian Gulf war, the agreements 
surrounding the cease-fire included an Iraqi commitment to 
destroy a stockpile of nuclear, chemical, and biological 
weapons and the ability to produce them in the future. I fully 
supported this endeavor. Iraq's possession of weapons of mass 
destruction represents a potential threat the world cannot 
ignore. On several occasions since the end of the war, the 
United States and our allies have resorted to the use of 
military force to counter the threat Iraq poses to its 
neighbors and to the United States' vital national-security 
interests. Saddam Hussein has demonstrated his ability and 
willingness to use weapons of mass destruction and spread 
instability through military force against his own people and 
neighbors.
    Unfortunately, the overriding priority of his regime has 
been the maintenance of his own power. These hearings seek to 
shed light on our policy alternatives. The administration 
understands that ultimately it will have to make a case for its 
policy decisions. This is not an action that can be sprung on 
the American people. Leaks of military plans are dangerous to 
our security. But public debate over policy is important to the 
construction of strong public support for actions that will 
require great sacrifices from the American people.
    I look forward to working closely with the chairman to lead 
this debate and to lay some of the foundation of the coalescing 
of administration and congressional thinking and support that 
will be essential for a campaign against Saddam Hussein.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, I've just been informed that there are going to 
be four rollcall votes in a row starting at 11 o'clock, so I am 
going to rescind my offer. And if you want to put your 
statements in the record or make a 1-minute statement, 
literally, do that, but we'll never get to our witnesses.
    Would anybody like to make a very brief opening comment?
    Senator Wellstone. Mr. Chairman, I'd just ask unanimous 
consent that my statement be included in the record. I was a 
teacher, and I'm used to 70-minute classes. I don't know how to 
do it in 1 minute.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    For months now, high-ranking administration officials have openly 
discussed launching a military attack on Iraq to overthrow Saddam 
Hussein. Until very recently, however, serious public discussion on the 
nature and urgency of Iraq's threat, the range of possible U.S. policy 
responses, and the consequences of a possible U.S. or allied military 
attack has been in short supply. I believe a free-ranging and open 
discussion of the policy options facing us on Iraq is long overdue, and 
wish to thank Senator Biden for scheduling this hearing today, and 
those which are to follow. By initiating these hearings, the committee 
is taking an important and historic first step in meeting its 
constitutional obligations to ensure that the representatives of the 
people have a chance to thoroughly assess these profoundly important 
questions before any action is taken.
    From all that I have seen, I do not believe the administration has 
yet made a case for taking military action against Iraq. Before any 
decisions about major changes in U.S. policy in the region are made--
including possible military or other action--our country and our people 
need to learn as much as we can about the available choices on Iraq and 
their likely consequences.
    Among other things, we must know the impact of a U.S. pre-emptive 
attack on the international coalition effort to combat terrorism, our 
nation's number one national security priority. With few exceptions, 
our coalition partners and regional friends oppose military action. We 
need to take a hard look at whether taking military action against Iraq 
would be worth jeopardizing the steady progress we are now making with 
scores of other nations in actually preventing terrorists from 
acquiring the resources to attack us again as they did on September 11.
    We also must know the nature and urgency of the threat from Iraq, 
the range of possible American policy responses beyond the use of 
force, the legal authority for U.S. or concerted international action 
there, the impact on our economy and on the world economy, and the 
human toll of any such conflict.
    We must also have some clearer idea of our policy goals. Should the 
goal of U.S. policy be to overthrow the regime and install a regime 
less hostile to U.S. interests, to compel Iraq finally to agree with 
unfettered UN-sponsored weapons inspections, to destroy suspected 
weapons of mass destruction production facilities, or some combination 
of these? What is the precedent for the U.S. to launch a major military 
operation in the absence of direct provocation by the target country? 
Should U.S. action be targeted and covert, or overwhelming and overt? 
What would we expect the casualties among U.S. service personnel to be 
in a potential war on Iraq, and would it be higher, as most experts 
agree, than in the current war in Afghanistan? Are Americans ready to 
shoulder that burden now? What would the death toll be among ordinary, 
innocent Iraqi civilians? Why is the UN-sponsored sanctions process, 
recently overhauled and more narrowly targeted, continuing to erode, 
and what can be done about that? All of these questions and more must 
be answered in this process.
    The most recent leaked military plan for invading Iraq calls for a 
heavy reliance on air strikes, focusing first and primarily on Baghdad. 
What is never mentioned in this report is the fact that Baghdad is also 
a crowded city of four to five million people, and it would be 
virtually impossible to take measures sufficient to prevent innocent 
non-combatants from being harmed.
    We must also consider the major responsibilities likely to flow 
from any military victory. What would it take to secure Iraq and to 
rebuild it economically and politically? How many U.S. forces would be 
required to go in, to secure the country and restore some semblance of 
democratic rule, and for how long would they stay? Would the American 
people be willing to shoulder the cost of billions of dollars needed 
for this effort, billions of dollars also urgently needed back here at 
home? In short, after a military victory has been declared, will the 
U.S. stay committed for the long haul? In Afghanistan, we won the war, 
but the follow-through commitment to secure Afghanistan's peace through 
security and reconstruction has fallen short. That fact, probably as 
much an any other, has had a chilling effect on regional support for 
U.S. action on Iraq.
    No one here disagrees that the world would be a much better place 
without the brutal dictatorship of Saddam Hussein. He has preyed on his 
neighbors, has used chemical weapons on his own people, and continues 
to be one of the world's worst violators of human rights. However, if a 
decision to take military action is made, it should only be made after 
the administration has engaged in a serious and thoughtful sustained 
public discussion on Iraq with the American people, and only after all 
diplomatic and other peaceful options have been exhausted. Further, if 
the administration decides to move, it must come back to Congress and 
seek war powers authorization before engaging in a large scale 
escalation of hostilities.
    I believe these hearings are an important first step in beginning a 
serious and thoughtful discussion of U.S. policy toward Iraq, one which 
has been sorely needed, and I look forward to the testimony of the 
witnesses before us.

    Senator Wellstone. I'd like to thank the panelists for 
being here today, and I would like to ask unanimous consent 
that a statement by Phyllis Bennis at the Institute for Policy 
Studies be included in the record.
    The Chairman. Without objection, it will be.
    [The statement referred to can be found on page 265.]
    The Chairman. And every Senator's statement will be placed 
in the record if they have one. I sincerely apologize for that.
    Senator Dodd.
    Senator Dodd. I think this is tremendously important, what 
you're doing. I think this is tremendously valuable. I know 
there are those who question the motivations behind all of 
this, but I can't think of any more valuable function that the 
Senate Foreign Relations Committee can perform than do exactly 
what we're doing here. I think it not only educates our 
colleagues, educates ourselves and the American public, it 
gives the administration an opportunity to focus its ideas and 
policies. I think one of the best debates that ever occurred in 
my 20 years in the Senate was the debate surrounding the issue 
of the gulf war back in 1989.
    And so I thank you for doing this. This is a very, very 
valuable service, and I hope our colleagues pay good attention 
to what we hear.
    Senator Brownback. Mr. Chairman.
    The Chairman. Yes.
    Senator Brownback. If I could for just a quick moment, I 
want to thank you for holding the hearings and second what 
Senator Dodd has said as to their importance. And I know the 
administration looks with importance on these hearings as 
engaging the country.
    I would just note, I think, to our panelists and to other, 
I don't think there's a question but that we've got to, at some 
point in time, deal with Saddam Hussein. Many would have argued 
we should have done it 11 years ago. Some would have argued we 
should have done it 5 years ago. I think the question now 
becomes, should we do it now? And if so, how? And what does it 
impact throughout the region?
    So I hope our panelists can really address that issue, 
because I think there's pretty strong unanimity in the Congress 
that at some point in time we're going to have to deal with 
this guy. Is now the time? And what's the way? And I hope we 
can get at that through these hearings.
    Senator Wellstone. Mr. Chairman, I know everybody's being 
very brief, but just given the comments of a colleague that I 
work with, could I just say something in 30 seconds? I used 30 
seconds before----
    The Chairman. Sure.
    Senator Wellstone [continuing]. Which is I do not believe, 
as the Senator does, that the administration has yet--has yet 
made the case for military action against Iraq, and I think 
that before any decision is taken about whether or not we go to 
war, we need to have a careful and deliberate and substantive 
discussion, not only here, but with people in our country, and 
we'll see whether the case has been made.
    I think these hearings are extremely important. This is why 
I wanted to become a United States Senator, to be a part of a 
discussion about a question that so crucially affects the world 
that we live in. And I think that your putting these hearings 
together is one of the best things you've probably ever done as 
a United States Senator.
    The Chairman. All right, thank you.
    Let me just say, to reinforce one point, yesterday at the 
White House at the signing of the corporate responsibility 
bill, the President came up to me in the audience and shook my 
hand and thanked me for holding these hearings.
    I want to make it clear. The administration has told me 
they have not made a decision yet. I take them at their word. 
They've indicated to me there's nothing in the near-term. I 
take them at their word. And we have not given a veto right on 
how we proceed, but we've asked for their cooperation, offered 
input, as we did from others, any witnesses they would like to 
have. And so, so far, this is as I think it should be, the 
beginning of an open discussion in a bipartisan way to examine 
the major issues we've outlined here.
    Let me begin with our first panel. And as I referenced 
indirectly, Ambassador Richard Butler--and I sincerely thank 
him for literally getting in a plane in Sydney and coming, and 
he obviously thinks these hearings are important or he wouldn't 
have made that trip.
    Richard Butler has served as the executive chairman of the 
United Nations Special Commission, the so-called UNSCOM, from 
1997 to 1999. He was also the Permanent Representative of 
Australia to the United Nations from 1992 to 1997. He's 
currently a diplomat in residence at the Council on Foreign 
Relations and one of the most articulate men in the world, 
actually, on the subject of Saddam Hussein and Iraq, and we're 
delighted he's here.
    Dr. Hamza is the director of the Council for Middle Eastern 
Affairs in New York. He was a top Iraqi nuclear engineer 
working on Iraq's nuclear weapons program until he defected in 
1994. He is the author of the book, ``Saddam's Bombmaker,'' and 
we appreciate him being here and look forward to his testimony.
    And a man we often see on television and who's been kind 
enough to share his wisdom with this committee on many 
occasions, Professor Anthony H. Cordesman. Professor Cordesman 
holds the Arleigh A. Burke Chair in Strategy at the Center for 
Strategic and International Studies. He's also a national 
security analyst for ABC, and we thank him, as well, for being 
here.
    Gentlemen, if you could proceed. And I realize we told you 
5 minutes. I'm not going to hold you literally to 5 minutes. 
What you have to say is so important. But if you can keep it in 
the range of 10 minutes, because we want to be able to engage 
you. And we will--and you've all been here before--maybe Dr. 
Hamza hasn't--we're going to have to break about probably ten 
after 11 and be gone for 40 minutes. With a little bit of luck, 
we will be able to get this panel finished, or if we're still 
engaged, we'll ask you to hang around, if you can.
    But, with that, why don't I know yield the floor to you, 
Mr. Ambassador. And, again, thank you for the effort and your 
service.

 STATEMENT OF HON. RICHARD BUTLER, FORMER EXECUTIVE CHAIRMAN, 
 UNSCOM, DIPLOMAT IN RESIDENCE, COUNCIL ON FOREIGN RELATIONS, 
                          NEW YORK, NY

    Ambassador Butler. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Lugar, distinguished members of this 
committee, I'm greatly honored to have been invited to be here. 
This is an important debate, and I hope I can make a useful 
contribution to it.
    Mr. Chairman, having worked within the Australian 
Parliament, I'm well aware of the division bells and rollcall 
votes and so on, and I appreciate your duties in the Chamber. I 
will, therefore, come straight to the point and try and speak 
with dispatch.
    My subject, as allocated to me by you and your staff, is 
Iraq and weapons of mass destruction. I'll make these opening 
remarks and be happy--then the paper has been circulated, and 
I'll be happy to take part of whatever discussion----
    The Chairman. Your entire statement will be placed in the 
record for our colleagues.
    Ambassador Butler. Mr. Chairman, members of this committee, 
Iraq's stated position is that it has no weapons of mass 
destruction. As recently as last week, two senior Iraqi 
officials, the Deputy Prime Minister and the Foreign Minister, 
reiterated this claim. It's more than interesting that in his 
public statement, Saddam Hussein never claims to be disarmed. 
On the contrary, he threatens a degree of destruction of his 
enemies, which implies his position of mighty weapons.
    It is essential to recognize that the claim made by 
Saddam's representatives that Iraq has no weapons of mass 
destruction is false. Everyone concerned, from Iraq's neighbors 
to the U.N. Security Council to the Secretary General of the 
United Nations, with whom Iraq is currently negotiating on the 
issue, everyone, simply, Mr. Chairman, is being lied to.
    It is now over 10 years since Iraq was instructed by the 
U.N. Security Council to cooperate with action to, and I quote, 
``destroy, remove, and render harmless,'' its weapons of mass 
destruction. Those weapons were specified by the Council as 
these--all nuclear, chemical, biological weapons, and the means 
to make them, and missiles with a range exceeding 160 
kilometers. The Security Council's instruction to Iraq was 
binding under international law. And all other states were 
equally bound by law not to give Iraq any assistance in WMD, 
weapons of mass destruction.
    From the beginning, Mr. Chairman, Iraq refused to obey the 
law. Instead, it actively sought to defeat the application of 
the law in order to preserve its weapons of mass destruction 
capability. The work of UNSCOM, the body created by the 
Security Council to take away Iraq's weapons of mass 
destruction, had varying degrees of success. But, above all--
above all--it was not permitted to finish the job, and almost 4 
years have now passed since Iraq terminated UNSCOM's work. And 
in that period, Iraq has been free of any inspection and 
monitoring of its WMD programs.
    Now, I've given this briefest of recollection of that 
history because, Mr. Chairman, I put to you and your colleagues 
it shows two key things. One, Iraq remains in breach of 
international law. Two, it has been determined to maintain a 
weapons-of-mass-destruction capability at all costs. Now, we 
need to know, as far as we can, what the capability it today.
    First of all, nuclear weapons, although, sitting on my left 
here, Dr. Hamza is far more expert than I am in that field, but 
I'll say quickly what I believe is the case. Saddam has sought 
nuclear weapons for two decades. Ten years ago, he intensified 
his efforts in a so-called crash program. The gulf war put an 
end to this. Subsequent inspection and analysis by the 
International Atomic Energy Agency [IAEA] and UNSCOM showed 
that in spite of relatively deficient indigenous sources of 
uranium, Saddam's program was, in fact, when stopped, as close 
as 6 months away from making a crude nuclear explosive device. 
Of the three components necessary for a nuclear weapon--
materials, equipment, and knowledge--Iraq has the latter two. 
On the relevant equipment and components, Iraq actually refused 
to yield them to the IAEA and UNSCOM inspectors.
    The key question now is, has Iraq acquired the essential 
fissionable material, either by enriching indigenous sources or 
by obtaining it from external sources? And I don't know the 
answer. And I will say, throughout my remarks, Mr. Chairman, 
what I don't know as well as what I think is the case. I don't 
know the answer to that. It is possible that intelligence 
authorities in the West and Russia--and you all know why I 
mention Russia, in particular--may know the answer to that 
question.
    But what there is now is evidence that Saddam has 
reinvigorated his nuclear weapons program in the inspection-
free years. And over 2 years ago, the IAEA estimate was that if 
he started work again on a nuclear weapon, he could build one 
in about 2 years.
    Now I turn to chemical weapons. Saddam's involvement with 
chemical weapons also spans some 20 years. He used them in the 
Iran-Iraq war in the mid 1980s and on Iraqis in the north who 
challenged his rule in 1998. UNSCOM identified an array of 
chemical-weapons agents manufactured by Iraq. This included the 
most toxic of them, VX. Iraq's chemical weapons program was 
extensive, and UNSCOM was able to destroy or otherwise account 
for a substantial portion of it, of its holdings of weapons and 
its manufacturing capability. But, Mr. Chairman, not all of it.
    It was particularly significant that following UNSCOM's 
discovery of Iraq's VX program and the fact that Iraq had 
loaded it into missile warheads together with other chemical 
and biological agents, it was particularly significant that 
Iraq then strengthened, in 1998, its determination to bring 
UNSCOM's work to an end.
    Now I turn to biological weapons. Iraq also maintained an 
extensive biological weapons program with an array of BW 
agents. Its attempts to conceal this program were most 
elaborate, implying that BW, biological weapons, are, in fact, 
particularly important to Saddam. I often thought that there 
was a relationship here. The extent of their attempts to 
prevent us from finding something demonstrated the degree of 
importance of it. And if that rule applies, BW is very 
important to Saddam.
    Iraq weaponized BW--for example, it loaded anthrax into 
missile warheads and continually researched new means of 
delivery--spraying devices, pilotless aircraft. UNSCOM's 
absolutely refusal to accept the transparently false Iraq 
claims about its--what it called its ``primitive, failed, 
unimportant'' BW program--and UNSCOM's examination of the 
possibility that Iraq had tested BW on humans. These also 
contributed to Iraq's resolve in 1998 to terminate UNSCOM's 
work.
    Finally, missiles. Iraq's main prescribed ballistic missile 
was the Scuds it had imported from the USSR. It also sought to 
clone those indigenously and continuously sought to develop 
other medium- and long-range missiles. UNSCOM's accounting of 
Iraq's Scuds was reasonably complete. A good portion of them 
had been fired or destroyed during the gulf war. But the 
disposition of a number of them, possibly as many as 20, was 
never unambiguously established.
    In addition, Iraq was working, while UNSCOM was still in 
Iraq, on the further development of a missile capability which 
would breach the 160-kilometer range limit. I asked them to 
stop that work, but the general in charge of it categorically 
refused.
    And there was another issue in the missile field which also 
contributed to Iraq shutting us down in 1998. I had asked Iraq 
to yield to us 500 tons of fuel that would only fire a SCUD 
engine, and they refused.
    Now, what do I derive from this SITREP, Mr. Chairman? 
Quickly, six main points. We do not know, and never have known 
fully, the quantity and quality of Iraq's WMD. Its policies of 
concealment ensured that this was the case. Two, we do know 
that it has had such weapons, has used them, and remains at 
work on them. Three, what it has been able to further achieve 
in the 4-years without inspection is not clear, in precise 
terms. That is the inner logic of inspections. You cannot see 
what you are not permitted to look at. Fourth, Saddam Hussein 
knows what he is working on, he always had, and the assets he 
holds in the WMD field. His refusal to allow inspections to 
resume has nothing to do with notions of Iraqi sovereignty. It 
is designed to prevent the discovery of and to protect his 
weapons-of-mass-destruction program. Next, intelligence 
agencies might know more than they are able to say in public. 
Certainly what has been published of defector and intelligence 
reports confirms that during the past 4 years Iraq has been 
hard at work across the board to increase its WMD capability.
    And, finally, there are a number of deeply disturbing 
possibilities within Saddam's WMD program, which need urgent 
attention, but especially these. Has he acquired a nuclear 
weapons capability by purchasing it from Soviet stock? I think 
that's an important question. And, second, is he working in the 
BW field on smallpox, ebola, and plague?
    Now, there is a question as to why does Saddam want these 
diabolical weapons? Why has he defended them at such great cost 
to the Iraqi people? In many respects, Mr. Chairman, he's told 
us himself in his various outbursts. They make him strong. They 
help him stay in power at home. They help him fight what he 
thinks--his enemies outside Iraq.
    But, even more disturbing than those so-called goals and 
his view of the world is his apparently cataclysmic mentality. 
He surely must know that, especially following September 11, 
any use by him, and, indeed, any threat of use of WMD against 
the United States or possibly its allies, would bring a 
terrible response. It would be intelligent for him to now 
recognize that his WMD capability is an insupportable liability 
for him and his regime. Yet, Mr. Chairman, he shows no sign of 
such intelligent judgment. And this is perhaps the ultimate 
pathology of the man.
    Will he make his WMD available to terrorist groups? Again, 
I don't know. We do know that Iraq has trained terrorists from 
around the region and has mounted terrorist actions of its own 
as far afield as in Southeast Asia. I have a personal 
experience of that. But I have seen no evidence of Iraq 
providing WMD, as such, to non-Iraqi terrorist groups. I 
suspect that, especially given his psychology and aspirations, 
Saddam would be reluctant to share with others what he believes 
to be an indelible source of his own power.
    On the elemental question, therefore, the one put to me, 
Saddam and weapons of mass destruction--that is, does he have 
them, et cetera--what's the state of affairs contrary to his 
assertions that he has none? In addition to what I've put to 
you, I would refer this committee to the traditional test of 
whether or not a person can be judged to have committed a 
crime, and this is, did the accused have the motive, the means, 
and the opportunity? And, Mr. Chairman, Saddam plainly has all 
three and has demonstrated this fact.
    What should be done? I was told that's not my issue for 
this morning.
    The Chairman. Well, we would welcome your input.
    Ambassador Butler. Well, clearly an ideal situation would 
be the resumption of arms control in Iraq--inspections and 
serious arms control--but, Mr. Chairman, not if that means the 
shell game--phony inspections, more deceit, more concealment. 
That would, in fact, I suggest, be deeply dangerous, providing 
an illusion of security.
    So if the decision has to be taken to remove Saddam, then 
I'd just say this. Do it for the right reasons. As you have 
pointed out, Mr. Chairman, have this debate and make clear to 
the world what this is about. It is about weapons of mass 
destruction, but please do not leave out Saddam's hideous 
record, in terms of human-rights violations--he should be on 
trial in The Hague alongside Milosevic--and, second, the 
fundamental violation by his regime of international law, 
something which trashes the system of international law and 
harms us all.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Butler follows:]

   Prepared Statement of Ambassador Richard Butler, Former Executive 
Chairman of UNSCOM, Diplomat in Residence, Council on Foreign Relations

                  Iraq and Weapons of Mass Destruction

    Iraq's stated position is that it has no weapons of mass 
destruction (WMD). As recently as last week, two senior Iraqi 
officials--the Deputy Prime Minister and the Foreign Minister--
reiterated this claim.
    It is more than interesting that in his public statements, Saddam 
Hussein never claims to be disarmed. On the contrary, he threatens a 
degree of destruction of his enemies which implies his possession of 
mighty weapons.
    It is essential to recognize that the claim made by Saddam's 
representatives, that Iraq has no WMD, is false. Everyone concerned, 
from Iraq's neighbors to the UN Security Council and the Secretary-
General of the UN, with whom Iraq is currently negotiating on the 
issue, is being lied to.
    It is now over ten years since Iraq was instructed by the UN 
Security Council to cooperate with action to ``destroy, remove, or 
render harmless'' its weapons of mass destruction. Those weapons were 
specified by the Council as: all nuclear, chemical, and biological 
weapons; the means to make them; and missiles with a range exceeding a 
hundred and sixty kilometers.
    The Security Council's instruction to Iraq was binding under 
international law. All other states were, equally, bound by that law to 
deny Iraq any assistance or cooperation in the field of WMD.
    From the beginning, Iraq refused to obey the law. Instead, it 
actively sought to defeat its application in order to preserve its WMD 
capability.
    The work of UNSCOM, the body created by the Security Council to 
implement its decisions on Iraq's WMD, had varying degrees of success. 
But, above all, it was not permitted to finish the job. Almost four 
years ago the Iraqi's terminated its work. Iraq has been free of 
inspection or monitoring since then.
    This briefest of recollections of relevant background history 
reveals two salient facts: Iraq remains in breach of the law; it has 
been determined to maintain a WMD capability.
    We need to know as far as is possible, Iraq's current WMD status.
                            nuclear weapons
    Saddam has sought nuclear weapons for some two decades. Ten years 
ago he intensified his efforts, instituting a ``crash program.'' The 
Gulf War put an end to this. Subsequent inspection and analysis by the 
International Atomic Energy Agency (IAEA) and UNSCOM, showed that in 
spite of relatively deficient indigenous sources of the fissionable 
material needed to make a nuclear weapon, Saddam's program was as close 
as six months from yielding a bomb.
    Of the three components necessary for the fabrication of a nuclear 
explosive device: materials, equipment, knowledge; Iraq has the latter 
two. On the relevant equipment/components, Iraq refused to yield them 
to the inspectors.
    The key question now is has Iraq acquired the essential fissionable 
material either by enriching indigenous sources or by obtaining it from 
external sources?
    I don't know the answer. It is possible that intelligence 
authorities, in the West and/or Russia do. But, there is evidence that 
Saddam has reinvigorated his nuclear weapons program in the inspection-
free years.
    Over two years ago, the IAEA estimate was that if he started work 
again, Saddam could build a nuclear weapon in about two years.
                         chemical weapons (cw)
    Saddam's involvement with chemical weapons also spans some twenty 
years. He used them in the Iran-Iraq war in the mid-eighties and on 
Iraqi's who challenged his rule, in 1988.
    UNSCOM identified an array of CW agents manufactured by Iraq. This 
included the most toxic of them--VX. Iraq's CW program was extensive. 
UNSCOM was able to destroy or otherwise account for a substantial 
portion of Iraq's CW holdings and manufacturing capability. But, not 
all of it.
    It was particularly significant that following UNSCOM's discovery 
of Iraq's VX program and the fact that Iraq had loaded it and other CW 
and BW agents into missile warheads, Iraq strengthened its 
determination to remove UNSCOM from Iraq.
                        biological weapons (bw)
    Iraq also maintained an extensive BW program with an array of BW 
agents. Its attempts to conceal this program were the most elaborate, 
implying that BW were particularly important to Saddam.
    Iraq weaponized BW. For example, it loaded anthrax into missile 
warheads and continually researched new means of delivery: spraying 
devices; pilotless aircraft.
    UNSCOM's absolute refusal to accept the transparently false Iraqi 
claims about its ``primitive, failed and unimportant'' BW program and 
its examination of the possibility that Iraq had tested BW on humans 
also contributed to Iraq's resolve, in 1998, to terminate UNSCOM's 
work.
                                missiles
    Iraq's main proscribed ballistic missile was the Scuds it had 
imported from the USSR. It also sought to clone those indigenously and 
continually sought to develop other medium- and long-range missiles.
    UNSCOM's accounting of Iraq's Scuds was reasonably complete: a good 
portion of them had been fired or destroyed during the Gulf War. But 
the disposition of a number of them, possibly as many as 20, was never 
unambiguously established.
    In addition, Iraq was working, while UNSCOM was still in Iraq, on 
the further development of a missile capability which would breach the 
160 kilometer range limit. I asked them to stop that work. They 
refused.
    There was another issue in the missile field which also contributed 
to Iraq shutting down UNSCOM in 1998. I asked Iraq to yield some 500 
tonnes of fuel which would only drive SCUD engines. It refused.
    It is very important to make the following points:

  <bullet> We do not know and never have known fully the quantity and 
        quality of Iraq's WMD. Its policies of concealment ensured 
        this.

  <bullet> We do know that it has had such weapons, has used them, 
        remains at work on them.

  <bullet> What it has been able to further achieve in the four years 
        without inspection is not clear, in precise terms. That is the 
        inner logic of inspections--you cannot see what you are not 
        permitted to look at.

  <bullet> Saddam Hussein knows what he is working on and the assets he 
        holds in the WMD field. His refusal to allow inspections to 
        resume has nothing to do with notions of Iraqi sovereignty. It 
        is designed to prevent the discovery of and to protect, his WMD 
        program.

  <bullet> Intelligence agencies might know more than they are able to 
        say in public. Certainly what has been published of defector 
        and intelligence reports confirms that, during the past four 
        years, Iraq has been hard at work, across the board, to 
        increase its WMD capability.

  <bullet> There are a number of deeply disturbing possibilities within 
        Saddam's WMD program which need urgent attention, but 
        especially these: has he acquired a nuclear weapons capability 
        by purchasing it from former Soviet stock; is he working, in 
        the BW field, on smallpox, plague, ebola?

    Why is Saddam so deeply attached to these diabolical weapons and 
defended this attachment at massive cost to Iraq and its people?
    In many respects he has told us himself, in his various public 
outbursts. They make him strong against enemies within and without 
Iraq. They support his posturing to lead the Arab world against its 
enemies.
    Even more disturbing than Saddam's goals and view of the world, is 
his apparently cataclysmic mentality. He surely must know that, 
especially following September 11, any use by him and indeed any threat 
of use of WMD against the United States, or possibly its allies, would 
bring a terrible response.
    It would be intelligent for him to now recognize that his WMD 
capability is an insupportable liability for him and his regime. Yet, 
he shows no sign of doing so. This is perhaps the ultimate pathology of 
the man.
    Will he make his WMD available to terrorist groups?
    I don't know. We do know that Iraq has trained terrorists from 
around the region and has mounted terrorist actions of its own, as far 
afield as in South East Asia. But I have seen no evidence of Iraq 
providing WMD to non-Iraqi terrorist groups.
    I suspect that, especially given his psychology and aspirations, 
Saddam would be reluctant to share what he believes to be an indelible 
source of his power.
    On the elemental question of whether, contrary to assertions 
authorized by him, Saddam possesses WMD, I would refer to the 
traditional test of whether or not a person can be judged to have 
committed a crime: did the accused have the motive, means, and 
opportunity? Saddam plainly has had and continues to have, all three.
    What should be concluded from these facts?
    The resumption of arms control in Iraq is urgently required. But, 
it would have to be serious. If Iraq again refused to cooperate, then 
to pursue compromised inspections would be dangerous. If it is decided 
to take military action against Saddam it will be crucial for it to be 
for the right reasons. There are, in fact, three: Saddam's flagrant 
violation of human rights; his continuing refusal to comply with 
international law as expressed in binding decisions of the Security 
Council; and, his violation of arms control obligations and treaties.

    The Chairman. Thank you. I particularly agree with your 
last point. I have been pushing for 8 months that he should be 
indicted as a war criminal. Even if we cannot get him, he 
should be indicted as a war criminal so the world understands.
    Doctor, welcome.
    Dr. Hamza. Thank you.
    The Chairman. The floor is yours.

STATEMENT OF DR. KHIDHIR HAMZA, FORMER IRAQI NUCLEAR PHYSICIST; 
   PRESIDENT, COUNCIL ON MIDDLE EASTERN AFFAIRS, NEW YORK, NY

    Dr. Hamza. Mr. Chairman, distinguished members, yesterday 
Saddam met members of the Atomic Energy Organization addressing 
then as what he calls mujaheddin. That is people who exert 
extreme effort and may sacrifice themselves for their work. And 
this is what he had to say yesterday. ``The Americans and 
British say that if Iraq is left to its own means, it might 
make such and such weapons.'' He didn't name them, but it's 
clear what he meant. ``They mean to harm us.'' ``It is to 
prevent any Arab or Muslim from progress.'' He calls it 
progress. ``This is the evil program of the West, and 
especially the Americans assisted by Zionism and their 
supporters.'' It is clear now, at this critical juncture, that 
at his meeting with Atomic Energy exhorting them to do their 
``national duty''--we see Saddam back at his own old games of 
trying to create at least the impression that he is a dangerous 
man and a menace and should not be trifled with.
    The last meetings of the Iraqi delegation with the U.N.-
relevant personnel on resuming inspections in Iraq, the Iraqi 
Government decided, after they failed to make the U.N. agree to 
their terms of getting the inspectors back, they wanted some 
concessions. They declared that the inspector's job is to 
disarm Iraq and leave it defenseless against American strikes 
since the Americans will never remove sanctions. So the whole 
game they thought the inspectors are charged with is to disarm 
Iraq. Since the inspectors are charged only with dismantling 
weapons of mass destruction and their facilities, this was an 
admission that Iraq may possess these weapons and also an 
implied threat that, facing an invasion, it might use them.
    If we go back to the Iraqi weapons of mass destruction, 
Iraq built its own weapons of mass destruction in technologies 
indigenously with some foreign help. It understood that its 
main assets were not the equipment but the scientists and 
engineers that makes these weapons. Thus Saddam's government 
kept a tight lid on its science and engineering military teams 
at the same time it allowed UNSCOM and IAEA to demolish some of 
its weapon production sites.
    That these science and engineering teams were capable of 
rebuilding the program was made manifestly clear in the 
aftermath of the gulf war. Within less than a year, these teams 
rebuilt successfully most of Iraq's services infrastructure. 
This included rebuilding power stations, major telephone 
exchanges, and oil refineries.
    Elated by their success, Saddam kept these teams as 
contracting entities to the government for the civilian sector 
with a much-reduced load and assigned them the rebuilding of 
the needed facilities for the nuclear and other weapons-of-
mass-destruction programs. This provided them with a cover as 
civilian contractors with the actual work to prove it. But, at 
the same time, their weapons-of-mass-destruction work continued 
unhindered.
    Thus, the computer we used for the nuclear-weapon design is 
now located in a hospital in Saddam City at the outskirts of 
Baghdad. If an inspector should arrive at the site, he or she 
will be shown contracts for the civilian sector. The only 
indication that things are not what they seem is that it is 
headed by a man who worked extensively on the Iraqi nuclear-
weapon design and that most of his staff are former workers in 
the nuclear weapon program.
    Legally, and according to the current mandate of UNMOVIC, 
the U.N. inspection body, the burden is on the inspectors to 
prove otherwise. Thus, Saddam has managed, from the experience 
of the last 11 years, to create the perfect cover. In effect, 
it turned the whole Iraq science and engineering enterprise 
into a giant weapon-making body. And since they do actually 
accomplish civilian tasks, the economic burden on the 
government is also reduced.
    Saddam valued his people more than equipment. And while he 
initially allowed the U.N. teams to destroy some of his 
equipment and facilities, Saddam kept tight control over his 
scientists and engineers. Thus defections were kept to a 
minimum. This was helped by well-publicized cases of defectors 
seeking help and were turned down. One of them got killed in 
Jordan by Iraqi agents while waiting for the U.S. Embassy to 
grant him an entry visa. Not a single high-level defector left 
the regime since the botched defection of Hussein Kamel, 
Saddam's son-in-law, to Jordan in 1995. This kept the 
information flow out of Iraq to a minimum, increasing the 
opacity of the WMD programs.
    Iraq is well into CW production and may well be in the 
process of BW production. With more than 10 tons of uranium and 
1 ton of slightly enriched uranium, according to German 
intelligence, it has in its possession, Iraq has enough to 
generate the needed bomb-grade uranium for three nuclear 
weapons by 2005.
    Iraq has corporations in India and other countries to 
import the needed equipment for its programs, then channel them 
through countries like Malaysia for shipment to Iraq. Germany 
already blacklisted some of these companies for violating 
sanctions imposed on Iraq.
    Iraq is importing directional-control instruments for its 
missiles of much higher precision than those needed for the 
allowed 160 kilometer missiles under U.N. sanctions. Thus, Iraq 
is gearing to extend the range of its missiles to easily reach 
Israel.
    The type of equipment imported indicate that Iraq is in the 
process of creating its own foundation for the production of 
needed materials, thus avoiding detection if these materials 
are on the watch list of exporting countries. Following this 
logic, Iraq is or will be able to produce its own growth media 
for the biological weapons program and many of the precursors 
for chemical weapon program. The same can be said for local 
uranium production from phosphates. This removes many 
limitations on production and allows Iraq to accelerate its own 
weapons programs.
    The inspection regime in Iraq had a mixed history. The 
International Atomic Energy Agency, the body charged with 
ensuring that nuclear facilities are not used for nuclear-
weapons purposes, failed in its task with regards to Iraq 
before the gulf war. The International Atomic Energy Agency 
remains basically a weak organization beset by its 
international composition and multiple loyalties of its workers 
though within its sphere it has been quite successful in 
accounting for and keeping a tab on essential components of the 
nuclear fuel cycle, but it has limited leverage with the states 
and works best in a cooperative and amiable environment.
    Against determined states such as Iraq, it is at a great 
disadvantage, thus it failed again after the gulf war when it 
declared early that it took care of basically all of Iraq's 
nuclear program. It took the defection of Kamel, Saddam's son-
in-law, to force the Iraqi Government to declare the actual 
scope of its nuclear weapons program and forced the inspectors 
to start all over again in revealing what has not been declared 
before.
    We are talking about a two-stage process--dismantling what 
is there and monitoring after--so that it does not get rebuilt. 
With Iraq's aggressive behavior toward inspectors and the cat-
and-mouse game it continuously plays with them, monitoring 
becomes problematic at best in the later stage of keeping Iraq 
disarmed. So even if some equipment are dismantled, getting 
them not to be rebuilt again will be problematic in any future 
program. Iraq could just at any time stop cooperating and it 
might be just too late to stop it from continuing its weapons 
program.
    If the inspectors go back now, there is very little human 
intelligence that will help them locate the new weaponsites. 
Spread widely among the government infrastructure in smaller 
hard-to-detect units, the inspectors will have a hard time 
locating all the program's components. A recent defector with 
credible information asserted that all units are built with a 
backup. If one is detected or is in danger of discovery, all 
activity is immediately transferred to the backup facility.
    The new UNMOVIC inspection body do not have the support and 
free hand UNSCOM enjoyed. With Russia and other states that 
favor removing sanctions, keeping the pressure, the onus now is 
on the inspectors to prove that Iraq is in violation. Not 
finding a smoking gun after a series of inspections is all that 
the Russians and the French need to declare that the United 
States has no case and sanctions must be lifted. The U.S. case 
will be considerably weakened, and more voices will rise 
against U.S.-Iraqi policy as baseless if the inspectors go in 
and find no smoking gun that Iraq is making weapons of mass 
destruction. This is a danger that must be carefully examined 
before inspection teams are allowed back in Iraq possibly to 
divert an invasion.
    Many voices declared that Iraq was not pursuing nuclear 
weapons before the gulf war. This included the IAEA, 
International Atomic Energy Agency, that declared Iraq clean in 
many statements. This happened even after the German 
publication, Der Spiegel, reported Iraq's successful attempt to 
acquire classified uranium centrifuge enrichment technology 
from Germany.
    However, the United States knew better and used the gulf 
war setting as a way to dismantle Iraq's nuclear weapons 
program. But its dismantling process ignored the knowledge base 
acquired over the years that can be used easily to rebuild what 
was destroyed. A similar insistence on proof before taking 
serious action will be allowing Saddam to achieve his goals and 
challenge the U.S. interests again.
    With no large, easily distinguishable nuclear sites, and 
little or no human intelligence, it is difficult to see how any 
measure, short of a regime change, will be effective. Saddam is 
totally indifferent to the human suffering of his people. And 
with his threats of reprisals against the families of weapons-
of-mass-destruction workers has managed to stop defections 
among his personnel despite the fact that a large number of 
Iraqis from other walks of life managed to escape. With a 
Soviet-style economy that's basically geared to war and its 
requirements, Iraq is currently the only Arab state that all 
Arab extremists look at as the future challenger to Israel and 
U.S. interests in the region. Thus, if Saddam makes it in the 
nuclear arena, he will be the region's undisputed leader in 
Arab eyes. It will then be much harder to agree on the needed 
concessions for a peace process, and a viable peace will be 
impossible to achieve under any terms.
    Saddam has used and will continue to use the Palestine 
issue to rally the Arabs around him as he did when he used the 
Arab leaders meeting in Baghdad to challenge the peace treaty 
of Egypt with Israel that President Sadat agreed to.
    Saddam and terrorism: Saddam Hussein has a long history of 
involvement in international terrorism, from assassinations of 
Iraqis abroad in the 1970s and 1980s to support for radical 
anti-Western groups in the 1980s and 1990s to links with 
Islamic fundamentalists today. His track record speaks for 
itself.
    Always the opportunist, he has used the biannual Islamic 
conferences held in Baghdad since the 1980s as a recruiting 
ground for Islamic radicals from around the Muslim world. A 
former Iraqi intelligence officer now in Europe has described 
how he would dress as a cleric and approach Islamists from key 
countries to put on the Iraqi payroll for special operations. 
He was tasked--that is, the intelligence officer--to recruit 
Pakistanis, Indonesians, and Malaysians, while other officers 
concentrated on Palestinians and Arabs.
    We know from credible sources that Osama bin Laden was a 
frequent visitor to the Iraqi Embassy in Khartoum when bin 
Laden was a resident of the Sudanese capital until 1996. It is 
no coincidence that Khartoum is one of Iraq intelligence 
service's largest foreign station.
    It has also been confirmed that the Iraqi Ambassador in 
Turkey, Farouk Hijazi, traveled to Afghanistan and met bin 
Laden in December 1998. It is revealing to note that prior to 
being appointed Ambassador to Ankara, Hijazi was head of 
foreign operations for Iraqi Intelligence Service. 
Incidentally, the same Hijazi who was hurriedly pulled out of 
Ankara on September 29, 2001, has recently resurfaced as Iraq's 
Ambassador to Tunisia.
    There have been several confirmed sightings of Islamic 
fundamentalists from Egypt, Saudi Arabia and Gulf states being 
trained in terror tactics at the Iraq intelligence camp at 
Salman Park, 20 miles south of Baghdad on the Tigris River. 
Three intelligence officers have reported that they were 
surprised to find non-Iraqi fundamentalists undergoing training 
at the facility. The training involved assassination, 
explosions, and hijacking. All three reported that there is a 
fuselage of an old Tupolev 154 airliner used for hijack 
training. This was later confirmed by satellite photographs.
    Iraq military capability has been considerably depleted 
since the gulf war. Part of the drive to rebuild larger weapon-
of-mass-destruction stockpiles is to make up for this depletion 
in military capability. Iraq, now, has practically no air 
force, a much degraded air-defense system, and practically no 
new tanks, heavy artillery, or armored vehicle. What is left 
functioning from the gulf war arsenal is basically in the hands 
of the Special Republican Guard, and the rest of the Armed 
Forces are basically armed with light weaponry.
    With a highly corrupt officer corps, the Iraq Army suffers 
from a large number of absenteeism, poor or nonexistent medical 
care, pilfered rations and little or no pay.
    It is estimated that Iraq has no more than a quarter of the 
fire power it possessed at the onset of the gulf war. With the 
original Ba'ath Party members mostly murdered or jailed, 
Saddam's government now is purely a personal dictatorship of 
Saddam and his clans. The original rhetoric of the Ba'ath party 
no longer carry any weight with the population.
    Iraqi WMD are under the control of the special security 
organization. This is the same group that is charged with 
Saddam's security. This feared and ruthless organization is 
mainly composed of conscripts from Saddam's hometown and very 
loyal tribes in the adjacent areas. They have an observer in 
all major military meetings, and they are present at the 
headquarters of all the division commanders, and they report 
directly to Saddam's younger son, Qussey.
    Any operation to disrupt the authority of the central 
government of Iraq or the Iraqi command structure and 
especially the handling of deployment of weapons of mass 
destruction must target this organization. Precision bombing 
and strict enforcement of no-drive zones should eliminate most, 
if not all, of the dangers of Saddam possibly using his CBW 
against U.S. forces. Past defections from this pampered group 
indicate that it is not as tightly controlled as was earlier 
thought, and defection rate may increase considerably when 
faced with an imminent invasions.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Hamza follows:]

     Prepared Statement of Dr. Khidhir Hamza, Former Iraqi Nuclear 
        Physicist; President, Council on Middle Eastern Affairs

                            the iraqi threat
    Failing to obtain concessions in return for allowing the inspectors 
back, the Iraqi government turned the argument around by claiming that 
the inspectors' job is to disarm Iraq and leave it defenseless against 
an American strike. Since the inspectors are charged only with 
dismantling weapons of mass destruction and their facilities, this was 
an admission that Iraq may possess these weapons and also an implied 
threat that facing an invasion it might use them.
    Iraq is currently the country with the most extensive experience in 
the use of chemical weapons (CW). Its extensive use of these weapons 
and biological toxins during the war with Iran and against its own 
Kurdish population provided the Iraqi government with a huge database 
of information about the effectiveness and strategy of use of each of 
these agents. The two tests of dirty bombs carried in Mohammediyat in 
1988, though were inconclusive as to their effectiveness in a war 
setting, provided Iraq with extensive design and testing experience in 
this area, probably the only Middle East country to do so in the last 
two decades. This provides Iraq with another tool for possible use in a 
terrorism setting. The recent defector reports of purchases of Russian 
radioactive materials through an African country re-enforces Iraq's 
intents in this direction.
    It is understood that CBW use is mainly intended to create a terror 
situation in the targeted area. Any lethality that can be achieved 
using CBW can be surpassed by conventional means. But the effects are 
not the same. The Iranian attackers who showed no hesitancy in facing 
all the fire Iraq can muster were terrified of the limited CBW Iraq 
used at the time. The Iraqi port of al-Fao was occupied by Iranian 
forces that repelled many conventional attacks, but collapsed easily 
under the continuous flow of CW that was thrown at them in the closing 
days of the war with Iran. The same goes for the Kurds who fought with 
incredible bravery against the Iraqi armed forces but ran away in 
terror to Turkey and Iran when the Iraqi armed forces approached after 
the Gulf war fearing the use of CW after the Halbja massacre.
    Iraq's use of these weapons included also the threat of use to 
prevent an attack. Thus Saddam's government firmly believes that it 
thwarted a second Israeli strike against its nuclear installations in 
1990 when Saddam threatened to ``burn half of Israel using the binary'' 
(chemical weapon.) Thus a firm belief in the utility and effectiveness 
of these weapons by Saddam's government emerged to present an option 
that the regime believe that it cannot survive without. The WMD option 
is firmly believed to be the reason behind not losing the war with Iran 
and preventing further strikes by Israel, and if the Americans have not 
interfered would have helped in quelling the Kurdish uprising.
    Iraq built its own WMD technologies indigenously with some foreign 
help. Saddam understood that his main assets were not the equipment but 
his scientists and engineers. Thus Saddam's government kept a tight lid 
on its science and engineering military teams at the same time it 
allowed UNSCOM and the IAEA to demolish most of its weapons production 
sites. That these science and engineering teams were capable was made 
manifestly clear in the aftermath of the Gulf war. Within less than a 
year these teams rebuilt successfully most of Iraq's services 
infrastructure. These included rebuilding the destroyed control rooms 
of the power stations, the major telephone exchanges and oil 
refineries. Elated by their success Saddam kept these teams as 
contracting entities to the government for the civilian sector with a 
much reduced load and assigned them the rebuilding of the needed 
facilities for the WMD program. This provided them with a cover of 
civilian contractors with actual work to prove it but at the same time 
their WMD work continued unhindered. Thus the computer we used for the 
nuclear weapon design is now located in a hospital in Saddam city at 
the outskirts of Baghdad. If an inspector should arrive at the site he 
or she will be shown contracts for the civilian sector. The only 
indication that things are not what they seem is that it is headed by a 
man who worked extensively on the Iraqi NW design and that most of his 
staff are former workers in Group Four the Iraqi nuclear weapon team. 
Legally and according to the current mandate of UNMOVIC, the new UN 
inspection body, the burden is on the inspectors to prove otherwise. 
Thus Saddam has managed from the experience of the last eleven years to 
create the perfect cover. In effect it turns the whole Iraqi science 
and engineering enterprise into a giant weapon making body. And since 
they do actually accomplish civilian tasks, the economic burden on the 
government is minimized. Thus Saddam not only used the international 
markets to import dual use items under false pretenses, he created for 
the first time in the third world dual use engineering teams.
    Unlike the UN, Saddam valued his people more than the equipment. 
And while initially the UN teams concentrated on destroying equipment 
and facilities Saddam kept tight control over his scientists and 
engineers. Thus defections were kept to a minimum. This was helped by 
well publicized cases of defectors seeking help and were turned down. 
One of them got killed in Jordan by Iraqi agents while waiting for the 
U.S. Embassy to grant him an entry visa. Not a single high level 
defector left the regime since the botched defection of Hussein Kamel, 
Saddam's son in law, to Jordan in 1995. This kept the information flow 
out of Iraq to a minimum increasing the opacity of the WMD programs.
    German Intelligence (the BND) has been the only major Western 
intelligence service to provide assessments of the Iraqi WMD programs 
openly. Though flowed in some minor details it provides a broad outline 
of the clandestine Iraqi activities in the WMD and missiles areas. As a 
minimum it generated a large database on Iraqi purchases from Germany 
and other countries that when put together with defector and other 
information can present a credible assessment of the current and future 
threats of the Iraqi programs. These may be summarized as follows:

          (a) Iraq is well into CW production and may well be in the 
        process of BW production.

          (b) With the more than 10 tons of uranium and more than one 
        ton of slightly enriched uranium in its possession Iraq has 
        enough to generate the needed bomb grade uranium for three 
        nuclear weapons by 2005.

          (c) Iraq is using corporations in India and other countries 
        to import the needed equipment for its programs, then channel 
        them through countries like Malaysia for shipment to Iraq. 
        Germany already blacklisted some of these corporations for 
        violating the sanctions imposed on Iraq.

          (d) Iraq is importing directional control instruments for its 
        missiles of much higher precision than those needed for the 
        allowed 150km missiles under UN sanctions. Thus Iraq is gearing 
        to extend the range of its missiles to easily reach Israel.

          (e) The type of equipment imported indicate that Iraq is in 
        the process of creating its own foundation for the production 
        of needed materials thus avoiding detection if these materials 
        are on the watch list of the exporting countries. Following 
        this logic Iraq is or will be able to produce its own growth 
        media for the biological weapons program and many of precursors 
        for its CW program. The same can be said for local uranium 
        production from phosphates. This removes many limitations on 
        production and allows Iraq to accelerate its output.

    Iraq realized that CBWs are more instruments of terror than they 
are of war. A real deterrence is the nuclear weapon option. Realising 
that a few nuclear weapons are not a serious deterrence because of the 
need for testing, it configured its program to generate its own 
materials for the nuclear core. Thus the plan that was set in 1982 
targeted a 100 kg (220 lb) of bomb grade uranium a year. This is 
equivalent to 6 implosion or two gun type bombs a year. With a worked 
out design for the implosion option Iraq planned on being a major power 
in the region through its nuclear arsenal. Thus under this program Iraq 
was not much interested in purchasing the materials needed for the 
nuclear core through its extensive black market network. However under 
threat the situation did change. After the invasion of Kuwait Iraq 
embarked on a crash program to make one nuclear bomb using the French 
supplied fuel at its disposal. This option, now declared by the Iraqi 
government was dropped only after it was made clear that the uranium 
extraction capabilities were not good enough to achieve enough 
materials for one bomb. Recent defections indicate that Iraq is seeking 
actively all kinds of nuclear materials. It is also active in seeking 
the needed components to accelerate its uranium enrichment program.
    With the a workable design and most of the needed components for a 
nuclear weapon already tested and in working order, Iraq is in the 
final stages of putting together its enrichment program to enrich 
enough uranium for the final component needed in the nuclear core. Thus 
Iraq's nuclear achievement when it happens, together with its history 
of use of its available WMD will turn it into a serious threat to U.S. 
interests in the region. Serious punishment (regime change) will be 
largely discounted. Iraq's posturing, aggressiveness and harassment of 
unfriendly regimes will increase considerably. The window of 
opportunity to abort this option before it happen is closing down 
possibly within the next two to three years, after that a change of 
regime will be a much costlier prospect.
    The inspection regime in Iraq had a mixed history. The 
International Atomic Energy Agency (IAEA), the UN body charged with 
ensuring that nuclear facilities are not used for nuclear weapons 
production failed completely in its task with regards to Iraq before 
the Gulf war. The IAEA remains basically a weak organization beset by 
its international composition and the multiple loyalties of its 
workers. Within its sphere it is quite successful in accounting for and 
keeping tab on the essential components of the nuclear fuel cycle and 
its utilization over the globe. But it has limited latitude with the 
states and works best in a cooperative and amiable environment. Against 
determined states such as Iraq it is at a great disadvantage. Thus it 
failed again after the Gulf war when it declared early that it took 
care of basically all of Iraq's nuclear program. It took the defection 
of Kamel, Saddam's son-in-law to force the Iraqi government to declare 
the actual scope of its nuclear weapons program and forced the 
inspectors to start all over again in unraveling what has not been 
declared before. Thus while it managed to dismantle a large part of the 
Iraqi nuclear program it was at a loss by the time the inspectors left 
in 1998 as to the whereabouts of many of the important figures in the 
program. The new Iraqi policy of giving up some of the equipment but 
keeping the working teams intact was beyond the inspectors mandate. 
There was nothing they could do to prevent the Iraqi teams from 
rebuilding what was destroyed.
    Iraq is actually quite open about its intents and goals. It refused 
to promulgate laws that make it illegal for its citizens to work in the 
area of WMD as was required by UN resolutions. It also refuses to 
accept the limitations imposed by sanctions declaring them to be 
illegal. Thus as stated by the former Iraqi ambassador to the UN, Nizar 
Hamdoun, Iraq is not going to impose sanctions on itself. This is 
forced on Iraq and as such the Iraqi government is not bound by its 
terms. Policing what Iraq imports is a problem for the UN and not the 
Iraqi government.
    If the inspectors go back now there is very little human 
intelligence that will help them locate the new weapons sites. Spread 
widely among the government infrastructure in smaller hard to detect 
units, the inspectors will have a hard time locating all the programs 
components. A recent defector with credible information asserted that 
all units are built with a backup. If one is detected or is in danger 
of discovery all activity is immediately transferred to the back-up 
facility.
    The new UNMOVIC inspection body does not have the support and free 
hand UNSCOM enjoyed. With Russia and other states that favor removing 
sanctions keeping the pressure, the onus is now on the inspectors to 
prove that Iraq is in violation. Not finding a smoking gun after a 
series of inspections is all that the Russians and the French need to 
declare--that the U.S. has no case and sanctions must be lifted. The 
U.S. case will be considerably weakened and more voices will rise 
against the U.S. Iraqi policy as baseless. This is a danger that must 
be carefully examined before inspection terms are allowed back in 
possibly to divert an invasion.
    The claim that the U.S. needs a smoking gun to prove that Iraq is 
in violation of its commitments regarding WMD discounts all the past 
experience in dealing with Iraq.
    Many voices declared that Iraq was not pursuing nuclear weapons 
before the Gulf war. This included the IAEA that declared Iraq clean in 
many statements. This happened even after the German publication Der 
Spiegel reported Iraq's successful attempts to acquire classified 
uranium centrifuge enrichment technology from Germany. However the U.S. 
knew better and used the Gulf war setting as a way to dismantle Iraq's 
nuclear weapons program. But the dismantling process ignored the 
knowledge base acquired over the years that can be used easily to 
rebuild what was destroyed. A similar insistence on proof before taking 
serious action will be allowing Saddam to achieve his goals 
unchallenged.
    With no large easily distinguishable nuclear sites and little or no 
human intelligence it is difficult to see how any measure short of a 
regime change will be effective. Saddam is totally indifferent to the 
human suffering of his people, and with his threats of reprisals 
against the families of WMD workers has managed to stop defections 
among its personnel despite the fact that a large number of Iraqis from 
other walks of life managed to escape. With a Soviet style economy that 
is basically geared toward war and its requirements, Iraq is currently 
the only Arab state that all the Arab extremists look at as the future 
challenger to Israel and U.S. interests in the region. Thus if Saddam 
makes it in the nuclear arena he will be the region's undisputed leader 
in Arab eyes. It will then be much harder to agree on the needed 
concessions for a peace process and a viable peace will be impossible 
to achieve under any terms. Saddam has used and will continue to use 
the Palestinian issue to rally the Arabs around him as he did when he 
used the Arab leaders meeting in Baghdad to challenge the peace treaty 
of Egypt with Israel that President Sadat agreed to.
    Limiting Iraq's access to technology is bound to fail in the end. 
The U.S. cannot police the transfer of technology in the age of the 
Internet and the widening of the science base all over the globe. 
Perversely, limiting sales of high technology equipment created 
financial difficulties for many high tech companies and scientists and 
made them an easy target for countries like Iraq. Lawyer Michael Rietz 
who represented three of the main German exporters of technology and 
know-how to Iraq tells a sobering tale. One of his clients, Karl Schaab 
sold the blue prints for the uranium enrichment centrifuge to Iraq for 
a mere forty thousand dollars. He also provided more than a hundred 
classified reports in the deal. He provided 36 high tech carbon fiber 
rotors for the centrifuges for a million dollars. Iraq's investment to 
buy technology this way was much cheaper than developing it themselves. 
Dietrich Hinze provided flow forming machinery to make missile shells 
and gave away half ownership of his company to Iraq all for less than 
20 million dollars. He also taught the Iraqis how to use the equipment. 
Locally he was so much admired for bringing business to his small town 
in Germany that he was honored with a statue in a main location in 
town. All those represented by Rietz were more or less sentenced for 
time served and released though they all pleaded guilty. Actually 
according to Rietz, one of the men working for the German Federal 
Export Agency, Dr. Welzien, opened a consulting business charging very 
high rates to German companies for advising them on how to use 
loopholes in the German export laws to expedite making some 
questionable exports, and it is legal. With Europe no longer in an 
accommodating mood Iraq shifted its purchasing bases to India and 
Malaysia among others. Thus technology transfer restrictions, which 
failed in the past to limit advances in the Soviet Union's weapons 
programs are failing again in limiting access to weapons technology as 
was demonstrated by India, Pakistan and now Iraq and possibly Iran. 
Another failure for the policy of containment.
Iraq and terrorism
    Saddam Hussein has a long history of involvement in international 
terrorism. From assassinations of Iraqis abroad in the seventies and 
eighties, to support for radical anti-western groups in the eighties 
and nineties, to links with Islamic fundamentalists today, his track 
record speaks for itself.
    Always the opportunist, he has used the biannual Islamic 
Conferences held in Baghdad since the 1980s as a recruiting ground for 
Islamic radicals from around the Muslim world. A former Iraqi 
intelligence officer now in Europe has described how he would dress as 
a cleric and approach Islamists from key countries to put on the Iraqi 
payroll for ``special operations.'' He was tasked to recruit 
Pakistanis, Indonesians and Malaysians while other officers 
concentrated on Palestinians and Arabs.
    We know from credible sources that Osama Bin Laden was a frequent 
visitor to the Iraqi embassy in Khartoum when Bin Laden was a resident 
of the Sudanese capital until 1996. It is no coincidence that Khartoum 
is one of the Iraqi Intelligence Service's largest foreign stations.
    It has also been confirmed that the Iraqi ambassador in Turkey, 
Farouk Hijazi, traveled to Afghanistan and met Bin Laden in December 
1998. It is revealing to note that prior to being appointed ambassador 
in Ankara, Hijazi was head of foreign operations for the Iraqi 
Intelligence Service. Incidentally, this same Hijazi, who was hurriedly 
pulled out of Ankara on September 29, 2001, has recently resurfaced as 
Iraq's ambassador in Tunisia.
    There have been several confirmed sightings of Islamic 
fundamentalists from Egypt, Saudi Arabia and the Gulf states being 
trained in terror tactics at the Iraqi intelligence camp at Salman Pak, 
20 miles south of Baghdad on the Tigris River, Three former 
intelligence officers have reported that they were surprised to find 
non-Iraqi fundamentalists undergoing training at the facility. The 
training involved assassination, explosions, and hijacking. All three 
reported that there is a fuselage of an old Tupolev 154 airliner used 
for hijack training. This was later confirmed by satellite photographs.
    Iraq's conventional military capability has been considerably 
degraded since the Gulf war. Part of the drive to build larger WMD 
stockpiles is to make up for this depletion in military capability. 
Iraq now has practically no airforce, a much degraded air defense 
system and practically no new tanks, heavy artillery or armored 
vehicles. What is left functioning from the Gulf war arsenal is 
basically in the hands of the Special Republican Guard and the rest of 
armed forces are basically armed with light weaponry. With a highly 
corrupt officers corps the Iraqi army suffers from a large number of 
absenteeism, poor or nonexistent medical care, pilfered rations and 
little or no pay to the conscripts. Pay and rations are usually split 
among the officers and party members. It is estimated that Iraq has no 
more than a quarter of the firepower it possessed at the onset of the 
Gulf war. With the original Baath party members mostly murdered or in 
jail, Saddam's government now is purely a personal dictatorship of 
Saddam and his clan. The original rhetoric of the Baath party no longer 
carry any weight with the population. Thus the army that surrendered to 
the American forces in droves in Gulf war is now in an even worse shape 
and would regard an American invasion as a welcome liberation army. 
American inspectors and media personnel who visited Iraq were surprised 
by the friendliness and lack of rancor of the population toward 
Americans. This is in contrast to the image of the Americans as 
evildoers that Saddam was trying to project in all his speeches.
    Iraq's WMD are under the control of the Special Security 
Organization (SSO). This is the same group that is charged with 
Saddam's security. This feared and ruthless organization is mainly 
composed of conscripts from Saddam's hometown and very loyal tribes in 
adjacent areas. They have an observer in all major military meetings 
and they are present at the headquarters of all division commanders and 
they report directly to Saddam's younger son Qussey. Any operation to 
disrupt the central authority of the Iraqi command structure and 
especially the handling and deployment of weapons of mass destruction 
must target this organization. Precision bombing and strict enforcement 
of a no drive zones should eliminate most of if not all the dangers of 
Saddam possibly using his CBW. Past defections from this pampered group 
indicate that it is not as tightly controlled as was earlier thought 
and defection rate may increase considerably when faced with an 
imminent invasion.
    Iraq is now at one of the lowest points in its history. Saddam 
managed to destroy its middle class and its hope in a viable future. 
Millions of Iraqis are believed to have left the country since the Gulf 
war taking with them most of its professional class. With no future to 
look forward to Iraqis will welcome an American invasion with open 
arms. With a long history in government and a large bureaucracy it will 
not revert to the situation in Afghanistan now. The Kurds promised to 
rejoin the rest of Iraq under a coalition government. And above all if 
a democracy is established and nurtured in Iraq it will be a turning 
point in the region's history.

    The Chairman. Thank you very much, doctor.
    Professor Cordesman.

  STATEMENT OF PROF. ANTHONY H. CORDESMAN, SENIOR FELLOW AND 
 ARLEIGH A. BURKE CHAIR IN STRATEGY, CENTER FOR STRATEGIC AND 
             INTERNATIONAL STUDIES, WASHINGTON, DC

    Professor Cordesman. Thank you, Senator.
    Let me begin with a caveat. It is very easy to be arrogant 
about trying to predict a war that no one has ever fought in 
the face of the kind of information you can obtain from 
unclassified sources. And I think it is very dangerous to make 
quick sweeping generalizations about the military capabilities 
of Iraq. As a result, I would like to enter into the record a 
net assessment of Iraq's capabilities--those of the United 
States and the other forces in the region--and call the 
committee's attention to that statement as something to look at 
as a reference as your hearings proceed.\1\
---------------------------------------------------------------------------
    \1\ The report can be accessed at the Web site of the Center for 
Strategic and International Studies: http://www.csis.org
---------------------------------------------------------------------------
    The Chairman. Without objection, your statement will be 
placed in the record.
    Professor Cordesman. I would like to begin with one point 
that I think needs to be made very clearly. Iraq might be a far 
easier opponent than its force strengths indicate, but it also 
is potentially a very serious military opponent, indeed. And, 
to be perfectly blunt, I think only fools would bet the lives 
of other men's sons and daughters on their own arrogance and 
call this force a ``cakewalk'' or a ``speed bump'' or a war 
whose risks you can easily dismiss.
    I see every reason for the reservation of the American 
military and the Joint Chiefs, and I think efforts to dismiss 
the military capabilities of Iraq are dangerous and 
irresponsible. These forces do have serious defects, but Iraq 
is still the most effective military power in the gulf. It 
still has active forces of over 400,000 men. It still has an 
inventory of over 2,200 main battle tanks, 3,700 other armored 
vehicles, 2,400 major artillery weapons. It still has over 300 
combat aircraft in its inventory, although perhaps less than 
half of these are truly operational. And it certainly still has 
some chemical and biological weapons.
    This is not a force that can be dismissed. It has, out of 
its 23 divisions, a core of perhaps six Revolutionary Guard 
divisions and six regular-army heavy divisions, plus some 
significant special forces which have a long record of combat 
capability and which I believe U.S. experts indicate have 
reasonable levels of manning and readiness.
    Having said that, I should note that while Iraq has a total 
of at least 23 division equivalents, probably half of these 
have only limited effectiveness manning levels as divisions of 
under 8,000 men. In the regular army, most of its units 
probably have manning levels of 70 percent or less. And, we saw 
during the gulf war that infantry units and other elements that 
were dependent on Shi'ite, Kurdish, and Turkoman conscripts or 
low-quality reservists did not fight well or with great 
competence.
    It is a fact that Iraq has had no major new arms deliveries 
in a decade. It does, however, still have 700 relatively modern 
T-72 tanks, 900 BMP series armored infantry fighting vehicles, 
and significant numbers of self-propelled artillery weapons and 
multiple rocket launchers. It has a significant number of 
modern anti-tank guided weapons, and it can still operate a 
significant number of attack helicopters and a large number of 
utility helicopters.
    At least in urban warfare, the fact that there are nearly 
120,000 other men in the security, border, and other 
paramilitary forces has to be taken into careful account. And 
the Special Republican Guard units and some Republican Guard 
units themselves, plus Saddam's bodyguards, are trained for 
urban warfare.
    The Iraqi air force is certainly a weak link. Out of the 
300-odd combat aircraft, they can often fly very intensive 
sortie raids, but there are no signs of meaningful training for 
air combat or air-to-ground combat of or organized use of air 
forces in effective ways. The air force performed badly during 
the Iran-Iraq war. It performed only minimally during the gulf 
war.
    It is also an air force without modern intelligence, 
surveillance, and reconnaissance assets without modern 
electronic warfare capabilities as airborne assets. It is not 
an air force which perhaps can do more than fly limited 
penetration raids, and those would only be meaningful if it 
used weapons of mass destruction.
    I would be more careful about Iraq's surface-based air 
defenses. It has no modern surface-to-air missiles, nothing 
like the S-300 or S-400 series. Its basic force structure is 
dependent on SA-2s, SA-3s, and SA-6s, which date back in design 
to the 1960's. But it has one of the most dense air-defense 
networks around its urban areas and populated areas in the 
world, much more dense than any around Hanoi at the time of the 
Vietnam war.
    Iraq has made real progress in many areas of its command 
and control. It has deep buried shelters, an excellent 
survivable communication system. It has learned to adapt to 
things like anti-radiation missiles. It uses tactics like pop-
up and remotely linked radar activity, decoys, ambushes, 
deployments in civilian areas, and it was sufficiently 
effective to have advised Serbia at length during the fighting 
in Kosovo. And I think anyone in the U.S. military would say it 
had considerable success. It is a reality that this system can 
probably be suppressed, but will survive, and we have learned 
that to our cost since Desert Storm.
    While sanctions have cutoff arms imports, Iraq maintains a 
very significant import network which it uses for the weapons 
of mass destruction, as has been described by Ambassador Butler 
and Dr. Hamza. The only really disturbing aspect of this that 
has been made public is an increasing flow of weapons out of 
Eastern and Central Europe through Syria. This flow is known to 
have included engines for MiG aircraft, new tank engines, and 
equipment for the land-based air defenses, plus spare parts. At 
this time, however, I suspect that it has had only limited 
impact on the overall readiness of Iraqi forces.
    The thing that would bother me most is not whether we can 
win, but whether we are honest about the intangibles in this 
war in Iraqis' military capabilities. And let me just mention a 
few of those very quickly. It is easy to talk about the 
unpopularity of the regime and to assert that units are not 
reliable. People did that throughout the Iran-Iraq war, and 
they were wrong virtually every time. We did not see mass 
defections in the gulf war until Iraq forces came, under 
intense pressure. The Republican Guard units and the heavy 
divisions retreated in good order.
    We talk about tyranny and repression, violence is part of 
this regime, but so are incentives and bribery. It is 
impossible to know who will take these bribes and incentives 
seriously. Saddam has been in power during the entire life of 
some 80 percent of the Iraqi people. To say that he has had no 
impact, that he does not have loyalty, that there are factions 
that will not follow him, is reckless and dangerous. Uprisings 
can be meaningful in some areas. But uprisings are very 
unlikely in the core areas of Saddam's strengths--Baghdad, 
Tikrit, and the cities in the center--and urban warfare is a 
dangerous and uncertain structure.
    We do not know whether he has reduced the rigidities of his 
command. It seems very doubtful, and that does mean that the 
possibility of striking at the core of his power and ignoring 
the flanks is a possibility.
    I should also note, when I talk about urban warfare, that 
it is one thing to train for urban warfare with the kind of 
training the Iraqis get, and quite another to actually fight 
it. They did not do well during the Iran-Iraq war in this area. 
At the same time, their ability to use decoys, human shields, 
to use civilian buildings as cover, is a well-proven 
capability. And our precision air power did not, even in 
Afghanistan, demonstrate the ability to strike with such 
precision that you will not inflict significant civilian 
casualties and collateral damage.
    Iraq's combat engineering is good. I leave it to other 
witnesses to comment on the quality of our bridging and water-
barrier crossing capabilities. But one uncertainty here is 
whether it could use its helicopter mobility at all, and we 
have great helicopter mobility. The problem is not whether we 
can suppress their air defenses, but how long it will take and 
what cost. And certainly over Baghdad, without stealth, we 
could face serious limits.
    We do not really know how cohesive their maneuver 
capability can be in the face of our air power. And the ability 
to bring units together and concentrate in one area to deal 
with limited U.S. attacks could be critical.
    People talk about their capability to execute asymmetric 
warfare and their support of terrorism. I think this is an area 
where the committee should pay very careful attention to the 
American intelligence community and put little faith in outside 
reports.
    Other witnesses have commented on weapons of mass 
destruction. I want to make a caveat here, and I want to go 
back to my own experience as the one-time manager of DARPA's 
program on chemical, biological, and theater nuclear weapons. 
Very often, we confuse the ability to proliferate with war-
fighting effects. In the case of the nuclear weapons, those 
effects are fairly well known. In the case of chemical and 
biological weapons, this is not known. Very minor issues in 
engineering and in the method of delivery can affect the 
lethality of chemical and biological weapons by two orders of 
magnitude or more. That is a hundred times. And you can go, as 
was the case from anthrax with zero effect, to anthrax attacks 
with near nuclear effects, depending on how the agent is 
presented, deployed, the quality of the manufacture. It is very 
unlikely that we will know the answer to those issues until a 
war takes place. It is a certainty that Iraq lacks the 
sophistication to conduct training and testing and know the 
lethality of its own weapons in these areas before it uses 
them, an uncertainty we need to remember very carefully.
    Let me just say, in conclusion, that I do not regard Iraq's 
military strength as a massive force that can make use of most 
of its assets, but I think it is incredibly dangerous to be 
dismissive. It is very easy to send people home unused and 
alive. It is costly to send them home in body bags because we 
did not have sufficient force when we engaged. And to be 
careless about this war, to me, would be a disaster.
    I am reminded of a quote about 2,000 years old by Pliny the 
Elder, ``Small boys throw stones at frogs in jest, but the 
frogs do not die in jest; the frogs die in earnest.'' This is 
not a game, and it is not something to be decided from an 
armchair.
    Thank you.
    [The prepared statement of Professor Cordesman follows:]

  Prepared Statement of Prof. Anthony H. Cordesman, Senior Fellow and 
     Arleigh A. Burke Chair for Strategy, Center for Strategic and 
                         International Studies

    Any effort to provide an assessment of Iraq's military capabilities 
involves a wide range of challenges. The uncertainties and 
``intangibles'' affecting any assessment of Iraq's military 
capabilities--and any war that has not yet been fought--are at least as 
important as the hard data on its force strength and order of battle.
    There is reason for modesty in any form of military analysis, and 
above all in speculating about future wars. The proper rules for such 
analysis were laid out over two millennia ago by Thucydides in writing 
his ``History of the Peloponnesian War,'' (c. 420 BC): ``. . .I did not 
even trust my own impressions, but it rests partly on what I saw 
myself, partly on what others saw for me, the accuracy of the report 
being always tried by the most severe and detailed tests possible.'' 
These are tests no one can meet in talking about Iraqi ability to fight 
a war that has not happened.
    I have been asked today to talk about Iraq military capabilities, 
but this is in some ways of very limited value unless the discussion 
focuses on capabilities in a given contingency. As a result, I would 
like to submit a detailed report for the record that provides a fully 
net assessment of the possible wars that can take place, and how Iraq 
might fare against given threats and opposition forces.
    I would also note that in some ways we are already at war. Iraq has 
been involved in a political struggle against the U.S. and its 
neighbors ever since the ceasefire in the Gulf War that is an extension 
of war by other means. The course of this ``war of sanctions'' can 
sharply alter its military capabilities over time. While current 
attention focuses on U.S. military efforts to overthrow Saddam 
Hussein's regime, Iraq may become involved in a wide range of 
conflicts, many of which may take on a number of different forms and 
become asymmetric in character. Iraq's continuing efforts to develop 
weapons of mass destruction and advanced delivery systems compound both 
the uncertainties in assessing its military capabilities, and the 
uncertainties as to how it would behave in given contingencies.
    Nevertheless, a great deal is known about Iraq military 
capabilities and probable behavior, as well as about the military 
capabilities and behavior of its potential enemies. The list of 
potential contingencies is limited and there are often severe 
constraints on the options available to Iraq and its opponents. As a 
result, it is possible to make educated ``guesstimates'' as to Iraq's 
capabilities relative to most key scenarios, and about the strengths 
and weaknesses of its position in most contingencies.
                     iraq's current military forces
    It is relatively easy to estimate the total size of Iraqi military 
forces, and to comment in broad terms on their capabilities. Although 
Iraq's forces have many serious defects, Iraq remains the most 
effective military power in the Gulf, despite the Gulf War, and the 
loss of some 40% of its army and air force order of battle. Iraq still 
has armed forces with around 424,000 men, and an inventory of some 
2,200 main battle tanks, 3,700 other armored vehicles, and 2,400 major 
artillery weapons. It also has over 300 combat aircraft with potential 
operational status.\1\ As weak as many aspects of Iraq's forces may be 
it is a major military power by regional standards and has at least 
some chemical and biological weapons. Iraq must be taken seriously both 
in regional terms and in any military effort to overthrow the regime of 
Saddam Hussein.
    The International Institute of Stategic Studies estimates that the 
Iraqi army still can deploy some 375,000 men, organized into seven 
corps, with two Republican Guard corps and five regular army corps. 
These forces include six Republican Guard divisions (3 armored, 1 
mechanized, and 2 infantry) plus four Special Republican Guard 
brigades. The regular army has some 16 divisions, and while 11 are 
relatively low-grade infantry divisions, 3 are armored divisions and 3 
are mechanized divisions. The regular army also has five commando and 
two special forces brigades.
    While these units lack modern training and the regular army units 
are heavily dependent on conscripts, over one third are full time 
regulars or long-service reservists, U.S. experts estimate that Iraqi 
divisions differ significantly by unit, but have an average authorized 
strength of about 10,000 men, and that about half of the 23 Iraqi 
divisions have manning levels of around 8,000 men, and ``a fair state 
of readiness,'' Although at least half of the regular army has manning 
levels of about 70% of authorized strength or lower, and some infantry 
units have very poor manning levels, and are heavily dependant on 
Shi'ite, Kurdish and Turkoman conscripts.
    Republican Guard Divisions have an average authorized strength of 
around 8,000 to 10,000 men, and seem to average at least 80% of 
authorized strength. Brigades average around 2,500 men--the size of a 
large U.S. battalion.\2\ Both sets of estimates give Iraq a total 
force, today, of approximately 20-23 division-equivalents, versus 35-40 
division-equivalents in the summer of 1990, and 67-70 division-
equivalents in January 1991--just before the Coalition offensives began 
in the Gulf War.\3\ Iraqi manning levels are, however, uncertain. There 
are many reports of badly undermanned units, but Iraq has also carried 
out a number of reserve call ups in 2002.\4\
    The Iraqi Army relies on large numbers of combat-worn and 
obsolescent weapons, but it does have some 700 relatively modem T-72 
tanks, 900 BMP-series armored infantry fighting vehicles (AIFVs), 150 
self-propelled artillery weapons, and 200 multiple rocket launchers. It 
has extensive stocks of AT-3, AT-4, Milan, and High-subsonic Optically 
Teleguided (HOT) antitank guided weapons, and roughly 100 attack and 
275 utility/transport helicopters. The mobile elements of Iraq's 17,000 
man Air Defense Command can deploy large numbers of manportable 
surface-to-air missiles, plus SA-7, SA-8, SA-9, and Roland vehicle 
mounted surface-to-air missiles. Iraqi logistics are weak, subjecgt to 
political controls to prevent coup attempts, and limited by sanctions 
that have prevented most arms imports for over a decade. Iraqi combat 
engineering and bridging however, is good.
    Iraq also has extensive internal security and paramilitary forces. 
The entire police and law enforcement system performs internal security 
functions, and there are parallel internal security services with units 
in virtually every town and city. The Republican Guard and Special 
Republican Guard units are specially trained for urban warfare and 
security operations, as well as conventional military operations, and 
there are three paramilitary forces. The security troops have some 
15,000 men, the border guards around 9,000, and Saddam's Fedayeen 
consist of 18,000 to 20,000 men.
    The Iraqi Air Force has around 30,000 men. It still has some 316 
combat aircraft, although only about 50-60% are servicable. Senior 
pilots still fly 60-120 hours a year depending on the aircraft, but 
junior pilots fly as few as 20.
    The IISS estimates that the air force has 6 obsolete H-6D and Tu-22 
bombers, and 130 attack aircraft. These include Mirage F-1EQs, Su-20s, 
40 Su-22s, 2 Su-24s, and 2 Su-25s. Iraq still has extensive stocks of 
short-range air-to-ground missiles and cluster bombs. It also has 180 
air defense fighters, including 12 MiG-25s, 50 Mirage F-1EQs, and 10 
MiG-29s, plus 5 MiG-25 reconnaissance aircraft. Additionally, the air 
force has extensive stocks of MiG-21s, training aircraft, and drones, 
and has experimented with using them as unmanned aerial vehicles (UAVs) 
and unmanned combat aerial vehicles (UCAVs). It stlll has 2 IL-76 
tankers and large numbers of transport aircraft.
    Jane's provides a different estimate with the following key combat 
types; the number estimated to be in service are shown in parenthesis: 
40(0) F-7, 30 (13) Mirage F-1EQ, 36 (15-25) MiG-21, 35 (15-20) MiG23, 6 
(3-6) MiG-25, 17 (1) MiG-29, 33 (15-18) Su-20/22, 21 (6-11) Su-25, 2 T-
22, and 3 Tu-16.\5\
    Air Force air-to-air and air-to-ground training is limited and 
unrealistic. In the past, command and control has been over-centralized 
and mission planning has often set impossible goals. The two No Fly 
zones have further limited air training and comat experience. There are 
no modern airborne sensor, command and control, or intelligence 
capabilities, other than a small number of UAVs. Air control and 
warning is still heavily dependent on outdated ground-based intercept 
capabilities. The Air Force has, however, practiced penetration raids 
by single low-flying aircraft, and has shown that it can conduct 
independent offensive operations at the small formation level.
    The heavy surface-to-air missile forces of the Air Defense Command 
are still organized into one of the most dense defensive networks in 
the world. There are four regional air defense centers at Kirkuk 
(north), Kut al Hayy (east), Al Basra (south), and Ramadia (west). 
Major command facilities are underground and hardened. Additionally, 
there is a network of redundant radars and optical fibre command links. 
Reports differ over the extent to which China has helped Iraq create a 
modern and highly survivable optical fibre command net. There are 
unconfirmed reports of more modern radars being smuggled in from the 
Ukraine.
    The system is backed by extensive low-altitude anti-aircraft (AA) 
guns, and SA-8b, SA-11, and SA-13 short and medium range missiles. The 
Sterla 2 and 10 (SA-7 and SA-1O) are used for terminal defense of key 
buildings. Iraq has learned to rapidly move its fire units and sensors, 
use urban cover and decoys, use ``pop-on radar'' guidance techniques, 
and optical tracking. Its mix of SA-2s, SA-3s, and SA-6s is badly 
outdated, but some modifications have been made.
    Iraq has learned a great deal about land-based air defense 
operations from the Gulf War and more than ten years of operations 
against the U.S. and British aircraft enforcing the ``No Fly Zones.'' 
Iraq provided significant aid to Serbia in air defense tactics during 
the fighting in Kosovo, and helped Serbia make effective use of decoys, 
``pop-on'' and remotely linked radar activity, various ambush tactics, 
and the use of deployments in civilian areas to limit NATO will 
ingross.
    Iraq is certain to have developed contingency plans to move and 
disperse its land-based air defenses in the event of a major U.S.-led 
attempt to overthrow the regime, and to try to concentrate such 
defenses to protect the regime and try to use them to partially 
compensate for the lack of an effective Iraqi Air Force.
    To strike, Iraq has developed some countermeasures to U.S. anti-
radiation missiles since the Gulf War, and has recently begun to get 
significant equipment through Syria.
    The 2,000 man Iraqi Navy has never been an effective force and was 
devastated during the Gulf War. It now has only 6 obsolete Osa and 
Bogomol guided missile patrol craft, and three obsolete Soviet inshore 
minesweepers. Iraq does, however, retain all of the shore-based 
Silkworm and other anti-ship missiles it had at the time of the Gulf 
War, and extensive stocks of mines--some of them relatively modern and 
sophisticated. (The U.S. never succeeded in targeting land-based Iraqi 
anti-ship missiles during the Gulf War, and the U.S. and British Navies 
entered Iraqi mine fields without detecting their presence.)
    It is difficult to generalize about Iraqi forces where each land 
and air unit has such different levels of effectiveness and where 
political and internal security considerations are so important 
however, Iraq has demonstrated that it can still carry out significant 
ground force exercises and fly relatively high sortie rates. It has 
not, however, demonstrated training patterns that show its army has 
consistent levels of training, can make effective use of combined arms 
above the level of some individual brigades, or has much capability for 
joint land-air operations. It also has not demonstrated that it can use 
surface-to-air missiles in a well-organized way as a maneuvering force 
to cover its deployed land forces.
    Sanctions and the impact of the Gulf War have also had a major 
impact on Iraqi war fighting capabilities. Iraq has not been able to 
fund and/or import any major new conventional warfare technology to 
react to the lessons of the Gulf War, or to produce any major 
equipment--with the possible exception of limited numbers of Magic 
``dogfight'' air-to-air missiles. Iraq's inability to recapitalize and 
modernize its forces means that much of its large order of battle is 
now obsolescent or obsolete, has uncertain combat readiness, and will 
be difficult to sustain in combat. It also raises serious questions 
about the ability of its forces to conduct long-range movements or 
maneuvers, and then sustain coherent operations.
    Iraq has, however, maintained much of the clandestine arms 
purchasing network that it set up during the time of the Iran-Iraq War. 
It has prior experience in buying from some 500 companies in 43 
countries, and has set up approximately 150 small purchasing companies 
or agents. Intelligence experts feel that Iraq also has an extensive 
network of intelligence agents and middlemen involved in arms 
purchases. Iraq has probably obtained some air defense equipment from 
countries like the Ukraine and China, and may have been able to smuggle 
in some spare parts through Syria, Turkey, and Jordan.
    Deliveries through Syria have become significant since mid-2001, 
and include parts and weapons assemblies for MiG and Shukoi aircraft, 
armor, and land-based air defenses. Nevertheless, Iraq has not been 
able to restructure its overall force restructure to compensate for its 
prior dependence on an average of $3 billion a year in arms deliveries. 
It has not visibly deployed any major new weapon system since 1991, or 
been able to recapitalize any aspect of its force structure.
                       key problems in assessment
    Wars and battles are rarely decided by ``tangible'' factors, like 
manpower and equipment numbers, quantifiable aspects of sustainability, 
or other measures of effectiveness. One historical case after another, 
shows the real world outcome of war has been determined by 
``intangibles,'' where various experts differ sharply over the relative 
capability of each side. Today some experts find it very easy to assert 
that Iraq's major combat units will fight with loyalty and 
determination because of their privileges, dependence on the regime, 
and nationalism. Others find it equally easy to assert that Iraqi 
forces they will rapidly collapse or defect because the regime is an 
unpopular tyranny.
    In practice, Iraq's performance in past wars has shown that many 
aspects of its military behavior cannot be predicted until a war 
starts, and that these uncertainties interact with the uncertainties 
affecting any predictions about the military performance of Iraq's 
opponents. The following ``intangibles'' and uncertainties regarding 
Iraqi warfighting capability affect any dynamic net assessment of Iraq:

  <bullet> Real world popularity and unpopularity of the regime among 
        the various elements of the armed forces and in areas of 
        military operations. Loyalty may vary across different force 
        elements, such as Republican Guard, Special Republican Guard, 
        regular army with regular manning, and regular army with 
        largely conscript manning.

  <bullet> Real-world impact of repression and tyranny versus 
        incentives, nationalism, and propaganda in determining popular 
        support for the regime or active opposition. The impact of 
        issues like ethnic divisions, UN sanctions and the oil for food 
        program, and backlash from the Second Intifada.

  <bullet> Willingness of various Kurdish factions to participate in a 
        conflict or ride one out; loyalty of various Shi'ite elements 
        versus uprisings and resistance.

  <bullet> Efficacy of the regime's bribes and incentives in buying 
        loyalty.

  <bullet> Impact by combat element of more than 10 years without open 
        access to world arms market, along with limited discretionary 
        funding for force maintenance and modernization; and limited 
        ability to smuggle in parts, weapons, and munitions.

  <bullet> Uncertain sustainability of current stock of munitions and 
        spare parts.

  <bullet> Quality of training, and leadership experience by unit and 
        force element.

  <bullet> Reliance on a rigid logistic system, emphasizing ``flood 
        forward'' techniques to make up for a lack of response to the 
        needs of commanders and the tactical situation, by moving 
        supplies forward in large amounts, regardless of the immediate 
        need.

  <bullet> Progress in reducing the past rigidities and over-
        centralization of the command system, and its failure to allow 
        for independence of action.

  <bullet> Real-world ability to execute urban warfare and military 
        operations in built up areas; also, the ability to shelter in 
        populated areas, and use human shields, without popular 
        uprisings or action. Impact of ethnic divisions, tribal 
        loyalties, etc. in given areas.

  <bullet> Level of improvement in air operations and in ability to 
        conduct effective air-to-air and air-to-ground combat using 
        dispersed forces capable of independent operations.

  <bullet> Efficiency of dispersal techniques and human shields, plus 
        decoys and deception, in limiting the efficacy of U.S. 
        intelligence and strategic reconnaissance (ISR), targeting, and 
        air strike capabilities.

  <bullet> Ability to make effective use of water barriers and earth 
        barriers; ability to tie combat engineering to real world 
        military tactics in the face of U.S. airpower and helicopter 
        mobility.

  <bullet> Ability to effectively deploy and concentrate air defense 
        assets for tactical purposes, versus exploit largely fixed SA-
        2/ SA-3, and SA-6 system.

  <bullet> Short and medium-term wartime survivability of heavy 
        surface-to-air missile defenses.

  <bullet> Current status of joint warfare and combined arms expertise, 
        and improvement in such expertise, if any.

  <bullet> Cohesive maneuvering capability and ability to use 
        helicopters to overcome water barriers and to reinforce.

  <bullet> Since 1991, improvements in artillery tactics and methods to 
        acquire long-range targeting capabilities and manage and switch 
        fires.

  <bullet> Planning and real-world capability to execute asymmetric 
        warfare, covert warfare, and use terrorist proxies.

  <bullet> Effectiveness of the security and paramilitary forces in the 
        face of any serious popular opposition.

  <bullet> Size and effectiveness of Iraqi opposition forces, if any.

  <bullet> Size and effectiveness of current holdings of chemical, 
        biological, radiological, and nuclear (CBRN) weapons and 
        missiles, and other delivery systems. Possible possession of a 
        biological or nuclear weapon so lethal that it could inflict 
        massive damage or casualties and make a major change in the 
        level of deterrence or war fighting capability.

  <bullet> Existence of preplanned launch on warning (LOW), launch 
        under attack (LUA), and retaliatory strike capability to 
        deliver CBRN forces; deployment of covert and terrorist proxy 
        capabilities.

    It is easy to guess at--or to assert--some judgment about Iraqi 
capability in any of the above areas. It is certainly true that little 
about Iraqi military behavior since 1991 implies that Iraq will 
suddenly achieve dramatic degrees of surprise and innovation in 
military operations, however this can scarcely be ruled out, and the 
key issue in war fighting is often one of marginal or relative 
efficiency.
    In a contingency, like a U.S.-led invasion to overthrow Saddam, 
Iraq may have enough war fighting capability to require a very 
significant U.S. and allied response. In many other contingencies, the 
weaknesses in Iraqi forces may not be critical relative to similar or 
different weaknesses in Iranian and other Gulf forces.
                  iraq and weapons of mass destruction
    Iraq has a much more serious history of exploiting proliferation 
than Iran. It has seen proliferation as a counter to conventional 
superiority since the late 1960s. It sought weapons of mass destruction 
long before the Gulf War showed it what the ``revolution in military 
affairs'' and U.S. conventional superiority could accomplish. Since 
1991, Iraq has been unable to obtain significant imports of 
conventional weapons, and it is incapable of producing its own. As a 
result, it is scarcely surprising that Iraq sees proliferation as its 
key potential method of countering the U.S. advantage in conventional 
forces and has been willing to pursue such options in the face of 
massive economic costs, UNSCOM and IAEA efforts to destroy its 
remaining capabilities, and the extension of UN sanctions.
    Iraq continues to work on its Samoud ballistic missile system and 
other similar systems that supposedly have a range of less than 150 
kilometers--although none of these systems are believed to be deployed, 
and lack the range for effective strikes on most foreign cities and 
facilities. Iraq likely has at least 12-25 surviving Scud missile 
assemblies, however, and could have in excess of 40.
    UNSCOM inspectors note that UNSCOM's claims to have identified 817 
out of 819 Scud imports are extremely soft and may well have an error 
of 60 weapons, and that no accurate count exists of Iraqi produced 
components. This could give Iraq a range of 20-80 operational Scuds and 
Iraq has shown in the past that it can produce its own TEL launchers. 
Iraq also continues development work on shorter range missiles since 
missiles with ranges of 150-kilometers or less are permitted under the 
terms of the ceasefire.\6\ UNSCOM made it clear in all of its reports, 
up through the final expulsion of its inspectors from Iraq, that Iraq 
was concealing the nature of its chemical and biological weapons effort 
and had systematically lied in every major disclosure report it had 
submitted to UNSCOM from the start to the end of the inspection effort.
    In spite of the Gulf War, and nearly eight years of UNSCOM efforts 
before Iraq forced an end to the UN inspection effort, Iraq still 
presents a major threat in terms of proliferation. It is all too clear 
that Iraq may have increased this threat since active UNSCOM and IAEA 
efforts ended in December 1998. It is known to have continued to import 
precursors for chemical weapons and may have increased its holdings of 
biological growth agents. No one can dismiss the risk that Iraq does 
have weapons with very high real-world lethalities.
    Much depends on how well Iraq has organized its CBRN forces and 
weaponized its chemical and biological agents. Virtually nothing is 
known in the unclassified literature about the Iraqi process since 1991 
in this latter area, which can affect the real-world lethality of 
chemical and biological warheads, bombs, munitions, and sprayers by up 
to two orders of magnitude.
    Iraq developed effective 155-mm artillery and 122-mm multiple 
rocket rounds for the delivery of chemical weapons during the Iran-Iraq 
War and could probably modify such technology to deliver biological 
weapons. The effective use of chemical weapons armed with artillery and 
multiple rocket rounds against large enemy ground forces does, however, 
require an extensive inventory of munitions, however, even in using VX-
gas. It is unclear that Iraq could conceal the production, deployment, 
and training for an operation of this scale. The delivery of biological 
agents using such weapons would present two critical problems: The 
effects would probably only develop after the battle was over and there 
would be a serious risk of secondary effects if the agent blew back 
over Iraqi troops and civilian areas. The use of such attacks cannot be 
ruled out, however, particularly as a last extreme, and the troops 
firing such weapons would not have to be informed of such risks.
    Iraq has had cluster bomb technology since the Iran-Iraq War, and 
has long had the theoretical engineering capability to use non-
explosive release mechanisms like air bags to release chemical and 
biological munitions. Before the Gulf War, Iraq developed crude 
parachute release designs for its missile warheads, systems which would 
be substantially more effective than the primitive contact fuse 
warheads and bombs it had at the time of the war, and which might well 
have produced negligible weapons effects if they had ever been used.
    Iraq must realize that the crude contact fusing, and chemical/
biological warhead/bomb designs, it had at the time of the Gulf War 
drastically limited the effectiveness of its CBRN weapons. Iraq has had 
strong incentives to correct these problems for over a decade, and the 
development of parachute release weapons is only moderately 
challenging. Iraq has also had a decade to adapt non-destructive 
dissemination technology like airbags. Nevertheless, experts are deeply 
divided over Iraq's systems integration and engineering skill and the 
probability that Iraq has developed lethal missile warheads.
    There is broad agreement among experts that Iraq has probably 
developed effective sprayer and line source-delivery technology since 
the Gulf War. This is the most lethal way to deliver chemical and 
biological weapons, and is far more effective than using even advanced 
missile warheads. Iraq also experimented at the time of the Gulf War 
with using aircraft like the Czech L-29 trainer as a remotely piloted 
drone to carry out such deliveries at long ranges, and U.S. forces were 
deeply concerned that Iraq might be using its UAVs for such missions 
early in the Gulf War. The use of fighters, helicopters, and drones for 
such missions requires relatively large aircraft, and they would be 
vulnerable to air defenses. It is at least possible, however, that Iraq 
could use its best strike aircraft to fly a one-way mission and succeed 
in penetrating deep into Southern Gulf, Turkish, and Kurdish territory 
or the rear area of U.S.-led coalition ground forces. It is also 
possible that Iraq might be able to use a drone, UAV, or modified 
fighter, GPS, and earth-hugging flight profiles to create the 
equivalent of cruise missiles for such missions with sufficient 
accuracy and reliability to attack city sized targets at long ranges.
    Similar critical uncertainties exist in other areas of Iraqi CBRN 
warfighting. Several UNSCOM inspectors believe that Iraq lied about its 
ability to produce a stable form of persistent VX nerve gas during the 
time Iraq was still under inspection, just as it had lied earlier about 
weaponizing of VX. Iraq's mustard gas inventory proved to be highly 
stable during the period of inspection, and it seems likely that Iraq 
now has both stable non-persistent and persistent nerve gas. Iraq is 
known to have continued to smuggle in precursor chemicals during the 
inspection period and since 1998. Persistent VX would probably be at 
least 10 times more lethal than anything Iraq used in the Iran-Iraq War 
or against its Kurds.
    Iraq has experimented with the conversion of biological agents into 
dry, coated micropowders that can be lethal to two orders of magnitude 
or more versus slurries of wet agents. At least in the case of the most 
lethal, advanced weaponized forms of dry-storable Anthrax--such 
biological weapons can achieve the lethality of simple nuclear fission 
weapons. They can have far more immunity to heat and sunlight, 
disseminate without clumping, and are extremely lethal when inhaled. 
They can be non-explosively disseminated with air bag technology, and 
are far better suited to use in bombs, missile warheads, and covert 
attacks. Similarly, little is known about any Iraqi advances in sprayer 
and line-source delivery technology, and in tailoring CB agents to make 
them more effective in such delivery profiles. Contrary to some 
literature, truly effective line source and sprayer delivery is a 
complex engineering problem involving both the agent and delivery 
system.
    The greatest single unknown, in terms of Iraqi capability to use 
biological agents, consists of infectious agents like Smallpox and 
Plague. Iraq was one of the last countries to have a natural outbreak 
of smallpox and may well have the culture. Smallpox is easy to 
reproduce in a small facility and is infectious enough so agents 
willing to commit suicide or individuals who are unwittingly exposed 
could create serious corridors of infection. The long period between 
exposure and symptoms deprives such agents of immediate impact in war 
fighting scenarios, but they could be used in port, airbase, or rear 
areas during the staging of enemy forces with limited risk because 
Iraq's borders would be sealed. Infiltrating the agent into Turkey, 
Southern Gulf states, Israel, or the U.S. and U.K. would be an option; 
as is sending in exposed unwitting or deliberately infected 
individuals. No meaningful capability now exists to screen for the 
agent or exposed individuals, and agents carrying Smallpox agent could 
be immunized, as could those infecting unwitting subjects.
    IAEA and U.S. intelligence experts privately put little or no faith 
in the claims of various Iraqi defectors that Iraq retains the ability 
to make fissile material, has extensive covert fissile material 
production facilities, and has workable bomb designs small enough to be 
used in missile warheads. IAEA experts note that the Iraqi diffusion 
effort was never effective, that the Calutron designs fell far short of 
meeting specification, and that Iraq's centrifuge designs proved to be 
far less effective during laboratory review than they initially 
estimated, and that Iraq does not seem to have understood the technical 
problems in using centrifuges to enrich fissile material beyond 90%. 
They note that cascades of centrifuges are relatively easy to conceal 
in multistory buildings, but that Iraq is extremely dependent on 
imports to create such a facility and would probably need outside 
technical support.
    Iraq did, however, have at least two workable fissile weapon 
implosion designs that could be used in large bombs at the time of the 
Gulf War, had solved the technical problems in making and triggering 
high explosive lenses for nuclear weapons, and had workable neutron 
initiators. If it could obtain fissile material, it could probably make 
a large explosive device relatively quickly, but not fit one to a 
missile warhead or build a bomb that any of its aircraft other than its 
bombers and MiG-24s could deliver at long distances, particularly in 
low-altitude penetration missions. Iraq might be much more successful 
in arming any actual nuclear weapon it could obtain, particularly 
because of the relatively crude PAL systems fitted to many FSU weapons, 
and the duplicative code sequences used to arm them.
    Iraq has shown both that it can disperse and conceal and that it is 
willing to take serious risks in doing so in spite of the centralized 
nature of the regime. During the Gulf War, Iraq was willing to place 
large numbers of chemical weapons under the control of its regular Army 
forces, although biological weapons and missiles were placed under the 
control of special units of the Republican Guard which seem to have had 
a significant element of Iraqi security forces. Iraq also showed during 
the Gulf War that it could disseminate chemical weapons (and possibly 
biological weapons) over a wide area without detection by Coalition 
forces. Coalition intelligence and targeting of such weapons stocks was 
a near total failure through the end of the war, and advancing forces 
sometimes had to be warned of the existence of stockpiles of chemical 
weapons by surrendering Iraqi officers. Iraq mixed chemical and 
conventional munitions stockpiles without special security precautions 
and even dispersed unguarded weapons at unused airstrips for possible 
arming in a last-ditch emergency.
    A number of experts believe Iraq could disperse most of its covert 
biological production on warning or under attack. Iraq is known to have 
mobile laboratories and storage equipment and to have developed 
advanced techniques for rapid equipment and material movement during 
the time of UN inspection. It is not known whether Iraq has developed 
special survivable communications for such dispersal efforts, or 
exactly who would control such units and how loyal they would be under 
extreme conditions--particularly knowing the probable level of 
reprisals both in terms of the level of attacks on Iraq and future 
treatment of war criminals. Regimes like Iraq's do, however, have a 
long history of successfully indoctrinating and lying to carefully 
selected ``loyalist'' units. Such units can now also make use of GPS 
rather than presurveyed sites, and may well be able to make use of GPS 
for preplanned targeting or to change targeting in the field. This 
could increase the dispersal area and the effectiveness with which an 
Iraqi force would be able to target cities and fixed facilities at long 
ranges.
    Cumulatively, these uncertainties make it impossible to do more 
than guess at Iraq's warfighting capabilities. As such a guesstimate, 
Iraq's present holdings of delivery systems, and chemical and 
biological weapons, seem most likely to be so limited in technology and 
operational lethality that they do not severely constrain U.S. freedom 
of action, or seriously intimidate Iraq's neighbors.
    Barring classified intelligence to the contrary, Iraqi CBRN 
capabilities must be taken seriously, but do not seem great enough to 
change U.S., British, Iranian, Israeli, Saudi and/or Southern Gulf 
perceptions of risk to the point where they would limit or paralyze 
military action against Iraq by a U.S.-led coalition or prevent large-
scale Israeli strikes on Iraq.
    Iraq has not fired any Scud variants in nearly twelve years. There 
are no public reports that it has tested dry-storable biological 
weapons, or has made major advances in its weaponization of nerve gas. 
Furthermore, it seems unlikely that Iraq can openly build up major 
production and deployment capabilities without them being detected and 
targeted, and without provoking strong U.S. counter-proliferation 
programs, including preemptive or retaliatory strike capabilities.
    Nevertheless, Iraq's possession of even moderately effective CBRN 
weapons must affect other aspects of U.S., British, Southern Gulf, and 
Israeli perceptions of the risks inherent in attacking Iraq. President 
Bush has already made it clear that the U.S. might well make maximum 
use of its advanced intelligence, strike, and reconnaissance (ISR) 
capabilities, and air and missile power to carry out a massive 
preemptive strike on Iraq's CBRN and delivery capabilities at the first 
sign of any major crisis or as a prelude to an invasion to overthrow 
Saddam.\7\ Such weapons create a strong incentive for preemption even 
in ``peacetime conditions'' if (a) they can be targeted with sufficient 
reliability and depth of coverage, (b) the U.S. and its allies are 
confident the resulting strikes would do sufficient damage to offset 
the risk of Iraq lashing out with its surviving weapons, (c) the U.S. 
is confident any secondary effects in terms of Iraqi civilian 
casualties would be limited, and (d) the U.S. is convinced it can show 
the world that Iraq was in violation of the UN ceasefire. Preemption 
might also take place regardless of these risks if the U.S. was 
convinced Iraq was prepared for the use of such weapons or was 
dispersed a major force for the possible delivery of such forces.
    It should be noted in this regard that the physical destruction of 
stored or dispersed chemical and biological facilities and munitions 
stored on the ground presents only a limited risk of major collateral 
damage and secondary civilian casualties unless the weapons are in 
densely populated areas. No one can disprove the idea of trace effects 
from such explosions, such as those associated with Gulf War syndrome, 
but the probabilities are limited.
factors shaping iraqi operations in a major u.s.-led coalition military 
                                 effort
    Iraq cannot hope to win a conventional war in the face of decisive 
U.S. force, but it does have a wide range of options, and some might be 
effective in the face of inadequate U.S. and coalition force levels:

  <bullet> The key battle is already underway and is largely political. 
        Iraq's best strategy is to defuse the political momentum for a 
        major U.S. attack on Iraq, and to win as much Arab support as 
        it can. This means strengthening the political accommodation it 
        has already reach with other Arab states--including Kuwait and 
        Saudi Arabia--and attempting to win broad Arab political 
        support through its support for the Palestinian cause in the 
        Second Intifada. Some form of Iraqi accommodation in terms of 
        resuming UN inspections is another potential option, although 
        one that Saddam and other hard-liners in the regime is certain 
        to be reluctant to take. Using oil wealth and control over much 
        of the media to mobilizing popular support is another approach 
        the regime is taking and one that both deters U.S. military 
        action and strengths Iraqi operational capabilities. In 
        contrast, the U.S. faces the backlash from the Second Intifada, 
        has been unable to mobilize Arab or European support for a war 
        tied largely to the threat of proliferation, and has no smoking 
        gun in terms of Iraqi support for terrorism.

  <bullet> The worst Iraqi option is to repeat the mistakes of the Gulf 
        War and send its best forces out into the desert where they are 
        most exposed and have the least air defense. Some 
        counterattacks and raids may be needed, but a forward defense 
        strategy is the one most vulnerable to U.S. military action. 
        Similarly, digging in forward areas, and the extensive use of 
        static forces and earth barriers, could be useful in defending 
        Basra and a few critical lines of communication, but makes 
        Iraqi forces easy to bypass and outmaneuver.

  <bullet> A city-populated area based strategy presents the most 
        problems for the U.S. in using air power effectively, and 
        provides the most political advantages in exploiting collateral 
        damage and civilian casualties. It also is unlikely to lead to 
        uprisings or opposition action as long as loyal forces are in 
        place and willing to fight.

  <bullet> Iraq may be able to exploit water barriers against heavy 
        U.S. forces, but is more likely to lose bridges and road 
        mobility to U.S. airpower. Pre-positioning forces and supplies 
        to defend a limited part of the country with the most loyal 
        population and most critical cities--an urban redoubt 
        strategy--offers more survivable flexibility than either a 
        forward deployed or central reserve strategy. Iraq's surface to 
        air missile system also supports such a strategy.

  <bullet> Some form of Iraqi redoubt and scorched earth strategy is 
        also an option. Iraq set Kuwait's oil fields on fire during the 
        Gulf War, and might well try to use the oil weapon in such a 
        contingency. It has already talked about oil embargoes in the 
        context of the Second Intifada, and Saddam Hussein might well 
        see burning Iraq's oil fields and CBRN attacks on major Gulf 
        oil fields as both a defense and form of revenge. Iraq could 
        also combine such a strategy with falling back on a largely 
        Shi'ite dominated ``redoubt'' by using the cities and towns in 
        North Central Iraq for its defense while leaving as much of a 
        scorched earth as possible in the areas of a U.S.-led coalition 
        advance.

  <bullet> Fighting delaying actions inside urban areas offers Iraq a 
        way of using human shields, limiting U.S. air strike 
        capability, and forcing U.S.-led coalition forces to fight on 
        the most restricted terms. It cannot win against mobility and 
        decisive force, but it is certain to be more effective than 
        putting infantry in earth barriers--the ``speed bump'' strategy 
        that Iraq used in the Gulf War.

  <bullet> Iraq is virtually certain to try to exploit civilian 
        casualties and collateral damage as a political and media 
        weapon, and mix this with the use of deception and decoys. 
        Saddam Hussein's regime will attempt to fight a political 
        battle to the last.

  <bullet> Iraq might try to use CBRN weapons to preempt a U.S. build-
        up, launch on warning (LOW), or launch under attack (LUA) 
        against key U.S. and coalition bases. He might try to use 
        selective escalation to using remaining missiles and/or CBRN 
        weapons to try to involve Israel in the war risks escalating 
        the physical damage to Iraq, and make maximum use of the 
        backlash from the Second Intifada. Saddam Hussein seems to have 
        put his missiles and CBRN forces in the hands of loyalists who 
        might well execute a LOW, LUA, and/or desperate retaliatory 
        option. The problem with a desperate retaliatory option is that 
        Saddam must realize that waiting until the regime is 
        collapsing, and then conducting CBRN operations against Arab 
        states, or conducting covert CBRN strikes against the U.S. when 
        the regime is already in extremis, is far more likely to 
        increase the severity of coalition action. He must also realize 
        that major, highly lethal, Iraqi CBRN strikes on Israeli 
        population centers are likely to trigger a major nuclear war.

    Anyone who looks seriously at this list of variables will quickly 
see that it is impossible to predict whether and how the U.S. will use 
decisive force, the Iraqi response to a U.S.-led coalition, the nature 
of a U.S.-led coalition, how long Iraq can endure, and what strategy 
Iraq will actually pursue if it does use its CBRN weapons.
    What does seem likely, however, is that it would take a major U.S. 
miscalculation about the size of the forces needed to defeat Iraq and/
or a poorly structured and over-constrained U.S. operation, to allow 
Iraq to ride out the U.S.-led attack through even the best combination 
of urban and redoubt warfare. Furthermore, most forms of extreme Iraq 
escalation can make things worse for both the attacker and defender, 
but will probably end in hurting Iraq more than the attacker.
    Blundering into war is not a plan, and while Iraq has many military 
weaknesses, it is not a ``cake walk.'' The human costs of fighting Iraq 
can be all too real, and betting the lives of other men's sons and 
daughters on anything other than decisive force can be exceedingly 
dangerous. Military adventures that kill U.S. or allied troops and 
local allies and still end in defeat or frustration are even worse, and 
civilian casualties and collateral damage have a moral price tag. Here, 
it is worthwhile to remember another quotation from the classical 
world, and this time by Pliny the Elder: ``Small boys throw stones at 
frogs in jest. But, the frogs do not die in jest. The frogs die in 
earnest.''
                               footnotes
    \1\ These Iraqi force estimates are based largely upon Anthony H. 
Cordesman, Iraq and the War of Sanctions, Westport, Praeger, 1999; the 
IISS, Military Balance, 2001-2002, and material in the Internet edition 
of Jane's Sentinel series, accessed in June 2002.
    \2\ USCENTCOM briefing by ``senior military official.''
    \3\ Estimate first provided by USCENTCOM in June, 1996 plus 
interviews.
    \4\ London Daily Telegraph, July 19, 2002, p. 1.
    \5\ Jane's Sentinel Security Assessment, Iraqi Air Force, on-line 
edition, accessed May 7, 2002.
    \6\ An analysis by Charles Duelfer indicates that the count of 817 
missile assemblies certified by UNSCOM includes 8 used in training 
before the Iran-Iraq War, 516 used during the Iran-Iraq War, 69 used in 
testing, 93 used in the Gulf War, 48 destroyed by UNSCOM, and 83 that 
Iraq asserted it had uniltaterally destroyed. The count of those used 
in testing is particularly suspect.
    \7\ According to some reports, General Tommy Franks, the commander 
of USCENTCOM, has made such preemptive strikes part of his contingency 
planning. See John Henderson, ``In Iraq, U.S. Faces New Dynamics,'' Los 
Angeles Times, July 6, 2001, p. 1.

    The Chairman. Thank you very much.
    Why don't we, in the interest of time, limit our questions 
in this first round to 5 minutes? Let me begin.
    The thrust of your statement, professor, is that if we're 
going to go, we should go at Saddam with a serious force, that 
this idea being discussed of inside out and a relatively small 
number of people and decapitation, I would assess from your 
comments, you think would not be a prudent way to proceed. Am I 
misreading you?
    Professor Cordesman. Senator, I think that, first, you can 
always try a decapitation strike, and you might get lucky. But 
while I don't think it was made a big issue, we thought we had 
killed Saddam during the gulf war, and there actually was a 
premature celebration of this. It didn't quite work out that 
way, as General Hoar would be the first to tell you. Is it 
worth trying? Of course. Can we count on it? No.
    Is it possible, when we talk about this inside-out 
strategy, that a combination of major air strikes preceding the 
attack, concentrating our armor and attack helicopters, 
thrusting at Baghdad in the core of Saddam's power, leaving 
aside the Shi'ite areas, which may well not support him, 
leaving aside much of his order of battle, which might not 
support him will succeed? Is that a possible option, 
particularly if we can bring massive amounts of air power to 
bear? Yes. But I believe that that option, as described, 
involves some 50,000 to 80,000 men. That is not a light force.
    And I would say to you, as I would say to many reporters, 
as long as you are reporting on total numbers of men, you are 
reporting a meaningless option. What counts here is the amount 
of armor, the amount of air power, the attack helicopters, the 
force mix and the basing. And when we talk about this kind of 
option, we're talking about access to major bases. And while we 
might not need 2,800 sorties a day, as we flew in the gulf war, 
being able to mount less than 1,000 to 1,500 would be reckless.
    The Chairman. Now, doctor, let me ask you. In your book, 
you discuss the merits of helping scientists working on the 
regime's weapons of mass destruction to escape Iraq. Based on 
your experience, what was the missing ingredient, if there was 
one, in Iraq's weapons of mass destruction program, its human 
expertise for research, its design and production, or raw 
ingredients--for example highly enriched uranium for nuclear 
weapons? What was the weakest link?
    Dr. Hamza. Senator, the weakest link was research--that is, 
research that could resolve the bottlenecks in the program. For 
example, with uranium enrichment which one needs at the bomb 
core--you need some bomb-grade uranium, so you need to enrich 
natural uranium using enrichment processes--we were held for 5 
years because we could not develop an enrichment barrier that 
will separate the heavy from the light uranium. So the 
bottlenecks in technology were the hold up.
    The same goes for the calutron process to enrich uranium 
using the electromagnetic method. We were held up by simple 
technologies here, but these were insurmountable problems to us 
over there.
    The Chairman. Do you have any reason to believe they have 
surmounted those bottlenecks?
    Dr. Hamza. They declared they did. In 1993, Iraq surmounted 
the bottleneck in the diffusion barrier technology and declared 
it in its full, final, and complete declaration. So Iraq did 
declare that some of these bottlenecks--for example, in the 
diffusion process--were resolved. But still it leaves a very 
small core of researchers to be the really critical part of the 
program. And if these small cores of researchers--that's what I 
mention in the book--were taken care of, the program will be 
probably hindered.
    The Chairman. How much does Saddam rely upon the expertise 
of scientists--foreign scientists for such as unemployed 
Russian scientists and others? How much of the scientific 
research and development is done by non-Iraqis?
    Dr. Hamza. We had two experiences--when I was transferred 
to the military industry to start the nuclear weapon program, 
the enrichment group was ordered by Kamel to use the Germans. 
Our original intent was that using foreigners is a leaky 
process. We always--information leaks out by foreigners. Using 
the Germans, for example, in 1989, Der Spiegel published a 
detailed report on what the Germans gave us and what kind of 
expertise we got. So that was a sobering experience. And I 
believe after that Iraq will use scientists in a very limited 
way.
    I believe some scientists were used in rejuvenating the 
chemical weapon program, but not many in the nuclear. I believe 
Iraq still relies on its own scientists to develop its own 
weapons program.
    The Chairman. In conclusion, how confident are you about 
your assertion that you used in your statement saying that by 
2005 you believe the Iraqi Government will have enough fissile 
material to build three nuclear weapons?
    Dr. Hamza. This is the German assessment I mentioned. As I 
mention in the report, I took parts of these statements to save 
time, but this is the German BND assessment based on what it 
observed from Iraqi defectors and Iraqi capabilities.
    The Chairman. When was that assessment made?
    Dr. Hamza. It was made last year, and there are reports 
that they repeated it this year again. It was February of 2001.
    The Chairman. My time is up.
    Senator Lugar.
    Senator Lugar. Dr. Cordesman, much of the argument about 
the need to attack Iraq now is really based upon the thought 
that Dr. Hamza suggested, that they could develop a nuclear 
capability by 2005, or even Ambassador Butler's comment that at 
the end of the gulf war or thereabouts, Iraq may have been 
within 6 months of developing a nuclear weapon. If that is so, 
and given the point you've made about the efficacy of 
biological and chemical weapons being very difficult to 
estimate, the case for continuing the so-called containment 
strategy is that Iraq has not been able to develop weapons 
capable of providing a massive first strike capability. And, as 
a matter of fact, the strategy apparently, as we see it, is 
that Saddam would use these weapons defensively and simply 
threaten the rest of the world with retaliation if an event 
occurred that threatened him.
    However, what is your judgment, leaving aside intelligence 
reports that may help the committee or, more importantly, the 
President and others, to determine the imminence of Iraq's 
capability? What is the case against simply continuing as we 
are now? If evidence appeared that he had developed a nuclear 
weapon outside of a covert situation, couldn't we just reserve 
the right for preemptive strikes or take action to try to 
eliminate that. Is there a big enough threat that cannot be 
contained?
    And then, second, if we adopt that strategy, is it possible 
we could wind up with a policy with our allies and neighboring 
states that in the event that Saddam did develop and did strike 
somebody that we all attack together, as opposed to the current 
situation in which almost all the neighbors, plus our NATO 
allies, are highly skeptical of the efficacy of our initiating 
a strike at this point. They suggest they are uncertain that 
Saddam has the weapons, and likelihhod of development, and 
worry that in the process of attacking we might trigger the use 
of whatever Saddam does possess much to the detriment of his 
own people and those he would strike.
    I'm asking you for a general summation on the efficacy of 
containment as we know it.
    Professor Cordesman. Senator, the first assignment I had 
when I came out of graduate school, in the Office of the 
Secretary of Defense, was to work on a study of proliferation. 
That was back in the 1960s, and I have been working on such 
studies ever since. The ability of experts to predict who would 
really develop a nuclear weapon at a given time over a period, 
has been so poor that I think what we really have to say to 
ourselves is we can't make such predictions.
    I would not put any great faith in WMD predictions. I'm not 
sure that we can ever predict this. You ask the intelligence 
community how soon they can do it, and the answer always tends 
to be 2 to 3 years unless you have positive evidence that they 
have done it. But the fact is that with areas like centrifuge 
technology, you never will really know. They are relative easy 
to conceal, as Ambassador Butler pointed out. UNSCOM found that 
both the calutron effort and centrifuge effort, the more they 
looked into it, the worse it was designed, but that was 10 
years ago. And to say that nobody has changed in 10 years and 
we can detect it, is not realistic.
    In biological weapons, the problem really is not the agent; 
it is whether you can convert it to a very small powder of 
exactly the right size, coat it, and find an unexplosive or 
non-destructive way to disseminate it. Iraq's designs for 
chemical weapons and biological weapons at the time of the gulf 
war bordered on the actively stupid. I mean, they did not 
represent a lack of the necessary technology. They were just 
miserably executed. They used contact warheads, and crude 
binary chemical weapons and ignored technology that Iraq had 
already obtained from Chile. There was simply no reason to do 
anything this badly.
    But, again, as Ambassador Butler pointed out, we haven't 
found Iraq's sprayers. We don't know what they've tested. You 
don't need to do this in the open, and a lot of it could be 
done clandestinely.
    So in the biological area, let me make a very clear point 
here. They may have anthrax weapons today with nuclear 
lethalities. If they have smallpox--and they were among the 
last countries to have a smallpox outbreak--that is a weapon 
which has nuclear lethalities.
    Our problem here is the more time goes on, the more the 
time lines give Saddam the ability to get there, and it is far 
from clear that anyone will ever be able to answer your 
questions or know when or where or how these kinds of weapons 
will be used.
    You talked about the risk of going in and striking at these 
weapons. If they have the kinds of weapons we think they have--
primarily wet agents, old bombs, limited delivery systems--that 
risk is acceptable today, but there could be collateral damage. 
They might also use them on ports, our bases, or our forces in 
the gulf. We can't dismiss those kinds of attacks.
    I do not believe that any amount of air strikes, suddenly 
executed, will do the job. I invite the committee to look at 
the battle damage for Desert Fox and ask very probing questions 
about the sources of that battle-damage assessment data and the 
quality of that damage-assessment data.
    I would remind people that we flew some 2,400 sorties 
trying to suppress the Scuds once dispersed in the gulf war. We 
saw some 48 plumes. We hit nothing. In spite of claims by some 
British Special Forces people, the entire Special Forces effort 
was a waste of time. It did not produce a single meaningful 
target. And these are realities I think we have to live with.
    The fact is, the time lines move is toward more and more 
risk, as both the previous witnesses have pointed out.
    The Chairman. Senator Dodd.
    Senator Dodd. Mr. Chairman, thank you very much. I think 
these statements by our witnesses and the responses already to 
the questions make the case of the value of having these 
hearings. And we appreciate immensely your participation.
    Let me pick up again, just on a followup point that Senator 
Lugar was making, Professor Cordesman, that I would like you to 
address, if you could, and that is the importance and the 
prosecution of a military option of international support or 
regional support. You mentioned in your statement the necessity 
of having bases of operation, being able to place supplies in 
forward positions and the like would be very important. We at 
least hear today of the criticism that is coming from allies as 
well as regional powers in the region who at least call 
themselves allies. Could you please give us some sort of an 
assessment of how important that factor is in the successful 
prosecution of the military option?
    Professor Cordesman. I think we have to be prepared for the 
fact that if we do this, it will, in many ways, be our first 
preemptive war. We will not have a clear smoking gun. There 
will not be a simple cause to rally around. I think we will 
have the support of the British Government. Most of our NATO 
allies will, at best, be reluctant and seek, if anything, to 
delay it to use the U.N. But we had some of those problems 
during the gulf war. Remember, the French Defense Minister 
resigned to protest just before the fighting began. We didn't 
get our aircraft into Turkey until 48 hours because the 
authorization was only given by the Turkish Government 48 hours 
before the air war began. Coalitions take on a cachet in 
retrospect that they never had at the time. But there are some 
realities here. You're going to need Turkish air basing far 
more, because the center of Iraq's power is a lot further 
north. Saudi airspace will be critical. So would Saudi bases, 
if possible.
    There were 23 airfields and air bases at the time of the 
gulf war. We used every single one of them to capacity, put 
Marine Corps aircraft into unimproved strips because there were 
no areas left. And 11 of those bases were in Saudi Arabia.
    If we are going to fight this war we, at a minimum, are 
going to need all of the capacity of Qatar, of Bahrain, and 
Kuwait. We are going to need to be able to stage through Oman. 
We probably are going to have to use most of our carrier 
assets, at least initially, because of the lack of basing, 
unless you can get Saudi Arabia. And so any assessment of 
relative capability and scenarios is determined, not so much by 
what our European allies do, but what we can actually get by 
way of support in the region.
    Senator Dodd. Do I have time for one more question?
    The Chairman. You sure do.
    Senator Dodd. Let me jump back, if I can, doctor--
Ambassador Butler, to the efforts of compliance. Is there any 
sense or any scenario which you could conjure up which would 
cause Saddam Hussein to--and his government--to take a 
different view toward inspections? Or is that, in your view, an 
option that has been exhausted and the past events have proved 
the futility of trying to have the kind of cooperation 
necessary to pursue that avenue of dealing with this issue?
    Ambassador Butler. Well, Senator Dodd, my answer, I'm 
afraid, will be a pessimistic one. In the concluding part of my 
remarks, I said that I believed it was essential--if one asked 
the gut question of what is needed here, my answer is arms 
control and disarmament. What that implies is--and others 
tended to agree--was that it is, in theory, essential that we 
have Iraq brought into conformity with the law, which is that 
it must cooperate with a full-scale international effort to, 
(a) take away the weapons that it made in the past and which 
already exist, and, (b) institute a system of long-term 
monitoring that Dr. Hamza referred to, for example, to ensure 
that those weapons are not reconstituted in the future.
    Now, central to such a structure is the cooperation of the 
Government of Iraq, and it never gave it. Remember, at the 
beginning of my statement, I concluded from the brief history 
of UNSCOM, incredibly brief, that there were two points. One, 
the first point, was that Iraq never obeyed the law. And the 
other was that it had always been utterly committed to having 
weapons of mass destruction.
    Now, I must, I'm afraid, give a pessimistic answer to your 
very pertinent question. Are they likely to do it? No, they're 
not. Does it mean that we should, therefore, now stop trying to 
get that restored? No. I think we have got to go a little 
further way--if for no other reason than to make clear to the 
world that we went the full distance to get the law obeyed and 
arms control restored before taking other measures.
    Senator Dodd. May I ask you quickly what specific avenues 
would you pursue to take this the final yard or two, as you 
describe it?
    Ambassador Butler. I've said many time before, Senator, and 
I'll repeat it here, the pathway lies in cooperation with 
Russia. It is Russia and, to some extent, France in the 
Security Council in 1998 and 1999 which brought our efforts--
and I don't mean the United States' efforts; I mean UNSCOM and 
the civilized and interested community that wanted to see this 
horrible problem of weapons of mass destruction in Saddam's 
mind and behavior brought under control. It was Russia's split 
with the United States, Russia's decision that it had greater 
interest in sticking with Saddam that brought our effort down.
    Now, it follows logically from that, and indeed there's a 
lot of practical evidence for it as well as mere logic, that 
the way ahead would be through and with Russia. If we could get 
Russia and then France--the U.K., of course, is a given. I 
don't mean that disrespectfully to them. They've been staunch 
on this. If we could get Russia to work seriously with us in 
Baghdad to make very clear to the Iraqis that, ``This is it. 
This is it. You will do serious arms control, or you're 
toast,'' to put it simply, we might have a chance. But absent 
that, we won't.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Can I ask for a point of clarification, professor? Without 
Qatar, without Bahrain, without Kuwait, is it possible to 
launch successfully a military action that has a high 
probability of success and a relatively low probability of high 
casualties for American forces?
    Professor Cordesman. You could conduct a very destructive 
bombing and air campaign, but short of having access to both 
Jordan or Turkey, the answer would be, ``I think not.'' And, I 
think it would be devastating to risk the lives of the Kurds or 
the Iraqi opposition or U.S. Special Forces on some kind of 
operation which might conceivably succeed, but which would have 
no probability of succeeding and where we could never back it 
up by bailing them out.
    The Chairman. I thank you. I appreciate the indulgence of 
my colleagues.
    Senator Hagel. Obviously, we don't have the vote at 11 yet, 
so we're just going to keep going. So why don't you proceed, 
Senator, and we'll go through this round.
    Will you all be able to stay? Again, they said four votes, 
which means it will be at least 50 minutes. Are you able to do 
that? We may have to go through lunch here, because we have 
very important panels to follow you. We would make the room 
available. We don't want to call it the back room, but we would 
make the anteroom here available to you all, and maybe we can 
get you something to drink--coffee or a cold drink of some 
kind.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Thank you each for 
your contributions this morning.
    I'd like to ask each of you this question. In light of your 
testimony, in light of what you have heard your other 
colleagues discuss this morning, is it each of your opinion 
that the policy of containment is now exhausted and we now must 
face the reality that it does not work?
    Some of the testimony that was given this morning by each 
of you, some more direct than others, regarding, if I 
understood this--in your case, in particular, Dr. Hamza--that 
any further inspection regime would essentially be meaningless 
and useless--so if that, in fact, is where you are, and I don't 
know where the other two are exactly, then containment doesn't 
work, inspections are useless, and we are just continuing to 
march around the bush here. So, therefore, we must face the 
reality of what we are dealing with, if this is the case, and 
move to another policy. Then if that is the case, what is that 
policy? Do we have no other option than the military option?
    Ambassador Butler.
    Ambassador Butler. I'm not prepared to say that containment 
has failed outright. I think, Senator Hagel, one has to ask, 
where would we be had we not behaved as we have in the last 
decade or had UNSCOM not existed? Saddam Hussein would now be 
armed to the teeth with all three forms of weapons of mass 
destruction. It would be an awesome situation.
    I think the same logic is true for containment. Had we been 
less determined to contain him and his efforts in various ways, 
we would face an appalling situation. I think your question, 
though, by stating it as an absolute, ``Has containment 
failed,'' does highlight the fact that to rely solely on 
containment is actually folly.
    So I would argue that what we need is a combination of 
continuing behaviors by us and others that serve to contain 
this outlaw regime. I've emphasized legality several times. 
We're essentially dealing with an outlaw regime here. And those 
behaviors have to do with trade in strategic goods, for 
example, other sources of comfort to the man and his weapons 
aspirations.
    Now, in addition to those measures of containment, we need 
very specific things directed at the specifics that Iraq and 
Saddam presents to us, and that is that it has been in the form 
of inspections. The regime of inspections was unique in 
history. We've never seen such a thing before.
    Why was that done? Because he's unique. This is something--
this is a point that I would like to particularly put to this 
committee. This man is different. If you look around the 
world--and I was deeply impressed by the approach that 
Professor Cordesman, yet again, took this morning. I think it 
was hardheaded and right. He's worked all his life in 
nonproliferation.
    If you look around the world of 180 countries, you see 160 
who basically behave properly, and there's about 20 who don't. 
Three of them, extra-systemic to the nonproliferation treaty, 
have nuclear weapons--India, Pakistan, and Israel. That's not 
good. But in numerical terms, the world in that sense is 
basically, for 40-odd years, the period since the Second World 
War, has behaved more or less well. When you get down into 
analyzing those who haven't, one sticks out beyond and above 
all others, and it's Saddam Hussein and what he has done to his 
country and to those around him.
    Now, that means, in my view, we need to continue 
fundamental elements of containment. Should we--this is your 
question, I think--should we rely on it as the answer? No, 
because, in and of itself, it doesn't work. Do we discard it 
altogether? No. We need some elements of containment. But we 
also need a specific solution to the specific problems posed by 
this particular--and I suggest unique--outlaw.
    Now, maybe resumed inspections would never be successful, 
as Dr. Hamza has said. I don't think we'll actually get to 
there, because, as I've already said, I suspect the Iraqis 
might even let them begin. But then if that is the case, we 
have to consider something else, and that's what I think these 
hearings are about. What is that other thing to deal with this 
unique problem? I don't yet know the answer.
    Senator Biden has started a process with Senator Lugar of 
finding that answer, and I just think we've got to press on and 
find it.
    Senator Hagel. Thank you. Mr. Chairman, I beg the 
indulgence of the committee to ask the other two witnesses for 
a short answer to the question?
    The Chairman. Sure.
    Senator Hagel. Thank you very much.
    Dr. Hamza.
    Dr. Hamza. I agree with Ambassador Butler. Containment did 
keep Iraq from accelerating its production, limited what is 
available to it, destroyed most of its weapon repository. But 
in the end, it's not the answer for the simple reason Iraq 
restructured its science and technology base around the 
containment policy, so it created a new international network 
for purchasing, redistributed its scientists and engineers so 
that they will not be very visible to air strikes and to 
possible inspectors if they go in. So, in the end, Iraq is 
working to defeat containment. And, in the end, it will achieve 
its purpose.
    So containment did delay--yes, I agree with the 
Ambassador--considerably Iraq's--Iraq would have been now in 
possession of nuclear weapons without containment and a much 
larger stockpile of chemical and possibly much more biological 
weapons. But in the end, we need something else with 
containment. My suggestion, as I stated earlier, is that regime 
change as the stated U.S. policy would be the correct way to 
deal with this problem.
    Senator Hagel. Thank you. Professor Cordesman.
    Professor Cordesman. I would have to agree largely with the 
previous witnesses. I think we should remember, however, what 
containment means. It isn't just sitting there. Are we really 
aggressively going to try to stop arms transfers? In which case 
I have heard no one in this country point out the fact that 
Syria's become a serious conduit.
    What happens if we detect proliferation? Remember that we 
could go to war tomorrow if we had a U.S. or British aircraft 
shot down, and have to repeat another Desert Fox. Are we really 
willing to go to war immediately if there's a violation on 
missile testing, if we detect a biological facility, if we have 
the confidence? Containment is not pacifism. It is not simply 
reliance on arms control. But to say containment is exhausted, 
you can only say that when you are really ready, Senator, to do 
something else. That means we need a critical minimum of allies 
and bases, a national commitment to using decisive force, and a 
willingness to win the peace as well as the war.
    And, I think that until nation-building becomes a 
bipartisan term and one where there is a serious commitment to 
what could be years of peacekeeping, economic help, and help in 
building a democracy, we aren't ready to say containment is 
exhausted.
    Senator Hagel. Thank you.
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    I would like to congratulate the Chairman and the Ranking Member 
for holding these timely hearings on Iraq. I agree with my colleagues 
that we need a national dialogue on what steps we should take to deal 
with the threat posed by Saddam Hussein's Iraq.
    Americans need to be informed about the complexities and 
consequences of our policies in Iraq.
    I look forward to listening to and learning from the distinguished 
witnesses before us today about the nature and urgency of the threat we 
face from Iraq, including their evaluations of what the best policy 
options may be for meeting this threat; the prospects for a democratic 
transition after Saddam Hussein; and what the implications of our 
policies in Iraq may be for the stability of the Middle East and our 
security interests there.
    Much of the debate by those advocating regime change through 
military means have so far focused on the easy questions. Is Saddam 
Hussein a ruthless tyrant who brutally oppresses his own people, and 
who possesses weapons of mass destruction that have the potential to 
threaten us, his neighbors and our allies, including and especially 
Israel? Yes. Do most Iraqis yearn for democratic change in Iraq? Yes, 
they do. Can Saddam be rehabilitated? No, he cannot.
    In my opinion, complicated and relevant questions remain to be 
answered before making a case for war, and here is where these hearings 
will play an important role. What is the nature, and urgency, of the 
threat that Saddam Hussein poses to the United States and Iraq's 
neighbors? What do we know about Iraq's programs of weapons of mass 
destruction? There have been no weapons inspectors in Iraq since 
December 1998. Is Iraq involved in terrorist planning and activities 
against the United States and U.S. allies in the Middle East and 
elsewhere?
    What can we expect after Saddam Hussein in Iraq? What do we know 
about the capabilities of the opposition to Saddam inside Iraq? While 
we support a unified and democratic opposition to Saddam Hussein, the 
arbiters of power in a post-Saddam Iraq will likely be those who reside 
inside, not outside, the country. And these individuals and groups we 
do not know. Who are they? And where are they? These are the Iraqis we 
need to understand, engage, and eventually do business with.
    What will be the future of Iraqi Kurdistan in a post-Saddam Iraq?
    How do we accomplish regime change in Iraq given the complexities 
and challenges of the current regional environment? The deep Israeli-
Palestinian conflict continues; our relations with Syria are proper 
though strained; we have no relationship with Iran; Egypt, Saudi 
Arabia, Turkey, and Jordan have warned us about dangerous unintended 
consequences if we take unilateral military action against Iraq; and 
Afghanistan remains a piece of very difficult unfinished business, an 
unpredictable but critical investment for the United States and our 
allies.
    I can think of no historical case where the United States succeeded 
in an enterprise of such gravity and complexity as regime change in 
Iraq without the support of a regional and international coalition. We 
have a lot of work to do on the diplomatic track. Not just for military 
operations against Iraq, should that day come, but for the day after, 
when the interests and intrigues of outside powers could undermine the 
fragility of an Iraqi government in transition, whoever governs in Iraq 
after Saddam Hussein.
    An American military operation in Iraq could require a commitment 
in Iraq that could last for years and extend well beyond the day of 
Saddam's departure. The American people need to understand the 
political, economic, and military magnitude and risks that would be 
inevitable if we invaded Iraq.
    There was no such national dialogue or undertaking before we went 
into Vietnam. There were many very smart, well intentioned 
professionals, intellectuals, and strategists who assured us of a U.S. 
victory in Vietnam at an acceptable cost. Well, eleven years, 58,000 
dead, and the most humiliating defeat in our nation's history later we 
abandoned South Vietnam to the Communists.
    Let me conclude by saying that I support regime change and a 
democratic transition in Iraq. That's easy. The Iraqi people have 
suffered too long, and our security and interests will never be assured 
with Saddam Hussein in power. The tough questions are when, how, with 
whom, and at what cost. I look forward to the testimony of our 
witnesses over the next two days on these critical questions.

    The Chairman. We're going to come back. One of the things 
I'm sure we're going to be asking you about is the extent that 
Saddam Hussein is the unique element in this picture. What is 
Iraq without Saddam Hussein? How dangerous is it, even if he 
dropped dead tomorrow, how would that--all by itself, nothing 
else, just Saddam Hussein--how would that alter the situation, 
if at all?
    [Recess.]
    The Chairman. The hearing will come to order. I thank our 
witnesses for your indulgence. Of all days to have four votes 
back to back, it was today. I apologize for that.
    Let me now yield to Senator Feingold. I think he's next in 
line.
    Senator Feingold. Thank you, Mr. Chairman, very much for 
holding these hearings. And I want to offer my gratitude to all 
the witnesses and particularly this panel. We had a long time 
voting there, but I can tell you, a lot of people commented on 
how excellent this panel has already been. So I appreciate what 
you've done.
    In April, I chaired the related hearing of the Constitution 
Subcommittee of the Judiciary Committee, and much of that 
earlier hearing focused in detailed legal terms on the 
authority of the President to launch a military operation 
against Iraq. And after listening to many constitutional 
experts, I certainly concluded that the Constitution requires 
the President to seek additional authorization from Congress 
before he can embark on a major new military undertaking in 
Iraq.
    Today, these hearings before the Foreign Relations 
Committee begin the important work of considering the 
complicated policy issues that are at stake, gathering 
information, and coming to some informed conclusions about what 
we will and will not authorize with regard to U.S. intervention 
in Iraq.
    I want the committee to know a number of my constituents 
have contacted me prior to today's hearing, and they have 
delivered one very clear message. They want to be certain that 
this committee carefully considers a range of views and 
informed perspectives on Iraq, and they want to be certain that 
we do not accept as fact any one set of subjective assumptions 
about Iraq. They are right to insist on a sober and honest 
effort. And given how much of the rhetoric surrounding U.S. 
policy toward Iraq in recent months has suggested that American 
families should be prepared to send their sons and daughter to 
war, we do owe the American people nothing less than a thorough 
examination of the situation before us and a careful 
consideration of our policy options. And I again thank the 
Chair for the role these hearings will play in that process.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to start by thanking Senator Biden for holding these 
important hearings. They come at an important time in our struggle to 
respond to worldwide terrorist threats, and they offer a critically 
important opportunity for the Congress to begin to gather information 
and come to some informed conclusions about what we will and will not 
authorize with regard to U.S. intervention in Iraq.
    I also want to offer my gratitude to all of the witnesses who will 
help us think through the difficult issues and options that confront us 
today. A number of my constituents have contacted me prior to today's 
hearing, and they have delivered one very clear message they want to be 
certain that this committee carefully considers a range of views and 
informed perspectives on Iraq, and they want to be certain that we do 
not accept as fact any one set of subjective assumptions about Iraq. 
They are right to insist on a sober and honest effort. Given that much 
of the rhetoric surrounding U.S. policy toward Iraq in recent months 
has suggested that American families should be prepared to send their 
sons and daughters to war, we owe the American people nothing less that 
a thorough examination of the situation before us.
    As we begin these hearings before the Foreign Relations Committee, 
I would note that I chaired a related hearing in April of the 
Constitution Subcommittee of the Judiciary Committee. Much of that 
earlier hearing focused, in detailed legal terms, on the authority of 
the President to launch a military operation against Iraq. The 
Judiciary Committee hearings in April followed an important precedent 
that was first established in January 1991, as the former President 
Bush was threatening to launch a similar military operation against 
Iraq, again without seeking congressional authorization. At that time, 
Senator Biden chaired a hearing before the Judiciary Committee in which 
prominent scholars questioned the authority of the President to 
authorize the use of force in Iraq without congressional approval. 
Based in part on the 1991 Judiciary hearings, former President Bush 
ultimately sought and received congressional authorization for 
operation Dessert Storm. That was an important victory for the 
Constitution and for our constitutional structure.
    It was based on that 1991 precedent, then, that I organized a 
similar hearing on war powers and the case of Iraq in the Judiciary 
Committee in April. At that hearing, after listening to many 
constitutional experts, I concluded that the Constitution requires the 
President to seek additional authorization before he can embark on a 
major new military undertaking in Iraq. I also concluded that this may 
well be one of our last opportunities to preserve the constitutionally 
mandated role of Congress in making decisions about war and peace.
    The April hearing focused on important constitutional questions. 
These two additional days of hearings before the Foreign Relations 
Committee will provide us with an equally important opportunity to 
consider the complicated policy issues that are at stake in any 
decision on Iraq. Through these hearings, it will be important to 
assess the level of the threat that exists, along with the relative 
costs and dangers that would be posed by a massive assault on Iraq. We 
must give careful attention to the risks to American soldiers, and to 
our relations with some of our strongest allies in our current anti-
terror campaign.
    Regardless of which policy path we choose, our goal is presumably 
to make America more secure in the long-term. That means that it will 
be crucially important to think through the aftermath of any proposed 
military strike. That means thinking about whether or not there will be 
a context of order in which controls can be imposed and maintained on 
weapons of mass destruction and the means to fashion them, and that 
means thinking about the conditions and the will of the long-suffering 
Iraqi people. We have to be honest with ourselves and with the American 
people--these are big issues, and addressing them may require very 
serious commitments.
    I don't think we need access to classified information to begin 
today to weigh the risks and opportunities that confront us. But I also 
look forward, in both secure and open settings, to hearing the 
administration make its case for a given policy response. Certainly the 
perspective of the Administration is one that we must hear before 
coming to any ultimate conclusions. Today, however, I think we have an 
opportunity to explore the general nature of the threats, dangers and 
policy options that exist. As a starting point, these considerations 
are crucial.
    Following these hearings, and subsequent consultations with the 
Administration, Congress may ultimately conclude that America's 
interests require a direct military response to threats emanating from 
Iraq. If we do come to that grave conclusion, I would urge my 
colleagues to honor the Constitution by providing congressional 
approval for military action. And I would counsel the President that by 
following in his father's footsteps and seeking congressional 
authorization, the President would ensure that any military response 
against Iraq would be taken from a constitutionally unified, and 
inherently stronger, position.
    I look forward to these initial discussions.

    Senator Feingold. Let me ask all of you this. All of us 
here would agree that the President has the constitutional 
authority to launch a preemptive strike in self defense in 
advance of an imminent attack by Iraq on the United States. And 
this is especially true in the face of an imminent attack on 
the United States with a nuclear, chemical, or biological 
weapon, but the key here is to assess the level of the threat 
and the imminence of the attack.
    The War Powers Resolution creates a high threshold for 
unilateral Presidential action, action which must be authorized 
in any event within 60 days of any preemptive strike. So I 
would like to ask you, do any of you believe that we have 
already reached that level of threat, that we now face an 
imminent attack on the United States? Mr. Butler.
    Ambassador Butler. An imminent attack upon the United 
States by Iraq? And you're talking about 60-day notice. Look, 
Senator, my simple answer is no, we do not.
    Senator Feingold. Doctor.
    Dr. Hamza. Surely what we are talking about here really is 
a preemptive strike for a possible future danger which is much 
larger than what we have right now. And it would be much 
costlier in the future, or not? Yes. If we do it much later, it 
will be a much costlier strike than what we do now.
    Senator Feingold. I understand that, but you don't believe 
there is an imminent threat of an attack on the United States.
    Dr. Hamza. What I believe is it is much easier now at much 
less cost and less danger to the United States to do it right 
than to do it after the window closes.
    Senator Feingold. That's not the question I'm asking, but I 
appreciate the comment.

    rofessor Cordesman.
    Professor Cordesman. Senator, I do not believe, in any 
classic sense, it is imminent, but I have to issue a very 
strong caution. I don't think you will ever get that kind of 
warning. As we learned at the World Trade Center and the attack 
on the Pentagon, the idea that you have enough warning to tell 
you an attack is imminent on the United States or our allies, 
particularly from a man like this when he has biological 
weapons or nuclear weapons, this is not the world we are going 
to live in. And I have to say that if that is the 
interpretation of the War Powers Act, it is so fundamentally 
obsolete that it has become irrelevant to asymmetric warfare.
    Senator Feingold. It is simply a threshold question. I 
think we need to determine--to figure out what procedure we 
should follow in terms of dealing with this issue.
    Ambassador Butler.
    Ambassador Butler. Thank you. Could I just say I agree with 
what my two colleagues have said? Dr. Hamza, of course, 
answered a different question. But I want to take this 
opportunity, Mr. Chairman, to make this point. This was a very 
specific question from Senator Feingold. I gave the only answer 
I could give. I also agree, in particular, with Professor 
Cordesman that that is not to say that we don't face a danger.
    I want to say this. I've searched my mind thoroughly about 
my Iraq experience and the inner meaning of what the last 10 
years have been since the end of the gulf war until now. And 
I'll put this to you, Mr. Chairman, and to your colleagues. If 
there is an inner meaning to what we now face it is this. And 
it's one of life's great principles, I submit. That is that if 
you defer, put off to another day, the solution to a serious 
problem, it will only be harder and costlier in the end.
    Senator Feingold. I think there's a lot of force to all 
those comments, and I don't necessarily disagree with them. 
What I'm trying to do here is determine the basic assumptions 
that we can share with our colleagues and the American people. 
What is the threat? And I think the first thing to ask is, is 
there an imminent threat to the United States being attacked 
directly? The answer is no, but that doesn't necessarily lead 
to any other conclusion about whether it's advisable to move 
forward.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I don't have further 
questions.
    The Chairman. Senator Nelson.
    Senator Nelson. Give me your opinion. What would be the 
possibility of an uprising from within if we were to have some 
kind of external attack with some internal clandestine 
operations? Is Saddam Hussein's control on the leadership of 
that country so tight that it's very difficult to have that 
uprising from within?
    Dr. Hamza. Is that to me?
    Senator Nelson. To all of you, please. Doctor, go ahead.
    Dr. Hamza. I believe the experience of an attack from 
outside that caused an uprising was there in the gulf war, and 
it gave us an example of what could happen. I believe the 
circumstances are even better right now for an uprising than 
was the gulf war. I mean, we had sanctions then of less than a 
year. And we had a very strong uprising that took off Saddam 
government in more than two-thirds of the country. What we have 
now is a country that's under sanctions for 11 years and under 
Saddam oppression for all this period. The Iraqis are, by now, 
giving up hope of any possible change unless they get rid of 
that man. And so I believe if there is a serious U.S. intent to 
remove him, and there is an attack, the Iraqis will join the 
U.S. forces, like what happened in Afghanistan. And there will 
be an uprising, and there will be a great support for any 
invasion from inside Iraq.
    Professor Cordesman. If I may, Senator, I would be very 
cautious, because one thing is what kind of uprising and for 
what? I don't believe you're going to see the Kurds rush out to 
take adventures and risks at this point in time, and that has 
been fairly clear from a great deal of discussion. There are 
problems, certainly, for the Shi'ites. They have many reasons 
to rise up, but if they rise up in the south, they also are now 
dealing with a much better-structured security force.
    Saddam has adapted, as well. And I am struck by the fact 
that while there are many different opposition capabilities, to 
the extent I've seen any really organized efforts, they have 
come from SAIRI. Yet, they have had more and more operational 
problems. I've seen fewer and fewer indications that claims of 
operations actually have reality.
    And if this uprising happens in the south and we have not 
the strength to get rid of the regime in Baghdad and its core, 
then we may see again that we expose people, frankly, to 
becoming martyrs or victims.
    At best, you're not going to see a united Iraq. But, if we 
don't have the proper military strength, you might well see 
something happen that could be just as bad as what happened in 
1991.
    Senator Nelson. I want to come back to a followup, but I 
would like to get Mr. Butler's opinion, as well.
    Ambassador Butler. Senator, just very quickly, I think the 
Iraqi are a thoroughly decent people. I think they have been 
the first victims, the most evident victims of a brutal 
homicidal dictatorship, and I think if they saw the possibility 
that that would be taken away, they would welcome it.
    How that would occur, a spontaneous democratic uprising, is 
something that--I agree with Professor Cordesman--you would 
have to be very careful about. Whether instead the coming 
demise of Saddam would be seen by various factions in the 
country as providing them with an opportunity to take power for 
their own ends is something that could be a source of 
difficulty.
    The question really is about who would replace him, and I 
think that is a very important question. But as far as the 
Iraqi people are concerned, yes, they know what they've 
suffered under for a very long time. And in that elemental 
sense, I believe, in the end, they would feel good about being 
relieved of the burden of Saddam Hussein.
    Senator Nelson. May I followup?
    The Chairman. Please.
    Senator Nelson. To the professor, the fact that we have, 
basically, air cover over two-thirds of the country in the 
north and the south, how do you utilize that to your advantage 
to provoke the uprisings even before you go into the center 
core one-third that we don't have the air cover on right now? 
And can you utilize that in a way to stir the rebellion before 
you have to move in on Baghdad?
    Professor Cordesman. Senator, I have to say there are no 
conceivable conditions under which I would do that. To try to 
minimize our casualties and the level of force we use by 
risking the lives of hundreds of thousands of civilians is 
simply not, to me, an option. And that would be the effective 
result.
    Now, can we use air power to isolate areas in Iraq where we 
have reasonable intelligence that there would be strong support 
for our operations? Yes, if we can absolutely guarantee that we 
can secure them, and if, in an emergency, we can concentrate 
sufficient force, which might take things like Rangers or U.S. 
ground troops, to protect the people. I do think we have to 
certainly make every effort to use the Iraqi opposition. We 
have to make every use that we can of isolating troops, perhaps 
getting them to defect. But the scenario that you suggested 
bothers me deeply, because it doesn't imply that we can 
guarantee the protection of the people involved, that we will 
have sufficient force.
    And I have been here before. I was stationed in Iran in the 
early 1970s. I visited the Kurds in Iraq then, and I watched 
them abandoned after 1975. And I think you might find that the 
Kurds would feel they've been abandoned since. Once is enough.
    Senator Nelson. Thank you very much.
    The Chairman. And I'm going to ask a couple of questions, 
and then I'll yield to my colleague, and I'll try to do this 
quickly.
    Mr. Ambassador, I share your view that Saddam, at all 
costs, will agree to no inspection that may cost him his 
weapons of mass destruction. But I have a different question. 
Is it possible to construct an inspection regime that--if it 
were agreed; we both agree it's not likely to be, but if it 
were, that it would efficacious, that you would have some--how 
intrusive would it have to be in order to have some significant 
expectation that you would be able to root out the bulk of his 
biological, chemical, and/or potential nuclear capacity?
    Ambassador Butler. Mr. Chairman, the conduct of inspections 
is entirely within our technical and intellectual capability. 
If we were allowed to go anywhere anytime, we can do the job. 
We can do it well and competently and completely. What it 
relies on is the willingness of Iraq to allow us to go anywhere 
anytime. Absent that, it will never----
    The Chairman. Well, some in our Defense Department make the 
argument that, notwithstanding the fact you theoretically could 
be allowed to go anywhere anytime, that over the last 4 years, 
the regime has been able to, through mobilizing, if you will--
making mobile their biological-weapons laboratories and digging 
deep into the ground in places where we don't know--even if we 
were free to roam, we would still not be able to do the job.
    Ambassador Butler. Yes, I've read and heard, with great 
interest, of course, the mobilizing and burial arguments, as 
recently as in the last 24 hours by a very distinguished member 
of the administration. I think they can be overstated, quite 
frankly, and I'm a bit concerned about the stridency with which 
some of those things are said, almost as if to justify a coming 
invasion.
    I repeat, it can be done. No arms-control inspection or 
verification is perfect. Anyone who's been in that business 
will tell you that. I've been in it for a quarter of a century, 
and I'll tell you straight up, there can be errors and 
mistakes. But, Senator, there is an enormous gap between an 
inspection regime that is given full access, and one that is 
cheated upon.
    Now, given full access, our technologies and intelligence 
are such that we can do a very, very good job. I don't think it 
serves our purpose well--that is, the purpose of getting to the 
clear truth of things--to say this work is inherently flawed. 
It isn't. What is its big problem is refusal to allow it to be 
done.
    The Chairman. Well, that's why I asked the question.
    Ambassador Butler. Yes.
    The Chairman. I want to get--yes, Professor.
    Professor Cordesman. Senator, I agree, in broad terms, with 
what Ambassador Butler has said. But going anywhere at any time 
means having all the manpower, the mobility, the resources, the 
monitoring you need. The more you have to do, the more of these 
resources you need. And, you have to have a base point to begin 
with, which means at some point you would have to survey and 
inspect Iraq again, knowing that you will no longer have audit 
trails to the time of the gulf war.
    But beyond that, I don't know of anyone at CDC and 
USAMERID--and I would suggest you ask them--who believe that if 
a country is willing to use infectious agents or genetic 
engineering you can be certain they will be found through 
inspection. The facilities involved are so small, so easy to 
scatter, the amount of agent that is needed is so limited, ways 
you can deliver them can be covert or use human agents. So, you 
may end up, if you try to inspect without putting the resources 
in, by pushing people into biological options and into the 
worst-possible attack scenarios. That risk should be kept 
firmly in mind.
    The Chairman. I acknowledge that, understand that. That is 
able to be done by Iraq, even if Saddam is gone.
    Professor Cordesman. Yes.
    The Chairman. And so I think we should be looking for 
here--at least I'm looking for the broadest, most rational 
understanding of what our options are and what we can and 
cannot be certain of. And the truth is there's a lot of things 
we can't be certain of, but everything is probabilities as we 
move down this road.
    I realize my time is up. I'm going to followup, though, 
with the permission of my colleagues, on one question, and that 
relates to nuclear capability able to be married to a missile, 
a medium-range or longer-range missile. Both of you who have 
been involved in the inspection side of this in the past, and 
you, doctor, who were involved in the production side, if you 
will, to use the phrase loosely, would be as qualified as any 
witnesses we're going to have to answer the following question, 
and that is that if Saddam were successful in building an 
intermediate-range missile or a missile that is--much further 
than 160 kilometers, and if he were able to provide a nuclear 
warhead on that missile--as we all know, it's a heck of a lot 
easier to put a chemical or biological warhead, for no other 
reason, for the layman out there, other than the pure weight of 
the object--would we be able to have enough notice of that, not 
in terms of whether they developed the capacity on the nuclear 
side, but on this missile side, and would we be able to 
preemptively move against that system, that nuclear delivery 
system, as others have on other occasions? Do you understand my 
question?
    Doctor Hamza.
    Dr. Hamza. There are two stages, Senator, for the delivery 
system to be successful. One is that the nuclear weapon itself 
has to be hardened to withstand the missile trip itself, which 
can----
    The Chairman. What you mean by that is, it has to be 
hardened enough so the vibration and the thrust and the force 
and the warhead can sustain that and stay intact, correct?
    Dr. Hamza. Exactly.
    The Chairman. OK.
    Dr. Hamza. Iraq has not done that, until I left. Now I'm 
talking about 8 years ago since I left. We had no, as I said, 
high-level defector to tell us what is going on down there in 
any case. I expect that's a defined project and this work must 
be done. So Iraq needed to do that at the time. I don't know if 
it has been done. I don't think the inspectors found anything 
in that direction up to 1998. They are in a better position to 
answer that. My impression, they did not find any trace of 
serious Iraqi work in that direction. Whether it happened since 
1998 until now, my guess it would.
    The second stage is mating that to a missile. The Iraqi 
missile has a problem, that's the payload gets much smaller 
with the increased range, because what they are doing is not--
--
    The Chairman. By ``payload,'' you mean----
    Dr. Hamza. Yes.
    The Chairman. It's important, I think, if this is being 
listened to by the American people. The payload means the 
actual weapon that sits on top of that missile----
    Dr. Hamza. Exactly.
    The Chairman [continuing]. And the heavier that payload the 
less distance that same missile could travel.
    Dr. Hamza. Exactly.
    The Chairman. If you had a light payload, it can travel 
further. If a heavier payload, it travels less far. Correct?
    Dr. Hamza. Exactly correct.
    The Chairman. All right.
    Dr. Hamza. And the problem with the Iraq missile system is 
that Iraq did not develop a medium-range missile. It took 
short-range missiles and extended the range, and that meant the 
payload will be smaller eventually. So we had that problem. We 
faced it when I was there. And that was one of the things that 
was under consideration. I don't know if Iraq resolved that 
either.
    So the problem of delivery of a nuclear warhead by a 
missile remains to be questionable by Iraq, so one has to look 
at other options that Iraq could use to deliver its nuclear 
weapons. But my belief right now, Iraq does not have this 
capability yet.
    The Chairman. Mr. Ambassador.
    Ambassador Butler. Yes, Mr. Chairman, I'll try and keep 
this short because of the time factor. What Iraq was doing in 
my time there was trying to increase----
    The Chairman. For the record, your time ended when?
    Ambassador Butler. The last time I was in the country was 
1998. My job ended in 1999.
    They were attempting to increase the fuel loading on a 
given missile to make it go longer. That is, another way to 
make a missile fly longer is to increase the amount of fuel. 
But if you do that, you reduce the amount of space left for the 
size of the warhead.
    In our experience then, Iraq had loaded chemical and 
biological agent into warheads, and it seemed to be more 
interested in that. I think the ultimate goal of Saddam is to 
have a nuclear weapon deliverable by missile. That's a very 
effective way to deliver a nuclear warhead. It's by long 
distance. You're well away from where the explosion will take 
place. And it's very dangerous, very effective. But that 
requires a certain kind of missile, one that will fly a good 
distance, carry a nuclear weight at the top, and have a good 
guidance system. I don't believe that Iraq is near that yet. 
Does he want it? Yes.
    The Chairman. Well, my question is where do you think they 
are?
    Ambassador Butler. I think what they were contemplating 
what they were contemplating was delivery of a nuclear weapon 
by other means.
    The Chairman. In the past, and, Professor, I'd like you to 
respond, as well. In the past--I've been doing this strategic 
doctrine issue for 30 years--when we were talking about Russia, 
we used to always say Russia would never deploy what they 
haven't flight tested. Russian would never rest--no nation 
would rest its security based upon a missile--or a system that 
hadn't been tested.
    I assume we're operating on a different premise relative to 
this fellow, but would there not--add to your answer, if you 
would, whether or not there would be a requirement for some, or 
is there a requirement for any flight testing in any way for 
this guy to engage in the contemplated use of that combination 
of a missile and a warhead that's nuclear?
    Professor Cordesman. Senator, all I can do is give you 
another worst-case scenario, because I think Dr. Hamza and 
Ambassador Butler are completely correct. If you could obtain 
small Russian nuclear weapons, if you could get these in ways 
which allowed you to bypass the Russian security systems on the 
weapons--and it is a matter of public record that some of these 
systems are relatively primitive and non-destructive----
    The Chairman. Again, for our listeners, we're talking about 
a whole system. We're talking about an intermediate or a short-
range nuclear missile. We're not talking----
    Professor Cordesman. No, I'm talking only about something 
like a nuclear device, whether it is a small tactical nuclear 
weapon or the kind of thing that might be used in a MIRVed 
missile. It would be a nuclear device, however, that had 
sufficiently low weight so it could still meet the very real 
constraints that Dr. Hamza raised, and some of these Russian 
weapons were not designed to be protected against intrusive 
arming.
    Now, if you used a similar payload, got the weight and size 
exactly right, and then you started firing what they can 
logically fire, which are missiles with the range of 150 
kilometers or less, you might be able to conduct the test of 
such a warhead without it being detected. And, if you then put 
that warhead on a longer-range missile, and were willing to 
strike at a city-sized target, it is just possible that you 
might be able to create a missile launch capability without 
extensive testing or with that kind of testing although that 
would be at the absolute margin of risk.
    However, Saddam did use chemical weapons that were 
manufactured in laboratories early in the Iran-Iraq war with no 
prior testing whatsoever. He went directly from the lab to the 
battlefield.
    The Chairman. Isn't that a difference, though, between 
testing a chemical agent and relying upon testing--I mean, 
using, without having tested at all, a nuclear warhead on a 
missile?
    Professor Cordesman. As Ambassador Butler pointed out, what 
makes this man different from all other proliferators is his 
proven history of risk-taking. And the fact that the nuclear 
weapon might never get near its intended target----
    The Chairman. Would be irrelevant to him?
    Professor Cordesman [continuing]. Would not always be 
reassuring.
    Let me just add one other point about biological and 
chemical weapons. It is extremely difficult to put useful 
biological and chemical weapons on a missile warhead. It 
requires exact fusing and a nondestructive mechanism to spread 
the agent. Nothing Iraq had--and I will defer to Ambassador 
Butler and Dr. Hamza--in 1998 that was discovered by UNSCOM 
came close to that. They were crude unitary warheads with 
contact fuses.
    One caution. A lot of the necessary fusing is becoming 
commercially available, and the best nonexplosive dissemination 
device, unfortunately, is the air bag used in cars, so you 
can't rule that possibility out.
    The Chairman. If I can translate what you just said, it's 
difficult, and it's important.
    I have one concluding question, and I'll yield a longer 
round to each of my colleagues, as I have had.
    If we operate on the premise--and I have been corralling 
men and women like you for the past year, who are experts in 
your field, and boring them to death with questions for hours 
on end in my office trying to gain as much knowledge and 
background as I can. And one of the things, whether people are, 
quote, ``for moving or not moving,'' one consensus I seem to 
get from whomever I speak with wherever they are in the 
equation of moving sooner than later or not moving at all or 
containing or whatever is that this is a different-breed-of-
cat, this fellow, and that if, in fact, he is cornered, if, in 
fact, his regime is about to come to an end, that's the place 
at which he is the most dangerous, that's the place he's most 
likely to use whatever it is that he has that can be the most 
destructive. And the thing that I hear most often stated is 
that the issue is whether or not he will preemptively use any 
weapon of mass destruction, whether he will use it only in 
response to an invasion, or whether he will use it as a last-
ditch effort to save himself by either broadening this to a 
regional war or whatever.
    What evidence do we have that contained and beyond we've 
provoked so far, unprovoked beyond this point, is that he would 
offensively, without further provocation, use a weapon of mass 
destruction, when, in fact, the rationale offered by all of you 
is that this is a guy whose first and foremost desire is to 
stay in power? Explain that--what seems to me to be a bit of a 
conundrum here.
    Why would he offensively--for example, the discussion now 
is we'd better move now, not because he'll have weapons to 
blackmail us as they get more sophisticated, but that he may 
very well deliver these weapons into the hands of terrorists to 
go do his dirty work, or he would preemptively strike Israel, 
strike American forces in the region, strike neighbors, et 
cetera. Why would he do that? What in his past would indicate 
he would do that knowing that, as one of you said, he would 
invite an incredible response? That seems certain to me he 
would invite an overwhelming response. A lot of innocent people 
would die in the interim, but--any comment on that? And then 
I'll yield.
    Professor Cordesman. Let me, if I may, Senator--I felt 
exactly the same way after the Iran-Iraq war, which was the 
first time he showed he was willing to take incredible risks. 
But, he did invade Kuwait. He used chemical weapons against his 
own Kurds, admittedly not in the face of the absolute guarantee 
of retaliation or the risk of it that he would face in 
attacking us. But, the problem we all have is we're trying to 
read the mind of one person or those of a very narrow group of 
Iraqis and figure out how they might behave under stress or 
over time.
    I would add that wars of intimidation in the gulf can be 
very, very important if he can use such intimidation to really 
lever the behavior of Saudi Arabia and other countries. We do 
have to remember that 60 percent of the world's oil reserves 
here and our own forecasts are that the world's economy will be 
dependent on the gulf for twice as many oil exports by 2020 as 
it is now.
    Dr. Hamza. The whole idea that Saddam will use a nuclear 
weapon and just attack I don't think comes into play here. What 
happens here is that nuclear weapons at least will be the 
deterrence he needs to have a free hand in the region. That's 
the fear, not the fear that he will put nuclear weapons on a 
missile and shoot it at Israel or the United States. We know 
what kind of response he will get, and he knows it as well.
    What will happen next is that if he gets the deterrence he 
needs to have a free hand in the region, what shape of action 
do we need to take against him, and what kind of situation 
would we be in in the future? That's the danger.
    The Chairman. I appreciate the answer, because--I am not 
trying to make a case. I'm trying to understand a point, 
because my instinct, talking to so many people, is that the 
real concern is being able to leverage that capability, as 
opposed to him preemptively waking up one morning saying, ``You 
know, I'm going to take out Riyadh,'' or ``I'm going to take 
out Tel Aviv,'' or ``I'm going to take out Ankara,'' assuming 
he had the range to do that, which he doesn't, not at this 
point. But, at any rate, do you want to conclude? I've really 
gone beyond my time.
    Ambassador Butler. Just very quickly, Senator. I think one 
must acknowledge that it's extremely uncomfortable for us to 
know that he's there with these weapons. But one has to draw a 
distinction, I think, between that discomfort and a rational 
calculation of what he might do. And if you accept that one of 
his fundamental imperatives is to stay in power, then it's hard 
to think that he would wake up one morning and decide this is 
the day that I'm going to go and attack the United States, 
because he knows that that would be suicide. So I think that's 
a very important distinction to draw. No one is comfortable 
with his weapons status. And why should we be? But one has to 
keep clear eyes about what he might calculate to serve his 
interest.
    The Chairman. I thank you.
    And I thank Senator Chafee for his indulgence. Fire away, 
Senator.
    Senator Chafee. Thank you very much, Mr. Chairman. This 
panel is, the topic is ``The Threat,'' and I guess that's 
probably the most important place to start, is the threat, and 
then in subsequent panels, we'll talk about possible responses, 
regional considerations, the day after, and national security 
perspectives. But, of course, I do think the threat is the most 
important one, of course.
    And there was a recent story in the Washington Post, a 
Sunday story, in which it says that, ``Many senior U.S. 
military officers contend that Saddam Hussein poses no 
immediate threat, and that the United States should continue 
its policy of containment.'' I know Senator Lugar and Senator 
Hagel have talked about containment. But some of the other 
quotes from the article are that, ``This approach is held by 
some top generals and admirals in the military establishment, 
including members of the Joint Chiefs of Staff.'' And some of 
the quotes are, ``In my assessment, the whole containment and 
sanctions policy has worked better than it's given credit 
for.'' And another quote is, ``We've bottled them up for 11 
years, so we're doing OK.''
    I do think that it would have been good to have that 
perspective on this panel, for better balance. I think we've 
got, from this panel, a perspective that the threat is very 
real, very immediate. And I maybe would ask you to comment on 
some of these senior military officials, including, according 
to the article, members of the Joint Chiefs of Staff, and 
their----
    The Chairman. If the Senator will yield just for a moment. 
I apologize, but----
    Senator Chafee. Excuse me.
    The Chairman [continuing]. The Senator from Florida is 
going to chair the hearing. I have to leave for a few minutes. 
And after this panel is over, we'll recess for 45 minutes for 
lunch. I'm not suggesting you finish now. When the panel is 
finished, we'll recess for 45 minutes.
    I assure you, Senator, there are other witnesses coming 
along who think the policy containment is just fine. So I hope 
you'll find this is extremely balanced when we finish the whole 
2 days of hearings.
    But I thank you for your letting me interrupt, and I turn 
the gavel over to the Senator from Florida.
    Senator Chafee. Thank you, Mr. Chairman.
    I guess I'll put my question specifically to Ambassador 
Butler, because one of the quotes from this article was that 
senior officers believe the policy has been more effective than 
is generally recognized. And as evidence, the top brass said 
the approach has deterred Hussein from threatening his 
neighbors and from backing terrorist organizations.
    And in your testimony, you said the opposite. You said, 
``We do know that Iraq has trained terrorists from around the 
region and has mounted terrorist actions of its own as far 
afield as Southeast Asia.'' And I think you mentioned that you 
had some personal experience in that. So I'd maybe ask you to 
expound on that experience you have with Hussein training 
terrorists.
    Ambassador Butler. Dr. Hamza gave more detail of that, and 
there was no prior consultation between him and me before we 
started work today. He referred to the terrorist training 
center at a place called Salman Park, outside Baghdad. There 
are detailed accounts available now of the throughput through 
that center of a variety of nationalities, most of them from 
countries in the Middle East. But the point is not just Iraqis, 
but a multiplicity of nationals have been that school trained 
by Iraq in techniques of terrorism.
    The incident that I referred to in Southeast Asia, when I 
said I had one personal experience of the reach of Saddam, was 
that during the gulf war, Saddam sent a terrorist hit group to 
Bangkok, Thailand, when, at that time, I happened to be an 
Australian Ambassador to Thailand. The existence of that group 
was identified by intelligence authorities, and their plan was 
to make an attack upon the embassies of the United States, 
Australia, and Israel in Bangkok. Australia got this happy 
mention because we were a participant on the coalition of 29 
countries that then sought to expel Iraq from Kuwait.
    There was a bit of a crisis in Bangkok. I had to ask 
assistance of the Thai Army. They lived in our embassy compound 
for a month, some several hundred soldiers and so on, until the 
threat abated. The end of the story is that the cell involved 
was found, it was heavily armed, and did, indeed, have detailed 
plans for a military attack upon those three embassies. Dr. 
Hamza referred to other instances where Iraq has conducted 
assassinations and so on well away from Iraq. Those were the 
sorts of activities to which I was referring.
    Is there another part of your question that I've left out?
    Senator Chafee. No, that was it. Your testimony was about 
that experience in Southeast Asia and----
    Ambassador Butler. But I do, I just want to say I do----
    Senator Chafee. It sounds like you're taking great 
exception to the Washington Post article and some of the quotes 
in there.
    Ambassador Butler. Sorry?
    Senator Chafee. It sounds as though you're taking exception 
to some of the quotes in that article that--the one I just 
read, ``Senior officers believe the policy of containment has 
been effective--more effective than is generally recognized. 
And as evidence, the top brass said that the approach has 
deterred Hussein from threatening its neighbors and from 
backing terrorist organizations.''
    Ambassador Butler. Yeah. No, I would like to address that. 
Saddam Hussein has backed terrorism in a general way. What we 
don't know is the nature of his involvement, if any, in 
September 11. There is some circumstantial evidence that 
suggests there has been some involvement.
    I don't agree with what you've quoted. I think that--I 
already said this morning that a policy of containment was an 
essential weapon. It's been well used. But by itself, it's not 
enough. We had other weapons, as well: arms control, 
inspections, and so on. And I think it's not appropriate or 
complete to say that that will serve us well into the future. 
The continuing existence of Saddam Hussein with his weapons of 
mass destruction activities and his continually throwing petrol 
on the fire of political problems in the Middle East is 
something that I think is very dangerous in world politics, and 
that is not addressed simply by a policy of narrow containment 
of him.
    Senator Chafee. Yes. I know my time is expired, but I want 
to say that I think that's the key here, is the existence of 
the threat. And there's some dispute. And yourself recognize, 
since we haven't been able to inspect, we just don't know. And 
I think that's really the key. It would be great to hear from 
some of those officers or anybody else that has a different 
point of view on this what is the threat. I think the three of 
you have been very strong that the threat is immediate, and 
it's real. I think, for the benefit of our study, it would have 
been good to hear an opposing point of view.
    Senator Nelson [presiding]. Professor.
    Professor Cordesman. I don't believe you were here when the 
question was asked whether containment was exhausted, and I 
think the answer that both Ambassador Butler gave and I gave 
was no.
    Now, I do have to say, Senator, that I get very disturbed 
when people quote the Joint Chiefs by anything other than name. 
And it is always easy to find somebody in the joint staff who 
will say virtually anything if you keep calling. So I do not 
deny that containment can go on. But, at least from my own 
view, one thing we have to understand is there will never be a 
point certain at which this risk reaches unacceptable levels, 
unless Saddam attacks or threatens somebody else very visibly.
    The other thing to remember is what containment really 
means. It means a ruthless effort to stop arms imports, 
transfers of technology, the willingness to be in place and 
strike if he openly violates, in terms of weapons of mass 
destruction, as we have done in the past, and to go on with a 
low-level war with his air defenses. If that is sustaining 
containment, then we are doing a great deal. But there is not a 
neat dividing line between resting in place and throwing Saddam 
out of power.
    Senator Chafee. Well, yes, I couldn't agree more. And, in 
fact, you were the one that quoted Pliny and talked about body 
bags, and that's why I think the key is the threat, and that's 
what we've got to really get to the bottom of. And I believe I 
was here on the question about containment and that we haven't 
exhausted it. But exactly what's taking place in Iraq is, I 
guess, a mystery.
    Senator Nelson. Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    As one of you referenced, on Monday Secretary of Defense 
Rumsfeld said that, ``The Iraqis have a great deal of what they 
do deeply buried,'' suggesting that air power alone might not 
be enough to destroy Iraq's non-conventional weapons 
facilities. We hear a lot about these bunkers, and I want to 
just focus for a minute on the issue of the underground sites 
themselves.
    Writing 4 years ago in the Bulletin of the Atomic 
Scientists, Dr. Hamza suggested that the Iraqis, aware of the 
success of satellite remote sensing in uncovering underground 
facilities, decided not to build underground facilities. Do we 
have reason to believe that the Iraqis altered their policy on 
this issue? And if so, why? And we'll start with you, doctor.
    Dr. Hamza. Yes. Apparently, the nuclear facilities 
themselves are above ground mostly. But what happened is that 
now Iraq shifted--according to one civil engineer who defected 
recently, shifted into building smaller underground facilities. 
And to cover that, they understood the satellite angle quite 
well, that if you dig underground, this is a red flag and 
everybody will be watching. Every satellite passing by will be 
making tapes of what they are doing.
    So what happened is they started doing that under existing 
bunkers and under bungalows, so they had a surface cover to do 
it, according to that engineer. And they do it also in 
duplicate, so that if one site is compromised, they can go back 
to the backup site.
    So the policy has been changed, according to the defector, 
and this is very credible report he is giving us, and it's been 
verified here.
    Senator Feingold. Either of you have a comment on that?
    Professor Cordesman. I think, Senator one comment, first. I 
don't think the Secretary of Defense would say this carelessly, 
but it is a mixture of what you harden and how many things you 
harden, how many dispersed soft targets you have, how quickly 
you can move your assets when you feel you are about to be 
seriously under attack, and how well you can use decoys and 
deceive.
    Now, we know the Iraqis use all four of those techniques. 
We know they have refined them steadily since the attack on 
Osirak. It is simply a reality that you are not going to be 
able to target a lot of their assets.
    We flew, as I said earlier, some 2,400 sorties against 
Iraq's Scuds the last time. Suppressed them? Probably, at least 
in part. Killed any? No. The idea of having the perfect target 
mix to strike at just the right times seems to me to be simply 
impossible.
    Senator Feingold. Thank you. Let me ask a different 
question. Some of the rhetoric about Iraq suggests that the 
primary concern is the proliferation of weapons of mass 
destruction, the notion that the Government of Iraq is willing 
to provide such weapons or the means to make them either to the 
highest bidder or to groups that share some element of the 
Government of Iraq's world view. And, of course, the precise 
nature of the proliferation to a non-state actor scenario is 
not entirely clear. But if this is the case, then it seems to 
me that countering that threat means securing materials in 
widely dispersed sites, some of which we may know about, and 
some of which we may not. If an invasion were to begin, if the 
government were to be toppled, wouldn't there be some degree of 
chaos for some period of time, along with ``use it or lose it'' 
pressures? Can't we expect, perhaps, self-interested 
individuals to start selling off whatever they can to the 
highest bidder or taking materials of concern out of the 
country for purposes of such sales? In other words, isn't less 
control arguably even more dangerous than the current 
situation?
    I'd also like you to address whether or not this scenario 
would argue against the so-called inside-out approach that was 
detailed in Monday's New York Times?
    Professor.
    Professor Cordesman. I think you hit on a very real risk, 
just that striking some of these weapons might cause collateral 
damage. But several points to bear in mind: it's going to get 
steadily worse, not better. And if it gets bad enough, then the 
ability to use these systems to intimidate or to be able to 
sort of sell or proliferate them, without credible retaliation, 
will grow with time, not again with any clear point at which 
this occurs.
    My guess, and it's only a guess, would be that this risk at 
this point in time is limited. Perhaps, in part, because those 
countries that wish to disseminate chemical and biological 
weapons, or wish to have them, are already doing pretty well on 
their own, and the incremental effect here might be limited.
    But your last question, to me, is one of the most 
important. I think that you may be able to defeat the core of 
Saddam's operation by focusing on the core of his power. But 
certainly you have to be ready simultaneously to go into other 
parts of the country and do what UNSCOM couldn't finish. You 
can't simply rely on the opposition to turn it over to you.
    Senator Feingold. Other responses, if I could, Mr. 
Chairman?
    Senator Nelson. Yes. Ambassador.
    Ambassador Butler. Yes, just very quickly, Senator, on your 
last question about things underground. When I heard the recent 
focus on that issue, I was utterly unsurprised, because our 
experience in UNSCOM was of, you know, elaborate use of 
underground facilities.
    I just would add this additional concept, which is 
underground, but under buildings, because that prevents you 
from seeing the tunneling from the air if the tunneling is 
under buildings, including Presidential palaces. And that's a 
concept that you will remember from a few years ago.
    Now, I agree with what Professor Cordesman has said to you 
with respect to your last question. It is a very bad situation 
in Iraq. And were he to be removed, it's possible, of course, 
that there could be a period of relative chaos or even a spot 
of anarchy and people getting stuff and selling it off and so 
on. It's not necessarily a good situation. What that means is 
that we must know who would replace him, and hopefully a bunch 
of people who are free of the weapons of mass destruction 
mindset.
    Before we stopped for the votes, the chairman put the 
question to us about the removal of Saddam, ``Is it just about 
this person?'' And remember, I'm one who argued that this 
country is unique in its present circumstances, and that 
uniqueness is indivisible from the fact that the President is 
Saddam Hussein. I think, in some measure, it is him. But it's 
also a mindset, and we would need to be sure that the group 
that replaced him was not in possession of the same mindset.
    Now, I would caution against the reasoning that says this 
is a very bad situation, and were we to try to deal with it, 
it's going to create some bad circumstances, like hitting 
weapons which would then disperse them, chemical or biological, 
or a situation where people are selling on the black market bad 
stuff that's been made by Saddam and so on, and therefore we 
shouldn't do it, because that just puts off the evil day.
    I agree with Professor Cordesman. If we don't find the 
solution to this soon, which ultimately must mean a group of 
people in control in Iraq who do not have his mindset with 
respect to these weapons, it's going to be harder in the 
future.
    Senator Feingold. Well, those are very helpful answers. I 
thank you, Mr. Chairman.
    Senator Nelson. Senator Lugar.
    Senator Lugar. I have nothing further.
    Senator Nelson. Give us your opinion about the complicity 
of Syria in avoiding the U.N. sanctions. Who would like to 
start? Professor.
    Professor Cordesman. Senator, I think that we have perhaps 
found ourselves in a position where, because Syria has 
cooperated in some aspects of dealing with al-Qaeda and certain 
types of Islamist extremists, we've been a little reluctant to 
point out the fact that there is an increasing flow, not so 
much of major arms, but critical parts. We know things like jet 
engines, tank engines, some aspects of armored spare parts are 
beginning to move through Syria in very significant deliveries. 
I think, however, to get down to the details is something that 
really only people in the intelligence community can tell you.
    Senator Nelson. Any other comments?
    Ambassador Butler. Not much to add to that except that 
Syria has increasingly been a willing participant in Saddam's 
breaking of the sanctions and running a black market in oil and 
so on. So they've given comfort to him in financial terms. And 
a good deal of the money that he raises that way, outside of 
the U.N. escrow account and oil for food and so on, of course, 
fuels his military and other activities.
    Senator Nelson. The first downed pilot, through a series of 
mistakes, we left down, Commander Scott Speicher. Since then, 
we have credible evidence of a live sighting of Commander 
Speicher being taken to a hospital. Do any of you have any 
information with regard to the whereabouts or the condition of 
Commander Speicher?
    Professor Cordesman. No, sir.
    Senator Nelson. Mr. Ambassador.
    Ambassador Butler. It would be pretentious of me to say 
that I do, in any positive way that would help those concerned 
about him. But let me say, Senator, that I am aware of his case 
and have formed the view, on the basis of information put to 
me--and there are no secrets there; it's not complete 
information--but I've formed the view, and it's only a personal 
opinion, that the possibility that he is alive is not small. 
And I, therefore, do not believe that we should give up on him.
    Senator Nelson. And why do you come to that conclusion, 
that he might be alive?
    Ambassador Butler. Well, I'm not referring to the idea of a 
live sighting. What was found and not found in the 
investigations of the crash site in the desert is one important 
series of factors, and that there wasn't a body, that there's 
not been any mortal remains of the man--and some other 
anecdotal evidence of the kind that you've just added to by 
saying now there's apparently a live sighting.
    I've got no possible way of assessing that. But there are 
individuals who are interested in his welfare and who keep a 
dossier on all of this, and I've seen some of those materials, 
and I think it behooves us not to give up on the possibility 
that he is alive.
    Senator Nelson. Well, I take every opportunity to ask that 
question, whether I'm meeting with the King of Jordan or the 
President of Syria or the Prime Minister of Lebanon, meeting 
with various government officials here, because there's a 
family that's going through agony in Jacksonville, Florida, on 
not knowing what is the status of their family member. So thank 
you for your comments.
    Are there further questions? Senator Lugar.
    Senator Lugar. Mr. Chairman, I'd just ask this of this 
panel. Is there any evidence that Saddam Hussein is giving 
weapons of mass destruction information, parts, weapons 
themselves, to terrorists, broadly defined, whichever group? 
And if he was doing so, would there be any fingerprints of 
this? How would we know? Does anyone have a comment on that?
    Professor Cordesman. I would just say, Senator, that you 
certainly hear other views, but all of my experience tells me 
this is one of the areas where you are coming to the absolute 
core of the intelligence community. One of the great problems 
you have is that when you have an extraordinarily unpopular 
man, you will have report after report of internal division, 
support of terrorism, whatever contributes to taking military 
action against him. Sometimes these will be real, and sometimes 
they need careful verification.
    And one of the most disturbing things, not of what Dr. 
Hamza has said, but what I have heard from others, is the 
tendency to assert a conspiracy theory without citing the fact 
that there are many other equally valuable ways of doing it.
    Finally, if you have a really good intelligence service, it 
doesn't take much to conceal something as small as, say, 
smallpox in a transfer to a potential agent, and you probably 
will never know until it happens.
    Dr. Hamza. According to Richard Sperzel, who is the chief 
inspector of the Iraq biological weapon program--I talked to 
him several times--he is of the opinion that the type of 
anthrax, especially the one that appeared in Senator Daschle's 
letter addressed to him, is a type that would have an Iraqi 
fingerprint on it and that the type of powder used and the 
technology used in loading the anthrax spores on the powder 
would indicate that Iraq is a possible source of this type of 
anthrax. He was not convinced that it is a single individual 
that did it, a loner somewhere. He thinks it is a joint effort, 
a large effort, of an expert team with a lot of technology 
under his disposal.
    So that would be just about the only indication so far that 
there is a possible terrorism source from Iraq using its 
weapons of mass destruction under its disposal.
    Senator Lugar. Ambassador Butler.
    Ambassador Butler. Senator, I've already said this morning 
that I think it would defy rationality for Saddam to supply WMD 
technology to terrorists or other groups. Those weapons are 
identified by him as his indelible source of power and 
authority, and I find it hard to think that he would behave in 
that way.
    But on your direct question, is there evidence? No. What do 
I think? I think there will have been conversations between 
Iraqis and their various friends about the exquisite business 
of how to make certain biological and chemical weapons and so 
on, conversations of a technical character. But there is no 
evidence, that I know of, that they have actually transferred 
such weapons or technology.
    Senator Lugar. As Professor Cordesman has said, in 
ascribing these theories of conspiracy, we need to find 
evidence. I don't think you can base whatever action our 
government wants to take upon supposition, however well 
founded, as some have argued in the press, and this is why I 
raised the question with each of you, and I appreciate your 
responses.
    Thank you.
    Senator Nelson. Any further questions of the committee?
    [No response.]
    Senator Nelson. On instructions from the chairman, who will 
return at 2 o'clock, we will have a short recess, and the 
committee will resume with panel two at 2 o'clock.
    Senator Lugar. Mr. Chairman, the chairman suggested, I 
think, a dispensation of 45 minutes?
    Senator Nelson. Yes, but since then he has sent new 
instructions.
    Senator Lugar. Oh. all right.
    Senator Nelson. And he will return at 2.
    Senator Lugar. Very well.
    Senator Nelson. The committee stands in recess.
    [Whereupon, at 1:45 p.m., the hearing was recessed, to 
reconvene at 2 p.m., the same day.]

                           AFTERNOON SESSION

    The committee resumed, pursuant to recess, at 2:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Sarbanes, Kerry, Feingold, 
Wellstone, Bill Nelson, Rockefeller, Lugar, Hagel, Chafee, and 
Brownback.
    The Chairman. The hearing will please come to order. I want 
to thank all of our witnesses for putting up with this unusual 
schedule. Most of you who have been around here understand it, 
and I know, Mr. Ambassador, you have. It is always dangerous to 
schedule serious hearings the last week the Senate is going to 
be in session for a while, but I felt these were so important, 
as did Senator Hagel, that we should move forward, so again I 
apologize for the interruptions.
    Our second panel is an equally significant panel, and will 
shed a good deal of light on the issues we are discussing here. 
Our first panelist is Ambassador Robert Gallucci. He is 
currently dean of Georgetown University School of Foreign 
Service. I want you to know, dean, that I almost made a mistake 
when I spoke over at Georgetown. I was presented with a 
Georgetown chair that is sitting in my office, with a 
Georgetown seal on it, and as we were about to file my 
financial disclosure I was sitting on the chair and my 
secretary said, are you sure you filed everything, and I said, 
everything I know. She said, how about what you are sitting on, 
and it had not been, and so I might have been before the Ethics 
Committee had I not been sitting in that chair.
    At any rate, he served as Ambassador at Large from 1994 to 
1996, Assistant Secretary of State for Political and Military 
Affairs from 1992 to 1994, and Deputy Executive Chairman of the 
U.N. Special Commission from 1991 to 1992 overseeing the 
disarmament of Iraq, better known as UNSCOM.
    We also have Mr. Charles Duelfer, who has briefed me in the 
past, and I have been ungracious enough to mispronounce his 
name, but he is currently visiting resident scholar at the 
Center for Strategic and International Studies, he served as 
Deputy Executive Chairman of the U.N. Special Commission on 
Iraq from 1993 until its termination in 2000, and for the last 
several months of UNSCOM's existence he served as acting 
chairman.
    General Joseph Hoar, U.S. Marine Corps, retired. General 
Hoar served as commander in chief of the U.S. Central Command 
from 1991 to 1994. He was Deputy for Operations for the Marine 
Corps during Desert Storm, retired in 1994 after a 37-year 
career in the Marine Corps, and we appreciate you being here, 
general.
    Lt. Gen. Thomas McInerney retired from the Air Force in 
1994. Prior to his retirement, Lieutenant General McInerney 
served as Assistant Vice Chief of Staff of the U.S. Air Force. 
He is currently a consultant.
    And Dr. Morton Halperin. Mort is currently a senior fellow 
at the Council on Foreign Relations and the Washington director 
of Open Society Institute. He was Director of the Policy 
Planning Staff for the Department of State from 1998 to 2001. 
He served as Special Assistant to the President, and Senior 
Director for Democracy at the National Security Council from 
1994 to 1996, and was the Consultant to the Secretary of 
Defense and the Under Secretary of Defense for Policy. He also, 
in an earlier incarnation, was the man who I went to most for 
advice relating to civil liberties issues.
    Welcome to you all, and I would invite you in the order you 
have been called to give your statements, if you would. Welcome 
again, Mr. Ambassador.

  STATEMENT OF HON. ROBERT L. GALLUCCI, DEAN, EDMUND A. WALSH 
 SCHOOL OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY, WASHINGTON, 
                               DC

    Ambassador Gallucci. Mr. Chairman, Senator Hagel, I am 
pleased, really, to have the opportunity to appear before you 
today and address the critical issue of American policy toward 
Iraq. I would request, please, permission to provide a written 
statement for the record.
    The Chairman. Without objection.
    Ambassador Gallucci. I would begin with the premise that 
the only way Iraq poses a critical threat to the United States 
or our allies is through the use of weapons of mass destruction 
in one of two scenarios. First, if Iraq were to transfer 
chemical, biological, or nuclear weapons to a terrorist group, 
or second, if Iraq were to use these weapons against American 
or allied forces or homelands in order to impede an American-
led invasion aimed at overturning the Iraqi regime.
    Let me put this another way. If Iraq can be prevented from 
acquiring weapons of mass destruction, and I say particularly 
viral, biological weapons or nuclear weapons, then Iraq poses 
no special threat to America or her allies. If Iraq does 
acquire WMD, the threat still does not rise to a critical level 
because our deterrent, our threat to retaliate in the event of 
Iraqi use of WMD is both credible and effective.
    However, if Iraq acquires and clandestinely transfers WMD 
to a terrorist group, or if the United States should move to 
overthrow Saddam Hussein, then we should not expect our 
deterrent to be effective either in preventing terrorist use of 
WMD against us or Iraqi use against us in an effort to prevent 
regime change.
    This line of reasoning leads us to ask about Iraqi WMD 
capabilities that were addressed this morning. I would submit 
that no one outside of Iraq knows with high confidence what 
those capabilities are today. However, based on 7 years of 
inspections and 4 years without inspections, the only prudent 
assumption is that Iraq has or will have chemical and 
biological weapons at some point relatively soon.
    The nuclear weapons issue I think is more complicated, but 
since Iraq has already done the signature work to design and 
develop the triggering package for a weapon, and the 
acquisition of HEU or plutonium from the states of the former 
Soviet Union cannot be ruled out, we cannot have any real 
confidence that Iraq is not now or will not become soon a 
nuclear weapons state.
    In light of the threat posed by Iraqi acquisition of these 
weapons, the unfulfilled requirements of the 1991 U.N. Security 
Council Resolution 687, the likelihood that Iraq will continue 
efforts to acquire such weapons, and the character of the Iraqi 
regime, I do not think it would be prudent for the United 
States to leave Iraq free to pursue WMD acquisition 
indefinitely.
    This assessment stands even if we lack any intelligence 
that Iraq would, in fact, transfer WMD to a terrorist group. It 
is also an assessment that leads some analysts to favor 
military action against Iraq aimed at overturning the regime, 
which is one of the two circumstances in which deterrence could 
be expected to fail and Iraqi weapons of mass destruction used 
against America or her allies.
    It seems to me, therefore, that if the United States is to 
block Iraqi acquisition of WMD, it should look for ways to do 
so short of such a war for this, if for no other reason, and 
the other reasons, loss of life, severe budgetary consequences, 
alienating friends and allies around the region and around the 
world, and avoiding the challenge of post conflict regime 
reconstruction and maintenance, are important as well.
    The question is, then, can a politically plausible 
inspection regime be designed and put in place that would offer 
sufficient assurance of preventing Iraq from acquiring WMD over 
the long term, and could such a regime be forced upon the 
current Iraqi government in the near term without first going 
to war against that government? Fortunately, 7 years or so of 
UNSCOM inspections give us some insight into what a desirable 
regime would look like, and what pitfalls need to be avoided in 
designing one.
    First, we can assume that any regime that appeared as 
though it would be effective in blocking Iraqi's WMD 
acquisition would also be resisted by Iraq. Therefore, the only 
way to impose such a regime, short of war, would be to pose to 
Iraq the credible alternative of a prompt invasion and regime 
change if the inspection regime is resisted. Just as clearly, 
Iraq must be convinced that accepting such an inevitably 
intrusive inspection regime permanently would, indeed, protect 
it from invasion, at least by the inspection regime's sponsors.
    Second, it should be clear to all by now that an inspection 
regime that fails to give us high confidence that it is 
successfully uncovering and blocking any serious WMD 
development is worse than no regime at all. Such a regime gives 
Iraq cover and gives it the initiative, protects it from 
invasion, and in some circumstances would supply it with 
hostages.
    Third, it is probably true that an inspection regime that 
is too robust, that is, one accompanied by substantial 
supporting military units deployed to the region, would 
inevitably be taken by friends and allies, as well as Iraq, as 
a step to invasion, Desert Shield masquerading as UNMOVIC plus.
    Fourth, we are, therefore, in search of the Goldilocks 
inspection regime, one that is balanced just right to be 
effective, acceptable, and sustainable. Some obvious elements 
of such a regime are the following:
    Inspectors who have unrestricted, unlimited, and immediate 
access to any site in Iraq. There can be no sanctuaries or 
exceptions.
    Inspectors must be chosen for their experience and 
expertise, without regard for geographic balance.
    Inspectors must be free to receive, exchange, and discuss 
intelligence with governments as necessary to conduct their 
missions.
    Inspectors must be able to take whatever steps are 
necessary to maintain the security of their communications and 
their operational plans.
    Inspections must be undertaken in an environment free of 
Iraqi movements of any kind, air or ground, in the area of the 
inspection.
    And here is a key element: Inspectors should have the 
option of conducting inspections supported by a specifically 
configured and prepositioned military unit to assist it in 
entry, prevent loss of containment at an inspectionsite, and to 
manage any spontaneous civilian opposition.
    On the last point, the inspection regime thus must be 
capable of inspecting any designated site and overcoming any 
Iraqi noncooperation or resistance, except that mounted by a 
significant military unit. In short, if an inspection fails, it 
must do so in a way that creates a clear casus belli.
    There will be many with international inspection experience 
who would only participate in an inspection regime that 
presumed host government cooperation, and who would oppose a 
regime that had a military force organic to it, as I propose 
here. There are good reasons for adopting such a position as a 
rule, but our past experience with UNSCOM provides ample reason 
to treat Iraq as an exception to that rule.
    This inspection regime would be designed to prevent Iraq 
from manipulating the inspection process. It would aim to 
strike the right balance, linking the inspection regime to an 
invasion if Iraq fails to cooperate, without being so robust as 
to appear an inevitable move to overthrow the Iraqi Government.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Gallucci follows:]

 Prepared Statement of Amb. Robert L. Gallucci, Dean, Edmund A. Walsh 
            School of Foreign Service, Georgetown University

    Mr. Chairman, and members of the Committee, I am pleased to have 
the opportunity to appear before you today to address the critical 
issue of American policy toward Iraq.
    I would begin with the premise that the only way Iraq poses a 
critical threat to the United States or our allies is through the use 
of weapons of mass destruction (WMD), in one of two scenarios:

          if Iraq were to transfer chemical, biological or nuclear 
        weapons to a terrorist group; or

          if Iraq were to use these weapons against American or Allied 
        forces, or our homeland's, in order to prevent or impede an 
        American led invasion aimed at overturning the Iraqi regime.

    Let me put this another way. If Iraq can be prevented from 
acquiring WMD--particularly viral biological weapons or nuclear 
weapons--then Iraq poses no special threat to America or her allies. If 
Iraq does acquire WMD, the threat still does not rise to a critical 
level because our deterrent, our threat to retaliate in the event of 
Iraqi use of WMD, is credible and effective.
    However, if Iraq acquires and clandestinely transfers WMD to a 
terrorist group, or if the United States should move to overthrow 
Saddam Hussein, then we should not expect our deterrent to be 
effective, either in preventing terrorist use of WMD against us, or 
Iraqi use against us in an effort to prevent regime change.
    This line of reasoning leads us to ask about Iraqi WMD 
capabilities. I submit that no one outside of Iraq knows with high 
confidence what those capabilities are today. However, we do know that 
Iraq had programs that successfully produced chemical weapons (CW), 
including VX, biological weapons (BW), including anthrax, and an 
implosion type nuclear weapons triggering package with some, but not 
enough, fissile material for a weapon. We also know what was destroyed 
over seven years of UINSCOM inspections, suspect some material that had 
been produced was not found, and that more has been produced during the 
last four years of no inspections. Furthermore, since clandestine 
manufacture of BW and CW agents could be accomplished by Iraq without 
high confidence of detection by allied intelligence agencies, and 
Iraq's intention to acquire those weapons cannot be assumed to have 
diminished, the only prudent assumption is that Iraq has or will have 
chemical and biological weapons at some point.
    The nuclear weapons issue is more complicated. Although the wish to 
acquire nuclear weapons must be assumed to continue in the Iraqi 
leadership, the facilities required to produce the necessary fissile 
material probably would be detected, even if Iraq attempted to 
clandestinely construct them, especially if plutonium was sought. That 
said, a clandestine centrifuge program, producing highly enriched 
uranium (HEU) could not be ruled out. What makes matters worse, 
however, is that the acquisition of HEU or plutonium from the states of 
the former Soviet Union cannot be ruled our either, in light of the 
well known inadequacies that persist in material accountancy and 
control in those countries. Since Iraq has already done the 
``signature'' work to design and develop the triggering package for a 
weapon, we cannot have any real confidence that Iraq is now, or will 
remain, a non-nuclear weapons state.
    In light of the threat posed by Iraqi acquisition of WMD, the 
unfulfilled requirements of the 1991 UN Security Council Resolution 
687, the likelihood that Iraq will continue efforts to acquire such 
weapons, and the character of the Iraqi regime, I do not think it would 
be prudent for the United States to leave Iraq free to pursue WMD 
acquisition indefinitely. This assessment stands even if we lack any 
intelligence that Iraq would, in fact, transfer WMD to a terrorist 
group. It is also an assessment that leads some analysts to favor 
military action against Iraq aimed at overturning the regime--which is 
one of the two circumstances in which deterrence could be expected to 
fail and Iraqi weapons of mass destruction used against America or her 
allies. It seems to me, therefore, that if the United States is to 
block Iraqi acquisition of WMD, it should look for ways to do so short 
of such a war for this, if for no other reason. And the other reasons--
loss of life, severe budgetary consequences, alienating friends and 
allies in the region and around the world, and avoiding the challenge 
of post-conflict regime reconstruction and maintenance--are important 
as well.
    The question is, then, can a politically plausible inspection 
regime be designed and put in place that would offer sufficient 
assurance of preventing Iraq from acquiring WMD over the long term? And 
could such a regime be forced upon the current Iraqi government in the 
near term without first going to war against that government? 
Fortunately, the seven years or so of UNSCOM inspections give us some 
insight into what a desirable regime would look like, and what pitfalls 
need to be avoided in designing one.
    First, we can assume that any regime that appeared as though it 
would be effective in blocking Iraqi WMD acquisition would also be 
resisted by Iraq. Therefore the only way to impose such a regime short 
of war would be to pose to Iraq the credible alternative of a prompt 
invasion and regime change, if the inspection regime is resisted. Just 
as clearly, Iraq must be convinced that accepting such an inevitably 
intrusive regime--permanently--would indeed protect it from invasion, 
at least by the regime sponsors.
    Second, it should be clear to all by now that an inspection regime 
that fails to give us high confidence that it is successfully 
uncovering and blocking any serious WMD development is worse than no 
regime at all. Such a regime gives Iraq cover and the initiative, 
protects it from invasion, and in some circumstances would supply it 
with hostages.
    Third, it is probably true that an inspection regime that is too 
robust, that is, one accompanied by substantial supporting military 
units deployed to the region, would inevitably be taken by friends and 
allies, as well as Iraq, as a step to invasion: Desert Shield 
masquerading as UNMOVIC PLUS.
    Fourth, we are, therefore, in search of the ``Goldilocks Inspection 
Regime,'' one that is balanced just right to be effective, acceptable 
and sustainable. Some obvious elements of such a regime are the 
following:

  <bullet> inspectors who have unrestricted, unlimited, and immediate 
        access to any site in Iraq; there can be no sanctuaries or 
        exceptions;

  <bullet> inspectors must be chosen for their experience and expertise 
        without regard for geographic balance;

  <bullet> inspectors must be free to receive, exchange, and discuss 
        intelligence with governments as necessary to conduct their 
        missions;

  <bullet> inspectors must be able to take whatever steps are necessary 
        to maintain the security of their communications and their 
        operational plans;

  <bullet> inspections must be undertaken in an environment free of 
        Iraqi movements of any kind, air or ground, in the area of the 
        inspection; and

  <bullet> inspectors should have the option of conducting inspections 
        supported by a specially configured and prepositional military 
        unit to assist it in entry, prevent loss of containment at an 
        inspection sight, and to manage any ``spontaneous'' civilian 
        opposition.

    On the last point, the inspection regime must be capable of 
inspecting any designated sight and overcoming any Iraqi non-
cooperation or resistance, except that mounted by a significant 
military unit. In short, if an inspection fails, it must do so in a way 
that creates a clear casus belli.
    There will be many with international inspection experience who 
would only participate in an inspection regime that presumed host 
government cooperation, and who would oppose a regime that had a 
military force organic to it, as is proposed here. There are good 
reasons for adopting such a position as a rule, but our past experience 
with UNSCOM provides ample reason to treat Iraq as an exception to that 
rule. This inspection regime would be designed to prevent Iraq from 
manipulating the inspection process. It would aim to strike the right 
balance, linking the inspection regime to an invasion if Iraq fails to 
cooperate, without being so robust as to appear to inevitably presage a 
move to overthrow the Iraqi government.

    The Chairman. Thank you very much, dean.
    Mr. Duelfer.

STATEMENT OF CHARLES DUELFER, RESIDENT VISITING SCHOLAR, MIDDLE 
 EAST STUDIES, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
    WASHINGTON, DC; FORMER DEPUTY EXECUTIVE CHAIRMAN, UNSCOM

    Mr. Duelfer. Again, thank you for asking me to be here 
today, and I would like to have my statement entered into the 
record as well.
    The Chairman. It will be.
    Mr. Duelfer. My comments will draw upon my experience as 
Deputy at UNSCOM from 1993 until 2000. I came to know many 
Iraqis and their organizations quite well. They saw me both as 
a U.N. official and also as an American with whom they could 
talk, and sometimes quite candidly.
    Let me state from the outset that I support the objective 
of creating the conditions where the Iraqi people can establish 
a new leadership in Baghdad. There is a strong case for this, 
when you consider the growing risks posed by the current 
regime, in contrast with what Iraq could be under normal 
leadership.
    The talent and resources that can design and build nuclear 
weapons under Saddam can help Iraq be the leading economy and 
culture of the Middle East under new government. Until that 
happens, the Iraqi people will never achieve their enormous 
potential. Of course, getting there is the issue.
    I have a differing opinion from Dr. Gallucci. In my 
opinion, weapons inspections are not the answer to the real 
problem, which is the regime, nor can they even fully eliminate 
in perpetuity Iraqi weapons of mass destruction so long as this 
regime is in power, and I would make another comment here in 
terms of terminology.
    Earlier this morning, there was a lot of talk about arms 
control, but what we are discussing with respect to Iraq is 
coercive disarmament. Iraq initiated a war, they lost, and part 
of the terms of the cease-fire agreement were that it was 
supposed to get rid of a large part of its arsenal, and that 
was to be verified by UNSCOM. That is not really arms control 
in the classical sense, where two parties enter into an 
agreement because they think it is in their common interest. 
Iraq steadfastly does not believe that it is in its interest to 
get rid of these weapons.
    Here I come to a key problem that I see in this whole 
dynamic, and that is that the forces are all wrong. The 
Security Council writes resolutions demanding Iraq give up 
weapons of mass destruction capabilities which the regime 
believes are essential to its survival. UNSCOM was created to 
attempt to implement this objective. We did a lot. Bob Gallucci 
did a lot. Richard Butler did a lot. All of our experts on the 
ground, they did the most, but ultimately Baghdad had vastly 
more resources than we did, and much more endurance than the 
Security Council.
    Ultimately, the Security Council was not willing to commit 
the resources to enforce compliance. Saddam very cleverly 
divided the Council with threats, rewards, and ultimately by 
holding his own people hostage. He created a situation where 
Council members did not want to see more pain fall on innocent 
Iraqis as a consequence of support to inspectors.
    This will no doubt happen again, and here again I would 
point out the same dynamic occurred after World War I. The 
Versailles Treaty obligated the Germans to disarm. The 
international community created a bunch of inspection teams. 
They had the same problems, they lasted about the same length 
of time, and it ultimately failed.
    But even if you can imagine a radically different approach 
to inspections with a sizable military force, I do not see how 
that would work over the long term. Can we keep forces deployed 
to support inspections forever? Are we really prepared to give 
back to this regime control of the oil revenues? And pursuing 
this approach does nothing for the innocent Iraqis trapped 
under this government.
    In essence, inspections in my opinion are only a short term 
palliative, and do not address the fundamental problem. Saddam 
knows this, and if he concludes we are really preparing for 
regime change, he will offer the concession of allowing 
inspectors in under some conditions. This will only be a 
tactical retreat on his part.
    I want to make a second point now before I conclude. 
Finally--and this has to do with regime change--there is a 
central point that is simple, but it is a central point on 
regime change, and that is that it is fundamentally a political 
objective, not a military one. Military commitment will be 
essential to convince various audiences we are serious this 
time and Saddam's days are numbered.
    However, creating the conditions for new leadership in 
Baghdad demands a political strategy to guide potential 
military action. Moreover, what we do in a nonmilitary realm 
before potential conflict will directly affect the extent of 
possible military conflict and the amount of damage to Iraq and 
ourselves.
    In this light, it is essential that Iraqis in Iraq know 
that their lot will only improve when the current regime is 
gone. Iraqis and key institutions in Iraq should understand 
that their interests are not served by defending Saddam and his 
clique. We can make a good case that intervention is justified, 
given the unique and dangerous characteristics of this regime.
    My guess is that with sufficient work and consultations we 
can build international support to create conditions for regime 
change, and a consensus on characteristics we expect a new 
government to achieve. Moreover, we can make decisions about 
such matters as relieving sanctions, establishing security 
relations, and debt relief, based upon how the new government 
progresses toward higher standards, but I reiterate, our 
highest priority should be convincing Iraqis in Iraq that they 
will be better off when Saddam has gone, and that he will be 
gone.
    Iraqis and their institutions will be making vital 
decisions about their future without Saddam. The Iraqi people 
are the greatest threat to Saddam's regime. If they are 
convinced Saddam and his clique are doomed, they will make 
decisions that are in their interest and our interest, and any 
ultimate use of force can be minimized.
    Finally, let me just make a comment, a personal comment. I 
remember asking a senior Iraqi once whether he served his 
country or Saddam. It was not possible for him to answer, but 
he definitely understood the difference. In essence, we need to 
make it possible for the Iraqi people to act in the interests 
of their country and not Saddam Hussein.
    Thank you.
    [The prepared statement of Mr. Duelfer follows:]

   Prepared Statement of Charles Duelfer, Resident Visiting Scholar, 
Center for Strategic and International Studies; Former Deputy Executive 
      Chairman, United Nations Special Commission on Iraq (UNSCOM)

    Thank you for the opportunity to testify at such a critical moment 
with respect to relations and actions toward Iraq. My remarks will 
reflect my years investigating Iraq's weapons programs as the Deputy 
Executive Chairman of UNSCOM. This gave me the opportunity to know 
Iraqi institutions and individual Iraqis high and low. I dealt with 
diplomats, technocrats, military, intelligence and regime officials as 
well as many Iraqis who have departed Iraq. While I was a UN official, 
my Iraqi interlocutors were always aware that I was an American 
familiar with Washington and its policies on Iraq.
    As other witnesses have made clear, a key feature of the present 
regime is its dedication to all types of weapons of mass destruction. I 
can only underline the view that, all other things being equal, the 
current leadership in Baghdad will eventually achieve a nuclear weapon 
in addition to their current inventories of other weapons of mass 
destruction. For more than a decade the regime allocated billions of 
dollars and the efforts of thousands of individuals toward this end. 
That they were near success in 1991 is a tribute to the vast talent of 
the Iraqi people, the great resources of the country, and their 
misdirection by reckless, oppressive leadership. To me this highlights 
the enormous difference between what Iraq could be under different 
leadership and what it will be if the present regime continues.
    Looking forward, the risk posed by the present regime will entail 
leverage of growing oil production (perhaps to 4-5 million barrels a 
day in a few years), the diminished effectiveness of sanctions as a 
restraining force, and the ultimate risk of a belligerent state in the 
region with nuclear weapons. The leadership in Baghdad knows that it 
was a serious blunder to invade Kuwait before they had a nuclear 
weapon. Regional states know this as well and recognize they will have 
to accommodate Saddam once a nuclear weapon is achieved. Even now they 
are very cautious not to antagonize the regime. So far, Saddam has 
proven to be a survivor and quite willing to exercise whatever leverage 
available to him.
    In opposition to the accumulating dangers of the present regime, it 
is worth considering the opportunity cost to the world, and especially 
to the Iraqi people of the persistence of this regime.
    In my experience, most Iraqis would like nothing more than to be 
reconnected to the rest of the world and indeed, the United States. 
Through the accident of birth, individuals with talent in the sciences, 
engineering and even military serve in a country under a miserable 
leadership. Exercising the option of not serving at the direction of 
the regime is to put themselves and families at great risk.
    During my years at UNSCOM, working toward the elimination of Iraqi 
WMD capabilities, I often commented to colleagues in Washington that if 
I had 100 green cards to pass out, we could have the Iraqi program 
dissected and eliminated. This was meant to illustrate that the 
programs depend critically on a relatively limited number of people--
people, who, given a choice, would rather be someplace else. Of course 
no one provided them such a choice. Nevertheless many Iraqis leave if 
they can. The constant drain of Iraqis illustrates the hopelessness in 
Iraq. A country with all the ingredients to be a growing regional 
economic power is, instead, a waste of great talent and squandered 
resources.
    The long-term threat posed by this regime cannot, in my opinion, be 
addressed with weapons inspections. The experience of UNSCOM from 1991 
to 1998 bears this out. While UNSCOM accomplished significant 
disarmament, it was not complete and it certainly wasn't permanent. At 
best the inspections provided a temporary improvement to regional 
stability. However, the goal in UN resolutions is not temporary WMD 
disarmament but permanent coercive disarmament. This means the 
inspectors were ultimately supposed to monitor extensively and 
intrusively forever. Iraq was supposed to comply fully and verifiably. 
If they did so, sanctions were to be lifted.
    Iraq offered tactical cooperation and worked to divide the Security 
Council and erode sanctions. The international community could not 
sustain its commitment to its own resolutions--especially when 
confronted with the impact on Iraqi civilians that were ultimately held 
hostage by the leadership in Baghdad. From the regime's perspective, 
inspections were a temporary setback. They were correct. It is highly 
probable that if Baghdad becomes convinced that significant action to 
depose the regime is likely, they will offer the concession of 
accepting inspectors once again with the aim of buying time and 
dividing the international community.
    A critical point we learned in the mid-nineties was just how 
important weapons of mass destruction were held by the regime. Senior 
Iraqi officials stated convincingly that the use of chemical weapons 
saved them in the war against Iran. It was their counter to Iranian 
human wave attacks. The use of long range missiles was also seen as 
vital to attack cities deep in Iran behind the forward battle lines.
    Moreover, the regime believes that the possession of chemical and 
biological weapons contributed strongly to deterring the United States 
from going to Baghdad in 1991. They first described their pre-war 
actions to disperse weapons and pre-delegate authority to use them if 
the United States went to Baghdad in a long meeting with Iraqi 
ministers in September 1995. This discussion took place only after a 
surprising event during the history of UNSCOM's work in Iraq.
    Saddam's son-in-law, Hussein Kamal, defected to Jordan in August 
1995. He had been the lead member in the ruling family directing much 
of the WMD effort. Following his defection, UNSCOM learned the WMD 
program was more extensive than had been declared and efforts were 
still underway--even as UNSCOM was operating its monitoring system. 
Moreover, we learned that a system for the concealment of these 
activities was run out of the Presidency. UNSCOM came close to having 
an inspection and monitoring system in Iraq where we would report Iraqi 
cooperation, but they would not be complying.
    Prior to the defection, many members of the Security Council had 
been pressing UNSCOM to report favorably on its disarmament and 
monitoring work. They had tired of the long dispute that consumed long 
debates in the Security Council. Moreover, Iraq had been threatening to 
end its work with the UN unless UNSCOM reported favorably and the 
Security Council acted to end sanctions. Saddam Hussein himself 
declared such a threat in his National Day speech of July 17, 1995. The 
Iraqi Foreign Minister, in Cairo a few days later, set a deadline of 
August 31, 1995.
    Finding Iraq intractable, many began, implicitly, to question 
UNSCOM. Maybe UNSCOM was simply too fastidious or worse, too much under 
the influence of the United States. Maybe Iraq would never be able to 
satisfy the technocrats in UNSCOM and then the Security Council would 
be stuck. These arguments and this predicament are not new.
    The last time the international community attempted this sort of 
political solution to a military threat was following World War I when 
Germany was subject to strict disarmament limits set in the Versailles 
Treaty. An international body analogous to UNSCOM was created (called 
the Inter-Allied Control Commission) with virtually identical tasks as 
given UNSCOM and similar limitations. The dynamic was the same. An 
international body was directed by a victorious coalition to verify the 
coercive disarmament of a country that had not been occupied.
    These earlier inspectors encountered all the same problems and 
deceptions as UNSCOM. I have looked up their reports in the British 
archives. Change some of the nouns and you would think you were reading 
UNSCOM reports. They were harassed, given wrong and misleading 
declarations, blocked from sites, accused of being spies, and pressured 
to give false positive reports, etc. Germany (particularly the 
Reichswehr under the direct guidance of General Hans Von Seeckt) worked 
to sustain capabilities and development work with the same strategies 
and techniques that UNSCOM found in Iraq. Development work was 
concealed in a variety of ways, including in civilian areas (e.g. 
hidden Krupp arms development, secret naval design efforts, like the 
pocket battleship, and civil aviation masking military training). 
Programs were located overseas (e.g. expertise in submarine work was 
offered overseas, tank and aircraft training took place in Russia as 
well as the sale of a chemical weapons production plant). Only when 
France reoccupied the Ruhr did Germany become, albeit temporarily, 
forthcoming with proper weapons declarations.
    At the same time, Germany under Foreign Minister Gustav Stresemann 
worked diplomatically to escape the constraints. The Allied coalition 
of 1918 eventually melted down in its purpose. Ultimately after six 
years of inspections, the Inter-Allied Control Commission was removed 
from Germany--its work incomplete, but political momentum swept over 
its reports. The international community in 1926-27 halted the 
inspections with the artifice that Germany would join the League of 
Nations and be subject to the global disarmament actions under that 
body.
    Deputy Prime Minister Tariq Aziz was well aware of this disconnect 
between the inspectors categorical goals and the murky commitment of 
force behind them. He said on more than one occasion that we were not 
General MacArthur. We did not occupy Iraq. Therefore there were limits 
to what we could do.
    Tariq Aziz was absolutely correct, although we did our best to 
escape this reality. UNSCOM tried very intrusive and imaginative 
methods to penetrate the security of Iraqi weapons programs (including 
techniques not usually associated with an international body accustomed 
to the virtues of transparency and diversity of membership). However, 
against the full resources of a nation-state, with thousands of people 
and many intelligence and security organs, it was a hopeless endeavor. 
To illustrate, consider that while UNSCOM had hundreds of so-called 
``no-notice'' inspections (where no information was intentionally 
provided to Iraq in advance), there were very few occasions when Iraqis 
were actually surprised when inspectors arrived at the intended site.
    However, even if one could imagine the most extensive and intrusive 
system of inspections, accompanied by significant military forces, 
could the international community sustain this forever? It has been 
suggested that in the face of imminent invasion, the Saddam may finally 
give up WMD. But how long can the United States and the international 
community sustain the threat of imminent invasion? Will the sanctions 
also be sustained and at what price to the Iraqi people? Is the problem 
really the weapons or the leadership? Not being clear on this matter 
has left the weapons inspectors in the miserable position of being 
tasked with a goal that cannot be achieved while greater powers avoid 
facing the tough issues embodied by the Baghdad leadership. The 
Security Council's inability to force permanent compliance by Iraq with 
the very intrusive and stringent disarmament and monitoring measures 
leads to the case for regime removal.
    A rationale can be made that the unique risks presented by this 
regime constitute a rare occasion when the international community is 
justified in intervening in internal matters of another state. This is 
a circumstance where sovereignty does not reign supreme. The regime is 
a growing threat and has taken its own population hostage. Simply to 
say the Iraqi people should change their own leadership is 
disingenuous. Many have tried and died. The regime's track record of 
using WMD, its ongoing defiance of cease-fire resolutions and WMD 
development provide grounds for a case justifying outside intervention. 
Such intervention would aim to create conditions whereby the Iraqi 
people can change their own government.
    However, any proposed strategy to change the leadership in Baghdad 
must recognize two basic points. First, such an action is fundamentally 
a political action, not a military action. The second point follows 
from the first. The most important people in this endeavor are Iraqis 
in Iraq. They are the people who will make vital decisions about 
whether to assist in defending the regime or not. They, and the 
institutions they are part of, will make the decisions about how 
quickly the Saddam regime ends and at what cost. They are the people 
who will constitute the government that follows. In most ways the 
people of Iraq are the greatest threat to Saddam.
    With this in mind, it is essential to present a clear coherent 
message about what the United States and the international community 
expect to see in any new government in Baghdad. It must be clear that 
new management in Baghdad will significantly improve the lot of the 
Iraqi people. The case must be made that forcing Saddam from power is 
not anti-Arab, but actually one of the most positive steps imaginable 
for the Arab world.
    Decisions about such matters as sanctions, security relationships, 
and debt relief should be linked to on how the new government 
progresses toward agreed objectives such as pluralism, democratic 
elections, getting rid of WMD, cleaning up the financial system, etc. 
Indeed, for most institutions in Iraq, new management should be an 
enormous advantage.
    Given a choice, Iraqis would not opt to live under the government 
of the Saddam regime. They will never achieve their vast potential 
under the current regime and implicitly senior Iraqis recognize this. 
They will only begin to-reach their potential if they rejoin the world 
as part of a country with leadership that follows internationally 
accepted norms.
    These messages of what is expected of a new government in Baghdad 
must be accompanied by a firm commitment by the United States and the 
international community to stay the course. Hence, agreement on 
objectives must be reached with due consideration of the views of 
Iraqis in and out of Iraq, regional states, colleagues in the Security 
Council, and our European partners. These are achievable political 
goals if the United States provides strong consistent leadership. For 
the United States to exercise such leadership, it should be founded on 
support within the United States itself.
    Finally, the United States can and must be willing to act alone if 
it judges its vital interests are directly affected. However, it would 
be far better, and ultimately less costly, if international consensus 
can be achieved. It is easy to view the United States going to the 
United Nations Security Council akin to Gulliver going to Lilliput. Yet 
ultimately the Lilliputians may be willing and helpful participants. 
Indeed, consensus is not out of the question.
    UN Secretary General Kofi Annan addressed circumstances when 
sovereignty does not reign supreme in a speech to the UN General 
Assembly on September 20, 1999. He was reflecting recent experiences in 
Rwanda and Kosovo, but took recognition of the fact that the world had 
changed and continued to change. His speech touched upon a very 
sensitive issue for an assembly of sovereign states. If nothing else, 
he highlighted the possibility that under certain circumstances 
external intervention may be justified.
    Such a case could be made with respect to Iraq under the current 
regime. It is a growing risk to all concerned, not least of which are 
the Iraqi people themselves.
    One certainty is that the situation is not static. Iraq is going to 
evolve one way or the other. Limited actions by the international 
community will have limited effects. The threat will continue to grow 
and in the meantime the opportunity for a positive Iraq continue to 
slide into the future. This is clearly an issue where the United States 
must lead one way or another. Mr. Chairman, you and your committee are 
raising an important subject that needs to be examined from many 
aspects. I hope my comments have helped illuminate some facets of this 
difficult issue.
    I attach copies of two recent and relevant op-ed articles for the 
record.
                                 ______
                                 

           [From the Washington Times, Sunday, July 14, 2002]

                  Prelude to a Replay Over Inspections

                          (By Charles Duelfer)

    Earlier this month U.N. Secretary-General Kofi Annan and Iraqi 
Foreign Minister Naji Sabri falled to agree on the return of weapons 
inspectors to Iraq.
    This was not surprising. Baghdad agreed to begin such discussions 
in March when U.S. military action against Saddam Hussein's regime 
looked imminent from its standpoint. Accepting inspectors in some 
fashion is a tactic Iraq will employ to derail international support 
for an American military buildup against the regime. When the U.S. 
actually deploys forces, international pressure for a peaceful 
``solution'' will rise and the leverage of an Iraqi ``concession'' on 
accepting inspectors will be far greater. Baghdad now judges Washington 
will not begin such actions before the end of the year at the earliest. 
Hence, the inspection card will not be played until later. In this 
context, even if inspectors get into Iraq, their prospects are dim.
    The UN inspectors have been and will be caugbt between the 
conflicting goals of Baghdad, Washington, and other Security Council 
members. Their ability to succeed is limited by Iraq's lack of 
cooperation and the council's inability to force compilance.
    Baghdad views weapons of mass destruction as vital to the survival 
of the regime. Chemical weapons were instrumnental in the war against 
Iran. Iraq believes its arsenal in 1991 helped deter the United States 
from proceeding to Baghdad.
    The regime has every reason to associate these weapons with its own 
survival. Consider whether Washington would even be contemplating 
military action to depose the regime if Saddam had the capacity to 
detonate a nuclear explosive on U.S. forces or Tel Aviv.
    U.N. inspections, at best, may delay or complicate Iraq's weapons 
program. The former weapons-inspection team, UNSCOM, endeavored for 
seven years to account for all Iraqi programs. That tortured experience 
yielded partial compliance by Baghdad. Iraq gave up what it was forced 
to expose, and retained the rest.
    The continuous cat-and-mouse game along with episodic U.S. and 
British bombing has given Baghdad excellent practice in concealing its 
weapons.The U.N. inspectors have, on paper, the right to immediate, 
unconditional, unrestricted access--words that sound good in New York 
but are difficult to implement in Iraq.
    Practicalities intrude. For example, is it reasonable todemand that 
Iraq turn off its entire air defense system so the inspectors may fly 
into Iraq anytime, and anywhere? Baghdad will reasonably point out that 
it has a legitimate air defense system and some accommodation must be 
made to provide information about U.N. flights. From this, the Iraqi 
government can derive warning information on inspections. Similar 
accommodations will sprout in vittually all inspection activities.
    Iraq's close monitoring of all inspection activities meant ``no-
notice'' inspections rarely equated to surprise inspections. UNSCOM 
conducted hundreds of no-notice inspections. However, only a few were 
truly suprise inspections, and they developed into confrontations, 
delays and blockages.
    Further, as the U.N. resolutions are now written, it is up to the 
inspectors how extensive they wish to make their system. Whatever is 
deployed will be worked out between the inspectors and Iraq. The 
Security Council has not stated any performance criteria for the 
system. The absence of concrete directives puts U.N. inspectors in a 
weak position to demand a system elaborate and intrusive enough to make 
credible judgements about Iraqi disarmament.
    If the U.N.-Iraqi process proceeds, how will we know if a serious 
inspection regime is planned? One test will be whether there is serious 
investigation of Iraq's activities since UNSCOM left in December 1998. 
Credible defectors have reported that Iraq has expanded its weapons of 
mass destruction (WMD) programs during this period. The U.N. database 
includes the 200-300 key engineers, scientists and technicians from 
Iraq's prior WMD programs. If the programs have continued, many of 
these individuals will be involved. Inspectors, must interview these 
people without Iraqi government presence to verify their activities 
since 1998.
    UNSCOM had agreed (mistakenly, in retrospect) to allow Iraqi 
government observers to be present at all interviews. Iraq was able to 
keep a complete record of all information transmitted to the 
inspectors, and this facilitated its control of the incomplete picture 
presented. It also allowed the intimidation of the interviewees (who 
were often terrified of saying something contrary to the established 
line.)
    Ultimately, pursuit of more intrusive, credible, inspections will 
lead to conflict between inspectors and the Iraqis. This will land in 
the Security Council sooner or later, and the same messy debates from 
1997-8 will recur. Does non-cooperation by Iraq mean they are not 
complying? Is war justifed simply because some stubborn inspector was 
blocked from a sensitive security warehouse?
    If the United States is serious about solving the Iraq problem, it 
should not center its argument for changing the management in Baghdad 
on the inspection issue.
    Washington needs to make a broader case. It needs to show that the 
threat is broad and growing. Moreover, given the authoritarian nature 
of the regime, it is disingenuous to say the Iraqis should change their 
own government. Outside intervention is needed to create conditions 
under which Iraqis can change their government.
    The tremendous potential of the Iraqi people combined with Iraq's 
resources will never be realized under this regime. A country that 
should have a vibrant society and be the engine of development in the 
Middle East will remain a contorted and dangerous mutant threatening 
the region and beyond. And the people will continue to suffer.
                                 ______
                                 

                 [From the Baltimore Sun, June 3, 2002]

             Pro-Arab Policy is to Give Iraqis a New Regime

                          (By Charles Duelfer)

    Washington.--The explosion between Israel and the Paiestinians has 
not changed the underlying logic for regime change in Baghdad. But it 
has greatly affected the regional political context, making it 
essential that a compelling positive case be made in the Arab world for 
such a pursuit.
    So far, a strong, coherent public message has not come out of 
Washington. Certainly one can be made. Washington can make the point 
that there are two possible futures for Iraq.
    One is a continuation of the present regime led by Saddam Hussein, 
with its growing threat to the region and repression of its own people.
    The growth of Iraq's weapons capabilities (eventually including 
nuclear), the leverage of growing oil production and the wasted 
potential of a vibrant population all point to an inevitable future 
problem. This is unacceptable over the long term--especially for the 
United States, whose military will ultimately be called upon.
    A second possible future for Iraq is a more positive one in which 
its leaders subscribe to international norms and its people can achieve 
their enormous potential.
    Iraqis are energetic, assign great prestige to education, 
engineering and the arts and, in my experience, would like nothing 
better than to be reconnected to the rest of the world, including the 
United States. The combination of the Iraqi people and their huge oil 
and agricultural resources should be the engine of development in the 
Middle East.
    The difference between these two possible futures is Mr. Hussein. 
Given the unique authoritarian nature of his regime, it is disingenuous 
to say that the Iraqi people on their own should change their 
leadership. Therefore, outside intervention is needed to create the 
conditions under which the Iraqi people can change their own 
government. They will never be able to achieve their potential under 
Mr. Hussein.
    Therefore, action against the regime is not an attack against 
Arabs, as Mr. Hussein would say, but for Arabs. In fact, leaving Mr. 
Hussein in power is an anti-Arab position.
    Creating the conditions to permit a change of government in Baghdad 
requires that the United States take the lead with an unquestionable 
commitment to bringing about that change. This will force Iraqis and 
leaders in the Middle East and Europe to evaluate what relationship 
they will have with the next Iraqi government.
    Once this mindset is established, it will become apparent that a 
new Iraqi government is in their interest and that it would be 
shortsighted to act to preserve the current regime, despite Mr. 
Hussein's attempts to buy support through oil contracts.
    To this end, the message must be that the United States seeks both 
the greatest and the least change in Iraq--the greatest being the 
removal of Mr. Hussein, the least being retention of established 
institutions such as the civil service, the various civilian ministries 
and even the regular army. These national institutions will be 
essential in a post-Hussein government.
    Success will depend entirely on making it clear that the United 
States is absolutely committed to following through on a regime change. 
This will mean preparing and being willing to deploy as many military 
forces as necessary.
    Only this level of commitment can provide the incentive for the 
necessary switch in mindset among Iraqis (and the rest of the region). 
Once Iraqis become convinced that Mr. Hussein's fall is inevitable, he 
will find himself very lonely in Baghdad.
    A special element in this strategy is Russia. Washington must 
convince Moscow that it will benefit by a new government. For example, 
only if there is a new government in Iraq will Russia be able to 
exercise its contracts to develop Iraqi oil fields and receive 
repayment of $8 billion of debt.
    The conflict between Israel and the Palestinians provides a 
political smokescreen for Mr. Hussein. Washington needs to reverse this 
by demonstrating that a new regime in Iraq is a pro-Arab policy. This 
diplomatic and political work needs to happen now, even if potential 
military options are delayed.

    The Chairman. Thank you very much.
    General Hoar.

  STATEMENT OF GEN. JOSEPH P. HOAR, U.S. MARINE CORPS (RET.), 
FORMER COMMANDER IN CHIEF OF U.S. CENTRAL COMMAND (1991-1994), 
                          DEL MAR, CA

    General Hoar. Thank you, Mr. Chairman, for this opportunity 
to address the committee. I am in favor of a regime change in 
Iraq. What is at issue is the means and the timing. The issue 
has four key components, all of which deserve our discussion 
and, indeed, a national debate because of their implications.
    First is a change of policy, after a period of over 50 
years, in which we depart from the principle of deterrence to 
one of preemption.
    The second is the need for support from countries in the 
Middle East, Asia, as well as our traditional allies in NATO, 
Japan, Australia, and elsewhere, as we contemplate combat 
operations against Iraq.
    The third is the problems associated with mounting a 
military campaign against the Saddam Hussein regime in Iraq, 
and then finally, assuming success of this military campaign, 
the implications for war termination, most especially the 
requirements for nation-building.
    First, the issue of deterrence and preemption. For more 
than 50 years, deterrence has served us well, up to and 
including Secretary of State Jim Baker's warning just before 
Desert Storm in Geneva to the Iraqi regime about the use of 
weapons of mass destruction. Deterrence is still the best 
option until operations against al-Qaeda have turned the corner 
and major progress, with U.S. leadership, has been made on the 
Israeli-Palestinian issue.
    Let me now frame some questions about a preemption strike. 
How will we know that Iraq is planning to pass weapons to 
terrorist organizations? Poor intelligence remains a problem. 
In 1990, there were 1,800 technical and professional people 
working in the nuclear program in Iraq, and we did not know it.
    Or is simply possession of weapons of mass destruction 
among the nations of the ``axis of evil'' sufficient? Will 
Iranian nuclear power plants be next? Does it apply just to 
nuclear weapons, or do chemical and biological weapons deserve 
the same treatment, because a number of Islamic and Arab 
countries possess chemical and biological capabilities.
    What are the red lines? What will we need, and what process 
shall we use before a preemptive strike? I would hope that it 
would be based on more than the circumstantial evidence that we 
have available at this time.
    May the President declare an intent to strike without a 
declaration of war from the Congress of the United States? What 
effect does this policy have on other countries with whom we 
might have disagreements in the future, for example, China?
    Second, if you believe, as I do, that the United States has 
a moral responsibility, as the world's only superpower, to 
provide leadership to at least assure stability, if not peace, 
why are we convincing virtually none of the European countries, 
let alone the Arab countries, of the need for an attack on 
Iraq? My sense is the Arab countries will not support a 
campaign of this type without significant movement toward peace 
between Israel and the Palestinian Authority.
    On a more practical level, we need bases, overflight, 
intelligence, search and rescue, support from Arab neighbors in 
the vicinity of Iraq, and from our allies, financial and troop 
support for nation-building that would follow a successful 
military campaign.
    With respect to the military campaign, war in the Middle 
East, now as before, depends on logistics. Even with the 
astonishing technical gains exhibited in Afghanistan, logistics 
is still the most challenging aspect of this campaign. 
Strategic lift, both sea and air, was my No. 1 priority on the 
Integrated Priority List when I was the commander in chief at 
CENTCOM. It was at the top of Norm Schwartzkopf's list before 
me, and I expect it is still high for his successors today.
    Getting to the region with troops, equipment, and supplies, 
and most important, maintaining them through an operation of 
any size will be key. There is no doubt we would prevail, but 
at what risk? Risk in the military is simply the cost of 
American men and women serving in the military who would be 
killed or injured in an operation like this.
    The Iraqi campaign is a risky endeavor. To think that you 
can support an operation of this type without control of ground 
lines of communications and support from the sea seems to me to 
be remote. For example, any logistics buildup would require an 
antimissile defense for our troops. A Patriot missile battalion 
requires over 250 CE-141 sorties from the United States or from 
the European theater. The size of the force, how it will be 
deployed, where will the logistics buildup be located, and the 
timeframe needed are all critical to success.
    Finally, assuming a successful military campaign, we need 
at the policy level in government a war termination plan. This 
is something that we did not have in Desert Storm. In short, 
how do we achieve a political status acceptable to our 
government. After the expulsion of the regime of Saddam 
Hussein, the requirement of war termination will include the 
establishment of a new government, the executive, legislative, 
and judicial branches, a newly reorganized armed force, and a 
police force, what has been basically described as nation-
building.
    Who will do this? Will there be a Marshall Plan for Iraq, a 
nation of 25 million people? Where is the analysis of that 
cost, the people and the funds and the equipment who will bear 
that cost?
    All of these components need to be discussed both in open 
and closed hearing to be sure that a preemptive strike on Iraq 
is the correct course of action.
    I look forward to your questions, Mr. Chairman.
    The Chairman. Thank you, general.
    Lieutenant General McInerney.

   STATEMENT OF LT. GEN. THOMAS G. McINERNEY, U.S. AIR FORCE 
 (RET.), FORMER ASSISTANT VICE CHIEF OF STAFF, U.S. AIR FORCE, 
                         WASHINGTON, DC

    General McInerney. Mr. Chairman, members of the committee, 
thank you for this special opportunity to discuss the war of 
liberation to remove Saddam's regime from Iraq. I will not 
dwell on the merits of why he should be removed. Suffice it to 
say, we must preempt threats such as those posed by Saddam 
Hussein. We face an enemy that makes its principal strategy the 
targeting of civilians and nonmilitary assets. We should not 
wait to be attacked by terrorists and rogue states with weapons 
of mass destruction. We have not only the right but the 
obligation to defend ourselves by preempting these threats.
    I will now focus on the way to do it very expeditiously and 
with minimum loss of life on both the coalition forces, the 
Iraqi military, and the people themselves, and at the same time 
maintain a relatively small footprint in the region.
    Access is an important issue, and we want to minimize the 
political impact on our allies adjacent to Iraq that are 
supporting the coalition forces. Our immediate objectives will 
be the following:
    Help Iraqi people liberate Iraq and remove Saddam Hussein 
and his regime; eliminate weapons of mass destruction and 
production facilities; complete military operations as soon as 
possible; protect economic infrastructure targets; identify and 
terminate terrorism connections; and establish an interim 
government as soon as possible.
    Our longer term objectives will be to bring a democratic 
government to Iraq using our post World War II experiences with 
Germany, Japan, and Italy, that will influence the region 
significantly.
    Now, I would like to broadly discuss the combined campaign 
to achieve these objectives, using what I will call blitz 
warfare to simplify the discussion.
    Blitz warfare is an intensive, 24-hour, 7 days a week 
precision aircentric campaign supported by fast-moving ground 
forces composed of a mixture of heavy, light, airborne, 
amphibious, special, covert operations working with opposition 
forces that all use effects-based operations for their target 
set and correlate their timing of forces for a devastating, 
violent impact.
    This precision air campaign is characterized by many 
precision weapons, upwards of 90 percent using our latest C2ISR 
command and control intelligence surveillance and 
reconnaissance assets such as Jstars, Global Hawk, Predator, 
human intelligence, signals intelligence, et cetera, in a 
networkcentric configuration to achieve less than 10 minutes 
for time-critical targeting.
    Using the Global Strike Task Force, the naval strike forces 
composed of over 1,000 land and sea-based aircraft, plus a wide 
array of air and sea-launched cruise missiles, this will be the 
most massive precision air campaign in history, achieving rapid 
dominance in the first 72 hours of combat, focused on regime-
changed targets. These are defined as targets critical to 
Saddam's control. For example, his command and control and 
intelligence assets, his integrated air defense, his weapons of 
mass destruction, palaces and locations that harbor his 
leadership, plus those military units that resist or fight our 
coalition forces.
    All the Iraqi military forces will be told through the 
opposition forces in our information operations campaign that 
they have two choices, either help us change regime leadership 
and build a democracy, or be destroyed. In addition, commanders 
and men and weapons of mass destruction forces will be told 
that they will be tried as war criminals if they use their 
weapons against coalition forces or other nations.
    In a multidirectional campaign, coalition forces will seize 
Basra, Mosul, and most of the oil fields, neutralize selected 
corps of the Iraqi Army, and destroy the integrated air defense 
zone, command and control, weapons of mass destruction 
locations, and Iraqi air, using our stealth, SAM suppression, 
and air superiority assets. This will enable coalition forces 
to achieve 24/7 air dominance quickly, which is critical to our 
success.
    The expansion of our beachheads in the north, south, east, 
and west regions, and the airheads, seized with alarming speed, 
will allow the opposition forces to play a very significant and 
decisively important role with our special covert operations 
and the Iraqi army and air force, to determine their status, 
i.e., are they friend, foe, or just disarmed.
    The political arm of the opposition will communicate 
intensively with the Iraqi people, letting them know they are 
liberating them from 22 years of oppression, and that they are 
now controlling large amounts of territory. Humanitarian 
missions will be accomplished simultaneously with leaflet 
drops, et cetera.
    U.S. and other coalition forces are helping us to liberate 
and change the regime, is the mantra. You, the Iraqi people, 
must help us to do this quickly, and with minimum loss of life. 
This IO campaign must be well-planned and executed, working 
closely with the opposition forces. This means that the 
administration must move very quickly now to solidify the 
opposition forces, to include the opposition military forces, 
and set up a shadow government with aggressive assistance and 
leadership from the United States.
    In summary, the Iraqi forces we are facing are about 30 
percent equivalent since Desert Storm, with no modernization. 
Most of the army does not want to fight for Saddam, and the 
people want a regime change. Let us help them to make that 
change, and liberate Iraq from this oppressor. President Bush 
has accurately said, inaction is not an option, and I am in 
support of his position.
    I await your questions, Mr. Chairman.
    [The prepared statement of General McInerney follows:]

    Prepared Statement of Thomas G. McInerney, Lt. Gen. USAF (Ret.)

                          a war of liberation
    Mr. Chairman and members of the Senate Foreign Relations Committee. 
Thank you for this special opportunity to discuss a war of liberation 
to remove Saddam's regime from Iraq. I will not discuss the merits of 
why he should be removed but will focus on the way to do it very 
expeditiously and with minimum loss of life on both the coalition 
forces, the Iraqi military and people themselves; and, at the same time 
maintain a relatively small foot print in the region.
    Access is an important issue and we want to minimize the political 
impact on our allies adjacent to Iraq that are supporting the coalition 
forces. Our immediate objectives will be the following:

          (1) Help Iraqi people liberate Iraq and remove Saddam Hussein 
        and his regime.

          (2) Eliminate WMD and production facilities.

          (3) Complete military operations ASAP.

          (4) Protect economic infrastructure targets.

          (5) ID and terminate terrorism connections.

          (6) Establish an interim government ASAP.

    Our longer term objectives will be to bring a democratic government 
to Iraq using our post WW II experiences with Germany, Japan and Italy 
that will influence the region significantly.
    Now I would like to broadly discuss the combined campaign to 
achieve these objectives using what I will call ``blitz warfare'' to 
simplify the discusssion. Blitz warfare is an intensive (24-7) 
precision air centric campaign supported by fast moving ground forces 
composed of a mixture of heavy, light, airborne, amphibous and special/
covert operations working with opposition forces that all use effects 
based operations (EBO) for their target set and correlate their timing 
of forces for a devestating violent impact.
    This precision air campaign is characterized by many precision 
weapons (90%) using our latest C2ISR assets, Jstars, Global Hawk, 
Predator, Humint, Sigint etc. in a network centric configeration to 
achieve less than 10 minutes for time critical targeting. Using the 
Global Strike Task Force and Naval Strike Forces composed of over 1,000 
land and sea based aircraft plus a wide array of air and sea launched 
cruise missiles, this will be the most masive precision air campaign in 
history achieving rapid dominance in the first 72 hours of combat 
focused on regime change targets. These are defined as targets critical 
to Saddam's control i.e., C4I, IAD, WMD, palaces and locations that 
harbor his leadership plus those military units that resist or fight 
our coalition forces.
    All the military forces will be told through the opposition forces 
and our information operations (IO) campaign that they have two choices 
either help us change regime leadership and build a democracy or be 
destroyed. In addition, commanders and men in WMD forces will be told 
that they will be tried as war crimnals if they use their weapons 
against coalition forces or other nations.
    In a multi-directional campaign, coalition forces will seize Basra, 
Mosul and most of the oil fields, neutralize selected corps of Iraqi 
army and destroy the integrated air defense zone, C4I, WMD locations 
and Iraqi air using stealth, SAM suppression and air superiority 
assets. This will enable coalition forces to achieve 24-7 air dominance 
quickly which is critical to our success. The expansion of our 
beachheads in the north, south, east and west regions and the airheads 
seized with alarming speed will allow the opposition forces to play a 
very significant and decisively important role with our special/covert 
ops and the Iraqi army/air force to determine their status i.e., 
friend, foe or just disarm. The political arm of the opposition will 
communicate intensively with the Iraqi people letting them know they 
are liberating them from 22 years of oppression and that they are now 
controling large amounts of territory. Humanitarian missions will be 
accomplished simultaneously with leaflet drops etc. United States and 
other coalition forces are helping us to liberate and change the 
regime. You the Iraqi people must help us to do this quickly with 
minimum loss of life. This IO campaign must be well planned and 
executed working closely with the opposition forces. This means that 
the administration must move very quickly now to solidfy the opposition 
forces and set up a shadow governnment with aggressive assistance and 
leadership from the United States.
    In summary the Iraqi forces we are facing are about 30% equilavent 
since Desert Storm with no modernization. Most of the army does not 
want to fight for Saddam and the people want a regime change. Let's 
help them to make this change and liberate Iraq from this oppressor. 
President Bush has accurately said ``inaction is not an option'' and I 
am in support of his position.
    Mr. Chairman and members again my thanks. I await your questions.

    The Chairman. Thank you.
    Dr. Halperin.

STATEMENT OF DR. MORTON H. HALPERIN, SENIOR FELLOW, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Halperin. Mr. Chairman, it is a great pleasure for me 
to have this opportunity to appear before this committee on 
this urgent subject. We have been asked to focus on options, 
and in my view there really are only two realistic options. One 
is what I have called containment plus, and the other is 
preemptive use of military force.
    I start where we all start, with the proposition that we 
would be better off if we could have regime change, but I would 
insist that our critical national interest in terms of Iraq is 
to prevent the regime from using weapons of mass destruction or 
providing weapons of mass destruction to terrorist groups. As 
we consider these two options, we need to ask ourselves which 
option will make it more likely that nuclear weapons or weapons 
of mass destruction might be used against American forces, 
against allies, or against civilian populations.
    The strategy of containment plus would build on the new 
sanctions regime which the United States worked very hard to 
get the United Nations Security Council to adopt earlier this 
year. Its goal would be to tighten the embargo against Iraq, 
focused on materials which would assist the Iraqis in either 
building up their conventional military capability or further 
developing their capability to produce weapons of mass 
destruction, and it would seek to prevent them from getting 
hard currency, which they get by the increasing black market 
trade through the neighbors of Iraq.
    At the same time, we would be working to strengthen the 
deterrence of Iraq's use of weapons of mass destruction or 
transfer of those weapons to terrorist groups by seeking a 
consensus, an international consensus, that military action 
would follow swiftly if we had proof of either of those 
contingencies.
    This option would also involve continued support to Iraqi 
opposition groups both inside Iraq and outside, and an effort 
to try to get them to come together and to articulate what a 
post Saddam regime in Iraq might look like. Rather than 
pressing the neighbors of Iraq, as we are now doing, for 
military bases to conduct combat operations, we would, under 
this option, be pressing them to make the embargo work.
    We would be pressing them to end the black market trade. We 
would be pressing them to stop permitting the flow of oil 
outside the U.N. sanctions through their territory, and we 
would be using a small amount of the vast sums that a military 
operation would cost to compensate countries around Iraq for 
their financial losses for implementing the embargo, something 
that, in fact, states are obligated to do when there is a U.N. 
Security Council-imposed embargo.
    The question is whether this will succeed. I think that if 
pursued vigorously, with the same kind of determination that 
other options are being considered, it will, in fact, succeed 
in preventing Saddam from using weapons of mass destruction or 
supplying them to terrorist groups. His primary goal is clearly 
to remain in power, and if he comes to understand clearly that 
he will not be attacked if he does not cross these red lines 
but will certainly be attacked if he does, that strikes me, as 
others on this panel have suggested, as a very powerful and 
effective deterrent.
    Now, how long containment plus will take to bring down the 
regime, I do not think anybody can predict, just as it was not 
possible to predict when containment would work against the 
Soviet Union, but as long as we are strengthening this effort, 
I see no reason for us to put a time limit on it. We can afford 
to wait.
    Let me turn briefly, then, to the alternative option of 
military action. It appears that every day we are presented 
with a new scenario, either by somebody inside the government 
who likes the scenario, or somebody inside the government who 
does not like the scenario. I would not presume to evaluate the 
possible effectiveness of any one of these, but what I would 
suggest is that we need to proceed with a sense of caution and 
conservatism, which means that we cannot assume that it is 
possible to have a short and immaculate war with few casualties 
which then miraculously puts in place a democratic regime which 
effectively runs the country and consolidates its power without 
a continued massive American military presence.
    I would suggest that the opposite is very likely, and that 
the only responsible thing to do is to assume that if we adopt 
this option, that we are prepared to put in the region enough 
military force, including ground forces, to march to Baghdad, 
to fight the war in the streets of Baghdad, which may well be 
necessary, and to accept the risk of very substantial 
casualties, not only for American military forces and those of 
our allies who may join in the attack, but also on the civilian 
population of Iraq, on that of neighboring countries, including 
Israel. We must acknowledge that this attack may trigger 
precisely that use of weapons of mass destruction against our 
troops or civilians that the policy overall is said to be 
trying to avoid.
    We must be prepared to occupy the country and stay there 
for a very long time, at very great expense in treasure, but 
also in risk to lives.
    There can be no question that the military cost of this 
option will be enormous, and equally clear that Saudi Arabia 
and other countries will not pay for it, as they did at the 
time of the gulf war. I think we are entitled to know what 
these budget costs are, and whether the administration proposes 
to pay for them by running ever larger deficits, by increasing 
taxes, or by reducing domestic spending. We also need to 
acknowledge that the price of oil is likely to go up, and that 
this may well trigger another recession and a substantial 
decline in the value of the dollar.
    Finally, in my view we need to consider the implications of 
implementing in Iraq this new policy of preemption which 
President Bush has announced. It is not clear to me whether the 
administration is arguing that somehow this policy is 
consistent with our obligations under the U.N. charter, or 
whether the President is saying that we can no longer be bound 
by the restrictions that the U.N. charter puts on the use of 
force by all states.
    If he is arguing the first, then I think the case needs to 
be made of how one squares the language of the charter, the 
interpretation that all of our Presidents have put on the 
charter, with the notion that we now can initiate the use of 
military force. If the President is saying that we no longer 
should be bound by the charter, then that is a profound change 
in American policy which I think needs a full debate.
    I think all these costs and risks need to be put on the 
table. They may be worth taking, but certainly not before a 
full public debate, and certainly not, in my view, before 
Congress authorizes the use of military force.
    Now, finally, I want to reiterate again my view that it is 
not at all clear that this option will accomplish the most 
important purpose of preventing terrorist attacks, both 
conventional and with weapons of mass destruction, against 
Americans. I think there is certainly a very grave risk, 
certainly if we move before there is a Palestinian settlement, 
that the very opposite will occur, that what we will stimulate 
is a large number of people in the Arab world who will be 
willing to take up a terrorist attack on the United States and 
on Americans around the world if they see us launching a 
military attack against Iraq.
    Finally, I would ask that we consider the opportunity costs 
of this policy. This policy of military action against Iraq has 
already come to take a very substantial amount of the attention 
and energy of senior officials of this government. There is 
only so many things that the administration can do at one time. 
The attention of top leaders is a very scarce resource, but so 
is what we can ask our allies to do, and other countries, and 
the Congress, and the American public, and there are limits to 
how much money we should spend.
    In my view, we should be devoting these scarce resources to 
nurturing the worldwide coalition against terrorism, to helping 
to settle disputes between Israel and Palestine, between India 
and Pakistan over Kashmir, and to help countries like Indonesia 
and Nigeria cope with ethnic conflict.
    We also should be staying the course in Afghanistan, and 
that means nation-building, and helping the security of that 
country, and we should be working to reduce poverty in 
developing countries in the world, and getting our own 
procedures at home right for how to deal with terrorism and how 
to improve our intelligence to deal with terrorism threats.
    These are all daunting tasks, but I would argue that in 
terms of preventing terrorist attacks on Americans they are 
much more central, much more urgent, and much more important 
than launching military operations against Saddam Hussein. In 
my view, we should allow containment plus to keep Saddam in the 
box, while we pursue these more urgent tasks.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Halperin follows:]

Prepared Statement of Dr. Morton H. Halperin,\1\ Senior Fellow, Council 
                          on Foreign Relations
---------------------------------------------------------------------------

    \1\ Dr. Halperin is also Director of the Washington Office of the 
Open Society Institute and the Open Society Policy Center. The views 
expressed are his own. He served as Director of the Policy Planning 
Staff in the State Department, 1998-2001.
---------------------------------------------------------------------------
    Mr. Chairman, it is an honor and a privilege to be asked to be part 
of these historic hearings. I commend you and your colleagues for 
conducting them and for insisting that if we are to initiate military 
action this will require extensive public debate and a congressional 
resolution authorizing the use of force--absent proof that Iraq was 
involved in 9/11 or is planning an imminent military attack on another 
country. You have asked me and the others on this panel to focus on 
options. I will do that leaving it to others to discuss the equally 
serious issues of what we do the day after we win the war.
    There are in my view only two realistic options given the nature of 
the threat and the realities of the situation. These are: what I would 
call, containment plus: and military operations against Iraq. Let me 
first discuss what containment plus would look like and what its pros 
and cons are and then comment on military options.
    I start where we all start with the simple proposition that Saddam 
Hussein is a dangerous man and that the brutal regime, which he 
ruthlessly controls with unspeakable terror and total disregard for the 
well being of his people, is a threat to his neighbors including Israel 
and to the United States. The most serious threat is that he would use 
weapons of mass destruction against his people or neighboring countries 
or that he would supply them to terrorists who might attack anywhere in 
the world. Thus, we must ask about any option what is the likelihood 
that it would reduce the risk of such attacks, and at what cost.
                            containment plus
    This strategy would build on the new sanctions regime which the 
United Nations Security Council adopted earlier this year at the strong 
urging of the United States. Its goal would be to tighten the economic 
embargo of material that would assist Iraq in its weapons of mass 
destruction and other military programs as well as reducing Iraq's 
receipt of hard currency outside the UN sanctions regime. At the same 
time we would seek to strengthen the deterrence of Iraqi use of weapons 
of mass destruction or their provision to terrorist groups by pressing 
for the return of UN inspectors and building international consensus 
for military action with UNSC sanction if Iraq crosses this line.
    The option of containment plus would also involve continued support 
to Iraqi opposition groups inside Iraq and outside and a willingness to 
provide as much assistance as these groups can effectively use. It 
would also involve determined efforts to develop a consensus among 
Iraqi groups, including the Kurds, and the countries of the region 
about the nature of the future Iraq state and its relations to its 
neighbors.
    Rather than pressing states that border Iraq to provide base rights 
for unilateral military action against Iraq we would be pressing them 
to end the smuggling and trade in violation of the UN embargo and 
assist them in monitoring their borders and the flow of material into 
and out of Iraq. We would provide serious economic assistance to make 
up for the revenue that these states lose as a result of the embargo 
and we would work with them and the UN to insure that humanitarian 
assistance flows to Iraq. We would institute a serious public diplomacy 
campaign with real resources so that publics around the world 
understand that it is the policies of the Iraqi regime and not the 
embargo which is causing humanitarian disaster in Iraq.
    Paradoxically, the Bush Administration's known inclination to 
initiate military operations would make it much easier to get the 
support that the United States would need to make this policy 
effective. Other states are likely to cooperate because of their fear 
that the alternative is war.
    Will containment plus succeed? I think there is a good chance that 
the policy implemented vigorously will continue to deter Saddam from 
using weapons of mass destruction or supplying them to terrorist 
groups. Since the end of the Gulf War his policies have been aimed at 
maintaining himself in power in Iraq. He can have no doubt that 
crossing these lines would mean his swift removal from office.
    How long it will take for containment plus to bring about regime 
change is impossible to say. At some point, despite the terror, Saddam 
will be removed from power as the Iraqi people act on the understanding 
that their lives cannot improve as long as he is in power. I see no 
reason for us to have to put a time limit on this. As long as the 
embargo is made to work and the alliance against Saddam is being 
strengthened we can and should be patient.
                            military action
    It appears that each day we are treated to another leak of a 
proposed military strategy to bring down the Iraqi regime. I do not 
claim the expertise to evaluate the alternative military proposals. I 
would argue, however, that in evaluating this option we must be ready 
to face the most serious consequences. We can all hope for a very short 
and immaculate war with very few casualties and an orderly transfer to 
an interim regime which runs the country with ease. However, it would 
be the height of irresponsibility to count on that and to choose this 
option with confidence that this scenario will come to pass.
    If we choose this course we must deploy to the regime sufficient 
military forces to defeat the Iraqi army on the battlefield and in 
combat in Baghdad. We must be ready to accept substantial casualties on 
our own military forces and those of any allies that join in the attack 
and also on the civilian population of Iraq and of neighboring 
countries including Israel. We must acknowledge the risk that weapons 
of mass destruction and chemical weapons will be used against our 
troops and against civilians.
    We must also be ready to occupy the country and to stay for a 
significant period of time coping at great cost with a range of 
security and economic problems.
    There can be no question that the financial cost of this option 
would be enormous. We are entitled to know what the budget costs are 
and whether we will pay for them with larger deficits, new taxes, or 
drastic cuts in domestic spending. We also must accept the risk that 
oil prices will escalate and that there could well be a sharp decline 
in the value of the dollar.
    Finally, we need to debate the costs of actually implementing the 
new policy of pre-emption that the President has announced. It is not 
clear to me if the administration is arguing that the policy is 
consistent with our obligations under the UN Charter or if he is saying 
that we cannot be bound by that commitment. Either approach has very 
profound implications and moves us away from what has been the effort 
of every American president since Truman to explain how our use of 
force is consistent with the Charter and reinforces our efforts to 
prevent other nations from using force.
    All of these costs and risks may be worth taking but I do not see 
that the case has yet been made. As we begin the public debate about 
this option we are entitled to insist that the administration calculate 
these costs and make those calculations public and that it explain why 
this price is worth paying.
    In considering the pros and cons of the two options we must ask 
first and foremost about its impact on the likelihood of terrorist 
attacks on Americans (and other innocent civilians) in the United 
States and around the world. I think a very compelling case can be made 
that even the successful implementation of this option with relatively 
small direct costs would increase the risk of terrorist attacks 
directed at the United States. I think this is so for two reasons.
    First, especially if there is no progress on the Palestinian issue, 
it is likely that an American military conquest of Iraq will lead many 
more people in the Arab and Muslim world to choose the path of terror 
and to be willing to take part in terrorist activity. Given that we do 
not have evidence of significant support by Iraq for terrorist plotting 
to kill Americans and given the likely reaction to an American attack 
we must insist on the administration explaining the rationale and the 
evidence for the belief that taking out Saddam reduces the risk of 
terrorist attacks.
    Second, and in my view, even more important, is the opportunity 
cost of this focus--only with great effort do I resist saying 
obsession--on military action against Iraq. This administration, any 
administration, can only do so many things at one time. The attention 
of top leaders is the most scarce resource but there are also limits on 
what can be asked of allies and other countries and of the Congress and 
the American public. And there are limits on how much we can spend. In 
my view we should be devoting these scarce resources to nurturing the 
world-wide coalition against terrorism, to settling disputes between 
Israel and the Palestinians and between India and Kashmir, in helping 
Indonesia, Nigeria and other countries cope with ethnic and religious 
conflict, in staying the course in Afghanistan, in helping to reduce 
poverty in the developing world, and in altering our own procedures at 
home for dealing with terrorist threats.
    These are daunting but urgent tasks much more central to reducing 
the risk of terrorist attacks than the early removal of Saddam. We 
should, in my view, allow containment plus to keep him in his box while 
we work creatively on these more urgent tasks.
    Mr. Chairman, in a way these very hearings are a reflection of the 
way the administration's determination to go to war against Iraq has 
forced a distortion in the issues that we should be debating. However, 
given the administration's focus there was no choice. If we are to go 
to war we must first have the public debate and the congressional 
authorization which our constitution legally requires and which the 
health of our democracy demands.
    I commend the committee for holding these hearings, I thank you for 
the honor of being invited to participate, and I await your questions.

    The Chairman. Thank you very much. We have good attendance. 
We will try to keep this to 5-minute rounds the first time 
around.
    Let me begin by asking you, Dr. Halperin, if you were still 
in the government and you had clear and convincing proof that 
Saddam had a nuclear capacity that was capable of being 
launched on a missile platform, would that change your view? In 
other words, the containment plus, I assume the containment 
plus is designed to diminish the prospect that he gains that 
ultimate capability. I think we would both say that was the 
worst capability. Assume that you were convinced that existed. 
Would that change your priorities?
    Dr. Halperin. Yes, at least to the extent that I would 
think we should undertake military action to destroy those 
capabilities and the delivery systems.
    The Chairman. Which leads me to the next question. Do you 
think that, were he able to build, buy, steal, possess that 
nuclear capability able to be delivered by a missile, do you 
have any degree of confidence that that could be destroyed, 
absent a military invasion of feet on the ground, troops on the 
ground?
    Dr. Halperin. I think certainly the missile delivery 
system, certainly if it was long range missiles, could be 
destroyed without troops on the ground, but if troops on the 
ground were necessary to destroy an active nuclear capability, 
I would think we could get the support of the countries in the 
region and of the U.N. Security Council for action of that kind 
in the way that we were moving to get it against the North 
Koreans when they were moving in that direction. I think that 
is a different scenario than I think we are confronting now.
    The Chairman. How would a successful containment plus 
policy solve or deal with the potential of Saddam giving 
weapons of mass destruction to terrorists?
    Dr. Halperin. Well, I think it deals with it only by making 
it absolutely clear to him that if that line is crossed we 
will, of course, launch operations. I think if the President 
has evidence that he is linked to and supported al-Qaeda, then 
he has the authority to use military force both from the 
Security Council and from the Congress of the United States, 
and I think he should act on that. You cannot always be sure 
you will get the evidence of that, but my view is that he in 
fact is extremely unlikely to do that unless he concludes that 
we are going to try to take him out of power anyway.
    The Chairman. Let me ask any of you who wish to respond to 
this question. All of this discussion we are having today, we 
will have in the future, and we have had in the past comes down 
to relative risks and tradeoffs.
    You all have said to one degree or another that it matters 
where we have a place from which to stage our invasion, if 
there is an invasion, whether it is a relatively small number 
of forces or it is a 1/4 million forces, whatever it is.
    You have all indicated that if, in fact, Saddam possess 
more capability relative to the weapons of mass destruction we 
know he has, and we are not exactly sure what he has, that 
presents a serious threat to us.
    You have also indicated that it would be better if we had 
others with us than go it alone, either before, during, or 
after, and so it all comes down, it seems to me, to vastly 
oversimplify it, to tradeoffs here. If we go alone now, no one 
knows the cost, but we would succeed, we would ostensibly 
change the regime, we would hopefully be able to destroy the 
weapons of mass destruction that exist over a period of time in 
the country, but we may very well radicalize the rest of the 
world.
    We may pick up a bill that is $70, $80 billion. We may have 
to have extensive commitment of U.S. forces for an extended 
period of time in Iraq, and if we do not do that, we find 
ourselves in the position where we increase the possibility he 
could destabilize the region preemptively himself, he could 
move and use the weapons of mass destruction as leverage for 
blackmailing actions in the region, and so on.
    So in weighing the risks and the tradeoffs here, how 
important is it and to what degree do each of you feel you have 
to be certain he possesses the weapons of mass destruction that 
can be effectively delivered, whether it is a chemical weapon, 
whether it is a biological weapon, or whether it is a nuclear 
weapon? How important in each of your calculus is that question 
that he has, or is close to having, or it is not worth the risk 
of determining any longer, or waiting any longer, whether he 
has weapons of mass destruction that are deliverable and 
efficacious?
    Because you heard the testimony earlier, and I know you all 
are very sophisticated. So, the mere fact you have the ability 
to produce a chemical weapon and/or a biological agent does not 
mean you can effectively disperse it, does not mean it can have 
the efficacy that it would in our hands, for example, so how 
much of your calculus is dependent upon your sense of his 
capacity to possess and deliver these weapons?
    General Hoar. Mr. Chairman, during the gulf war we believed 
that he had the capability to deliver chemical weapons against 
us, and in fact in the run-up, General Al Gray and I went down 
to Quantico one Saturday to look at a simulation that had been 
done regarding the two marine divisions that were going to be 
in the attack into Kuwait, and there were some estimates of 
casualties that ran in the order of magnitude of 10,000 if 
artillery rounds with chemical weapons were used.
    So the issue is, are these strategic weapons, or are they 
tactical weapons? Could they be used on troops in relatively 
short distances of, say, 30 kilometers, or are we talking the 
cities of Israel and the major cities in the Arabian area? I 
think there is a big distinction there.
    I would also say that while in my mind it will always be 
murky, the degree to which the regime has acquired these kinds 
of weapons, particularly at the strategic level, that thus far 
we have not seen him use this. The current regime has boxed him 
in. I think the possibility of him using it goes up 
considerably if, in fact, the regime is about to fall, and I 
think certainly that is a grave risk to take in the event of an 
invasion.
    The Chairman. Anybody else? Yes.
    Mr. Duelfer. I would just briefly add that not all weapons 
of mass destruction are created equal. Chemical and biological 
agents present one level of concern, but when Saddam gets a 
nuclear weapon, and he has had this intent, he has devoted 
enormous resources over two decades to do that, then everything 
will change. We would not be sitting here talking about the 
potential of a military action against Iraq if we suspected he 
had a nuclear weapon.
    He knows that. I have had this discussion with very senior 
Iraqis. They know that had they invaded Kuwait after they 
possessed a nuclear weapon, it might be a very different 
outcome. So, I think that it is a key inflection point when 
they get a nuclear weapon.
    The other thing is, picking up a bit on your analysis of 
the dynamic of the issue, what we are seeing here is, it is 
very easy to quantify, identify near-term costs. It is very 
difficult to firmly identify long term benefits and long term 
risks. Budget analysts, politicians, go through this problem 
all the time, and the fact that we are here and my colleagues 
are here saying there is a lot of near-term risks, that is 
true, we can see those, but ultimately there is a very long-
term concern which is very, very big and that is, I think, what 
characterizes much of the debate.
    The Chairman. Dean.
    Ambassador Gallucci. For me, there is a huge difference 
between, on the one hand, chemical weapons and bacteriological 
or biological weapons that are toxins, and on the other hand, 
viral biological weapons and nuclear weapons. That is where the 
break comes in terms of casualties and death and destruction, 
though you can have these overlap, depending upon a lot of 
manipulating assumptions.
    I assume, not withstanding the careful statements I tried 
to make here in writing, I assume that Iraq has--not will have, 
might have, has VX, a very serious nerve agent, certainly 
sarin, in a deliverable form. I assume it has both anthrax and 
botulinum toxin, as it did before. It had 4 years to 
regenerate, and I do not believe UNSCOM could be confident it 
destroyed it all, so I believe that is the extant right now. I 
do not know about the smallpox, and that to me is a huge, huge 
concern, and I think the nuclear weapons fall into that same 
category.
    The problem is, of course, I think getting evidence of this 
is going to be very hard. We have to ask ourselves the question 
of whether we want to wait for that evidence, do we want to get 
on that slope that Charlie was just talking about, trying to 
figure out what this looks like in terms of long-term costs, 
when the near-term costs are so easy, or force themselves upon 
us.
    When I try to net this out, I think I come down and 
conclude that we do not have, right now, an urgent need to act, 
as we might if we saw a facility under construction, or that 
missile you talked about with Mort before. That is not in front 
of us right now, nor do we have the evidence that they are 
complicit in 9/11. If we had such evidece, I do not believe 
this Government would have any choice whatever but to act, so 
we do not have that kind of pressure on us. At the same time, 
we have no confidence that we will see anything like that 
before we are confronted with something we wish not to see.
    So I end up thinking that this is not something we should 
try to live with for a long period of time. We need to get 
ourselves in the position to cut this off. That means we have 
got more time than just the next 6 months, year or 2 years that 
we might be thinking about with an invasion.
    That is why I am looking for some option other than an 
invasion like this very aggressive inspection regime, which can 
only work if invasion is a viable option, to force Saddam to 
accept it. But I think you are right to try to push at the 
edges here to make us think through what would cause us to find 
it prudent to pay the cost and run the risk of action sooner 
rather than later.
    The Chairman. The question for me is, do we have the time 
to do this right? Doing it right means we could, in my view, 
work out arrangements with Russia. We could, in my view, deal 
with the situation in the Middle East much better than we have 
now. We could, in fact, be much better situated if we did some 
very important things over the next 6 to 8 months that we do 
not have time to do now, and the question is, how much time do 
we have?
    But at any rate, I have trespassed upon your time. I will 
move to the Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I am 
struck, listening to the testimony this afternoon, by some 
parallels with our thinking after September 11. Many of us went 
into a crash course on Islam, and events in several countries 
of the world where not enough attention had been paid for a 
long time as to history and development. We sought to gain some 
idea of why people do the things they did, what the motivation 
was.
    Beyond that, we have been involved in an effort, and the 
distinguished Senator from West Virginia is taking leadership 
in this, to determine what deficiencies we have in our 
intelligence systems. Why we do not know more, and why we were 
not better informed? Here we have a situation which clearly we 
need to know much more.
    We are all saying today we have not found the evidence, but 
somebody will ask why not; given the resources of this country, 
extraordinary abilities that we have, and the imperative need. 
The same question, as Dr. Gallucci knows, from North Korea has 
been asked for a long time. The usual comment was that people 
did not understand the language. They could not insinuate 
themselves in the country. There were all sorts of dodges and 
weaves.
    But here the life of the country is at stake. We are about 
to take very grave, important actions, and it just appears to 
me that--it is not entirely the role of this committee, but 
each one of us had best become much better informed about Iraq. 
I am struck by your comments, Mr. Duelfer, that it makes a big 
difference who succeeds, but I am even querying the question, 
what are the alternatives? Who knows that much about the 
internal politics of Iraq these days?
    Now, there are Iraqi exiles who meet frequently in this 
town and elsewhere, and maybe among them are leaders that will 
have the backing of the Iraqi people. In other words, to come 
to the conclusion that somehow or another, the Iraqi people are 
going to condemn Saddam and fight to re-take their country. But 
as we heard this morning from Dr. Cordesman, this was not 
always the case in the past. We were surprised by nationalism, 
feelings of patriotism, however despicable the leaders, because 
they did not trust us, either.
    In other words on what basis do we believe, or what must we 
do to have a constituency in Iraq that really wants democracy 
in any remote form like the kind that we try to produce in this 
country, or in Western Europe? Who might have at least the 
backing in a way that Mr. Karzai, apparently through the loya 
jirga in Afghanistan has some consent? But even then he must 
contend with the war lords around him, and other people that 
seek to stop progress.
    Now, absent some analysis of what the politics are, and who 
is there, then we really do have a rather long occupation. The 
thought of a parallel between Japan or Germany is a real leap 
in terms of the institutions that are available that might 
bring about some semblance of Western democracy, so I raise the 
question, how do we get up to speed? What are the resources 
academically and governmentally in this country that are likely 
to identify for an informed argument the post Saddam situation? 
How do we even gain a sense in terms of public diplomacy, of 
enlisting the Iraqi people to understand life will be better 
if, in fact, we intervene, or if we stay, or if we try to 
produce capitalism, democracy, or whatever we want to do there?
    Mr. Duelfer, I will start with you. Would you respond to 
that?
    Mr. Duelfer. Thank you very much. I think these are 
fundamental issues. In essence what needs to happen is, Iraqis 
and Iraq need to conclude that it is in their interest and it 
is patriotic for them as proud Iraqis to change their 
leadership.
    Senator Lugar. How do we do that? What brings that about?
    Mr. Duelfer. Well, I think the international community can 
make a case that this regime is a danger to the external world, 
it is also a danger to the internal world in Iraq. We should 
not be prescriptive as to whom should lead Iraq, but I think we 
can say that there are certain standards, ideals that we would 
expect a follow-on government to embody to a greater or lesser 
degree.
    This also has the important advantage of avoiding 
identifying groups of people within Iraq who would very shortly 
fall into the list of Saddam's most wanted people, but if we 
identify characteristics and ideals which no one can dispute, 
pluralism, elections, fixing the financial system, getting rid 
of weapons of mass destruction, these are ideals which the 
external community would support and patriot Iraqis could also 
support.
    Senator Lugar. Why do we think they would? Why would Iraqis 
say, we need a strong government, Saddam is a bad leader, but 
on the other hand we need somebody who knows where to go? This 
degree of participation and vigorous debate is a large part of 
the process.
    Mr. Duelfer. In my experience in talking with lots of 
Iraqis is that they recognize Saddam as their leader, but they 
also recognize his shortcomings. They would like nothing better 
than to be reconnected to the rest of the world. They see 
enormous benefit in that, but I do not think they are going to 
be wanting to see someone impose a leader on them.
    There are very delicate balances which you will hear from 
in the next panel within Iraq, the north, middle, south, clans, 
military, various institutions, but I think there is a solution 
set there. I think we should make it clear that we want to 
change as much in Iraq as possible, meaning the top leadership, 
and as little as possible at least from the outside. In other 
words, cause as little damage to the infrastructure as 
possible.
    We ought to make it clear that most Iraqis have everything 
to gain and little to lose by a change in management.
    Senator Lugar. Does anyone else have a comment on the 
intelligence, or how we gain people in Iraq?
    General McInerney. I think clearly, Senator, there are 2 
million Iraqis in the United States that have fled Iraq. They 
are a valuable source of understanding the people and the 
communications back there. The opposition forces are in daily 
and weekly contact with the military and other people in Iraq 
today. That is certainly a good starting point, and that is why 
I think we need to organize this opposition to understand the 
problem.
    The forces I am talking about are enabling forces. Now, you 
can debate whether it is 50,000 or 250,000 or a million. We are 
talking about an enabling force to help the Iraqi people take 
their country back and understanding these people, who I think 
are probably one of the most sophisticated, if not the most 
sophisticated in the Middle East in education and 
understanding, and they had a middle class, and still do, it 
will be a lot easier than people realize.
    I used the model of Japan and Germany after World War II. I 
was a boy there. We had in 1948, we had one division, one 
division in all of Germany, or at least in the U.S. sector, and 
the others had more. There was not a large predominance--once 
you got rid of the Nazi leadership and Hitler, then the people 
wanted to take this path. I think the people in Iraq will want 
to take a path. I think their neighbors will not want them to 
take a path toward democracy, and that will be one of our 
biggest challenges. Democracy does not flourish in the Middle 
East, and we must be sensitive to that.
    Senator Lugar. And the neighbors are a real problem, as you 
point out.
    General McInerney. That is correct, who are allies and who 
are vital to this construct.
    Senator Lugar. Thank you very much.
    The Chairman. Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you.
    Let me just, in the chairman's absence, thank him for these 
hearings. I was not able to be here this morning, but I do 
think that these are obviously very important hearings, and I 
think this is what this committee is supposed to do, and it is 
good, as a member of this committee for 18 years now, to see it 
in advance of decisions doing its work this way, and I think 
probably every committee member probably feels affirmative 
about that.
    I think the way the chairman has constructed it is good. I 
think it is right not to have the administration here at this 
point, and that we sort of lay some groundwork here.
    I was in the region earlier in the year and met at some 
length with Saudis, with the Crown Prince Abdullah, the Foreign 
Minister and others, with King Abdullah, with their 
intelligence agencies, President Mubarak, his intelligence 
people, and came away with a sense that most of them believe--
at least they express this--that we are sort of 
overexaggerating and overly worried about some aspects of 
Saddam Hussein, though they do not like him. They acknowledge 
that, but they certainly interpret some of the threat 
differently, President Mubarak, I might add, quite dismissively 
believing that we sort of build him up in some ways.
    I am not sure I agree with them. I mean, they live there, 
but if you assess what we believe he may or may not have, I do 
not think anybody believes he has a nuclear program today that 
I have heard with any great conviction. We know he had about 
7,000 people that were working on the program once upon a time, 
but our estimates are today that he may have at least a couple 
of dozen top-flight nuclear scientists and engineers, but there 
is probably no doubt he is working on it, and I think most of 
us have to make the assumption that he is.
    Second, he has got some continued shorter range missile 
development that he has been doing. That could help with a 
longer range missile, but it is not a direct, longer range 
missile program, and we estimate that he has somewhere up to 
two dozen Scuds or so, and obviously that has some potential 
for menace with respect to Israel, particularly if we were 
starting to engage in some way, but I understand from Israeli 
authorities not so much that they do not believe the overall 
value of changing the equation in the region is not worthwhile.
    So there is a lot to sort of balance here. I am of the 
opinion that, under the right circumstances, it is not that 
difficult. I think I tend to agree with General McInerney, I 
think there are, according to the intelligence sources that I 
have listened to, without revealing any of it, capacities for 
significantly more internal activity than maybe some people 
anticipate, so I think it is achievable.
    I think the question that we need to think about is sort of 
when and how, what is the process, what brings you to the point 
of pulling the trigger, what sort of makes you reach that point 
where you have made the decision that you have exhausted the 
doctrine of remedies, if you will, in the context of 
international law and of going to war?
    Certainly one of the lessons of prior conflicts is that it 
helps to have the American people fully supportive, fully 
educated, fully involved, and clear about the objectives, and 
prepared to stay the course. There is nothing in what we have 
done to date that prepares the American people for that, or 
that even lays out on the international stage a sufficient 
level of rationale, evidence, public diplomacy that might bring 
you, I think to that legitimate trigger-pulling stage.
    It seems to me that we are sitting--and I want to ask you 
particularly, dean, about this, but I would like others to 
comment about it. I mean, there is a process here that it seems 
to me has been avoided to date. The rhetoric seems to be far 
ahead of our capacity, and we seem to be ignoring and 
dismissive of the need for friends and allies and understanding 
on a global basis of why we might ultimately choose to do this.
    Now, there is in place a very forceful cease-fire agreement 
which Saddam Hussein signed and agreed to, and it includes the 
full destruction of these weapons and the full inspection. Does 
it not make more sense, in terms of all of these sensitivities 
that I have jut laid out, gentlemen, in terms of gaining the 
legitimacy of the American people, the assent, the consent of 
the American people and the assent, gaining the support and 
understanding of the world as to why we would be doing this, to 
go back to that process, even though we know he will refuse to 
live up to it?
    Certainly, if he has the things that he does not want us to 
find, he will not live up to it, so those who want the 
justification to go in will get the justification, but in the 
absence of that, we do not have a chance of having exhausted 
that doctrine of remedies in a way that I think answers the 
question to mom and pop in America as to why their young child 
may come home in a body bag.
    Now, is there a process here that has been avoided, dean, 
beginning with you, that we should go through that would better 
position us with respect to the potentials of this, and the 
opposite side of that question is, we lived with Russia for 
almost 50 years with the capacity to destroy us many times 
over, and a policy of containment worked there. Why could not a 
policy of containment also work here, at least while you 
buildup to that point of legitimacy?
    Ambassador Gallucci. Thank you, Senator. I would like to 
take a shot at a few of those questions, or observations that 
were in your statement.
    First, I cannot help going back to the nuclear weapons 
observation, because it troubled me. I do not know that Iraq 
has nuclear weapons, but I do know for a fact that there was a 
workable design in Iraq in the days of UNSCOM, which we picked 
up, and it was an implosion system, a relatively sophisticated 
design, that they did more work on after that. I also know that 
we have a real problem with accounting for material, fissile 
material coming out of the former Soviet Union.
    I think I also know that we should have no confidence, we 
should have no confidence that we will know if fissile material 
finds its way into Iraq from one of those countries. We might 
know, but we might not.
    What I am getting to here is a very troubling sentence, and 
that is that I do not understand how someone fully familiar 
with all of our intelligence capabilities and our knowledge 
could say with high confidence that Iraq does not have a 
nuclear weapon now, or will not have one for 6 months or 6 
years, not when they have done the work on an implosion system 
and there is fissile material to be had. I do not understand 
how one could say that, so that is point one.
    Second, when we come to the question of time, do we have 
time, and would we want time to use it for something useful, 
for example, to build a necessary consensus domestically and 
internationally to make this a more politically plausible and 
successful operation. I think there is a risk there, because of 
what I just said about the nuclear issue, because for me the 
key issue here is, is Iraq plausibly capable of transferring a 
viral biological weapon or a nuclear weapons capability to a 
terrorist entity that could not be deterred?
    I do not know the answer to that, but I do not like sitting 
around a long time hoping it does not happen, so I think that 
is what makes me uncomfortable with simple containment, just 
wait and see. What we may next see is some devastating event in 
the United States that is traced back to Iraq, and I would then 
say, well, I guess that calculation was wrong, waiting and 
seeing, so I am uncomfortable with indefinite postponement.
    However, if you were to say, but do we have time, I guess I 
think it is important enough to get this right, that we take 
some time, and for me, again, I think there may be an 
inspection option. It is not UNSCOM. It sure is not UNMOVIC. It 
is another kind of inspection that is much more aggressive, 
that could not be put in place unless the Iraqi regime saw an 
invasion as the alternative. So I like the idea of trying to 
find another way to grapple with this, and even, if you must do 
an invasion, to take the time to get it right.
    The chairman referred to doing some missionary work, I 
think with other countries, particularly Russia, and we have 
had a concern for a period of time with the position of France 
within the Security Council. There is much to be done in the 
region, and you will hear more about that.
    So yes, I think we can take the time, but I do not think 
indefinitely. I am troubled by the simple containment option in 
which you wait for something that would be a trigger. What the 
administration is talking about is not preemption, as I 
understand it. It is a preventive war. Preemption is the 
anticipation of an act by the other side. We do not see that. 
This would be looking way down the road and saying, we are not 
going to allow that situation to emerge. That is a very 
forward-leaning posture, and I think we have the time to get 
ourselves ready.
    Senator Kerry. But there is a certain visible logistical 
period of time under any circumstances here, during which time 
you could certainly provide a sufficiently more powerful 
ultimatum than existed previously with respect to inspections.
    Ambassador Gallucci. I think not only could you, but you 
have no hope of getting successful inspections unless you took 
the antecedent steps. The Desert Shield, if I can be allowed, a 
period of time in which we took some of those steps, and began 
to put forces in place, and began to take the political steps 
that made the invasion a very credible option that is something 
we intended to do, and I think we would be believed this time, 
where we were not believed 11 years ago.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and to our 
panelists, thank you. We appreciate your contributions today, 
and the contributions you made, each of you, to our country.
    Senator Lugar focused on somethin, and that is, after we 
have heard your testimony and you have heard our speeches, and 
you might even hear an interview or two after this, we are all 
for virtue, democracy, good government, and all things right, 
but how do we get there, and that, I think, was Senator Lugar's 
point, and I would ask each of you to focus on a couple of 
areas and if you would not mind responding to this question.
    General Hoar and Dr. Halperin in their testimony asked a 
lot of questions back, and they each laid out a number of 
dynamics and factors that we should pay a lot of attention to 
if, in fact, the military option is the option, and as we drift 
along and containment is not particularly attractive, and we 
have gone through that for 11 years, and we still have Saddam, 
and we still have uncertainty, and we still have problems.
    So therefore, what is the option, what should we do, and 
there are various versions put forward, and I would hope that 
General McInerney, when you respond, if you will deal a little 
bit with the opposition groups and forces that you keep talking 
about, which I am not aware of, but they may be there.
    But what I would ask the five of you to focus on is the 
economic dynamics of this, the opposition dynamics, the allies, 
how all that integrates into something, or maybe it is not 
important, maybe a unilateral strike along the lines of what 
General McInerney is talking about, clean, crisp, 
sophisticated, go in and get it done, and maybe that works.
    Then what happens afterwards? Who governs? Do any of you 
have any idea of an exiled government, of any individual, any 
groups that you could put forward to us today as to what 
happens after we take this bold strike in the interest of 
virtue and all mankind? Now, what follows on? I think General 
Hoar got into some of those points in his testimony.
    So with that, each of you, thank you, and we are always 
grateful for your consultation and input, and we would start 
with you, dean.
    Ambassador Gallucci. I think I have to go. I do not know, 
Senator, that I can add on the three points you made, 
economics, the opposition, and the allies, to what has been 
said. I liked General Hoar's list of things we ought to think 
about, and particularly those things we ought to think about 
being able to do the day after, as well as the things we ought 
to put in place so that we do this in the most politically 
plausible way. That was, I thought, a very nice list, and I 
would associate myself with that.
    I guess for my moment here I would say that I worry about 
the ``lite'' option, and I will be listening to General 
McInerney as well to learn more about that option. I have in my 
ears ringing the words of Tony Cordesman this morning about 
assuming too much about what the opposition might accomplish, 
about going in to a light, taking that risks. I do not know 
that he was speaking specifically about the blitzkrieg type 
operation, but it seemed that he was speaking to that, and 
worried about that being the concept of operations, rather than 
a heavier up, more traditional approach, and that troubles me.
    So I guess I still remain to be persuaded that that option 
really is viable, and that you have got that kind of support, 
and that the regime is that fragile and can be overturned. It 
may well be true, but I think the point this morning was that 
is a hell of an assumption to make, or a risk to take, and 
right now I would not--based upon what I know, I would not be 
there myself in making that calculation.
    Of all the things that I think in this list that I would 
worry about most at this point, if we were doing this mostly 
because we want to avoid the transfer of this capability to 
terrorist groups, we want to reduce, the vulnerability of the 
United States of America today to suffering a 9/11 event with a 
weapon of mass destruction, then I want to ask myself, if we do 
this unilaterally, and we have not taken care with allies in 
the region, are we going to create a situation which worsens 
the situation? That for me that is the key question. Mort 
Halperin's comments went to this, and that to me is very, very 
important.
    Unfortunately, it is a soft point, if I can put it that 
way. It is a hard one to assess, but if we do this the wrong 
way and we create, Senator Lugar, what you were talking about 
before, that situation in which we can ask ourselves, gee, I 
wonder why we are not appreciated the way we think we ought to 
be, then we will have really made a tragic error, so I think 
that is the kind of calculation, very hard to make, and we look 
to regional experts to help us.
    Senator Hagel. Mr. Duelfer.
    Mr. Duelfer. I tried to get a little bit at the point you 
were raising when I said what we need to do ahead of time is do 
our political groundwork, both with respect to Iraqis in Iraq, 
Iraqis outside of Iraq, the opposition, but also with some key 
capitals on this, and I think a discussion about the 
characteristics of a follow-on government that we would expect 
to see is one mechanism for involving a lot of important 
voices, some overtly, some perhaps not overtly, into putting 
forward a picture of what we expect Iraq will be on the other 
side, but without being prescriptive, in other words, not being 
in a position where we are trying to impose something on the 
Iraqi people.
    But I think there is a delicate balance and delicate work 
that has to be done politically which includes people in Iraq, 
and that obviously is something that is not necessarily what we 
can be discussing in an open session, but none of this is 
guaranteed. There are enormous risks, economic risks, loyal 
interests, all of that sort of thing. There is a big risk that 
Saddam will be able to characterize what we are doing as trying 
to put in place a puppet, and nothing will solidify the Iraqi 
people to oppose us, nothing will cause more bodies to come 
back in bags, ultimately, than if the Iraqi people are put in a 
position where they see supporting Saddam as being the 
patriotic act.
    What we need to do is carefully separate Saddam from 
patriotic acts for regular Iraqis, Iraqis in the army, Iraqis 
in the Republican Guard, even the Special Republican Guard, 
even the security services. We need to make Saddam feel very 
lonely. I think there is a strategy out there which can do 
this, both with our allies, with capitals. I think it rests on 
causing audiences in various locations, most especially in 
Iraq, though, to think about their relationship with the next 
government in Baghdad, and when they start doing that, Saddam 
will be very lonely.
    Senator Hagel. General.
    General Hoar. Senator, I think you touched on some very 
complex issues. First of all, I do not believe that the Iraqi 
opposition can be depended upon. I think from my own experience 
in the region, that they were not worth anything during that 
time. Tony Zinni, who followed me twice removed, felt the same 
way up to 2 years ago, and what the Iraqi opposition needs is a 
charismatic person that is doing something to make the case for 
a regime change, and that certainly is not Mr. Chalabi in 
Mayfair sending faxes to Iraq. That is the first thing.
    Second, those people that have chosen to stand up and fight 
on two occasions, the Shia in the south and the Kurds in the 
north, have both been left in the lurch by the U.S. Government, 
so until we are on the ground and winning, do not expect any 
help from them, if that is what we are going to do.
    How do we get allies into this game? I would say that pan 
Arabism as a political movement and as an economic movement is 
dead, but not as a cultural movement. From Morocco all the way 
across the Arab world there is still a good deal of sympathy 
for the Iraqi people, not the regime, but the people. We have 
to make the case as a government, through public diplomacy and 
otherwise, and we have not made that case to the Arab people, 
the Arab street, as it is frequently called, why the change has 
to be made and why it would be useful, and clearly, as Mort 
suggested, if there were some movement on the Israeli-
Palestinian side we would move a long way, because most Arabs 
feel that is a far more pressing issue than the Iraqi issue.
    With respect to cost, the sort of thing that is 
contemplated up to and including large numbers of people on the 
ground, assuming a military victory, would be very costly. 
Desert Storm, the Saudis paid $17 billion as their share of 
that bill. Prince Abdullah told me that he had been deceived, 
his word, by a senior administration official on how the bills 
would be split up. There is very bad feeling there. I am sure 
that the Kuwaitis, because of their special circumstance, would 
help any way they can if we put pressure on them, but it will 
not be easy.
    I think that all of the things that we have talked about 
here need doing, but it requires a concerted effort on the 
Government's part, and I do not see that that work is being 
done at this time.
    I would finally add that bringing the Russians into the 
equation, and perhaps the Chinese, because that is the source 
of some of this weapons transfer of materials, would help 
indeed, and shutting down the oil that goes from Iraq through 
Turkey, $2 billion a year, and providing another source for the 
fuel that goes to Jordan at a reduced cost would also put 
greater pressure on the Iraqi Government.
    Senator Hagel. General McInerney.
    General McInerney. Senator, I think the important thing is, 
the opposition group must be developed. The fundamental tenet 
that we have got to operate from, and I will not personalize 
this, but there are people out there that our Government can 
actively work with. They will not meet the Boy Scout sniff 
test. They will not do certain things, but they will be part of 
a group that will have credibility within Iraq, and it has the 
right objectives and the right motives.
    Nobody loves Saddam in Iraq. Every family, I have been told 
by Iraqis, every family has been hurt by this man, either in 
the Iranian war, the gulf war, or personal prosecution that he 
has made against them, and so we need to capitalize on that, 
and there is a sweet spot.
    I cannot give you that answer now, but I do know that 
thoughtful people can resolve that issue, and once you have 
that and have a credible one, then everything else starts to 
roll with it, and so that is to me extremely important, and I 
would just agree with the comments that General Hoar made on 
the allies.
    Senator Hagel. Thank you.
    Dr. Halperin. Senator, I think that is the critical 
question. I am extraordinarily skeptical that we have a clue of 
how to bring into existence a combined Iraqi opposition that 
could take over the country. We have been trying for a very 
long time under three American administrations now, and I do 
not believe that there is a solution to that problem.
    Moreover, I would say that while many, and maybe most 
Iraqis, hate Saddam, I would say that it is extraordinarily 
unlikely that a group that came to power which was patriotic 
Iraqis would give up the Iraqi nuclear weapons program. They 
live in a world surrounded by nuclear states--Pakistan, Iran, 
Israel. That is not a Saddam policy. That is a policy, I 
believe, that most Iraqi leaders would follow.
    Moreover, I think it is extraordinarily unlikely that the 
group that came into power in Baghdad would be for the kind of 
autonomy that the Kurds tell us is the precondition for their 
cooperating with us. I think we have failed to honor our 
commitments to them twice now, and to promise them that in the 
face of what is likely to be a government in Baghdad that has 
no interest in it is, I think, an extraordinary commitment to 
make. I would think whatever government comes to power, unless 
it is following a long American occupation, is not going to be 
anything like a democratic government. There are no others in 
the area. It is hard to imagine why this would happen overnight 
in Iraq.
    I think we also have to be enormously humble about our 
ability to help friendly governments in the region do the right 
thing. It is not an accident that most of the terrorists came 
from countries deeply friendly to the United States that we 
have worked with for a very long time. I think the danger that 
if we have a friendly Iraqi regime it will become for the first 
time a breeding ground of people who go elsewhere and plot to 
kill innocent Americans is not only a risk, but in my view is 
extraordinarily likely.
    A democratic Iraq of the kind that we talk about after 
Saddam will come about only if we are prepared to stay there 
for a very long time, accepting, in my view, very great risk of 
casualties, and a threat to the territorial integrity of Iraq. 
A democratic regime is not going to have the capacity to keep 
that country together unless there is an American military 
force in the country that insists that it stay together, and we 
have to think about whether we really want to be the 
instrument.
    The Chairman. Does anyone disagree with that point? Does 
anyone disagree with the point just made? Repeat the last 
point, please.
    Dr. Halperin. Keeping Iraq together, and democratic, will 
require American military forces dedicated and committed to 
that, including denying the Kurds the kind of autonomy that 
they will demand and assert.
    The Chairman. Stop right there, please. Does anyone 
disagree with that specific point, and if so, how?
    General McInerney. Well, I think that the opposition groups 
clearly want to keep, except maybe the Kurds, keep Iraq as 
Iraq. I mean, the Shias in the south, they do not want----
    The Chairman. Except the Kurds. That is like saying keep 
the United States together, except the Southwest.
    General McInerney. And that will be one of the entry 
points, that because it is in our interests to have the Iraq 
that we have there today and not a fragmented society, and that 
is, I think, how we entered this argument and get our support, 
and that is extremely important.
    Again, the size of the military, it is more the influence 
of the United States to keep that than a large occupation 
force. I do not see that as the requirement. It is the 
influence and the staying power of our influence there helping 
to shape that democracy. Sir, I believe that in one sense the 
two principal leaders of the Kurds have made a deal with Saddam 
Hussein already. Both of them have gone on record recently as 
saying that they are fairly comfortable with the relationship.
    I think that that could be done again, but Mort's point is 
well taken. There is no tradition of democracy in that area. 
Iraq is the instrument of post colonialism cut up by the 
British, cutting across ethnic lines.
    The Chairman. Let me make it clear, I am not trying to 
start an argument. I am trying to determine throughout these 
hearings where there are points of consensus on major, major 
questions, and a major question is, to me at least, what after? 
That is why I asked the question.
    I would yield to Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. Let me ask one 
of Mr. Duelfer and Dr. Halperin.
    There are obviously a number of diverse points of view in 
the foreign policy community about the right course of action 
in Iraq. No one disagrees with the basic premise, though, that 
the Iraqi people have suffered terribly from years of 
deprivation, and that they have been consistently told that it 
is United States support for U.N. sanctions that is responsible 
for their plight. I think, Mr. Duelfer, you were already 
getting into some of this a moment ago, but I would like to 
hear a little bit more from you and then from Dr. Halperin 
about what kind of reaction can we expect from the Iraqi people 
if the United States moves to invade their country?
    If widespread civil conflict threatens to break out in the 
wake of regime change, staving off chaos in Iraq may require, 
as we just talked about, a very significant American presence 
over a significant period of time. Aside from the obvious 
resentment this will provoke in other parts of the Middle East, 
is there any reason to believe that the Iraqi people themselves 
would tolerate such a presence?
    Mr. Duelfer. Senator, it is for exactly those points that 
you are raising that I emphasize that we need a very well 
thought out set of political organizing principles. In a sense, 
there are national institutions in Iraq that hold the country 
together, the regular army, there are departments of 
agriculture, irrigation, there is a civil service, there are 
clans which span the length and breadth of the country, and 
they need to feel that their interests will be preserved in 
what comes next, but it is very important that whatever we do 
not be seen as imposing something upon them, but simply 
allowing them to replace their own leadership.
    If they wind up in a position where Saddam is saying, here 
comes the Americans, they want to destroy the great nation of 
Iraq and put in place a puppet, then I think we are headed for 
a big mess.
    Senator Feingold. Are you suggesting these institutions 
will be able to overcome the connection that people may feel 
between the humanitarian crisis and what has happened in the 
past?
    Mr. Duelfer. I think if we posit that we will judge the 
next government in Iraq based on how it proceeds toward 
behaving more normally, toward pluralism, and say we are going 
to make our decisions about security relations, about debt 
relief, about adjusting the sanctions--we need to get out of 
this box that we are in, and I have no idea how we got in it, 
where the notion of changing the management in Baghdad is seen 
as something anti-Arab.
    I mean, Saddam has done a great job in speaking to the 
Arabs in the street, as they are called, via al Jazeera and 
other mechanisms, saying the United States is against the Arabs 
because the United States wants me out of power. I mean, 
logically there is nothing better I can imagine for the Arab 
people that if Saddam left and the Iraqi people were able to 
achieve their enormous potential, and there is enormous 
agreement that they have enormous potential.
    Senator Feingold. Again, Dr. Halperin, what I am getting at 
is the relationship between the humanitarian crisis and the 
reaction of the Iraqi people.
    Dr. Halperin. Well, I think part of that, Senator, goes 
back to the spectacular failure of the United States so that we 
got to this point where the world believed that somehow we were 
responsible for the humanitarian crisis in Iraq, rather than 
Saddam Hussein. Secretary Powell came in, I thought, committed 
to changing that, both by more effective public diplomacy, but 
even more important, by changing the nature of the embargo. 
That is, by allowing Iraqis to import many more kinds of things 
than we had permitted in the past, by allowing them to rebuild 
their oil industry and export as much oil as they could, 
consistent with the economic situation, and focusing the 
embargo only on things which contribute directly to their 
weapons of mass destruction or conventional military 
capability.
    We now have that resolution from the U.N. Security Council. 
As far as I can tell, having worked very hard to get it, we 
have done nothing to implement it. I think we need to implement 
that in a way that turns that tide so that we begin to 
demonstrate to the world that if there is a humanitarian crisis 
in Iraq, it is Saddam Hussein's fault, and not the fault of the 
U.N. embargo, and that is part of my proposed containment plus 
strategy.
    If you talk about a regime that comes in afterwards, the 
natural course of events in Iraq in my view would be to a 
regime which suppressed the Kurds, which denied political 
freedom to people, and which continued to develop weapons of 
mass destruction. It would still be better than Saddam's in 
some ways, and not as crazy, and not as bad for the people of 
the country, but that is what it will be unless we are prepared 
to stay there for a very long time, in a very unnatural way, 
and actually try to change that country. I think we are talking 
about 20 years of many American troops in the country.
    The alternative is that we will, in fact, not live up to 
the commitments we will make to the Kurds to get them to 
cooperate in this endeavor, and I think there are very serious 
moral and realpolitik issues of once again promising them 
something that we are not going to deliver on.
    Senator Feingold. Thank you, doctor. Thank you, Mr. 
Chairman.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. A couple of our 
witnesses have said that first we have to solve the Palestinian 
issue before we move here, and I suppose we could have weeks of 
hearings on that issue, but I am inclined to agree, and it 
seems to get worse every day instead of better.
    I do have a specific question. It seems as though some of 
the Islamic fundamentalists are using to their propaganda 
advantage the presence of our military bases near the holy 
sites of Mecca and Medina, and technically, in relation to the 
value of those bases to us strategically in the gulf, and the 
disadvantage to us on the propaganda front, where does that fit 
in, these bases that we have, and both the generals have had 
experience with?
    General Hoar. Of course, the bases in Saudi Arabia are a 
legacy from the gulf war. You will recall that King Fahd agreed 
to that when Mr. Cheney and Mr. Wolfowitz and Norm Schwartzkopf 
went over right after they briefed the President. With the 
requirement to conduct Southern Watch, the air campaign over 
Southern Iraq, we needed bases in the area, and those bases 
existed in Saudi Arabia, and Saudi Arabia agreed to pay the 
vast majority of the costs associated with them, but this has 
been very difficult for many conservative Muslims in Saudi 
Arabia.
    As you know, the Wahabi sect of Islam is very xenophobic, 
and so as a result there has been continuing pressure. Osama 
bin Laden used this theme in his program, but he has used a 
variety of themes directed at different populations in the Arab 
world that are not all consistent. I think the only place that 
you would find that problem is in Saudi Arabia with that 
particular group of people.
    Senator Chafee. How critical are they to us, their presence 
in the region?
    General Hoar. Well, the bases are being replicated in Qatar 
right now, so there are other options, but I would say in terms 
of contemplating military action in that area, U.S. military 
action, air space over Saudi Arabia is critical. If you were to 
not have the ability to use Saudi air space, the problem would 
become extremely more difficult.
    Senator Chafee. General McInerney, anything to add?
    General McInerney. No. I agree completely with General 
Hoar.
    Senator Chafee. Thank you, gentlemen.
    The Chairman. Thank you, gentlemen. Do you want to take a 
5-minute break? Your constitutions are admirable.
    The Senator from Florida.
    Senator Nelson. I would yield to the Senator from West 
Virginia.
    The Chairman. The Senator from West Virginia. He was here 
before everybody, and I was getting to him last, for which I 
apologize. The Senator from West Virginia.
    Senator Rockefeller. Thank you, Mr. Chairman.
    I am struck, I guess, by listening to this conversation 
this afternoon, about the enormous variety and range of 
uncertainty which is expressed by all of you, and it is not 
that people are keeping all options open, because you are all 
experienced professionals, and that is not your purpose, but 
the effect of what you are saying gives that impression, that 
we need to keep all options open, so the concept of uncertainty 
interests me.
    For example, people talk about galvanizing the people in 
some way. Well, I mean, you know, they talked about that in 
Indonesia when Sukarno was in charge, and nothing happened, 
until something eventually did after decades, and Assad the 
same thing--was he a 7-year term, something of that sort--and 
now we have Hussein, and people are talking about, well, if we 
could only figure out a way to get the people going.
    To me, the pan Arabism argument followed, as Senator Lugar 
indicated, our total inability to understand what Islam is, and 
getting off all the signals that we do not, and then even in 
conversations like this, where there is this sort of--where the 
sense of uncertainty about the development of American foreign 
policy, or potential American foreign policy, military or 
diplomatic, is just wrapped in uncertainty.
    I mean, I think that one can speculate that it is a lot 
easier to use intelligence to find out, for example, what is 
going on in the chemical world with emissions and effluents 
than it is in the biological world, which is much more 
discrete. You say that the nuclear thing, if we were really 
sure about the nuclear thing I cannot imagine that we would not 
go in, and yet my understanding this morning was that there was 
a feeling that each day that goes by the threat gets greater, 
and then we get back to the threats, which are the subject of 
all of this.
    The question I would ask you is that there is an 
extraordinary polemic involved in this, because the stakes are 
so high, the consequences Senator Kerry mentioned, are we 
preparing the American people, and that is as if Iraq existed 
by itself in the world, and of course it does not. They have 
their own nations, we have our own problems, and there are 
uncertainties everywhere now which encourage each other and 
compound, therefore, so I am just interested in what is a 
resolution process? I mean, if we are stuck with uncertainties, 
and then we can go from here to here, and we are rational here 
and we are rational here, we make sense here and we make sense 
here, and we are right here and we are right here, so we 
describe all the options, but time closes in, the dean said so, 
and every day that passes gets more dangerous.
    And then this not insignificant point that if, perchance, 
we wait 3 days too late, and either from that country, through 
others--and some people say no, they will not do it through 
others, because they want to keep it for themselves because it 
gives them power, but who knows about that, too, and then some 
day all of a sudden some series of terrible things happens in 
this country, and then the whole concept of body bags takes on 
a very different concept.
    So I guess the only question, certainly the only question I 
have time for, is that we can deal with uncertainties because 
we are an honest Nation and we tend to be very open in 
expressing our views and our concerns and our worries, and that 
is fair to the American people, part of the democratic process, 
unique in the world, I might say, we are that way.
    But at some point there comes the point of a resolution of 
what you are going to do, and you cannot talk about 
uncertainties because you do not have all the answers, and you 
never will have all the answers, and we all know that we will 
never have all the answers, and so sort of a collective sense 
from you gentlemen of how one deals with the process of going 
from continuing uncertainties on very, very large issues to the 
point of decision. Obviously, it rests in the hands of the 
President of the United States.
    Ambassador Gallucci. I would like to take a brief shot at 
that and go back to a point that was made earlier that the 
coalition fought a war against Iraq and won, and there was a 
resolution to the war, the U.N. Security Council Resolution 
687. It is still outstanding and is not being implemented, and 
so as an opening proposition, Senator, your statement that we 
have this uncertainty, let us remember that there was a 
resolution that really deserves to be implemented. So we are 
dedicated to getting from here to there, which is to say, to an 
Iraq that does not have weapons of mass destruction.
    So the question is, how do we get there? Well, do we have 
to invade immediately? I would say no. Is that something we 
want to leave alone for a long period of time? I would say no, 
too risky, for the reasons we have all talked about.
    So in the near term it would seem to me one of the things 
we ought to do is build a consensus around the need for action. 
We should have hearings in the Senate Foreign Relations 
Committee on this, and we should address all this, and the 
American people should be listening, and then we should start 
to do those things, some of which have been laid out by some of 
my colleagues at the table, that would build a consensus 
domestically and internationally, in order that we be in a 
position to take military action when either we are forced to 
because of some bit of information that is delivered to us by 
George Tenet, or some other way, or because we have come to the 
point where we think we now are in a better position in terms 
of our status with allies and friends and domestically. Fially, 
if you took the advice I was offering, you would also want to 
check the box of really trying to see whether an aggressive 
inspection regime could be put in place.
    But there is a deliberate process, I think, that we can 
move and implement, but starting with the proposition that that 
U.N. Security Council resolution deserves to be implemented and 
has not been for the last, you could pick the year, but 
certainly probably 5 or 6 years is not a bad number.
    Dr. Halperin. I think that your premise is absolutely 
correct, what dominates this in uncertainty. It dominates 
almost all international problems. They are all much too 
complicated to have any real certainty about what to do, and if 
we think we have certainty, it is because we bring to it an 
idealogy that filters out the things that produce the 
uncertainty.
    The answer to uncertainty, in my view, is the American 
Constitution. I think the way to resolve this question is the 
way the Constitution intended. That is to say, if the President 
concludes that he wants to implement an option, particularly 
one that involves the initiation of the use of military force, 
I think he has an obligation to come to the Congress and ask 
for a resolution authorizing him to do that.
    I think he has an obligation to lay out his understanding 
of the costs and gains, and how he resolves these 
uncertainties, and then I think the Congress has to debate 
those, and if it authorizes the President to go, then I think 
he has the ultimate responsibility to decide when to initiate 
it. You can do all of that without eliminating the tactical 
surprise of a military operation, and that is why I think these 
hearings are so important.
    The consensus that seems to me to be developing on both 
sides of the aisle in the Congress and outside that this is a 
situation in which the Congress' authority is needed to use 
military force is an important step forward. I think this 
country will stand together whichever we decide to do, as long 
as we do it with our eyes open, understanding the uncertainties 
and the costs, and we follow the procedures of the 
Constitution.
    The Chairman. Thank you very much.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. I thank the 
panelists for your presentations, your thoughtfulness. Several 
of you I have had in front of panels where we were going 
through this exercise I believe 4 years ago looking at Iraq.
    I want to go at one narrow question, one broad question. 
Several years ago, when we were looking at regime change, that 
was the terminology that was developed at the time on the Iraq 
Liberation Act, supporting outside groups, what we could do to 
remove Saddam Hussein, there was broad consensus that this is a 
bad actor, Saddam Hussein, we would be better off if he was not 
there, is now the time, and what are the means, and that is the 
same question we are here with today.
    One of the issues that came up at that time was, it would 
not be a containment plus strategy as you described it, but one 
was described as saying we have a no-fly policy over certain 
portions of Iraq today that Saddam cannot enter air space, and 
we will enforce that. It was to expand that policy to a no-fly, 
no-drive policy, and try to allow opposition forces to buildup 
in further areas of Iraq, Kurds already control a good portion 
of the north, try to expand that in the south, and to have 
Saddam become more of a mayor of Baghdad than controlling the 
entire country.
    I would like, perhaps if we could, one of the military 
members respond to the thoughts of trying to do something like 
that today, and whether or not you feel like that is a 
meritorious type of policy trend to support.
    General Hoar. Senator, I do not think Tom and I are going 
to agree with this, but I think Tony Cordesman's thoughts this 
morning about encouraging resistance without direct affirmative 
assistance on the ground is at best an unethical and perhaps an 
amoral approach. Given what has happened in the south to the 
Shia before, I do not think that you can build that kind of 
support in the south without a firm commitment on the part of 
the Government to come to their aid.
    Senator Brownback. On the ground?
    General Hoar. On the ground.
    General McInerney. I would agree with General Hoar. The 
opposition must be developed outside the country, and it must 
be credible, and then working covert operations back in, but 
only when you put U.S. and coalition forces in harm's way in 
that country in such an enabling force size that you can enable 
them to survive, because in the final analysis, the coalition 
forces will be the ones that make this successful. It is not 
the opposition forces. The opposition forces bring political to 
it, Iraqis retaking Iraq. You are helping them do that.
    Number 2, they also bring a dialog with the Iraqi people in 
the Iraqi Army, and that is where we need to focus, but I would 
agree 100 percent with General Hoar and Tony Cordesman that, do 
not let anything try to do it, them start by themselves.
    Senator Brownback. Just with air superiority, using air 
superiority?
    General McInerney. I do not think air alone can do that.
    Senator Brownback. Thank you for directly responding. The 
second is a broader question. It may be a bit of a wild card, 
but it struck me as an interesting point. A gentleman far more 
knowledgeable than I am on these issues in the region was 
assessing the war on terrorism--and I think to date the Bush 
administration has done a marvelous job in the war on 
terrorism.
    I think they have been so very focused, very intense, and 
going sequentially, focused on Afghanistan. Next, they have 
been involved in the Philippines where the troops are coming 
out, Georgia, troops in Uzbekistan, building alliances up in 
Central Asia. I think this has been to me a very good, solid, 
sequential strategy.
    My question is now that in the war on terrorism, what is 
the appropriate next target to go at? If you just back up and 
you ask yourself, what is the best place to go at, and this 
person was asserting that if you look at it that way, and you 
are trying to get your biggest, most problematic targets first, 
an analogy to dealing with cancer, where you go and you dig the 
big nodes out before they metastasize, you go at Afghanistan, 
you have got to dig and pull this one out, that your next big 
country that is supporting and sponsoring terrorism, that is 
putting money into it, that is putting troops into it, that is 
training, is Iran, that that is the country that is supporting, 
that is sponsoring more terrorism, supporting Islam Jihad, 
Hezbollah, Hamas, shipping weapons, providing training to a 
number of countries in that region. Is that the more likely 
intense focus that one should go at in a sequential battle in 
the war on terrorism?
    General McInerney. My feeling is, is that Iran will take 
care of itself once Iraq goes. Iraq has violated the U.N. 
accords. It has violated everything. It attempts to shoot down 
every day airplanes in the northern fly zone and the southern 
fly zone. If they hit one of them, that is an act of war, is it 
not? That does not seem to bother him, because I think he flat 
says, they just do not have it. They just do not have the guts 
to come after me, and every day, they fire at our planes, and 
every day we put them in harm's way. Now, that is why I think 
Iraq should come before Iran.
    What you said about Iran is exactly correct, although I 
think once Iraq goes, that Iran will self-correct.
    Dr. Halperin. Senator, let me comment on that. Two points. 
I think the only way to stop Iran from supporting those 
terrorist groups is to settle the Palestinian-Israeli problem. 
I cannot imagine even a different regime in Iran which would 
not provide support to those groups as long as the Middle East 
problem is the way it is, so the solution to the Iranian 
terrorism, which as you say is focused on the Middle East and 
on Israel, is to settle the Middle East problem. You cannot 
settle it by regime change in Iran.
    Second, I agree with you, we need to go through a sequence, 
but I think we have skipped the first step too fast. 
Afghanistan is not over. Afghanistan is still going to require 
for a very long time a very substantial American military 
presence, and I think before we look for another place to use 
American military force we had better make sure that we do not 
leave behind an Afghanistan which 2 years from now is 
supporting terrorist groups again, not from the central 
government, but from pockets around the country.
    General McInerney. The only thing I would say to that, 
Afghanistan is not developing weapons of mass destruction, and 
that is why the priority must shift. We clearly must stay and 
work the Afghanistan problem, Mort. I agree with you 100 
percent.
    Ambassador Gallucci. Senator, I think Iran is a serious 
problem for us, but I hope it is not on our list of countries 
which we would plan to invade any time soon in a preemptive 
act.
    Senator Brownback. I have not heard anybody suggest that.
    Ambassador Gallucci. That is good. I think there is a 
question about how best to deal with Iran. I guess I would 
disagree with General McInerney. I do not think that addressing 
the Iraqi problem is necessarily going to help us with Iran. I 
think certainly, if the Palestinian-Israeli issue were 
resolved, that would go a long way in taking away one of the 
issues that causes difficulty.
    Iran's drive to weapons of mass destruction independent of 
its support for terrorism is, I think, a much more deeper 
rooted desire in Iran, and I do not think it is connected 
particularly to this regime. I think it is traceable to the 
Shah, and I think this is a strategic issue that only when we 
get a dialog with Iran will we be able to address successfully. 
Right now, I think the key to dealing with Iran is dealing with 
Russia rather than Iran, because we do not have much going on 
with Tehran.
    To go back to your first question about where do we go 
next, I would be putting energy working on the Mort Halperin 
theory of governance, that governments of the United States 
only have so much energy. I would be putting energy on working 
on South Asia and Pakistan in particular, and I worry greatly 
about the stability and coherence of that country and its 
relationship with India over Kashmir.
    Senator Brownback. Thank you. Thank you, gentlemen.
    The Chairman. Thank you very much.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Well, I agree with what you have said about what after, and 
a good example of that is Afghanistan, and we are not even into 
the what after. We are still in the middle of it, and yet we 
are not going to have success for the long run in Afghanistan 
unless we have a major presence there to help them, and you 
have pointed out the distinction between Afghanistan and Iraq 
being the potential for weapons of mass destruction.
    Now, if we got involved in Iraq militarily, what is that 
going to do to logistical and personnel support in other parts 
of the world, particularly in Central Asia? Is that going to 
stress us to the point that we are not going to be able to 
supply what we need to over there in Afghanistan, and in the 
surrounding area, and out there in the Arabian Sea? Give us 
your comments on that.
    General Hoar. I think that what little I know about the 
plans that are contemplated about military action in Iraq, I 
think the problem is always scarce assets. The intelligence, 
the Jstars, the rivet joint airplanes, tankers, those things, I 
think there are adequate forces on the ground.
    I think the carrier battle groups and that sort of thing, 
given the current state in Afghanistan, has slowed down from 
the early days. Whether or not you could sustain it, given the 
requirement for forward deployment and so forth, I think there 
probably would be some shortage. I read in the paper that some 
of the smart weapons were used extensively in Afghanistan, but 
now those supplies have been reestablished. I think there would 
be some problems, but I do not think they are showstoppers.
    But I would again point out the much larger problem is, 
from where do you launch these operations, and with whose help, 
and so forth.
    General McInerney. I would agree with General Hoar, and the 
key thing is where we launch them. It would stretch us, but it 
is throughout the world, because this would be a major regional 
contingency, but it is within our capability.
    Senator Nelson. Both of you were talking about the forces 
that would have to be brought to bear from the outside. Do you 
have a sense from your military experience as to how many 
troops we are talking about?
    General Hoar. Well, I think from Tom's comments he believes 
that a good deal more can be done with the new technology that 
is available to us than I believe. I think that as Tony 
Cordesman said this morning, you may be able to do this on the 
cheap, but in the event that it does not work, you need to be 
prepared with a fallback position.
    The old military belief is, you make an assumption, and 
then you have an alternate plan to make sure that if the 
assumption does not work, that you can in fact have another 
choice.
    It seems to me that at the end of the day you are going to 
have to put people on the ground. The Republican Guard 
divisions, their loyalty to the regime, it seems to me that you 
cannot do that on the cheap.
    Having said that, the very things that Tom has mentioned, 
particularly with smart bombs, the command control 
communications and so forth, has improved enormously, and it 
would be much, much easier than it was in Desert Storm, but I 
am afraid you would still have to put a fairly large number of 
folks on the ground.
    Senator Nelson. And not doing it on the cheap, and putting 
large numbers on the ground, we are really talking about a 1/4 
million troops, are we not, having the backups you are talking 
about if things go wrong. You have got to have that capability 
of backup.
    General Hoar. I would be reluctant to put a number on it, 
because I do not know what people that are much closer to this 
problem than I--but I would say it is in that ballpark, yes, 
sir. It is certainly not the 70,000 we have heard from time to 
time.
    Senator Nelson. Mr. Chairman, I think one of the things we 
have to explore here is cost, and I am as much of a hawk as 
anybody, but let us get it out on the table. With what we had 
in the gulf war, roughly 1/2 million, the cost, the total cost 
was about, in today's dollars about $80 billion, so if you are 
going to have a force half that size, and you are talking about 
the same duration, in today's dollars that is in the range of 
$40 billion.
    Now, maybe we have to spend that, but let us understand 
that, and let it be a part of the dialog.
    General Hoar. I think you also have to consider, Senator, 
the cost to the economy. The price of oil went to $40 a barrel 
during the gulf war. There is every reason to believe that some 
similar disruption would take place to the American economy.
    General McInerney. I would say, and I will not give a 
number, but it is a smaller force, and let me give you a few 
reasons why. No. 1, we have added certain technology in our 
bomber force that we did not have in the Jdam, where you can 
have a B-2 hit 16 targets at once, a B-1 can hit 24 at once, a 
B-52 can hit 12 at once, I think. It enables them to stay up 
over the target so the ground forces through binoculars lays, 
designate, and they have got a bomb on target in 10 minutes, 
all weather, and so that is a quantum jump.
    The Global Hawk, the Predator, where you have 24/7, we had 
two Jstars in Desert Storm. One, they were prototypes. They 
would fly at night, and the contractors would rewrite the code 
in the daytime. Today, I think we are at 14 Jstars, which can 
sanitize a box on any movement.
    The other things I would say, Senator, are, he does not 
train his divisions in a division-size exercise. Their 
readiness is so far down, and I think we all agree he does not 
have an air force. Whatever you say, if he takes off, he is 
going to die, because the AWACs will pick him up in the take-
off mode, and our airplanes will be on them, so he is going to 
be under constant attack.
    Now, we definitely need ground forces, and I say we need 
heavy, we need light, we need air mobile, but that rolled up 
with the opposition, the opposition talking--because the 
opposition forces know the division commanders. They have got 
their phone numbers. They know the corps commanders, and there 
is something there that we need to do better on, and I will 
leave it at that, and I know we can.
    Do we have it right now? I would agree with General Hoar, 
we do not have it right now, but all that rolled up in was a 
very important campaign which speed and the simultaneous--
remember, we had 38 days, or whatever it was. Many would still 
like to have that. There is a powerful synergy between 
simultaneous land and air, because when you put ground in, he 
has to mass his forces, and if anything we have invested in, it 
was taking tanks out on the Central Plains of Europe, and that 
has got to be his main force.
    And again you play back to the IO campaign, to the Iraqi 
people. We are not after you nor your military. That is an 
extremely powerful tool that we need to work on.
    Senator Nelson. Clearly, we have the new systems. By the 
way, Joint Stars, Mr. Chairman, is built in my home town of 
Melbourne, Florida.
    Mr. Chairman, I want to ask one more question, and this is 
a very delicate question. You were not here before, when you 
had given me the opportunity to chair the hearing, and I raised 
the issue of the downed pilot from Jacksonville, Florida, from 
the gulf war, and all of these folks were sitting in the 
audience and heard my questions to the previous panel, and my 
question to you all would be, if Commander Scott Speicher is 
alive, they are obviously going to use him in some way as a 
shield, as some kind of wedge to try to get us not to do 
certain things or go certain places.
    That, of course, from a human standpoint, with a family 
that has gone through what they have gone through in 
Jacksonville, if he is alive, is just an awful contemplation. 
Can you all give to us, to me any insight into how we would 
have to go about that? Do we just have to be coldhearted and 
put the national interest first? What would you recommend?
    General Hoar. Senator, there are several hundred Kuwaitis 
that were captured, and there is no trace of them as well. This 
is clearly a national policy. There have been just Iranians 
that have been repatriated recently from the Iraq-Iran war. I 
think we need to continue to press in every possible way, but 
it would seem to me that again, using the good offices of other 
countries, specifically the Russians, and maybe others could 
help as well.
    In the long run, I do not think any of us could speculate 
about what role this particular tragedy would have in terms of 
national policy.
    Senator Nelson. I could not expect you to answer any other 
way.
    Mr. Duelfer. You raise a very important point, both with 
respect to an individual, but with respect to a general 
problem, and I have had over the years some serious 
conversations with Iraqis about how Americans target, and what 
they do, and so on and so forth, and it might be useful to just 
say what their impression is.
    Their impression, their thing is, Americans cannot take 
casualties. This is part of the motivation for weapons of mass 
destruction. I had a discussion on September 18, 1995, late at 
night, with Iraqis, where Iraqis first discussed with us their 
concept of the use of weapons of mass destruction, and what 
they did prior to the commencement of the conflict in 1991, and 
it has been said before, but I think it bears on this.
    They deployed weapons, they filled them, they predelegated 
the authority to use them if the United States went to Baghdad, 
and they believe that that contributed to the decision not to 
go to Baghdad. Again, the notion is, the United States cannot 
take casualties, but more than that, they also saw what 
happened at the end of the gulf war, when we ended the fighting 
after 100 hours. Why? Well, one of the factors which they saw 
was, here is television pictures of the Road of Death, so not 
only can Washington not stand to take casualties itself, they 
do not even like it when Iraqis are casualties.
    And if you add to that the experience of the last decade, 
where as I mentioned in my testimony Saddam has taken his own 
population hostage, the international community cannot sustain 
its will because Saddam is causing his own people to pay an 
enormous price.
    Now, all of this philosophy is going to weave itself into 
how they defend themselves against perceived attack, including 
collocating civilian and military targets, such that no weapon, 
no matter how smart, is going to be able to distinguish between 
the two, and we just have to be able to take that into course.
    Senator Nelson. Thank you.
    The Chairman. You are an extremely valuable panel, and we 
have one more panel, but I cannot resist, I have two more 
questions, and I would ask my colleagues if they have one or 
two more. This is too important to let you go.
    Each of you have a slightly different prescription as to 
how to proceed. To speak to the point made by Senator 
Rockefeller, there is necessarily uncertainty in all of the 
prescriptions. What I have gleaned from you all, that you all 
seem to have in common, although slightly different ways of 
approaching what you would propose to a President, for example, 
at this moment, is that none of you seem to think that the 
groundwork that is needed to be done has been done thus far for 
your individual approaches, each one of you. They are all 
different, slightly different. They are different in degree.
    But what I have gotten so far this morning and this 
afternoon is that whether it is containment plus, whether it is 
a robust regime with a ready force demonstrating that we need 
it, or what is in between, is that the spadework necessary to 
be able to successfully bring to fruition each of your 
suggested courses of action has not been done yet. Is that 
correct?
    Any of you, for example, were Senator Lugar President, and 
tomorrow he turned to you and said, OK, I am about to implement 
full blown your proposal, any one of you, would all of you say, 
I am ready to go, we are ready to go right now, or would you 
say, by the way, we have got to do a lot more work, we have not 
done this with the Russians, we have not done this with the 
Kuwaitis, we have not moved this with the Europeans, we have 
not done this with the--I mean, am I right, or am I getting 
this wrong here? There is more that has to be done for every 
one of the prescriptions, right, in terms of spadework?
    Ambassador Gallucci. It is a leading question, Mr. 
Chairman, but I think you lead us in the right direction.
    The Chairman. It is intended to be, because I do not want 
to make any mistake here, not because I want you to reach the 
same conclusion. I just want to make sure that I understand it, 
because look, gentlemen, I want to make it clear this is maybe 
the best way in simple terms that folks in my home town of 
Claymont will understand, I think, our obligation at the end of 
the day whenever that is--I do not mean today--is to say to the 
American people, here are the choices. You pay your money, and 
this is the chance you take. The upside or the downside is 
clear.
    If he has to take the one side, nuclear weapons. Today, 
tomorrow, 6 months or 6 years from now, that is a very bad 
thing. If he has the ability to deliver that over a range that 
is longer than a couple of miles, that is even a worse thing, 
and because of his previous mode of action, because of what the 
perception on the part of Iraqi military and civilian leaders 
around him is about, our ability to absorb pain and suffering, 
the consensus seems to be he would likely at some point use 
either preemptively or in response these weapons, and therefore 
we should do something about this, and if we did something 
about it and were able to wipe him out, in the sense of take 
him out and get rid of those weapons, it would be a very good 
thing, because the potential for things in the region to get 
better would be there. That is the upside, the danger and the 
upside.
    But don't we have to say to the American people, and it may 
be I am truly--I have not reached a conclusion about this, but 
if, for example, we were struck with a weapon preemptively, we 
would respond, and would we not have to say to the American 
people, these are the likely consequences of our responding, or 
preemptively moving. One would be, there would be loss of life, 
loss of American life. It is not likely that we are going to be 
able to do this without something between a couple and maybe 
10,000 lives lost, depending upon the ability and the efficacy 
of the chemical or biological weapons he may have.
    The second thing we are going to have to say to them is, we 
are going to have to mobilize on a grand scale, say goodbye to 
daddy for Labor Day and mommy for Halloween, because the 
Reserves and the National Guard are going to have to be 
mobilized. Does anybody think we can do any of what we are 
talking about without mobilizing the Guard and the Reserves to 
a degree beyond which they are now? So we have to tell people 
that, so they are not surprised about it. It seems to me we 
have to tell them that.
    We spent months, and I spent hours with the President, 
literally on one occasion 2 hours with the President in the 
Oval Office, and the only discussion was, in Afghanistan about 
the Arab street, and our concern about--we went through this 
tortuous process in Afghanistan, which was cake compared to 
this, worrying about what this means from Djakarta to Tunisia. 
What about our interest in the rest of the world? We have to 
tell people we do not know, right? We do not know what the 
response would be.
    We would also have to tell them that there is going to be a 
spike in oil prices. The idea that this could occur without a 
spike--maybe we should pay all these prices, but we have to 
tell them that there is going to be a spike in oil prices. It 
may be temporary, it may be long lasting, but there is going to 
be a spike. It is going to have economic consequences.
    And third, if we do it by ourselves, we cannot expect the 
rest of the world to pick up 80 percent of the tab, whether it 
is $40 billion, $80 billion, $100 billion, whatever it is, 
right?
    And we are going to have to say that it could impact upon, 
it will impact on, and we know, you may not, on the deficit. 
There will be a deficit, or some of my friends will have to 
give up a tax cut, right? I mean, those are the choices we have 
to make.
    Senator Brownback. Or spending increases.
    The Chairman. And last, that there is at least a serious 
prospect that we are going to have to keep a lot of Americans 
in place for a long time in an area of the world that may mean 
they are not going to come home for Christmas, this Christmas 
anyway, and probably for a while. Is that a fair statement?
    So I am not suggesting that we should not act at this 
point. I do not know enough to know yet, but I am suggesting 
one of the objectives, and the reason I am so thankful for you 
all giving us your time and the panels that will come, is I 
think we have an obligation to say to the American people--I 
for one, for example, if I knew he had these weapons, and the 
Lord came down and sat up here and said, Joe boy, he has them 
and he is going to move, I would say we have got to pay all of 
these prices, we have got to pay them all, but I have an 
obligation to tell the American people that this is going to be 
the cost, the parameters of the cost.
    And so I hope that we can--and you will continue to be 
available to us, because I am convinced the President is taking 
this very seriously. I realize he talks a lot about regime 
change, and some people think he talks about it very blithely. 
I do not think he is unaware, the deeper he gets into this, 
that this is very consequential, and so I think that if we 
continue this, and I hate the word, particularly in the foreign 
policy context, dialog--that usually means saying nothing, but 
if we continue this discussion as a Nation, we will arrive at 
the right answer. We will arrive at the right answer, and we 
will have the consensus of the American people.
    But the puzzle for me is, among other things, it sure would 
be nice if we got more people in on the deal. It sure would be 
beneficial if we had more cooperation. It sure would be useful 
if we could cut some of the risk, which I think if we have 
enough time and enough ingenuity we could, and so one of the 
things we are going to be exploring with the next panel, who 
are experts on the region and on the culture, and for example, 
and I will end with this, in Iraq, I mean, there are three 
centers of power.
    There historically have been three centers of power in 
Iraq. They are based on tribal and ethnic differences. They 
have significant ramifications. It matters whether or not, how 
they react, and how neighboring countries react to them, and so 
we are going to get an opportunity to get into some of what 
Senator Lugar raised today about how much do we know, how much 
do we know about the culture? How much do we know about the 
consequences? How much do we know abut the responses that are 
likely to come based upon certain actions?
    But the reason I bothered to say that before you leave, and 
I will yield to my colleagues for questions for you, is, I just 
want you to know, which I hope is obvious to you, I think you 
are making a significant contribution here.
    I think this is what we are supposed to be doing here, is 
going through this as methodically as we can within the 
timeframe, and we all think it is a slightly different 
timeframe. We have to be able to make as informed a judgment as 
we can make, and that ultimately the President of the United 
States is going to have to come to us, not because we are 
making him, but that is the system, come to us and say, here is 
what I have proposed, this is why I propose it, these are the 
potential costs, and I for one think that had we the time, we 
should and could make the case about weapons.
    I mean, I guess--I will end with this. I do have one 
question, and this will be it. Why is it that the rest of the 
world does not sense the same urgency that we sense? Why is it 
that the Europeans, who are physically closer, who have--and 
maybe it is because they have more at stake in terms of energy. 
Why is it that they do not sense this urgency, and why is it 
that the Arab world does not? Is it because they doubt our 
resolve, and therefore they do not want to get in the deal?
    What is it that, when I speak to European heads of State, 
Foreign Ministers, Defense Ministers, parliamentarians, members 
of royal families, members of governments in the Middle East, 
why is it that almost without exception they say we are 
exaggerating the threat? Is it because--but you said, dean, you 
said look, you were there. It was obvious. Everybody knew. At 
UNSCOM, they knew. They had the model.
    Why is it that Europeans talk, when you say nuclear they 
say, oh, no, do not worry about that? What is the deal? Why are 
they not concerned?
    Ambassador Gallucci. In my over 20 years of working on the 
nonproliferation problem, it has always been so, that we have 
always been making the case.
    Less in London, but in Paris, and Bonn, and Rome, and 
Tokyo, these are without closest allies, that threat of the 
spread if weapons of mass destruction is something that affects 
us all, and they always have been closer geographically, but it 
is also true that we are the superpower, that our interests are 
everywhere, that we are expected, in fact, to take on this 
burden, and they do not see themselves, I think, as quite in 
harm's way as we see ourselves and our interests, and indeed, I 
think one could make a pretty good case that we are more of a 
target.
    The Chairman. We have the bull's-eye on our back, they do 
not, is that the explanation?
    General Hoar. Sir, may I offer an explanation? With respect 
to the Islamic world, there are three things going on 
simultaneously right now, our efforts in Afghanistan, our 
obvious concerns about Iraq, and the peace process, and those 
three are connected in the eyes of the Islamic world, and if we 
lose track of that, we lose track of the sense of justice, 
whether you believe it or not, or whether you feel it is 
justified, that all of these things are connected, and that, as 
Mort has said and I have said, if we were to make progress on 
the peace process, many things would be possible for us. For 
example, disarmament in the region after a peace process would 
be a much easier hurdle to vault than to try and do it now.
    The Chairman. Some of the people I respect and do not 
necessarily agree with at the Defense Department make the 
opposite argument that if you take care of Iraq the rest will 
fall in place, including Israel and the Palestinian issue.
    General Hoar. I disagree with that violently, sir.
    The Chairman. Does anyone agree with that proposition?
    General McInerney. I think it will have a lot more 
significance if we take care of Iraq first. Saddam gives about 
$950 million this year to the PLO. He has bonded himself with 
that issue, where before he was not, but I also think, General 
Hoar, it has gotten to such a point over there that it is 
obscuring a lot of the other things Afghanistan and Iraq.
    The only thing I would say about Europe, they had the same 
problem in 1939, Senator.
    The Chairman. That is a good point.
    Dr. Halperin. Senator, can I just make one comment? I go 
back to Senator Rockefeller's point about uncertainty. 
Remember, it was not too many years ago when we were the 
leading exponents of the notion that one could get along with 
Saddam Hussein. He was still developing nuclear weapons, he was 
still doing terrible things to his people, and we were arguing 
with our allies we can come to terms with him.
    There are very great uncertainties, I think, that affect 
all of these decisions, but I just wanted to comment on the 
part that you started with. It seems to me it is very uncertain 
what we should do. There are no clear answers, there are no 
easy answers, and therefore it seems to me that--I come back to 
what you were emphasizing, is that the process is key to this. 
I would hope that we would not have from the administration 
what we had on the reorganization of the government, which is 
opposition, silence, and then a proposal and a demand that we 
do it in 2 weeks or 2 months.
    If we are going to do this, we need a long period of debate 
after the President lays out the case. I think Congress not 
only has to insist it has a role to play, but it has a role to 
play that cannot be stampeded by a sudden announcement.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. Let me try to offer 
a road map. What if we took the position that the panel this 
morning mentioned, especially Ambassador Butler, and many of 
you mentioned today, that essentially we fought a war 
militarily, the U.N. Security Council adopted a resolution, but 
unfortunately for a variety of reasons Iraq did not comply. In 
due course Iraq anticipated we would not enforce compliance, 
which we have not, but leaving aside whether Saddam is close to 
developing a nuclear weapon we go back to the U.N. Security 
Council friends and say we must take this threat seriously.
    So whether it is containment light or containment heavy, we 
must try to enforce what Secretary Powell has negotiated. We 
must be pretty hardnosed about it and say, we are going to stop 
anything restricted from coming in and out of Iraq as far as we 
can. We are going to enforce the no-fly zones almost to the 
point that we occupy in the air those two zones, so you are 
squeezed.
    In other words, leaving aside all of the speculation over 
intelligence we do not have, we do those things which are 
ordained now by the United Nations, by all of our friends.
    Now, second, we carve out $80 billion for a potential 
operation. That is a large sum of money. That is twice the bill 
that we were debating today on prescription drugs for the 
elderly for 2 years, and so it is a big sacrifice, but we 
understand that that is what we are going to do. We carve that 
money out, but then at the same time we adopt, as President 
Bush did before, a United Way campaign to try to gain 
donations. Now, who is going to pay for $80 billion? We take 
for granted that we are all going to do this, this is what is 
required, and we are all in this together. We are in the United 
Nations, we fought a war, and we have a problem here.
    We finally do the best we can intelligence-wise, either 
reform, or in some way really put an emphasis on this threat. 
Further we commit to educating ourselves about Iraq, internal 
political options, who is there, what might happen, so we have 
at least some reasonable idea, if something did happen to 
Saddam what the alternatives may be.
    Now, at the end of the day Saddam is, pressured in all of 
these ways. We set aside the money. We begin thinking in terms 
of a force of hundreds of thousands of people. We bvegin to 
collect commitments of money, bases and forces. This is 
critical, as we heard from Mr. Cordesman, we overused 23 bases 
last time. So in order to be credible they have got to be 
available again.
    So we put very great pressure upon everybody, now that we 
are credible, to open up these places. Now, maybe Saddam gives 
up, but probably he does not, and so in the course of all of 
this, ultimately something happens. Now, we have already come 
to a point where we have done a lot of planning, and we have 
people in motion. We have congressional support by this time. 
Some weeks have passed. We have had some more hearings.
    The thing that I worry about at the end of the day is not 
that Saddam would fall in the process of all of this, not are 
we prepared for it but still this aftermath of what comes after 
Saddam. I am not discouraged today. Maybe this is sort of an 
enlightened aspect of this hearing, that there are not people 
in Iraq that may be prepared for democracy as we know it. 
Suggestions are, in fact, an enlightened democracy might even 
lead to more terrorists being spawned out of the process.
    What if a liberal democracy is developed as we have in 
India, and they develop a nuclear weapon. In spite of all of 
our protests, and we say, well, they are friendly, unlikely to 
use that on us, but they might use it on someone else. 
Consequently a lot of our diplomacy will be focused on trying 
to prevent that. Why did they develop one? Why is Iran's 
development any more benign, as Senator Brownback brought up?
    The question that I have is, at the end of the day, what if 
we end up with a regime in Iraq that because of a sense of 
nationalism, or threats from Iran, decide to maintain weapons 
of mass destruction just like the same way India and Pakistan. 
Would we then just hope they are more friendly, and therefore 
unlikely to use it on us. That is a very, very queasy 
objective, much like the end of the last war with this 
resolution that was never enforced.
    Now, that is why I think we need much more thinking, Mr. 
Chairman, on what is an alternative at the end of all of this. 
After we have sketched out how we win the war, how we get the 
allies, what do we have left, we still have not heard what will 
happen. Some express hopefulness that there is a charismatic 
figure somewhere in Iraq today, or outside of Iraq, that might 
come in, or several of these people who somehow might bring 
about a different style of life for people.
    Now, we are experimenting with this in Afghanistan. There 
are big changes there. Women are going to school and having 
basic rights. This changes the whole concept that half the 
population of most Muslim states are disenfranchised and out of 
the picture.
    As you pointed out, if all this began to occur in Iraq, 
what would the neighbors think? How about the Saudis? How about 
anybody in the neighborhood? Do they accept this? How many 
years, and how many people do we have to have there to make 
certain those who are doing these incipient democratic things 
have time to do it? And so that is a part of the situation I 
think we need to sketch in some more, Mr. Chairman.
    The military side of it is not complex. Most Americans are 
not prepared to spend $80 billion and several hundred thousand 
people in readiness and deployment, but that we can do. We have 
been through that before, and we still have not come to a 
successful conclusion in Iraq, or at this point certainly even 
in Afghanistan, and that seems to me to be critically 
important.
    The Chairman. That is why I almost switched my registration 
and voted for you in the primary.
    Senator Lugar. I do not really ask for anybody to comment. 
This is sort of my own editorial, unless somebody has a thought 
about it.
    The Chairman. Would you like to comment?
    Dr. Halperin. Let me say, Senator, I am ready to sign up to 
the first part of your policy, which is a vigorous enforcement 
of what the international community already supports, with the 
notion that if Saddam resists that, we then push further with 
the use of military force.
    Senator Lugar. That is our entre back into the 
international community.
    Dr. Halperin. The only thing I would add is, let us take a 
little bit of that money you set aside and spend it to make the 
embargo work. If we are prepared to compensate the Syrians, the 
Turks, and the Jordanians for the consequences of honoring the 
embargo, and if we insist that they honor the embargo, I think 
we can make that happen, and I think that would have a very----
    Senator Lugar. That is interesting, compensating these 
people.
    Dr. Halperin. The U.N. Charter entitles countries which 
enforce embargoes mandated by the Security Council to be 
compensated by the international community. We did it to some 
degree with the countries around Serbia, not fully, but to a 
significant degree, and we have not done that in this area, and 
that is a lot cheaper than a military operation.
    Senator Lugar. Good idea. Thank you very much.
    The Chairman. Thank you. Gentlemen, do either of you have 
any more questions?
    Gentlemen, I cannot thank you enough. This has been very 
helpful, the start of this undertaking, and I warn you, we are 
like poor relatives, when we are invited, we show up. You have 
invited us to ask you again. I am warning you we may ask you 
back. I thank you very, very much. You have been very helpful.
    We have one more panel, a very important panel, and what I 
would like to suggest is that--I realize it is 5 o'clock, but 
it is going to take a little more time. Professor Telhami, 
Professor Ajami, Dr. Kemp, and Ambassador Parris are our next 
panel, and we appreciate their waiting so long. Please, 
gentlemen--I do not know where they put your name tags, but if 
you would pick a seat, and the tag will find you.
    Professor Telhami is Anwar Sadat professor of peace and 
development at the University of Maryland, and is a nonresident 
senior fellow at the Brookings Institution, and has made 
himself available to this committee, to me and many members of 
the committee, and we truly appreciate his making himself 
available.
    Professor Ajami is professor and director of Middle East 
studies at Johns Hopkins University School of Advanced 
International Studies, and he has recently been elected to the 
board of the Council on Foreign Relations, again has been 
incredibly generous with his time and advice.
    Dr. Kemp is director of strategic programs of the Nixon 
Center. From 1983 to 1985 he served as both Special Assistant 
to the President for National Security Affairs and Senior 
Director for Near East and South Asian Affairs on the National 
Security Council.
    And last but not least, Ambassador Mark Parris served as 
U.S. Ambassador to Turkey from 1997 to 2000. He served as 
Special Assistant to the President and Senior Director for the 
Near East and South Asia at the National Security Council from 
1995 to 1997.
    Again, I thank you all for being here, and I thank you for 
your patience. Maybe if you could proceed in the order you have 
been introduced, and then we can get to questions. You see we 
have an interested panel on this side, so I appreciate your 
time and hope we do not ruin your dinner.

  STATEMENT OF DR. SHIBLEY TELHAMI, ANWAR SADAT PROFESSOR FOR 
 PEACE AND DEVELOPMENT, UNIVERSITY OF MARYLAND, COLLEGE PARK, 
   MD, AND NONRESIDENT SENIOR FELLOW, BROOKINGS INSTITUTION, 
                         WASHINGTON, DC

    Dr. Telhami. Thanks, Mr. Chairman. Thanks for inviting me. 
I would like to make some very brief opening remarks, and I 
would submit my written statement for the record.
    The Chairman. All of your statements will be placed in the 
record to the extent that you do not do the whole statement.
    Dr. Telhami. What I would like to do is instead just 
highlight a few points, and I would like to address more 
specifically the issue of regional impact on a possible war, 
and how the region broadly looks at policy toward Iraq.
    I think it is clear from what you heard already that there 
is pervasive opposition to a military campaign toward Iraq in 
any foreseeable future, and it is very important to understand 
what the calculations are in the region that lead to this kind 
of opposition.
    I would like to begin by saying that while a lot of that 
has to do with an assessment of public opinion in the region 
and the pressures they face from their own public, much of that 
calculation is not based only on public opinion. Some of the 
calculation is based on very specific strategic calculations 
that these leaders and these governments make.
    We have to first be clear, not each one of them has the 
same calculation. The calculations of Jordan, Iran, Syria, the 
GCC states are different, but they have some things in common. 
They all worry about the consequences of what happens after.
    First, it is clear that they do not see the threat in the 
same way that we do. They do not believe that Iraq today poses 
a serious military threat that they have to worry about, and 
they see our focus on it as out of place. They have other 
priorities they would like to address in the region, and they 
see this as taking us and them away from other priorities, such 
as the Arab-Israeli issue, and in that regard they fear that 
this will disrupt very important priorities.
    They also fear that after the war, first and foremost, 
there may be more instability than we are planning for. They 
think that we might be optimistic about our capability to bring 
about a desirable outcome in Iraq that would be a stable 
outcome for each one of them, especially Turkey, Syria, but 
even Iran and the GCC states, and in that regard they are not 
confident about our own assurances that we intend to spend the 
time and the money and the energy and the military clout to be 
there for as long as it takes to bring a desirable outcome 
about.
    First and foremost, I think they fear instability at the 
strategic level. But consider even a happy outcome from our 
point of view, which is an outcome that says we will put the 
necessary resources to bring about a better government in Iraq, 
a stable situation in the region, so therefore they do not have 
to worry about the issue of instability. Then we can only do 
that by putting forth significant forces that would turn Iraq 
essentially into an American base and an American ally. In a 
way, that clearly disrupts the strategic calculus for many of 
them in a way that is worrisome for many of them, even aside 
from public opinion. Not all of them, but many of them worry 
about it.
    But ultimately it boils down to another factor, which is 
public opinion. They do worry about it. There is a pervasive 
resentment of the United States today in the region. There is a 
sense of public power that has not been exhibited before in the 
region, and much of it is directed not so much at the United 
States only. It is really a pervasive sense of frustration and 
humiliation with an existing order that many people in the 
region do not support, but they see the United States as an 
anchor of that order, and clearly the highlighting of the pain 
on the Palestinian-Israeli front over the last few months has 
exacerbated that resentment in a way that is putting pressure 
on these governments.
    I do not want to exaggerate this and say that governments 
are weak and cannot be contained. Clearly, the Governments have 
been able to contain pressure before, and clearly, even in the 
recent crisis, they have done so in a way that diminished the 
impact of public resentment and public pressure.
    The real issue for them is, at what cost? Even if they 
succeed, at what cost can they do it? I know that there is a 
school of thought that is dominant in some of the public debate 
today, which says, who cares about public opinion in the 
region, or who cares even about the positions of these 
governments who are opposing the United States? The assessment 
is that we are powerful enough to do it on our own, and when 
they see that we are going to do it anyway, they are going to 
jump on the American bandwagon, and they are mostly 
authoritarian governments. They are going to find a way to 
bring the public along, and therefore, why should we care? Why 
should we pay attention to that? Let us do what we need to do, 
and they are just going to jump on a winning American 
bandwagon.
    I am not going to address the military side of that. You 
have heard a lot about it. But the political side of it, I 
think it is a mistake to make that argument. I have no doubt 
that some governments will jump on a winning American 
bandwagon, no question about it. I think people do not like to 
be on the sides of losers, and they do not want to be on the 
wrong side of the United States, especially if they are sure 
that the United States is going to win, and I think militarily 
there will be no doubt.
    The real question is at what cost and what are the 
consequences, but I think if the United States is willing to 
put a lot of resources into it, that there is no doubt about 
the military equation of it, and so there is no doubt that some 
will do it, but I will submit to you that the calculations have 
changed since 1991, and clearly we cannot be assured that all 
of them or even most of them, those that joined the coalition 
in 1991 are going to have the jump-on-the-bandwagon attitude.
    Let me tell you why, and I will give you a couple of 
reasons. One is, the situation has changed not only in terms of 
the perception of Iraqi threat. In 1991, clearly they saw Iraq 
as a threatening state with military capabilities. Today, 
nobody really believes that Iraq is a serious threat, and they 
see it mostly as a victim, so the logic of the Iraq issue is 
different.
    While in 1991 there may have been doubts, particularly by 
radicals in the region, about the U.S. military capability and 
staying power, that was made a reality after the 1991 victory. 
It is clear that today no one has doubts about the United 
States. Most American attitudes are really derived by a 
perception that America is actually very powerful, that America 
is perhaps too powerful for them, too domineering in regional 
politics, so the perception is not exactly the same perception 
that preceded 1991, and that therefore the logic of the 
psychology is very different.
    From the government's point of view, most of them probably 
will do what they have to do to resist public opinion if public 
opinion tries to disrupt a policy of supporting an American 
campaign in Iraq, or at least sitting on the sidelines of an 
American campaign toward Iraq. Many of them will probably 
succeed. Most of them do not have as much certainty as they did 
back in 1991 that they could succeed.
    The absence of certainty is in part a function of a new 
reality, which is that they no longer control the flow of 
information. They no longer control perception, at least in 
that dimension.
    There is a sense that the public will get information that 
is going to be disruptive to governmental agenda in a way that 
governments cannot control. That is new to them. They do not 
know whether it means a lot, and they do not know whether it 
means a little, but they know that it presents some uncertainty 
about their ability to control, and second, there is a sense of 
empowerment in the region.
    That is, I would say, a public disgust with states in 
general, with their own states, with the international system, 
with international organizations, and certainly with the United 
States, and in that sense to the extent that there is a public 
that is willing to be mobilized, it is not mobilizing behind a 
possibility that Iraq might have victory, or behind a 
government who is going to advocate their causes. It is the 
extent to which they are going to be able to do something on 
their own, or rally behind militants.
    The source of inspiration today is not states, it is 
militants, anti-state, and the extent to which therefore they 
succeed is not a function of the strength of any particular 
state, including Iraq, and in that regard I think what we will 
have even in a successful campaign, and even if the governments 
do succeed in repressing the public, you are going to have two 
clear outcomes.
    One is, they are only going to succeed if they are more 
repressive, and I am talking about governments outside of Iraq. 
They will succeed only through repression, and they have 
probably the capacity to do so. They will stretch themselves to 
the limit, but if we have any illusions about this then 
transforming the Middle East into a democratic place I think, 
let us think about that a little bit more.
    And second, it is undoubtedly, in my judgment, going to 
increase the motivation for terrorism in the region. Maybe we 
can reduce some aspects, but clearly there will be more 
motivation. We have to understand that there are dynamics that 
will be out there regardless of what the outcome will be 
actually in Iraq itself, but let me end with a question 
pertaining to the nuclear threat.
    I think it is interesting, we had the discussion before 
about whether or not the region sees Iraq's nuclear potential, 
or potential in weapons of mass destruction as threatening to 
them. They are the ones who have to fear Iraq most, its 
neighbors. Why aren't they worried about Iraq so much, and I 
think ultimately it is really a different interpretation of the 
threat.
    Most of them first do not think Iraq is close to having a 
nuclear capability. They think we are exaggerating, but more 
importantly I think they have a different assessment of Saddam 
Hussein. They think he is a ruthless dictator, but not 
suicidal. They think he is sensitive to deterrence, and they 
think that he goes against weaker but not stronger opponents, 
and therefore, regardless of what he does, they think he is 
containable. They have a different idea about the sort of 
threat that he poses, and in that regard they see the choice as 
being a choice between our being willing to live with him and 
not being willing to live with him.
    I think ultimately in our debate we have confused the two 
issues, frankly. If the issue is about terrorism, then we have 
to remind ourselves that this is not likely to eliminate the 
motivation for terrorism in the Middle East. It may even 
increase it.
    If our aim is to limit Iraq's nuclear capabilities, weapons 
of mass destruction capabilities, we may succeed in Iraq in 
particular. We will succeed militarily, but we might have a 
political option if our aim is not also to overthrow the 
regime, and I think what we have done is in essence linked the 
regime change option with the elimination of the weapons of 
mass destruction option.
    That is, the political attempt to try to put controls in 
place that would get Iraqi cooperation on weapons of mass 
destruction has always been linked to the idea that we also 
want regime change, and so the Iraqi reluctance in part, at 
least--at least they have not been tested enough--has been the 
assumption that we are after the regime as well as minimizing 
their capabilities, and therefore I think we have not tested 
the political option that splits the two, that says, let us 
test the choice for the regime between survival and having 
nuclear weapons, let us test them politically, and I think it 
is very clear that for his survival Saddam Hussein is willing 
to give up almost anything.
    At the same time, if his survival is at stake, there is no 
doubt that he is willing to do almost anything, and I think 
that is very important to remember in thinking about how we 
might design a policy that would be effective toward Iraq.
    [The prepared statement of Dr. Telhami follows:]

Prepared Statement of Prof. Shibley Telhami, Anwar Sadat Professor for 
   Peace and Development, University of Maryland; Nonresident Senior 
                     Fellow, Brookings Institution

               the regional setting of policy toward iraq
    Dear Mr. Chairman, let me begin by addressing the regional 
calculations about American policy toward Iraq. Even aside from public 
sentiments, one should not underestimate the strategic reluctance of 
states in the Gulf to support an American-led war on Iraq for two 
reasons: They fear above all the possible disintegration of Iraq, or 
continued instability emanating from Iraq, and they do not believe that 
American assurances to the contrary are credible; they see the task of 
maintaining Iraq's territorial integrity and preventing meddling by 
other states to be potentially overwhelming. On the other hand, even if 
the United States commits to a sustained presence in Iraq and to the 
deployment of the necessary military, political, and economic resources 
to assure Iraq's stability, many of Iraq's neighbors, and others in the 
region, fear a possible American military/political dominance that 
would then include Iraq in a way that alters the strategic picture to 
their disadvantage.
    Governments in the region generally favor preventing Iraq from 
becoming a nuclear power, especially under Saddam Hussein. Even Gulf 
states such as the United Arab Emirates, who fear Iran more than they 
fear Iraq and who worry about weakening Iraq too much, support measures 
to limit Iraq's nuclear capabilities, including reinstating 
international monitors. But some states also worry about overwhelming 
American power in the region. Their calculations are thus more complex: 
They don't want to see Iraq armed with nuclear weapons, but they also 
fear American dominance, (and in Syria's case, Israeli strategic 
dominance), especially a scenario of a sustained American military 
presence in Iraq.
    Ultimately, however, most states in the region do not see Iraq as 
now posing a serious threat to them that warrants a war that could 
significantly alter the regional environment and presents them with 
hard choices internally and externally. They don't see the status quo 
as being especially dangerous, and they don't see hard new evidence to 
convince them otherwise. Certainly not all of Iraq's neighbors have the 
same calculations, and the interests of the members of the Gulf 
Cooperation Council are different from those of Jordan, Turkey, Syria 
and Iran, and there are differences even within the GCC. Most, however, 
see American policy on this issue as being driven by either domestic 
politics, or by strategic designs to consolidate American dominance, 
and thus do not see an intended good for them. The real issue is 
whether they have to accommodate the U.S., because otherwise they will 
be in even worse shape if they don't, and therefore whether or not they 
should find some way to benefit if the American decision to go to war 
with Iraq became unavoidable.
    One of the biggest reasons for regional reluctance to support an 
American military effort to topple Iraq's government is concern for 
public opinion. Although states in the region remain very powerful in 
their domestic control, no state can fully ignore the public sentiment 
in the era of the information revolution. Certainly one of the major 
barriers to getting the support of Arab governments for a war option is 
public pressure. But much of the public in the Arab world is 
sympathetic to Iraq's efforts in general; today, they see Iraq as 
victim, not as aggressor. It is important thus to understand how the 
public in the region, including the elites, views this issue. First, 
most don't understand that the basis of the policy to prevent Iraq from 
acquiring WMD is UN resolutions, so they see the policy as a strategy 
intended to prevent only Arab states from acquiring such weapons. 
Second, those who understand the role of UN resolutions raise the 
question about ``double standards'' in applying UN resolutions, always 
with examples from the Arab-Israeli conflict, and they ask in any case, 
why it is that the U.S., not the UN, should make the ultimate decision 
authorizing a war. Third, while some almost wish for an Arab deterrent, 
even if possessed by Saddam Hussein, most don't believe that it is 
likely in any case, see Iraq to be helpless, and see the entire focus 
on this issue as tactical, intended to justify keeping Iraq in a box, 
or intended to justify a possible war on it. This has become even more 
so in recent months, with the public in the region increasingly 
resentful of American policy, and seeing the U.S. as dominating the 
decisions at the UN. Fourth, there is continued empathy with the 
suffering of Iraq's population and a prevailing assumption that the 
sanctions, not the Iraqi regime, are ultimately to blame for this 
suffering.
    In our limited public debate about Iraq policy, one prevailing view 
is that we needn't trouble ourselves much with public opinion in the 
region, or even with the current opposition to war by the region's 
governments. The logic of this argument is that in non-democratic 
systems of government, public sentiment is unlikely to alter the 
ultimate calculations of governments, and that these governments will 
have no choice but to jump on the American bandwagon because they can't 
afford to be on the losing side. It is true that the record of 
governments in the region justifies the belief in their ability to 
contain public discontent. Certainly in 1991 these governments were 
very effective in limiting the impact of public resentment, but it is 
important to note that both the resentment of the U.S. and the sympathy 
with Iraq at the public level are greater today than they were in 1991. 
And it is also the case that government control is more limited at 
least in the area of information flow, and thus governments are less 
able to shape public perceptions.
    This is not to say that states do not remain capable of containing 
public anger; they remain central players in Middle East politics, as 
is the case globally. What it means is that they are less certain today 
about their capabilities, that they face more anger than before, and 
that we should have no illusions about how they will ultimately contain 
anger: only through more repression. So aside from the consequence for 
Iraq itself, it is likely that one outcome of war with Iraq and 
possible Arab governments' cooperation in that war is that there will 
be more repression, despite the best of our intentions. As in our 
policy toward Pakistan today, we will be more willing to overlook 
measures of repression if governments will lend their support for what 
will be our urgent strategic priorities in bringing about a favorable 
outcome in Iraq.
    We should also not take it for granted that all governments will 
swallow hard and jump on our bandwagon once a decision is made. This 
will be true for some, but not for all those who joined the coalition 
in 1991, in part because some fear both the failure of the war and also 
its success. The trade-off for them between facing the anger of their 
publics on the one hand, and facing the anger of the U.S. on the other, 
have also changed since 1991. Ultimately, governments will make their 
decisions on realpolitik calculations, but many of them are uncertain 
today where these calculations will lead them.
    In the end, it is clear that if the U.S. puts enough resources into 
play, it will succeed in overthrowing the government of Saddam Hussein. 
But we have to remember that that specific objective is an instrument 
for the broader American objective of reducing the danger of terrorism 
and protecting American interests in the Middle East. An American 
military success could in fact have a short-term strategic benefit, 
assuming that the U.S. is willing to sustain the effort for an extended 
period beyond government change. But the consequence on regional 
psychology is likely to be different from the one that prevailed in 
1991. Radicals in the region who wanted to see a change in the Middle 
East after the end of the Cold War pinned their hope on the prospect 
that Iraq would be a powerful state and that Saddam Hussein would be a 
new Bismarck who would overcome the pervasive sense of Arab weakness--
in the same way that even more people pinned their hope on Gamal abd 
al-Nasser of Egypt in the 1950s and 60s. And moderates in the region 
envisioned that an inevitable Pax Americana could possibly help them 
transform the regional environment, especially in resolving the Arab-
Israeli conflict, improve prospects of economic prosperity, and begin a 
process of political liberalization. At the end of the 1991 war, the 
defeat of Saddam Hussein certainly led to a sense of resignation by 
radicals pinning their hopes on Arab leaders and states. And moderates 
gathered momentum in support of an American-backed process that was 
centered on peaceful efforts to resolve the Arab-Israeli conflict, and 
constructing a moderate coalition in the region. That coalition crashed 
with the collapse of the Palestinian-Israeli negotiations in July 2000, 
and the realization that neither economic prosperity nor political 
liberalization materialized. Today, there is a sense of utter mistrust, 
not only of the U.S., but of states and international organizations. 
And there is a sense of pervasive humiliation in the region at the 
public's inability to affect any change, both internally and 
externally. This, unfortunately, has led many to find inspiration in 
non-state militant groups, perfect recruits for terrorism. The source 
of inspiration for them is no longer states like Iraq, as most people 
see it today as a helpless victim. Unlike the radicals in 1991, who had 
some doubt about America's ability to defeat Iraq, today a motivating 
factor for the radicals is that the U.S. is too powerful and dominating 
in the region--not that it is weak, or that it lacks the will to 
exercise power. The net outcome of a successful scenario, of 
overthrowing the Iraqi regime and securing an American-backed new Iraqi 
government, will be to increase the anger, and thus the motivation, 
that terrorists readily exploit. It is good to remind ourselves that 
most of the terrorists coming from the region in the 1990s, including 
those who committed the horror of 9/11, did not come from Iraq, even 
though Iraq may have been a factor in their motivation.
    As such, it is not clear that even a success of a military campaign 
in Iraq will reduce the terrorist threat, and it may even have the 
consequence of increasing it. Thus, we must ask the question about the 
ultimate strategic aim of a campaign, beyond the overthrow of Iraq's 
government. Certainly, the central argument in the public debate has 
been about Iraq's development of weapons of mass destruction, 
especially nuclear weapons. A war option would eliminate Iraq's nuclear 
potential, although one wonders whether other states may not conclude 
that they should accelerate their own efforts to develop nuclear 
weapons as a way to deter perceived American unilateralism. Although 
some aspiring nuclear states may be deterred initially by the Iraqi 
example, the likelihood that American resources will be thinly 
stretched in Afghanistan and Iraq, and in the global war on terrorism, 
will make it less likely that the U.S. will contemplate other major 
wars barring an urgent threat to American interests.
    It is also important to consider why states who should fear Iraq 
most, its neighbors, are less troubled in the short term by Iraq's 
weapons of mass destruction. There are two areas of difference: most of 
them do not believe that Iraq has serious nuclear potential, and 
therefore would need to see significant evidence to accept the 
proposition. Second, most believe that Saddam Hussein is a ruthless 
risk-taker, but not suicidal, and see him as being sensitive to 
deterrence. The latter point is especially important, because of the 
psychology in the region which goes like this: In the unlikely event 
that Iraq should develop nuclear weapons under the sanctions regime, it 
will refrain from using them because the consequences will be self-
destruction; While Saddam Hussein has used chemical weapons before, he 
has done so against weaker parties who could not seriously threaten 
him.
    These differing views of Saddam Hussein also explain some of our 
own policy ambivalence. If we consider that our aim is not merely to 
prevent Iraq from developing weapons of mass destruction, but also an 
active campaign to change the regime in Baghdad, then it is hard to see 
how we put ourselves on any course but one that which preempts Iraq's 
nuclear potential, since it will be more difficult to overthrow the 
government once Iraq is a nuclear state. But it should be clear to us 
that what would be driving such a course is not weapons of mass 
destruction as such, but overthrowing the regime.
    To the extent that weapons of mass destruction remain an important 
issue, the pursuit of this objective could lead us to contemplate a 
number of other possible tracks that should become part of our national 
debate. One such track is the continued containment policy coupled with 
the reintroduction of a more vigorous international inspection regime 
in Iraq. It is clear that Saddam Hussein has put many obstacles before 
the international inspectors in the past and he refuses to allow them 
back. This may indicate that the same tactics will be pursued by him in 
the future. But it is also clear that he has been operating under the 
assumption that our objective is ultimately to topple him, in addition 
to limiting his capabilities in the meanwhile. The only way a strategy 
to get his full cooperation could have a chance of success is if his 
overthrow no longer becomes the objective; He will always choose his 
survival over all else. As such, our debate should consider how 
important regime change is as an objective to us, and whether it is 
worth the risks of a military option even if there is a chance that a 
non-military solution could be found.

    The Chairman. Thank you very much, professor.
    Doctor.

 STATEMENT OF PROF. FOUAD AJAMI, MAJID KHADDURI PROFESSOR AND 
      DIRECTOR OF MIDDLE EAST STUDIES, SCHOOL OF ADVANCED 
INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Dr. Ajami. Thank you very much, Mr. Chairman. It is a great 
honor to be here, and I commend you and the members of this 
committee on this hearing, and it is always kind of--when I 
came in in the morning I was confident of everything I was 
going to say, and by 5:15, by the time I am called on, I am 
less confident, but I have some things to share with you, and I 
think that when one is called upon before this kind of panel 
and with these kinds of talent that you have available to you, 
you always wonder what your comparative advantage is, and I 
think my comparative advantage is something of a knowledge----
    The Chairman. I think it is your beard.
    Dr. Ajami. But I have the Arabic experience, and had your 
rules permitted, there were a couple of times when you asked 
some questions, Mr. Chairman, I was nearly tempted to intervene 
from the back.
    The Chairman. Feel free to respond to them now.
    Dr. Ajami. It is like we now, if we go into this campaign 
against Iraq, we are clearly heading into a region which bears 
us ill-will. We understand that, and in all the months after 
September 11, and all the travel I did, and all the reading of 
the Arab world I have done in the last year, I came across 
something I want to share with your committee.
    It is something that a friend of mine, a very talented 
Egyptian playwright named Ali Salim said to an American 
journalist about why is there such malice in the Arab world, in 
the Muslim world toward the United States, and it is 
interesting to note that in this decade behind us American 
power was used three times in favor of Arabs and Muslims, in 
favor of Kuwait in 1990, in favor of Bosnia in 1995, in favor 
of the Kosovars in 1999, and yet there was no gratitude there. 
Very few people spoke about the usage of American power in 
favor of these Muslim populations.
    Now, I understand in the case of Kuwait it was complicated, 
because there is an argument possibly that Saddam would have 
won a free election in the Arab street in 1990, had he really 
contested an election, but the case of the Bosnians, in which 
you and Senator Lugar and a number of your colleagues were 
quite active in the case of the Kosovars I think is very 
interesting. So here is Ali Salim on this kind of anti-
Americanism we are going to in many ways, I think, mop up and 
run into and face when we go there.
    ``History is cruel,'' he says. ``It is trying to drag 
America backward. In this case, history is right. We here need 
to be more progressive''--meaning in the Muslim world--``but 
you need to take a step back. If the bureaucrats in your 
airport were just a little more paranoid, like us, it would be 
a different world. Really, America is a beautiful place. No one 
even asks why all these guys wanted flying lessons. You should 
learn to be suspicious. A little backwardness would be 
healthy.''
    People say Americans are arrogant, but it is not true. 
Americans enjoy life, and they are proud of their lives, and 
they are boastful of the wonderful inventions that have made 
life so much easier. It is very difficult to understand the 
machinery of hatred, because you wind up resorting to logic, 
but trying to understand this with logic is like measuring 
distance in kilograms. Measuring distance in kilograms.
    These are people who are afraid of America, afraid of life 
itself. These are people who are envious. To them, life is an 
unbearable burden. Modernism is the only way out, but modernism 
is frightening. It means we have to compete. It means we cannot 
explain everything away with conspiracy theories.
    Bernard Shaw said it best, you know, in the preface to St. 
Joan. He said that Joan of Arc was burned for no other reason 
except that she was talented. Talent gives rise to jealousy in 
the hearts of the untalented.
    So we shall go into the Arab world, into the Muslim world. 
We should launch this campaign in the face of this kind of 
sentiment about America. Now, this will not be Desert Storm, I 
think we must understand that, because in Desert Storm there 
were even Muslim jurists, Muslim jurists in Saudi Arabia and 
Egypt who argued that Saddam was a menace to his world and a 
tyrant, and resistance to him is legitimate.
    They issued a ruling opinion in that direction, so we went 
with that, and at the time there were jurists who even ruled 
that you could have Arab and Islamic, quote-unquote, other 
friendly forces. We got in under that loophole, 1/2 million men 
under the other friendly forces. It will not be this way this 
time around. We understand that.
    So ideally for the regimes in the region what they want for 
the Desert Storm of a decade ago, I have written in the 
statement I have submitted to you, Mr. Chairman, is they now 
want the perfect storm, and this is really what they want. A 
swift war, few casualties, as little exposure by themselves as 
possible, the opportunity to be rid of Saddam without riding in 
broad daylight with the Americans, and without being brought to 
account by their people.
    It would be great if they could get that, but the political 
world never grants these kinds of favors. The fog of war is 
what it is, and there will be risks run by these regimes, and 
there will be risks run by ourselves.
    I agree partly with my colleague, Shibley, on one point 
that I think, and I would elaborate by saying this would be a 
war in the time of the satellite channels, and so a lot of this 
will be in the open, and I think this is the nightmare of these 
regimes, that we would call upon them to make commitments in 
the open.
    So my feeling is that we would end up not with a very 
brilliant position, but not with a bad one if we choose to draw 
the sword, if you want your metaphor, to pull the trigger, that 
there would be people who would associate with us quietly in 
Kuwait, in Qatar, and there would be people who would associate 
with us even in Jordan, though the case of Jordan requires, I 
think, focus and discussion, but they will dread having to be 
brought out into the open.
    Will the Arab street greet us warmly? It will not, but I 
tell you one thing, the one street that will trump all streets, 
and this, I think, is a very important point to put on the 
record, the one street will be the street in Baghdad and Basra. 
We shall be mobbed. We shall be mobbed when we go there by 
people who are eager for deliverance from the tyranny and the 
great big prison of Saddam Hussein.
    Some months ago, I did a piece on Al Jazeera television, 
and I watched very closely Al Jazeera television for hours and 
hours, and I thought one of the most interesting and one of the 
most difficult days for Al Jazeera came during the liberation 
of Kabul, when the Afghanis who we thought would greet us, if 
you will, in this war that was going to frustrate us and we 
were going to be thwarted and they were going to do to us the 
damage that they had done to the Brits in earlier times and to 
the Russians, when in fact we were greeted with kites and boom 
boxes.
    We shall be greeted, I think, in Baghdad and Basra with 
kites and boom boxes, and we should understand this, and the 
embarrassment, the embarrassment for those in Nablus and Cairo 
who were then protesting an American war or an Anglo-American 
war, or whatever label you put on that war, will be enormous.
    The Chairman. You say the embarrassment will be enormous?
    Dr. Ajami. Yes, to them the embarrassment will be enormous. 
I think we now--and just in terms of wrapping this part of my 
intervention, we go into Iraq, and I think we should see Iraq 
for what it is. It is a tormented country. It has been violated 
by this despot. There are three communities as we know. There 
are Kurds, there are the Shia Arabs, who are the majority of 
the population, and there are the Sunni Arabs, who have 
believed that political power was their due.
    A decade ago we were unkind to the Shia because we thought 
there would be a satrapy of the political regime in Iran. We do 
not know Iraqi Shias, and I will tell you one of the things, 
Mr. Chairman, I did a book called ``The Vanished Imam,'' on one 
Shia cleric in Lebanon, and studied the Shia clerical culture 
in Lebanon and Iran and Iraq.
    These Iraqi Shia are Iraqi patriots, and we should do them 
the honor of understanding that when the wheel turns, that they 
just want a piece of the political life of their land. We 
paralyzed ourselves in 1991 by saying that there would be a 
regime that would emerge in Iraq that would simply be a replica 
of the Iranian revolution.
    Well, the Iranian revolution has fallen on hard times. Its 
power to attract other people in the region is no longer what 
it used to be a decade or two decades ago, and we now can see, 
I think, Iraq in a whole new light, and we should understand 
one thing about Iraq. If we are really looking for a place 
where maybe American ideals could work, this place may be as 
good a candidate as any.
    Thank you very much for your indulgence.
    [The prepared statement of Professor Ajami follows:]

Prepared Statement of Prof. Fouad Ajami, SAIS, Johns Hopkins University

                      iraq and its arab neighbors
    Mr. Chairman and distinguished members of the committee: I am truly 
honored to be here. I have been interpreting the modern Arab experience 
for a long time, and I thought I might be able to shed some light on 
the Arab setting around Saddam Hussein and his regime, and on some of 
the truths of Iraq itself and answer some questions the members of this 
committee might have.
    There are rumors of war all around, and the rumors have, of course, 
been most widely circulated in the Arab world itself. That world has a 
fixation on America: Truth and legend about America are jumbled in that 
region. Our thoughts and second thoughts, the disagreements of our 
officials, the things we supposedly hatch for them over there, are the 
staple of the region's politics.
    By the appearance of things, Saddam Hussein must be convinced that 
war is on the horizon. His regime now promises to return Kuwait's 
national archives; It promises to ``discuss'' the 600 Kuwaiti war 
prisoners--who in Iraq's previous utterances, had never existed. In 
recent months the Iraqis have alternated threats and inducements. The 
newspaper of First Son Udday Hussein, the dictator's oldest, has issued 
a warning that even the ``spectators'' to the war will not be spared; 
There have been the familiar warnings that the ground under pro-
American Arab rulers would be set ablaze, that the political culture of 
the place would punish those who would cast their fate with the foreign 
power. Conversely, the Iraqis are now offering oil discounts, free 
trade zones, promises of commerce to practically all their neighbors. 
They have held out to the Syrians the promise of turning over Syrian 
members of the Muslim Brotherhood who had been granted asylum by Iraq.
    The Iraqi despot is on the ground, he is of the place. It is a time 
of acute impasse between the Arab world and the United States. This 
would be a war in the age of the satellite channels and the news media. 
The Iraqis aim to scare us away, to suggest that we would be venturing 
into a region that bears us nothing but ill will.
    It should be conceded right away that this is not Desert Storm, 
that we shall have to bring with the gear our own ideological and moral 
arguments. Eleven years or so ago, it was different during Desert 
Storm: That was a solar/lunar eclipse. The Iraqi ruler had run afoul of 
the rules of his neighborhood. His neighbors were menaced, and they 
were eager for protection. There were Muslim jurists, in Saudi Arabia 
and Egypt, who issued fatwas, ruling opinions, against Saddam, 
sanctioned the presence of Arab and Islamic and ``other friendly 
forces.'' In the intervening decade, the man worked his way into the 
order of things. He knew the rules. He insinuated himself into the 
prevailing status quo.
    This time around, the region shall be divided between those crying 
out against the Great foreign power's war, and relatively silent 
subdued partners. A silent minority of liberal secularists will see the 
justice of this campaign and the need to rid the Arab world of Saddam's 
power and Saddam's example: We shall be hailed in Kuwait, for the 
Kuwaitis bear Saddam ajustifiable animus and know him for what he is. 
But it will be tougher going in other Arab lands. There shall be no 
demonstrations in Arab cities in favor of a strike against Iraq, it is 
safe to assume. If the mood of the region could be divined, it is as 
sure as anything that there will be demonstrations in Nablus and 
Casablanca, in Ramallah and Cairo, against America and its war. The 
campaign shall be seen as an Anglo-American war. Both Egypt and Saudi 
Arabia are on record against this resort to arms. It is safe to assume 
that they can not turn on a dime, and join us in full daylight. Most 
likely, they will seek cover: They will get out of the way, offer what 
cooperation can be provided--passage through the Suez Canal, the use of 
command and control facilities, the Combined Air Operations Center at 
Prince Sultan Air Base--while in public maintaining their distance. The 
crucial help that would be needed from Saudi Arabia is its excess 
capacity of 3 million barrels of oil a day to replace Iraq's production 
in case of a long interruption of Iraqi oil production. That sort of 
help can be relied upon.
    Neither Egypt nor Saudi Arabia would risk its American connection 
in favor of Saddam. The truth must be known that there is no 
constituency for Iraq and for Saddam Hussein in Saudi Arabia. The kind 
of religious fervor that has moved opinion in Saudi Arabia on Islamic 
issues (Bosnia, Chechnya, Afghanistan where every extended family had a 
son in that land, practically, and the issue of the Palestinians) is 
not there for the secular regime of Saddam Hussein. The dynasty in 
Saudi Arabia and the regime in Egypt can thus have a reasonable amount 
of prerogative and stay on the sidelines. The body politic in Bahrain 
and Qatar and Kuwait (let alone in Turkey, a case apart, and a country 
that can be fully relied upon for the prosecution of this war) will 
permit these lands enough latitude to support an American campaign. The 
country that will bear watching will be Jordan. Whether the young 
monarch, Abdullah ibn Hussein, decides to roll the dice and associate 
his country with an American campaign. If he does, there would be an 
irony here: Last time around when the two fathers, George Herbert 
Walker Bush and King Hussein, were there for the first campaign against 
Saddam, King Hussein opted for the street in his country, and reasoned 
that Pax Americana will forgive him his tilt toward Iraq, while the 
Iraqis and the pro-Iraqi sentiment in Jordan would be less forgiving. 
It was a variant of the choice that the late King Hussein had made in 
1967, in the Six Day War, when he rode with Nasser in the full 
knowledge that the Egyptians were doomed nonetheless. For King Abdullah 
this will be a big call, for his country's temper and opinion run in 
the other direction. He has just strongly criticized his uncle, Prince 
Hassan bin Talal, for attending a meeting with Iraqi oppositionists and 
anti-Saddam military officers in London. This is the stuff of which 
reigns are made and broken: The young King's burden--a large 
Palestinian population, a country of considerable poverty--is well 
known. But the weakness of the Jordanian state should not be overblown. 
The state could ride out the storm, and it could present what 
cooperation it offered the Americans as the price Jordan had to pay for 
its place in the American and Western order of things. In other words, 
it will have to be shades of Pervez Musharraf of Pakistan: staring down 
the street and the Islamists, insisting on the need to be with the 
winners, and with the forces of order and modernity.
    The street that will matter of course, the street that will silence 
and trump all other Arab streets, will be the street in Basra and 
Baghdad. After liberation, Iraq is sure to erupt in joy. It is destined 
to embarrass the pro-Saddam demonstrators in other Arab and Muslim 
lands in precisely the same way the throngs in Kabul who greeted the 
Americans with kites and boom boxes embarrassed Al Jazeera television, 
and the pro-Taliban demonstrators in Karachi and Jakarta and Cairo. It 
will be hard for the street in Nabhis to make its fury felt when the 
Iraqis come out of their long captivity to tell the world of the 
nightmare they have endured in Saddam's great, big prison. It will be, 
if only for a moment, a bad day for anti-Americanism.
    Ideally, for Desert Storm a decade ago, the regimes in the region 
would now want the Perfect Storm: a swift war, few casualties, as 
little political exposure by themselves as possible, the opportunity to 
be rid of Saddam without riding in broad daylight with the Americans, 
and without being brought to account by their people. But the political 
world will never grant this kind of good fortune. The fog of war is 
what it is: There will be risks run by these regimes, and there will be 
risks run by ourselves.
    But those risks of war should be measured against the risks of the 
status quo. It is in the nature of human affairs that inertia often 
wins by default, that the costs of a particular status quo are hidden, 
while the costs of change are so readily apparent. Who for instance is 
to say that we would have endured the terrors of September 11 had we 
seen Desert Storm to its rightful conclusion back in 1991? Though no 
smoking gun has linked Saddam Hussein to September 11, the great simple 
truth must be known that the culture of Arab radicalism, which begot 
the furies of that day, was nurtured by his survival in power. After 
America spared him, a monitoring force was dispatched to Saudi Arabia 
to enforce southern Iraq's no fly zone, and it was precisely that 
American military presence in the Arabian Peninsula which became the 
rallying cry of Bin Laden and his soldiers of terror.
    In the tug of war between containment and rollback--to use the Cold 
War imagery--the advocates of containment tell us that we can live with 
Saddam as we have lived with him for a long time now. But containment's 
advocates offer no assurance that the ruler in Baghdad will always play 
the containment game, and with weapons of mass destruction at his 
disposal, not strike at a moment of his own choice.
    As I said before, along with the military gear we will have to take 
our own case for the war. Saddam's neighborhood will not supply the 
outrage and the concern with him. To read the region, the man is no 
serious menace, and few in his world are convinced that he has weapons 
of mass destruction at his disposal. A substantial body of opinion 
maintains that he is there at America's convenience--kept in place, his 
forces degraded, but used as a scarecrow to justify America's presence 
in the Gulf, its weapons sales programs and joint militaiy exercises. 
We will have to cut through all that: the expedition will have to be 
justified by September 11 rules. America will have to insist on its 
right to retribution, on the generalized case that terror is 
indivisible and that a regime of this kind of malignancy in so vital 
and explosive a region will have to be changed. We will have to live 
with the doubts and the naysayers: After all this is a region where 
substantial majorities are yet to accept that it was young Arabs who 
flew into those towers, and into the Pentagon.
    The second pillar of a strike against the Iraqi regime has to do 
with the vision we have for Iraq itself. We will have to be willing to 
stick around to help rehabilitate that polity. The real work will have 
to be done by Iraqis themselves, but we should not shy away from the 
task--even if it goes by the name of nation-building. We should read 
Iraq intelligently and sympathetically. This is a country with 
substantial social capital and the region's second largest reserves of 
oil after Saudi Arabia. It has tradition of literacy and learning and 
technical competence. It has a large diaspora of means and 
sophistication, waves of people driven out by the country's turbulent 
politics and by the heavy hand of the rulers. We should be done with 
the bogeyman of a Shia state in Iran's image emerging in Iraq, as a 
satrapy of the Iranian clerical regime. Such thoughts and ideas 
paralyzed American power in 1991, when the Iranian revolution was still 
in full swing. We should not fall for this. Iraq's Shia community is a 
community of Iraq. They are Iraqis and Arabs through and through. 
Shi'ism was a phenomenon of Iraq centuries before Shi'ism crossed to 
Iran, brought there as a state religion--8 centuries to be exact. The 
great seminaries and the sacred places of Shi'ism are in Iraq--Najaf 
and Karbala. A healthy measure of competition was always the norm 
between the Shia seminaries of Iraq and those of Iran. It was only 
official terror in Iraq, and a crude theory of the folk and of race, of 
who is an Arab and who is not, that Iraq's rulers unleashed on their 
country, that helped disinherit the Shia of Iraq. They are the 
country's largest community, a majority of it, and we should understand 
this. They have endured the regime's brutality yet fought its war 
against Iran. Precious few among them, I hazard to guess, dream of a 
Shia state. The great majority are secularists who know that the 
country will have to accommodate its largest three communities: The 
Shia Arabs, the Sunni Arabs, and the Kurds. (Part of the great silence 
in the Arab world is the discomfort of Arabs with the issue of Kurdish 
rights and Shia grievances; this has been the Ba'ath party's and Saddam 
Hussein's advantage all along.)
    For American policy, this should be a straightforward call. We 
don't do ethnic/sectarian imperiums. We can't defend the right of 20% 
of the population, the Sunni Arabs, to maintain primacy over the land. 
In the decade behind us, the Kurds have come into a measure of autonomy 
in their ancestral land--10% of the country's area now makes up the 
protected Kurdish zone in northern Iraq. The Kurds have ideas of 
federalism and decentralization--mixing both elements of geography and 
ethnicity. They are not eager to give all that up and return to the 
ways of the past.
    The best should not be the enemy of the good. We should not engage 
in a false specificity of what a future Iraq would look like after a 
military campaign. We should trust in the pluralism of the opposition--
it has Shia and Sunni, constitutional monarchists, Kurds, people who 
have spent their adult lives in exile in Western democracies and know 
the terrible wages of political radicalism and are eager to give Iraq a 
new chance. Above all, we should trust in the innate wisdom of the 
Iraqis themselves who have lived on their nerves for decades now, and 
have seen the squandering of their country's wealth and potential in 
pursuit of deadly foreign wars and weapons of destruction.
    Of all the regimes in the region, this is the most malignant, its 
ideological roots go back to National Socialism that infected Germany 
in the 1930's. This would be the place where American power can really 
function for the good. It has a secular culture--the religious 
prohibitions that limit and trouble the American presence in Saudi 
Arabia do not obtain in Iraq. It may, as well, have a greater readiness 
for democracy than Egypt--because it is wealthier, because it lacks the 
burden of Egypt's poverty and numbers, and the steady presence of an 
Islamist current.
    To govern is to choose. The resort to arms is never frivolous. To 
own up to one's politics, we have a leadership and a national security 
team for whose judgment and skill I have tremendous regard. Before they 
pull the trigger, if they pull the trigger, they will have come to it 
after all other alternatives are exhausted. They will have done an 
enormous amount of quiet work, reached with the states in the region 
subtle accommodations that these states will abide by while maintaining 
official distance and reserve. We can't win hearts and minds in the 
Arab world today. This is the sad fact of the Arab condition today. 
American power was used three times in favor of Muslims in the 1990's--
in favor of Kuwait in 1990-91, of Bosnia in 1995, of the Kosovars in 
1999. We received no open gratitude for these deeds and 
accomplishments. It is often the fate of Great Powers to provide order 
against a background of those who take the protection and bemoan the 
heavy hand of the protector. This campaign, if and when it comes, would 
be no exception.

    The Chairman. Thank you, professor.
    Dr. Kemp, welcome.

 STATEMENT OF DR. GEOFFREY KEMP, DIRECTOR, REGIONAL STRATEGIC 
           PROGRAMS, THE NIXON CENTER, WASHINGTON, DC

    Dr. Kemp. I would like to add my appreciation, Mr. 
Chairman, to you and your colleagues for hosting this extremely 
important set of hearings. I have been asked to talk about the 
likely response of Iran to a war against Iraq, and I will try 
to do it in about 9 minutes.
    Iran has a long agenda of unresolved problems with Iraq, 
including border disputes, the Kurdish question, religious 
quarrels, terrorist and liberation activity, Iraqi Shia 
refugees in Iran--there are hundreds of thousands of them--and, 
of course, the continuing aftermath of the brutal Iran-Iraq 
war.
    Iran has a huge stake in the future of Iraq, and therefore 
is going to be watching very carefully what we do and what 
happens. Iran remains extremely suspicious of Saddam Hussein, 
and most Iranians hate his regime, I am certain, as much, as my 
colleague says, the Iraqis do.
    However, and this is the point I want to stress, at this 
time the Iranian regime is more worried about a U.S. war that 
calls for a regime change and regards this to be inimical to 
its own interests. From an Iranian perspective the status quo, 
that is to say, a contained Iraq, suits their interests much 
better.
    They acknowledge Iraq's potential to reemerge as a regional 
threat, but the United States is seen as the greater threat, 
especially since the President's State of the Union speech 
designating Iran as part of the ``axis of evil.'' Iran's 
hardliners have taken this very seriously, including the 
frequent calls from the administration for regime change in the 
region, and they wonder at what point their Islamic republic, 
which is in trouble, will be a candidate for American action.
    All Iranians, irrespective of whether they are hardliners, 
softliners, moderates, or conservatives, worry about a failed 
or messy U.S. operation that would leave the region in chaos. 
They would then be on the receiving end for possibly millions 
of new Iraqi Shia refugees, and they worry about the enormous 
disruptions a messy war would have on world oil markets and 
their very fragile economy.
    The Chairman. Doctor, can you tell us how large the Shia 
population is in Iraq?
    Dr. Kemp. It is about 60 percent of the population.
    The Chairman. About 14 million, 15 million?
    Dr. Kemp. About that.
    Now, Iranian fears, which I have just articulated, are one 
thing, but what, in reality, is the Iranian Government likely 
to do in the event that there is a war? Some analysts, and very 
good analysts, I would add, believe that Iran has already 
embarked on a proactive policy to delay any U.S. attack on Iraq 
by stepping up support for terrorism against Israel, and 
stirring up trouble in Afghanistan. The greater the violence in 
either area, the more difficult it will be for the President to 
take on Iraq.
    On the other hand, there is some evidence that the Iranian-
based Shiite opposition group--this is the one that Dr. 
Cordesman was talking about this morning, the Supreme Assembly 
of the Islamic Revolution in Iraq, may be open to support from 
the United States, particularly air power to topple Saddam, 
provided we do not send in ground forces.
    This would suggest the Iranian Government is at least 
prepared to blink or wink in the event of a limited U.S. 
operation that does not involve ground troops. In my judgment, 
Mr. Chairman, if the United States has serious support for 
military action, including the U.N. backing, E.U. backing, some 
moderate Arabs on board, Turkey on board, and the Russians on 
board--this is very important; the Russians are moving in our 
favor--Iran is likely to keep its head down and not take a 
strong position against the United States during the war.
    However, if international support is weak, Iranian protests 
will be loud. Much will depend upon how this administration 
approaches Iran in diplomatic channels. In my judgment, its 
current policies toward Iran suggest that the leaders of Iran 
are likely to be warned rather than wooed in the event that we 
decide to go after Iraq.
    The problem here, I think, is that the Iranians could react 
unpredictably to what they would regard as a belligerent U.S. 
posture. The regime, for instance, might decide to place 
Iranian military forces on high alert. Under these 
circumstances, there is a danger that there could be military 
incidents between United States and Iranian maritime forces in 
the Persian Gulf, and that could lead to miscalculation and 
escalation.
    Now, in thinking about Iranian behavior the day after the 
war, much will depend upon the nature of the new regime in 
Baghdad. It is not inconceivable that Iran might be willing to 
work closely with the new regime and reach an agreement to 
resolve outstanding issues relating to the Iran-Iraq war--the 
POW's, for instance, and the longstanding dispute they have had 
over the demarcation of the Shatt al-Arab waterway. But if U.S. 
forces have to invade and occupy Baghdad, this will mean 
trouble for the hardliners and they will clearly be eager to 
exploit regional resentments if a new Pax Americana, of the 
kind that my two previous colleagues suggested, emerges.
    Assuming no radical shift in the political balance in 
Tehran, it could be expected, that Iran will make greater 
efforts to develop a nuclear weapons capability. It is possible 
that a quick U.S. victory over Iraq could result in a new bout 
of pragmatism in Tehran, leading to a deal with Washington, but 
this outcome is by no means certain.
    On the other hand, an arrogant, victorius America could 
well find itself disliked by Iranians who regard themselves as 
reformers and pro-West. Iranians are very proud of their 
independence, as well as their desire to have a more democratic 
system, and we should not be unaware of the fact that while a 
lot of them may hate their own regime and like us at this point 
in time, this attitude can change.
    The fact of the matter is, Mr. Chairman, a number of 
geopolitical realities are going to face any new regime in 
Baghdad and ultimately better relations between Iran and Iraq 
will be very, very important. Iran will be Iraq's neighbor long 
after U.S. troops have left.
    Now, just 2 or 3 minutes on Europe. Direct European support 
for initial U.S. military action against Iraq is highly 
desirable, but not essential. However, cooperation with the 
United States would be essential if this war was protracted. We 
would conceivably have a major energy supply problem and 
working with the Europeans to resolve that is essential. 
Europeans' support, in my judgment, is going to be vital to 
make sure that the post Saddam Iraq and the Middle East remains 
stable.
    Officially, cooperation between the United States and 
Europe on the Middle East is relatively close. That is to say, 
cooperation between the governments. The E.U., as you know, now 
has a common policy on the Middle East, and this makes 
coordination with Washington much easier than in the past, but 
the E.U. itself is not a state. As a consequence, its Middle 
East policy inevitably reflects compromise on contentious 
issues.
    The key European Governments all share the U.S. view that 
Saddam Hussein is a menace, that he is determined to 
reconstitute his WMD, and that if he obtains nuclear weapons he 
will flaunt them and attempt to change the balance of power in 
the Middle East. However, regime change, a phrase now 
frequently used by the administration, in the context of the 
war against terrorism, is quite another matter for most 
European Governments and parliaments.
    Indeed, without the cloak of U.N. legitimacy, European 
Governments will find it difficult to carry public opinion. 
Though this does not mean they will not cooperate with us if, 
in the last resort, the United States decides that war is the 
only alternative. Europe obviously worries about the cost of 
the war, as we do, particularly one that does not go well.
    The Europeans tend to have a more gloomy prognosis as to 
the region's susceptibility to a quick-fix American military 
option than many seem to have in this administration. They ask 
how long will the United States have to occupy Iraq for, how 
long, and with what size force?
    When pressed, European officials are not prepared to say 
that they would contribute to a post Saddam Iraqi occupation, 
unlike, by the way, the situation in Afghanistan, when they 
volunteered more military forces than the United States thought 
necessary. While we are on the subject of Afghanistan, the 
Europeans do worry that the United States has no, ``staying 
power,'' therefore, absent a casus belli, a linkage between 
Iraq and al-Qaeda, or a deliberate, outright flaunting of WMD 
by Saddam, most European governments would argue it would be 
unwise to take on Iraq while Afghanistan and also the Pakistani 
regimes remain precarious.
    I would conclude on these two points, Mr. Chairman. Iran 
will not be able to prevent a U.S. attack on Iraq. It will 
likely remain neutral during the war while intensifying its 
efforts to develop nuclear weapons. Its greatest leverage will 
be during the post war period. Its population and geography 
assures its interest must be taken into account irrespective of 
who is running Tehran.
    In the last resort, European governments will support the 
United States if it uses force. I doubt very much whether this 
will involve troop contributions, except in the case of the 
Blair government, which, as I understand it, shares all our 
concerns about Iraq except the issue of regime change as an 
objective.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Kemp follows:]

 Prepared Statement of Dr. Geoffrey Kemp, Director, Regional Strategic 
                       Programs, The Nixon Center

             war with iraq: responses from iran and europe
Introduction
    Iraq borders on six countries--Kuwait, Saudi Arabia, Jordan, Syria, 
Turkey, and Iran. All have a huge stake in what happens to Iraq. Their 
response to a U.S. led war against the regime of Saddam Hussein will 
depend upon several factors. First, the level of international 
cooperation promised to the U.S. prior to the war. Second, the 
duration, conduct, and effectiveness of the military campaign. Third, 
U.S. proposals and plans for the ``days after'' regime change in Iraq.
    At one extreme it is possible to envisage a broad based, U.S. led 
and UN supported, alliance including key Arab countries, Europe, 
including Turkey, and support from Russia. This would be followed by a 
quick decisive victory with few casualties and the emergence of a 
stable, humane, pro-Western democratic regime in Baghdad. Only token 
U.S. forces would be required to occupy Iraq: UN arms inspectors would 
return and remove all WMD capabilities. A new era of reform would be 
unleashed throughout the Muslim Middle East and it will be easier to 
resolve the Arab-Israeli conflict. This very optimistic outlook can be 
termed, ``the best case.''
    At the other extreme one must consider the ``worst case.'' One can 
imagine a U.S. decision to remove Saddam with minimal international or 
regional support, a protracted war that goes badly with many 
casualties, including Iraqi civilians. One can also postulate Saddam's 
use of WMD against Israel and the Kurds, massive Israeli retaliation 
and mayhem and chaos in Iraq with no one in control. At that point, the 
U.S. would either have to occupy most of the country or witness Iraq's 
descent into bloody civil war and a surge of refugees fleeing to the 
north, south, and east causing ``regime change'' in moderate Arab 
states such as Jordan.
    In between these two extremes there are many other possible 
outcomes. Unilateral action could be very successful; alternatively, an 
alliance could flounder. The point is that both regional and European 
responses will clearly be linked to how the war goes.
Iranian Responses
    Iran has a long agenda of unresolved problems with Iraq including 
border disputes, the Kurdish question, religious quarrels, terrorist/
liberation activity, Iraqi Shia refugees in Iran, and the continuing 
aftermath of the brutal Iran-Iraq War (1980-88). For these reasons, 
Iran's position on a U.S. war with Iraq is complex and its policy 
unpredictable. It has huge stakes in the future of its neighbor. We 
have two recent precedents to draw upon: Iran's behavior during the 
1991 Gulf War and its behavior during the Afghan war in the fall of 
2001. In both cases, Iran had a strong interest in the outcome; it 
feared and hated both Saddam Hussein and the Taliban. For this reason, 
Iran did not play a spoiler role during these wars. It was quite 
cooperative on Afghanistan both during the war and in the immediate 
aftermath of the U.S. victory. Iran remains highly suspicious of Saddam 
Hussein; most Iranians hate his regime. They remember, with great 
bitterness, Saddam's frequent use of chemical weapons during the Iran-
Iraq War and Iraq's deliberate targeting of Iranian cities with surface 
to surface missiles. Iran continues to worry about Iraq's WMD and is as 
eager as the U.S. to see them removed.
    Yet at this time, Iran is worried about a U.S. led war and regards 
the call for ``regime change'' to be inimical to its own interests. 
From an Iranian perspective, the status quo, i.e. ``a contained Iraq'' 
suits their interests much better. They believe that so long as Saddam 
is a pariah there are limits as to how far he can reconstitute his 
weapons programs. They are quite happy that American military power and 
international arms embargoes have kept Saddam in his box. They have 
benefited from economic sanctions on Iraq. Iraq's oil production and 
exports have been limited and some Iranian groups, notably the Iranian 
Revolutionary Guard Corps (IRGC), have made a great deal of money 
smuggling Iraq's oil to the black market. So long as Saddam remains in 
power Iraq will be unable to reopen the contentious border dispute with 
Iran over the demarcation of the Shatt al Arab waterway.
    Thus while Iran acknowledges Iraq's potential to reemerge as a 
regional threat, now the United States is seen as the greater threat. 
President Bush's State of the Union speech on January 29, 2002 
designated Iran as part of the ``axis of evil.'' Iran's hardliners have 
taken very seriously Bush's frequent calls for ``regime change'' in the 
region and wonder at what point the Islamic Republic will be a 
candidate for American action. They notice that American military 
forces are now deployed in Turkey, Uzbekistan, Tajikistan, Pakistan, 
Afghanistan, Kuwait, Bahrain, Saudi Arabia, Qatar, and Oman. The U.S. 
Fifth Fleet patrols the Persian Gulf, the Arabian Sea, and the Indian 
Ocean. Land based U.S. long range bombers can reach the Gulf from 
Europe, Diego Garcia, and even the continental U.S. They point out that 
Israel, their bitter enemy, has a military alliance with Turkey and 
that Jordan and Egypt have extremely close ties with the U.S. defense 
establishment. Hence an American invasion of Iraq would bring U.S. 
troops to their Western border and they will literally be encircled by 
American military forces.
    Quite aside from concerns that they will be the next victim after 
Iraq, Iranian hardliners are fearful that a pro-Western regime in 
Baghdad will invariably increase pressure on them to relinquish power 
to Iranian reformers. All Iranians worry that a failed or messy U.S. 
operation would leave the region in chaos and they would be on the 
receiving end for possibly millions of new Iraqi Shia refugees and the 
economic disruption of world oil markets.
    Iranian fears may be one thing but what, in reality, are they 
likely to do in event of war? Some analysts believe Iran has already 
embarked on a proactive policy to delay any U.S. attack on Iraq by 
stepping up support for terrorism against Israel and stirring up 
trouble in Afghanistan. The greater the violence in either area, the 
more difficult it will be for Bush to take on Iraq. 0n the other hand 
recent activity of the Iranian based Shiite opposition group based in 
Tehran (the Supreme Assembly of the Islamic Revolution in Iraq (SAIRI)) 
may be open to U.S. help in toppling Saddam Hussein provided it is 
limited to air power and not invasion. This suggests that the Iranian 
government is prepared to be passive in event of a limited U.S. 
military operation. The assumption is that SAIRI's policy would not be 
articulated if the Iranian government was adamantly opposed to it.
    If the U.S. has serious support for military action including UN, 
EU, moderate Arab, Turkish, and Russian backing, Iran will likely keep 
its head down and not take a strong position against the U.S. during 
the war. However if international support is weak, Iranian protests 
will be loud. Much will depend upon how the Bush Administration 
approaches Iran in diplomatic channels. Given the current nuances of 
the Bush policy towards Iran, Tehran is likely to be warned rather than 
wooed by this administration. The problem for the U.S. is that Iranians 
could react unpredictably to a belligerent U.S. posture. The regime may 
decide to place Iranian military forces on high alert. Under these 
circumstances, there is a danger that military ``incidents'' between 
U.S. and Iranian maritime forces could take place in the Persian Gulf 
with the danger of miscalculation and escalation.
    Clearly this possibility would be greatest if the war itself went 
badly and either became bogged down or spread to a wider Middle East 
confrontation. The latter case could happen if Israel is forced into 
the war because Saddam, presumably with nothing to lose, launches 
terror attacks against Israel and creates havoc in Jordan.
    In thinking about Iranian behavior ``the day after'', much will 
depend upon the nature of the new regime in Baghdad (assuming there is 
not anarchy) and the degree to which the regime takes its instructions 
from Washington. A number of possibilities could emerge. An Iraqi 
military coup by anti-Saddam factions within the Republican Guard could 
happen soon after the U.S. begins to attack. Under these circumstances, 
no invasion would be necessary but the U.S. might have little say in 
the governance of the country. The new leadership could offer favorable 
deals to its neighbors and to the Kurdish and Shia communities in Iraq. 
It is not inconceivable that Iran might be willing to work closely with 
the new regime and reach an agreement to resolve outstanding issues 
relating to the Iran-Iraq War (POWs, etc.) and the demarcation of the 
Shatt al-Arab.
    On the other hand, if U.S. forces have to invade and occupy 
Baghdad, the new regime will clearly be under the control of 
Washington. This will mean trouble for Tehran's hardliners and they 
will be eager to exploit regional resentment of the new Pax Americana 
if a formidable U.S. presence generates a major backlash. They will 
regard a pro-Western leadership as an American puppet and will be 
convinced that, sooner or later, they will come into the cross hairs of 
American military might. Assuming no radical shift in the political 
balance between reformers and hardliners in Tehran, it can be expected 
that Iran will make even greater efforts to develop a nuclear weapons 
capability, even though they will assume the U.S. will successfully 
destroy all Iraq's WMD capabilities.
    Their reasons for concern go beyond the putative threat of American 
military power. They will know that one of the priorities of the new 
regime will be to reinvest in Iraqi oil production to generate hard 
currency to pay for a huge reconstruction effort. This will mean that 
Iraq will be interested in maximizing its oil revenue and unlikely to 
conform to OPEC production quotas, thereby possibly lowering oil prices 
and reducing Iran's hard currency earnings.
    A pro-Western Iraq could reopen the Shatt al-Arab dispute or could 
even proceed with a previous Iraqi proposal to build a canal from Basra 
to Umm Qasar thereby cutting off the flow of water into the Shatt al-
Arab and threatening the viability of the Iranian ports at Khorramshahr 
and Abadan.
Impact of a War on Iran's Domestic Politics
    Iran's political struggles are often referred to as a life and 
death struggle between ``reformers'' led by President Khatami and 
``hardliners'' led by the spiritual leader Khamenei. In reality, the 
picture is much more complex. Some hardliners on foreign policy are 
eager to reform the ossified economy. Some reformers are against market 
capitalism and support greater state control of the economy. And when 
it comes to the United States all would probably agree that the absence 
of relations with Washington though ideologically pure, hurts the 
Iranian economy. The reformers cannot afford to make a serious overture 
to the U.S. government for fear of a draconian backlash from their 
domestic enemies.
    One issue on which most Iranians agree is that Iran must retain its 
independence from foreign domination. Over the past decade, Iran has 
become more nationalist and less enamored with revolutionary zeal. The 
new cooperation with Saudi Arabia is the most clear sign of this 
pragmatic nationalism. While the Islamic nature of the Republic remains 
the central component of domestic politics, a more ``Persian'' attitude 
to foreign relations has emerged.
    It is possible that a quick U.S. victory over Iraq could result in 
a new bout of pragmatism in Tehran leading to a deal with Washington. 
But this outcome is by no means certain. An arrogant, victorious 
America could well find itself disliked by Iranians who today regard 
themselves as reformers and pro-West. This will matter because however 
quick and easy the U.S. military victory and however pro-American the 
new Iraqi regime is, a number of geopolitical realities will face the 
new regime and better relations with powerful neighbors, such as Iran, 
will be very important. Iran will be Iraq's neighbor long after U.S. 
troops have left. Sooner or later the two countries will have to 
cooperate or descend once more into confrontational behavior. Iraq's 
immediate neighbors, especially Saudi Arabia, Jordan, Syria, Turkey, 
and Iran, all face enormous political and economic challenges in the 
years ahead. One reason they all fear a war against Iraq is that it 
could reek havoc on their already fragile societies. It is true that in 
the long run the region is well endowed with resources and could 
witness an economic renaissance. However, the short term effect of a 
war could be very bad.
Responses from Europe
    Direct European support for U.S. military action against Iraq is 
highly desirable, even if not essential. However European cooperation 
with the U.S. would be essential to limit the dangers of an energy 
crisis during a war and assuring that a post-Saddam Iraq and the Middle 
East remains stable. At the inter government level cooperation between 
the United States and Europe on Middle East issues is close. The EU now 
has a common policy on the Middle East; this makes coordination with 
Washington easier than in the past. But the EU itself is not a state. 
As a consequence its Middle East policy inevitably reflects compromise 
on contentious issues.
    The key European governments all share the U.S. view that Saddam 
Hussein is a menace, that he is determined to reconstitute his weapons 
of mass destruction and that if he obtains nuclear weapons he will 
flaunt them and attempt to change the balance of power in the Middle 
East. Saddam Hussein must be forced to accept all UN Security Council 
resolutions, especially those relating to WMD. Europeans acknowledge 
that at some point the use of force may be necessary to implement the 
resolutions and to assure that UNMOVIC is dispatched to Iraq.
    However, ``regime change,'' a phrase now frequently used by the 
Bush Administration in the context of the war on terrorism, is quite 
another matter. Most Europeans governments regard this as an 
unacceptable policy goal. While regime change in Iraq would be welcomed 
and, indeed, might occur naturally in event of a military confrontation 
over WMD, it cannot be used as a causus belli. The Europeans insist 
that there must be international legitimacy for any military operation 
against Saddam Hussein and that this will require further efforts to 
resolve the inspection problem. Without the cloak of UN legitimacy 
European governments will find it difficult to carry public opinion, 
though this does not mean they will not cooperate if, in the last 
resort, the United States decides that war is the only alternative.
    Europe worries about the costs of a war, particularly one that does 
not go well. This obviously also is a concern in Washington, but the 
Europeans tend to have a more gloomy prognosis as to the region's 
susceptibility to quick fix American military operation than do many in 
the Bush Administration. They worry about the breakup of Iraq and the 
disastrous spillover effect this could have on the region, including 
the possibility that the Kingdom of Jordan could collapse and that 
Iran, Turkey, and Saudi Arabia, one way or another, would be drawn into 
a cauldron of instability in Iraq. On the other hand, when presented 
with the more optimistic scenario, namely that American forces could 
quickly defeat Iraq and that the remnants of Saddam's support could 
collapse, Europeans are nervous about what then happens after the fall 
of the regime. Will the United States have to occupy Iraq, and if so 
for how long? When pressed, the European officials are not prepared to 
say that they would contribute forces to a post-Saddam Iraqi 
occupation, unlike the situation in Afghanistan when they volunteered 
more forces than the U.S. thought necessary. And on Afghanistan the 
Europeans worry that the U.S. has no ``staying power'' and that, absent 
a causus belli, it would be unwise to take on Iraq while the Afghan and 
Pakistani regimes remain precarious.
Conclusion
    Iran will not be able to prevent a U.S. attack on Iraq. It will 
likely remain neutral during the war while intensifying its efforts to 
develop nuclear weapons. Its greatest leverage will be during the post 
war period. Its population and geography assures its interests must be 
taken into account, irrespective of its leadership. In the last resort 
the European governments will support the United States if it uses 
force. Whether this support will include troop contributions is highly 
unlikely except in the case of the Blair government, which, at least at 
the highest levels shares U.S. concerns with the exception of regime 
change as a stated war objective.
    In considering the pros and cons of a military campaign against 
Iraq, the U.S. must take into account the stability of both the Middle 
East and South Asia. No one doubts the ability of the United States to 
prevail in any military campaign against Iraq, but the cost may be high 
and may require a formidable commitment of manpower if the job is to be 
done properly. The Bush Administration openly talks about its wishes 
for regime change in Palestine and Iraq and hints that Iran and Syria 
could be next. What is less discussed is the problem of regime 
survival. At this point in time pro-American regimes in Afghanistan and 
Pakistan are in danger and our friendliest leader in the Arab world, 
King Abdullah of Jordan, warns that his regime may be threatened if 
events get out of hand. He may be exaggerating the danger, but he is 
clearly very worried. We would be foolish to ignore his concerns.

    The Chairman. Thank you, doctor.
    Mr. Ambassador.

STATEMENT OF HON. MARK R. PARRIS, SENIOR POLICY ADVISOR, BAKER, 
         DONELSON, BEARMAN, & CALDWELL, WASHINGTON, DC

    Ambassador Parris. Thank you, Mr. Chairman. Let me join my 
colleagues in expressing my appreciation for the opportunity to 
appear before you on this very timely and important subject. 
The last time I sat in this chair was during my confirmation 
hearings, when you grilled me on Turkish policy toward Cyprus. 
All things considered, I think I would just as soon talk about 
Turkish policy toward Iraq.
    I do not think that there is any question that Turkey's 
attitude will be critical in the event the United States seeks 
to remove Saddam Hussein through the use of force. In the 
interest of time, I am not going to recite the many reasons why 
that is so. All one has to do is look at a map and consider the 
options to realize that you really cannot exercise any of them 
without Turkey.
    What do the Turks think about the prospect of direct U.S. 
military action to topple Saddam Hussein? The short answer is, 
they hate the idea. The Turks' dread of a new war against Iraq 
stems from their negative experiences of the last one. In 
security, economic, and strategic terms, Turkey emerged a loser 
from the last gulf war and its aftermath.
    From a security standpoint, Saddam's oppression of the 
Iraqi Kurds' short-lived uprising in 1991 and the coalition's 
subsequent expulsion of Iraqi central authorities from the 
north had a profoundly negative impact across the border in 
southeast Turkey. PKK terrorists exploited the situation to 
expand their operations exponentially. It took most of the 
nineties, thousands of lives, lots of money, and frequent 
interventions into northern Iraq itself for the Turkish 
military to get the situation back under reliable control.
    From an economic standpoint, U.N. sanctions against Iraq 
cutoff Turkey's access to what had been its largest trading 
partner. The impact was on the order of what would happen here 
if the U.S.-Canada border were sealed from one day to the next. 
Turks estimate the cost over the last decade at between $40 and 
$80 billion, and that may be low.
    From a strategic standpoint, Ankara saw the emergence in 
northern Iraq of local administrative organs to fill the gap 
left by the withdrawal of Iraqi central authorities as a step 
toward the establishment of a de facto Kurdish state. 
Preventing such a development had long been and remains a 
cornerstone of Turkish regional policy, reflecting concern for 
its impact not just on Kurdish populations, but on the 
interests of up to 2 million Turcomen of northern Iraq, a 
people ethnically and culturally very close to the Turks.
    Over the past decade, Turkey has found ways to cope with 
most of the consequences of the gulf war. It is not now 
uncomfortable with the status quo that has emerged in the area 
in and around northern Iraq.
    Would it not be better for Turkey if Saddam were gone? No 
question about that. Turks are not insensitive to the potential 
advantages, especially from an economic standpoint, of Saddam's 
removal, and of Iraq becoming a more normal neighbor, but for 
most of them the appeal of such gains is outweighed by 
misgivings over what could go wrong this time around.
    Based on their experiences since 1990, the Turks lack 
confidence that the United States understands Iraq's internal 
dynamics well enough to give meaning to our repeated 
commitments to maintain its territorial integrity. They worry 
that even if we do understand the situation better than they 
suspect, the process of replacing Saddam could at some point 
lead the United States to make tradeoffs at Turkey's expense, 
and they remain concerned that if things do not go according to 
plan, the United States will not see the project through, 
leaving Turkey again to face a neighbor that is either hostile 
or in chaos.
    Now, seen from this perspective, we should probably not be 
surprised that Turkey's highest leaders, including its 
President, Prime Minister, Defense Minister, and senior 
military have publicly and repeatedly expressed deep 
reservations about the wisdom of seeking forcibly to remove 
Saddam Hussein, but Turks are realists, and in virtually all 
conversations I have had with the Turks on this subject, their 
bottom line is a realistic one.
    It boils down to this. If the United States does go after 
Saddam, Ankara will not have the luxury of sitting this one 
out. There would simply be too much at stake in terms of 
Turkey's interests. Turkey would want to be in on the planning 
and execution of any operation to ensure that those interests 
were factored in and that there was no deviation from an 
originally agreed concept once things got started, and Turks 
who think about these things understand that the price of this 
kind of access and this kind of transparency is some degree of 
cooperation.
    It is clearly in the interests of the United States, if we 
move against Saddam militarily, to maximize the extent of 
Turkish cooperation and to minimize the possibility of 
surprises once the operation begins. The key to making Ankara 
part of the solution rather than a potential problem is early 
and honest and detailed consultations.
    What will the Turks be looking for in those consultations? 
At the most general level, they will want to see that whatever 
we have in mind is serious. Given the history, they will need 
to be convinced that we will finish the job this time around, 
that we can do it with dispatch, and that we will do whatever 
it takes to get their neighbor back on its feet in one piece 
and as a member in good standing of the family of nations.
    But the Turks will also have more specific things they will 
want to see addressed. They will first of all want to be sure 
that they do not again pay an economic price for being on the 
right side in this war. I would therefore not be surprised to 
see Turkey seek to lock in before hostilities start concrete, 
specific commitments from the administration in terms of debt 
forgiveness or additional economic or military assistance.
    I would also expect Ankara to seek assurance of continued 
U.S. support in the IMF and other international financial 
institutions to the extent action in Iraq adversely affects 
Turkey's economic recovery program, but it is on issues 
relating to northern Iraq that U.S.-Turkey consultations will 
be most important, because what happens there very simply may 
well define Turkey's role in the broader conflict.
    There have been some provocative but I think ultimately 
fanciful things written in the U.S. press about what that role 
will be. I think you can forget about Turkish tanks rolling to 
Baghdad. It is simply not going to happen, nor is anyone in 
Ankara sitting around counting the revenue that Turkey might 
gain by seizing the oilfields around Mosul and Kirkuk.
    My impression is the Turks are deadly serious about 
maintaining Iraq's unity and territorial integrity. Indeed, I 
believe that seriousness underlies what will be Turkey's 
primary goal in the event the United States moves against Iraq. 
That is, denying the Iraqi Kurds any gain that might enhance 
their ability in a post Saddam environment to press for 
independence or its functional equivalent.
    Now, that imperative has certain practical implications 
that U.S. planners will ignore at their peril. One hears a lot 
around this town, for example, about how the United States 
will, quote, improve the military capability of the Peshmerga, 
the Kurdish militia, as part of an effort to topple Saddam. I 
suspect that a more capable Peshmerga force is not something 
most Turks will be wildly enthusiastic about, either now or on 
the day after.
    Another area of potential tension has to do with the nature 
and mission of U.S. military and other personnel who may be 
deployed in the north. The Turks have spent a decade developing 
an ability to monitor and, to an important extent, to control 
developments there. They are likely to be suspicious of and may 
resist any presence that dilutes that ability by establishing 
direct links to the local Kurdish leaders.
    And what about the Iraqi opposition? Turkey has 
traditionally been skeptical of Iraqi exile organizations, and 
has a notably rocky relationship with the Iraqi National 
Congress. To the extent the United States intends to rely on 
such groups, particularly in the north, Ankara might have other 
ideas.
    Finally, what would the Turks really do if Iraqi Kurds 
attempt to seize Mosul and Kirkuk? The Turks clearly fear that 
possession of these politically important cities and their 
associated oil wells would put the Kurds in a powerful 
negotiating position on the day after. Turkey's press in recent 
months has been full of credible reports that Turkey would 
itself seize those cities, rather than allow that to happen.
    Mr. Chairman, I raise these examples not to suggest that 
they reveal irreconcilable differences between the United 
States and Turkey that would keep us from cooperating in an 
effort to change Iraq's leadership. I do not believe that to be 
the case, but I think they do underscore the importance of 
honest, detailed discussions before any balloons go up.
    Thank you very much.
    [The prepared statement of Ambassador Parris follows:]

   Prepared Statement of Amb. Mark R. Parris, Senior Policy Advisor, 
                  Baker, Donelson, Bearman, & Caldwell

    Thank you Mr. Chairman for the opportunity to share my views on 
this important and timely subject.
    My personal involvement with the problem of Saddam Hussein dates to 
the first Gulf War, when, as the number-two in our Tel Aviv Embassy, I 
was on the receiving end of thirty or so of his SCUD missiles. From 
1992 to 1997 I held senior positions in the first Bush and the Clinton 
administrations, where I tried to make containment work. As Ambassador 
to Turkey from 1997 to 2000, one of my most challenging tasks was to 
keep this important front-line state on the same page as the U.S. on 
Iraq. Since my retirement from the Foreign Service in early 2001, I 
have visited Turkey frequently, most recently in late-June of this 
year. During those visits, and especially since last fall, I have had 
extensive discussions with Turkish officials and private citizens about 
Iraq.
    Turkey's attitude will be critical in the event the U.S. seeks to 
remove Saddam Hussein through use of force. In the interests of time, I 
won't recite the many reasons why. All one has to do is look at a map 
and consider the options to realize you can't exercise any of them 
without Turkey.
    So what do the Turks think about the prospect of direct U.S. 
military action to topple Saddam Hussein? The short answer is: they 
hate the idea.
                          turkey's misgivings
    The Turks' dread of a new war against Iraq stems from their 
negative experiences with the last one. In security, economic and 
strategic terms, Turkey emerged a loser from the Gulf War and its 
aftermath.

  <bullet> From a security standpoint, Saddam's suppression of the 
        Iraqi Kurds' short-lived uprising in early 1991, and the 
        Coalition's subsequent expulsion of Iraqi central authorities 
        from the north, had a profoundly negative impact across the 
        border in southeast Turkey. PKK terrorists exploited the 
        situation to expand their operations dramatically. It took most 
        of the nineties, thousands of lives, lots of money and frequent 
        interventions into northern Iraq itself, for the Turkish 
        military to get the situation back under reliable control.

  <bullet> From an economic standpoint, UN sanctions against Iraq cut 
        off Turkey's access to what had been its largest trading 
        partner. The impact was on the order of what would happen here 
        if the U.S.-Canada border were sealed from one day to the next. 
        Turks estimate the cost over the past decade at between 40 and 
        80 billion dollars. That may be low.

  <bullet> From a strategic standpoint, Ankara saw the emergence in 
        northern Iraq of local administrative organs to fill the gap 
        left by the withdrawal of Iraqi central authorities as a step 
        toward establishment of a de facto Kurdish state. Preventing 
        such a development had long been--and remains--a cornerstone of 
        Turkish regional policy, reflecting concern for its impact not 
        just on Turkey's own Kurdish population, but on the interests 
        of the up to 2 million Turcomen of northern Iraq--a people 
        ethnically and culturally very close to Turks.

    Over the past decade, Turkey found ways to cope with most of the 
consequences of the Gulf War. It is not now uncomfortable with the 
status quo that has emerged in and around northern Iraq.
    Would it not be better for Turkey if Saddam were gone? Without 
question. Turks are not insensitive to the potential advantages--
especially from an economic standpoint--of Saddam's removal and of Iraq 
becoming a more normal neighbor. But for most of them, the appeal of 
such gains is outweighed by misgivings over what could go wrong this 
time around.
    Based on the their experiences since 1990, Turks:

  <bullet> Lack confidence that the United States understands Iraq's 
        internal dynamics well enough to give meaning to our repeated 
        commitments to maintain its territorial integrity;

  <bullet> Worry that, even if we do understand the situation better 
        than they suspect, the process of replacing Saddam could at 
        some point lead the U.S. to make tradeoffs at Turkey's expense;

  <bullet> Remain concerned that, if things don't go according to plan, 
        the U.S. will not see the project through, leaving Turkey, 
        again, to face a neighbor that is either hostile or in chaos.

    Seen from this perspective, we should not be surprised that 
Turkey's highest leaders, including its President, Prime Minister, 
Defense Minister and senior military, have publicly and repeatedly 
expressed deep reservations about the wisdom of seeking forcibly to 
remove Saddam.
                          turkey's bottom line
    But Turks are realists. And in virtually all conversations that I 
have had with Turks on this subject, their bottom line is a realistic 
one. It boils down to this: if the U.S. does go after Saddam, Ankara 
will not have the luxury of sitting it out.
    There would be simply too much at stake in terms of Turkish 
interests. Turkey would need to be in on the planning and execution of 
any operation to ensure that those interests were factored in and that 
there was no deviation from an original, agreed concept once things got 
started. Turks who think about these things understand that the price 
of access and transparency is some degree of cooperation.
    It is clearly in the interests of the U.S., if we move against 
Saddam militarily, to maximize the extent of Turkish cooperation, and 
to minimize the possibility of surprises, once an operation begins. The 
key to making Ankara part of the solution, rather than a potential 
problem, is early, honest, detailed consultations.
                        incentives and red lines
    What will the Turks be looking for in such consultations?
    At the most general level, they will want to see that whatever we 
have in mind is serious. Given the history, they will need to be 
convinced that we will finish the job this time around, that we can do 
it with dispatch, and that we will do what it takes to get their 
neighbor back on its feet in one piece and as a member in good standing 
of the family of nations.
    But the Turks will have more specific things they want addressed as 
well.
    They will first of all want to be sure that they do not again pay 
an economic price for being on the right side. Some have even suggested 
that this may be an opportunity to make good some of Turkey's losses 
from the last war. I would therefore not be surprised to see Turkey 
seek to lock in, before hostilities start, concrete, specific 
commitments from the Administration in terms of debt forgiveness or 
additional economic or military assistance. I would also expect Ankara 
to seek assurance of continued U.S. support in the IMF and other 
international financial institutions, to the extent action against Iraq 
adversely affects Turkey's economic recovery program.
    But it is on issues relating to northern Iraq that U.S.-Turkish 
consultations will be most important, because what happens there may 
well define Turkey's role in the broader conflict.
    There have been some provocative but fanciful things written in the 
U.S. press about what that role might be. Forget about Turkish tanks 
rolling to Baghdad. It is not going to happen. Nor is anyone in Ankara 
counting the revenue Turkey might gain by seizing the oil fields around 
Mosul and Kirkuk. Turkey is serious about maintaining Iraq's unity and 
territorial integrity.
    Indeed, that seriousness underlies what I believe will be Turkey's 
primary goal in the event the U.S. moves against Iraq: denying the 
Iraqi Kurds any gains that might enhance their ability in a post-Saddam 
environment to press for independence or its functional equivalent.
    That imperative has certain practical implications that U.S. 
planners will ignore at their peril:

  <bullet> One hears a lot around this town, for example, about how the 
        U.S. will ``improve the military capability of the peshmerga'' 
        as part of an effort to topple Saddam. Now, I suspect that a 
        more capable peshmerga force is not something most Turks will 
        be widely enthusiastic about, now or on the Day After.

  <bullet> Another area of potential tension has to do with the nature 
        and mission of U.S. military or other personnel who may be 
        deployed in the north. The Turks have spent a decade developing 
        an impressive ability to monitor and, to an important extent, 
        control developments there. They are likely to be suspicious 
        of, and may resist, any presence that dilutes that ability by 
        establishing direct links to local Kurdish leaders.

  <bullet> And what about the Iraqi opposition? Turkey has 
        traditionally been skeptical of Iraqi exile organizations, and 
        has notably had a rocky relationship with the Iraqi National 
        Congress. To the extent the U.S. intends to rely on such 
        groups, particularly in the north, Ankara might have other 
        ideas.

  <bullet> Finally, what would the Turks really do if Iraqi Kurds 
        attempt to seize Mosul and Kirkuk? Ankara clearly fears that 
        possession of these politically important cities and their 
        associated oil wealth would put the Kurds in a powerful 
        negotiating position on the Day After. Turkey's press in recent 
        months has been full of credible reports that Turkey would 
        itself seize those cities, rather than allow that to happen.

    Mr. Chairman, I raise these examples not to suggest that they 
reveal irreconcilable differences between the U.S. and Turkey that 
would keep us from cooperating in an effort to change Iraq's 
leadership. I don't believe that to be the case. But I think they do 
underscore the importance of honest, detailed discussions before any 
balloons go up.
    Judging from press reports, that process seems to have started in 
earnest during Deputy Secretary Paul Wolfowitz's visit to Turkey last 
month. Even though we are repeatedly told that ``there is no plan on 
the President's desk,'' and even though most people in Turkey wish the 
issue would just go away, it is not too soon.

    The Chairman. Thank you very much, Mr. Ambassador.
    Let me ask you, Mr. Telhami, how would you test the choice 
between regime change and nuclear weapons? You drew what I 
think most Americans would think is a false distinction here 
that in fact everyone we have heard from so far, almost 
everyone you hear is reputed to be informed, says that there is 
no way of separating Saddam from his nuclear, or weapons of 
mass destruction, and it is a foolhardy exercise to attempt to 
do it, and therefore regime change is the only alternative.
    What you are suggesting is the possibility that Saddam stay 
in power but not have his weapons of mass destruction, a deal 
that I think you would find an awful lot of people ready to 
accept, probably, but I mean, I do not quite understand.
    Dr. Telhami. Let me just put it this way. There is clearly 
a difference in terms of how people in the world in Europe and 
the Middle East see the priorities in Iraq. To the extent that 
the priority is eliminating Iraq's weapons of mass destruction 
capabilities, they see that as being more important than the 
issue of regime change.
    I think in our debate it is clear that we have articulated 
a policy of regime change from the very beginning, even when it 
was not an explicit policy, it was an implicit policy. The real 
question is, if, in fact, our priority is eliminating Iraq's 
weapons of mass destruction potential above regime change, one 
of the avenues we certainly have not explored is whether that 
tradeoff will lead us to more intrusive international presence 
that would assure Iraq's compliance.
    The Chairman. But during the Clinton administration, where 
there was not at the front end an explicit judgment made on 
regime change, there was virtually no cooperation from Europe 
on tougher inspection, and tougher--well, inspection regime to 
deal with weapons of mass destruction.
    I mean, I have had repeated discussions all during the 
nineties with European leaders who always had some, from our 
perspective, quite frankly lame excuse why it really was not a 
problem, so I am wondering why you think that there is any 
prospect that if we went back to the Europeans, and assume the 
President said to the French and to others, look, here is the 
deal, you help us get rid--you get full-blown inspections in 
there that are real, robust, genuine, allow us to go, and the 
international community go wherever, and if we are convinced 
that we have gotten rid of the weapons of mass destruction, we 
are out of there.
    Dr. Telhami. Well, I think the question is, we really have 
not tested it, because if the tradeoff, if they are truly 
fearful of the military option and they see that as an 
alternative to the military option, and the Iraqis see it as an 
alternative to the military option, it is worth testing at a 
minimum. If it does not work, we will be in a better moral 
position to make a different kind of argument.
    The Chairman. Is that different from what Senator Lugar and 
myself and I think to some degree Senator Hagel had been 
saying, that we should be, for reasons relating to diplomacy, 
if not substance, pushing as hard as we can for a more robust 
inspection regime and put the Iraqis in the position where they 
resist, it is clear they are resisting and it is clear why? I 
mean, is there a difference in what you are saying? Am I 
missing something?
    Dr. Telhami. It is essentially in the same spirit of what 
you are saying. I think the difference is, we have to be very 
explicit in our own thinking that ultimately what we then would 
be advocating is, essentially we can live with the regime if it 
does not have weapons of mass destruction.
    That does affect the strategy, because one of the fears 
that we have had in terms of the level of intrusions when we 
went into Iraq and said, well, but if we remove the economic 
sanctions he is going to be able to have more political power 
in Baghdad, or in Iraq. Well, unfortunately that may be the 
case if you pursue this strategy. That is one consequence that 
we have to think about.
    I am not suggesting that is a strategy to pursue, but I 
think that that is the implication of this kind of strategy.
    The Chairman. Dr. Kemp, if you were in your old job down at 
the White House, what advice would you give the President about 
what signals he should send to the Iranians now, if any, about 
any move against Iraq on our part?
    Dr. Kemp. Well quite frankly, I am not quite sure what the 
current policy toward Iran is, Mr. Chairman. As I understand 
it, in the period leading up to the war against the Taliban 
there were multilateral meetings with the Iranians in the six 
plus two forum, and the Iranians were relatively cooperative 
during the war against the Taliban. In the immediate aftermath 
of the war, the State Department people who were in Bonn 
acknowledged that the Iranians were useful in putting together 
the Karzai interim government.
    Then things went downhill very badly, climaxing with the 
smuggled ship that was caught moving arms to the Palestinians 
and the President's State of the Union speech, and so now the 
problem is we do not have the sort of relationship with the 
Iranians we had last fall.
    My own personal view is that if we contemplate a major war 
against Iraq, we at least have to make an effort to resume some 
dialog with the Iranian Government, however unpleasant its 
activities are in other theaters.
    I happen to believe that what the Iranians are doing in the 
occupied territories, their support for Hamas and Hezbollah, is 
linked to their fear that we are going to go after Saddam 
Hussein and that they have got to know that if we are truly 
determined to get rid of him they are going to have to make a 
calculation that they can either cooperate with us in a passive 
way during that campaign, or they can be against us, and if 
they are against us, then they are likely to be very much in 
our cross-fire.
    So my advice, if I had my old job, and assuming I survived 
for more than a week down there in this climate, I would 
essentially suggest we rethink our Iranian strategy as we get 
closer toward a war with Iraq.
    The Chairman. A last point. Professor Ajami, you indicated 
that if we move against Iraq, the people in the region, who are 
looking for this perfect storm, but the people in the region, 
heads of state in the region will associate with us but not 
want to be seen with us, not want us to kiss them in public.
    What does that mean as that relates to the use of what you 
heard in the last panel the two military guys saying, without 
Qatar, without Bahrain, without Kuwait there is no reasonable 
way in which we could sustain a massive U.S. military 
engagement? Does your note about, will associate with us but 
very quietly, does that mean they will not be able to give us 
access?
    Dr. Ajami. They can give us access. I think sometimes 
people underestimate the power, the coercive power of these 
governments and their power, I think, to live with a certain 
cognitive dissonance, shall we say. They will have to, some of 
these states, maybe even Jordan, it may have to have shades of 
the Musharraf situation.
    President Musharraf, give him credit, he stared down the 
Islamists, he stared down the street, he associated himself 
with American power in the face of all kinds of arguments that 
this regime was destined to fall if it were actually to 
associate itself with us, and if it were to be a base for the 
war against Afghanistan. He did it, and the way he did it was 
to say, look, this is the choice for Pakistan's majority, that 
either we are a pariah among nations, or we actually join this 
coalition, and he sustained his case.
    I think it will come to this, for example, for the King of 
Jordan. Imagine now the nightmare of this young King of Jordan, 
Abdullah II. Now, it is kind of interesting, if you will, if 
you like historical ironies, last time around it was the two 
fathers, Bush Senior and, of course, King Hussein, and that 
time those two men went separate ways.
    King Hussein decided that he feared the street in his own 
country more than he feared the United States, and he actually 
bet right, that when the guns fall silent we would actually 
rehabilitate him and we would give him a seat at the table. We 
invited him, as we did to Madrid, and we forgave him the choice 
he made, because we understand the difficulty that the 
Hashamites have in the realm, so I think we can sweeten the pot 
for some of these rulers.
    In the case of the King of Jordan, we will have to aid 
Jordan economically. There has already been talk of 
compensating Jordan on this panel today for what Jordan may 
have to do. Some other countries have an easier call to make. 
In the case of Qatar, clearly everybody knows, and the Qatar 
regime seems to have this amazing ability in many ways to do 
things in broad daylight. It even has Al Jazeera there, and it 
just does it its own way, and we are building a presence in 
Qatar, and I think that presence could be easily used.
    Bahrain, that could also be easily used. I think the 
Bahrainis, the domestic situation is not as acute, for example, 
as the case of the Jordanians.
    In the case of the Kuwaitis, it is easiest of all. They 
know the bandit for what he is. He has their national archives. 
He has 600 of their people, incidentally, about whom he is now 
saying, well, we are willing to discuss them, even though they 
did not exist a few months ago, or a year or so ago, so I think 
in the case of the Kuwaitis the body politic could bear this 
kind of presence and could bear this kind of war, so we should 
not exaggerate the weakness of these states.
    There shall be demonstrations against us, to be sure. We 
shall not convince anyone, Mr. Chairman, that we are there to 
deliver the Iraqis out of their misery, and one point I want to 
make, already there are large numbers of people in the Arab 
world who believe that we are keeping Saddam there because he 
is convenient for us. He is convenient for us. That is why we 
never removed him, because he allows us, if you will, this 
extensive presence in the gulf, and he allows the Americans to 
get these joint exercises in the gulf and to have these 
extensive weapons sales, so there are all these kinds of 
conspiracy theories.
    The Chairman. By the way, I have heard that when I was in 
Bahrain. Anyway, you have clarified for me your statement 
about, they would be willing to associate but not want to be 
seen.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and thank you to 
our panel this afternoon, after a long wait. We appreciate you 
hanging in there with us. I apologize for missing some of the 
opening statements, so I may ask a question here that some of 
you developed in some detail.
    But Dr. Kemp, I heard it said recently on the Iranian 
dynamic, if we should invade Iraq, or liberate Iraq, however we 
phrase it, that the two options for Iran would be a negative 
neutrality or a positive neutrality, and I think that is not a 
bad way to say it.
    I would ask each of you if you could give me your opinion 
on what has been suggested in previous panels today that there 
is a very clear and defined link between the Arab Palestinian 
issue and Iraq. Is that true or not? If it is, how deep is it 
part of the dynamic if we would go into Iraq, and I heard some 
of you mention it, but I would very much like each of you to 
give me your thoughts on that.
    Ambassador Parris.
    Ambassador Parris. Well, I think there is no question that 
it complicates any assessment by the administration of how you 
would implement a policy of regime change, which they have 
declared to be the policy. There is a question in my mind 
whether it is a showstopper, as some of the other witnesses 
have suggested.
    I think we sometimes underestimate the ability of some of 
our friends in the Arab world to deal with issues arising from 
discontent in their streets. These have proved to be pretty 
robust regimes when they need to be, regimes who understand the 
dynamics and have been able to dominate them over the years.
    My guess is that if the administration were to do this in a 
way which provided adequate consultation which satisfied many 
of the concerns that have been expressed here and in previous 
panels that those governments have shared with us, and are 
likely to share with us in the consultative process, that it 
would be possible to carry out the kind of operation that we 
are talking about without resolving the Arab-Israeli dispute 
first, which after all is going to take a long time. There is a 
real question whether or not, based on some of the earlier 
testimony today, we have that kind of time.
    Senator Hagel. So you do not see it as a serious 
impediment?
    Ambassador Parris. I think it is certainly serious, and it 
is certainly an impediment, but I am not convinced that it 
would stop this effort in its tracks if it were done properly 
and intelligently, and with full concern for the sensitivities 
that our potential partners have expressed.
    Dr. Telhami. I think it clearly is, Senator, a complicating 
factor in some places. I mean, I think that Mr. Ajami's point 
was right about 1991, 1990 and 1991, when the King of Jordan 
decided essentially that the pressure from his public was too 
much to bear, that he had to stay it out, even though he was 
one of the friendliest leaders toward the United States of 
America. He made that choice, and obviously he made it because 
he felt the heat from his public.
    I think that the link is not direct. I think that what is 
at issue is the resentment toward the United States, which is 
broad-based and is linked to a lot of issues, but it is highly 
focused on this issue because of the escalation that we see, 
and therefore there will be an automatic link about an American 
design for Iraq.
    I agree with the idea that these states are robust. I think 
they have proven to be robust before. They calculate on a 
realpolitik basis. They have to do what they have to do to 
survive, and if that means they have to go with America, they 
ultimately do. Even if they do not like it, they ultimately do, 
but I think we should have no illusions about the points that I 
tried to make earlier, one of which is that now they have more 
uncertainty about their ability.
    They have been stretched to the limit in the last few 
months because of this pressure, and because they do not have 
control over this information, that they are scared of it. It 
does not mean they cannot do it, but they have more 
uncertainty.
    But the more important point is, they can only succeed in 
containing the public discontent through repression, and the 
net outcome will be that we are going to end up with a Middle 
East that is more repressive, and we cannot, and we should not 
have any illusions about it, and I would argue--and here Mr. 
Ajami may have a disagreement. He has not addressed it, but it 
is about the extent to which this would be a factor in 
additional motivation for terrorism.
    I happen to think that that is an issue. I happen to think 
it is very important. Even aside from whether the public has 
the capacity to overthrow regimes, I think revolutions are 
scarce in history, and they clearly have been scarce in the 
Middle East. It is still a state system. We often forget that.
    But even authoritarian governments have to be sensitive and 
responsive to their publics, and there are new channels and 
avenues available to the public to express the discontent in 
ways that--unfortunately through militancy, and I think it 
would be very easy to conceive an argument that the militants 
would exploit and would be able to do more of it than before a 
war with Iraq.
    Senator Hagel. Dr. Ajami.
    Dr. Ajami. On the issue of terrorism and the connection 
between--and I will get to your point, Senator Hagel, but on 
the issue of terrorism and the connection with the Palestinian 
question, it is interesting to note that the trail of terror, 
the trail of terror that dogged America throughout the 
nineties, that is the World Trade Center truck bombing in 1993, 
the bombing in Riyadh in 1995, the Khobbar Towers in 1996, the 
attacks on the U.S. Embassies in Nairobi and Dar es Salaam in 
the summer of 1998, and the attack on the USS Cole in October 
of 2000, they all happened during one of the most accommodating 
American diplomacy toward the Palestinian question under the 
Presidency of Bill Clinton, where Bill Clinton was quoting 
Yassar Arafat and the terror paid the Palestine question no 
heed. Indeed, the master minds of al-Qaeda paid the Palestinian 
question in every statement they made no heed.
    Two men came together in 1998, Osama bin Laden and a 
physician much more interesting for the purposes of terrorism, 
Ayman Zawahiri, who is an Egyptian and a foe of the regime of 
Mubarak, that came together and gave us this trail of terror. 
The Palestine question was the issue de jour just recently for 
the bin Ladens in the region, and so that is the connection to 
terrorism. Terrorism paid no attention to what we were doing on 
the Palestinian question.
    Terrorism had no regard for the peace of Oslo, and when 
Yassar Arafat had more visits to the White House than any head 
of state in the world during the Clinton years the al-Qaeda 
people thought he was of no relevance to the kind of grievances 
that they had.
    So we come now to Iraq, and it is still a question of 
linkage, can we do Iraq without doing Palestine. There is a 
kind of view of the Arab world I do not share that all issues 
that Palestine is the end all, be all of Arab politics. I do 
not agree with this. I think the gulf is very important. I 
think Iraq is very important. I think the fate of 22 million 
Iraqis is extremely important, and I think the idea that we 
cannot do anything in the region short of solving, quote-
unquote, solving the question of Palestine, whatever that term 
means, is not very persuasive to me.
    I think what we can say, we are in this war because of 
September 11. We have to make a linkage between September 11 
and Iraq, and I think the linkage is indirect, but we must make 
it, and we have to insist on our right to prosecute this war, 
and we can also say that the President has in place his plan 
for regime change as well not only--and we are using regime 
change in Iraq, but regime change in the Palestinian territory, 
and there is a promise to the Palestinians that they can have a 
state provisionally in 3 years if the terror comes to an end, 
and that ultimately the Israelis and Palestinians are doomed to 
an accommodation west of the Jordan river, but the issue of 
suspending the liberties and the reform of the Arab world and 
keeping it hostage to the question of the Palestinians is not 
persuasive.
    I think the Iraqis have their claim on us, and I think this 
is the kind of claim we have to pay attention to.
    Senator Hagel. Thank you.
    Dr. Kemp.
    Dr. Kemp. Well, the one clear linkage, it seems to me, 
between Iraq and the peace process or the Arab-Israeli 
conflict, whatever you want to call it, is Saddam Hussein. What 
did Saddam Hussein do in January 1991? He launched Scuds 
against Israel with the sole purpose of bringing Israel into a 
war that would then disrupt the alliance that George Bush 
Senior had put together. It did not work, because the SCUD's 
were not effective, and the Israelis showed remarkable 
constraint.
    Saddam more recently has, of course, been upping the ante 
by paying bounties to the families of suicide bombers in the 
Palestinian territory. These scenarios that you have been 
hearing about this morning and read about every day in the 
paper include the possibility that in extremis Saddam Hussein 
will launch his WMD directly or indirectly against Israel in 
order to bring the linkage into effect.
    And perhaps the most disturbing possibility of all, which 
there is now quite some speculation about, is that Saddam 
Hussein in extremis would do whatever he could to destabilize 
the Hashamite Kingdom of Jordan. It is interesting that though 
everybody on this panel has slightly different views--all seem 
to agree that the Saudis will ride it out, the Egyptians will 
ride it out, the Qataris will, but we are all worried about the 
King.
    In other words, we talk a lot about regime change, but 
actually what we have to worry about is regime survival, 
particularly the survival of King Abdullah. If anything 
happened to Jordan under his rule, promoted by the Iraqis--and 
they can be very, very unpleasant--this would be an immediate 
threat to Israel, and Israel will respond. That is the linkage 
that worries me.
    Senator Hagel. Thank you.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Mr. Chairman, I regret very much that my 
schedule was such that I have not been able to be here with you 
through the day, but I want to commend you for scheduling these 
hearings at a very busy period just before the recess. I think 
it is extremely important that you have undertaken this effort, 
and we are having another full day tomorrow, as I understand 
it, and that you are also contemplating resuming the hearing 
process when we come back in September.
    I think it is imperative that we have launched on this 
enterprise. Every day we get a new report in the national press 
about U.S. policy toward Iraq and its implications. We had a 
headline in the Washington Post, ``Some Top Military Brass 
Favor Status Quo in Iraq, Containment is Seen Less Risky Than 
Attack.''
    Another in the New York Times just yesterday, ``Profound 
Effect on Economy Seen in a War on Iraq, U.S. May Bear Most 
Costs, Experts Weigh Likelihood of an Oil Price Shock, Another 
Disruption of Markets,'' and then even today the Times had its 
lead story, ``Air Power Alone Cannot Defeat Iraq, Rumsfeld 
Asserts, Secretary Side-Steps Question of Sending in U.S. 
Ground Forces to Oust Hussein,'' which then, of course, draws 
you into the debate, can you do it with air power alone, or can 
you not do it with air power alone, et cetera.
    Now, it seems to me imperative that there be a broader 
examination of all of these questions, and you know, this term, 
brutal regime in Iraq, raises major and complex questions for 
U.S. policy, and how they are answered will have consequences 
for the region, for our own country, and more broadly around 
the world for a long time to come, and obviously we need to 
embark on the process you have launched sooner, I think, rather 
than later. We have to have well-considered, well-informed 
policies, and we have to take into account the full measure of 
potential benefits and risks, and it has to be fully explicable 
to our people.
    In that regard, I was very much taken by the op ed piece 
that you and Senator Lugar have in today's New York Times, and 
I am very strongly supportive of the approach contained 
therein, including your statement, ``without prejudging any 
particular course of action we hope to start a national 
discussion of some critical questions.'' I think that is 
extremely important, and I therefore again commend you for 
undertaking this careful examination of the situation.
    You and Senator Lugar set out there some questions which I 
think form the framework for these hearings. What threat does 
Iraq pose to our security? How immediate is the danger? What 
are the possible responses to the Iraqi threat? Third, what are 
our responsibilities if Saddam is removed? Fourthly, what would 
it take to rebuild Iraq economically and politically?
    I know you are trying to do these panels I think focused on 
particular aspects of that question, but if I could go outside 
of that----
    The Chairman. Believe me, these guys can go anywhere you 
want them to go.
    Senator Sarbanes. Let me close by putting a question or two 
down: What would we have to undertake afterwards with respect 
to Iraq; and how long are we talking about being present; and 
what kind of resources would we have to commit?
    And as you answer that question, could you put it in the 
context of our staying power; what we have reflected on that 
question in Afghanistan. Now, you know, we went into 
Afghanistan, and we did an important military operation with 
considerable success, but we're left with problems afterwards.
    Now, how adequately are we addressing that, and how 
commensurate has our commitment been? And as you look at the 
Afghanistan situation, what questions may that raise about the 
Iraqi situation, post Saddam Hussein? That's the question I 
would like to leave at this time.
    The Chairman. That's a very good question. I'm anxious to 
know that.
    Dr. Kemp. Can I start?
    The Chairman. In any order you'd like.
    Dr. Kemp. As I understand it, the U.S. Army began 
preparations for the occupation of Germany in 1942. Currency 
was being printed for the occupation.
    I think we've got a long way to go in thinking about this 
problem of occupying Iraq. I gather tomorrow morning, you're 
going to have some very good people who have looked at this in 
great detail. So I wouldn't want to preempt anything that they 
say.
    But if you're talking about the occupation of Iraq, you are 
talking about tens of thousands of U.S. troops for a long 
period of time. Kabul is, you know, the only area that we're 
protecting in Afghanistan and that is a relatively small city. 
It is not Bagdad. It is not a city of six million.
    The idea that we can just win the war and go away would be 
extraordinarily irresponsible. The idea that there will be a 
government in waiting ready to take over the administrative 
tasks of Iraq is wishful thinking.
    And, furthermore, there may be people cheering us on, and 
I'm certain there will be, but there are also going to be a lot 
of recrimination, and a lot of violent acts will be committed 
in revenge. The southern Bagdad suburbs is predominantly Shia. 
They have been suppressed for years and years by this regime. 
They are not going to kiss and make up the day after. This is 
going to be worse than Paris in 1944 where, as you know, more 
people were killed in the 3-weeks after the liberation than 
there had been killed for many years before.
    So I think it is a very serious problem, and I am delighted 
that you are going to have a special panel on this, because it 
is the least thought through element of this extremely 
political debate that we see in the press that has been so 
oversimplified and has so underestimated the complexities of 
the problem.
    The Chairman. With the permission of my colleague, if I can 
add a complicating factor, to the extent that you spoke about 
Iran, the degree to which we settle the matter and keep peace 
in Bagdad and other places by being in place and occupied does 
not that raise the ante in Tehran that we, in fact, are seeking 
a permanent--basing a permanent station there.
    Dr. Kemp. Yes, it does. And some people, of course, would 
argue that's all to the good, because that will put the fear of 
God into the bad mullahs and the good mullahs will take over, 
but I'm not quite so confident that that's what will happen.
    The Chairman. Please, doctor, if you would follow through 
with your----
    Dr. Ajami. Well, first of all, let me just take this 
opportunity to thank Senator Sarbanes, because he's been 
looking after my pension. And for his great work on corporate 
reform, we really commend you. You're a great figure, and I 
think that if you can handle corporate reform, you can handle 
Iraq very easily.
    Now, I agree with everything that Jeff Kemp said. And I 
teach a class with Jeff Kemp, and I have been doing it for many 
years, and this is probably one of our first agreements in a 
long time.
    I think that we are going to be there in Iraq, but I don't 
think we should be frightened necessarily or we should think 
that it will be drawn out or that it will be extensive or that 
we're going to take the plunge into imperialism in a very deep 
way.
    There are several things, just in echoing some of what Jeff 
said, we want to know about Iraq. This is a country that has 
the second largest reserves of oil after Saudi Arabia. It has 
enormous social capital; it's not Afghanistan. It has an 
educated and technically competent middle class. So making a 
stand there will not necessarily be bad for us.
    I think Jeff is right; there are these grievances and 
historical accounts to be settled in Iraq. There will be things 
that we should be good at. There will be truth and justice 
commissions. There will be war criminals. There will be people 
we can't protect, and maybe even we shouldn't protect.
    So it won't be easy, but I think we operated on the 
assumption, I think, again, the chairman has given us good 
marching orders. And I think Senator Luger was very clear on 
that, as well. We have to take this and say, is this worth 
doing? Is this worth doing?
    And that's what every one of us, I think, really has to 
make--that's the decision that has to be made, whether it's in 
Wisconsin or Maryland or Connecticut or anywhere. You have to 
really argue the case and sustain the case if it's really worth 
it, that this is a very volatile part of the world. It is the 
oil supplies of the world. It is a very notoriously bad man, 
and that even though we're a reluctant empire--you know, we are 
reluctant about imperial burden. We don't undertake imperial 
burden willingly, and that's good. And when sometimes people 
say that they heard from the Joint Chiefs of Staff and they're 
against this military intervention or that military 
intervention, one is reassured that we don't have a military 
ready and eager to go everywhere and pull the trigger.
    So it's really all--that's what the national discussion is 
all about. That's what you're hearing, and that's what this 
debate is all about.
    The Chairman. Are you talking about the same numbers Dr. 
Kemp is? Are you talking about tens of thousands? And if you 
are, we're obviously talking about billions of dollars. Tens of 
thousands of troops translates, over a short period of time, as 
billions of dollars.
    Dr. Kemp. Right, but as my colleague Fouad said, there are 
ways for the Iraqi Government to pay for these troops. They 
have a lot of oil.
    The Chairman. What period of time do you envision?
    Dr. Kemp. I would think years.
    The Chairman. Five years, 10 years?
    Dr. Kemp. A minimum of 5 years, I would think.
    Dr. Telhami. Senator, first of all, let me thank you for 
looking after my interest too, as one of the constituents.
    The Chairman. Well, you guys didn't thank us for anything--
--
    Dr. Telhami. Well, you've got a problem, if you've got a 
disadvantage.
    So I'm one of the constituents----
    The Chairman. Nobody pays attention to the chairman of the 
Banking Committee, you know----
    Dr. Telhami. No, no, banking is not my----
    The Chairman. I'm joking. It's a bad joke. I'm sorry.
    Dr. Telhami. Maryland is in this case.
    I do worry about the consequences. I think it's a major 
issue to be concerned about. I don't think that any of us knows 
how the public is going to react. There is no question that the 
regime is despised; that we have no doubt about. But we should 
have no illusion that it's going to translate into a love for 
America; we should have no illusion about that. In some 
instances it may, and others it may not.
    We should also be very careful not to miscalculate in the 
early days when people do face liberation from repression and 
when they do celebrate their liberation, we may translate as a 
welcoming mat for us, and that could become a real problem. The 
Israelis made that mistake in South Lebanon, when they thought 
early on that the fact that they undermined the PLO influence 
in south Lebanon translated into a welcoming mat. And, clearly, 
that turned out that some of the same people who were happy to 
see the PLO go were then among their fiercest enemies.
    So I don't think, first of all, we know exactly how the 
public is going to react. And clearly, we could find ourselves 
in a situation where we overstay our welcome.
    Second, I think it is clear that everyone in the region is 
going to have a stake in what happens in Iraq. And those are 
people who live right next door and have resources and 
conflicts far better than we do. Be it the Turks, as Mark 
pointed out, if we don't coordinate with them, they can make 
our lives miserable. And that is true about the Iranians, and 
it is certainly true about others in the region.
    And, so, it is clear that they have resources. They have 
the interest and obviously the abilities. And therefore, 
depending on whether we coordinate, we cooperate, whether it 
works with the rest of the region in terms of coincidence of 
interest, it matters a lot.
    And finally I want to say that I do think that no matter 
what happens, even if we do have a relatively successful 
outcome in Iraq, which we all pray for, and if even--and I 
agree, by the way, with Fouad about Iraq's potential. I mean, 
clearly Iraq has tremendous potential. It is a country with an 
infrastructure, industrial history, a secularized country, oil 
resources. Clearly in 1980, actually, when it started the war 
with Iran, it stood on the verge of greatness in the region. 
And unfortunately it has been taken on a disastrous route that 
lasted for two decades and killed hundreds of thousands of its 
own people. So it has suffered a lot, but it certainly has 
potential.
    At the same time, even if the Iraqi people have a happy 
outcome, I believe that most people in the region will see this 
as American imperialism. Most people in the region will see it 
as imperialism. And whether we can live with that is a 
question.
    I mean, it may be true that the sentiment is we're 
powerful; we can do it; they're going to have to do what we 
want regardless. I think most will, undoubtedly, but think if 
you apply that same strategy and principle to your own lives in 
your social relations or domestic relations or relations with 
other people or business relations, how long that can serve 
you, if you take that attitude as a strategy of winning, that--
where you don't take the people's wishes and considerations and 
calculations into account, where you do things unilaterally 
because you're powerful enough to think that they're just going 
to have to see it your way and they will, and how much 
resentment builds up awaiting the right moment. And 
unfortunately there will be a right moment. I am not so 
optimistic about the Musharraf model in Pakistan, as some 
people have suggested earlier.
    I think I applaud Mr. Musharraf for taking the position he 
took. It was tough to do, to stand out and tell people that 
they have a choice. I agree with that. That was the right thing 
for him to do.
    I am not sure he will succeed. I am less confident he will 
prevail. And I am worried about what is going to happen 5 years 
down the road in Pakistan in relation to us and in relation to 
militancy pertaining to us. And I'm worried about Afghanistan.
    And, so, looking at that, I say to myself, do I want more 
of that in the region or should I follow a different route? 
That affects the motivation of people, that affects the 
interest people, that makes sure that my policy coincides with 
the interests of others not goes against them because they have 
to follow my lead.
    And they're a different approach, different philosophical 
approach, and I am less certain about the unilateralistic 
approach that relies on a group force as a way of getting 
through in the Middle East.
    Ambassador Parris. My colleagues have made excellent 
points, and I'm not going to try to belabor them by repeating 
them, other than to underscore what Jeff said, which is that 
this is the part of the problem that deserves the most 
attention, and you'll being doing that in detail tomorrow.
    So much of it is scenario dependent, and I think you'll 
find there is enormous opinion as to what we can expect when 
and if we finally get in there.
    But I would like to make one point and to play off 
something that Mort Halperin said.
    The Chairman. Thank him for your pension.
    Ambassador Parris. No, I'm a Virginia resident.
    The Chairman. OK, good.
    Ambassador Parris. It is to play off something that Mort 
Halperin said in the previous panel which is, to be sure that 
there will be a democratic regime in Iraq over the long term, 
we'll have to stay there for 20 years.
    And, you, Senator, asked, I think, the panel if there was 
anybody that disagreed with that statement. It's a profound 
question, and basically nobody was prepared to take it on.
    I think it merits parsing because what Mort said was to 
ensure a democratic regime over the long term. And that 
suggests that, you know, there is one quality of democracy.
    If our objective is to create the Federal Republic of 
Germany in Iraq, we may very well have to stay there as long as 
we did in Germany. But there are shades of democracy around the 
world, many of which represent close friendships and allies of 
the United States, and would be remarkable improvements over 
the status quo in Iraq. And I think it would be presumptuous of 
us to sit here and suggest that, you know, unless they meet the 
standard that we do in this country, we shouldn't--the game is 
not worth the candle.
    It seems to me that if you take a different approach, if 
you accept the proposition that there may be a different 
standard than ours, you may take less time. It may be less 
resource intensive. Some of the down sides that have been 
discussed here might be less acute.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman very much.
    Mr. Kemp, you mentioned that there is a worst-case and a 
best-case scenario, and your worst-case scenario, I'm wondering 
if there is something even worse than what you might have 
suggested.
    Dr. Kemp. Oh, probably.
    Senator Chafee. I think Dr. Telhami was kind of going down 
that road in talking about the power of the public, and if 
there is, you know, public resentment then comes repression, 
and there is a spiral that leads to something that did happen 
in 1979 in Iran. The Shah was toppled so quickly that we didn't 
even get our embassy people out and took over our embassy and 
kept them hostage. It can happen so fast.
    And is it possible that this conflagration, this 
spontaneous combustion, can take place where these regimes are 
toppled and the neighboring countries, Saudi Arabia, Syria, 
Jordan, of course, you've mentioned, and even those that aren't 
neighbors--I mean Turkey is a neighbor--or even those that 
aren't neighbors, we talked about Pakistan a little bit, is 
that possible just a spontaneous combustion of anti-Americanism 
and a toppling of regimes, which ultimately--if you want to 
talk about a worst-case scenario, is the entire oil--or the 
majority of the oil production for the world.
    Dr. Telhami. Well, there are a lot of worst-case scenarios 
but even beyond that, obviously, even in the conduct of war--I 
mean, if we're right, that if some of the panelists that you've 
heard before were right about the fact that there is 
uncertainty about the degree to which Iraq may even have 
nuclear weapons, and if we are right about the ruthlessness of 
the leader if he knows he's going to go down the drain in an 
American attack, if he knows that this is going to be a war 
against him, it's certainly the case that he's going to use 
whatever is at his disposal, because there is not going to be a 
deterrence issue anymore. He knows he's going down, and he's 
going to use everything at his disposal.
    I have no doubt that in a war, in a full war, where our aim 
is to bring down the government--and, obviously, that's going 
to be the aim of the war--that he will use everything at his 
disposal. I don't know what that is, but I have no doubt. And 
one can paint scenarios as to what these are. Maybe he doesn't 
have much, but the issue is if we think that there is 
uncertainty--there are scenarios of this sort, there are 
scenarios of preemption of attacks even prior to the American 
attacks if war is imminent. That could be done.
    But the public uprising and the revolution, it's always 
possible. And I think we have to--we have to remind ourselves 
that at the time of the overthrow of the Shah, many of our own 
government officials as well as academics argued that the Shah 
is very stable. In fact, that same year, the famous professor 
at the University of California at Berkeley, an Iran expert, 
wrote a book making the argument that Iran was one of the most 
stable countries in the world. And then we had happen what we 
witnessed.
    I don't think that that is a highly likely scenario, in 
part, because I do think that revolutions are scarce in this 
day. They just don't happen very often.
    States have learned a lot to--unfortunately, mostly through 
repressive mechanisms, but you can't rule it out. You can't 
rule it out.
    And I think none of these governments are ruling it out as 
a potential in their dealings with the contingencies that they 
have to deal with, and that is why I'm even more worried about 
the after--what happens within these countries, which is what 
is likely to be the case. It's their worry about such a 
scenario, which is going to lead to a lot more repression than 
we have seen.
    And if our aim, in part, is to popularize democracy, we 
should have no illusions. And today in the tradeoffs in 
relation to Pakistan, when we ask what do we want more, is to 
see less repression on Pakistan or corporation on the war on 
terrorism, because we have a priority of national security 
pertaining to Afghanistan, it is clear what our answer is. And 
it is likely to be the case when our priority will be to 
maintain stability in Iraq, to worry about what happens in 
Iraq, that we're going to put a lot of other priorities on the 
sideline to get the maximum corporation to be able to succeed, 
at least in an intermediate period up to 5 years or whatever it 
takes to do so.
    So we should go in with open eyes about what actually is 
likely to happen in the region in terms of dynamics when--if we 
go that route.
    Dr. Ajami. Senator Chafee, just one--I mean, on the issue--
an issue has arisen that has kind of great difference to the 
street. I'm reminded of the slogan of Kamalism. The Kamalist 
project in Turkey, the principle of it was for the people 
despite the people. Sometimes you just do things for the 
people, despite the people. You modernize them. You tell them 
the truth. You tell them about the world. So now, to the issue 
of whether these--none of the governments in this neighborhood 
that we're talking about, none of them--I repeat none--has a 
genuine modernizing project today.
    So they offer the people, if you will, this kind of road 
rage, the anti-Americanism, the anti-zionism, and they just get 
away with it. Now, there is a good answer to the question that 
Senator Chafee asked about whether these regimes could survive, 
could there be a revolution, and I think the Muslims have a 
great, great answer to that. They always would say about 
something that is completely unfathomable, only God knows. We 
don't know. We don't know. We do know the record. Here is the 
record. Al Sayad have been around now since the middle years of 
the 18th century. You'll always get the Saudis to tell you 
about that.
    The Sabas in Kuwait have been around for approximately the 
same time. The Hashamites in Jordan, in a very, very truncated 
volatile realm, have been around since 1921. And even Khaddafi 
has been around since 1969.
    And the Egyptian revolution of Nasser, Sadat and Mubarak 
has been in the saddle for now half a century, and there is no 
evidence that anyone could overthrow these governments. They 
know. That's the one thing they know is how to stay in power.
    The combined GDP, we are now told, of the Arab world is $60 
billion less than Spain, less than Spain, twenty-two Arab 
governments.
    So they don't know how to develop their population. We know 
they don't like to give them maturity, but they know how to 
stay in power. We should trust them. You know, that's what the 
game is all about.
    Dr. Kemp. Just on this, Senator Chafee, an even more worse 
case, we were worried about Soviet Union nuclear threat in both 
the 1967 war, that's gone. So to me the worst case would be a 
nuclear war in the Middle East, which is possible under certain 
circumstances. That, I think, would have a devastating impact 
on the oil markets, and then I think these regimes that up to 
now have been extraordinarily resilient would be facing a day 
of reckoning, because what we have not really discussed, 
because it wasn't their mission, but there is a demographic 
bulge moving through this region of young people who cannot be 
employed because they do not have jobs, and it's getting worse 
by the year.
    The Arab world, Iran, Pakistan, are entering into this 
window of where they have to create more jobs a year than they 
possibly have the resources to. And that's where I think you 
could get an explosion. I don't think it will be a single 
explosion. It won't be like 1848 in Europe when all the rotten 
monarchies collapsed, but sooner or later some of these regimes 
have to crack, whether it's Iran first or Egypt, I don't know, 
but they cannot keep going at this rate of degregation.
    The Chairman. Gentlemen, I hate to do this to you, but just 
a couple of more quick questions.
    Do you have another question?
    Senator Chafee. No, thank you, Mr. Chairman, and I thank 
the panel.
    The Chairman. The premise that the question--the question 
as to if Saddam is taken down, how long do we have to stay. The 
way you answered was premised upon the notion that we had no 
cooperation from anywhere else in the world, we didn't have the 
Europeans in the game, no one else got in the deal here.
    Can you give me your best educated guess, as quickly as you 
can, as to whether or not given that circumstance, that is, 
Saddam has been removed, American forces are in the region in 
large numbers where it may be part of the calculous of our 
European friends in the EU that they be part of the process. 
And would it make a difference if they not--it would, 
obviously, make an economic difference to us, but would it make 
a difference if they were part of the process in terms of the 
reaction in Iran, the reaction in Turkey, the reaction in other 
parts of the world, of that part of the world? As quickly as 
can you, it's an awful long--I mean, a profound question----
    Dr. Kemp. It would make a very important difference if part 
of the occupation force also includes bringing in UNMOVIC, the 
U.N. inspectors that you had discussed this morning, that would 
also give more legitimacy to it.
    The more this is seen as an international operation with 
cooperation from the U.N. and the Europeans, the less the 
chance that we will be pigeonholed as merely imperialists, but 
we've got a lot of work to do.
    The Chairman. Now, the second, I think more difficult 
question that, at least, I haven't resolved, is what do you 
believe would be the calculous that our European friends would 
engage in to determine whether or not it was in their interest 
to participate?
    Dr. Ajami. I think, you know, their logic would be if we 
succeed, we succeed together; if we fail, we fail alone. I 
mean, I'm reminded of, like, soon after September 11, Le Monde 
had this famous headline, ``Tous Americains''; we're all 
Americans. And a few weeks later, it became Tous Americains 
with a question mark. All Americans, not quite, that they 
believe that we were using September 11 as a way of expanding 
our authority in the world and in the region.
    I think Iraq is rich; we go back to that. Iraq is a good 
market. And I think when we go in, a lot of these countries 
will come with us, because they'll want to be part of the 
reconstruction of Iraq.
    I mean, this will be fundamentally important for the 
French. It would be important for the Russians. It would be 
important for the Brits, and for others, and for the Germans, 
so I don't think we will necessarily be alone.
    It's just the fate of a great power sometimes to be alone 
when the hard work has to be done.
    The Chairman. Quite frankly, if I had a choice of being 
alone after the hard work was done, the way you phrase it----
    Dr. Ajami. Yes.
    The Chairman [continuing]. Or being alone, getting the hard 
work done, I would rather be alone getting the hard work done, 
because I think the really hard work is done after.
    Dr. Telhami. But let's have a little word of warning, 
though, Senator, which is that these are democratic countries 
we're talking, about----
    The Chairman. Right.
    Dr. Telhami [continuing]. We're not talking about the 
Middle Eastern countries.
    The Chairman. I agree.
    Dr. Telhami. We're talking about countries that are 
differentiated, that have their own domestic considerations, 
and in that regard, if you look at public opinion so far, only 
in Britain is the public about evenly divided on Iraq. There is 
not a single country in which there is a majority support for 
entering Iraq. Most countries----
    The Chairman. I would suggest that was the case in Bosnia 
and they all came along after the fact. I remember pushing 
President Clinton very hard, as hard as I politely--well, as 
hard as I could, politely or otherwise, about moving to bomb in 
Kosovo. And he said what about the French? I said, I promise 
you if you go, they'll come.
    Quite frankly, I'm more uncertain about it as it relates to 
Iraq. My instinct is that--and, again, I'm not the expert, 
that's why we have you here--but my instinct Professor Ajami, 
is that if we succeed, they will be willing to take a piece of 
this.
    Dr. Ajami. Yes.
    The Chairman. I would--let me ask you if there is any 
parallel here.
    I was very disappointed, and I have been public about this, 
in the failure of this administration to expand ISAF in 
Afghanistan, especially on what I believe are not completely 
accurate grounds that the Europeans weren't ready to.
    The Europeans--and I spent time there. I spent time with 
the Europeans. They were totally prepared to, until we said we 
wouldn't be part of it. And as one European said, ``if the big 
dog's not there, the little dogs don't want to play.''
    And, so, I was under the distinct impression in everything, 
and I have followed this very closely, that had we been willing 
to lead, to expand ISAF, not even with numbers, just lead with 
commitment, that ISAF--we would have gotten significant support 
from Europe to expand ISAF in raw numbers.
    Is that able to be--can you extrapolate from that that a 
similar--assuming a military success in Iraq, is there any 
relevance to the willingness in Iraq--I mean, in Afghanistan 
and what they may be able to do in Iraq?
    Dr. Kemp. Well, I would just say that if we're not prepared 
to go much further in Iraq than we have gone in Afghanistan, 
we're doomed from the start.
    The Chairman. I agree.
    Dr. Kemp. So that I think the Europeans would argue you're 
going to have to get in in a big way, and we ultimately are 
going to have to help you. And one important reason is they 
would see this as a way to help diffuse then the Arab/Israeli 
conflict, which in the last resort, the Europeans worry about 
primarily because of migration and the whole string of European 
issues which we haven't gotten into today. So if we don't lead 
in Iraq, then it's all over. It's a hopeless case.
    Ambassador Parris. Unfortunately many of them will be 
worried about the splitting of the spoils of war. I have no 
doubt about it. I think that the issue of the oil contracts is 
going to become an issue in the thinking of a lot of them, and 
I think, you know, that is going to be part of the calculous.
    The Chairman. I argue that's the way--I don't know why this 
isn't a win/win situation with the Russians. I mean, I actually 
had a conversation that he has not dissuaded me from mentioning 
with President Putin. You know, they think they've got tens of 
billions of dollars waiting in the bank in terms of developing 
those oil fields, which they can't develop. They're also owed 
about $11 billion. I thought it was nine. When I said nine, he 
looked at me and he said 11.
    It's a little bit like having a very rich aunt that you 
don't like, and you know she has $40 million in the bank. You 
may not have a relationship with her, but you're not going to 
give up on her knowing she has it in the bank.
    These folks have it in the bank. And there was even a 
feeler put out by Gazprom and--what's the other oil company----
    Dr. Kemp. Lukoil.
    The Chairman [continuing]. Lukoil that they would be 
interested in a consortia with U.S. companies.
    One of the things I found the Russians were worried about 
is we go in, take out Iraq, they lose their contracts. I can't 
imagine why this isn't a win/win situation if we were smart 
about this. But I don't get any sense that there is any 
movement on this by anyone in the administration.
    Ambassador Parris. I think one of the problems is a 
structural one. And it's certainly the case with Turkey up 
until very recently, which is that if you're talking point is 
there is no plan on the President's desk, and you're not 
prepared to go beyond that, you can't get very deeply into 
conversations with people who would just as soon, frankly, not 
accept the premise in the first place. I mean, the Turks and 
others, I'm sure, are not standing in line to talk about the 
day after.
    And you'll only get their attention when you're prepared to 
describe, in some detail, what you're going to do, in what 
timeframe, and what your vision of the day after is.
    The Chairman. I kidded the President when he asked what I 
would do. I said Mr. President, part of this is the vision 
thing, and I'm not sure what the vision should be.
    Gentlemen, with your permission, I have, rather than take 
more of your time, it's almost 7 o'clock, you've been so 
patient and helpful, I have about two or three questions I 
would like to submit to each of you in writing. There is no 
urgency in terms of getting them back, and I would ask you 
publicly, to embarrass you into having to say yes, would you be 
willing to come back if we continue this process?
    Dr. Kemp. Yes.
    Ambassador Parris. Be glad to.
    Dr. Ajami. It would be a great honor, Mr. Chairman.
    The Chairman. I thank you all very, very much, and we are 
adjourned.
    [Whereupon, at 6:50 p.m., the committee adjourned, to 
reconvene at 10 a.m., August 1, 2002.]


  HEARINGS TO EXAMINE THREATS, RESPONSES, AND REGIONAL CONSIDERATIONS 
                            SURROUNDING IRAQ

                              ----------                              


                        THURSDAY, AUGUST 1, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:25 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Sarbanes, Dodd, Feingold, 
Wellstone, Boxer, Bill Nelson, Rockefeller, Lugar, Hagel, 
Frist, and Brownback.
    The Chairman. The hearing will please come to order.
    Yesterday, the Foreign Relations Committee began what I 
hope will be a national discussion on Iraq. Let me say, again, 
how pleased and grateful I am for the cooperation of my 
Republican colleagues, starting with Senator Helms, in 
absentia, and his staff, and Senator Lugar and Senator Hagel, 
for putting these hearings together. This has been a team 
effort. This is not me sitting down with a witness list and 
saying here we go.
    As with yesterday we have coordinated these hearings with 
the White House. Let me explain what I mean by coordination. 
We're a separate and equal branch of the government. We are not 
asking permission of anybody to have any hearing, but we did 
ask them for their input. We asked them for their input as we 
debate and discuss this very difficult question the President 
has to resolve, and they have been very cooperative.
    We are honoring their desire not to testify at this time, 
but I do not want to put the President in the position of 
having to make any of these critical decisions prematurely. I 
take him at his word, their word, the administration, that this 
is a process that's entrained and hopefully our hearings can 
help them elucidate their discussions and their decision 
process, as well.
    Yesterday, we addressed three critical questions, among 
others. First, what is the threat from Iraq? Second, depending 
on the assessment of that threat, what is viewed as the 
appropriate response to the threat? And, third, how do Iraq's 
neighbors and our allies see the problem in Iraq?
    We had excellent, excellent testimony from our panels 
yesterday, but the one area in which I think we need 
considerably more discussion, as well, is how Iraqi's neighbors 
and our allies view the problem of Iraq. We heard a wide range 
of views from an exceptionally thoughtful group of witnesses 
spanning the spectrum of points of view. I'm not sure we 
reached many definitive conclusions, but I am convinced we're 
asking the right questions. And to get the answer, you have to 
ask the right question first.
    We are, I hope, shedding some light on an important and 
complex problem that the President faces, as well as the 
Congress and the American people. Again, I'll reiterate, I 
truly believe, and I think all of my colleagues do, that a 
foreign policy will not be sustained, particularly if it calls 
for the expenditure of American treasure and blood, 
potentially, without the informed consent of the American 
people.
    Today, we'll address a fourth question, and that's not to 
suggest that our incredibly qualified panel of witnesses is not 
free to speak to any other issue, as well. We've attempted to 
ask the panels to come to address a specific question, not 
because we think that's the only question they're competent to 
respond to, but because we want to order this some way at the 
outset.
    And one question that I think is the least explored--and, 
as a matter of fact, spontaneously to it, and this is 
yesterday, said they thought it was the least explored, as 
well, and perhaps the most important. If we participate or if 
we are the only participant in the departure of Saddam, what 
are our responsibilities, if any, the day after? This is an 
issue we've already been grappling with, and you heard 
discussion in the Executive Committee meeting, on Afghanistan. 
We are openly discussing it after a successful military action 
in Afghanistan.
    As I've said many times before, our military did a 
remarkable job in prosecuting the war in Afghanistan. But, as 
you could hear from the discussion here today and the vote here 
today, there is at least a consensus that, in some part, we may 
be falling short--may be falling short of the mark in winning 
the peace. The peace is a lot harder to win than the war.
    We're not doing nearly enough, in my view, to secure 
Afghanistan so that it can be rebuilt and so that it does not 
again become a haven for terrorists. I'm pleased to announce, 
however, that what you've just noticed just a few minutes ago, 
that I think we've got a pretty strong consensus here to 
encourage the President, knowing that he has our support, to go 
beyond Kabul with an international security force.
    In Iraq, we can't afford to replace one despot with chaos. 
The long suffering Iraqi people need to know the regime change 
will benefit them. We heard that from every witness yesterday. 
So do Iraqi's neighbors. And the American people will want that 
assurance, as well.
    Already yesterday many of our witnesses talked about the 
critical importance of thinking through the day after well in 
advance of the day of, and even the day before we act in Iraq. 
Today we'll look at this issue in greater detail. We want a 
better understanding of what it would take to secure Iraq and 
rebuild it economically and politically. I don't mean all by 
ourselves, but that may be the position we put ourselves in.
    So what does it mean if it's all by ourselves? We need to 
know how many U.S. forces will be required to stay, how long, 
and for what purpose. We should consider the prospects of 
establishing a stable and democratic state, but maybe a stable 
and not-so-democratic state, and a democratic political order 
in Iraq, and what role the Iraqi opposition might play in that, 
and what role might, as I've had the great pleasure of having 
some of the witnesses here today brief me privately over the 
last month, as I did the--several panels before, and I know 
there's some discussion among them and among experts in the 
region as to the prospect of participation with the civil 
servants that exist within Iraq, the military that exists 
within Iraq, how willing they'd be willing to--some argue that 
this could be done very readily, because we'd have overwhelming 
help. Others suggest that it would not be done very readily at 
all. Others suggest that it didn't have to be paid for by us. 
Iraq's a wealthy country; they could fund this themselves--our 
presence, they could fund there, and so on.
    So these are all questions that are vitally important to 
our interests, and we have, I think, put together, with the 
help of Senator Helms, his staff, and the White House, requests 
from them, as well as our staff, some very, very significant 
witnesses today.
    So I welcome them, and I would now ask Senator Hagel if he 
would like to make any opening statement. And after that, I 
would move to introduce the witnesses and begin discussion.
    Senator Hagel. Mr. Chairman, thank you. I do have a 
statement, which I will ask to be included in the record. And 
since we are on a limited track here with votes coming, I would 
suggest we go right to the witnesses.
    Thank you very much.
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    I would like to congratulate the Chairman and the Ranking Member 
for holding these timely hearings on Iraq. I agree with my colleagues 
that we need a national dialogue on what steps we should take to deal 
with the threat posed by Saddam Hussein's Iraq. Americans need to be 
informed about the complexities and consequences of our policies in 
Iraq.
    I look forward to listening to and learning from the distinguished 
witnesses before us today about the nature and urgency of the threat we 
face from Iraq, including their evaluations of what the best policy 
options may be for meeting this threat; the prospects for a democratic 
transition after Saddam Hussein; and what the implications of our 
policies in Iraq may be for the stability of the Middle East and our 
security interests there.
    Much of the debate by those advocating regime change through 
military means have so far focused on the easy questions. Is Saddam 
Hussein a ruthless tyrant who brutally oppresses his own people, and 
who possesses weapons of mass destruction that have the potential to 
threaten us, his neighbors and our allies, including and especially 
Israel? Yes. Do most Iraqis yearn for democratic change in Iraq? Yes, 
they do. Can Saddam be rehabilitated? No, he cannot.
    In my opinion, complicated and relevant questions remain to be 
answered before making a case for war, and here is where these hearings 
will play an important role. What is the nature, and urgency, of the 
threat that Saddam Hussein poses to the United States and Iraq's 
neighbors? What do we know about Iraq's programs of weapons of mass 
destruction? There have been no weapons inspectors in Iraq since 
December 1998. Is Iraq involved in terrorist planning and activities 
against the United States and U.S. allies in the Middle East and 
elsewhere?
    What can we expect after Saddam Hussein in Iraq? What do we know 
about the capabilities of the opposition to Saddam inside Iraq? While 
we support a unified and democratic opposition to Saddam Hussein, the 
arbiters of power in a post-Saddam Iraq will likely be those who reside 
inside, not outside, the country. And these individuals and groups we 
do not know. Who are they? And where are they? These are the Iraqis we 
need to understand, engage, and eventually do business with.
    What will be the future of Iraqi Kurdistan in a post-Saddam Iraq?
    How do we accomplish regime change in Iraq given the complexities 
and challenges of the current regional environment? The deep Israeli-
Palestinian conflict continues; our relations with Syria are proper 
though strained; we have no relationship with Iran; Egypt, Saudi 
Arabia, Turkey, and Jordan have warned us about dangerous unintended 
consequences if we take unilateral military action against Iraq; and 
Afghanistan remains a piece of very difficult unfinished business, an 
unpredictable but critical investment for the United States and our 
allies.
    I can think of no historical case where the United States succeeded 
in an enterprise of such gravity and complexity as regime change in 
Iraq without the support of a regional and international coalition. We 
have a lot of work to do on the diplomatic track. Not just for military 
operations against Iraq, should that day come, but for the day after, 
when the interests and intrigues of outside powers could undermine the 
fragility of an Iraqi government in transition, whoever governs in Iraq 
after Saddam Hussein.
    An American military operation in Iraq could require a commitment 
in Iraq that could last for years and extend well beyond the day of 
Saddam's departure. The American people need to understand the 
political, economic, and military magnitude and risks that would be 
inevitable if we invaded Iraq.
    There was no such national dialogue or undertaking before we went 
into Vietnam. There were many very smart, well intentioned 
professionals, intellectuals, and strategists who assured us of a U.S. 
victory in Vietnam at an acceptable cost. Well, eleven years, 58,000 
dead, and the most humiliating defeat in our nation's history later we 
abandoned South Vietnam to the Communists.
    Let me conclude by saying that I support regime change and a 
democratic transition in Iraq. That's easy. The Iraqi people have 
suffered too long, and our security and interests will never be assured 
with Saddam Hussein in power. The tough questions are when, how, with 
whom, and at what cost. I look forward to the testimony of our 
witnesses over the next two days on these critical questions.

    The Chairman. Well, a couple of our colleagues indicated, 
because they weren't able to be here yesterday, they'd like to 
make a, quote, ``brief statement,'' and I would yield to any 
colleague who feels they want to do that right now.
    Senator Sarbanes.
    Senator Sarbanes. Well, Mr. Chairman, I'll be very brief, 
because I'm, along with everyone else, anxious to hear these 
witnesses.
    I just want, again, to commend you for scheduling these 
hearings.
    The Chairman. You can take more time, then.
    Senator Sarbanes. I know this is a very busy period before 
the recess, but I think it's extremely important that we've 
undertaken this effort. The New York Times, only a couple of 
days ago, had an editorial entitled ``Filling in the Blanks on 
Iraq,'' and it began with this sentence, ``With the Bush 
Administration openly threatening to overthrow Saddam Hussein, 
a public airing of the pros and cons of intervention is long 
overdue. Thanks to the Senate Foreign Relations Committee, 
which has planned hearings about Iraq this week, that national 
discussion may finally commence.''
    And it has, indeed, commenced, and that editorial 
concluded--and I just want to read this into the record, 
because I think what's being done here is very important, and I 
think your efforts in bring this about are extremely 
significant--``Wisely, Senate Republicans have worked closely 
with the Democratic committee chairman, Joseph Biden, in 
planning this week's hearing. The White House has been 
similarly cooperative. Further exploration of these issues will 
be needed after the Senate returns from its August recess. 
Before any major decisions are taken, the Nation needs to learn 
as much as it can about the available choices on Iraq and their 
likely consequences.''
    And these hearings which you've launched are obviously 
intended to do that. In fact, you and Senator Lugar had an 
article in the New York Times yesterday--just yesterday and, in 
the course of which, you said, ``Without prejudging any 
particular course of action, we hope to start a national 
discussion of some critical questions,'' and I think it's very 
important to have that national discussion. I think the way 
you've structured it, in terms of the questions that have been 
outlined to be addressed, provide a structure and a format for 
this discussion. I'm very happy to participate in it, but I'm 
particularly pleased to acknowledge, the very significant 
leadership you're exercising on this very important issue.
    The Chairman. I thank you, Senator.
    Senator Dodd.
    Senator Dodd. Well, Mr. Chairman, I just want to make sort 
of the same comments. I've been on this committee 21 years, and 
this is what this committee was designed to do. And, 
unfortunately, we haven't done it enough over the years. And 
the fact that we're doing it here is tremendously worthwhile 
and valuable. It's the reason why there is a committee process. 
It's the way that foreign policy ought to be conducted, in a 
partnership with the Congress. And so I want to add my voice to 
that of Senator Sarbanes in thanking you and Senator Lugar and 
others, the administration, for allowing this to go forward and 
doing it in such a cooperative fashion.
    And it was tremendously instructive yesterday. I found the 
hearings--I couldn't attend, unfortunately, some of the 
afternoon, but the ones that I watched on television or the 
ones I participated in I just think were tremendously 
worthwhile and already is having, I think, a very worthwhile 
and beneficial impact on the decisionmaking process.
    But just--while some of the conclusions--obviously we 
haven't formed any firm ones, but I thought some conclusions 
about how we ought to approach this were tremendously 
worthwhile. And, just very briefly, I wrote down some of them.
    First, that we shouldn't underestimate the capability of 
the Iraqi military. I think we all agree with that today. Then, 
second, we should understand that the undertaking of any effort 
to oust Hussein will be extremely difficult without the support 
of the international community. I think, again, we all sort of 
agreed, that's a given. Third, that the U.N. inspections, when 
it was functioning, was successful and having some effect on 
the quality and quantity of weapons of mass destruction that 
are accumulated. That efforts to contain Hussein through the 
reintroduction of U.N. weapons inspectors is still worth 
trying, particularly of Russia and the French, but particularly 
if Russia would be involved. That seriously exploring the 
reinstatement of the inspection option may build in national 
support. We shouldn't abandon that idea. Don't necessarily have 
to jump to it, but I thought that was very worthwhile and 
tremendously helpful. And, finally, once the inspections option 
is no longer perceived by our allies to be a viable response to 
Saddam Hussein, then the international community would be more 
amenable to come together and support the use of force if 
that's the decision.
    So I just want to thank you and than others, thank our 
witnesses, as well. We had terrific witnesses yesterday. I'm 
assuming nothing less than that today from the panel that's 
here, and I think the question we're raising about the day 
after is very, very important. And the debate and discussion 
that preceded this, I think, makes the point, as you've done 
already.
    The Chairman. Knowing this panel, I can assure you that 
they are as confident and as good.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I want to thank, again, in absentia, Ambassador Butler for 
getting on a plane and flying 24 hours from Sydney, Australia 
to testify at yesterday's hearing, which was very worthwhile. 
He has been always--sometimes controversial, always incredibly 
straightforward. I thought his testimony was a good lead-off 
yesterday.
    Today, we have a very significant panel. Dr. Phebe Marr has 
spent 40 years as a scholar and analyst of Southwest Asia and 
is a leading U.S. specialist on Iraq. Until 1998, she was 
senior fellow at the Institute for International Strategic 
Studies at the National Defense University. She retired from 
the U.S. Government in 1997.
    She is the author of ``A Modern History of Iraq.'' I 
recommend it to you. I have not read it all. I have read giant 
chunks of it. I must tell you, there's nothing like an 
appointment to focus one on the mission. She was kind enough to 
come in to brief me with others last week, and I spent time 
trying to make sure I knew what she had written before she came 
in. And I didn't get all the way through it, professor, but I 
got close--or doctor.
    Ms. Rend Rahim Francke is a founding member and the 
executive director of the Iraq Foundation, a nonprofit 
organization that promotes democracy and human rights in Iraq, 
and we thank her for being here, as well.
    And Dr. Al-Shabibi--am I pronouncing it correctly? You can 
call me Bidden if I'm not, doctor--is an expert on the Iraqi 
economy, currently serves as an advisor to the United Nations 
in Geneva, Switzerland. He served in Iraq's Ministry of 
Planning from 1997 to 1980, and in Iraq's oil ministry from 
1975 to 1977. Dr. Al-Shabibi has traveled from Geneva, 
Switzerland, to testify, which puts him right up there with 
Butler for having made the long-distance effort to be here. We 
appreciate your traveling such a distance and to share your 
experience and your thoughts with us, doctor, and we're anxious 
to hear you.
    And Colonel Scott Feil, he served in Desert Storm from 1990 
to 1991. He received a Purple Heart. He was chief of the 
Strategy Division of the Joint Staff from 1999 to 2000. He's 
now executive director of the Role of American Military Power 
Program at the Association of the United States Army. His 
responsibilities include co-directing a program for post-
conflict reconstruction.
    I welcome you all here today, and we have just--actually, 
gentlemen, we just had a 15-minute vote start. Rather than us 
doing this piecemeal, in respect to the witnesses, maybe we 
should all go and vote and then come back. It'll take us about 
7 to 10 minutes to do that, and then we won't have you seeing 
us get up and in and out and it's--we're like Pavlov's dog. 
When that bell goes off, we have to go and vote.
    So we will recess for 10 minutes, be back, and we'll start 
with you, Dr. Marr, when we come back.
    The committee is in recess.
    [Recess.]
    The Chairman. The hearing will come to order.
    Thank you for your indulgence. Hopefully we won't have many 
interruptions, as we did yesterday.
    Dr. Marr, again, welcome, and the floor is yours.

STATEMENT OF DR. PHEBE MARR, FORMER PROFESSOR, NATIONAL DEFENSE 
                   UNIVERSITY, WASHINGTON, DC

    Dr. Marr. Thank you, Mr. Chairman and the committee, for 
the invitation to testify. I would like to add my voice to 
others in thanking you for this wonderful opportunity to 
generate a public discussion on the issues involved in this 
critical foreign-policy decision.
    Our panel has been asked to examine what we can expect in 
Iraq after Saddam if the United States should be successful in 
achieving his fall. I would like to focus on two key issues 
that will be critical for U.S. planning in post-Saddam Iraq. 
The first is the potential for fragmentation or fracturing once 
Saddam's regime is decapitated and, along with it, the 
potential for outside interference from Iraq's neighbors. The 
second is the issue of providing alternative leadership for 
Iraq.
    Let me say at the outset that I regard the replacement of 
Iraq's leadership as a serious and very ambitious project. The 
decision to do so is difficult because the potential benefits 
to Iraq, to the United States and to the region are 
substantial. But so, too, are the possible costs and unintended 
consequences. If the United States embarks on this project, it 
needs to be prepared to see it through to an acceptable 
outcome, including, if necessary, a long-term military and 
political commitment to assure a stable and more democratic 
government. If it is not prepared to do so, the intended 
benefits could vanish.
    Let me turn to the issue of fragmentation. Incidentally, in 
my prepared remarks, I have included a map of Iraq which might 
be helpful, together with a great deal more information than 
I'm going to give you here. As we know, Iraq is a multi-ethnic, 
multi-sectarian country with boundaries that were imposed by 
foreign powers at the time of its formation in 1921. It has 
three main demographic components consisting of the Kurdish-
speaking population in the north, about 17 percent, the Arab 
Shia in the south, about 60 percent, and the Arab Sunnis in the 
center, somewhere between 15 and 20 percent. These are sketched 
on the map.
    For over 80 years, these communities have coexisted and, to 
varying degrees, have participated in the process of building a 
state and a nation. That process, while well underway, is still 
incomplete. Under the current regime, a narrowly based Arab 
Sunni community uses repression to enforce its rule over all 
communities; hence, the fear that if the regime is removed, the 
country will fragment into its ethnic and sectarian components.
    How accurate is that assessment? First, in my view, it is 
very unlikely--indeed, inconceivable--that Iraq will break up 
into three relatively cohesive components, a Kurdish north, a 
Shia south, and an Arab Sunni center. None of these communities 
is homogenous or shows any ability to unite. Moreover, in many 
cities--Baghdad, Mosul, Basra--the communities are thoroughly 
mixed. Most important of all, the overwhelming majority of the 
population, except possibly for a few Kurds, has consistently 
shown a strong desire to keep the state together and profit 
from its ample resources.
    However, the removal of the regime, under certain 
circumstances, could result in a breakdown of the central 
government and its ability to exercise control over the 
country. There are two dangers here. The first is short-term. 
If firm leadership is not in place in Baghdad on the day after, 
retribution, score-settling, and bloodletting, especially in 
urban areas, could take place.
    On a broader scale, without a firm government, parochial 
interests could take over both in the north and the south and 
the center. The Kurds, for instance, could seize Kirkuk with 
its oil fields, establishing a new reality in the north. The 
Arab Sunni clans, who control military units, might struggle 
for power in Baghdad. The Shia party, the Supreme Council for 
the Islamic Revolution in Iraq, SCIRI, located in Tehran, could 
send units of its militia across the frontier and attempt to 
gain control of areas in the south.
    Such a collapse of authority could trigger interference 
from neighbors. Turkey could interfere in the north, as it's 
done before. Iran, through its proxies, could follow suit. 
There could even be a reverse flow of refugees, as many Iraqi 
Shia exiles in Iran return home, possibly in the thousands, 
destabilizing areas of the south.
    And, over the long term, if a new government in Baghdad 
fails to take hold, if it is not more inclusive of Iraq's 
communities and acceptable to the population, Iraq could 
gradually slip into the category of a failed state unable to 
maintain control over its territories and borders. This is not 
the most likely scenario, but it is a little more likely than a 
decade ago. While most Iraqis do want the unity and territorial 
sovereignty of their state, their sense of identity as a nation 
has eroded under the Ba'th, and, in my view, is weaker than at 
any time since 1945.
    In some respects, the state is already in the process of 
failure and needs revival. The Kurds have been governing 
themselves for over a decade, for example. While the Kurdish 
leadership is realistic about its prospects for independence--
they are nil--and willing to live in Iraq under some federal 
identity, their Kurdish identity and aspirations for self 
government have increased.
    In a post-Saddam Iraq, it's going to be more difficult to 
integrate the Kurds into Iraq proper. The Shia population has 
been in a constant state of decline for over the past two 
decades from wars, revolution, and government repression. The 
1991 rebellion, which was widespread in the south, showed the 
extent of Shia alienation. And since that time, a sense of Shia 
identity has increased.
    However, despite considerable alienation from the 
government, the Shia have no discernible leadership or 
organization inside Iraq, unlike the Kurds. Moreover, there's 
no real Shia desire for separation. Rather, the Shia want a 
greater--indeed, a dominant--share of power in Baghdad 
commensurate with their numbers.
    While the Shia are not likely to break away, holding Iraq 
together will require new leadership in Baghdad capable of 
incorporating all communities into the decisionmaking body in 
Baghdad. How likely are they to get it?
    Now, I'd like to turn to the ``center'' and the issue of 
alternative leadership. It's generally assumed that if new 
political leadership emerges inside Iraq, it will have to come 
from the center. That's a term used to denote the central 
government in Baghdad, but it's also employed in a geographic 
and demographic sense to refer to the Arab Sunni triangle 
stretching from Baghdad to Mosul in the north and to the 
borders with Jordan and Syria in the west, the region from 
which the regime recruits its leadership. It's this center and 
this Arab Sunni minority that has dominated Iraq for decades, a 
pattern that is difficult to break.
    I think the issue of alternative political leadership is 
critical, probably the critical issue in post-Saddam Iraq. At 
the moment, there is no visible alternative leadership inside 
Iraq. There may be potential leaders, but they cannot emerge or 
demonstrate their leadership for reasons that are obvious. So 
we can only speculate on the sources of such leadership and the 
constituencies they could mobilize.
    One problem is already clear, however. If this leadership 
emerges from inside the regime or its support system, through a 
coup, for example, will this new leadership bring a real change 
in orientation, political culture, or even foreign policy? Will 
it be sufficient to get support from the bulk of the population 
or even to meet U.S. requirements? Or will they simply bring us 
a modified version of what we already have?
    The outside opposition has a multitude of leaders vying 
with one another, they've been doing so for years. The key 
figures and groups are fairly well known to you, I think. They 
include Ahmad Chalabi and the Iraq National Congress, the 
Hashimite, Sharif Ali bin al-Husain, the Iraq National Accord, 
presumably closest to the Ba'thists, SCIRI, the main Shia 
contender in Tehran, numerous generals who have defected, and 
the two main Kurdish parties in control of real estate in the 
north of Iraq.
    The main problems with the outside opposition are also 
clear. They're fractious, they've been unable to coalesce 
around a mainstream candidate, and they have little or no 
organization inside Iraq. The Kurds do have an organization 
inside, but they are unwilling and unable to take a leadership 
role in Baghdad. Their interest is self government in the 
north.
    The main constituency of the outside opposition, as has 
been often remarked, is Washington. This raises a paradox. Many 
of these outside leaders have demonstrated leadership skills. 
They're Westernized. They generally support U.S. aims, and they 
are the most likely to bring change to Iraq, but they will have 
to be put in power by the United States and supported by us 
over some considerable time if the changes they, and we, 
envisioned are to be maintained. And as Western-supported 
elements, their legitimacy may soon be questioned.
    I would like to turn to the ``inside'' leadership. In order 
to give us some sense of what we may get, I'd like briefly to 
describe the three current pillars of the regime from which 
this leadership could emerge.
    The first is the kin and clan network that dominates most 
institutions, particularly the security organs and the 
military. Saddam, as we know, has maintained power by putting 
his kin and clan in these functions. Together with neighboring 
clans from the Sunni Arab triangle they have developed an ever-
thickening network of kin and clan relations in these leading 
institutions. Even when Saddam's immediate family is removed, 
these clan groups will remain, and so will the kinship ties 
that bind them.
    Alternative leadership may, indeed, arise from these 
related clans. The key issue here is whether such a leader 
would be able or willing to go beyond clan politics or whether 
such a change would be acceptable to the non-Sunni population 
and even the educated urban Sunni middle class that functions 
outside this system.
    The second pillar of the regime rests on the institutions 
of state, the Ba'th party, various components of the military, 
the bureaucracy, and the educational establishment. These are 
recruited from a broader base and include Shia and Kurds as 
well as Sunnis. At secondary levels, these institutions are 
peopled by an educated middle class. Some are potential sources 
of leadership.
    The Ba'th party is one. It may not survive Saddam's 
collapse, but the party cadre will. The problem here is that 
amongst this group is a deeply ingrained attitude toward power 
and authority that will persist. And so, too, will the strong 
nationalist attitudes that have been the party's backbone.
    The military is the most likely source of change, although 
the military is not a single institution. The regular army is 
probably the military component with the greatest sense of 
independence and distance from the regime. Unfortunately, it's 
also the weakest.
    Republic Guard units, though presumably more loyal to the 
regime, may welcome a regime change, as well. Both the Republic 
Guard and army officers may provide alternative leadership. But 
here, too, the question is, how much change will they bring. 
How willing will they be to embrace U.S. requirements?
    The bureaucracy and the education establishment will 
inevitably provide leadership for any new regime, but only at 
secondary levels. These institutions are unable to provide the 
leadership at top political levels. They do not have the muscle 
to affect a change, and they both represent a cadre that is 
used to obeying orders, not giving them. The education 
establishment, in particular, has been Ba'thized. The 
bureaucracy can be used by whatever leadership is installed. 
Indeed, it will have to be used. But it may need several years 
of reeducation and redirection.
    The regime is also supported by an economic elite often 
referred to as an economic ``mafia.'' It is the product of the 
state's control of oil and other resources which the regime 
distributes through a patronage system. While this group may 
provide some support in reviving the economy, it cannot be 
expected to provide alternative political leadership. In fact, 
it's not a true private sector, independent of the state. 
Indeed, one of the best changes that could be introduced would 
be to separate this economic class from the state and move 
toward the creation of a true and more independent private 
sector.
    This survey of Iraq's current political direction leads me 
to several conclusions. One is that after years of repression, 
the Iraqis are ready--indeed, eager--for change. They seek the 
preservation of their state and its future development as a 
nation, but they have had no experience of democracy, only of a 
police state, hence the building blocks of democracy will have 
to be created, including a reorientation of attitudes and 
practices. This will take time.
    I suggest that there are three potential options open to 
the United States in bringing about leadership change. The 
first is to pressure those inside to change the regime 
themselves. The most likely source of change, if Iraqis are 
left to accomplish the deed themselves will be the center--from 
kin and clan groups, from the military, or, less likely, the 
party. This will be the least expensive option for the United 
States in terms of troops and political investment, but it will 
probably bring the least change. It is also likely to be the 
most destabilizing. It could lead to a struggle for power in 
Baghdad, the erosion of central control, and a gradual 
breakdown of national unity.
    Inside leadership is most likely to move against Saddam if 
it decides the United States is serious about occupation, but 
the United States will need to support this new leadership to 
prevent fracturing. If the United States is unsure of the new 
leadership, if it cannot give it immediate support, the United 
States could lose control of the situation. Identifying 
potential inside leaders now and making U.S. requirements clear 
and public beforehand would help avoid this slippery slope.
    The second option, is to introduce the outside opposition 
as alternative leadership. This would produce the most change 
inside Iraq in the directions desired by the United States. But 
this is the most difficult and costly option. The United States 
would have to install and support this opposition with troops 
over some considerable period of time.
    There is a third option. If the United States occupies 
Iraq, it will have the best opportunity, in the short-term, to 
provide law and order, prevent retribution, and begin the 
processes by which Iraqis inside and outside can refashion 
their political system and move toward democratic reforms. Most 
Iraqis would welcome that prospect, but it represents a 
considerable commitment by the United States over several years 
and some troops on the ground, preferably in conjunction with 
allies. And before too long, the United States will be viewed 
as a foreign occupier. Thus, the institution of new leadership 
and the procedures for establishing a new government need to be 
fairly expeditious--say, within 6 months--and the U.S. military 
greatly reduced thereafter.
    Nevertheless, if the United States is determined to replace 
the regime, it's better to take a firm hand in the beginning to 
help in providing the building blocks for a new and more 
democratic regime. In this case, the United States will have to 
keep some forces on the ground and strong advisory teams in 
place to assure that the new regime gets a solid footing.
    Iraq has a military and a bureaucracy which can be used to 
defend and administer the country, but it will require effort 
to reorganize and reshape these institutions in the desired 
direction. This is no small task.
    If the United States is going to take the responsibility 
for removing the current leadership, it should assume that it 
cannot get the results it wants ``on the cheap.'' It must be 
prepared to put some troops on the ground, provide advisors to 
help create new institutions, and, above all, spend time and 
effort in the future to see the project through to a 
satisfactory end. If the United States is not willing to do so, 
it had best rethink the project.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Marr follows:]

   Prepared Statement of Dr. Phebe Marr, Former Professor, National 
             Defense University; Author, Specialist on Iraq

                           iraq after saddam
    The purpose of my testimony is to provide a snapshot of what we can 
expect in Iraq after Saddam, should the US be successful in achieving 
his fall. Obviously, the means and manner of removing the regime will 
affect the aftermath: a relatively quick transition with a minimum of 
bloodshed and destruction will provide one set of circumstances; a more 
prolonged and destructive military operation will produce a less 
favorable outcome. It also matters whether the change is accomplished 
from within, by Iraqis, or requires a direct US military effort. Rather 
than dealing with the means, however, which is not my area of 
expertise, I would like to focus on a general political and social 
picture of Iraq; what we should be prepared to find in Iraq the day 
after, and, in particular, two key issues that will be critical for US 
policy and planning in post-Saddam Iraq. The first is the potential for 
fragmentation or fracturing, once Saddam's regime is decapitated, and, 
along with it, the potential for outside interference from Iraq's 
neighbors. The second is the issue of providing alternative political 
leadership for Iraq, the nature of that leadership, and the 
implications of the choice for Iraq's future and US policy aims.
    Replacement of Iraq's leadership is a serious and ambitious 
project. It is a difficult foreign policy decision for the US, in part, 
because its potential benefits, both to Iraqis at home and to the 
security of the region, are high. But so, too, are the possible costs 
as well as unintended consequences which cannot be calculated. If the 
US embarks on this project, it needs to be prepared to fulfill its 
responsibilities, and see it through to an acceptable outcome, 
including a potential long-term military and political commitment to 
assure a stable and more democratic government. If it is not prepared 
to do so, the intended benefits could vanish.
Fragmentation
    Iraq is a multi-ethnic, multi-sectarian country, with boundaries 
imposed by foreign powers at the time of its formation in 1920. Its 
three main demographic components, the Kurdish speaking population in 
the north (c. 17 percent); the Arab shi'ah population in the south (c. 
60%) and the Arab sunnis in the center (c. 15-20%) have coexisted over 
the past 80 years, and, to varying degrees, have participated in the 
process of building both a state and a nation. As with most such 
states, that process, while well underway, is still incomplete. Under 
the current regime, the state is controlled by a narrowly based Arab 
sunni minority, using the mechanism of repression to enforce its rule 
over all communities, except for a portion of the Kurdish population in 
the north, where its rule does not run.\1\ Hence the fear that if the 
regime is removed, the country will fragment into its ethnic and 
sectarian components. How accurate is that assessment?
---------------------------------------------------------------------------
    \1\ In the mid-1990s, for example, the Regional Command of the 
Ba'th Party, consisted of 17 members; 12 were Arab sunnis; 4 Arab 
shi'ah, and one a Christian. Of this group, 3 were from the Begat clan; 
5 were from allied clans, and two were from Mosul. (Faleh A. Jabbar, 
From Storm to Thunder (Tokyo, Institute of Developing Economes, 1998). 
p.17.
---------------------------------------------------------------------------
    First, it is very unlikely, indeed inconceivable, that Iraq will 
``break up'' into three relatively cohesive components: a Kurdish 
north; a shi'i south; and an Arab sunni center. None of these three 
communities is homogenous or shows any ability to unite under any 
leadership. Second, there is substantial mixture of these communities 
in many cities--especially in Baghdad and the center--but also in other 
cities in the north and south, making separation difficult. In some 
areas, other minorities such as Turcomen and Christian communities form 
substantial components of the population. Third, while some Kurds may 
have aspirations for independence, they are unlikely to achieve it, and 
many others would be comfortable in a more democratic Iraqi state. The 
shi'ah have never expressed separatist aspirations. Indeed, both Arab 
shi'ah and Arab sunnis, as well as some Kurds, have a strong desire the 
keep the state together and to profit from its ample resources.
    However, the removal of the current regime in Baghdad, under 
certain circumstances, could result in a ``break-down'' of the central 
government, and its inability to exercise control over the country: to 
maintain law and order; and to move the country and its institutions in 
the direction desired by the US. There are two dangers here. The first 
is short term. If firm leadership is not in place in Baghdad ``the day 
after'' Saddam is removed, retribution, score settling, and 
bloodletting, especially in urban areas, could take place. For example, 
the shi'ah in the poor Baghdad townships of al-Thawrah and al-Shu'alah, 
recent migrants from the south and over a million strong, could cross 
the Tigris and attack the more affluent sunni districts, such as al-
'Adhamiyyah, a fear often expressed by the sunni residents of Baghdad. 
One a broader scale, without firm government, parochial interests could 
take over, both in the north and south and in the center. The Kurds, 
for instance, could seize Kirkuk, with its oil fields, establishing a 
new reality in the north. Arab sunni clans, who control military units, 
might struggle for power in Baghdad. The shi'ah party, SCIRI (The 
Supreme Council for the Islamic Revolution in Iraq), located in Tehran, 
could send units of its lraqi Badr brigade across the border and 
attempt to seize the initiative in southern shi'i towns, repeating the 
mistakes made in the 1991 rebellion. Such a collapse of authority could 
trigger interference from neighbors. Turkey could intervene in the 
north to prevent refugee flows and to exert control over events in 
Kurdistan. Iran, through proxies, could follow suit. There could be a 
reverse flow of refugees, as Iraqi shi'ah exiles from Iran return home 
in the tens of thousands, destabilizing areas of the south.
    Over the longer term, if a new government in Baghdad fails to take 
hold, if it is not more inclusive of Iraq's communities, and more 
acceptable to its population; if a uniform rule of law cannot be 
established, Iraq could slip into the category of a failed state, 
unable to maintain control over its territory and its borders. The 
situation in the north of Iraq is an example. The Kurdish area is not 
unified; it is divided between the two major Kurdish parties. Neither 
has real control over its borders, and in the northeast, one party has 
lost control of an enclave along the Iranian border, dominated by 
Islamist parties and penetrated by Iran and other influences, possibly 
including terrorists. While the situation is not yet a serious problem, 
it serves as a metaphor for what could happen to Iraq as a whole, in 
the absence, over the long term, of a stable, legitimate government in 
Baghdad.
    Iraq has been a state for over 80 years and for most of that time 
has had a tradition of strong, central government. The chief thrust of 
every government since its founding has been state formation and the 
creation of a nation from the diverse elements within its boundaries. 
In the process, a sense of Iraqi identity has developed among the 
majority of its population, particularly in relationship to their 
neighbors; most Iraqis, with the possible exception of some of the 
Kurdish population, want the unity and territorial sovereignty of their 
state maintained. At various times within Iraqi history, the central 
government has been more inclusive of its various communities, with a 
better balance among ethnic and sectarian components. But that sense of 
identity has eroded under the Ba'th, particularly since the rebellion 
of 1991, which was a defining moment for Iraq's ethnic and sectarian 
communities. The sense of Iraqi identity is still there today, but it 
is weaker than at any time since 1945.
The Kurds:
    The Kurdish community in the north has been governing itself for a 
decade, in an arc of territory which runs from Zakhu in the north to 
Hajj'Umran in the east to Sulaymaniyyah in the south. Much, but not 
all, of this territory is protected by US and UK overflights in the No 
Fly Zone north of the 36th parallel. (Kurdish self-rule is also due to 
the withdrawal of Iraqi government troops and administration from the 
zone.) While the Kurdish leadership is realistic about its prospects 
for independence (they are nil) and willing to live within Iraq under a 
federal arrangement which gives them a large measure of autonomy, their 
aspirations for self-government and their Kurdish identity have 
increased over this period. In the post Saddam period, it will be more 
difficult to integrate the Kurdish community into Iraq. For example, 
Kurdish, naturally enough, is now the language used in administration 
and taught in schools in the north. As a result, the Kurdish facility 
in Arabic, taught as a second language in the schools, has weakened 
among the younger generation and may make it more difficult for them to 
participate in national life. Despite numerous trials and tribulations, 
the Kurds have managed to establish a fairly respectable level of 
government in the north, far freer than that which exists in the south. 
But they have not done so without consistent support, intervention. and 
prodding from the West, and Western military protection.
    Moreover, the problems of the Kurds may provide a metaphor for Iraq 
as a whole after Saddam. After Saddam's withdrawal from the north in 
1992, the Kurds held a relatively free election with a view to 
establishing a unified regional government in the north. As is well 
known, the Kurdish movement was dominated by two major parties, with 
well established leadership and organization: the Kurdish Democratic 
Party (KDP) under Mas'ud Barzani, and the Patriotic Union of Kurdistan 
(PUK) under Jalal Talabani. There were other political parties. 
including some Islamic groups (most notably the Islamic Movement of 
Iraqi Kurdistan (IMIK), as well as strong tribal elements (such as the 
Baradostis, the Surchis, and others) who competed for a share of 
leadership. The Kurdish region also included a substantial Turkish 
speaking population (Turcomen), some 500,000 and smaller groups of 
Christians who sought representation. But the political process was 
dominated by the two main parties, who between them split the vote 
almost evenly. (The KDP won two seats more in parliament.) But the 
election result was finally decided in a personal power sharing 
agreement between the two leaders. The power sharing arrangement was a 
formula for stalemate and eventually broke down. By the mid-1990s, both 
parties were engaged in a virtual civil war, which lasted for several 
years, resulted in several thousand deaths, and substantial 
displacement of the local population. The conflict ended by splitting 
the area they governed in two. Indeed, the intervention of the US was 
required to end the fighting. The KDP is now in control of the north 
western region, with its headquarters in Irbil; the PUK in the 
southeastern portion, with its headquarters in Sulayrnaniyyah. Both 
have weak--almost non-existent--control over their borders with Turkey 
and Iran. In the interim, the more radical PKK (Kurdistan Workers 
party), the Kurdish nationalist movement of Turkey, intruded its 
presence into Iraq along the northern frontier with Turkey, forming a 
force hostile to Turkey, as well as the KDP. While the activism of the 
PKK has subsided since the imprisonment of its leader, ``Appo'' Ocalon, 
Turkish military incursions across the Iraqi border, have been 
frequent, and sometimes massive and prolonged, over the past decade. 
Indeed, Turkish political intrusion into northern Iraq, and its 
manipulation of the Iraqi Turcomen community, as well as other Kurdish 
groups, indicate Turkish concern for the Kurdish issue and its ability 
and willingness to intervene to protect its interests. Meanwhile, the 
east, the PUK has been challenged by various Kurdish Islamic groups, 
especially the IMIK, who had established a foothold in territory along 
the Iranian border, particularly in the towns of Halabjah, and Panjwin. 
These groups fought with the PUK, which was eventually pushed out of 
this territory. It is this area which has recently been in the news as 
a ``no man's land'', home to newer Islamic fundamentalist groups, such 
as the Jund al-Islam, which have been accused of ties to terrorist 
groups and of recent attacks on the PUK leadership. The absence of firm 
PUK control over this territory, on the border with Iran, provides a 
sanctuary for forces hostile to the Kurds--and the West--as well as for 
Iranian meddling. Like Turkey, Iran has intervened across the border on 
numerous occasions in the past decade. It has supported the PUK, with 
forces, in its struggle with the KDP, including the conflict which 
resulted in an attack by Saddam Husayn on the north (in support of the 
KDP) which helped put an end to the INC stronghold in the north. It has 
supported Islamic groups in the border areas and elsewhere in the 
north.
    The two Kurdish parties are reconciled to coexistence, at the 
moment, but this could break down in the future under pressure. In the 
absence of clear direction from outside, or from Baghdad, competition 
for resources and power could invite conflict, with potential for 
intrusion once again from Turkey and Iran. It should be noted that 
there are other potential political players in the north, including 
some tribal leaders, who were once part of Saddam's militia. Recently 
some have formed a loose alliance with Arab tribes in and around Mosul, 
with a view to helping in regime replacement. The Kurds also have a 
professional middle class, capable of administration, but without clear 
direction in terms of where the Kurds are going in the future, the 
parties have not been able to entice their exile community home. In 
fact. there has been a considerable brain drain. Moreover, although the 
Kurds have a local militia, the peshmerga, possibly numbering from 
50,000 to 70,000, they cannot maintain border security, or defend 
against Baghdad or their neighbors. They are dependent on the restraint 
of their neighbors and protection, ultimately, from the US. The Kurdish 
model in the north, while containing many salutary features, has 
succeeded only where the US has been willing to intervene and exercise 
some responsibility. When the US has stepped back, the Kurdish 
experiment has faltered.
Shi'ah
    The shi'ah population of the south has been in a constant state of 
decline over the past two decades. It was hit hard from the Iran-Iraq 
war which saw major fighting near a number of cities; the shelling of 
Basra; the shut down much of its oil industry and its ports; and the 
closure of the Shatt al-Arab, its main artery to the Gulf. It then took 
the major brunt of the Second Gulf War, which was fought in the area. 
Even more important was the shi'i rebellion of 1991 and its brutal 
repression by the regime. This rebellion, which spread through all of 
the major shi'i cities and towns of the south, revealed the extent of 
shi'i disaffection for the regime, and the fear and distrust of the 
regime for the shi'i population. (The same was true for the Kurdish 
rebellion in the north.) The death toll in that rebellion has been 
estimated at at least 30,000. While the central government has restored 
control over the cities of the south, constant unrest and continuous, 
though ineffective, attacks on roads and government and party 
installations indicate a cowed but sullen and alienated population. 
There has been some economic revival under the oil-for-food program, 
but in general the south has been neglected, while Baghdad and the 
``sunni center'' has benefited. One evidence of this is the decline in 
the population of Basra. Once Iraq's second city and its major port. 
Basra is now fifth in size and greatly reduced in influence. Another 
evidence is the growth of the Iraqi exile population in Iran, variously 
estimated at anywhere from 250,000 to 1 million, many of them forcibly 
deported from Iraq by the regime, and still others who have fled 
repression. The draining of the marsh areas of the south by the regime 
in an effort to remove a refuge for dissidents, is another indication 
of the depth of distrust between the shi'i community and the 
government.
    Nonetheless, despite this alienation, the shi'ah inside Iraq, 
unlike the Kurds, have no discernible local leadership or organization 
to support their efforts. The most notable shi'i opposition 
organization is SCIRI (The Supreme Council for the Islamic Revolution 
in Iraq), but it is headquartered in Tehran and is largely controlled 
by Iran. This organization, established in 1982, was originally 
intended to be an umbrella for various Iraqi shi'i organizations 
committed to an Islamic government in Iraq, but despite its 
organizational growth since that time, it has suffered from splits and 
defections, and has essentially become a vehicle for the leadership of 
Muhammad Baqir al-Hakim, a cleric from a well known Iraqi clerical 
family. SCIRI has a military arm, the so-called Badr Brigade, of about 
4,000 or 5,000 foot soldiers ready to cross the border. However, SCIRI 
suffers from serious difficulties. It labors (indeed chafes) under the 
domination of Iran, and the suspicion and distrust this engenders among 
shi'ah in Iraq. Moreover, the main constituency for SCIRI is the Iraqi 
exile community in Iran; it is not clear how much support SCIRI or its 
shi'i Islamic agenda has among shi'ah in Iraq. In 1991, when SCIRI sent 
forces into Iraq during the rebellion, raising Hakim's picture and 
shi'i Islamic slogans, the move backfired, turning a number of 
potential supporters against the revolt. The clerical leadership of the 
shi'ah, centered in Najaf and Karbala' is usually its strongest source 
of leadership, but the regime has systematically executed or 
assassinated most of its leading members in the last decade, greatly 
weakening the shi'i religious establishment. While the pilgrimage 
traffic with Iran has been reopened, it is carefully controlled by 
Baghdad. In fact, the shi'i seminaries have declined and the repression 
visited on these cities during and after the 1991 rebellion, where 
fighting was fierce, has been severe. The emergence of charismatic 
clerical leadership among the shi'ah cannot be ruled out in the future, 
but at the moment there is none on the horizon.
    In recent years, the regime has strengthened tribal influence and 
leadership in the south (and elsewhere) especially among the Arab 
tribes and clans from which it might expect support in return for 
benefits. While this support is thin and based on calculations of 
interest, tribes or more properly clans, with their built-in kinship 
constituencies, may provide a potential source of leadership among the 
shi'ah in the future. While tribal leaders are good at rebelling, 
however, they are notoriously poor at constructing governments.
    The Arab shi'ah of Iraq are a large, diverse and heterogeneous 
population. A substantial educated middle class lives in Baghdad and 
other cities and many work for the government. This population has 
never unified behind a shi'i cause, and there is now no leadership or 
organization in Iraq which could accomplish anything this purpose. 
However, the repression of the past two decades; the deepening 
alienation from a sunni dominated government; and economic deprivation 
and neglect have unquestionably deepened a sense of shi'i identity. 
There is, however, no expressed desire for separation or self-
government; rather shi'ah clearly want a greater--indeed dominan--share 
of power in Baghdad, commensurate with their numbers. In any future 
government, they are unlikely to accept continued sunni dominance. 
Their problem will be their inability to field domestic leaders and 
organizations to further their interests and their aims in any new 
political dispensation.
The Center: The Issue of Alternative Leadership
    It is generally assumed that if new political leadership is to 
emerge inside Iraq, it will have to come from the Center. That term can 
be construed as political, to denote the central government in Baghdad, 
but is it is also used in a geographic and demographic sense to refer 
to the ``Arab sunni triangle'' which stretches from Baghdad to Mosul 
and to the borders of Syria and Jordan in the West. This region 
includes the small, but growing, cities and towns of the Tigris and 
Euphrates valley north and west of Baghdad, dominated by Arab sunnis 
(often with strong tribal and clan ties) from which the regime recruits 
its leadership. (Baghdad, with a population of over 4 million, has an 
Arab shi'ah majority and substantial numbers of Kurds. Turcoman, and 
Christian communities, as well as Arab sunnis.)
    The issue of alternative political leadership is critical, indeed, 
probably ``the'' critical issue in the post-Saddam period, and needs to 
be addressed. If new leadership is to come from ``inside'' Iraq, it is 
fair to say that there at present there is no visible alternative 
leadership. There may be a number of potential leaders--from within the 
military, the clan structure, the educated elite--but they cannot 
emerge and demonstrate their leadership under this regime. Numerous 
coup attempts have been made but all have been cut down. Hence we can 
speculate on sources of leadership, but it is not clear what capacity 
putative leaders would have or what constituencies they could mobilize. 
One conclusion may be drawn, however. If leadership emerges from inside 
the regime--or its support system--the change this leadership will 
bring--in orientation, political culture and even foreign policy--may 
be too little to be supported by the bulk of the population or to meet 
US demands and expectations. For example, will a sunni general, raised 
and trained under the Ba'th, be willing to eliminate all weapons of 
mass destruction? Will he and the centrist coalition he may assemble be 
friendly to the US government? Above all, will such leadership be 
acceptable to Kurds, shi'ah, and even educated sunni civilians who are 
hoping for real change and more inclusiveness? Will he be able to 
mobilize sufficient support to keep law and order, or will a struggle 
for power erode his control at the center?
    The outside opposition, on the other hand, has a multitude of 
leaders who have been vying with one another for years. The key figures 
and groups are fairly well known in Washington. These include Ahmad 
Chalabi, leader of the Iran National Congress, originally an umbrella 
group that included a number of opposition organizations, but is now 
mainly a vehicle for his leadership; Sharif'Ali, a member of the 
Hashimite family, advocating a constitutional monarch; the Iraq 
National Accord, led by Ayad Allawi, and composed of many ex-Ba'thists 
claiming to have ties and contacts with army officers and Ba'thists 
inside; SCIRI, the main shi'ah component, already mentioned; various 
individual generals who have defected over the years, and the two 
Kurdish parties who are already in control of their own real estate in 
the north. The main problems with the outside opposition are clear. 
They have been competing and squabbling for years, and have been unable 
to coalesce, even around a mainstream candidate such as Ahmed Chalabi. 
Most have narrow constituencies, and little or no organization inside. 
The Kurds, the strongest component, do have organization, some military 
force, and a strong constituency in the north of Iraq. But the Kurds 
are unable, and unwilling, to take on a leadership role in Baghdad. To 
the contrary. The two Kurdish parties, and in particular the KDP, have 
illustrated time and again that their main aim is self-government in 
the north; not greater control or even change in Baghdad. The 
weaknesses and political liabilities of SCIRI have already been dealt 
with. As for the other groups, their main difficulty is that they are 
outside Iraq, and it is not clear what, if any, constituencies they 
have inside. Their main constituency is, in fact, in Washington.
    This raises a policy paradox. Many of the outside opposition 
leaders have demonstrated leadership skills (Ahmed Chalabi, for 
example). They are westernized, and generally support US aims, 
including the elimination of WMD. They are more familiar with western 
democratic processes and are most likely to bring change in Iraq. But 
they will have to be put in by the US, and will likely have to be 
supported by us over some considerable period, if the changes they--and 
we--envisage are to be maintained. And as western supported elements, 
their legitimacy will soon be questioned.
    The outside leadership--its benefits and pitfalls--are accessible 
and well known to us. It is the potential ``inside'' leadership that is 
most uncertain. To understand where this leadership may emerge, it is 
worth taking a look at what we will find, once Saddam and his inner 
circle are removed.
    The Iraqi regime today is supported by three pillars: a kin and 
clan network that dominates security, the military and the decision-
making apparatus; broader based institutions (the Ba'th Party, military 
organizations, the bureaucracy): an economic ``mafia'', backed by state 
controlled resources.
The kin and clan network
    Saddam has maintained power largely by placing his own tribe and 
clan (the Albu Nasr/Begat) in key decision making, security and 
military positions. (For all intents and purposes these two groups are 
synonymous). The Albu Nasr, hailing from the area around Tikrit, 
probably number only about 25,000, with several thousand active members 
available for political recruitment, but they have gradually come to 
occupy the strategic heights of the political system. Allied with them 
are a numerous, neighboring clan and tribal groupings--the Duris, the 
Tikritis, the Juburis, the Ubaidis, and the larger tribal confederation 
of the Dulaim. Almost all are Arab sunni and overwhelmingly come from 
the cities and towns of the Arab sunni triangle. Numerous studies have 
focused on this phenomenon, charting the numbers and kinds of positions 
occupied by these clan groups; intermarraige between and among key 
political families; and the relationship of various members to Saddam's 
own extended family. All point to one overwhelming trend. Beneath a 
facade of modern institutions--a political part, a military and a 
bureaucracy--an ever thickening network of kin and clan relations has 
governed the country. deeply penetrating leading institutions, 
especially the military. One author has posed a hierarchy of clans, led 
by the Begat, and followed by the Tikritis, the Duris, and the 
Dulaimis, and shown how they dominate the military.\2\ As kin and clan 
relations have grown, these primordial ties have come to replace 
ideology and party organization as the glue that holds the regime--and 
the government together. In the countryside as well, tribal leadership 
and organization has come to play an increasing role in providing local 
government services. This network has been referred to as ahl al-thiqah 
(the people you can trust).
---------------------------------------------------------------------------
    \2\ Jabbar. Op. Cit., p.6.
---------------------------------------------------------------------------
    Even when Saddam's immediate family and the core of his supporters 
are removed, these clan groups will remain, and so too will the kinship 
ties that bind them. Alternative leadership may, indeed, rise from 
related clans--some of whom have already attempted coups--imbedded in 
the military or even the security system. In this case, the leadership 
is bound to be Arab sunni, and a key issue is whether such a leader 
will be willing or able to go beyond clan politics; whether we will 
simply get another clan in power; and above all, whether such a change 
will be acceptable to the non-sunni population and the urban, educated 
middle class that functions outside the clan system.
The Institutions of State
    The second pillar of the regime rests on the institutions of state: 
the Ba'th Party, the various components of the military, the 
bureaucracy and the educational establishment. These are recruited from 
a broader base and include both shi'ah and Kurds as well as other 
communities. At secondary levels, these institutions are peopled by 
educated professionals; they constitute the ahl al-khibrah (the people 
with expertise) or the technocrats. Some are potential pools of future 
leadership.
The Economic Elite
    The third pillar of the regime is the economic elite, often 
referred to as an economic ``mafia''. It is a product of the state's 
control over oil and other resources, which it distributes through a 
patronage system, controlled by Saddam's family and clan. But the 
largesse is spread into all communities, tying important Kurdish, 
shi'ah, and sunni elements to the regime. Most are contractors who owed 
their wealth to government patronage; a smaller number are 
industrialists. While this group can provide the support, the contacts 
and some of the know-how to revive the economy, it cannot be expected 
to provide alternative political leadership. In fact, it is not a true 
private sector independent of the state. Indeed, one of the best 
changes that could be introduced would be to separate this economic 
class from the state, and to move toward the creation of a true, and 
more independent, private sector.
    This brief survey on what we can expect in Iraq the day after, 
leads to the following conclusions, albeit tentative:

  <bullet> In the past decade, Iraq's sense of national identity has 
        eroded, but it has not disappeared. Kurdish aspirations for 
        self government, shi'ah self-awareness and even Arab sunni 
        identity have increased. In any new political order, few Iraqis 
        will be willing to tolerate a continuance of rule by a narrowly 
        based Arab sunni minority, like the present regime. The good 
        news is that after years of repression, Iraqis are ready for 
        change; they seek preservation of their state and its future 
        development as a nation. However, they have had no experience 
        of democracy; only of a mukhabarat (secret police) state, which 
        has created distrust, corruption and bitterness among 
        communities. The building blocks of democracy will have to be 
        created, including a reorientation of attitudes and practices, 
        and this will take time.

  <bullet> Without firm authority at helm the ``day after'', and a 
        clear enunciation of future constitutional procedures pointing 
        to new directions, retribution and a struggle for power are 
        likely in the short term. Erosion of the central authority 
        could, in a worst case scenario, allow parochial interests to 
        emerge in the north and the south. This will induce meddling 
        and interference from neighbors, most likely Iran and Turkey.

  <bullet> Providing alternative political leadership, and the process 
        by which it is installed, is the most critical and difficult 
        problem faced by the US as an outside power.

  <bullet> A ``coup'' or change of government from within--absent US 
        forces on the ground--is the scenario most likely to be 
        destabilizing. While this is the least expensive option for the 
        US in terms of troops and political investment, it could lead 
        to a struggle for power in Baghdad and the erosion of central 
        control, and a gradual ``break down'' of national unity. Inside 
        leadership is most likely to move against Saddam if it decides 
        the US is serious about occupation but it will need US support 
        to prevent fracturing.

  <bullet> If the US is unsure of the new leadership or unsatisfied 
        because it appears too close to the previous regime, a period 
        of probing and exploration could ensue, during which the US 
        will have to make demands before providing support and 
        recognition. In the interim the US could lose control of the 
        situation. Identifying potential inside leaders and making US 
        requirements clear and public, before hand, would help avoid 
        this slippery slope.
  <bullet> Introducing the outside opposition as alternative leadership 
        would produce the most change inside Iraq in the direction the 
        US desires. But this is the most difficult and most costly 
        option. This opposition lacks clear indigenous support; the US 
        would have to be prepared to install and support this 
        opposition with troops, over a considerable period of time.

  <bullet> If the US finds itself in occupation of Iraq, it will have 
        the best opportunity, in the short term, to provide law and 
        order, prevent retribution; and begin the processes by which 
        Iraqis (both those outside and those inside) can refashion 
        their political system and move toward democratic reforms. Most 
        Iraqis would welcome that prospect, but it represents an 
        expensive, long term commitment by the US over several years, 
        and some troops on the ground, preferable in conjunction with 
        allies. And before too long, if the US is not careful, it will 
        be viewed as a foreign occupier by those inside and outside. 
        Thus, the institution of new leadership and the procedures for 
        establishing a new government, need to be fairly expeditious. 
        After a short period (six months) a US--even and international 
        presence--could be greatly reduced. Nonetheless, if the US is 
        determined to replace the regime, it is better that it take a 
        firm hand in the beginning to help in providing the building 
        blocs for a new, more democratic regime; support its efforts; 
        and plan to keep some forces and a strong advisory team in 
        place to assure the new regime gets a solid footing.

  <bullet> Among the steps needed will be:

                  Removal of the security system and the training of a 
                new police force.

                  Establishing a new system ofjustice.

                  Re-education and redirection of the bureaucracy.

                  Assembly of a constituent assembly to draw up a new 
                constitution.

                  Developing the building blocks of civil society (a 
                free press, civic Institutions, reform of education).

  <bullet> Iraq has a military and a bureaucracy on which the US can 
        rely to provide defense and help develop the country, but as 
        this list of tasks indicates, it will require considerable 
        effort to reorganize and reshape Iraq's institutions in the 
        desired direction. This is no small, or short term task. If the 
        US is going to take the responsibility for removing the current 
        leadership, it should assume that it cannot get the results it 
        wants ``on the cheap''. It must be prepared to devote some 
        troops on the ground, advisors to help create new institutions, 
        and above all time and effort in the future to see the project 
        through to a satisfactory end.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The Chairman. Doctor, thank you very much for a very clear 
statement.
    I'm going to, for the rest of my colleagues, put your 
entire statement in the record so it's made available to all 
Senators. And I thank you.
    Ms. Francke.

   STATEMENT OF REND RAHIM FRANCKE, EXECUTIVE DIRECTOR, IRAQ 
                   FOUNDATION, WASHINGTON, DC

    Ms. Francke. Thank you, Mr. Chairman. I have a longer 
written statement, and I will simply highlight some areas of 
it.
    The Chairman. The entire statement will be placed in the 
record.
    Ms. Francke. Thank you.
    First of all, of course, I would like to join my voice to 
all those who have thank you for starting this national debate 
on Iraq, and I would like to take the liberty, Mr. Chairman, to 
say that I admire your stamina. I was listening yesterday all 
day, and I got exhausted, but you did not. So congratulations.
    Now, I think this panel----
    The Chairman. I should say, when you become a chairman, as 
Senator Sarbanes will tell you, it entitles you to two things. 
One, you get to turn the lights off, because you're the last 
one--well, the staff is actually the last to leave. And, 
second, you have to be the one at the hearing.
    Ms. Francke. Well, it's very good of you.
    The Chairman. Well, I enjoyed it.
    Ms. Francke. Thank you for this particular panel, because, 
very sadly, my impression is that not enough thinking has been 
going on in Washington, to date, about the issue of the day 
after. It appears, from the press, that there's a great deal of 
thinking going on about military operations, but what to do 
after is not thought about much. And whether it is a question 
of lack of interest or lack of people, I don't quite know, but 
I think this situation has to be remedied, and remedied 
quickly.
    I'm an Iraqi-American, and my ambition is to see my native 
Iraq free and that there are good relations between Iraq and 
the United States. This is what I fervently hope for.
    In the event of a military campaign to remove the regime of 
Saddam Hussein, the United States will have a unique 
opportunity to influence the political outcome in Iraq in a way 
that is good for Iraq, good for the region, and good for the 
United States. I might say that the United States will not have 
had such an opportunity since the end of World War II. This 
will be probably the first time that the United States will 
really be able to have leverage. I would like this leverage to 
be for the good.
    I have spoken to Iraqis over the past 10 years. It is my 
business to speak to Iraqis every day. And there is a unanimous 
desire for pluralism, representation, participation, 
accountability in government--in short, all the things that we 
call democracy. The United States should seize this opportunity 
in the event of the removal of the regime to press for sweeping 
change of the political system and a new foundation for 
democracy in Iraq.
    I would like to say, at this point, that the subject of 
Afghanistan was mentioned earlier today, and I would not like 
to see Afghanistan as a model, by which I mean--and to put it 
crudely, and you'll excuse me--I do not think we should have a 
hit-and-run operation in Iraq.
    Historically, Iraq has set the tone for the Middle East, 
and Iraq's future political shape will affect the region either 
in a positive or a negative direction. Intervention and regime 
change should not be the beginning of U.S. commitment to assist 
and support Iraqis, but should be the beginning of a commitment 
toward nation building in Iraq. And U.S. involvement should be 
sustained. I do not mean, necessarily, just a military 
involvement, but at all levels. The U.S. commitment to see Iraq 
through this difficult period should be made up front and 
should be held to.
    The day following a regime change in Iraq will be largely 
determined by the message the United States sends to the Iraqis 
now, before military action, about U.S. intentions and about 
U.S. vision for Iraq. I have to tell you, Iraqis desperately 
want to be free of Saddam Hussein, and they also know that the 
only country that can help them with this is the United States. 
And they are ready to welcome the United States as liberators.
    But equally because of the history of the gulf war and 
because of its aftermath and because Iraqis believe that the 
United States abandoned them, in 1991 and later, there is, 
unfortunately, a deficit of trust among Iraqis of U.S. 
intentions.
    I have spoken to Iraqis who were in Iraq only in the past 
few months. They are apprehensive. First of all, they 
understand that there is a real likelihood of the United States 
conducting a military campaign in Iraq with the purpose of 
changing the regime. And I can tell you many Iraqis that I've 
spoken to have said that regime change is often discussed in 
Baghdad as a likely possibility. But they're apprehensive about 
the destructiveness of the war that will come, and they are 
apprehensive about what the United States will do after the 
regime is gone.
    We must make clear that the United States comes to Iraq as 
a friend and not as an occupier, and that the United States 
will help Iraqis rebuild the country from the devastation of 20 
years of war.
    Mr. Chairman, what is likely to happen on the day after, 
specifically? First, we will not have a civil war in Iraq. This 
is contrary to Iraqi history, and Iraq has not had history of 
communal conflict as there has been in the Balkans or in 
Afghanistan. Second, I would agree with Dr. Marr, Iraq will not 
fall apart and will not be dismembered. The Kurds have spared 
no words or effort in explaining and stressing that they want 
to remain part of Iraq. The Shia, far from wishing to secede, 
see themselves as quintessential Iraqi patriots. But what both 
of these groups want is a bigger role in Iraq, a bigger role in 
Baghdad and in the center of government, not separation from 
Iraq.
    Third, provided the United States has put forth a 
reassuring message, Iraqis will join U.S. forces in dismantling 
the regime, and Iraqi military forces, in particular, will 
defect and cooperate with U.S. troops. There will be a measure 
of confusion, but I do not believe that there will be chaos. 
And particularly, there will not be chaos in those parts of 
Iraq where there are American troops.
    I do believe, by the way, that there is a very likely 
chance of an 11th-hour military coup. Once military officers 
and army generals are aware that the U.S. troops are, in fact, 
in Iraq and they are advancing on Baghdad and that the 
intention is, in fact, to remove the regime, there is a very 
strong likelihood that some group of army officers will stage a 
coup.
    Fourth, the humanitarian situation will deteriorate badly 
because of war casualties, population displacement, the 
disruption of systems of distribution of food and medical 
resources.
    Fifth, the system of public security will break down 
because there will be no functioning police force, no civil 
service, and no justice system.
    Sixth, there will be a vacuum of political authority and 
administrative authority. Surviving senior officials from the 
old regime will have fled or will remain in hiding. Meanwhile, 
military officers who have cooperated with U.S. forces will be 
vying for recognition and privilege from the United States. The 
United States must be very cautious about who it gives 
authority to in this situation of a vacuum.
    This is on the very first day after the regime change. But 
within a few weeks, there will be other problems that will 
emerge. One, there will be a need to eradicate the remnants of 
the old regime. There will be a need to develop the 
administrative structure and institutions of Iraq. The 
infrastructure of vital sectors will have to be restored. An 
adequate police force must be trained and equipped as quickly 
as possible. And the economy will have to be jump-started from, 
not only stagnation, but devastation.
    In other words, a very large number of U.S. and 
international civilian groups will be needed alongside any 
military troops that are in Iraq--not only from the United 
States, but from the European Union, from the United Nations, 
from the NGO community. There will be a great need for 
expertise and resources to build Iraq, and this has to happen 
quickly, not on day one, but perhaps on week five or week six 
or week seven. But, no matter how many troops and civilians 
there are, there will be a dire need for Iraqi participation in 
this effort. I believe an Iraqi partnership is indispensable, 
both for political and for practical reasons.
    Therefore, who are the likely candidates for an Iraqi 
partnership with the United States? And, for a further 
question, who are the successors to Saddam's regime who might 
emerge from this partnership?
    Again, I agree with Dr. Marr, that after 30 years of 
repression, there is no political life in Iraq outside Saddam's 
leadership and Saddam's family. The urban middle class's 
professionals and Intelligentsia have been crushed, and it is 
unlikely that on day one or week one a new leadership will 
emerge from outside this tight circle of existing power now.
    I believe that, in the aftermath, there will be, in fact, 
two circles that might emerge as possible--or who will 
certainly clamor for partnership with the United States. The 
first circle, of course, is the military officers, the defected 
military officers who will have cooperated with the United 
States. And the second circle will be the Sunni provincial 
clans of central Iraq.
    But, as I explain in my written statement more thoroughly, 
there is almost a total overlap between these two circles. The 
Sunni clans of central Iraq were the power base that Saddam 
used. And, in fact, they supplied the manpower to, not only the 
military, but the military and the security apparatus of the 
states. And so to talk about a separation between this clan 
system and the military security complex is, in a way, a false 
differentiation.
    The military security complex identification with the clan 
system of central Iraq was precisely the model that Saddam 
Hussein used for his regime. And the question is, if we 
actually choose our partners from these two circles, we will be 
replicating the model that was used by Saddam Hussein.
    I should also mention the Ba'th party, because there is a 
notion that perhaps the Ba'th party could come up with 
potential leadership. I do not believe there is such a thing as 
a functioning Ba'th party in Iraq. It's been eviscerated. It 
was never a good institution, in any case, and it was a 
chauvinistic ultra-nationalist institution. But, even so, the 
regional commander of the Ba'th party really is a tool and 
instrument for Saddam Hussein. And without Saddam, there is no 
such thing. We are not likely to see a leadership emerge from 
that.
    In the confusion of the first few weeks, there will be a 
great deal of temptation for the United States to rely on 
military army generals and perhaps this clan system. And I want 
to suggest why this would be a great mistake. To begin with, 
many of the military officers who have achieved sufficient 
seniority in Iraq are probably implicated in war crimes and 
crimes against humanity. I am not sure that we should be 
partnering with people who have other people's blood on their 
hands.
    The clan system has no acknowledged hierarchy, and none of 
them can command alliances of all the others. Each clan 
believes it should inherit power after Saddam. The competition 
for power among these clans will be intense. And if there is a 
nascent warlord class in Iraq, it is, in fact, these clans of 
the center who are actually much more fractious, have much more 
rivalry among them, and, because of their association to the 
military security complex, have access to arms.
    Next, a military regime will establish the logic of force 
as an instrument of gaining power and keeping power in Iraq, 
and, therefore, it will start the rationale of cycles of 
military coups and counter-coups which will, in fact, return 
Iraq to the way that the Middle East functioned in the 1950s 
and 1960s, and this is hardly a stable model.
    And, finally, and importantly, the Iraqi people will simply 
reject a military regime or a regime that is modeled on 
Saddam's paradigm of Sunni clans plus military security 
complex. They will actively resist it. They will raise--this 
will raise the level of dissent and instability, and it could 
encourage foreign intervention and centrifugal forces. I 
believe it's essentially to break this pattern of 
militarization and regressive government by ensuring that Iraq 
has a modernizing civilian government and that the military 
stays out of politics.
    I'm almost done. In due course, Iraqis will gain confidence 
that a new order is taking shape, and candidates for leadership 
will emerge within the country, especially from the urban 
educated classes. However, I submit that the United States 
can't afford to wait that many months until this happens. It 
must find an Iraqi partner sooner rather than later, and it 
must find an Iraqi partner before a war is launched.
    And I will here make a bold and controversial proposal. For 
the past 11 years, the United States has been working with the 
Iraqi opposition groups in northern Iraq and in the Diaspora. 
It is fashionable to disparage this opposition and say that 
they are useless and worth nothing and represent nothing. And 
yet these groups have shown tenacity and vibrancy, and they 
represent a wide spectrum of political opinion in Iraq. They 
not only represent Kurds, Shias, and Sunnis, they actually 
represent political opinion and political currents and 
political beliefs. Without exception, they have a modernizing, 
democratizing outlook however imperfect this might look in 
Western eyes. Their relations with the United States and with 
each other have not always been smooth, I grant that, but I 
would say, by the way, that this has not always been 
exclusively their fault. In any case, I think it is time to 
change all that.
    I would suggest that the United States take the bold step 
of partnering with this opposition and creating at least the 
nucleus of a future political structure. This structure should 
be prepared and enabled to take charge immediately of 
administrative and management needs of the country on the day 
after a regime change.
    I am not, by any means, suggesting that this opposition can 
be the whole story of Iraq's----
    The Chairman. Excuse me, would you say that again, please, 
about taking administrative--I didn't catch the first part of 
your----
    Ms. Francke. I'm saying that this nuclear political 
structure should be prepared and enabled to take charge of 
immediate administrative and management needs of the country.
    The Chairman. Can you explain what you mean by prepared and 
enabled?
    Ms. Francke. Would you like me to explain now or when I'm 
done?
    The Chairman. Whenever it's convenient for you. Whenever 
you think it fits best in your statement.
    Ms. Francke. If I may at least finish this paragraph?
    The Chairman. Please.
    Ms. Francke. I am not suggesting, by any means, that this 
opposition can be the whole of Iraq's political structure. 
Quite the contrary, it should form no more than an open circle 
to be augmented and completed as leaders emerge within Iraq in 
the months after regime change. Without such a partnership, and 
without such a partnership being built right now or beginning 
right now, the United States is likely to find itself with no 
civilian framework to rely on in Iraq for a long period of 
time.
    Mr. Chairman, my idea for an administrative and management 
structure is that the Iraqi groups in the opposition have to be 
able to come into Iraq with U.S. troops and at least put 
together the remnants of the civil service in Iraq, come in 
with perhaps a core group of people who are trained in policing 
by the United States so that this core group can go into Iraq 
and work with the remnants of the police force. In other 
words--and also, by the way, be in charge, or at least create a 
sort of an overall structure for managing humanitarian 
services, because----
    The Chairman. Can I say it another way to make sure that I 
understand it? Because the Iraqi National Congress coming to 
see me not long ago--and I apologize to my colleagues for the 
interruption, but I hope this is clarifying, not disruptive--
made the same statement to me that you've just made.
    If I can give an example so that I--to see if I understand 
it, assume American forces went in. You are suggesting that the 
U.S. Government work with members of the Iraqi National 
Congress here in the United States or----
    Ms. Francke. The Iraqi opposition.
    The Chairman. The Iraqi--well, OK, there are several 
different opposition groups. They don't fit into your little 
scheme, all of them, but let's assume, whatever it is, that we 
essentially come in with a police commissioner who is an Iraqi 
from abroad in the Diaspora. We essentially come in with a 
water commissioner. We essentially come in with a 
commissioner--think about running the city of Chicago--you 
know, we come in with someone to run the Department of Public 
Works, someone to come in--so we have--in a sense, what you're 
suggesting is as we come in, instead of having--in addition to 
NGOs, in addition to American civilians who are helping set up 
the infrastructure or maintain it, you're suggesting that there 
be an Iraqi in the Diaspora who comes in who is named, at least 
temporarily, by us as the person who's going to run this police 
department, that's going to run the water department, who's 
going to be the commissioner of electricity. Is that the kind 
of thing you mean? It that literal?
    Ms. Francke. Senator, you are putting it rather, and maybe 
it should be put that starkly. My idea is that there should be 
Iraqis who come in with the United States who are in these 
functions as at least the liaison between whatever is left of 
the civil service in Iraq and the United States.
    The Chairman. The reason I ask that, I have gotten so deep 
in the weeds in Bosnia, then in Kosovo, and now in Iraq--which 
is not the usual role a Senator should play, but I've actually 
taken scores of hours to go there myself--and what I find is, 
unless you are literally literal, none of this matters much. 
This is about making practical things happen. In Kosovo, 
without someone who turns on and off the street lights, you 
have a problem. And I'm just wondering if that's what you're 
talking about.
    Ms. Francke. And precisely, I'm afraid that in the first 
few weeks, certainly, and perhaps even for a few months, that 
all the senior people who are in charge of turning the lights 
on will be in hiding or will have fled Iraq.
    The Chairman. OK, thank you. I apologize for the 
interruption.
    Ms. Francke. I have one final point, which I'll make very 
brief, because, in fact, my esteemed colleague, Dr. Al-Shabibi 
will take it up. My final point, Mr. Chairman, is that the 
Iraqi economy has been devastated, and the Iraqi people have 
lived in deprivation for at least 12 years. It will be 
extremely important, both politically and operationally, to 
jumpstart the Iraqi economy as quickly as possible and create 
opportunities for employment and to raise the standard of 
living in Iraq in a visible way. I cannot stress enough how 
important it is for Iraqis to see that their lives are better 
and not worse in a tangible, material way.
    An important message the United States can send now and 
confirm the day after a regime change in Iraq is that the 
United States is prepared to put together an international 
Marshall Plan for Iraq and help Iraq overcome its heavy 
financial burden and rejuvenate its economy.
    The final message is the United States must stay the 
course. This should not be a campaign to change the regime. It 
should be a campaign to rebuild Iraq. And unless we understand 
that and are prepared for it, then our preparations are really 
very feeble. It's not simply a military operation.
    Thank you.
    [The prepared statement of Ms. Francke follows:]

  Prepared Statement of Rend Rahim Francke, Executive Director, Iraq 
                       Foundation, Washington, DC

                         irag on the day after
    Three premises underlie this paper:

          1. That the U.S. will have a decisive role, unprecedented 
        since World War II, to influence the outcome in Irag after the 
        fall of Saddam Hussein, and has a correspondingly large 
        responsibility to use its power for the good.

          2. That what we achieve or fail to achieve in Iraq will have 
        a profound and enduring affect on the region.

          3. To the extent that the United States declares itself for 
        democracy, and not merely change, in Iraq, it will gain the 
        trust and cooperation of the Iraqi people.

    Once the regime of Saddam Hussein is removed from power, there will 
be a historic opportunity to remake Iraq out of the ashes of 30 years 
of brutality, domestic and foreign wars, nightmare weapons, and 
economic collapse. But this requires a commitment from the United 
States and the international community to a process of nation-building 
in Iraq. The commitment should not be of a purely military nature--it 
is just as important civilian, institutional, and economic, but it must 
be sustained.
The situation on the day after
    It is impossible to predict with precision what will happen on the 
day after the overthrow of the Iraqi regime, what some are calling D-
Day-plus-one. Nevertheless, certain factors will derive the situation 
in the country:
    First, Iraqis will welcome the United States as the liberator, and 
many will join U.S. forces in dismantling the regime's edifice. Iraqi 
military officers, once they are certain of the regime's demise, will 
want to show that they too are on board, and will defect with their 
troops. But the welcome will be coupled with a sense of apprehension 
and expectation: What will the Americans do, and what do they intend 
for Iraq? It is essential to assure Iraqis that the United States come 
to Iraq as a liberator and friend, and not as occupying force, and that 
the United States bears the message of freedom and democracy.
    Second, the humanitarian crisis will become acute, as the 
disruption of distribution systems, population displacements and 
destroyed infrastructure leave people without access to food, water, 
and medical resources. There will be civilian casualties to take care 
of at a time when hospitals, roads and electricity are unavailable. Oil 
production may be interrupted for weeks, causing shortages inside Iraq 
and affecting the international energy markets.
    Third, the system of law and order will break down, endangering 
public safety and putting people at risk of personal reprisals. There 
will be no police force, no justice system, no civil service and no 
accountability. In this confusion, people will be inclined to take 
justice into their own hands.
    Fourth, there will be a vacuum of authority and an intense 
jockeying for power. Senior officials who fear retribution will take 
flight or remain in hiding. Others, including military officers, clan 
leaders, mid-level civilian officials, and scattered remnants of the 
old regime will vie for positions, and will want to ingratiate 
themselves with the U.S. forces to obtain political recognition and 
secure a role in the aftermath.
    Fifth, several of Iraq's neighbors may attempt to influence the 
process of change and to pre-position themselves to take advantage of 
the outcome.
    It is equally important to know what will not happen, and to dispel 
some common myths about Iraq. One myth is that Iraq will break apart 
into mini-states, that the Kurds and the Shi'a will secede, and that 
parts of Iraq will be taken over by, or join, Turkey and Iran. This 
myth was spun in 1991 principally to keep Saddam Hussein in power and 
indeed Saddam may be the biggest perpetrator of this falsehood. Iraq 
will not split apart. Iraqi Kurds have spared no effort or words to 
reassure the world that they see themselves as part of Iraq and have no 
intention of seeking independence. The Shi'a identify themselves as 
quintessentially Iraqi, as Iraqis first and everything else second. All 
Iraqi groups have publicly committed themselves to the territorial 
unity and integrity of a future democratic Iraq.
    A second myth that needs debunking is that Iraq will irrupt in 
civil war. Iraq has never had a civil war on the Balkan or Afghan 
model. With the exception of sporadic Kurdish conflict in the mid 
1990s, inter-communal fighting among Iraqis is virtually non-existent 
in Iraqi history. The established pattern in Iraq is for the government 
to oppress communities and individuals, and for communities to 
retaliate against the government, and not against each other. 
Furthermore, there is no tradition of warlords and armed private 
militias in Iraq's history, as there was in Afghanistan or in Lebanon. 
To anticipate civil war in Iraq is to ignore or misrepresent modern 
Iraqi history.
    For 30 years, Saddam Hussein's regime has inflicted wounds on the 
Iraqi people. Saddam has been liberal and equitable in his oppression. 
It is not only the Kurds and the Shi'a who have been persecuted; Iraqis 
from all social and political groups have suffered injustice and 
disenfranchisement. Iraq's urban middle classes, its professionals and 
intelligentsia, have been crushed, and no forms of civil society exist 
in Iraq. All these groups, and every individual Iraqi, seek 
restitution, recognition and participation in a new political order 
after the fall of Saddam Hussein. There is an overwhelming desire for 
freedom among Iraqis. They want justice, representation, accountable 
government, freedom from fear, freedom to speak out, and security for 
themselves and their families from the thugs of a lawless state. Iraqis 
want everything that is summed up in the single word democracy.
First priorities
    Iraq will need everything in a post-Saddam period, and the United 
States must be willing to accept a nation-building role, assisted by 
other countries and national and international organizations. In some 
respects, Afghanistan is a case study in what not to do. The United 
States cannot take the path of least resistance and regard Iraq 
exclusively as a military campaign, to be quickly wrapped up. For both 
Iraqis and the United States, this must be a fight not just against 
Iraq's past, but also for its future.
    The immediate, day one, priorities in Iraq will be:

          (a) restoring law and order and preventing vigilantism,

          (b) addressing humanitarian needs, and

          (c) dismantling the old regime's weapons of mass destruction.

    In a slightly longer time-frame of no more than a few weeks, there 
will be additional priorities:

          (a) eradicating the remnants of old regime institutions, 
        including the several security and paramilitaly organizations 
        created to safeguard the regime,

          (b) ensuring the capture of leaders of the old regime, with 
        the expectation of indictment and prosecution,

          (c) restoring the infrastructure of vital economic sectors,

          (d) training an Iraqi police force,

          (e) restructuring the civil service, and

          (f) kick-starting the economy.

    These tasks will present formidable challenges of manpower, 
organization and command responsibility. With the collapse of the 
institutions of the old regime, the civil service and the police force 
necessary for dealing with emerging crises will be dysfunctional. For a 
country of 22 million, tens of thousands of people have to be mobilized 
to carry out the functions of distribution, communication, management 
and law enforcement. The old security apparatus of Saddam's regime must 
be neutralized and put out of commission. In its place, an adequate 
police force will have to be trained or re-trained. The old power 
structure that ran the country can no longer be allowed to continue, 
and the civil service will have to be reconstituted under new 
authority. There should be preparations of the prosecution of leaders 
of the old regime.
    The Iraqi economy has been devastated, and Iraqis have lived in 
deprivation for the past 12 years. Per capita gross domestic product in 
Iraq is estimated between $1,500-2,500 per year, having dropped from 
over $15,000 in 1990. In moderately developed countries, this figure is 
$25,000. An important task for the U.S. from the start is to regenerate 
the Iraqi economy, create employment opportunities and provide a 
visible improvement in the standard of living as quickly as possible. 
To this end, the United States should announce a Marshall Plan for Iraq 
even before the fall of Saddam Hussein's regime, and proceed to put it 
in place once there is a change of regime as an inseparable part of the 
reconstruction of Iraq. This is the single most important gesture of 
good will that the United States can offer, and will win the trust of 
Iraqis desperate for economic relief.
    The United States must take a major role in addressing these 
immediate and medium-term needs. The United States will have troops at 
hand, but will also need a large contingent of civilians both from the 
United States and other countries who are experienced in crisis 
situations and institution-building. With the passage of time it will 
be vitally important for Iraqis to perceive the United States as a 
benign presence, a problem-solver and guardian of their interests, 
rather than merely as a military police.
    Still, no matter how many American and foreign troops and civilians 
enter Iraq, Iraqi participation will be indispensable and decisive. For 
political and practical considerations, the United States will need to 
work with an Iraqi structure of authority to meet public security and 
humanitarian emergencies effectively. Therefore, the US should not 
allow an Iraqi vacuum of authority to endure, but must ensure that an 
Iraqi governing structure emerges rapidly. By necessity, the US will 
have to identify and deal with Iraqis who can step in to manage the 
country in partnership with the United States, its allies and 
international organizations. The sooner the United States identifies 
its Iraqi partners, the easier it will be to deal with the challenges 
of the day after. Who can the Unites States turn to in Iraq?
Traditional options for succession
    The United States will have the responsibility of determining which 
Iraqi partners it can work with, and who can best govern and administer 
the country through a transition period. The choices that the US makes 
will reflect several factors: how well the US understands Iraqi 
political society; what the US thinks about Iraq's future and the 
future of the Middle East; how the US calculates its long term 
interests in the region; and how strong a commitment the US is prepared 
to make towards helping Iraqis build their future.
    In the months following the overthrow of Saddam Hussein's regime, 
the options for leadership within Iraq will be limited. After 30 years 
of repression, execution or flight of political figures, indeed the 
cessation of all political life in the country, there will be no 
political parties or prominent leaders outside the perimeter of the old 
regime. Inside Iraq today there are only two circles of power which see 
themselves as candidates for succession: the military/security complex 
and the provincial clans of central Iraq who supply manpower to this 
military/security complex and have been co-opted and exploited by 
Saddam Hussein for his own ends. The fact is that the extensive overlap 
between the two circles makes them almost identical. The Ba'th party is 
a hollow and compromised institution reviled by Iraqis. Without Saddam 
Hussein, it has no authority and no credible candidates can step 
forward from its ranks. As a result, in the immediate period after 
regime change, and for many months after, few visible and credible 
candidates for political leadership will emerge from within Iraq.
    Once US forces enter Iraq with the explicit aim of removing the 
regime of Saddam Hussein, Iraqi troops will defect and cooperate with 
the United States. In the ensuing confusion, it is probable that a 
general or group of generals will stage an 11th hour coup against 
Saddam Hussein, giving them an immediate claim to political leadership. 
At this point, the US can choose the easy and quick way out of Iraq by 
installing in power the group of generals, and consider its task done, 
more or less.
    The United States must resist falling into this trap. Replacing the 
regime of Saddam Hussein with a military regime means a continuation of 
exclusionary politics and repression, a return to zero-sum game 
politics practiced by Saddam Hussein. A military government will be 
divisive for the country and lead to conflict, even to raising the 
specter of Iraq's dismemberment. For a start, most of the Iraqi 
generals who have achieved a degree of seniority will be vulnerable to 
charges of committing war crimes and crimes against humanity, whether 
against the Kurds in the 80s, in Kuwait in 1990-91, or against the 
uprising in 1991. Moreover, the military is heavily dependent on the 
clans of central Iraq, and, absent Saddam Hussein and his family, these 
clans have no acknowledged hierarchy. Each believes it is the rightful 
heir to power in Iraq, and none is ready to grant loyalty to any other. 
Competition for supremacy will be fierce. With access to weaponry and a 
kinship network through Iraq's armed forces, these clans may well 
become the future warlords of Iraq, setting in motion a string of 
successive military coups as they fight for political control.
    Long disenfranchised Iraqis, hoping for representation and 
inclusion, will simply rebel against a military government, discontent 
will gather momentum and invite foreign intervention. To maintain 
control, a military government in Iraq will have to resort to the 
tactics of Saddam Hussein, using military means and repression to quell 
opposition and challenges. The inexorable logic of militarism and 
violence as a tool to gain and stay in power will take hold of Iraq yet 
again. This will not serve Iraq or the United States well, and the 
negative repercussions will resonate throughout the region.
Founding a new order in Iraq
    The view, unfortunately popular in the West, that Iraq should be 
governed by military and tribal strongmen, is a regressive (not to say 
racist) view that takes us back to the 1920s and ignores political and 
social developments in Iraq over the past 80 years. It condemns Iraq to 
live under an authoritarian, militarist system that has brought Iraqis 
nothing but disaster. By extension it also condemns the whole Arab 
world to archaic political autocracies that have turned the Middle East 
into an economically and socially stagnant swamp. At a time when the 
U.S. is calling for accountable government and representation in other 
parts of the Middle East, there is no better place to start than in 
Iraq, where the US will have the best opportunity of showing that it 
will practice what it preaches.
    Another common error is to look at Iraq solely through the prism of 
ethnicities and religion. From this perspective, Iraq is divided into 
Kurds, Sunnis, Shi'a, Turkomans and Assyrians, as if these groups were 
static, homogeneous and uni-dimensional. This is only half true. For 
within these broad and simplified categories is a richer reality of 
multiple constituencies within each of these groups, often determined 
by political, not primordial, definitions. Thus it is equally valid to 
say that Iraq is divided into pan-Arab nationalists and pan-Kurdish 
nationalists, Iraq-centered nationalists, Sunni Islamists and Shi'a 
Islamists, leftist and socialists, and increasingly, liberal democrats 
of a global outlook who span all ethnicities and religions.
    Saddam Hussein and his regime thrived on a paradigm of Iraq as an 
ungovernable society torn by ethnic and religious differences, which 
requires the brute force of a powerful ruler to hold it together. It 
would be fatal if the United States went into Iraq with the intention 
of perpetuating this sick model of Iraq.
    We have to look for a different political paradigm in Iraq, one 
that takes into account the diversity of political interests brought 
about by social, educational and political developments over the past 
80 years. Once Saddam's regime is overturned, Iraqis need to see that 
the old order is truly swept away, that a new beginning is made, and 
that the United States is a partner and a nurturer of this new 
beginning. Regime change in Iraq has to be change to democracy, and a 
transitionai government supported by the United States has to 
demonstrate that it represents the new Iraq, and that is responsive to 
the political demands of Iraqis as citizens, and not merely to their 
religious and ethnic identities. The United States will be uniquely 
placed, and will have the power, to be the midwife for a new order in 
Iraq that will succeed Saddam Hussein.
    The transitional government most likely to hold Iraq together and 
gain credibility and support is a national coalition that is inclusive 
and pluralist, and reflects Iraq social and political diversity. It 
alone will be able to draw the country together, give the various Iraqi 
constituencies, including the military establishment, a stake in the 
center, and ease anxieties about the future. The national coalition 
should not stop at ethnic and religious diversity, the regressive 
paradigm of Iraqi politics, but must tap into more contemporary systems 
of social and political identification, and include urban professionals 
and Iraq's intelligentsia. Such a coalition may not produce the 
strongest type of government in traditional Middle Eastem terms, but it 
will derive its strength from the political balance, rely on consent 
rather than coercion, and minimize distrust. The national transitional 
government should be held to a high standard of conduct by the United 
States and the international community, not to mention Iraqis 
themselves.
    The time to start assembling this national unity government and 
planning operating mechanisms is right now, before the bombs start 
falling. For the past 12 years, the US government has been dealing with 
a vibrant and determined, if often fractious, Iraqi opposition in 
northern Iraq and in the Diaspora. This opposition encompasses many 
segments of Iraqi political society, including traditional and 
modernizing elements. The Kurdish parties, for example, represent a 
majority of the Kurdish population in a very tangible sense. For the 
others, they stand for political currents in Iraq, such as Shi'a 
Islamists, Arab nationalists, and liberal democrats. Relations between 
these groups have not always been easy, yet to a remarkable degree, 
they all agree on the fundamental need for democracy, rule of law, 
representation and pluralism. And all of them have sought the 
assistance and support of the United States in changing the regime in 
Iraq. To date, it is they who have sought a partnership, and it is the 
United States that has withheld it.
    The United States should aim to forge the nucleus of a transitional 
government in Iraq with the help of this opposition. Clearly, any 
opposition outside Iraq cannot be the full story: on the contrary, it 
will have to be augmented by individuals and groups from within the 
country as these emerge to the foreground. For the present, it provides 
a base to build on, and should only form an ``open circle'', to be 
completed once change occurs and as the internal situation develops. 
Such a project presupposes close work with the Iraqi opposition in the 
period leading up to regime change. Prior planning is particularly 
important for the purpose of providing a framework for civil 
administration, management of vital sectors, and policing.
U.S. Partnership with Iraqis
    The mandate and duration of the transitional unity government 
should be clearly defined. It should work closely with the United 
States and other countries to achieve the common objectives of training 
a police force to ensure public safety, attending to humanitarian 
needs, and rebuilding Iraq's civil service and administrative 
structure. Once these conditions are satisfied, it should have the 
further responsibility of preparing for its own dissolution and the 
establishment of a permanent, elected government. It must therefore:

          (a) address the issue of accountability for the previous 
        regime's crimes,

          (b) establish mechanisms for the return of refugees and 
        internally displaced persons,

          (c) convene a constitutional assembly to draft a permanent 
        constitution,

          (d) prepare for a constitutional referendum,

          (e) prepare for national elections, and

          (f) negotiate with the UN and Iraq's creditors for relief of 
        financial obligations.

    This is a tall order, and throughout the period of transition, Iraq 
will need United States and international assistance and support. 
Again, Afghanistan should not be the model. The issue should not be 
merely ridding Iraq of Saddam Hussein, but rebuilding Iraq as a modern, 
democratic state that redefines the standards of political conduct in 
Iraq, and set an example for the Middle East region as a whole.

    The Chairman. Thank you very much.
    Doctor, I want to make it clear, you were in the Ministry 
of Planning, not the Minister. I want to make that clear.
    Dr. Al-Shabibi. Thank you very much, Senator.

  STATEMENT OF DR. SINAN AL-SHABIBI, CONSULTANT TO THE UNITED 
                  NATIONS, GENEVA, SWITZERLAND

    Dr. Al-Shabibi. I really thank you for inviting me to speak 
at this August meeting----
    The Chairman. You have to speak almost directly into the 
microphone so people in the back can hear you.
    Dr. Al-Shabibi. Thank you very much for inviting me to 
participate in this hearing to speak about what I think is 
needed for the Iraq economy. I'm going, actually, to be brief, 
despite the fact that actually the subject is not at all brief. 
And what----
    The Chairman. I'm sorry, doctor. You really have to keep 
your mouth almost on the microphone. You have to pull it very 
close. As the distinguished Senator from South Carolina, 
Senator Thurmond says, ``You've got to talk into the machine.'' 
Thank you.
    Dr. Al-Shabibi. Thank you.
    I just actually want to give an idea about the 
characteristics of the Iraqi economy today. I mean, I'm not 
going to actually go into detail on this, but I'm going to 
enumerate certain characteristics in order to move on a certain 
actually strategy what is needed to be done in the short term 
and--in the longer terms and the short term, which is actually 
medium and long term.
    There are Iraqis now actually living under a situation 
where there is a huge resource deficit due to sanctions. There 
is actually, to a certain extent, negative or low growth rate, 
despite the fact that the growth rate has increased, but this 
is basically due to the increase in oil production, which is 
actually not real, because, I mean, what we mean here is the 
growth in the non-oil sector.
    There is actually a deteriorating social situation and 
human development, in general, and they're characterized 
basically by the disappearance of the middle class, once 
vibrant middle class. There is a collapsing exchange rate. 
There is rampant inflation and huge external debt and a big 
bill of war reparations. All these things are--I mean, we can, 
of course, speak in detail about these things, but they are 
actually the characteristics of the Iraqi economy.
    Those characteristics did two things to the Iraqi economy. 
First, they made the Iraqi economy unstable--unstable in 
economic terms, because, I mean, my colleagues are talking 
about political instability. I'm talking now about when you 
have inflation, when you have deficit, when you have all these 
things, we are actually talking about economic instability, and 
they are actually retarding the growth. And, of course, the 
political situation is a constraint--is a general constraint on 
all these things.
    So what is actually needed to be done? In order to grow, 
you need to do certain things immediately and, as you say, the 
day after, but immediately and in the very short term. And in 
order, actually, for Iraq--and I'm going to read part of things 
which I have done before. For Iraq to resume growth, it must 
first restore economic stability and create the conditions to 
sustain this stability.
    Restoring economic stability. Top priority must be given to 
raising the external value of the dinar--of the Iraqi dinar, 
the national currency--and controlling high inflation because 
of the adverse effects, social and political, consequences of 
this. In other words, the immediate priority is to restore 
microeconomic stability.
    If inflation is not reduced, it is likely that political 
protest will take place. Repressive measures must not be used 
to quell those protests in a new setup. A resolute effort to 
address that question of inflation as explained below should 
help stabilize the situation.
    So what is needed in this regard? Basically, what is 
needed, mobilization of substantial volume of financial 
resources. This mobilization has two dimensions, international 
and regional and domestic.
    What is needed on the international and the regional level? 
After the lifting of the sanctions, Iraq should be allowed to 
reach or approach its maximum oil export capacity. Its reentry 
into the oil market should be accommodated without adversely 
affecting the oil price level. This will require maximum 
cooperation by OPEC members, even though many of them are 
suffering from budget deficits.
    These countries are certainly aware of the suffering Iraqis 
have gone through and should also be aware that the economic 
and political stability of Iraq will have favorable 
repercussions on regional security. Agreement on a new oil 
production level in Iraq should be a process of dialog and 
negotiation with other OPEC members, a process by which Iraq 
can reintegrate into the region and the international 
community.
    Second, a standing should be granted to Iraq on the payment 
of debt reparation. Actually, Iraq is not paying its debt now, 
but, if conditions arise, probably there will be some questions 
in order to pay that debt.
    The Chairman. Doctor, can you tell us if you know what the 
total amount of reparations owed is, roughly, by Iraq? In other 
words, what is the nature of the debt and reparations you're 
referring to, the magnitude, roughly?
    Dr. Al-Shabibi. Well, the debt actually is divided in two 
parts. I mean, there is actually a debt owed to gulf countries, 
which is interest free, and there is also a debt which is to 
non-gulf creditors. And, I mean, estimates vary. All the 
official estimates about this is actually--an Iraqi statement 
in 1991 submitted to the United Nations, which says it's about 
$42 billion.
    The Chairman. Forty-two billion.
    Dr. Al-Shabibi. Yes.
    The Chairman. Thank you.
    Dr. Al-Shabibi. But, of course, I mean, because if it is 
not paid, it is accumulated.
    The Chairman. Yes.
    Dr. Al-Shabibi. So reparation, of course, is a different 
thing. I mean, they are--the statistics are there, and there is 
a Web site, a very good Web site, in--that claims there is 
about $300 billion. But, of course, these are verified, and 
what is paid is very much less. But the claims are still there.
    The Chairman. Thank you.
    Dr. Al-Shabibi. So there should be a standstill on these 
things. If this is not done, then Iraq may remain in deficit.
    While sanctions are currently causing their resource 
deficit, payment of debt reparation may later become its 
principal cause. The question is, of course, is that even when 
you lift sanctions and you get all oil exports back to the 
country, but there is a payment of debt reparation, then, of 
course, there is another leakage in the economy. Therefore, 
actually, you might go back to a deficit situation, and it is 
the deficit that is causing inflation and causing the lower 
value of the dinar. So it's actually a package.
    What Iraqis need is lifting of the sanctions coupled with 
relief from debt and reparation. Experience shows that high 
debt-service payment engender economic instability and fuels 
inflationary pressure.
    Third, the regional and international community should 
extend substantial financial assistance to Iraq. This 
assistance should be on concessional terms or preferably in the 
form of grants, would assume particular importance in the event 
that the reentry of Iraq into the oil market was only partially 
accommodated or if there was actually--no standstill agreement 
arrived at in terms of debt reparation.
    Those three measures actually are related to the fact that 
they are part of financing. They do not relate--they are 
measures by the international community. They do not relate to 
production--to actual production or trade. A lot of countries, 
I mean, go to financing before they start their growth policies 
and investment policies. And the situation is no different in 
Iraq.
    So these measures will actually indicate that there is a 
commitment, and there should be a commitment on serving all 
these--the debt problem and the reparation problem. And, of 
course, the financial assistance will depend--volume of 
financial assistance will depend on the extent to which these 
problems are solved.
    I have an estimate here--I mean, the question of financial 
assistance depends on the deficit of resources. I have, 
actually, an estimate which--in the next 5 years, the annual 
deficit could be about $7 billion--depending on the payment of 
debt, depending on how much the country will get in terms of 
exports.
    And, as you know, all these variables are subject to many 
assumptions. Therefore, this is one of the estimates, and this 
will indicate how much the international community should 
actually make available to Iraq.
    But if there is a solution to the other problems, like debt 
reparation and the reentry of Iraq into the oil market is 
guaranteed, the picture would be changed. Therefore, the 
question of actually negotiation of a question, studying the 
figures very well--but this is actually something of the order 
of magnitude.
    These measures, if undertaken, would indicate good will, of 
which Iraq needs, on the part of the international community 
toward and would contribute in an important way to assist 
ability. Success in the mobilization of resources depends on 
Iraq creditors in the region and/or outside the region, the 
U.N. and other exporting--other oil-exporting countries.
    What I mean to say here is, actually, that it's a process 
of dialog, a process of negotiation which actually brings Iraq 
back into the international--into the regional and 
international--it's not only actually the financial merit of 
it, but the fact that Iraq will again sit down with all those 
stakeholders and actually discuss all these issues.
    This is actually on the international and regional scale, 
which is very important, extremely important in the beginning. 
And, as I said, it doesn't require production or trade, because 
Iraq doesn't have the capability to go into--in the first 6 
months, let us say, into production and trade. And then this 
will help, giving Iraq a breathing space, in order to proceed 
for growth policies.
    But still, on the domestic level, Iraq should compliment 
the actions of the international community by refraining from 
money printing to finance its expenditures since it does not 
have, at this stage, the short term, the productive capacity to 
back this additional money supply. Money printing can, however, 
be tolerated if foreign exchange flows into the country. But it 
should be carefully synchronized with the growth in the 
domestic production on foreign exchange.
    Now I want to jump to--where should we use these 
resources--the resources which are mobilized from the relief 
from the obligations, from financial assistance, from oil 
exports--what are actually the outlets they are used for? 
First, they should be used for imports, especially for consumer 
goods and food, as a matter of priority. This is not 
inconsistent with the policy of supporting--because I suggest 
this--the latent demand for agriculture products and food in 
Iraq is almost certainly so huge that supply from imports and 
domestic production will be needed during the short term for 
the provision of social services, especially in the fields of 
health and education. Your reports stressed the poor state of 
hospitals and the shortage of medicine and medical equipment 
and school materials, for the construction and rehabilitation, 
especially of power and water plants, sanitation, sewage 
facilities, and telecommunications.
    And I want to give you an idea about actually some figures 
which I saw about reconstruction bill. There is an official 
figure written in Arabic--one of the Ministers mentioned that. 
It's about $400 billion. If we want actually to estimate--this 
is very difficult to estimate it while you are not on the 
ground. The question is, of course, in the oil sector, the lost 
output of oil from 1980--since the war with Iran--up to now, it 
was estimated to be about $150 billion. I mean, we had to take 
actually--what would Iraq have produced if there was no 
problems, no wars and these things, and then what--this is as 
far as the oil sector--as far as the forgone oil output, which 
actually needs to be recouped.
    The Chairman. Good luck.
    Dr. Al-Shabibi. Huh?
    The Chairman. I said good luck.
    Dr. Al-Shabibi. Yes, well, I mean, this is actually--it 
needs to be--well, that's why I'm mentioning about the 
reintegration of Iraq into the oil market and the cooperation 
from other oil-exporting countries. Then, of course, the non-
oil sector, which is almost the same level, because it 
represented about 50 percent of output in Iraq.
    We are talking about a reconstruction bill estimated in a 
methodological way, not actually the actual way, about $300 
billion. But, of course, this needs actually to be verified on 
these things.
    So the other outlet for the spending of the resources, for 
a new program of human development and technological 
rehabilitation so that Iraq can abridge the technological gap 
as far as access to information technology in concerned. This 
gap has been caused by sanctions and government policies which 
prevents access to information, in general. Information 
technology will be an essential requisite for growth in the 
next decade.
    Of course, when you restore--this, we hope--these measures 
should restore economic stability. Then we will have actually--
when we restore the economic stability, we will have to 
maintain that stability, and this will depend actually on 
actions basically by Iraqis. The first phase action by the 
international and the regional community is a phased approach, 
is a sequenced approach. Is it a cooperation by the regional 
and the international community. Now actually it is basically a 
proactive policy by Iraqis.
    Here in this phase, which is a phase to maintain the 
economic stability, is--Iraq should cooperate with OPEC--should 
initiate cooperation with OPEC to maintain a stable price level 
that guarantees good level of revenues but yet doesn't hurt 
actually the consumers of oil.
    In the first phase, we agreed on a standstill, then Iraq 
should propose negotiation of the claims, whether it is debt or 
reparation, which means actually negotiation with the creditors 
and negotiation with the U.N. And this, of course, you need a 
very well-integrated government in order to discuss all these 
issues.
    Then, of course, after you maintain stability, economic 
stability, you have the preconditions now and the conditions to 
resume an orderly growth. And this, of course, not related to 
the short term.
    And in this case, you have to--in Iraq before--because of 
the availability of oil revenues, the government and the 
authorities were not actually using and relying on economic 
policies to mobilize resources. We are suggesting here the 
policies first to create stability, but we are suggesting 
policies, macroeconomic, like monetary, fiscal, and these 
things, to mobilize resources for growth.
    And in this way the government should rely on macroeconomic 
policies, because--in the past, because of the fact that oil 
revenues are available if you--the thinking that if there is 
oil--if there is resources, why should you need policies to 
mobilize resources? And this is wrong, because mobilization of 
resources through policies is a capacity-building process in 
Iraq.
    And then, on redefining the priorities both in terms of 
production structure and ownership. And, of course, here we are 
suggesting that Iraq use its agricultural potential. It should 
concentrate on human development, it should concentrate on 
telecommunication and telecommunication sector, because at 
least actually our sectors which help Iraq integrate into--from 
a development point of view to integrate it into the 
globalization process.
    Last, Mr. Chairman, is that this program, which I haven't 
actually explained totally, but the thing is, this program 
really runs counter to a war against the Iraqi people. I mean, 
this is very important. All of us actually would like to end 
dictatorship and end oppression. There is definitely no 
question about that. But all these assumptions, all these 
proposals will break down if we have a scenario where there is 
war against, eventually, the Iraqi people or a war that 
destroyed the infrastructure. So actually this is very 
important, because we don't want to increase all the bills 
which we need to mobilize in order to get economic stability 
and economic development.
    I thank you very much, and I will be very happy to respond 
to any questions.
    [The prepared statement of Dr. Al-Shabibi follows:]

   Prepared Statement of Sinan Al-Shabibi, Consultant to the United 
                      Nations, Geneva, Switzerland

    The current state of the Iraqi economy is characterized by the 
following:

  <bullet> Huge resource deficit due to international sanctions.

  <bullet> Deteriorating social situation.

  <bullet> A very weak exchange rate.

  <bullet> Rampant inflation.

  <bullet> Big bill of war reparations.

  <bullet> Huge external debt.

    These characteristics created an unstable economic and social 
situation under which growth has been retarded.
           some thoughts about policies and strategies needed
    For Iraq to resume growth it must first restore economic stability 
and create the conditions to sustain it.
A. Restoring Economic Stability
    Top priority must be given to raising the external value of the 
dinar and to controlling high inflation, because of the adverse 
economic, social and political consequences of this. In other words, 
the immediate priority is to restore macroeconomic stability.
    What are the actions needed to reduce inflation?

    (I)  The mobilization of a substantial volume of financial 
resources. This mobilization has two dimensions: international and 
regional, and domestic.

          (a) On the international and regional level:

  <bullet> Iraq should be allowed to reach or approach its maximum oil 
        export capacity. Its reentry into the oil market should be 
        accommodated without adversely affecting the oil price level. 
        This will require maximum cooperation by OPEC members, even 
        though many of them are suffering from budget deficits.

  <bullet> A standstill should be granted to Iraq on the payment of 
        debt and reparations. If this is not done then Iraq may remain 
        in deficit. (While sanctions are currently causing the resource 
        deficit, payments of debt and reparations may later become its 
        principal cause). Experience shows that high debt service 
        payments engender economic instability and fuel inflationary 
        pressures.

          (b) The regional and international community should extend 
        financial assistance to Iraq. This assistance, which should be 
        on concessional terms or preferably in the form of grants, 
        would assume particular importance in the event that the re-
        entry of Iraq into the oil market was only partially 
        accommodated and/or if no standstill is granted on the payment 
        of debt and reparations \1\
---------------------------------------------------------------------------
    \1\ The financial assistance will depend on the evolution of the 
Iraqi balance of payments (BOP). This in turn depends on the extent to 
which Iraq will be relieved from the external claims. Iraq's external 
debt is estimated at $100 billion, $60 billion of which belongs to non-
Gulf creditors. If this debt is to be paid in 20 years then the country 
needs to allocate $3 billion. Interest payments for the next five years 
is around $2 billion annually (on the assumption that interest rate 
equals 4 percent). Gulf-debt payments equal about $2 billion annually. 
Thus debt service amounts to $7 billion. Reparation (25% of petroleum 
exports) will be $3 billion at the minimum. Thus external claims 
excluding reconstruction cost will amount to $10 billion, on average 
two thirds of petroleum exports. If the country needs about $12 billion 
of imports (very modest) then the deficit will be $7 billion a year. 
This is more or less what Iraq needs annually if nothing is done to the 
external claims. But the situation will greatly improve if Iraq is 
relieved from debt and reparations, under which case the need for 
assistance will be less. There is no estimate concerning the cost 
reconstruction. But Iraq lost about $155 billion in terms of oil 
exports since 1980 and a similar amount in the non-oil sector taking 
into account that this sector represents on average half of the 
economic output. The package suggested will go along way to help Iraq 
in recouping those losses.
---------------------------------------------------------------------------
          These measures, if undertaken, would indicate goodwill on the 
        part of the international community towards Iraq and would 
        contribute, in an important way, to its stability. Success in 
        the mobilization of resources depends on Iraq's creditors in 
        the region and/or outside the region, the UN and other oil-
        exporting countries.

    (II)  On the domestic level, Iraq should complement the actions of 
the international community by refraining from money printing to 
finance its expenditures, since it does not have at this stage (the 
short run) the productive capacity to back this additional money 
supply. Money printing can, however, be tolerated if foreign exchange 
flows into the country, but it should be carefully synchronized with 
the growth in domestic production and foreign exchange.
    While government expenditure should be tightly controlled, support 
for agriculture and other essential services will remain important 
during this period. Agriculture, for example, is a labor-intensive 
sector and employment will be a serious problem facing Iraq, especially 
when a large part of the army is demobilized.
    These actions by Iraq, regional states and the international 
community should be undertaken rapidly in order to arrest any sources 
of economic or political instability.

    (III)  The resources thus accumulated should be used immediately:

  <bullet> For imports, especially of consumer goods and food as a 
        matter of priority.

  <bullet> For the provision of social services, especially in the 
        fields of health and education. UN reports stress the poor 
        state of hospitals, and the shortages of medicine and medical 
        equipment, and school materials.

  <bullet> For reconstruction and rehabilitation, especially of power 
        and water plants, sanitation, sewage facilities and 
        telecommunications.

  <bullet> For a new program of human development and technological 
        rehabilitation so that Iraq can bridge the technological gap as 
        far as access to information technology is concerned.

    Those policies and measures, especially the import of essential 
goods, should help stabilize the economic, social and political 
situation, and put the country back on the path of development and 
growth through the implementation of macroeconomic policies and 
development strategies. The package suggested above can indeed be 
initiated rapidly because it does not depend on production or trade. In 
correcting their external payments position, many countries resort 
first to external financing, which provides a breathing space to start 
adjustment policies.
B. Maintaining Economic Stability
    Once the situation is relatively stable, Iraq should exert every 
effort to maintain this stability If the deficit recurs, it will again 
lead to a lower value of the dinar and inflationary pressures. 
Maintaining stability will depend more on domestic effort and 
macroeconomic policies than on financial resources, as in the period of 
restoring stability. Maintaining stability will require the following 
measures:

  <bullet> Iraq should cooperate with other oil producers to bring 
        about stable and predictable price level.

  <bullet> Having agreed with its creditors and the UN on a temporary 
        standstill on the payment of its obligations, Iraq should 
        propose their renegotiation.

    If a situation of resource deficit returns, then inflation will 
also return together with macroeconomic instability. History provides 
many examples of deficits accompanied by inflation. Many Latin American 
countries experienced hyperinflation because of debt crises in the 
1980s. Germany's hyperinflation period in the 1920s was partly the 
result of it having to lower exchange rates to generate a huge trade 
surplus to meet reparations payments.
    The above shows that a solution to the problem of external 
obligations of Iraq must be found. It can come through negotiations and 
agreements with the international community and the UN. It is not in 
the interest of Iraq to take unilateral action.
    Although the immediate objective in the short run is to restore and 
maintain economic stability, A lot of work needs to be done to design 
policies for implementation at a later period. There should also be an 
initiative to draft a new constitution and laws to ensure democratic 
rule, including electoral and press-freedom legislation. Also, work 
should be done to provide solutions to the huge social problems caused 
by wars, sanctions, displacement and re-allocation of the military 
workforce to the civilian economy. While these programs must be 
vigorously implemented once economic stability is regained and 
maintained, this does not preclude the provision, at this stage, of 
financial resources to agriculture and the social sector, because of 
their obvious contribution to stability. However, the real, and the 
most efficient solution to the displaced population and the released 
military workforce lies in achieving high growth in the civilian 
economy, since this will determine its capacity to absorb additional 
labor.
    In the short run, therefore, while stability is a priority, 
designing policies and programs and paving the ground for building 
institutions is also important.
C. Resumption of Growth
    When the economy attains economic stability, is able to maintain 
it, and gets reintegrated into the world economy and community, it can 
proceed to implement an orderly development strategy that ensures 
faster growth.
    There is a pressing need to increase the efficiency of the non-oil 
sector so that its contribution to overall output and growth is 
increased. Based on this, the emphasis of the new orientation should 
be:

  <bullet> On the intensive use of economic policies to mobilize 
        resources for development, not merely to attain and maintain 
        economic stability.

  <bullet> On redefining the sectoral priorities both in terms of 
        production structure and of ownership.
                  direction of macroeconomic policies
    The use of macroeconomic policies in economic management of the 
non-oil sector will involve a different relationship between the state 
and the private sector. In the past, state intervention in Iraq was 
driven by ideological motivations, which led to a confrontational 
relationship with the private sector. Finally, the state was unable to 
realize the advantages that could be reaped through combining ample 
resources with good macroeconomic policies.
    The objective of fiscal policy is, in the long run, to diversify 
the structure of government revenues in order to reduce the dependence 
on the oil sector. On the revenue side the government will have to 
reform tax system. Government expenditure will have to be rationalized 
and the ratio of military to total expenditure substantially reduced.
    Monetary policy needs the right infrastructure, in particular 
reform of the financial and banking system and, more importantly, 
independence of the Central Bank. Otherwise, the Central Bank will end 
up financing the budget deficit. But the independence of the Central 
Bank should not prevent the adoption of a development-friendly monetary 
policy.
    Regarding the policy of exchange rate, an oil-dominated, overvalued 
rate may be detrimental to the growth prospects of the non-oil sector. 
A realistic exchange rate for this sector may improve its 
competitiveness, given that the diversification of sources of foreign 
exchange assumes a high priority.
                          sectoral priorities
    Sectoral policies have two dimensions, ownership and productive 
structure:
    As far as ownership is concerned, the private sector should play a 
leading role in the development process. Apart from efficiency 
considerations, emphasis on the private sector will be a matter of 
necessity. The government has limited choices in this respect, since it 
will be burdened by the payments of debt (which is public in Iraq's 
case) and of reparations, if relief did not materialize. Privatization 
is one way of encouraging and developing the private sector. However, 
privatization schemes undertaken in Iraq in the second half of the 
1980s were driven by the need to finance the war with Iran, and 
efficiency considerations were secondary. In addition, many of the 
state enterprises were sold at book value to the government-linked 
private sector. The strategy governing the reliance on the private 
sector will have to be reconsidered and reevaluated with a view to 
putting efficiency considerations first.
    With respect to the productive structure, the priority should be on 
human development and agriculture. Iraq, at present, is not well placed 
to reap the benefits of globalization and meet its challenges without 
serious efforts to enhance its technological base in these areas. 
Development of the agricultural sector should save the country 
substantial amounts of foreign exchange, a precious resource in a 
future Iraq. In the industrial sector, light industry, especially food 
processing, should receive priority because of existing domestic demand 
and its export potential. Development of other sectors should be based 
on careful market studies that take into account domestic and foreign 
demand conditions and existing supply capacities in the region. The 
development of these sectors and any other sectors, which can generate 
in a short time the required foreign exchange, can also be financed by 
foreign direct investment (FDI) by Arab and multinational corporations 
because domestic resources may not be sufficient for consumption and 
development purposes. FDI, which can be undertaken within the 
development strategy of the country, is a source of finance and 
technology. Another source of finance is Iraqis resident abroad.

    The Chairman. Thank you, doctor.
    Colonel.

    STATEMENT OF COL. SCOTT R. FEIL, USA (RET.), EXECUTIVE 
 DIRECTOR, ROLE OF AMERICAN MILITARY POWER, ASSOCIATION OF THE 
                    U.S. ARMY, ARLINGTON, VA

    Colonel Feil. Mr. Chairman, thank you and members of the 
committee for providing the opportunity to comment on potential 
post-conflict reconstruction efforts in the wake of a U.S.-
Iraqi conflict.
    While I'm co-directing a project concerned with this issue, 
jointly conducted by the Association of the U.S. Army and the 
Center for Strategic and International Studies, the views 
expressed here are my own and do not necessarily reflect the 
views of the parent organizations or my colleagues or our 
commission, which has several Members of Congress on it.
    I have a statement for the record, sir, and I'd like to 
make a few brief comments.
    The Chairman. Your statement will be placed in the record.
    Colonel Feil. Thank you, sir.
    Any post-conflict reconstruction effort taken in the wake 
of an American-led conflict with Iraq will require broad 
international support, significant human and material 
resources, and an unwavering political commitment over time. As 
you've heard, the United States has a number of national 
interests at stake in Iraq that would require significant and 
sustained involvement.
    First and foremost, the United States must make certain 
that Iraq no longer poses a threat to its neighbors or the 
world. We cannot tolerate weapons of mass destruction possessed 
by a regime that operates outside the bounds of civilized 
behavior.
    Second, the United States must prove its commitment to 
securing peace in the region. Iran's perceptions of U.S. 
objectives and the reactions to having U.S. forces engaged 
within both Iran's eastern and western neighbors must be 
seriously considered.
    And, third, the Iraq that follows a conflict must be both 
viable and capable of self-determined behavior in consonance 
with generally accepted norms of international and domestic 
order. It must neither be a basket case nor a bully.
    I think the international community will hold the United 
States primarily responsible for the outcome in the post-
conflict reconstruction effort, but we can expect significant 
international involvement in any post-conflict situation in 
Iraq. Due to the vacuum expected to exist at the end of an 
Iraqi war, the notable centrifugal tendencies in several 
regions of the country and the significant economic potential 
which may be realized in the successful reconstruction of the 
country, the coordination of international actors is 
extraordinarily important. The international community should 
begin now to implement planning mechanisms and align tasks, 
actors, and resources to accomplish this effort. The key tasks 
should be clearly delegated to various actors based on their 
relative comparative advantages. I note that we began to 
discuss the situation in Germany and what it would like after 
the end of World War II beginning as early as 1942.
    The United States needs a strategy for Iraq that integrates 
post-conflict reconstruction efforts with the political and 
military campaign to accomplish regime change. U.S. planning 
efforts should avoid the false dichotomy of conflict and post-
conflict operations, and our strategy and operational plans 
must define a seamless progression of tasks, responsible 
actors, and the resources applied to those tasks that 
accomplish the national objective. The planning for post-
conflict reconstruction must commence now rather than after 
hostilities have commenced or, worse, ended.
    I think Iraq will need international support in four major 
areas--security, governance and participation, justice and 
reconciliation, and social and economic well-being. I'd like to 
provide a little bit more detail on the security requirements.
    First, there are indications, which are arguable, that 
removal of the current security forces and apparatus without 
significant capabilities to immediately replace them may result 
in reprisal and retribution killings in Baghdad and other large 
cities. Public order and the protection of the populace and the 
humanitarian relief effort is paramount in this regard.
    A second important aspect of security will be obtaining 
guarantees from the neighboring states to refrain from trying 
to control or unduly influence events in Iraq. This leads to a 
requirement that the Shatt al-Arab and the Iraqi oil fields 
must be protected.
    Disarmament, demobilization, and reintegration efforts will 
demand special attention. With the Iraqi forces, including 
their reserves, equaling about 700,000 personnel and another 
60,000 in the various security services, disarmament, 
demobilization, and reintegration efforts will dwarf anything 
that we have previously attempted. Iraqi's large and 
organizationally diverse security forces will require 
integration into organizations that are visible, transparent, 
and responsive to a legitimate government.
    And, finally, and one of the most important tasks, control 
of the weapons of mass destruction and their facilities 
associated with production and storage must be a top priority.
    I would propose the following security force, and I posit 
this in, U.S. force equivalents, because I think that we will 
be the ``lead dog in this pen,'' Mr. Chairman, and I think that 
if we get coalition partners to add to this effort, that is 
additional capacity that may allow us to leave or reduce our 
presence at an earlier rate, but I don't know that it's a 
substitute for a core American presence in the country.
    The requirements are: providing the core security for the 
largest cities, about 10 million in population in the largest 
eight, which is about 40 percent of the total population, and 
the humanitarian effort; securing the WMD and their associated 
facilities; patrolling the Iranian border areas and the Kurdish 
areas; protecting the Shatt al-Arab and the oil fields; 
monitoring the regions of the Tigris, the Euphrates, and the 
Syrian border; the Tigris and Euphrates contain the bulk of the 
population; and then conducting an integrated disarmament and 
demobilization process that is coordinated with the 
reintegration efforts.
    You've heard my colleague, just previously, talk about the 
economy; releasing some several hundred thousand people back 
into the economy as a result of a demobilization effort it has 
to be integrated well with efforts to provide employment and 
useful things for idle hands to do; and, last, a reform of the 
security sector.
    These missions place a premium on intelligence, mobility, 
maneuverability, and boots on the ground, quite honestly. And, 
therefore, I would propose a post-conflict security force of 
about 75,000 personnel. This does not, as I said, count 
coalition contributions, and I would also point out that for 
many of the things that are called for in this type of a 
situation, the United States may be the only provider of that 
capability.
    I would organize this, and this is a notional sort of force 
list, with a corps headquarters--and I think that the entire 
force has to have a significant aviation capability so that you 
can retain your mobility and with a small number of soldiers--
make your presence felt around the country using a mobility 
advantage--a corps headquarters, two U.S. divisions, one of 
which I think should be the 101st Airborne Division because of 
its aviation capability.
    The second division is situation-dependent as to whether 
the neighbors, especially Iran, are--how their behavior is 
evaluated. If the evaluation of their behavior and their 
attitude toward what we're doing is relatively complacent, then 
I think a light division with more infantry to use within Iraq 
is probably appropriate. If, on the other hand, the Iranians 
are threatening or there is a problem with the brigade of the 
Iraqi Diaspora that's coming back into the country, then 
perhaps an armor division or a mechanized division would be 
more appropriate to help secure Iraq's eastern border.
    Two U.S. calvary regiments. They have a significant 
aviation capability, and they're organized, trained, and 
equipped specifically for a role that would allow them to do 
border surveillance and patrolling in certain areas.
    A corps aviation brigade--once again, to plus-up the 
aviation. I think a special operations forces group, an SF 
group, would be required initially for securing their weapons 
of mass destruction, and then they could transition into what 
they're also very, very good at, which is security sector 
reform and training of a new Iraqi military.
    A corps Support Command for logistical support, an 
additional engineer brigade to help work on the infrastructure, 
and then 4,000 police monitors. The standard that has been used 
ever since the end of World War II and is adopted by the UNDP 
is about one policeman for every 450 to 500 citizens. And then 
the standard that we've arrived at in the Balkans is that you 
have about one monitor for every ten policemen in order to 
achieve round-the-clock monitoring capability. And so that 
winds up being about 4,000 international police monitors, and I 
would strongly recommend that those come from the moderate Arab 
states and those along the North African littoral that we might 
be able to encourage to participate in this.
    There will be a requirement for some limited U.S. Air Force 
tactical air lift, but I think that that can--a lot of that can 
be based in Turkey, Kuwait, and perhaps some of our other 
partners as time goes on and we reduce our presence within 
Iraq.
    The total cost of this force--once again, based in U.S. 
equivalents, and there's wide variation in counting--could 
range up to about $16 billion for that first year for a force 
of 75,000 to operate within Iraq.
    And, last, the duration of that force. I think that in the 
past, we have probably been a little bit overly optimistic. I 
think that force would have to stay within Iraq performing its 
functions for approximately a year. As Professor Marr pointed 
out, a national constituting process that could take place 
within 6 months and that was legitimate might reduce some of 
that requirement, and we might be able to begin drawing that 
force down a little bit earlier. But I would see a significant 
force, one above the level of 5,000 people, with some sort of 
reduction in that force going on, but I would see a significant 
force of about 5,000 people remaining in Iraq for a good 5 to 6 
years.
    We would try to reduce that presence consonant with the 
progress in developing Iraq's legitimate security sector and 
also with progress in the other four areas of reconstruction--
or the other three areas of reconstruction, which are economic 
and social well-being, justice and reconciliation, and 
governance and participation.
    I have included in my statement, for the record, some 
policy recommendations that we've made for those three areas, 
but I've made it to the bell, and so, sir, I will now be happy 
to answer any questions.
    Thank you.
    [The prepared statement of Colonel Feil follows:]

 Prepared Statement of Col. Scott R. Feil, Co-Director, AUSA/CSIS Post-
                    Conflict Reconstruction Project

      Post-Conflict Reconstruction in Iraq: Strategy and Resource 
                             Considerations

                              introduction
    Any post-conflict reconstruction effort taken in the wake of an 
American led conflict with Iraq will require broad international 
support, significant human and material resources, and an unwavering 
political commitment over time. The size of the country, the ``tough 
neighborhood'', the scope of the human needs, and the potential 
additional damage to infrastructure combine to make rebuilding Iraq an 
immense challenge. The ongoing war against terror inside and outside 
Afghanistan also complicates the task for the United States, as does 
Iraq's proximity to the Arab-Israeli situation, both geographically and 
conceptually. While the United States may prefer to de-link actions in 
these three areas, strategic outcomes result from interaction, and our 
adversaries and allies have a view which must be considered in planning 
and execution.
    Past post-conflict reconstruction efforts around the globe can 
illuminate potentially effective and efficient mechanisms to undertake 
this challenge. As part of a larger inquiry into the capacities and 
gaps that exist in the U.S. ability to respond to complex emergencies, 
the Post-Conflict Reconstruction project has developed a framework to 
help understand the key challenges to rebuilding a country following 
conflict. This paper seeks to distill some of the lessons from previous 
efforts and apply them to the case of Iraq, with an emphasis on the 
security requirements that must be established as a foundation for 
integrated efforts to reconstruct capacities in economic and social 
well-being, justice and reconciliation, and governance and 
participation. Our goal must be a minimally capable state that can 
order its internal and external affairs according to generally accepted 
norms of behavior.
    The United States has a number of national interests at stake in 
Iraq that would require significant and sustained involvement over 
time. First and foremost, the United States must make certain that Iraq 
no longer poses a threat to its neighbors or to the world, either 
through its military capacity, or through its political and ideological 
make-up. Weapons of mass destruction coupled with a regime that 
supports terrorism cannot be tolerated. Second, having gone to war in 
Afghanistan, then following with an effort in Iraq, the United States 
must prove its commitment to securing the peace, not only in those 
states, but also in the region. In this situation, Iran's perceptions 
of U.S. objectives and reactions to having U.S. forces engaged within 
Iran's eastern and western neighbors must be considered. Third, the 
Iraq that emerges from the conflict must be both viable and capable of 
self-determined behavior in consonance with generally accepted norms of 
international and domestic order. It must be neither a basket case nor 
a bully. If the United States and the international community fail to 
improve the situation of people living in the region, many will believe 
that the United States' war is indeed against Muslims--a conclusion 
that would have chilling consequences for U.S. interests.
    The United States must evaluate its own comparative advantages and 
allocate significant resources accordingly. It is absolutely essential 
that the United States play a constructive role in a number of areas, 
not just in the military arena. If the United States does not 
definitively debunk the myth that it ``destroys but does not build,'' 
pursuing national interests and maintaining a global system to the 
benefit of all will prove progressively more difficult.
                                strategy
    The key to bringing transformative change to Iraq is to establish a 
sustainable political process by which various factions develop and 
continuously refine a common national agenda. This political 
constituting process must offer opportunities for broad and widespread 
participation of various Iraqi groups at all levels, and must 
realistically account for current power realities in the country. The 
introduction of the exiled military and political leaders poses 
significant challenges in the absence of any viable presence within the 
country of organized opposition to the current regime. ``Vacuum 
filling'' must not be a random process.
    The centerpiece of the international strategy to assist in these 
constituting processes will be striking the right balance between 
establishing responsive and effective central governing institutions 
and enhancing citizen participation. For the international community to 
focus exclusively on one at the expense of the other would be 
shortsighted. Whereas international support will pay greatest dividends 
in the security and justice sectors when applied to create national 
institutions, support for governance and social/economic needs will be 
required at both the local and national levels. Decades of war, 
economic diversion, deprivation and misrule have weakened the ability 
of the society to mobilize and develop legitimate political voice. The 
assisting international community must encourage and develop the 
capacities for grass roots political action while supporting and 
guiding the establishment of a strong government that can deliver 
needed goods and services.
                           regional strategy
    Any strategy for Iraq must be integrated into a broader approach to 
the Central Asian and Middle East regions. Iraq's neighbors have their 
own vital national interests to pursue--the pursuit of those interests 
can either contribute to a successful outcome or provide the 
centrifugal forces that result in disintegration, additional conflict, 
and escalation to a set of regional wars. International attention to 
Iraq and its neighbors should be calibrated to maintain strategic 
balance in the region and to minimize threats to stability and security 
emanating from the territory of any state. Diplomatic initiatives must 
establish the conditions in on-going regional conflicts, (Afghanistan 
and the Arab-Israeli situation) which will not exacerbate the 
challenges arising from a conflict and post-conflict reconstruction 
effort in Iraq. On the security front, the United States and its 
friends must support a regional strategy to address the arms flows and 
political meddling that have undermined social well-being, good 
governance, and stability in the region.
    Regional planning and cooperation for mutually supportive 
development has an important role. Iraq's economic potential, 
consisting almost exclusively at present of oil revenues, when properly 
developed and channeled to investment in productive sectors, can become 
an engine of diversification and growth for the region. Given high debt 
burdens and severe governance challenges throughout the region, 
addressing economic and political development in both a regional and 
bilateral context is imperative.
                    international division of labor
    Leading an effort to remove the current regime in Iraq will confer 
special responsibilities upon the United States. In many post-conflict 
situations arising from ethnic/tribal situations or failed state 
capacity, developing indigenous ownership of the process and 
sensitivities to American presence often mitigate against a large U.S. 
footprint. The United States thus properly assumes a low profile and 
limitations on presence, preferring to support the effort with more 
indirect methods of financial and advisory resources. However, the U.S. 
can expect to be held by the international, Arab, and Muslim community 
to persevere in a public way in Iraq. In some ways reminiscent of post-
WWII in Germany and Japan, the U.S. will be expected to be the lead, 
visible, and very responsible agent in Iraq.
    However, while the international community will hold the U.S. 
primarily responsible for the outcome, we can expect significant 
international involvement in any post-conflict situation in Iraq. Due 
to the vacuum expected to exist at the end of an Iraqi war, the notable 
centrifugal tendencies in several regions of the country, and the 
significant economic potential which may be realized in the successful 
reconstruction of the country, the coordination of international actors 
is extraordinarily important. Indeed, the dangers and needs will be so 
great that the international community should begin now to implement 
planning mechanisms and align tasks, actors and resources. Key tasks 
should be clearly delegated to various actors based on their 
comparative advantages, keeping competition among donors to an absolute 
minimum. We began to discuss the missions, roles and composition of a 
security force for post-war Germany as early as 1942.
    A key step to effective coordination will be ensuring a 
comprehensive, joint assessment of Iraq's needs. This would not only 
help create a common understanding of the challenges ahead among donors 
and potential Iraqi leaders, it would also spare a traumatized society 
from a succession of many repetitive and competing assessments. 
Although a joint assessment would help establish a division of labor 
with respect to specific responsibilities, some of the general 
comparative advantages of the various donors are already quite evident.
    The UN should play a leadership role in three areas in particular: 
managing support for the political process in Iraq; overseeing donor 
coordination efforts; and managing humanitarian assistance programs. On 
the humanitarian side, UN agencies such as the World Food Program 
(WFP), UN High Commissioner for Refugees (UNHCR), and UN Children's 
Fund (UNICEF) are already administering and disbursing humanitarian aid 
flows to vulnerable populations. In addition, UN agencies such as 
UNHCR, the World Health Organization (WHO), UNDP, and the International 
Organization for Migration (IOM) have comparative advantages in 
everything from refugee repatriation, provision of key health services, 
community based social and economic development, and integration of the 
Iraqi diaspora.
    Similarly, the World Bank, UNDP, and ADB should provide leadership 
in the economic rejuvenation of Iraq. They are sufficiently resourced 
and experienced to provide assistance in the areas of employment 
generation, infrastructure, and agriculture reform that will lay the 
foundation for trade, investment, and sustainable economic activity. 
The World Bank's economic recovery programs should stress good 
governance practices in order to ensure efficiency and effectiveness. 
Additionally, the World Bank, in cooperation with the UN special 
representative of the secretary general and UNDP, should administer and 
coordinate reconstruction funds through the establishment of a 
multidonor ``trust fund,'' and should take the lead in ensuring that 
oil revenues are managed in such a way as to support reconstruction and 
legitimate government activities.
    In addition to refraining from meddling in internal Iraqi affairs, 
regional actors should also be prepared to play a helpful and 
supportive role by offering diplomatic and financial assistance for 
Iraq's emerging political reorientation. On the diplomatic side, a 
group, consisting at a minimum of its neighbors (Iran, Turkey, Syria, 
Jordan, Saudi Arabia, and Kuwait), plus the United States, Russia, the 
EU, and Japan, should be assembled to provide political stability in 
the region, guarantee Iraq's borders, and prevent spoilers from 
jeopardizing success. Assistance to regional actors in dealing with 
their own internal development needs should be considered part of the 
larger vision of post-conflict reconstruction in the region.
    Recommendation: The United States must develop and implement a 
strategy for Iraq that integrates post-conflict reconstruction efforts 
with the politico-military campaign to accomplish regime change. The 
U.S. must avoid succumbing to the false dichotomy of conflict and post-
conflict operations and the strategy and operational plans must define 
a seamless progression of tasks, actors, and resources that accomplish 
the national objective. The planning for post-conflict reconstruction 
must commence now, rather than after hostilities have commenced, or 
worse, ended.
                 substantive pillars of reconstruction
    Iraq will need international support in four major areas: (1) 
security; (2) governance and participation; (3) justice and 
reconciliation; and (4) social and economic well-being. Each need will 
be analyzed below, with special attention to what the U.S. role could 
and should be.
                                security
    While permanent security institutions are reconstructed, 
transitional security arrangements will be necessary. The U.S. can 
expect requirements for a significant security force to remain in Iraq 
to continue for some time. Cessation of hostilities may come at a 
distinct point in time, or conflict may simply decline in intensity and 
geographic scope. In either event, the provision of security by the 
U.S. and the international community will be a continuing requirement 
if the reconstruction effort is to succeed. Internally, there are 
indications that removal of the current security forces, without 
significant capabilities to immediately replace them, may result in 
reprisal and retribution killings in Baghdad and other large cities. 
The largest cities of Iraq (Baghdad, Al Basrah, Mosul, Kirkuk, Irbil, 
As Sulaymaniyah, An Naj if, and Al Hillah) contain about 40% of the 
population, with most of the rest also concentrated in the Tigris-
Euphrates river valley system. This is a population that has both 
labored under a repressive regime for decades, but also contains a 
significant youth population that has only known one form of government 
and one leader.
    A second important aspect of security will be obtaining guarantees 
from all neighboring states to refrain from trying to control or unduly 
influence events in Iraq. Many of the population centers are close to 
the Iran-Iraq border, scene of devastating war in the 1980s, and Syria 
and Iraq have had significant security and resource differences 
exacerbated by feuding over the Ba'th Party, whose ideology they both 
claim. The Shaat al Arab region and Iraqi oilfields must be protected. 
Past Post-Conflict Reconstruction efforts in other countries with 
regional rivals suggest that a ``lead country'' with significant 
resources, prestige, and acceptable impartiality and objectivity is 
required to provide ``space,'' and general direction and coordination 
for a successful effort.
    Disarmament, demobilization, and reintegration efforts will demand 
special attention. The structure of the Iraqi Armed Forces, with units 
such as the Republican Guard having political, as well as military 
functions, requires a plan that can accommodate different types of 
``soldier,'' based on security needs at the time. As in Kosovo, it may 
be a priority to keep the most potentially active military leadership 
in some form of visible unit control, rather than dispersing them back 
into the population. With the Iraqi forces estimated at 400,000+, 
reserves bringing the total to 700,000, and another 60,000 in various 
security services, DDR requirements will dwarf previous efforts. Many 
of the regular (non-Republican Guard) forces may create minimal demand 
for disarmament and demobilization--as in the Gulf War they may simply 
be ``paroled.'' However, they will create significant strains on a 
fragile economy if transition and reintegration programs are not in 
place immediately to process them. The need to create opportunities for 
learning a new trade, schooling, and farming will be huge. Ultimately, 
the success of these efforts will depend on reestablishing an economy 
capable of providing a significant number of jobs.
    Iraq's large and organizationally diverse security forces will 
require integration into organizations that are visible, transparent, 
and responsible to a legitimate government. Building a national army 
and responsible internal security forces/police must be a top priority 
for the new government during the medium- to long-term.
    The control of Weapons of Mass Destruction (WMD) and the facilities 
associated with their production and storage must be a top priority.
Recommendations for U.S. Involvement
    1. Post-Conflict Security Force:

  <bullet> Requirements:

    <bullet> Providing the core security for the largest eight cities, 
            (10 million + population) and the humanitarian effort.
    <bullet> Securing WMD and associated facilities.
    <bullet> Patrolling the Iranian border areas and the Kurdish areas.
    <bullet> Securing the Shaat al Arab and major oil fields.
    <bullet> Monitoring the region of the Tigris and Euphrates and 
            Syrian border.
    <bullet> Conducting integrated disarmament and demobilization; 
            coordinating with the reintegration efforts.
    <bullet> Security Sector Reform.

    These missions place a premium on intelligence mobility/
maneuverability, and ``on-the-ground'' capability.

  <bullet> Force size: 75,000 personnel (based on missions, terrain, 
        and capabilities and calculated in U.S. forces. This does not 
        count coalition contributions, some of which may be used in 
        later phases as off-sets. For many of these capabilities the 
        U.S. is the sole provider).

    <bullet> One Corps Headquarters.
    <bullet> Two U.S. divisions, one of which should be the 101st 
            Airborne Division (Air Assault). (With a stable Iranian 
            border, the other division could be a light division. If 
            Iran were to adopt a more threatening posture during the 
            conflict or after, then a heavy (armored or mechanized 
            infantry division would be the second). The 101st Division 
            has a significant aviation component.
    <bullet> Two U.S. Cavalry Regiments, one of which is heavy. These 
            ground units have large aviation capability and are 
            organized, equipped and trained for reconnaissance and 
            combat operations that are suited for border operations.
    <bullet> One Corps Aviation Brigade in addition to the one normally 
            part of the Corps,
    <bullet> Special Operations Forces Group (initially for WMD 
            security, then for DDR/SSR).
    <bullet> Corps Support Command for logistic support.
    <bullet> Engineer Brigade.
    <bullet> 4000 international police monitors. (Predicated on 
            historically proven ratios of one policeman for every 450 
            to 500 citizens and one monitor for every 10 policemen).
    <bullet> Limited USAF tactical airlift.

  <bullet> Cost: The total cost of such a force is based on a per 
        soldier cost estimate of $215,000 per year, yielding an annual 
        security cost for the force in country of approximately $16.2 
        billion per year. (While there is wide variation in estimating 
        the costs/soldier, Western European nations' cost factors are 
        about $120,000 per soldier per year, and UN forces cost about 
        $103,000 per year).

  <bullet> Duration: The force would stay in place as described for at 
        least one year. Based on progress in reconstructing and 
        reforming the security sector and in the other issue areas of 
        well-being, justice and governance, the force could begin to 
        turn over functions to either replacement units from other 
        nations or the UN, or to the indigenous security force. The 
        duration for a significant, (above 5,000) U.S. presence in Iraq 
        would be for 5-10 years, based on an estimate of how long it 
        would take to achieve sustainable reform in the security 
        sector.

    2. Reinforcement Capacity: This capacity should be constituted 
primarily from already existing forces in the theater, (Kuwait, Saudi 
Arabia, the Gulf States, and at sea), and from allies.

    3. Iraqi National Army: Among the key challenges for the new 
government will be building a well-trained army under unified, civilian 
control. Although leadership of the force will have to be carefully 
balanced along tribal, regional, and religious lines, the force will 
also need to recruit a number of young Iraqis who have not participated 
in prior conflicts. The United States and its NATO allies are well 
positioned to respond to requests to design, train, and develop this 
army. Even limited military assistance programs, such as recently 
provided in East Timor and Central European countries (Poland and the 
Czech Republic) have tremendously shaped the foundations for legitimate 
security institutions. Cultural issues will require joint training with 
other regional forces, perhaps from Egypt or other North African Muslim 
nations.

    4. Disarmament, Demobilization, and Reintegration (DDR): DDR will 
stand a much better chance of success if one single strategy integrates 
the efforts of the Security Force, the civilian UN agencies (especially 
UNDP), the World Bank, IOM, and bilateral donors. A clear division of 
labor should be agreed on at the earliest possible opportunity. The 
United States can and should take a lead in pressing for an integrated 
DDR strategy. U.S. technical expertise in this area is well developed, 
and should be applied in the context of the integrated strategy. The 
United States should also be prepared to provide substantial support 
through financial contributions in the reintegration phase, a key part 
of the process that is often insufficiently supported.

    5. Regional Security: Given the volatility of the region and 
competing agendas of Iraq's neighbors, the United States should provide 
leadership and support for regional security measures. A multilateral 
cooperation council organized by the Organization for Security and 
Cooperation in Europe or the UN could improve regional security.
                      governance and participation
    Given the ethnic and religious cleavages and the historic 
development of the country, finding the right balance between 
centralized authority and local control will pose an enormous 
challenge. The ultimate goal will be creating a national Iraqi identity 
and a capable, viable state. The international community should work 
through local structures, wherever possible to stimulate regional and 
local participation in the formation of the future government, as well 
as to assist in providing services to the population.
    In order to help Iraq move toward a system of good governance and 
widespread citizen participation, fundamental questions of the state's 
relationship to the individual, ethnicity, religion, and other states, 
must be addressed up front. International donors must let Iraqis set 
the agenda and pace for their own future. Especially during the initial 
stages, in the absence of indigenous capacity, the international 
community must guide the integration and rationalization of interests 
of the returning diaspora and the locals who emerge as potential 
leaders. To foster inclusiveness and compromise, however, it must be 
vigilant about providing support to constituting processes and rights-
based rules.
Recommendations for U.S. Involvement
    1. National Constituting Process: The United States should provide 
political and financial support to a national constituting process, at 
both the national and local levels. Determining the participants and 
the nature of this effort and how to integrate those who may only be 
able to join after the current regime is changed, must be determined 
now. The United States should also support the work of other bilateral 
and multilateral organizations in working to revitalize political 
participation by all Iraqis.

    2. Transitional Administration: In the short run, the interim 
government will require immediate support from the international 
community. The United States should contribute money on an urgent basis 
to a UNDP Interim Authority Trust Fund, and be further prepared to 
respond to post-conflict Iraqi requests for financial and technical 
assistance.

    3. Civil Service: Iraq's civil service system must be completely 
overhauled. This initiative should start in Iraq's five largest cities 
and in those offices that deal with the oil industry. If control is to 
be wrested from the bureaucracy that has operated at the behest of and 
behind the shield of the current regime, the new central government 
will need support from the international community to begin paying a 
reasonable number of civil servants. The United States should 
contribute money to a trust fund set up by the special representative 
of the secretary general for this purpose, and should leverage this 
money to attract other donors as well on a priority basis. Over 2-4 
years the financing of this civil service structure must ultimately be 
transferred to the Iraqi government. Revenues will be generated through 
sale of oil and the establishment of a transparent trading and customs 
system.

    4. Civil Society: The development of civic associations, 
independent nongovernmental organizations (NGOs), free media, and 
religious institutions is absolutely essential. A key part of this will 
be establishing a ``civil society forum,'' as has been done in 
Guatemala and other post-conflict situations. The United States should 
support other bi-lateral donor nations' leadership in this process, and 
should provide some funding to help seed the initiative. Equally 
important will be the support needed to restore technical capacity for 
national and regional communication.

    5. Political Participation: The United States should support 
citizen participation through programs that reinforce national values 
and human rights. Although large-scale U.S. democracy promotion 
programs are not feasible, targeted technical support for legislative 
strengthening, transparency and other participatory activities could be 
provided through the U.S. Agency for International Development (USAID) 
and the National Endowment for Democracy constituent organizations.
                       justice and reconciliation
    Consistently overlooked by the international community in 
reconstruction efforts, significant progress on justice and 
reconciliation needs will be absolutely essential to the prospects for 
peace and stability in Iraq. Justice and reconciliation will play out 
on two separate levels, one relating to the current regime and those 
who have supported Saddam Hussein, and another dealing with intra-Iraq 
conflicts.
    Iraq will require significant support to build a justice system and 
develop reconciliation processes for intra-Iraq grievances--an immense 
challenge, as the formal rule of law mechanisms have functioned for 
decades in an arbitrary manner. The relationship between the executive 
authority and the judicial authority must be revamped, and an entire 
generation of prosecutors, judges, and court administrators must be 
educated and trained.
    The scope of the challenge necessitates a comprehensive approach to 
rebuilding the justice system. The experiences of numerous post-
conflict cases suggest that piecemeal efforts, however extensive, will 
produce inferior results.
    In some instances, the fledgling Iraqi justice systems may not be 
appropriate to address crimes that may threaten the viability of the 
peace process and the stability of the country. In such cases, whether 
war crimes, organized crime, or terrorism, international actors should 
assert jurisdiction and investigate and prosecute crimes. Which actors 
should take responsibility for these crimes, however, and which 
procedural codes should be applied must be resolved.
    Establishing a multiethnic, multireligious Iraqi police force will 
be a fundamental part of securing law and order and will facilitate the 
territorial stabilization of the country. Along with maintaining order 
in a country that has been repressed, a functioning border patrol 
system will be essential to regulate and curtail the flow of refugees 
and drugs. Iraq's policing institutions must be rejuvenated and 
reoriented with the help of the international community. Western 
European and other moderate Arab/Muslim states with traditions of 
responsible national police institutions have great capacity in this 
area. These international actors should also participate in developing 
an acceptable police monitoring system to sustain a professional and 
unbiased Iraqi police force.
Recommendations for U.S. Involvement
    1. Deployable Justice Package: The United States should make 
significant support for a unified justice package a top priority. 
Preparation in this area should proceed in parallel with the assembly 
of military resources for the conflict and after. The U.S. should 
engage other countries that, regardless of their position on the 
conflict itself, will be willing to help establish justice in the 
aftermath of such a conflict.

    2. Police Development: The United States should work with other 
donors to be prepared to support and respond to Iraqi needs and 
requests. Police will be needed in urban areas immediately. The United 
States could assist in the design, development, and training of a 
viable indigenous police force (through the International Criminal 
Investigative Training Assistance Program and other U.S. programs). The 
United States must coordinate these efforts with the UN and other key 
actors.

    3. Judicial Development: The reform of the overall justice, legal, 
and corrections system will require significant international 
assistance. Legal professionals from the Department of Justice 
(Overseas Prosecutorial Development, Assistance, and Training) and the 
American Bar Association (Central and East European Law Initiative) 
could be seconded as advisers to teams of an international coalition of 
experts to provide technical assistance. This must be done in close 
consultation between indigenous actors and the international community 
to ensure a comprehensive approach that is culturally sensitive.

    4. Rebuilding Community: In order to support reconciliation, 
individual empowerment, and the development of long-term rule of law, 
USAID programs should emphasize community involvement in the 
identification and implementation of projects.

    5. Human Rights: The United States should encourage the UN to 
deploy human rights monitors to deter extrajudicial reprisals. 
Conflicts should be channeled into the justice system or local dispute 
resolution structures. In order to support these initiatives, the 
United States should be prepared to provide modest voluntary 
contributions.

    6. Diaspora Engagement: The United States should help facilitate 
the return of Iraqi legal professionals living within the United States 
by linking them to existing international diaspora return initiatives. 
These individuals could work with the interim Iraqi administration to 
staff judicial and other important rule of law positions in major 
cities.
                     social and economic well-being
    In addition to the need for immediate humanitarian assistance in 
the wake of a conflict, numerous essential issues of economic and 
social well-being deserve the attention of the international community 
and the U.S. govermnent, including the transparency of oil revenues, 
improvement of the agricultural sector and transportation networks, 
education, the role of the diaspora, and human rights.
    Oil is the keystone of the Iraqi economy. The PCR effort must re-
establish the oil industry in a manner that contributes to immediate 
needs and is structured to provide the revenues and hard currency 
necessary to sustain long term development. Monitoring of production 
and revenue generation and disbursement will be required until a 
legitimate government, acting through a transparent budgetary process, 
can execute those tasks. Iraq will need foreign investments to redirect 
its trading role in the region and the world, which has been skewed by 
the effect of sanctions. Current estimates are that oil exports, under 
the sanctions regimes reduced in 1996 and 1999, have reached about 75 
percent of their pre-Gulf War level.
    Agricultural markets must be reestablished. Iraq is still a net 
food importer, and although per capita food imports have increased with 
the relaxation of sanctions, the agricultural sector is still hampered 
by the sanctions. The establishment of local food and commodity markets 
will require the repair and construction of transportation networks. 
Significant damage can be expected to the transportation and 
communications infrastructure and the United States should work with 
the multilateral development banks to accelerate and establish now the 
process to rebuild both systems. The U.S. may be able to defeat the 
Iraqi Air Force without doing wholesale damage to runways at the 100 
airfields around the country. This will provide some capacity to 
support mobility not only for the security force, but also for 
humanitarian and economic aid.
    Education must be a top priority, with focus on several key areas. 
First, educational opportunities must be provided as an option to help 
demobilize and reintegrate soldiers and security personnel who are 
released. Second, about half of the women in Iraq are illiterate and 
the education system must be expanded to meet their needs. The United 
States can help provide means for the large and highly trained Iraqi 
diaspora to have access and immigration rights to return to support 
reconstruction.
    The potential of Iraq's professional diaspora living all over the 
world must be tapped to contribute to a strengthening of the 
socioeconomic sector. The positive effects of the return of a committed 
educated and skilled diaspora, such as increased investment and the 
opening of trade channels, are needed to reverse the effects of decades 
of violent conflict and sanctions. Expecting negative consequences of 
diaspora returns, including reprisals and loss of remittances, is 
reasonable. These problems must be taken seriously and mitigated 
through integration of returnees into the local communities.
Recommendations for U.S. Involvement
    1. Humanitarian Assistance and Repatriation: The United States 
should continue to respond in a generous and timely manner to appeals 
from UN humanitarian agencies, such as WFP, UNHCR, UNICEF, the UN 
Office for the Coordination of Humanitarian Affairs, UNDP, IOM, and 
FAO. The U.S. military should help to secure key routes to enable a 
rapid expansion of emergency aid to the most needy parts of the 
country.

    2. Employment Generation and Absorptive Capacity: USAID, through 
the Office of Foreign Disaster Assistance and the Office of Transition 
Initiatives, should develop and fund high-impact and visible employment 
generation projects to jumpstart the economy, restore social 
tranquility, and build political momentum. Drawing on recent experience 
in East Timor and elsewhere, a similarly structured program in Iraq 
should utilize U.S. resource capacity and UN managerial oversight while 
encouraging strong local participation in the decision making process.

    3. Agriculture and Food Security: The United States should provide 
significant support for multilateral initiatives that address both 
short-term and long-term food production and rural development needs of 
Iraq and its neighbors. This support should be both financial and 
technical. The activities of international organizations, NGOs, 
regional actors, private donors, and indigenous entities should be 
coordinated to ensure that local needs are met.

    4. Diaspora Engagement: The U.S. government should facilitate 
investment from, and the possible return of, the Iraqi diaspora living 
in the United States. This can be accomplished through supporting 
existing programs such as UNDP's Transfer of Knowledge through 
Expatriate Nationals initiative, and IOM programs, as well as through 
offering a variety of protections and guarantees for would-be 
returnees. Key among these would be offering visa guarantees for those 
who may go to Iraq, but who may wish to return to the United States. 
Opening a coordination office to legally channel diaspora funds and 
investments would also facilitate diaspora involvement in the 
rebuilding process.

    5. Social Development: The United States should be prepared to 
provide assistance to foster long-term social development in areas 
including health, food security, social safety nets, HIV/AIDS, gender 
equity, and the environment, through various international 
organizations (e.g., the World Bank, WHO, UNDP, the UN Development Fund 
for Women, the UN Environmental Program).

    6. Economic Development: Similarly, the United States should be 
prepared to provide technical and expert assistance in economic 
development areas such as infrastructure, micro-enterprise loan 
programs, narcotics control, investment, trade, banking, regulatory 
reform, and finance through the World Bank's Economic Recovery 
Strategy.
            guiding principles and critical recommendations
    To maximize the effectiveness of U.S. intervention, the above 
recommendations must be consistent with the following guiding 
principles: (1) Iraq's long term needs and preferences should drive the 
provision of international resources; (2) whenever possible, indigenous 
capacity should be reconstituted; (3) long-term sustainability must be 
fostered; (4) U.S. actions should reflect and emphasize U.S. interests; 
(5) because reconstruction and development is a long-term and uncertain 
process, Iraqi and international expectations must be realistic. In 
addition to these guiding principles, four basic functional 
recommendations could help frame U.S. government involvement.

  <bullet> Planning: The United States and the international community 
        should build a unified, integrated planning process based on an 
        ongoing integrated joint assessment of all post-conflict 
        reconstruction sectors. The findings of the assessment will 
        serve as an essential common analytical baseline for setting 
        priorities and promoting cooperation between often disparate 
        and disconnected international and U.S. actors. This should 
        build on, but not be limited to, an initial joint assessment 
        done by the U.S. the World Bank, UNDP, and ADB.

  <bullet> Coordination: New staff structures being implemented in the 
        U.S. Department of Defense at the regional combat commander 
        level (the Joint Interagency Coordinating Group, JIACG) and for 
        field deployment (the Joint Interagency Task Force, JIATF), 
        should be activated as soon as possible within U.S. Central 
        Command to begin the process of integrating the military plans 
        for the conduct of the conflict with plans for post-conflict 
        reconstruction. These structures, guided by the appropriate 
        national level counterparts in the Departments of State and 
        Defense, and the National Security Council, must work now to 
        integrate the other agencies of government in that planning 
        process (Department of the Treasury, Department of Justice, 
        USAID, etc.).

  <bullet> Predeployment training: The opportunity to conduct training 
        at several levels should be seized immediately. The SENSE 
        simulation at the Institute for Defense Analysis should be 
        scheduled for training and mission rehearsal exercises in the 
        post-conflict reconstruction of Iraq. Additionally, the Combat 
        Training Centers at Fort Irwin, Fort Polk, and in Germany 
        should begin the process of conducting integrated mission 
        rehearsals that not only replicate combat in likely situations 
        in Iraq, but move units directly from conflict to post-conflict 
        training, and integrate the range of expected IGOs, NGOs, local 
        people, and other actors who will influence the accomplishment 
        of the overall mission.

  <bullet> Funding: The U.S. government should be prepared to provide 
        at least $1 billion annually to satisfy the reconstruction 
        needs outlined in this paper. Estimates of the non-security 
        related costs in reconstruction in Afghanistan range from $15 
        to $25 billion over the next decade. Iraq, even after a large 
        scale conventional conflict against the United States, would 
        start from a better baseline and have, in oil reserves, a 
        better resource base to assist in financing reconstruction. 
        Given U.S. interests and the amount of activity and resources 
        invested in the war against terrorism, the United States must 
        be willing to provide ongoing assistance to meet both expected 
        and unforeseen needs. The administration should actively engage 
        the Congress to design a coherent, strategically sound package 
        of U.S. support for post-conflict reconstruction as part of the 
        larger policy approach to the region, and this package must be 
        integrated with the plan to prosecute any campaign in Iraq. 
        With an explicit, bipartisan, executive-legislative compact in 
        hand, the United States will be able to more effectively 
        leverage an expenditure of blood and treasure and secure its 
        national interests.

    The Chairman. Let me say, colonel, I think it's a very 
thoughtful and very detailed statement.
    And my first question to you, as a professional--now 
obviously you are not speaking for CSIS, you're not speaking 
for the military, but you have had considerable experience in 
the military in these planning processes. Do you have any 
reason to believe that this kind of detailed planning that you 
have submitted to us as your--I'll oversimplify it--your 
ballpark estimate--it's more than a ballpark estimate of what 
would be needed--do you have a sense that, as we speak right 
now, in the Pentagon there's someone crunching similar numbers? 
Do you think that, at the Pentagon, at this moment, there is a 
team--and we have incredibly qualified people--there is a team 
over there saying to the Secretary, ``Look, this is what we 
think the bottom-line number is for you, for us, when you make 
your recommendation to the President.'' Do you think the 
planning has gone that far? Do you have any reason to believe 
that?
    I'm not asking for any access, because you don't have any, 
to classified information. I'm just trying to get a sense of 
where you think it is.
    Colonel Feil. From my knowledge of the planning processes--
and, sir, I've got to say, you know, once you retire, your 
access seems to go up, but your credibility may be suspect, 
because you get farther and farther away from things and get 
staff. I would have to believe, knowing my colleagues in the 
military, that people are taking a look at this effort. I 
cannot say, with any reason to be confident at all, that they 
would necessarily come up with the same number that I did.
    The Chairman. No, I'm not suggesting that. I'm trying to 
get a sense that--one of the things here is--that I discussed 
privately with Dr. Marr in my office, was--and others--is us 
trying to get a handle on how far along the process is and the 
detail is in the administration for--before the President is 
presented however many options there are. Were any of us 
sitting there as President, we would want to know the answer to 
these questions.
    Colonel Feil. The formal planning process does call for an 
annex to a contingency plan to have a post-conflict sequence of 
events and resources and tasks, et cetera. So I would have to 
assume that in the generation of the plan for whatever options 
are out there, that each one of those options would contain an 
annex that would have this type of analysis in it.
    The Chairman. Now, you all approached this from a slightly 
different perspective, but you all approached it thoughtfully 
from your area of expertise and interest as to what would be 
needed the day after and in subsequent days. And I would like 
you, any one of you, to correct me if I misrepresent what seems 
to be a consensus that has emerged on this panel--and others, I 
might add--and that is that there--in order for any of the 
scenarios you all--you individually suggested are preferable or 
possible, international support for the effort is important. 
And some of you, I think, would argue it's critical.
    How important is international support--i.e., the region, 
the European Union, the Japanese, others--whether it relates 
to--and we're not talking about relating to force structures 
going in, but we're relating to force structures afterwards, 
relating to economic cooperation afterwards.
    You said, colonel, that you believed--or one of you said 
that there would be a--it would be clear that the international 
community would want to come in after the fact, because they'd 
see opportunities, but they'd also see the necessity to 
stabilize. I mean, how certain are you that if we successfully 
initiated a military operation that caused the present 
government in Iraq to be ousted regardless of what immediately 
followed, how certain are any of you that the international 
community would respond to what you've all identified in 
varying degrees as minimum needs that would present themselves 
the day after that occurred?
    Doctor.
    Dr. Marr. I have one thought before I respond to whether 
we're going to get a lot of burden sharing from other folks, 
which is, I think, your question. I think many people will want 
to go into Iraq and get the benefit of Iraq's oil resources and 
that might be the hook. If anyone wants future benefits, 
they're going to have to contribute something initially. So I 
think there's a good deal to be made there. But getting 
contibutions from International folks is going to be difficult 
in Iraq, because Iraq is considered a rich country.
    And I do agree with my colleagues here, that, there will be 
a need for some ``up-front'' money before Iraq can get the 
economy going. In Iraq's case it may be a little more difficult 
to persuade people to come in.
    I would like to say that--money aside--if United States 
troops are involved at the level and for the time that we're 
talking about here, we had better have some Arab regional 
states with us, because there will be a downside for us. The 
more presence we have, the longer we're there, the more anti-
Americanism is going to increase among a portion of the 
population. That should concern us.
    The Chairman. That was to be my next question. I mean, in 
other words, how important is it that this be 
internationalized, including Arabs? And when you gave us your 
very useful testimony and your map----
    And by the way, the bell went off at 5 minutes. We had 
agreed we were going to go to 7 minutes, which means 10, 
probably. Oh, no, I didn't tell you that. That's not your 
fault, it's mine. And so I'm going to just continue for a few 
more moments here.
    Let me back up. The map \1\ you gave us--and I wish we had 
had it up here behind us for everyone--for the television 
audience to see--essentially divides Iraq--or characterizes 
Iraq as sort of three distinct regions.
---------------------------------------------------------------------------
    \1\ The map referred to can be found on page 177.
---------------------------------------------------------------------------
    You talk about how it was--I'm trying to find it here--how 
it was a consequence of putting together a country after the 
fact, after World War--thank you. Actually, I was looking for 
mine, but--the one you gave me. It doesn't matter now. And I 
want to make sure I understand--I do understand, but I want to 
make sure it's on the record--that we're talking about Kurds 
who are Sunni. We're talking about Sunni Arabs, and the Kurds 
are not Arabs. And we're talking about Shia Arabs. So two out 
of three of these regions are Arab. Two out of three are Sunni. 
But they are not the same. All Arabs aren't Sunnis.
    And the question is, is the religious tie tighter than the 
ethnic tie? In other words, in terms of putting together a 
government that encompasses, necessarily, all three sectors 
participating, at least to the degree that they think their 
share of participation is commensurate with their impact on the 
country, is there a closer tie between the Kurds and the Sunni 
Arabs, because they're both Sunni? Or is there a more ethnic 
and cultural tie between the Sunni and Shia Arabs? And does 
it--or does it matter? Is it at all relevant?
    Dr. Marr. Personally, I think the religious element may be 
increasing a little bit. But, my own sense is that the ethnic 
tie, the Arab and the Kurdish feeling is stronger than the 
religious ties between the Sunni Kurds and Sunni Arabs.
    But I wish we could get away from regarding the map as 
controlling, because----
    The Chairman. I'm not suggesting it is.
    Dr. Marr. No. Yes, I realize that. The identity that must 
be encouraged is Iraqi.
    The Chairman. I understand.
    Dr. Marr. There is an Iraqi identity. And, to a very large 
degree, if it is encouraged by new leadership, these ethnic and 
sectarian divisions as ways in which people identify 
themselves--Arab versus Kurd, Shia versus Sunni--will be 
reduced. There will be a better chance of getting a viable 
state.
    The Kurds are a problem, in a sense, because they do speak 
a different language. And the language distinction, I think is, 
of course, a very important one.
    The Chairman. I will end with this, because I've gone over 
my time, and because I want to get back to the larger question 
I asked in the second round or if others don't cover it.
    The reason I asked is that the Kurds have another unifying 
factor, that they're Kurds. That's also a factor of division. 
There has not been a willingness--or the kind of unity one 
might expect. And you cannot see this map, but this map is 
colored. The border of Iraq ends here as you all know better 
than I do. This pink color is where Kurds live--people who call 
themselves Kurds. A whole bunch of that pink is in Turkey. A 
significant part of it is in Iran.
    Every Kurdish group that has come to see me over the 30 
years I've been a Senator has not talked about Iraq--has talked 
to me and others about Kurdistan, about the Kurds. And so can 
we--and I'm not being facetious now--can we easily dismiss the 
notion that we are seeing, right now, and hearing explained 
from northern Iraq as we speak--the newspaper articles, the 
television programs, and American television, and American 
news--where the Kurds are basically saying--so it's being 
portrayed--``Whoa, hold up a minute. This is as good as it's 
ever gotten for us right now. We essentially have our 
autonomous region here in the north, which is doing just fine. 
The economy's starting to boom, we're starting to move, 
nobody's being shot or killed, things are working out pretty 
well. So, United States, what do you have in mind here? Explain 
to us before you come what our rights are going to be before we 
get here.''
    Now, that's what's being projected. It's really a question 
rather than a statement. As an expert in the area, do you 
believe--and I think I've accurately characterized the essence 
of the newspaper and television articles and programs Americans 
have seen over the last two, three, 4 weeks as discussion of 
Iraq has sort of ratcheted up--does that play any factor that 
the Kurds, at the moment, think things are better than they've 
been at least in the last 20 years, and maybe are OK? I mean, 
could you all speak to that for a second?
    Dr. Marr. I know Rend will want to say something about 
this. Yes, it is a factor. I think there's no doubt about it. 
This is an ongoing factor, which is why I said it's going to be 
more difficult to integrate the Kurds into a post-Saddam Iraq 
than it would be otherwise.
    The situation is not bad up there, but without being 
Cassandra, I'd like to point out that it's not quite as good as 
the Kurds may say. For one thing, they're not unified. The area 
is split in two, divided between the two main Kurdish parties 
because they couldn't agree on a unified government. They 
cannot maintain their position without American support and 
protection and U.S. mediation of their disputes. They are not 
in control of their borders. And, hence, as I've indicated, the 
Turks have to keep coming across.
    Although I'm not totally informed on the situation, I 
understand that on the eastern border with Iran, there's a no-
man's land which the PUK does not control and, from our 
perspective, is open not only to Iranian influence, but other 
outside influences, even terrorist influences. That is 
precisely the kind of situation that we don't want.
    And even though they like what they have, the Kurds don't 
have a future in northern Iraq, and they know it. They have 
difficulty in getting the middle class to come back. So the 
Kurds understand that, within some framework, they have to stay 
within Iraq, and they've said they'd do so.
    And, Senator, I would like at some point to send you and 
your staffers, a couple of Kurds who may have a little 
different perspective.
    The Chairman. I don't want to overstate what I've been told 
for the last 30 years.
    Dr. Marr. No, I understand. I understand.
    The Chairman. I'm trying to get a sense that basically what 
some have suggested to us--not Kurds--some have suggested to us 
that in order to make this all work, we're going to have to 
make some commitments to the Kurds, but make some commitments 
to the Turks, as well.
    I'm way over my time. I'll come back to that. Let me yield 
to Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Ms. Francke, you point out that the Iraqis would welcome 
the United States as liberators initially. But then, ominously, 
in your second paragraph, the humanitarian crisis will become 
acute and the system of law and order will break down, there 
will be a vacuum of authority, intense jockeying for power, and 
several of the neighbors may attempt to influence the process 
and preposition themselves to affect the outcome. That's sort 
of a logical sequence, but all pretty dismal.
    Both you and Professor Marr have suggested that the 
identification of leadership will be extremely difficult. If 
it's imposed by the United States without roots in Iraq it will 
present a set of difficult problems. But there's not much 
experience--in fact, very little experience with democracy or 
liberal institutions, and it would be a difficult time for 
institution building and all of this.
    And all of you, including--Colonel Feil, go into this in 
much more detail trying to outline exactly how many American 
troops and/or civilian personnel are likely to be required to 
meet the problems of law and order, humanitarian distress, 
general disestablishment in all of this.
    The importance of this hearing is really for this testimony 
to begin to sink in. Whether you are accurate to the last 
paragraph or not, the fact is that our experience in American 
foreign policy in Somalia after Americans were attacked and 
dragged through the streets was to get out. That was a debate 
on the Senate floor--immediate withdrawal, no sense of nation 
building. In fact, ``nation building,'' in quotes, became 
something we definitely, as a policy, were not going to be 
engaged in.
    Tremendous debate then when we tried to intervene in Bosnia 
with our NATO allies, because this was perceived, once again, 
as sort of the thing end of the wedge of nation building. 
Likewise, the debate on this in Kosovo.
    And, finally, of course, we have some experience in 
Afghanistan. It's instructive that, at the time of our military 
operations in Afghanistan, we simultaneously began preparing an 
plan what was going to happen in the future. After, we had a 
national emergency, and we moved rapidly. Fortunately, Chairman 
Karzai was available, the king was available, a good number of 
able people used a lot of agility in trying to think through 
how the loya jirga could be supported, and we're still at that 
point.
    But just before the testimony today, as you perceived, we 
had a business meeting in which we adopted a very significant 
resolution with regard to assistance to Afghanistan--$3.5 
billion over 3 years. Now, that's a fairly modest sum, given 
what we're talking about today on Iraq any way you parse the 
figures. And this is just a bill coming through the Foreign 
Relations Committee. It has not passed the Senate as a whole. 
The administration may or may not support such an idea. And, in 
fact, this appears to be a debate as to really how extensive 
American forces, either military or others, ought to be in 
Afghanistan. And this is a war in which we have been engaged, 
as opposed to one in which we might be engaged.
    So I mention all of that to say that as the public focuses 
on your testimony through this hearing they will discover this 
is a very daunting process. Any way you look at what is being 
suggested today, there is enormous expense and commitment of 
people as well as treasure for a number of years. And it's one 
country in the middle, as we heard yesterday, of a neighborhood 
of countries that may, in fact, feel very threatened by 
democracy if it did evolve in Iraq, and that democracy won't 
necessarily prevail all around this new Iraq. And it's not 
clear to me where the leadership is going to come from.
    Now, some of you have suggested a coalition of forces, and 
that makes sense. And, in a way, the Afghan government is based 
upon that idea. But it's not clear to most of us who are not 
scholars in the politics of Iraq, as you are, as to who 
conceivably might be in that coalition.
    Now, you can think of various factions and parties and 
elements. But physically, do any of you have any idea about 
personalities--people, individual leaders--in Iraq now or 
outside of Iraq that might, in fact, be a part of a coalition? 
If you were asked, in the midst of hostilities with Iraq, who 
should the United States back in terms of trying to put 
together a coalition that might work, that might be this 
transition, do any of you know who it is and who has experience 
at doing this sort of thing?
    And if not, what do we do? In other words, do we try to 
identify persons in advance? Do we sort of hope that someone 
from the military or from the Ba'th party or from the 
opposition to the Ba'th party or from anybody, people may 
emerge, identify themselves, coalesce?
    In other words, I don't see how this happens, even though I 
see the daunting circumstances that you describe. Can any of 
you give an idea as to who physically might offer leadership? 
Or if you don't want to name somebody for fear that person 
would be jeopardized, can you give some sense of confidence 
that there are such persons who might understand democracy, 
some semblance, finally, of our foreign-policy objectives, 
which--after all, we got into this war to get rid of weapons of 
mass destruction. Who is going to lead us to the caves or the 
laboratories or whatever it is so we can destroy it, as opposed 
to somebody in Iraq who says, ``Now, I have a second thought 
about this. As a matter of fact, Iraq may need some of those 
weapons to deal with Iran or to be a great power or what have 
you.''
    We will have fought a war to get to these weapons of mass 
destruction, and while we're trying to rehabilitate Iraq, we 
suddenly have a government that says, ``Iraq first. We're 
nationalists. And, as a matter of fact, we want to progress 
with weapons of mass destruction.''
    Now, is there anybody in this picture that can give us some 
hope that a war is worthwhile if, in fact, our objective is to 
get rid of the weapons of mass destruction, in that a 
government would be consistent with our policies sufficient to 
at least achieve that one basic item of foreign policy. Does 
anyone want to respond to that?
    Dr. Marr.
    Dr. Marr. I think Rend has addressed it, and I've tried to 
address that in my written paper. I have to say that I think 
this is the most critical unknown in the whole issue. And if we 
don't have some good answers to that, we should go back and 
rethink.
    We do know who's available outside. The outside opposition 
is clear. They will go all the way in fulfilling our 
objectives, weapons of mass destruction and so on. But as has 
been made perfectly clear, we have to bring them in militarily. 
Others may disagree, but I also believe we have to support them 
militarily.
    Now, when it comes to insiders, it's anybody's guess, 
because leaders cannot emerge inside. That's what we pay an 
intelligence establishment for, and, of course, there are other 
intelligence establishments overseas that might have some 
indication. We should have contact with people. We should be 
working through the outside opposition to identify people who 
will come over to our side.
    I don't imagine we're going to have trouble, once we 
undertake action--if we're serious--getting people to come over 
to our side. But, as I--and Rend--have pointed out--the folks 
that are in charge now who might, provide potential leadership 
raise real questions. They are Ba'thized. Do we want that? Army 
generals? We really don't want a general in charge of the 
political system, and we don't know whether this individual may 
be a member of the clan, the family, a Ba'thist. However, there 
may be plenty of generals and others who are fed up with the 
regime and have some democratic instincts.
    There's an education establishment producing doctors, all 
sorts of scientists and so on. They, too, have been Ba'thized. 
So we have a problem here not getting people who will be 
willing to change. That kind of change is not a military job, 
and it's going to take time.
    One last word that hasn't been mentioned here. Among the 
things we need to think about is the constitutional--the 
political--mechanisms that need to be put in to identify this 
leadership, the mechanisms by which the process comes together. 
We need to start to think about this. If we have a direct 
administration that is, the U.S. military picks some people, 
the Iraqi bureaucracy, I think, can do its job. But a political 
process, by which you bring the people together, is necessary 
not only to identify leadership, but agree on a future process. 
I would suggest a constituent assembly, maybe in 6 months time, 
which can draw up a constitution and get ready for some kind of 
an election.
    Iraqis are a sophisticated people. They do not have 
warlords, like Afghanistan. They can handle this, but we've got 
to think now about processes which will identify the leadership 
for the future.
    Senator Lugar. Well, from that answer, I gather, first of 
all, that the Iraqi exiles with whom our government is meeting 
outside, you believe, would solve this foreign policy problem. 
That's going to be a very strong argument for our 
administration to back those people.
    But what you're also saying is you need almost a Douglas 
McArthur to impose a constitution and regime once we get there, 
and that is well beyond the bounds of most American thinking at 
this point.
    Now, after McArthur gets there, or his substitute, in the 
Iraqi sense, then, hopefully, the constituent assembly begins 
to identify indigenous leaders. I'm trying--in terms of a 
program that the American public might understand--to set these 
challenges out in stages as you have identified them. Now, we 
need to apply some dollar figures and troop levels to these 
issues so we have a fuller understanding of what is required.
    This is a whole lot more, in response to the chairman's 
question, than I hear anybody in our administration talking 
about. Now, there may be, as the colonel has said, an annex to 
the overall plan that, in a hopeful way, suggests some things 
that might occur.
    But what you're testifying about is a lot of people, a lot 
of money, and quite a bit of risk. If the plan works and we are 
successful there will be many in the neighborhood who don't 
agree or support our efforts. Given what we're doing in 
Afghanistan, we are talking about a very modest amount, as 
opposed to the amount that would be needed in Iraq. At some 
point, the administration has to come to some policy 
conclusions in Afghanistan, which may be a predictor of what 
would occur in the much more complex country we're discussing 
today.
    Thank you, Mr. Chairman, for letting me overrun my time.
    The Chairman. No, no, this is obviously very important.
    Ms. Francke. Mr. Chairman, can I answer also some of the 
Senator's questions?
    The Chairman. Yes.
    Ms. Francke. Senator, you raise a whole number of issues, 
and I wish I had a long time to address them, but I will try 
and address them quickly.
    I'll go back to your seminal question about--the question 
of--that the United States is not in the nation-building 
business and hasn't done it well, you know, we had--Somalia was 
a bad experience, and so on. My answer to that really is that 
we have no option but to do it right in Iraq. If ever there was 
a country which was of vital interest to Iraq and a vital 
security concern to the United States, sorry--it is Iraq.
    I'm not saying that we shouldn't have done the right thing 
in Afghanistan and so on. In fact, I'm a supporter of exactly 
what went on this morning in this room. But the sense--in 
Afghanistan almost--we almost have the luxury, apart from the 
security and the terrorism. In Iraq, we will not.
    And the other thing about the region is, yes, there isn't 
much of a tradition in the region for what we're asking for, 
for kind of democracy. But, first of all, at some point this 
region is going to have to join the rest of the world. We 
cannot condemn it forever to the darkness of the pre-Middle 
Ages. That's one thing.
    The other thing is--the good point is that Iraq is, in fact 
a trend setter in the Middle East. And, therefore, what we do 
in Iraq, whether right or wrong, is going to impact the Middle 
East; and, therefore, let's do it right. This is on the issue 
of, you know, are we going to do it right? Why should we 
bother, et cetera, and so on? And I do think that Iraq is 
central to U.S. interests in the region.
    The question about finding leadership and so on--in fact, I 
addressed it very briefly in my oral statement, and it's 
addressed more extensively in my written statement. And that is 
where I think I mentioned the question--or the issue of a 
transitional government of national unity, a coalition.
    What I was arguing earlier this morning is that, first of 
all, you do need this coalition that represents a myriad 
political and social interests in Iraq, but that, given the 
fact that there is going to be a period of time when leadership 
within Iraq will have to emerge, we have to start somewhere. 
And I'm suggesting that the kernel that we use is the 
opposition that is now in northern Iraq--in other words, the 
Kurds--plus the opposition, which is outside Iraq. And that is 
only used as a kernel to be added to--I've called it the ``open 
circle''--to be augmented, to be added to--as leadership comes 
from within Iraq. And I don't want to suggest that we do not--
we should not include in that leadership elements from the 
army, the military, the Sunni clans. Indeed, we should. All I 
want to guard against is that all authority and all the power 
be given to that old model.
    Also in my written paper, I have talked about the 
responsibilities of this transition unity government. And 
certainly--and we have to have markers, milestones for this 
transition government. It must do the following--this, that, 
and the other. One of the things that I mention is that it must 
prepare the ground for a constituent assembly. In fact, it 
should prepare the ground for its own dissolution by organizing 
elections for a constituent assembly, by having a referendum, 
by, in fact, then overseeing free and fair elections, and then 
getting out and allowing a permanent constitution and a 
permanent government to take place. All of this needs to 
happen, and I would like to see this engagement by the United 
States and by the international community throughout this 
process.
    The Chairman. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. Let me begin by 
joining in the high praise for you and, of course, Senator 
Lugar, not only for your stamina, which was praised, but for 
these very thoughtful hearings. I've been here for all, or at 
least the majority of each panel. These are very thoughtfully, 
well-planned, very important hearings.
    I do want to say on the record that I don't believe these 
hearings can replace subsequent hearings when we hear from the 
administration, nor do I think anyone can argue that this can 
be sufficient to make it unnecessary to have a full debate on 
the Senate floor and a vote on whether to authorize any such 
action.
    I take strong issue with the statements of the minority 
leader of the Senate yesterday, who indicated that he thought 
that the congressional debate apparently would not be 
necessary, citing, apparently, his belief that al-Qaeda is 
operating in Iraq. Now, that may well be true, but I have not 
seen that evidence.
    And I believe that Senate Joint Resolution 23, which 
authorized the approriate actions we've taken with regard to 
Afghanistan and al-Qaeda does not permit an invasion of Iraq 
without that kind of evidence.
    But having said that, Mr. Chairman, I sincerely believe 
that these hearings are an exceptional basis for what Congress 
should do, and you've really produced a very fine moment in the 
history of this committee.
    The Chairman. Well, I thank you, Senator. And I can assure 
my--I think my colleague agrees with me--these aren't the only 
hearings we're going to have.
    Senator Lugar. No.
    The Chairman. This is the beginning of the process. It's 
not intended to be the end of the process.
    Senator Feingold. Thank you, Mr. Chairman.
    I'd ask the panelists, could you estimate the scope of the 
humanitarian crisis within Iraq that would have to be addressed 
in the post-conflict period? What kind of commitment would be 
required to address a crisis like that?
    Ms. Francke. Can I just say very quickly--and I may not be 
the most competent person to answer this--a great deal is going 
to depend on the conduct of the military campaign. We have a 
humanitarian crisis in Iraq right now. But, in a way, it's sort 
of stable. It's horrible to use these words about what are--the 
suffering of human beings, but it is stable.
    But when we talk about another military campaign, and we 
ask what the humanitarian crisis is going to be, it's difficult 
to--it depends very much on the level of destruction that goes 
on and whether the military campaign will target infrastructure 
that affects civilians, such as water, electricity, and so on 
and so forth.
    But I guess I will cede the point that--to my colleagues, 
who might know much more about this.
    Senator Feingold. Yes, doctor.
    Dr. Al-Shabibi. Thank you, Senator. Well, actually I 
mentioned in my presentation about the resources that need to 
be mobilized to address the very one of the outlets of these--
the resources are used--to use them for alleviating the 
humanitarian situation. Of course there is in Iraq now--I mean, 
there are problems relating, of course, to availability of 
medical services. There is--I mean, all--the reports abound 
about these issues.
    But, of course, what might emerge also, there will be a lot 
of Iraqis who wish, probably, to return to Iraq from 
neighboring countries and all these things. And, of course, 
there will have to be provisions to address all those problems. 
They will create, of course, a lot of humanitarian 
consequences.
    So definitely this is one reason to pay close attention to 
the fact that the international community should help Iraq to 
mobilize their resources to address this very important 
question.
    Senator Feingold. Colonel.
    Colonel Feil. If I may, sir, I don't have any particular 
knowledge on the level of the humanitarian crisis that exists, 
but clearly the one that's ongoing now is obviously a baseline. 
And then, of course, the creation, as the doctor pointed out, 
of any additional humanitarian requirements based on the type 
of campaign that is conducted clearly is a consideration.
    I would go back to something that the chairman also said, 
and Senator Lugar, and the idea of trying to find out exactly 
what all the ramifications are and the fact that there's a 
post-conflict reconstruction annex, or a similar document, 
that's appended to military plan. We are currently--or the 
military is currently conducting some exercises and simulations 
down at Joint Forces Command, the Millenium Challenge exercise, 
which is trying to come to grips with a better process of 
integrating both the military and the interagency processes. 
And I would argue that more needs to be done in that area.
    So, as an example, you could run a military simulation of a 
campaign, and then not let anybody leave the room--put them all 
on a bus, take them down to the Institute for Defense Analysis 
and run a simulation that they have down there called SENSE, 
which is Synthetic Environment for National Security Estimates. 
That particular game is something that we have run in the 
Balkans and in some of the former Soviet republics to bring 
people back and show them how market economy with all its 
ramifications, works, so that if you do something to try to 
reduce unemployment, it causes a repercussion in another area 
that you have to balance out.
    Linking all the disparate parts and all the capacity that 
we have in our government together is really the key to getting 
a handle on the cost and bringing together people who can 
integrate those efforts so that those unforseen circumstances 
are acknowledged and accounted for in the plan.
    I noticed that the amendment that was proposed today about 
doing an assessment in Afghanistan--looking at the 
transportation system--clearly a combination of what damage 
existed before, what damage we did during the campaign. Our 
assessment could have been done earlier. We would have a better 
handle on what the cost of that is. The idea of bringing 
together all the disparate players to address this--the entire 
issue of a conflict and what comes after in an integrated, 
coherent fashion, I think would yield some answers.
    And the day after, as opposed to 6 weeks--or 6 months for a 
constituent assembly and some of the security force 
implementation that would take place in weeks, I think that a 
lot of those things could begin on the ground immediately if 
civilian agencies, both from the U.S. Government and our NGO 
and international partners, had planning development capacity 
similar to the military.
    My experience in the military--there are 23,000 people in 
the Pentagon. That's what those guys do all day. They plan. 
There are no parallel organizations--only small little sections 
that are way overburdened--in many of the other significant 
Cabinet agencies that have a responsibility to bring the 
resources to bear and integrate their stuff with the military. 
And so, therefore, the military, which has standing capacity 
and a great ability to plan, moves in, attempts to do the right 
thing, often does very well, fills the vacuum, and then has to 
be, you know, massaged and part of that filling of the vacuum 
is why there's a perception that the military doesn't like to 
do these things, because they feel they get sucked into those 
sorts of things.
    The Chairman. Well, they do.
    Colonel Feil. And, once again, the costs that I listed, and 
the number of troops, clearly with the ability to deploy police 
monitors, et cetera, et cetera, you could change the slope of 
your withdrawal if civilian agencies were prepared to pick up 
the execution of those tasks.
    Senator Feingold. Thank you. Let me ask--just because my 
time's running out, I want to ask you a different type of 
question. How realistic is it to believe that Iraq's weapons of 
mass destruction and the means to make such weapons can be 
secured by either an occupying force or post-Saddam Hussein 
Iraqi government before those weapons are moved out of the 
country?
    And part of the question involves thinking about what kinds 
of reprisals people close to the Iraqi regime or people close 
to the WMD program might expect from a successor government. 
Are these people likely to flee out of their own interests? 
Isn't it likely that those people will take valuable and 
dangerous materials as well as knowledge with them?
    Colonel Feil. I hesitate to--the committee heard from other 
witnesses that are probably better qualified than I am to speak 
to that specific eventuality, Senator. I would say that you've 
got a range. And so I think part--of possible outcomes--part of 
the initial campaign, and probably--and I have no prior 
knowledge of this, but thinking logically, as you point out--
clearly, one of our first efforts has got to be to get a handle 
on all that stuff and all those people, and then that cannot be 
allowed to sort of slip away into the general population of 
Iraq.
    It is--in microcosm, much more important task--it has to be 
a very tightly focused effort to do that, the same as we would 
not allow some of the general officers and some of the other 
leaders from some of the clans and the military to just sort 
of--go through the demobilization line and then be released 
into the general populace. But I think that's got to be a top 
priority in our plan.
    Senator Feingold. Yes. Doctor, if you--if it's all right to 
have the doctor answer the question. Do you want to make a 
comment?
    Dr. Al-Shabibi. Well, I would like to come back about to 
the question of governing Iraq on these things. And, of course, 
I mean, we are Iraqi--we Iraqis, we speak always about the 
future, about Iraq and the government and these things. But the 
question here is Iraqis are very much aware and cognizant about 
the fact that they have really lost a lot of opportunities in 
terms of simple economic development and growth. This is since 
the beginning of the 1980s and even before. And if they compare 
this with their potential, I mean, they realize how much loss 
they have incurred.
    The question here I wanted to allude to is, I don't think, 
apart from, actually, the defense--legitimate defensive means, 
that Iraq would like to concentrate on the future on things 
which are a part from its economic development aspirations. 
Basically, I mean, they would like probably to look at a 
smaller scale, the example of Germany and Japan after the 
Second World War. And they have the potential to do that.
    This brings me to the question, is--I know that politicians 
actually are very much concerned about the government of Iraq, 
and the fact that we have to find people that govern Iraq from 
the groups that exist. But the question here is actually that 
Iraq should give unfortunately to the people, specialists in 
various fields, actually, to give higher say to the future 
development in Iraq--technocrats in the field of legal system, 
constitution, health. I know the--I mean, of course, they're--
one can say that these are, of course, management, but they 
have to actually have a stronger say, and their opinions should 
be heeded by the politicians in future Iraq. This is the only 
way where all the resources that may emanate or will emanate to 
Iraq will be put into economic development, which actually we 
lost in terms of decades the case of this development and we 
will have to recoup all these things.
    Senator Feingold. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me followup with a few things, if I may. No. 1, I don't 
think any of us should lose sight--even though we didn't ask 
you to do this--any of us should lose sight of what the 
rationale for going into Iraq is in the first place.
    If Iraq had no weapons of mass destruction, if the 
President of the United States, the Pentagon, the CIA, the 
Congress, everyone thought they had no weapons of mass 
destruction, all you'd like to see done in Iraq would not be 
done. We would not be going anywhere in Iraq, I respectfully 
suggest, notwithstanding the fact there would be equally as 
strong an argument for the economic development of Iraq and the 
prospects of a prosperous democratic Iraq being a--not a 
panacea, but opening a gate in a way to the part of the world 
that needs to, at some point, on their own come into the 21st 
century. But notwithstanding that, we would be doing nothing.
    So let's everybody make sure we understand one thing. If 
there is not a way and a hope, a prospect to secure those 
weapons of mass destruction, this is an exercise in futility. 
So that's the place from which I think all this begins.
    Now, one of the things we heard yesterday from several 
panels--we had three panels of people like yourselves with 
slightly different expertise--was the concern raised that if 
Saddam saw himself--using an American eupheism, ``going 
down''--if Saddam saw his regime coming to an end and his 
physical safety in jeopardy, that he would use these weapons of 
mass destruction, not only against an invading international or 
American force, but it was raised as the overwhelming 
possibility in the minds of some of the witnesses that he would 
use them against the Israelis to make this a regional war, but 
also use them against his own people, that he would destroy the 
Iraqi infrastructure--he would destroy the Iraqi 
infrastructure--not unlike he attempted to in Kuwait when he 
was withdrawing with the Kuwaiti oil fields.
    And one of the things that I think the average American 
listening to this--presumptous of me to say what I think the 
average American--every time I say that, my wife points out--
you know, when I say ``as the American people think,'' she 
says, ``Don't presume to think for the American people.'' I 
don't. But I suspect, in my experience, anyone listening to 
this is saying, Now, wait a minute. We just heard the 
following. We heard that we have an obligation, if we go in, to 
stay. We were given estimates that it would cost about $16 
billion for the first year based on 75,000 troops. We heard 
another witness say that Iraqis have an opportunity to recoup 
$150 billion they lost because of their own government. We have 
to make sure that oil prices stay stable and that there is no 
windfall for the United States that oil prices drop. We have to 
make sure that we rebuild whatever we may have to damage in 
order to go in and take out Saddam, because we will be told, 
they know, ``You blew up this facility. You blew up our 
airport. You damaged our highways. You ruined our water system. 
You knocked out our electric grid. You owe us. You owe us.''
    And Americans are home, I think, thinking, Now, wait a 
minute. We're going to risk American lives. We're going to risk 
American money. We're going to risk American prestige. And 
we're going to go in and try to take out this thing we view as 
a threat to us. And, in the process, we're going to be told by 
the world, which it always tells us, by the way, you did this 
bad thing to us, and now you should rebuild us. You should, out 
of the American treasury, take what will amount to several 
hundred billion dollars before it's over, because that's--we're 
costing--we're talking about just the operation would cost 
roughly, if we did it alone, $75 billion, if it replicated 
Desert Storm.
    Colonel Feil Yes, sir.
    The Chairman. It doesn't take us quick to get to $100 
billion here, and it doesn't take much, if we do all--doctor, 
you want us to do to get us up to a couple of hundred billion 
dollars.
    And so one of the things that brings me--the reason I 
bother to say all that is that I think we have to be able to 
explain what we're going to do to the American people here. Not 
what we're to do to them; what we're going to do and how it 
will impact on them.
    And it may be, in the minds of some, what we're going do 
``to.''
    So that leads me, believe it or not, to this point. I think 
Senator Lugar is correct. We need to find a McArthur that's on 
the outside, a Thomas Jefferson that's hiding somewhere inside, 
a new bank account that we don't have yet, and a degree of 
tolerance on the part of the American people that exceeds what 
we've ever asked any other people to have. That's kind of the 
worst-case combination.
    But let's set out what, as these hearings go on, are 
beginning to emerge in my mind--and as my young daughter would 
say, we get a get-out-of-jail-free card in this one, because 
I'm not sure yet of this--but why does it not make sense for us 
to--as much as you don't like the comparison to--or any 
references to Afghanistan--and it is a fundamentally different 
circumstance, I acknowledge--why don't we have a Bonn meeting 
now, essentially, where, professor, we get all of the disparate 
groups outside and smuggle some of those who are inside out to 
have the Bonn meeting before the first American bomb or 
military person is launched?
    Why should we not, or should we, be insisting or asking, 
cajoling our allies to be part of that process, as well, now, 
where we begin in a much more earnest fashion to identify who 
we will turn to? Does that make sense now, if you were--if 
Senator Lugar were President and you were his National Security 
Advisor, would you be suggesting that to him now, or what would 
you--what about that idea--those two ideas, a Bonn now--the 
equivalent of a Bonn--you all know what I mean--you all know, 
but for the public.
    After we went into Afghanistan, what we did is, we and our 
allies gathered together the various warlords, representatives, 
et cetera, in Bonn. We kept them there until they hammered out 
an interim government. Fortunately, I think, we got a guy named 
Karzai, who was able to traverse the differences. He was 
acceptable to all, at least in the near term, and we set up a 
process--they set up a process for a constituent assembly being 
elected within a timeframe, benchmarks, which you're talking 
about, Ms. Francke--benchmarks that had to occur within a time 
certain with an international commitment of dollars, which 
hasn't been kept, but an international commitment of dollars to 
accommodate this interim government's capacity to move to the 
next step.
    Should we be doing something that detailed now, before we 
move on Iraq, assuming the military situation doesn't change 
drastically and we don't find tomorrow that he's hoisted a--you 
know, a longer-range version of a Scud with a nuclear weapon on 
tops of it? I mean, should we be doing that kind of thing now?
    Ms. Francke. Yes, if you could. And, in fact--the point is 
you can do this with the opposition which is outside. Good luck 
on getting them together, but certainly you can do that.
    The problem that we have is that the vast number of people 
are inside. It's not easy to identify them. It's not easy to 
get them out, for--you know, Saddam's security system is pretty 
unparalleled. And at the end of the day, you can try to 
identify those people, you can try to have links with them.
    I'm a little less optimistic than some of my colleagues on 
the platform here, because I think that what you've got inside 
is going to be more entrenched than we think--the clans, the 
military with their own specific interests, this economic 
mafia, maybe not the party, and so on. And when you've got your 
Bonn meeting, which is going to be mainly outsiders, you're 
still going to have to bring them inside, which is one of my 
suggested scenarios. But you're going to have people with 
entrenched interests and different ideas, some of whom may want 
to keep a nuclear weapon in tow and may not be quite so 
friendly to the United States and so on.
    And whoever it is comes out in Bonn is going to have to 
deal with that inside situation.
    The Chairman. Well, we've had some sort of escalating 
experience in this area in the last 10 years, starting with 
Bosnia--very different situations, but escalating experience of 
the role of international communities, our role, what we have--
and I would, if I had to, and I don't--but if I had to, I would 
predict that what will happen here is--if we do not do a heck 
of a lot of this ahead of time, what will happen is we will 
find exactly what you don't want, Mrs. Francke. We're going to 
go in, and you're going to find that--the most organized 
faction that's available after we walk in, secure the streets, 
will be military.
    We're going to find--we will have had the cooperation from 
some of the military, maybe even a few in the Republican Guard, 
possibly, and we will find that the military, who gets dropped 
on them all the time everything from setting up the hospital 
tent to making the lights run to writing the constitution de 
facto on the ground, they're going to turn to the people with 
whom they can cooperate with and work with the quickest and the 
most rapidly, and then we're going to have--it doesn't mean it 
can't be undone or it can't be redone or it can't be made 
better after that, but I--I don't know--I've not heard anything 
yet, in practical terms----
    Ms. Francke. Senator, can I----
    The Chairman [continuing]. As to how that gets avoided.
    Ms. Francke. The idea of a Bonn meeting is, of course, an 
excellent idea, and I would endorse it. And, in fact, I have 
discussed it with a number of people in Washington. The 
important thing is to make sure that whoever comes to Bonn--and 
there are going to be necessarily only people who are in Iraqi 
Kurdistan, northern Iraq, or people who are outside Iraq--that 
they do not form this sum total of this transitional authority 
or government, that there is room left for people emerging from 
inside.
    The Chairman. Well, as you recall--again, it's not the same 
thing, but the model which was very difficult to put together, 
but nonetheless easier than what we're talking about here--the 
Bonn model in Afghanistan did, in fact, insist that that be 
left open, and it was left open. It was left open so the loya 
jirga, in effect, filled in the pieces here.
    But let me just--there's two more questions I wanted to--
well, there's many more, but I have gone beyond what should be 
your patience.
    Oil. Yesterday, we heard significant testimony--a 
significant amount of testimony that if, in the process of 
dealing--quote/unquote, ``dealing with Saddam,'' we had the 
acquiescence or cooperation of the Russians, the acquiescence 
and the cooperation of the French, that are the two mentioned, 
that a whole lot of other things that created problems and 
dilemma would be marginally or significantly easier to deal 
with down the road as we went through this whole process.
    And I raised yesterday, as some of you may have heard, the 
question--and it related to reparations, and it related to 
debt, as Dr. Al-Shabibi has mentioned--that the Russians 
believe they are owed somewhere around $11 billion by the 
Iraqis, and they assume that had contracts--they had contracts 
that they assume are worth--I've heard various number put on 
it, but I--that are in the range of $30 billion, in terms of 
contracts to develop and--do you know where the oil fields are 
in--mainly in the south, in the Shia region, I'm told. There's 
one or some in the north, but the bulk of it is in the south--
and that they believe that this is a contractual obligation 
that they have. And they believe--it is a contractual 
obligation they have with Saddam--and that they are owed money 
from the past.
    Now, if, in fact, we were to work out, with the Russians, a 
deal that said basically--the development of those oil fields, 
that the new government--we will insist the new government, 
whatever it is, honors those contractual commitments with you 
and that it be done in some consortia where you play a 
significant part or not the only part. Would that be viewed by 
the Iraqi people, who are initially going to embrace us, as a 
matter of grand larceny, whereby we, the United States had 
orchestrated an agreement whereby the Russians are able to, 
along with us, I suspect, in consortia, develop those oil 
fields?
    I realize I'm being very precise. I realize I'm being 
almost pendantic about how I'm approaching some of these 
things. But, at the end of the day, I've found, whether I'm 
standing in a Pristina or Sarajevo or wherever I am, or in 
Kabul, it gets down to a military guy standing with a gun on a 
corner, a diplomat sitting in a office, an indigenous person 
making a demand, and someone having to make a decision on 
things like this.
    So what happens? What happens in that--would you think that 
a fair thing, doctor, or do you believe that the contractual 
obligations of the Russians, for example, is, in fact, null and 
void, because made by Saddam, who is already ravaged and raped 
that country economically?
    Dr. Al-Shabibi. Well, Senator, this is, indeed, a very 
specific question. The question, of course, will have to be 
studied to see whether it will have to be compared with the 
Iraqi oil capacity or whether the two countries should be 
involved in the development of the oil sector. And, of course, 
in my presentation, I put, as one of my points whereby the 
resources to be mobilized is that Iraq will have to reach its 
maximum capacity of oil. Because, you know, Iraq is one of the 
countries which actually did not produce a lot of oil, because 
a lot of past conflicts and these things. And I think, I mean, 
these things will have to be looked at where different 
countries, of course, can be evaluated in order to raise the 
capacity of Iraq on these things.
    I don't know, of course, politically what will be the 
situation. I mean, this, of course, will have to be decided. 
But I think that the Russian are--if they want--I mean, 
probably--they want to trade their debt with their investment, 
this is another question. I mean, the question is, of course, 
there will be a situation where Iraq can win, if, for example, 
Iraq can get foreign investments, which actually brings 
technology and, at the same time, I mean, the debt is relieved 
because the country is allowed to----
    The Chairman. I'm not talking about the debt being 
relieved. The debt being paid. That's the point they would 
want. It won't be relieving the debt. That's the very point I'm 
making. The Russians have----
    Dr. Al-Shabibi. Well, then this----
    The Chairman [continuing]. Made it clear they want the debt 
paid.
    Dr. Al-Shabibi. Yes. This is a matter of, of course, for 
negotiation. This is what we call----
    The Chairman. No, see, that's my point, and I'm going to 
end with this. It is not a matter of negotiation. It is not a 
matter of negotiation. No President of the United States can 
sit and say, ``By the way, we're going to figure this out after 
the fact. We're going to negotiate this after the fact.'' If a 
deal had to be made to get Russia in, then a deal is a deal, 
and no one is negotiating it. It's being imposed. It's being 
imposed.
    My point I'm trying to raise here is that there's a lot of 
things that cannot be negotiated. If we wait to negotiate all 
of these things, then we find ourselves in a situation where we 
are imposing upon the parties involved at least a temporary 
chaos, and little likelihood of anything happening.
    One of the things we found from Bosnia to Kosovo to 
Afghanistan is the greater degree you allow the warring 
factions you were trying to liberate to have a say in the 
outcome, the less successful it was, that the closer you came 
to imposing at the front end, ``This is how it's going to be. 
We're going to do this if we go the following way,'' we've had 
the greatest success. To the degree to which we 
internationalize and say, ``We'll talk about it afterwards,'' 
like we did in Bosnia, the degree to which they still are not 
together in Bosnia--Kosovo is actually further along than 
Bosnia is, in my opinion.
    But, at any rate, and so I just want--again, this is about 
going in with our eyes wide open. I'm not proposing this. I'm 
trying to make sure that we understand that there are certain 
things--the idea that the United States is going to march into 
Iraq, save itself by doing away with the nuclear and chemical 
and biological weapons, liberate the Iraqi people in the 
process, stay, to the tune of tens of billions of dollars a 
year, until the Iraqi people sort it out for themselves as to 
how they want to get things going, and do it all without having 
to have--make agreements with the international community 
before we went in, I think, is not likely to happen.
    It would be nice if it would, but I've gone way over my 
time. And--but I can't resist one last question.
    What about Iran, what about Turkey, and what about Saudi 
Arabia, in terms of their reaction to overwhelmingly and 
primarily U.S.-led invasion of Iraq? And, at a minimum, a 
requirement that a significant--you've all agreed that there's 
going to be required an American presence--military presence 
required, minimum of a year, for 75,000 to a maximum of 20 
years for a whole lot of people.
    By the way--that was the argument--yesterday, the argument 
was 20 years. I believe that was Mort Halperin who made that 
argument, 20 years, and he just happened to be sitting where 
you're sitting. I pointed to something in between. And what 
we're also told is that the one thing the Iranians are most 
concerned about is a permanent U.S. military presence in Iraq. 
And we're told that the likelihood that Tehran will make a 
distinction between whether we think it's temporary and they 
think it's permanent is not likely, that they will presume, if 
there are large----
    And, by the way, as Scott--as the colonel can tell you, if 
we move in temporarily with 75,000 people, meaning a year or 
more, we're building Bondsteels--we're building--we're building 
major, major U.S. military installations in the context of that 
region of the world even if we only intend to stay there a year 
or 18 months or thereabouts.
    And so how is that going to be viewed? You all are familiar 
with Bosnia and Kosovo. We have this place called Bondsteel. 
It's a fort. It is a base. It is significant. And it sits 
there. And we invested--I imagine it's a couple of billion 
dollars for the whole process. And this administration, and the 
last one, has no intention of staying there permanently, 
doesn't want to stay there permanently, has no vital interest 
to stay there permanently, and yet we still did that.
    What happens when you put up a Bondsteel? Do you think the 
footprint--we keep talking about the footprint--I mean, that's 
a pretty big footprint if we're going to have to have 75,000 
people, even for a year or two in there. There's going to be a 
footprint. And if we do what I think Scott is saying--excuse 
me--the colonel is saying--and I haven't heard anybody say 
something fundamentally different--and that is, what is the 
mission of those people?
    The mission is providing core security for the largest 
eight cities. The mission is securing WMD and the facilities. 
We're going to be going around looking for them. The mission is 
patrolling the Iranian border and the Kurdish areas, securing 
the oil fields, monitoring the region of the Tigris and 
Euphrates along the Syrian border--because there's a lot of 
smuggling and a lot of things going on there--conducting 
integrated disarmament and demobilization--which I've never 
heard anyone suggest we can fail to do--and security sector 
reform. Forget that. It's not like we're going to have a force 
sitting outside of Baghdad in one fort. We're going to have 
people on the Iranian border, down in the oil fields, up in the 
Tigris and Euphrates, on the--you know, on the--well, maybe not 
the Turkish border.st
    We're going to be all over the place. That's a pretty big 
footprint, even if it's only for a year. How does that get--and 
that's my last question--how is that viewed, if it is 
predominantly American and even though we announce ahead of 
time all things working--we're only going to be there with this 
kind of footprint for a year or so. What reaction--what happens 
in Syria? What happens in Iran? I mean, what is the--is there 
any predictable response from those countries?
    Dr. Marr. I would like to take a crack at the gulf. I've 
been out in the gulf for the last 5 or 6 months and listening 
to their views. And what I'm hearing is that people would like 
to see a change of regime if it could be done quickly and 
easily. Their greatest fear is that we're going to go in and 
change the regime and then get out. They'll be stuck with the 
follow-on--a mess.
    But the kind of presence and bases, that we've heard about 
today will certainly arouse anti-American feeling in the area. 
This feeling is about the worst I've heard in 40 years, I think 
it has definite repercussions on the potential for terrorism.
    I assume this presence will be viewed with suspicion by 
Iran, but I don't know what Iran can do about that. Frankly, I 
don't see Iran playing a major role. Iran might interfere and 
try to destabilize Iraq and to do some of the things I 
suggested with the Shia, and the Kurds if the presence looks 
permanent. Instead we should rely on a reshaped Iraqi military, 
which would be my way to go. It has to be retrained; its 
officer corps has to be somewhat different, but Iraq does have 
a military. Its job is to guard the border with Iran and the 
border with Syria.
    So I would prefer that our presence be pretty substantial 
initially because they need to keep things together. How long 
this visible presence would have to be there is a question. And 
any visible presence of the U.S. military in the region bothers 
me, because I think inevitably it does encourage terrorism.
    The Chairman. Well, that's the conundrum the President is 
going to have here. All the folks in the region say, ``Don't 
come and go. Don't come and get out.'' And they say, ``And by 
the way, don't stay.'' ``Don't come and leave it a mess, but 
don't come and stay.'' And then we leave guys and women wearing 
uniform sitting there and saying, ``Whoa, what's my job here?''
    Anybody think we can come put Humpty Dumpty back together 
and get out of there in months? Anybody? Anybody think we can 
do it in 1 to 2 years? Anybody think we're in the 3-to-5 year 
range?
    Colonel Feil. Sir, I guess, speaking--as I think I said at 
the beginning--sort of the benchmark--first of all, referring 
to the nation building, as my colleagues have pointed out, Iraq 
is a nation, so it is a qualitatively different problem than 
Afghanistan or putting together a Bosnia, that sort of thing. 
The----
    The Chairman. Do you consider Germany nation building after 
World War II? Or Japan----
    Colonel Feil. There was a German nation there. It----
    The Chairman. I'm not being argumentative.
    Colonel Feil. No, sir. I----
    The Chairman. I want to make sure----
    Colonel Feil [continuing]. I would not consider that nation 
building. I considered that----
    The Chairman. Good.
    Colonel Feil [continuing]. A defeat in a conventional war 
and a reconstruction of the civil administration, the governing 
processes, and the security sector and the economy, clearly 
through the Marshall Plan.
    The Chairman. I'm just trying to define the terms.
    Colonel Feil. Absolutely, because there is wide variation. 
And each--although we try to draw some generalizations, each 
case has its own very significant sort of gradations.
    I think that, unfortunately, what we've done in the decade 
of the 1990s a lot of times is try to look for the 50th 
percentile, plus one, and just nudge a process over the edge. 
And what we've wound up doing--I hate to say it--is, I think, 
in some instances, is low-balling that effort. And then you're 
in the problem of we can't put more in, because we had a bad 
experience with that in the 1960s in Vietnam.
    And so, therefore, we hope and we try to cobble together 
and patch something that will get us farther on down the road 
where we know, I think--at least I feel--in the depths of our 
gut, if we had gone in there hard--or large, I guess--Secretary 
Perry's statement when we went into Bosnia, ``We're going in as 
the lead dog. We're the toughest guys on the block. Don't mess 
around with us.'' We got a response--the response that we 
wanted at that time.
    I think that applying that kind of logic in post-conflict 
reconstruction, has some compelling aspects to it--it looks bad 
at the outset, but if you can demonstrate--if you went in 
with--if you took my figures and went in with 75,000 and you 
had a Bonn-like process and a Tokyo-like process and got the 
national constituting process together and got the donors 
together and figured out who's going to do what to whom, and 
are we all at the start line appropriately, based on our 
comparative advantage, when the thing tumbles, then that slope 
would be very steep--you know, if you're there for 6 months, 
and then all of a sudden you say, ``Look, I came in with 75,000 
guys--or I came in with whatever the campaign called for, and 
because the civilian agencies were with them, I withdrew down 
to 75,000, and then 3 months later I'm pulling out 10,000 guys, 
and 3 months after that I'm pulling out 10,000 guys.'' If you 
can demonstrate progress, I think that may allay some of the 
fears my colleagues have stated and the concerns that the 
regional nations might have.
    The Chairman. In direct proportion to how well you plan 
going in and who you've got on the----
    Colonel Feil. I think absolutely.
    The Chairman. Senator Lugar.
    Senator Lugar. Mr. Chairman, let me just say that the 
testimony has led me to believe, first of all, that the need 
for planning in other parts of our government, in addition to 
the Defense Department, is extremely important. I say that 
because I suspect--from the testimony we heard yesterday, we 
identify Saddam Hussein as a unique menace. There are bad 
leaders all over the world, but this is really, by far, the 
worst. He has successfully brutalized the country, created 
enormous problems in terms of nutritional deficiency for the 
children, lack of income for most of the population. In 
essence, by trying to maintain power, he has created a lot of 
problems for the Iraqi people, quite apart from the menace that 
he presents to the neighborhood.
    So having established this as an extraordinary circumstance 
that might justify authorizing the President of the United 
States to go to war, it seems to me we must try to identify the 
fact that it would be best if we went to war with a lot of 
other countries, including the neighbors, including NATO 
allies, and including the Russians, as a matter of fact.
    Now as I have heard the testimony today--we've identified 
the fact that Iraq has great resources--among them, oil. What 
if, in our planning, the United States Department of Commerce 
or the Treasury Department has thought through why some of our 
allies have been lukewarm about our military planning. Namely, 
that they have either debts that Iraq owes or oil concessions. 
In other words, even while we're doing the difficult work, 
business as usual might be created, not only for the Iraqis, 
but for them.
    We would say that's not really the way that it's going to 
work. This is not economic imperialism, but, in fact, as a part 
of our plan for Iraq, in addition to identify the political 
leadership and the coalition and building democracy, we're 
going to run the oil business, for example. We're going to run 
it well. We're going to make money. And it's going to back to 
help pay for the rehabilitation of Iraq, because there is money 
there.
    Now, furthermore, if you want to be involved in that 
business, whether you're Russians or French or whoever, you 
must be with us in the beginning of this business. We're going 
to set up the business together. We're going in together. 
Because once we get there, we're going to control the oil 
business.
    I take that as a good point of departure, because that gets 
people's attention.
    The Chairman. All right.
    Senator Lugar. But there is no point whatsoever in our 
going to rescue all the people of Iraq, the Russian debt, the 
French oil concessions, if our efforts are met with opposition 
and criticism. As the chairman has identified, our efforts in 
Iraq cannot stop after the threat has been removed. It is in 
our national interests that a stable, peaceful Iraq emerges.
    I'm suggesting, to be provocative today, that we do have a 
plan. It must be more than a military plan, and it must result 
in attracting a broad coalition. If our statesmanship is adept, 
we will have the Russians aboard, the French will be with us, 
so will a lot of other people, and we will deal with the Iraq 
problem together. This will ensure a much greater chance of 
success, rather than being identified as the unique invaders, 
the unique enemy.
    Now, it may be that Arab sentiment will end up disliking 
the Russians, disliking the French, disliking the Germans, the 
English, all of us. But it could be, as a matter of fact, that 
if the oil business makes money, and we pump 5 million barrels 
a day, as opposed to two, and the Iraqi people begin to thrive. 
Some people might like this idea, in fact, this new incipient 
democracy will have something to work with, as opposed to 
poverty and destruction and rehabilitation that may or may not 
occur.
    Now, given that provocative idea, does anyone have a 
comment?
    Ms. Francke. Senator, yes. I would suggest that a lot of 
hard horse trading go on prior to any military action. And it 
has surprised me, actually, that none has been going on. And 
the advantages of it can be seen in the smart sanctions issue 
where, in fact, we did do some hard bargaining and some horse 
trading, and we got the thing through the U.N. Security 
Council.
    And I think your suggestion is perfect, that one should 
encourage the administration to go and bargain hard and say, 
``We'll give you this if you'll give us that,'' and so on and 
so forth.
    Now, the other issue is that lifting sanctions on Iraq and 
getting oil flowing and getting business in Iraq is actually 
going to have an enormously beneficial economic impact in the 
region, not just Turkey. We hear about Turkey only. But there 
are many, many companies in Jordan, in Syria, in the gulf that 
can benefit from this economic opening up in Iraq.
    It's actually going to be a bonanza in the region, to be 
honest, and there is plenty of room for everyone to benefit, 
not just from developing the infrastructure of the oil 
industry, but from building roads and hospitals and so on and 
so forth. There's everything to be done, and Iraqis can't do it 
all on their own. So there is that economic benefit.
    But I want to address another issue that the chairman also 
raised, and that is the perception of the United States in the 
region. And to this extent, I think the colonel was absolutely 
right. If we can show that we are diminishing gradually, there 
will be a great sense of relief.
    However, I don't want to open a new subject, but we have to 
be honest. There are many other reasons--other problems in the 
Middle East that we need to be addressing. It is not just U.S. 
policy toward Iraq that makes Middle Easterners angry. In fact, 
this is very much of a secondary issue, and it's byproduct of 
other issues.
    And so we should not simply look at U.S. presence in Iraq 
as being the one that inflames Arabs and so on. There are many 
issues that are older, broader, and more entrenched in the 
Middle East that we need to look at.
    So after the first gulf war, there was an opportunity to--
particularly, the Madrid Conference on the Middle East, and I 
wonder whether, in fact, Iraq will present such another 
opportunity for a global look at the Middle East and its 
problems.
    Senator Lugar. It might, and you make a very good point. My 
only thought would be that it is conceivable that there are 
issues in the Middle East, including Israel and Palestine, that 
might take many, many years. One reason we're having these 
hearings is that we may be on the threshold of a war now. So 
ideally, it would have been desirable to have cleared 
everything up before military action----
    Ms. Francke. Yes.
    Senator Lugar [continuing]. But that, I suspect, is not 
really in the cards.
    The Chairman. In our generation, there was a guy, who was a 
rock singer--I think his name was Clyde McPhatter--and he sang 
a song called, ``Timing,'' ``Ticky-ticky-tock, timing is the 
thing.''
    This is all timing. We don't control this timing. We don't 
control the timing. We're talking about, as the Senator said, 
we're here because the administration and others are saying 
``in the very near term.'' I don't know anybody who thinks in 
the very near term we are going to find a solution that will 
satisfy the region relative to Israel and the Palestinian 
question.
    But you've been very, very kind with your time. We'd like 
to, with your permission--some of our colleagues may have some 
questions to submit to you in writing. We'll not overburden 
you. We're not going to make this a summer project for you--an 
August project, but--and we'd also like to know--I would like 
to know if you would be available to the committee in the 
future, as well.
    As I said, this is not the end of this process. This is the 
beginning, and you've helped us get off to, I hope, an 
auspicious start. I hope people view it--I think it is in 
beginning to delve into, for the first time, at least, in the 
fora like this on some of the really difficult questions. But 
because they're difficult does not mean that they are not 
answerable. Because they're difficult and because this presents 
us with great problems--we've faced more difficult problems 
before, and we've overcome them.
    And so I'm optimistic. I have a view that if we, in fact, 
discuss it and debate it and reach a consensus, that there 
isn't anything we can't do, including dealing with Saddam 
Hussein.
    I thank you all very, very much for your indulgence, and we 
are recessed until 2 o'clock, when we have a second panel. As a 
matter of fact--well, 2 o'clock.
    [Whereupon, at 1:45 p.m., the hearing was recessed, to 
reconvene at 2 p.m., the same day.]

                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Boxer, Bill Nelson, Rockefeller, 
Lugar, and Hagel.
    The Chairman. The hearing will please come to order.
    I'm told that we are going to have one vote around 2:30.
    Senator Boxer. I think it's been pushed back to 3.
    The Chairman. Good, I hope that's true.
    This will be the last panel we have today, and the most 
distinguished panel that we've had, two men with a considerable 
amount of service to the country. The first is former Secretary 
of Defense, among other things. I served here when you were 
running the Office of Management and Budget. I've wanted to 
always ask you which was more difficult.
    But, at any rate, Caspar Weinberger was Secretary of 
Defense from 1981 to 1987. Secretary Weinberger has served a 
number of public positions, including Chairman of the Federal 
Trade Commission in 1970, Deputy Director and then Director of 
the Office of Management and Budget from 1970 to 1973, and 
Secretary of Health, Education, and Welfare, which is what it 
was called then, from 1973 to 1975, and since 1993, has been 
chairman of Forbes Magazine. It's an honor to have you back 
here, Mr. Chairman, thank you for taking the time to be with 
us.
    And we also have with us Mr. Samuel Berger. Mr. Berger 
served as the National Security Advisor to President Clinton, 
from 1997 to 2000. Mr. Berger served as the Deputy National 
Security Advisor from 1993 to 1996, and Deputy Director of the 
State Department Policy and Planning staff from 1977 to 1980. 
Mr. Berger is currently chairman of Stonebridge International, 
an international strategy firm, and also a good friend, and I 
am pleased to have you here, as well, Mr. Berger.
    We are in the midst of the last--I know you both know this 
drill incredibly well--this the second to the last day before 
we recess to go home and campaign and be with our constituents 
for a month, and it is always the busiest time. But, quite 
frankly, we concluded, Senator Hagel and myself and other, that 
there was no--we could not defer these hearings any longer. And 
so I apologize--you're the only two I probably need not 
apologize to, because you're so experienced--but Senators are 
going to be in and out today, because there's a number of major 
issues on the floor as we speak. But there is no lack of 
interest.
    Mr. Secretary, with your permission, why don't you begin--
--
    Mr. Weinberger. All right.
    The Chairman [continuing]. And then we'll go to Mr. Berger, 
and then we'll go to questions.
    Thank you.

   STATEMENT OF HON. CASPAR WEINBERGER, FORMER SECRETARY OF 
       DEFENSE; CHAIRMAN, FORBES MAGAZINE, WASHINGTON, DC

    Mr. Weinberger. Thank you very much, Mr. Chairman. I 
appreciate your very kind words. It's always an honor to 
testify for a committee of the U.S. Senate, and I am grateful 
for that.
    The question before us really is, should the United States 
depose Saddam Hussein? And my answer is clearly yes. We could 
do it, and we must do it quickly and decisively and with a firm 
commitment to a just and democratic future for Iraq and the 
Iraqi people.
    I have heard several reasons articulated as to why we 
should not remove Saddam Hussein from power. If you will let me 
engage in a little of what we used to call in the law 
``anticipatory pleading,'' I'm going to try to refute some of 
these arguments for inaction.
    One is quite frequently made, and that is that there's no 
proof that Saddam Hussein continues to develop weapons of mass 
destruction. I think this is plain wrong. I should begin by 
noting that the Rumsfeld report submitted in July 1998 made 
clear that the ability of American intelligence agencies to 
predict timeliness and time lines for weapon development to 
rogue states is eroding, both because of gaps in our human 
intelligence-gathering capabilities and the whole nature of 
security these days in the security environment in this world. 
In other words, Mr. Chairman, I think we should not assume that 
we can be comfortable simply because someone has told us we 
have 10 or 12 years before we have to worry.
    On the question of whether Saddam Hussen is developing 
weapons of mass destruction, just from open sources alone I can 
tell you that he has been diverting trucks from the United 
Nations oil for food program to use as small missile--mobile 
missile launchers. He has acquired new surface-to-air batteries 
and is using them to target allied flights over the no-flight 
zones in the north and south, that he agreed to. And just last 
week it was reported that he was attempting to import the 
stainless-steel tubing that is used uniquely for gas 
centrifuges to enrich uranium for nuclear weapons.
    According to The Times of London, Iraq used the cover of a 
recent disaster in Syria to ferry so-called flow-forming 
machines into that country. These are used, again, in the 
centrifuge and its components for uranium enrichment. And a 
mass of other reports indicates that he's reconstituting his 
chemical and biological weapons programs and has been working 
steadily since 1998, which is when the last of the U.N. 
inspectors was thrown out by him, to rebuild chemical weapons 
plants.
    And I would like to quote to you the words of Rolf Ekeus, 
who was the first director of the United Nations weapons 
program inspection teams. He said, ``The systematic pursuit of 
the proscribed weapons and the funds thrown into their 
development points singular mind and extraordinary insistence. 
The present leader of Iraq,'' he said, ``has demonstrated that 
he has ambitions for his country reaching far outside the 
borders of Iraq. And these grand designs of extended influence 
presuppose access to weapons of mass destruction and the means 
for their delivery.''
    Well, then another reason for inaction, it is said that 
Saddam Hussen has given us no real reason to depose him. Well, 
he's in violation of several United Nations Security Council 
resolutions. He has been for almost 4 years. And there must 
come a point in cases such as this when the international 
community recognizes a rogue who will break every promise he's 
made in his surrender at the end of the gulf war and he refused 
to accept the standards of the civilized world.
    More importantly, perhaps, we must recognized that, if 
unchecked, there's every possibility that he will again use 
these weapons of mass destruction on his own people, as he did 
in the Kurdish north a few years ago, or against his neighbors, 
or provide them to terrorist organizations with which he has 
ever-deepening ties.
    And that brings me to the third point as to why we 
shouldn't do anything. It is said that unless he can be tied 
directly to the events of September 11, the United States has 
no reason to depose him. Or the idea that he must be tied to 
the attacks on the United States is a strawman I think that's 
constructed solely in order to be torn down.
    The United States doesn't need to sacrifice and didn't need 
to sacrifice 3,000 of our innocent citizens in order to justify 
defending our national security and that of our allies against 
a proven purveyor of evil such as Saddam Hussein. And I hope 
that we have not forgotten the brutal invasion of Kuwait and 
all the suffering that caused and for which there has been very 
little recompense.
    Saddam Hussein is developing significant links with 
terrorist groups such as the popular front for the liberation 
of Palestine, their general committee, Hamas, Palestine Islamic 
Jihad, and the Abu Nidal. We know he's cultivating operational 
ties with each of these groups, and he's doing much more than 
simply supplying them with cash for the families of the so-
called martyrs.
    In addition, there have been persistent reports of a 
growing al-Qaeda presence being inside Iraq. We know that Iraq 
permits known al-Qaeda members to live and move freely about in 
Iraq. And, again, I understand this is a lot more than just the 
limited tales that we heard awhile back of small cells 
attacking Kurdish up in the mountainous border regions near 
Iran. Al-Qaeda members move freely around Baghdad, and they use 
their Saddam-granted liberty to coordinate their operations 
worldwide. And Secretary Rumsfeld, of course, has confirmed 
this as well as their presence in Iran. While I think no one 
should assume that this situation poses acceptable risks, we 
cannot risk the possibility that Saddam Hussein will share 
weapons of mass destruction with terrorists.
    I don't know what measures of proof we're going to require, 
nor what degree of certainty that we would insist upon. Are we 
actually to wait until we're attacked by these most lethal 
weapons before we agree to respond? If people are looking for 
an excuse for inaction, they can say we must have positive 
proof that Iraq has chemical and biological weapons or even 
nuclear weapons but that only the real proof that we had--
really accept under this terminology is if we are attacked. It 
reminds me of some medical diagnoses. You only get the proof 
that they were correct in the postmortem examinations. I think 
it's the presence, actually, and it's the essence of the Bush 
doctrine of preemption, that we should not wait for that.
    Finally, there is an assertion that I read regularly in the 
papers that is attributed to all manner of reliable sources, 
and that is that Saddam is contained now. Containment works. He 
will die of old age eventually, so no action is needed. We used 
to say of the Ayatollah Khomeini, that--not when he dies, but 
if he dies, and that might well be applied here. This is the 
kind of vision I think--of vision less foreign policy that's 
called ``let them attack first.''
    I must note that these rumors and leaks about war games and 
war plans and the like are basically a disgrace to whoever's 
perpetrating them, and I certainly commend Don Rumsfeld for 
going after them. It also strikes me as the height of 
irresponsibility for the New York Times and others to publish 
these rumors. Anyone who had been charged with the care and 
safety of the United States troops, as I was for 7 years, 
would, I'm sure, feel the same way. I'm glad that no one 
published the location of Omaha Beach before our landings in 
World War II despite a mass of rumors as to where we would land 
circulating at that time.
    Well, then taking perhaps a little of that back, the 
suggestion has also been made that all of these leaks are a 
deliberate disinformation and deception campaign. If that is 
the case, then I would say it's very good of the New York Times 
and others to cooperate so fully with this campaign of 
deception. But I would say, in all seriousness, that, at best, 
disinformation campaigns are a very risky business.
    And then this assertion about Saddam being contained is 
basically probably untrue. Containment is not working. He is 
exporting upwards of $3 billion in illegal oil and using the 
profits for whatever he wishes to. We don't know. He has a 
reason to keep out the arms inspectors that he promised to let 
in, and it's not hard to guess that reason.
    In this day and age, containment means more than preempting 
the expansionism of a weird dictator. It means containing the 
dangers that they pose and hunting their access to weapons and 
instruments and persons who assist them in carrying out their 
threats.
    Mr. Chairman, Saddam is not contained, and he cannot be 
contained. He's violated all of the promises which were 
accepted when we crushed his military in the cold war. He 
cannot be believed, he is an implacable and a permanent foe of 
the United States, and that's why I think he must be removed. 
We can have no peace in that most volatile of regions until he 
is gone.
    In conclusion, I'd like quickly just to address two other 
important issues. The first is the role of the United Nations. 
It seems odd to me, as it must to many around the world, that 
some in the United States persist in supporting renewed 
negotiations for weapons inspections inside Iraq. Kofi Annan 
has come to the end of his rope after three failed rounds of 
negotiations with Baghdad. The President of the United States 
has said that he will see Saddam Hussein removed, and yet, 
notwithstanding, we continue this odd charade in New York of 
seeking to secure more worthless promises from Iraq that could 
grant inspectors the right to come in.
    I note that President Chirac of France a couple of days ago 
said that he will not support us unless the United Nations 
does. Well, given the rules of unanimity in the United Nations, 
this makes it the quite safe harbor in which to shelter 
France's potential inaction.
    The rules of weapons inspectors have also become looser and 
looser over the years. There's no point in sending in some team 
to rubberstamp Saddam's cooperation. Those who advocate that we 
persist in seeking a solution to the problem of Iraq through 
the United Nations, I believe, are basically simply advocates 
of inaction.
    Finally, and, to my mind, most importantly, I've heard it 
said by influential people that an a priori commitment of tens 
of thousands of troops for many years is the required 
prerequisite for removing Saddam Hussen from power. This seems 
to me to be an attempt to set the bar so high that any 
operation in Iraq will be deemed to be the President's failure. 
We must remove Saddam, yes. Then there needs to be a 
determination and a democratic transition committed to a united 
and decent future for the Iraqi people.
    There are many ways to accomplish this. Not all of them 
require thousands of U.S. troops. As Secretary Rumsfeld pointed 
out, if the Iraqi military could be persuaded to rise against 
the regime, we would have very little to do.
    The Iraqi people are perfectly capable of governing 
themselves if they are allowed the chance. Representative 
leadership in Iraq must have the full faith and credit of the 
United States and our commitment to help them secure democracy. 
But we don't need a GI on every street corner for the 
foreseeable future. Nor is the predicted chaos in Iraq, if 
Saddam is removed, a real argument. After all, what was needed 
was a strong leader in Iraq, these people say, and if that's 
what we did need, we shouldn't have bothered to fight the gulf 
war. We had a strong leader in Iraq.
    Now those who oppose a regime change in Iraq say that we 
must keep that strong leader to avoid chaos. Well, regime 
changes in most of the wars that we have fought did not produce 
chaos, and it need not be so in Iraq. We changed several 
regimes after World War II. And in each case, the result was a 
vast and a major improvement.
    Mr. Chairman, I thank you for holding these hearings. I 
think this debate is a vital part of our democracy. I just hope 
that in discussing how to remove Saddam Hussein, we will 
recognize and realize that the boundary between the people's 
right to know and the enemy's right to know is a very thin one 
and we would ignore it at the peril of our troops.
    Thank you very much, sir.
    [The prepared statement of Mr. Weinberger follows:]

   Prepared Statement of Hon. Caspar Weinberger, Former Secretary of 
                   Defense; Chairman, Forbes Magazine

    Mr. Chairman, I appreciate your inviting me to be here today. The 
question before us is should the United States depose Saddam Hussein. 
The answer is clear: yes. We must do it quickly, decisively, and with a 
firm commitment to a just and democratic future for Iraq.
    I have heard several reasons articulated as to why we should not 
remove Saddam from power.
1. There is no proof he continues to develop weapons of mass 
        destruction
    I should begin by noting that the Rumsfeld Report submitted in July 
1998 made clear that the ability of U.S. intelligence agencies to 
predict timelines for weapons development in rogue states is eroding, 
both because of defects within those agencies and the nature of the 
security environment in the world today. In other words, Mr. Chairman, 
we should not assume we are sitting pretty simply because someone in 
Virginia tells us we have ten years to do so.
    On the question of whether Saddam Hussein is developing weapons of 
mass destruction--from open sources alone, I can tell you that Saddam 
has been diverting trucks from the United Nations Oil for Food program 
to use as missile launchers. He has acquired new surface to air 
batteries and is using them to target allied flights. Just last week, 
it was reported that Saddam is attempting to import stainless steel 
tubing used uniquely in gas centrifuges to enrich uranium for nuclear 
weapons.
    According to the Times of London, Iraq used the cover of a recent 
disaster in Syria to ferry so-called flow-forming machines into the 
country. Similar machines were used by Iraq in the past to produce 
components for uranium enrichment.
    Other reports indicate that Saddam is reconstituting his chemical 
weapons programs, and has been working steadily since 1998 (when the 
last UN inspectors were kicked out) to rebuild chemical weapons plants.
    Finally, I should cite to you the words of Rolf Ekeus, the first 
director of the United Nations weapons inspections team in Iraq: ``The 
systematic pursuit of the proscribed weapons and the funds thrown into 
their development points to a singular mind and extraordinary 
insistence. The present leader of Iraq has demonstrated that he has 
ambitions for his country reaching far outside the borders of Iraq. 
These grand designs of extended influence presuppose access to weapons 
of mass destruction and the means for their delivery.''
2. Saddam Hussein has given the United States no reason to depose him
    Saddam is in violation of several United Nations Security Council 
resolutions, and has been for almost four years. There must come a 
point in cases such as this when the international community recognizes 
a rogue who will not comply with the demands of the civilized world. 
More importantly, perhaps, we must recognize that if unchecked, there 
is every possibility that Saddam will use those weapons on his own 
people, his neighbors or provide them to the terrorist organizations 
with which he has ever deepening ties. Which brings me to excuse number 
3:
3. Unless Saddam can be tied to September 11, the United States has no 
        reason to depose him
    The idea that Saddam must be tied to the attacks on the United 
States is a straw man constructed solely in order to be torn down. The 
United States does not need to sacrifice 3,000 of its innocent citizens 
in order to justify defending our national security and that of our 
allies.
    Saddam Hussein is developing a significant relationship with 
terrorist groups such as the Popular Front for the Liberation of 
Palestine (General Command), Hamas, Palestinian Islamic Jihad and Abu 
Nidal. I have been told he is cultivating operational ties with each of 
these groups, doing much more than simply providing cash to the 
families of so-called ``martyrs''.
    In addition, there have been persistent reports of a growing al 
Qaeda presence inside Iraq. Again, I understand this is more than the 
initial tales of small cells attacking Kurdish groups, operating in the 
mountainous border area near Iran. Apparently, al Qaeda members are 
moving freely around Baghdad, using their Saddam-granted liberty to 
coordinate operations worldwide.
    Surely no one would assert this situation poses acceptable risks. 
We cannot risk the possibility that Saddam will share weapons of mass 
destruction with terrorists.
    Finally, there is an assertion that I read regularly in the pages 
of the newspaper from leakers at the Pentagon.
4. Saddam is contained now; containment works and he will die of old 
        age eventually
    This is the kind of vision-less foreign policy that makes me thank 
our Founding Fathers for civilian control of the military. First, I 
must note that these leaks of war games, war plans and the likes are a 
disgrace to the United States Armed Forces. I commend Don Rumsfeld for 
going after them. It also strikes me as the height of irresponsibility 
for the New York Times and others to publish these rumors. Anyone who 
has been charged with the care and safety of U.S. troops as I was for 
seven years would, I am sure, feel this way.
    Second, this assertion is palpably untrue. Containment is not 
working. Saddam Hussein is exporting upwards of $3 billion in illegal 
oil and using the profits for who-knows-what. He has a reason to keep 
out arms inspectors. What is it?
    In this day and age, containment means more than pre-empting the 
expansionism of loony dictators. It means containing the dangers they 
pose, and limiting their access to instruments and persons who can 
assist them in carrying out their threats.
    Mr. Chairman, Saddam is not contained, and he cannot be contained. 
He has violated all of the promises which we accepted when we crushed 
his military in the Gulf war. He cannot be believed and he is an 
implacable foe of the United States. That is why he must be removed.
    I would like to quickly address two other important issues. The 
first is the role of the United Nations. It seems odd to me, as it must 
to many around the world, that the United States persists in supporting 
renewed negotiations for weapons inspections inside Iraq. Kofi Annan 
has come to the end of his rope after three failed rounds of 
negotiations with Baghdad. The President of the United States has said 
that he will see Saddam Hussein removed, and notwithstanding, we 
continue this odd charade in New York.
    The terms of weapons inspections have become looser and looser over 
the years. There is no point in sending in some team to rubber stamp 
Saddam's ``cooperation''. Those who advocate that we persist in seeking 
a solution to the problem of Iraq through the United Nations are 
advocates of inaction. They're just afraid to say so.
    Finally, and to my mind, most importantly, I have heard it said by 
influential people in this town that an a priori commitment of tens of 
thousands of troops for many years is the required prerequisite for 
removing Saddam Hussein from power.
    This seems to me to be political in the extreme--an attempt to set 
the bar so high that any operation in Iraq will be deemed the 
President's failure. We must remove Saddam, yes. We must also have in 
place a democratic transition committed to a united future for Iraq.
    The Iraqi people are perfectly capable of governing themselves if 
allowed the chance. Representative leadership in Iraq must have the 
full faith and credit of the United States, and our commitment to 
enforce unity and democracy. But we don't need a GI on every street 
corner for the foreseeable future. After all, if what we wanted was a 
strong leader in Iraq, we shouldn't have bothered to box him in during 
the Gulf war. People say there will be chaos. I disagree, but I must 
confess frankly that even chaos would be better than Saddam.
    Mr. Chairman, thank you for holding these hearings. This debate is 
a vital part of our democracy, and I know our Commander in Chief is 
grateful for the Congress' support as he works to defend our national 
security.

    The Chairman. Thank you, Mr. Secretary.
    Mr. Berger.

    STATEMENT OF SAMUEL R. BERGER, FORMER NATIONAL SECURITY 
  ADVISOR; PRESIDENT AND CEO, STONEBRIDGE INTERNATIONAL LLC, 
                         WASHINGTON, DC

    Mr. Berger. Mr. Chairman, Senator Lugar, members of the 
Senate Foreign Relations Committee, I welcome this opportunity 
to participate in the beginning of an important national 
discussion on how we deal with a threat to peace posed by the 
regime of Saddam Hussein.
    That it is a threat is the essential starting point. Saddam 
Hussein is a menace to his own people, to the stability of a 
combustible and critical region, and a potential threat to the 
United States. He has demonstrated his intent to seek hegemony 
in the gulf. He has demonstrated his intent to develop weapons 
of mass destruction and his willingness to use them. He has 
demonstrated his contempt for the international community and 
his implacable hostility to the United States. A nuclear-armed 
Saddam sometime in this decade is a risk we cannot choose to 
ignore.
    But let's be clear. All these things were true before 
September 11. While the President is right to underscore the 
potential nexus between hostile regimes, weapons of mass 
destruction, and terrorists, viewing the Iraqi threat primarily 
through the prism of the war on terrorism distorts both.
    Is it conceivable that Saddam will link up with extremist 
Islamic terrorists? Yes, but that has not been his history. And 
removing Saddam Hussen does not eliminate the danger that 
terrorists will obtain chemical or biological weapons from any 
of the more than dozen states that have the capacity to produce 
them or acquire dangerous nuclear material from inadequately 
safeguarded storage facilities in the former Soviet Union.
    This is not to minimize, Mr. Chairman, but to clarify it. 
Saddam Hussein and the fight against terrorism may one day 
intersect, but we lose our focus and our credibility on both 
fronts if we reflexively lump them together.
    What, then, is the right policy? Containment, in fact, has 
stopped Saddam from attacking his neighbors since 1991. But 
when he expelled U.N. inspectors in 1998, he substantially 
undermined the ability of the international community to track 
his weapons-of-mass-destruction programs. Simply keeping him in 
the box carries higher risks when his WMD programs are 
unchecked and he can break out with such lethality.
    But concluding, that regime change is the necessary goal is 
to begin the discussion, not to end it. It is just as foolhardy 
to underestimate the challenges involved in ousting Saddam 
Hussein as it is to underestimate the threat he poses.
    There are different approaches to a regime change. One is 
to provide tangible support to those around Saddam who can take 
matters into their own hands. We have learned that achieving 
success in this manner is easier said than done, but it now an 
avenue we should abandon. We can enhance those possibilities to 
some degree by increasing international efforts that de-
legitimize Saddam and defining more clearly what a new Iraqi 
government can expect from the international community if it 
accepts international norms.
    Another option is the so-called Afghan model, arming the 
Iraqi opposition to march on Baghdad, supported by U.S. air 
power, but limited manpower. Clearly there is an important role 
for the opposition, both internal and external, but I am deeply 
skeptical of a surrogate strategy in Iraq. The Iraqi opposition 
is weaker than the Northern Alliance and fractured by internal 
rivalry. At the same time, the Iraqi Armed Forces are 
signficantly stronger than the Taliban, and Saddam Hussein's 
grip is tighter. We should be very wary of turning the U.S. 
military into an emergency rescue squad if Saddam Hussein loses 
tanks against insurgents we are backing. America does not need 
a Bay of Pigs in the Persian Gulf.
    That leaves a U.S.-led military invasion, which ultimately 
may become our only option. But we must define the necessary 
objective more broadly than simply eliminating Saddam's regime. 
Our objective must be removing that regime in a way that 
enhances, not diminishes, our overall security. Our strategy 
should bring greater stability to the region, not less. It 
should contribute to ending Israel's isolation, not compounding 
it. It should not come at the expense of the support we need in 
the fight against al-Qaeda or the stability of friends in the 
region. It would be a pyrrhic victory, for example, if we get 
rid of Saddam Hussein only to face a radial Pakistani 
government with a ready-made nuclear arsenal.
    We must approach this challenge with sharp focus, but also 
with peripheral vision. That is why we need to do more than 
simply plan a military invasion. We need to put in place the 
building blocks that can make long-term success possible, and 
we need to proceed on a timetable dictated not by elections or 
emotions, but by a hard-nosed intelligence assessment of the 
trajectory of Iraq's capabilities, especially its nuclear 
program.
    What are those building blocks? First, the United States 
must be engaged consistently in trying to reduce the violence 
and tension in the Middle East. If there is not progress on the 
ground in ending the violence and improving people's lives or 
we are not seen at least working energetically to change the 
dynamic, I believe support from the region for action in Iraq 
will be scarce, and an invasion very well break along an 
already precarious Arab-Israeli fault line.
    Second, we need a sustained strategy to make evident to 
others the legitimacy of our actions. Today even many of our 
closest allies do not share our sense of the threat. Some in 
the United States say that doesn't matter in the end, that our 
allies are weak militarily and soft strategically. As for those 
in the region, others say, in effect, if we do it, they will 
come.
    But the fact that America can do it alone does not mean it 
is wise to do it alone. We don't need to recreate the gulf war 
coalition. We acted essentially unilaterally in Afghanistan. 
But the world saw our actions as a legitimate response to a 
terrible provacation. Power by itself does not confer 
legitimacy. It is the widely perceived purpose to which that 
power is applied and the manner in which it is used. If we are 
right about the threat Iraq poses, we ought to be able to build 
a solid case for the world and take the time we have to do it.
    Third, and crucially, we need to have an honest discussion 
with the American people about what's involved, consistent with 
the Secretary's very important admonition about operational 
surprise and secrecy. From the gulf war to Kosovo and 
Afghanistan, our men and women in uniform have performed 
superbly, securing impressive victories at impressively low 
costs.
    But our pride in them should not blind us to the very real 
challenges of war in Iraq. Our objective here is not to drive 
Saddam Hussein back to his own country. It is to drive him out 
of power. The American people must be prepared for a more 
challenging mission--urban combat, chemical weapons attacks, 
Saddam's use of human and civilian shields, an American 
presence in Iraq measured in years when we succeed.
    It is time to start asking and answering, as you have been 
doing in this committee for the past 2 days, tough questions 
before we launch our country down the path to war. What impact 
will our actions have on key governments in the region, such as 
Jordan, Pakistan, and Turkey? What allies do we need, from both 
a military and political standpoint? What kind of successor do 
we see for Saddam Hussen? How do we keep the country together 
and avoid a Balkanized outcome? What kind of assistance--
economic, political, and military--can a new Iraqi government 
expect from the United States? Do we see this as Korea, where 
we helped build a thriving democracy from the debris of war but 
maintained a military presence there a generation later, or 
Bosnia, where we seem impatient to leave even before the 
conditions warrant? And who will pay for Iraq's recovery, with 
current estimates of the cost of rebuilding its economy ranging 
from $50 to $150 billion?
    Mr. Chairman, there is no question that the world will be a 
better place without Saddam Hussein's regime. As you've stated 
in the past, if he is around 5 years from now, it means we 
haven't done something right. But if we don't do this operation 
right, we could end up with something worse. We need to be 
clear and open about the stakes, the risks, and the costs that 
genuine success--meaning a more secure America and a more 
secure world--will require.
    Thank you.
    [The prepared statement of Mr. Berger follows:]

   Prepared Statement of Samuel R. Berger, Former National Security 
       Advisor; President and CEO, Stonebridge International LLC

                           saddam is a threat
    Mr. Chairman, Members of the Senate Foreign Relations Committee, I 
welcome this opportunity to help open an important national discussion 
on how we deal with the threat to peace posed by the regime of Saddam 
Hussein in Iraq.
    That it is a threat is the essential starting point. Saddam Hussein 
is a menace to his own people--to the stability of a combustible and 
critical region--and a potential threat to the United States. He has 
demonstrated his intent to seek hegemony in the Gulf. He has 
demonstrated his intent to develop weapons of mass destruction and his 
willingness to use them. He has demonstrated his contempt for the 
international community and his implacable hostility to the United 
States. A nuclear-armed Saddam sometime in this decade is a risk we 
cannot choose to ignore.
    But let's be clear: All these things were true before September 11. 
While the President is right to underscore the potential nexus between 
hostile regimes, weapons of mass destruction and terrorists, viewing 
the Iraqi threat primarily through the prism of the war on terrorism 
distorts both.
    Is it conceivable that Saddam will link up with extremist Islamic 
terrorists? Yes, but that has not been his history. And removing Saddam 
Hussein does not eliminate the danger that terrorists will obtain 
chemical or biological weapons from any of the more than a dozen states 
that have the capacity to produce them, or acquire dangerous nuclear 
material from inadequately safeguarded storage facilities in the former 
Soviet Union.
    This is not to minimize the threat but to clarify it. Saddam 
Hussein and the fight against terrorism may one day intersect, but we 
lose our focus and our credibility on both fronts if we reflexively 
lump them together.
                          u.s. policy choices
    What then is the right policy? Containment in fact has stopped 
Saddam Hussein from attacking his neighbors since 1991. But when he 
expelled UN inspectors in 1998, he substantially undermined the ability 
of the international community to track his WMD programs. Simply 
keeping him ``in the box'' carries higher risks when his WMD programs 
are unchecked and he can break out with such lethality.
    But concluding that regime change is the necessary goal is to begin 
the discussion, not to end it. It is just as foolhardy to underestimate 
the challenges involved in ousting Saddam Hussein's regime as it is to 
underestimate the threat it poses.
    There are different approaches to regime change. One is to provide 
tangible support to those around Saddam who can take matters in their 
own hands. We have learned that achieving success in this manner is 
easier said than done, but it is not an avenue we should abandon. We 
can enhance those possibilities to some degree by increasing 
international efforts that de-legitimize Saddam and defining more 
clearly what a new Iraqi government that accepts international norms 
can expect from the world.
    Another option is the so-called Afghan model--arming the Iraqi 
opposition to march on Baghdad, supported by U.S. airpower but limited 
manpower. Clearly, there is an important role for the opposition, both 
internal and external--but I am deeply skeptical of a ``surrogate'' 
strategy in Iraq. The Iraqi opposition is weaker than the Northern 
Alliance and fractured by internal rivalry. At the same time, the Iraqi 
armed forces are significantly stronger than the Taliban and Saddam 
Hussein's grip is tighter. We should be very wary of turning the U.S. 
military into an Emergency Rescue Squad if Saddam Hussein moves his 
tanks against insurgents we are backing. America does not need a Bay of 
Pigs in the Persian Gulf.
    That leaves a U.S.-led military invasion, which ultimately may 
become our only option. But we must define the necessary objective more 
broadly than simply eliminating Saddam's regime. Our objective must be 
removing that regime in a way that enhances--not diminishes--our 
overall security. Our strategy should bring greater stability in the 
region, not less. It should contribute to ending Israel's isolation, 
not compounding it. It should not come at the expense of the support we 
need in the fight against al Qaeda, or the stability of friends in the 
region. It would be a pyrrhic victory, for example, if we get rid of 
Saddam Hussein, only to face a radical Pakistani government with a 
ready-made nuclear arsenal.
    We must approach this challenge with sharp focus, but also with 
peripheral vision.
                            building blocks
    That is why we need to do more than simply plan a military 
invasion. We need to put in place the building blocks that can make 
long-term success possible. And we need to proceed on a timetable 
dictated not by elections or emotions, but by a hard-nosed intelligence 
assessment of the trajectory of Iraq's capabilities, especially its 
nuclear program.
    What are those building blocks?
    First, the United States must be engaged consistently in trying to 
reduce the violence and tension in the Middle East. If there is not 
progress on the ground--in ending the violence and improving people's 
lives--or we are not at least seen as working energetically to change 
the dynamic--I believe support from the region for action in Iraq will 
be scarce and an invasion very well may break along an already 
precarious Arab-Israeli fault line.
    Second, we need a sustained strategy to make evident to others the 
legitimacy of our actions. Today, even many of our closest allies do 
not share our sense of the threat. Some in the United States say that 
doesn't matter in the end, that our allies are weak militarily and soft 
strategically. As for those in the region, others say, in effect, ``If 
we do it, they will come.''
    But the fact America ``can'' do it alone does not mean that it is 
wise to do it alone.
    We don't need to recreate the Gulf War coalition. We acted 
essentially unilaterally in Afghanistan, but the world saw our actions 
as a legitimate response to a terrible provocation. Power by itself 
does not confer legitimacy. It is the widely perceived purpose to which 
that power is applied and the manner in which it is used. If we are 
right about the threat Iraq poses, we ought to be able to build a solid 
case for the world and take the time we have to do it.
    Third, and crucially, we need to have an honest discussion with the 
American people about what's involved. From the Gulf War to Kosovo and 
Afghanistan, our men and women in uniform have performed superbly--
securing impressive victories at impressively low costs. But our pride 
in them should not blind us to the very real challenges of war in Iraq. 
Our objective here is not to drive Saddam Hussein back into his own 
country; it is to drive him out of power. The American people must be 
prepared for a far more challenging mission: urban combat, chemical 
weapons attacks, Saddam's use of human and civilian shields, and an 
American military presence in Iraq--measured in years--when we succeed.
                            tough questions
    It's time to start asking and answering tough questions, before we 
launch our country down the path to war.

  <bullet> What impact will our action have on key governments in the 
        region--such as Jordan, Pakistan and Turkey?

  <bullet> What kind of successor do we see for Saddam Hussein? How do 
        we keep the country together and avoid a Balkanized outcome?

  <bullet> What kind of assistance--economic, political and military--
        can a new Iraqi government expect from the United States? Do we 
        see this as Korea--where we helped build a thriving democracy 
        from the debris of war but maintain a military presence there a 
        generation later? Or Bosnia, where we seem impatient to leave 
        even before conditions warrant?

  <bullet> And who will pay for Iraq's recovery--with current estimates 
        of the cost of rebuilding its economy ranging from $50-150 
        billion?

    Mr. Chairman, there's no question that the world will be a better 
place without Saddam Hussein's regime. As you've said in the past, ``if 
he is around five years from now, it means we haven't done something 
right.'' But if we don't do this operation right, we could end up with 
something worse. We need to be clear and open about the stakes, the 
risks and the costs that genuine success--meaning a more secure America 
and a more secure world--will require.

    The Chairman. I thank you very much.
    Before we begin, or as we begin, one of the statements that 
you made, Mr. Secretary, maybe in a different context or in a 
closed hearing or a closed circumstance, you can tell us, but 
the line that says, ``I understand there is more than initial 
tales of small cells acting--Kurdish groups operating in the 
mountain borders of Iran. Apparently, al-Qaeda members are 
moving freely around Baghdad using their Saddam-granted liberty 
to coordinate operations worldwide.'' I have not heard that 
from any source in the U.S. Government that I've kept close 
tabs on, but maybe at some point in another context you can 
share with us the source of that.
    But in the interest of just general fairness, Senator 
Rockefeller has been patient and at the end of the line here. I 
get to stay throughout the whole hearing. I can ask my 
questions at the end. Why don't we begin with you, Senator 
Rockefeller, we'll go in order, and I'll question last.
    Senator Rockefeller. I have a Confucian temperament, Mr. 
Chairman.
    A couple of things come to mind. In the days of these 
hearings, there's been just an enormous array of thoughts and 
suggestions. And yesterday I sort of concentrated on the 
uncertainty factor. And, you know, you--Mr. Berger, you talked 
about removing Saddam does not do it all. And that brings up a 
question which I've actually sort of wanted to ask. We've been 
talking a lot about nation building here. And you say, well, 
that could be $100 to $150 billion for Iraq alone.
    Americans tend to be kind of episodic, you know, crisis 
oriented when we--obviously, 9/11 is a little bit more than 
episodic, but--and what we're in is profoundly dangerous, but 
we jump from sort of country to country, and then we will take 
Iraq and we'll sort of isolate Iraq and say, well, what are 
going to be the repercussions of this?
    Are we talking about, in fact, removing Saddam Hussein 
because he is Saddam Hussein, alone, or because of the weapons 
of mass destruction? And is it not really what we're talking 
about, the removing the threat to this country of--weapons of 
mass destruction--of which he is the dictatorial keeper and 
decisionmaker?
    So if it's the removal of weapons of mass destruction, and 
if you accept that al-Qaeda is in 60 other countries, that 
South America has not yet bubbled up, Africa, in many ways, 
hasn't bubbled up, well, Southeast Asia is all yet before us, 
perhaps, or probably, and many other places in the Middle 
East--Iran--who knows? You can't do it all. You can't go in and 
say, well, here's Afghanistan--and that's kind of more of a 
futile warlord thing and that history--but Baghdad is much more 
of a stabilized middle class. Perhaps we can make a democracy 
out of that, and so let's nation build. And, oh, by the way, 
that may cost $100 to $150 billion. Then you go down to the 
Indonesian archipelago and you're talking about thousands of 
islands--and, who knows, the largest Muslim country in the 
world, which is not to tie Islam into this in any greater than 
is appropriate. But you start stockpiling an inventory which 
becomes absolutely out of the question for this country.
    You talk about educating--I'm not questioning you, Mr. 
Berger, I'm just questioning the proposition--we talk about 
educating the American people to what we're doing, leveling 
with the American people. Well, if we're going to level with 
the American people, we'd better tell them that this--that 
we're talking about, you know, and $8 or $10 trillion project 
here worldwide, in all probability, unless we think that 9/11 
was isolated, and it surely was not, and nobody even pretends 
to think that.
    Isn't it really our security that we're talking about? And 
if it's really our security, isn't it keeping ourselves safe 
from weapons of mass destruction from wherever they might come? 
And, you see, that doesn't have to just be a nuclear bomb. That 
can be a suicide bomber. That can be a plane into the World 
Trade Tower. That can be, you know, something else into a 
chemical plant, a power grid, whatever it is, but it's the 
combination of the intelligence, the preemptive intelligence, 
as opposed to the--as well as the tactical, but particularly 
the preemptive--and keeping ourselves safe--and, therefore, as 
much as possible, the world, because we're the largest target, 
and if we're keeping ourselves safe--but we've gotten into this 
enormous discussion on nation building.
    And I would just like to, sort of, get both of your 
thoughts on that. If you're suggesting--and I don't disagree 
that--to stay the course and that--we had some witnesses this 
morning that said, no, you only have to have about 5,000 troops 
in Iraq for 3 or 4 or 5 years or less--a couple of years, I 
think one of them suggested. That doesn't seem very probable to 
me if they're talking about nation building.
    And what it seems to me that you started off with is making 
America secure, removing the means of destruction of us and 
other parts of the world from different terrorist groups, of 
whom Saddam Hussein obviously is a classic definition.
    But I'd like your response to that, because it just seems 
to me we've kind of run away, let the wagon get out of control 
here in terms of what it is that our responsibilities are as a 
nation and what we can possibly afford to do without having our 
people rise up on us, because we won't--if we tried to do all 
of it, we would do a lot of it unsuccessfully, because there's 
not any tradition for democracy in a lot of these places.
    Mr. Weinberger. Senator, let me respond in a few ways to 
what I think are very important comments you've made. In no 
small measure, what I'm saying is that, as we look at how we 
deal with a real threat, Saddam Hussein--Saddam Hussein, plus--
with weapons of mass destruction; I'll come back to that--we 
have to do it within the constellation of our overall security. 
We can't simply pull this out and look at this divorced from 
the consequences of acting and the consequences of not acting, 
the risks of acting and the costs--the opportunity costs that 
may have elsewhere.
    So, yes, I do believe Saddam, plus--with weapons of mass 
destruction, is a threat. We can't deny that. To me, it's the 
combination of both. It is the capability and the intent, 
together.
    To me, the greatest threat is Saddam with nuclear-weapons 
capability believing that that capability is essentially 
deterrence against us acting if he then seeks, once again, to 
take aggressive action against his neighbor. I think that's the 
single most dangerous threat of this threat.
    But I think the importance of this dialog that you've begun 
here is to look at this in the context of American security. 
Can we do this in a way that, in the end of the day, not only 
is Saddam gone, but we're more secure? We're not isolated--less 
isolated. He's out of the picture. And I think that's--you 
know, that is a risk calculation which begins with these 
hearings and which I think is very important for the 
administration to join with.
    Senator Rockefeller. Sandy Berger, do you include nation 
building as part of our obligation? Because the question I 
would pose to you--isn't there a point at which there is an 
inverse correlation between our determination to nation build 
after we remove the bad guys and our ability to remove both 
weapons of mass destruction wherever they exist in the world 
and the whole threat of terrorism as it surely does exist in 
the world?
    I mean, at some point you--if you do one, you can't do the 
other. And our first obligation, it seems to me, is to make 
sure that there is a security factor for our country.
    Mr. Berger. I think, Senator, that if we engage in a 
military action against Saddam, and it's successful, that it 
requires us to be prepared to stay there for a considerable 
period of time. That's part of the calculation I think we need 
to make at the outset. The centrifugal forces in Iraq are 
substantial--the Kurds in the north, the Shia in the south, 
Turkey, Iran. And simply extracting Saddam Hussein and all the 
rest of his Ba'thist colleagues and leaving a situation which 
could unravel in which the Kurds, for example, could declare 
some kind of independence, the Turks feeling threatened by 
that, would move in against the Kurds, you can imagine a number 
of scenarios here--I think it's unrealistic to think that we 
can go in somehow, parachute in, grab the bad guys, leave a 
couple of AID people behind, and that America will be more 
secure as a result of that.
    Mr. Weinberger. Well, that certainly is not my idea of what 
we would do if we changed regimes, Senator. I think if we 
change regimes, you will get rid of Saddam Hussein, of course. 
You also, if it's done properly, as we would hope to do it, 
would remove a substantial amount of the threat of the 
development of nuclear, biological, and chemical weapons, 
because presumably the changed regime, the new regime, would be 
a regime that would be installed in power and would not have 
that as part of its agenda.
    I think the very precision of Mr. Berger's estimates of 
between $50 and $150 billion indicates a lack of clarity as to 
precisely what it is we're going to be doing.
    I don't think we have to rebuild the nation of Iraq. I 
think we have to set up a framework so that the people 
themselves can cover themselves. And there is no doubt that 
there will be some assistance needed, perhaps, for that regime. 
There's not reason for us to bear it alone. I would think that 
there--the ideal arrangement would be to have a number of the 
moderate Arab countries and anyone else who wishes to join 
become part of an army of occupation that would stay while the 
regime was being changed.
    We had considerable experience with this after World War 
II. We changed regimes in every single country that we fought 
against, very much to their improvement, and with the result 
that we ended up with some very warm, close allies who formerly 
had been bitter enemies. And I don't see any reason why that 
can't be done. We didn't have to rebuild those countries. We 
had the Marshall Plan, which was correctly described as the 
most altruistic act in history, and it helped a lot, but it 
helped us, too.
    So I think that a lot of this is a sort of set of strawmen 
that are set up as a basis for arguing for inaction. We all 
agree that the regime is terrible, that Saddam Hussein is a 
beast of the worst kind and most go, but then everybody starts 
pointing out the enormous difficulties afterwards.
    The departure of Saddam Hussein doesn't guarantee chaos in 
the region. And I would think that a victorious group of armies 
or group of nations that participated in his being eliminated 
in a regime change would also want to participate in whatever 
is necessary to keep the situation basically stable and secure. 
And so I don't think that any of these boogeymen that we're 
hearing about are necessarily that is going to happen, 
certainly not some of these wild estimates of how much it's 
going to cost. That's a good way to frighten off the American 
people, but I don't think it has very much accuracy.
    Senator Lugar [presiding]. Senator Biden has asked me to 
preside, and I recognize Senator Hagel.
    Senator Hagel. Senator Lugar, thank you. I add my welcome 
to our distinguished witnesses and also thank you each for your 
many contributions to our country. And this is in line with 
your continued contribution, so thank you. We value each of 
your wise counsel and we will probably be talking with you 
often in the days ahead.
    Mr. Berger, you, in your testimony, ended by laying out a 
number of, as you state, ``tough questions.'' And yesterday we 
heard from many distinguished witnesses who, as a matter of 
fact, dwelt in some detail on your questions, your first one 
being, what impact will our action have on key governments in 
the region, such as Jordan, Pakistan, and Turkey?
    I would ask each of you if you would respond to that 
question, your question, Mr. Berger, in this way. What is your 
opinion as to if the United States would find itself, as it 
essentially does today, alone, and if we would move in a 
military action to destroy Saddam Hussein unilaterally, or 
essentially unilaterally? Is that wise? Would there be 
consequences? What, in fact, consequence might there be for the 
Governments of Jordan, Pakistan, and Turkey?
    You mention, Mr. Berger, Iran and the Middle East. I'd be 
interested in getting your thoughts on whether you think there 
is any connection between the Middle East situation today and 
Iraq if we would unilaterally take action against Saddam 
Hussein. Would that have any effect on our other interests?
    And, I might add, included in that interest, which we 
passed this morning a bill out of this committee, framing up a 
focus for economic, diplomatic, democratic institution building 
in Afghanistan. We seem to kind of glide by that, and it was 
referenced this morning by one witness. I think a ``hit and 
run'' is what she said--a hit and run effort in Afghanistan, 
and that witness acknowledged that this might be a more 
difficult undertaking in that we would not want to model, in 
fact, our efforts in Iraq if we went into Iraq after 
Afghanistan.
    Now, I've thrown a lot of pieces out there, but I would 
welcome your thoughts on any of those or all of them.
    And, Mr. Secretary, thank you again for coming today.
    Mr. Weinberger. Well, Senator, I think if we go in alone 
and remove Saddam Hussein, we'll find that success has many 
allies. I think one of the reasons that you're hearing a lot of 
warnings and complaints and criticism of the possibility are 
from countries who fear that we would not stay the course. They 
live in the neighborhood. They know what this man is like, and 
they don't want to be put out on a limb by a false start by us, 
so to speak, or a rapid winding up.
    If they are sure that we're going to stay the course and 
finish the job and eliminate Saddam Hussein, I think you'll 
find a great many people swarming around wanting to join the 
team. And I think that would be a very good thing.
    I think we need help. We need all the help we can get. It 
will not be an easy task. But I think that the important thing 
is to do it and to have it as our clear objective that it is 
going to be done.
    I do wish that there would be less discussion of the how 
and when and where of the actual operation, because I think 
that imperils the troops, and that's my primary concern.
    I think that when it happens is not nearly as important as 
to the fact that it winds up successfully. And if it's a few 
months off or if it's a very short time off or if it's a little 
longer than that, I don't think it's nearly as important as our 
resolve to do it and our building steadily the preparations 
necessary to do it.
    After he's gone, I would hope and believe that the nations 
in the region, the neighbors who have been sort of terrorized 
by Saddam Hussein, who fear him as well as hating him, would, 
after a brief period of dancing in the streets, be very glad to 
join in any kind of a regime or to assist a regime that would 
provide a Saddam-less Iraq.
    So I think the important thing is for us to decide what we 
have to do, and that is regime changing, and to do it, and to 
do it well, and to stay with the groups that are there and not 
feel we have to lead it or be the only one there.
    If we're alone in the actual removal operation, so be it. 
But I would be very certain that a successful operation by us 
alone would produce a very substantial number of allies very, 
very quickly.
    The Chairman [presiding]. If the Senator would yield for 
just a moment in a housekeeping matter. There are two rollcall 
votes back to back, and so I'd suggest we stay until toward the 
end of this and then, with the permission of my friend from 
Florida, I'll go to the Senator from California, and we'll kind 
of do reverse this time. OK?
    I'm sorry. Go ahead, Senator.
    Senator Hagel. Mr. Secretary, thank you.
    Mr. Berger.
    Mr. Berger. Senator, all hard decisions, in terms of 
America's role in the world, are balancing the risks, and 
that's ultimately the job the President or the Congress is 
going to have to do. I would not rule out, under any 
circumstances, the fact that we might have to act unilaterally 
if we believe that there was an imminent and direct threat to 
the United States. But I think doing so alone would greatly 
increase the risks of such action. I think that it is possible 
that we could militarily do this by ourselves, although we do 
need a base somewhere, we do need overflight rights.
    But the reason I talked earlier in my remarks about 
building blocks, it seems to me how we do this is very 
important. And I think that, No. 1, to address your point in 
terms of the Middle East, I think if we are not seen as engaged 
in an energetic, proactive, consistent way in trying to end 
violence and create a better dynamic in the Middle East, we 
will go into this by ourselves, and many of the Arab countries 
will simply hunker down. They may not try--they may not be able 
to stop us, but they will not support us.
    Second of all, I think we have to make our case to the 
world. We see a threat. We see a threat to the United States, 
we see a threat out at some timeframe. The Secretary is 
certainly right. We have no precision about being able to 
estimate those timetables. You have to take the best 
intelligence, the best information we have. I don't think it's 
measured in months. I think it's measured in years, and I think 
we have the time to make our case to the world.
    And to make simply one point, I agree with the Secretary 
that a victorious coalition would want to help us participate 
in anything that needs to be done in Iraq. But if it's a 
coalition of one, it's a bill payer of one. So I think we need 
to take the time we have here to try to build, as I said, not 
necessarily the gulf war coalition, but a common sense of 
threat, a more broadly shared sense of threat internationally 
so we're not acting alone.
    Senator Hagel. Thank you.
    The Chairman. Rather than begin, Senator--do you want to 
begin now?
    Senator Boxer. So quick, I have one question.
    The Chairman. Oh, OK. Well, fire away.
    Senator Boxer. I have one question, prefaced this way. This 
has been so fascinating. I want to thank you Mr. Chairman and 
also Senator Lugar, and our people here.
    I want to say that under George Bush the first, the 
decision was made not to get rid of Saddam, because, as I 
understood it--I was in the Congress then--there was a fear as 
to what would come after.
    If Secretary Weinberger reflects the new thinking of that--
those days, apparently the new thinking go ahead and do it and 
don't worry. I think that leads to what Senator Rockefeller 
said is, are we committed to doing what it takes afterwards? 
And, frankly, I don't know the answer, because I haven't heard 
it from this administration.
    I know I'm feeling a little troubled that we're not doing 
enough in Afghanistan, as much as this committee would like to 
do. So that's one point.
    Now, the question I have is this. I am very afraid of the 
weapons of mass destruction combined with the new world that we 
face of people who don't care about this world and this life 
and are willing to give up their own life for some cause. I'm 
very worried about that. So here's my question. We have a U.N. 
resolution that is very clear, 687, that says that Iraq must, 
must, allow in the inspectors. Why don't we start from that 
point? If we are going to build any credibility in the world, I 
don't think we start from the point that, you know, we think 
Saddam is terrible. Yes, we do. And then to say, therefore, we 
should go in whatever it takes and do what it takes.
    I think we need to start at the beginning, which is to 
build support for our feeling that this is a dangerous 
situation. And I don't know why we don't hear more from this 
administration--and maybe I've missed it; maybe I have--about 
how we ought to go about building support for a regime of 
inspection that is foolproof that can be designed. And one of 
your witnesses, Mr. Chairman, did lay out, I think, a terrific 
outline of what that should be.
    So could I ask you, Mr. Berger, particularly on that point 
of the U.N. resolution, if you feel we have enough there to 
build our case and to demand an inspection as a first step to 
build a worldwide support.
    Mr. Berger. Senator, I think that--I see the process of 
going back to the United Nations, in tactical as well as 
strategic terms. Is it possible to construct an inspection 
regime that can give us absolutely certainty? Probably not. Is 
it likely that Saddam Hussein would agree to a totally 
intrusive regime? Probably not. Is it useful in my judgment to 
use the forum of the U.N. to say, ``Why won't Saddam Hussein 
let us back in?'' Yes.
    The problem I have with the ``axis of evil'' speech is that 
has focused the world on us, not on Saddam. We're talking about 
what do we mean by the ``axis of evil,'' what has that got to 
do with terrorism, are we becoming unilaterists? I want to get 
the subject back on Saddam Hussein and weapons of mass 
destruction.
    It seems to me that if we went to the United Nations, we 
stood as firm as possible, 100 percent firm, for a totally 
invasive, intrusive inspection system--you're talking, I think, 
about Mr. Gallucci's testimony--maybe even with some military 
capability--do I think we'll get that? Probably not. Do I think 
the exercise of having Saddam and his surrogates and others in 
the U.N. have to explain why he will not let the world come 
into Iraq to see what's there is helpful in building the sense 
of legitimacy that I'm talking about? Yes, I do.
    So I think that--I know there's concern that that will be--
become essentially--deflect us, and we certainly know that 
Saddam can manipulate an inspection regime. But if we are not 
tough enough to hang firm in the U.N. for a 100-percent 
invasive, intrusive inspection regime, then I'm not sure we're 
tough enough to go through with an invasion and everything that 
entails.
    Senator Boxer. Well----
    Mr. Berger. It seems to me it is a useful vehicle for 
building legitimacy and explaining to the world why even if we 
don't act pursuant to a U.N. resolution, we are acting with 
legitimacy.
    Senator Boxer. Well, I thank you for that, because I 
really--in my mind, that was a tough resolution. They agreed to 
it. And I don't know how--he can do whatever he wants about it, 
but common sense--the average American is going to look at that 
and say, ``You're hiding something, buddy.'' And so is the 
world.
    And I think the world fears those weapons of mass 
destruction, and I say that's a first step, and I would like to 
see us get behind something very strong and do it soon.
    I thank you.
    Mr. Chairman, are you chairing? Senator, are you chairing?
    Senator Hagel [presiding]. Anything you want me to do, 
Senator. I'm here.
    Senator Boxer. Well, you're up there.
    Senator Hagel. Do you want to go vote?
    Senator Boxer. I think so.
    Senator Hagel. Well, let's recess and go vote, and we'll 
come back. In the absence of the chairman, I'll take control. 
This is revolution here, Mr. Secretary.
    Senator Boxer. Yes, and I let you do it, the Boxer 
rebellion.
    [Recess.]
    The Chairman [presiding]. The hearing will resume, please.
    Gentlemen, the leadership said there may be a third vote 
immediately, but I've been here 30 years, and I know that 
that's likely to take probably another 30 minutes for the third 
vote, so I've come back and I'll ask my questions now. The 
reason others aren't back yet is because I think they believe 
there may be a vote. But I don't believe it. So we'll start, 
and if I turn out to be wrong, we'll have to interrupt again. 
And I do apologize to both of you for the interruptions.
    Let me ask the question that we spent a good deal of time 
dwelling on in the three panels yesterday. And in both the 
classified briefings we have sought and gotten as well as the 
so-called outside experts we have all here privately consulted 
with, the question has been constantly raised, and that is 
that, is the circumstance different this time, from Desert 
Storm, 1991, in that, since the avowed purpose of using force 
against Saddam would be to change the regime, meaning go to 
Baghdad, unless we saw him on a, you know, helicopter heading 
to someplace, that, in light of that, most of the people--well, 
I won't say what they said--I've asked the question, is Saddam 
more likely to use chemical or biological weapons--and I limit 
it to that, because I've not heard a single voice suggest that, 
at this moment, they believe he has nuclear--is it more or less 
likely he would use chemical or biological weapons in one of 
three circumstances--one, against the invading U.S. forces 
moving on Baghdad of wherever; two, against the Israelis to 
widen the war into a regional war as one of his hopes for 
salvation; or, three, against his own people in a scorch-the-
earth policy not unlike he did with, not chemical or biological 
weapons, but with conventional weapons, setting the oil fields 
of Kuwait on fire as he left?
    So what probably do each of you assign to the likelihood of 
him using whatever weapons of mass destruction he has available 
to him this time? And if so, when and how do you think that 
would most likely occur? Either one of you and in whatever 
order.
    Mr. Weinberger. Well, Senator, it's pure guesswork, of 
course, as you know. Not only that, but I'm long out of office, 
and so I would be guessing.
    First of all, you ask if conditions are different. One 
thing is different, and that is he has a lot fewer troops. He 
has a lot fewer tanks and a lot fewer infantry and a lot fewer 
artillery pieces than he had at that time. Sadly, we didn't 
destroy the whole thing, but he's left with a fair amount, but 
it's a very much smaller amount. Roughly, I'd say 30 percent 
now of what he had at the start of the gulf war. So that's one 
significant difference.
    I don't think there's any predicting what a person like 
Saddam Hussein would do. I think we have to assume he's not 
going to engage in useless acts. I think he would undoubtedly 
perhaps feel that if he's being invaded and that there's any 
kind of realistic sense of what's going to happen, he would 
know that he probably couldn't win. Whether or not he would use 
chemical or biological weapons, I, frankly, don't know.
    I think we have to assume that he's not going to be held 
back by any of the normal restraints that a civilized person 
would be under. He's used a gas against his own people up in 
the Kurdish north about 4 or 5 years ago--didn't hesitate for a 
moment, because he felt they were in revolt against him, and 
they can't tolerate any kind of revolt.
    Whether or not he would try to do what he did in Kuwait is 
hard to say. On his way out of Kuwait, he set fire to all the 
remaining oil wells. I happened to be over there. I did go over 
there somewhere within about 5, 6 days after that war ended, 
and it was a--it just looked like every picture of purgatory 
you've ever seen painted, and it was all completely useless as 
far as the military was concerned, and he's never made any 
effective compensation for it. So we're dealing with a person 
who's not bound by any normal restraints, and that's why it's 
hard to estimate what he would do.
    He has far fewer resources, and I--it is at least possible 
that a campaign against him would go well enough so that he 
would not have very much time to engage in any nastiness. He's 
got a lot of very, very unpleasant weapons. The VX explosives 
and chemical and various other things are very nasty pieces of 
equipment.
    I don't think I can help you by guessing, but I would guess 
that if we are successful, he wouldn't have time to do very 
much damage. I doubt if he would use these weapons to widen the 
war, because I think he knows he would find very little support 
for that. I think the support that he thinks he's amassing now 
is very chimerical and is based upon simply a feeling that if 
his neighbors, who uniformly hate him, speak loudly enough 
against our doing any invasion, that we may be discouraged from 
doing it. But whether he would try to widen the war or not, I 
don't know. There would be no particular gain to him for doing 
it, but that might not necessarily stop him.
    I think you're dealing with a very unpredictable person who 
has no civilized restraints, and that argues even more strongly 
for getting rid of him as quickly as possible. Frankly, I wish 
we had done it at the end of the gulf war.
    The Chairman. Mr. Berger.
    Mr. Berger. Mr. Chairman, I agree with Secretary Weinberger 
that Saddam is not likely to be bound by normal restraints in 
circumstances such as this, which he would see as essentially 
existential to his regime. So I think in devising a war plan--
and I also agree with Secretary Weinberger, there's been 
entirely too much babble in the press about various war 
scenarios--I think we would certainly have to anticipate this 
potential. It would, obviously, take you in the direction of 
trying to disrupt command and control as quickly as possible, 
as swiftly as possible.
    The dilemma here, of course, is how do you maintain even 
tactical surprise if you have to have a substantial buildup in 
order to accomplish your mission. But I think any war planning 
here would have to anticipate the potential or the possibility 
that he would use or threaten to use biological or chemical 
weapons against American forces, potentially against Israel in 
order to turn this into an Israeli-Arab war, and perhaps 
against his own people. I think that would have to be very much 
a part of our calculation in developing a war plan here.
    The Chairman. One of the things that the first President 
Bush did that we've learned after the fact, is spent a lot of 
time with his top people talking with the Israelis and getting 
a commitment that if they were attacked, they would not 
respond--they, the Israelis, would not respond. And I assume 
the reason for that was their concern that even though we had 
even stronger case in the region that he had invaded a country, 
occupied a country, violated every norm of international law, 
that if, in fact, Israel did respond in its own self interest, 
that there was a risk that it would turn from Saddam versus the 
coalition forces liberating an innocent country to the Israelis 
and the Arabs--or at least complicating matters.
    And so I hope--as a matter of fact, I'm sure, we must be 
considering that possibility. I can tell you without revealing 
any war plans or anything--I don't have any--is that the 
Israelis have spoken to me about that. The former Prime 
Minister spent 3\1/2\ hours with me talking about that. And 
that is, what happens if Israeli is attacked with chemical or 
biological weapons.
    So I guess my question is this. Is it an important part of 
the planning process for a National Security Advisor or a 
Secretary of Defense to be recommending to the President, if 
he's going to move, what the President should or should not be 
saying to the Israelis or should or should not be planning 
relative to the use of these weapons--the potential use of 
these weapons?
    Mr. Weinberger. Mr. Chairman, ordinarily, I don't think the 
Secretary of Defense would get into that field. I was always 
accused of practicing foreign policy when I was Secretary of 
Defense, but we didn't get to the----
    The Chairman. I remember that.
    Mr. Weinberger [continuing]. Basic point of telling the--or 
suggesting to the President that----
    The Chairman. That's a legacy I don't think you've left.
    Mr. Weinberger [continuing]. How he would respond to things 
of that kind.
    The military's job would be--and I assume that's what's 
going on now, but I don't know--it would be to plan for an 
operation with a number of different contingencies. And they 
would plan to do essentially what would be quite normal, and 
that would be to assume that all kinds of options would be 
chosen against us, and that to make sure we had the material 
and the troops and the plans ready to deal with that, as well 
as the intelligence.
    But whether or not that would include a guess as to what 
Saddam Hussein would do with whatever weapons he's got, as far 
as recommendations to the President is concerned, I would think 
that would not be done. I think that what would be done would 
be that any war plans that might be developed would certainly 
include the ways to respond to whatever it was Saddam Hussein 
might decide to do. That would be part of the normal planning. 
I don't think it would go beyond that. But in the course of 
doing that, if the President wanted to know what would happen 
if they used certain weapons of if they threatened to use 
certain weapons, I assume the military would tell him the basis 
on which they were planning to deal with a contingency like 
that, but I doubt if they would advocate a course of action.
    Mr. Berger. Mr. Chairman, any war carries with it the 
potential of unexpected contingencies. You're talking about an 
expected contingency, one that we can foresee, not as a 
certainty, but certainly as a possibility. And it would seem to 
me that it would be incumbent upon us to engage in very serious 
discussions with the Government of Israel quietly in advance of 
any such action.
    I know there is a debate in Israel that took place after 
1991 about whether Israel made the right decision in not 
retaliating against Scud attacks which were not associated with 
chemical weapons. And I can imagine it would be a very 
difficult decision for any elected Prime Minister of any 
country to not respond to a chemical-weapons attack on his own 
country.
    So it is certainly not--if that were to happen--not out of 
the realm of possibility that Israel would respond. And I think 
that, again, this suggests the complexity of this operation. It 
doesn't necessarily dictate whether we should or shouldn't do 
it, but I think it would be surprising if we did not have a 
serious discussion with the Israelis about how that contingency 
would unfold.
    The Chairman. I think one of the responsibilities I have as 
chairman of this committee is--and the reason why the 
administration is not here now--not demand they be here now--is 
that we not discuss operational plans here. And that has not 
occurred, and as long as I'm chairman, will not occur, although 
I don't think I'm going to admonish any member of this 
committee. They all agree, both sides of the aisle on that.
    But one of the things it seems to me is our responsibility, 
because it is my sense--I could be wrong, but it's my sense 
that this President and his administration understand--whether 
or not they understand the constitutional responsibility, they 
understand the political value of having a Congress ``with 
them'' as they take off on an effort.
    And from my discussions, although I want to make it clear 
I've got no firm commitment from anybody in this 
administration, but I have, at the White House, discussed the 
issue of whether or not authorization would be required in the 
absence of an al-Qaeda connection related to 9/11, in the 
absence of evidence of an imminent attack by Iraq, and the need 
for our participation, the Congress' participation and 
authorization. And so it's my distinct sense--I could be making 
a fool of myself here if it turns out wrong--my distinct sense 
that there will be no signficant movement against Iraq, absent 
consultation with the Congress, and, like his father, a request 
for authorization.
    I might note, parenthetically, if the right case is made, I 
think he'd get an overwhelming response, positive, to it if he 
demonstrated that there were certain things put in motion that 
would answer some questions for members.
    The reason I bother to say that is this. It seems to me 
that part of our function as a committee, and the reason why 
we're seeking your advice and help, is that we should be laying 
out the nature of the threat and a range of opinions relative 
to the nature of the threat, and not only the nature of the 
threat, the timing of the threat, the timeframe in which we 
have to respond to the worst case, and then lay out for the 
American people what--not the certain costs are, but what the 
probable costs are in terms of everything from our treasure as 
it relates to life as well as it does to property and cost.
    And so that's why I'm about to pursue a couple more 
questions with you--again, not--understanding that none of us 
know for certain what will happen once this is undertaken or 
even prior to it being undertaken, if it is undertaken.
    The last gulf war, as a coalition, which went extremely 
well--a significant coalition, significant participation in the 
military undertaking as well as the aftermath--cost, in today's 
dollars, about $76 billion, I'm told. Is that about right? I 
think it was $60-some billion in Desert Storm. And, in today's 
dollars, I'm told it's in the $75 to $80 billion range. And of 
that, 80 percent of it was paid by the Japanese, the Europeans, 
and others.
    Now, I want to make it clear, for me at least, that if I am 
convinced that Saddam has and is likely to use weapons of mass 
destruction, including the nuclear capability, I think we have 
to be prepared to pay any price--$70 billion, $100 billion, 
$150 billion, whatever it would take--to protect our interests. 
But if we have to go this alone, do either of you think--that 
is--when I say ``go it alone,'' the military action--do any of 
you think there is a likelihood that the cost, in just dollar 
terms, would be significantly less than what it cost in Desert 
Storm?
    Now, Mr. Secretary, you've indicated that they have--and I 
think it's a fairly wide consensus--considerably less 
conventional military capability than they had before. Does 
that translate into, if we pursue this as successfully alone as 
we did in conjunction with our allies last time, if we get 
basing rights, overflight rights, et cetera, that it could cost 
us considerably less?
    Mr. Weinberger. Well, I think it's a function of, largely, 
Senator, as to how long it lasts. The costs of the military are 
there. The increased operational tempo that is required by a 
war is a very substantial exponential increase. And so that it 
depends entirely on how long it lasts.
    Desert Storm lasted less than a hundred hours, and it was 
an expensive operation, of course, because we had to move 
troops so far and so many and--but, as you pointed out, a very 
substantial portion of that cost was picked up by grateful 
allies and very helpful allies.
    So it obviously is to our interest in every way to try to 
assemble, if not the same coalition, at least as many as we 
can. And I suggested earlier, before the recess, that we would 
have less trouble doing that once those nations are assured 
that we are there to stay the course and that we intend to see 
it through.
    I would suspect that, just on the basis of ordinary 
planning aided by some guesswork, of course, that an operation 
of the kind we may be talking about--and we don't know the 
extent of it, of course--I certainly don't--would be 
considerably less cost. But you're dealing with a reduced 
military on his part. You're dealing with assets that we have, 
and you're dealing really--basically, it's going to depend on 
just how it lasts, how long you have to keep this enormously 
increased operational tempo.
    Mr. Berger. Mr. Chairman, I don't know how to estimate, at 
this point, the cost of the operation itself, but I do think 
that being able to convince, particularly the neighbors, that 
we're prepared to stay the course is extremely important. But I 
think staying the course, in this case, is not simply pushing 
the Iraqis back into Iraq in a very successful--an operation 
that all Americans were proud of that lasted, as the Secretary 
said, a hundred hours.
    We're going to need to reassure the Turks and others in the 
region that staying the course means that they're not going to 
find the Kurds declaring independence or moving to get oil 
assets, that staying the course means that Iran is not tempted 
to take advantage of a weak American-imposed government.
    So staying the course here, I think, is more than the 
buildup and the hundred-hour war. I think staying the course--
and I--these are arbitrary figures when you try to say what 
that will mean--means convincing the region that our objective 
is to remove Saddam Hussein in a way that maximizes the 
prospects of stability in the region. And that's going to be 
important to their being willing partners--or at least 
acquiescing partners in this coalition and ultimately being 
willing to help pay the cost that it will take.
    The Chairman. Well, that's sort of what I'm getting at 
here. Granted, it is possible that instead of us assembling and 
being responsible for assembling almost half a million men, not 
all American, pre-positioning them over a long period of time, 
and then conducting what was a very successful hundred-hour 
war, and then, in relatively short order, beginning to draw 
down those forces, this is premised upon, in the best-case 
scenario--I would call the best-case scenario--articulated by 
Secretary Weinberger that it would be better to go with others 
and not alone, but if we go alone, we go alone.
    And if we do it as successfully as we did Desert Storm--
that is, we meet the objective--the objective, a different 
objective this time, not just merely pushing Iraq out of 
Kuwait, but taking down a regime, which means somebody's got to 
go to Baghdad, in all probability, another 400 miles and a few 
other small problems--that then, if we did this successfully, 
we would find willing allies and assistance in helping us 
maintain the cost after the fact. After the fact, which could 
be--we've heard testimony today from serious people--and 
yesterday--that the costs could--and I'm not suggesting either 
of you agree, but the testimony we've heard from serious 
people, including--Colonel Feil, but that was yesterday--the 
military guy--my mind's blank here.
    Thank you very much. I can rely upon the reporter. The 
Senate reporter points out Cordesman was the one who was a very 
serious guy, as well as today--Colonel Feil, with less 
experience, but still very, very knowledgeable.
    They're talking about 75,000 troops staying and so on and 
so forth. Even if you don't get into those numbers, if you 
expect other forces--everybody--does anybody believe that it's 
possible to go in, take down Saddam and not have some foreign 
military presence, whether it's ours or not, in Iraq for at 
least the near term, meaning months, not a hundred hours, not a 
hundred days, but--well, that's a hundred days, in months, but 
months? I mean, aren't we at least signed onto that, just to 
literally physically assemble and order the forces from our 
allies who might, after the fact, be willing to come in--I 
mean, is that not--well, just logistically?
    Mr. Weinberger. Again, it's a guess, Senator, but certainly 
some time would be required of us to demonstrate our 
consistency and our resolve.
    The Chairman. Yes.
    Mr. Weinberger. I don't know how long that would be, and I 
don't know how many people would be involved. It would depend 
entirely on how well the military----
    The Chairman. The reason--look, I'm not trying to----
    Mr. Berger. Mr. Chairman, maybe I could add----
    The Chairman [continuing]. Pin you guys down. I'm just 
trying to get----
    Mr. Berger. Right, if I can just add one dimension to that. 
The task of forging some sort of government going forward, 
which has the support of Iraqis, strikes me as doable, but 
difficult. You have a wide variety of external opposition 
groups, a wide variety of internal opposition groups, all of 
whom I would think you'd want to draw upon in an exercise as 
part of at least the Iraqi piece of the coalition. They have 
not had a great record of staying together, even the two 
Kurdish groups, let alone all the others.
    So there's going to be a period, it seems to me, when there 
is a vacuum of power, even though we may have installed some 
other general, in the absence of some stabilizing presence. And 
that, it seems to me, has to come from----
    The Chairman. The only reason I pursue this, again, in 
terms of sort of a full disclosure to the American people here, 
we are talking about more than several billion dollars, in 
terms of the cost of such an operation, and we are talking 
about tens of billions of dollars--I mean, granted, there's 
probably less of a--assuming chemical and biological weapons 
aren't used, which could greatly escalate the cost, in terms of 
human life and other ways, but there is also the requirement 
this time to stay longer, whatever that means. It could be 
weeks, it could be months, it could be, in some people's minds, 
years, but it's longer.
    Mr. Weinberger. Senator.
    The Chairman. Yes.
    Mr. Weinberger. I think a great deal depends on our 
intentions. And I want to call your attention to a much smaller 
scale--not a replica of this operation, but Grenada. We went 
into Grenada with more troops than everybody thought we needed, 
and we had a very successful operation and prevented the 
kidnaping and detention of American students, and we got out, 
and we got out in something under a month. And a couple of 
months after that, there was a free election, and we have not 
been back.
    Now, that is obviously a much smaller scale and it had 
different kinds of aspects to it, but the intention was very 
important, because the intention was to do just that----
    The Chairman. Yes.
    Mr. Weinberger [continuing]. To get in and get out.
    And I think that given that kind of same sort of intention, 
we could--depending on how success the military aspects are, we 
could not have to remain as long as some people are talking 
about.
    The Chairman. Well, that may be a good jump-off point. If 
Grenada had sunk into the bottom of the Caribbean, the events 
of the world would not have changed, God love the Grenadians, 
if that's the correct way to pronounce it. If Grenada had 
signed a security pact with the Soviet Union, it would not have 
made a whole lot of difference. Iraq is so fundamentally 
different in terms of this regard. You said, Mr. Secretary, I 
thought, that we have to demonstrate we have the staying power, 
that--not only to take Saddam down, I assume you meant, but to 
not walk away with the region more destabilized than when we 
arrived.
    Mr. Weinberger. Now, that certainly is true, and I don't 
know how long that would take, but a lot would depend on how 
many allies we had and how successful the military operation 
had been and what kind of conditions were left. And if you 
start from--if you have a complete military victory, then I 
would suggest that the rebuilding phase and the length of time 
for us to stay would be lessened.
    The Chairman. Well, I--by the way, I'm not disagreeing--
that if we did it right, we could--I'm just trying to get broad 
parameters here. I would--I mean, look how long--I mean, some 
have compared the need here to be the kind of commitment after 
the fact we made to Japan and Germany. That's one extreme. The 
other extreme is Grenada. And in between are experiences we 
had, like Kosovo and Bosnia, where we had broad coalition 
support, where we had a signficant success, where we routed the 
opposition, and where we still have 7,000 forces. But----
    Mr. Berger. Mr. Chairman.
    The Chairman. Yes.
    Mr. Berger. We learned the hard way in Bosnia that 
artificial deadlines are a mistake in a situation like that. We 
said we would be out in a year. I think that was an honest 
judgment at the time. It was wrong.
    And basically, we have to be prepared to stay as long as it 
takes until the conditions are such that a stable Iraq that is 
not threatening to its neighbors can exist. And I don't think 
we're ever going to be able to put a finer point on it than 
that, except ``as long as it takes.''
    The Chairman. Yes. Well, again, I'm not looking for a very 
fine point. But we do know, in just broad macro terms, to have 
even the minimum number of forces that anyone has suggested in 
anything that's been leaked or discussed that I've heard, we're 
talking about tens of thousands of forces going in. We may not 
be talking about a quarter of a million. We may be talking 
about 75,000, but we're talking a lot of forces. We're talking 
about it taking more than a hundred hours--not the victory, but 
before we can leave.
    And so, again, to give some sense of proportion to the 
American people when we ask them for their permission, through 
their Congress, to go in, if we ask them that----
    Mr. Weinberger. Senator.
    The Chairman [continuing]. I think we have an obligation to 
tell them this is going to cost a lot of money. I'm not 
suggesting we shouldn't pay it, but it may cost a lot of money.
    Mr. Weinberger. I think that's true, but I also think we 
should be pointing out the benefits----
    The Chairman. Oh, by the way, I agree.
    Mr. Weinberger [continuing]. Of a Saddam-free world.And I 
think that they have to be ground into the equation, and I 
think that's a very major factor.
    The Chairman. I agree. I'm sorry, I thought I said at the 
outset--as I said at the outset, if we can make the case, which 
I think--well, I won't say what I think yet; the hearings 
aren't finished--but if we can make the case that the threat is 
real and dire, that a free and democratic Iraq, if it could be 
accomplished, could have a cleansing impact on that part of the 
world and make our life easier significantly down the road, 
which I think could be made in an ideal circumstance--not even 
an ideal, in a--if we do things right--that it is worth the 
price.
    So I'm assuming we wouldn't vote to give the President the 
authority to do this unless we thought that the price--or the 
potential damage to us was so significant, and the price of 
victory was worth it. But we then ultimately have to tell them 
what the price is. And I don't mean in literal dollar terms; I 
mean in terms of reasonable things we could anticipate.
    But I can anticipate, since my staff just said there's 1 
minute left in the vote, that my colleagues were more correct 
than I was about how certain the next vote was going to be. 
They're probably literally on their way back. The first one in, 
please authorize them to begin the hearing. We're not going to 
trespass on your time much longer, but I am going to have to go 
vote. So we'll recess until the first Senator, Democrat or 
Republican, returns, and we'll begin the questioning with them.
    Thank you.
    [Recess.]
    Senator Nelson [presiding]. The committee will resume. 
Chairman Biden is just finishing up voting on the floor and 
will be here momentarily and asked me to go on. And we 
apologize to our witnesses, but when they call the votes--when 
the roll is called up yonder, one has to respond.
    I wanted to ask both of you about your opinion with regard 
to the influence of radical fundamentalist groups operating in 
northern Iraq. Mr. Secretary?
    Mr. Weinberger. Well, without certain knowledge, Senator--
and I would disclaim that at the beginning--I think it is 
common knowledge that there are a great many of these groups in 
Iraq. I don't know if that's especially limited to the north--
but the climate that is encouraged by Saddam Hussein is one 
that encourages them to gather.
    Many of the Arab countries, particularly the moderate Arab 
countries, like Egypt, for example, are very worried about 
these people, and they take every step they can to make sure 
that they don't have undue influence on either policy or 
presence in the country.
    I think Iraq is quite the contrary. I think they welcome 
them, because I think they do--as far as I know--they used to 
do a substantial amount of training of these people and 
preparing to unleash them on the world. So I would think that 
there is a substantial infestation of radical Muslim groups and 
know that the country is hospitable to them and that they can 
operating with more freedom they can in countries that are 
opposed to them.
    Mr. Berger. Senator, I obviously don't have access to the 
same--the same degree of access to the intelligence as I had a 
little more than a year ago. So ultimately this obviously was a 
question that has to be posed to the intelligence community.
    Iraq, historically, has supported terrorist organizations, 
primarily PKK, directed toward Turkey, the MEK, directed toward 
Iran. I know that there is some evidence of support of late for 
groups involved in support of the Palestinians against Israel.
    Historically there has not been a close relationship 
between Saddam Hussein and his regime and Islamic Jihaddist 
fundamentalists. They see Saddam--have seen Saddam as a 
secularist. He's killed more Islamic clerics than he's killed 
Americans. They have, of course, at this point, a common enemy, 
and that's why this is something we have to be very attentive 
to and certainly be very vigilant about.
    But historically there has not been close relationship the 
Saddam Hussein regime and the al-Qaeda, bin Laden, Islamic 
Jihaddist movement.
    Senator Nelson. Mr. Secretary, you had stated, I think, in 
your actual remarks that you thought that there was a 
connection with al-Qaeda. Would you elucidate and expand on 
that?
    Mr. Weinberger. Yes; well, the initial reports were that 
there were some small groups of al-Qaeda wandering around up in 
the northern area, in the mountain area, working across the 
border with Iran and so on. There is a lot more than that now. 
They have been welcomed to the country, officially. Some of 
them are being paid as martyrs by Saddam Hussein. And the 
information about al-Qaeda in Baghdad that I've been told when 
I inquired is from senior intelligence officials who did not 
wish to be otherwise identified but, of course, would testified 
at a closed hearing. I am told it's reliable by people with 
whom I have great confidence. And I think that it might well be 
a good idea to have a closed hearing on the subject. I would 
not be able to contribute more than I already have, but I am 
told that that is the case, that the al-Qaeda groups are 
welcome and that they are being supported, their families are 
being supported, on the theory that they--some of them are 
martyrs from Palestine and Afghanistan and that they will 
continue to be found useful by Saddam Hussein for the people 
with whom he deals.
    Senator Nelson. Do you think that Saddam Hussein would 
share weapons of mass destruction with such groups?
    Mr. Weinberger. Well, I don't know if he'd share them or 
not. I think he would--he would not be above allowing them to 
help in the delivery of them or in the construction of them or 
as part of his general plan. I know there's a theory around 
that he wouldn't share them because he wants to have them all 
to himself, but my belief is that he would utilize anybody that 
he could find, and he doesn't have very many outside allies, 
and he has quite a few inside enemies. But I think he'd share 
the use of them and allow them to participate in his--whatever 
plans he has. I don't think he would hand them the weapons and 
turn away, no. But I don't think that that's--I think that's a 
technical distinction that isn't very relevant.
    Senator Nelson. I'm quite interested in exploring this 
question of connection with al-Qaeda, because we haven't seen a 
lot of commentary about that.
    Mr. Berger.
    Mr. Berger. Senator, first of all, in terms of connection 
to al-Qaeda, I can't speak to that directly. I know that the 
intelligence community has been looking rigorously at the issue 
of whether there is a connection, over the last 10 months. And 
obviously it would be important to hear from them as to what 
they've established.
    With respect--to me, the greatest threat Saddam poses--and 
you can't rule out, obviously, the possibility of his sharing 
weapons of mass destruction with terrorist organizations. He 
has had chemical weapons for over a decade and has not taken 
that course. To me, the greater threat is his own use of 
weapons of mass destruction as a deterrent or directly. And 
specifically what I worry about most is his obtaining a nuclear 
capability and believing that the possession of that capability 
would dissuade the United States, therefore, from responding to 
an aggression by Saddam Hussein in the gulf to seek to extend 
his influence, his hegemony, in the gulf. So there, obviously, 
is the potential of his sharing weapons of mass destruction 
with terrorist groups. It has not been his pattern to date. I 
think we should--I suspect the intelligence community is 
looking under every rock for a connection between al-Qaeda and 
Saddam Hussein, and I encourage that. But I can't speak to it 
directly.
    Senator Nelson. Is it your understanding that his threat of 
chemical and biological warfare was one of the reasons that we 
did not move on Baghdad 11 years ago in the gulf war?
    Mr. Berger. Well, I--Secretary Weinberger could speak to 
this--you know, I accept President Bush--first President Bush's 
explanation at face value on that, whether, in hindsight, we 
agree or not, which is that he had a coalition--he had 
constructed a coalition around a purpose, which was to expel--
to defeat the aggression of Iraq into Kuwait. Having 
accomplished that, President Bush has said he felt that, in a 
sense, the mandate of that coalition no longer existed.
    I think, obviously, with hindsight, had we continued on for 
several more days and at least eliminated the Republican Guard 
units, we might not be facing this problem at this point. But I 
don't know that I've ever heard this articulated in terms of 
fear of use of chemical weapons. In fact, as you know, of 
course, there was a very explicit warning issued to Saddam 
Hussein with respect to use of chemical weapons against third 
countries--Israel, Saudi Arabia--which obviously had a 
deterrent effect in that context.
    The Chairman [presiding]. Will the Senator yield on that 
point for a just a moment?
    Senator Nelson. I would yield to the chairman.
    The Chairman. We heard testimony yesterday from one of the 
witnesses saying that they thought that the reason--they 
thought, in their discussions with Iraqis, that Iraqis believe 
and Saddam's cadre believed that the reason we stopped is 
because they had chemical and biological weapons. I have not 
heard anyone assert that the reason President Bush decided to 
stop was his fear of concern about or thought that chemical 
weapons would be used against American forces. And so--but I've 
not heard anybody make the assertion that President Bush, one, 
stopped because of concern about chemical or biological 
weapons.
    Mr. Weinberger. I was not in office at that time, Senator, 
but I agree with you, I have not heard that, and I think if you 
look at the timeframe, it's not at all credible, because the 
war was over in such a short time, and there were a number of 
people who felt that the televised pictures of the road into 
the southern part of Iraq had been littered with all of the 
equipment and tanks and everything that we destroyed and that 
this might look a little too bloodthirsty and we would have a 
chance to get an acceptable peace.
    I think the fatal error was in believing you could trust 
Saddam Hussein. And you can't, you couldn't, and you never can 
in the future. But I don't think that it had any connection 
between the chemical warfare capability, whatever it was at 
that time.
    The Chairman. To beg the indulgence of my colleagues just a 
minute more, the context in which this discussion took place 
yesterday was whether or not deterrence worked. And it was 
argued by one of the witnesses that deterrence worked, the 
threat of annihalation essentially issued by Bush, one, to 
Saddam was the reason why Saddam did not use his chemical or 
biological weapons. Another witness responded and said, ``Well, 
in Iraq they say the reason we didn't keep going was a threat 
that Saddam would use them.'' Deterrence doesn't work, 
deterrence does. If we believed that threatening him and his 
very existence of his regime with massive retaliation were he 
to use them, then obviously it alters the equation of whether 
or not there is a requirement to move, whether containment 
works, and so on. That was the context of the discussion.
    Mr. Berger. I think there is some evidence that deterrence 
worked in the context of the 1991 gulf war with respect to 
Israel. Obviously, the equation is different in a situation 
where the purpose of the exercise is the removal of Saddam. And 
I think that we have to do--would have to do our planning and 
calculations based upon less than certainty that under those 
circumstances deterrence would work or at least define some 
device by which deterrence is consistent with the removal of 
Saddam Hussein.
    Mr. Weinberger. He was not above a lot of those things, but 
if you look at what he did on the way out of Kuwait, all of 
that had no military value whatever, but it was pure 
beastliness and resulted in a very, very large amount of damage 
long after there had been an agreement that the war would end.
    Senator Nelson. We've asked the following question of other 
witnesses, and I'd like to get your opinions. Do you think that 
weapons inspections would satisfy the concerns that we have 
about Iraq's weapons-of-mass-destruction programs?
    Mr. Weinberger. I'm sorry, I didn't get the first part.
    Senator Nelson. Would weapons inspections----
    Mr. Weinberger. Oh, yes.
    Senator Nelson [continuing]. Satisfy our concerns about 
their WMD program?
    Mr. Weinberger. No, I don't think so, because I don't think 
we ever would be allowed any kind of intrusive inspection of 
the kind that's necessary, and that's why I think it's so silly 
to keep talking about relying on the United Nations. We've been 
there 4 years ago. We got all the fine resolutions that we 
wanted, but nobody pays any attention to them.
    And you have to bear in mind that a great deal of what they 
do is underground, and we have splendid satellites and all 
kinds of good equipment, but they can't look underground. And 
in the absence of being allowed to go wherever we want based 
upon whatever intelligence reports or rumors or anything else 
we pick up, in the absence of that, no inspection is going to 
be, in any sense, adequate, and any inspection is subject to 
having the actual things that he wants hidden, and 4 years have 
gone by. So I--without any inspections--so I would imagine that 
anything that was at all useful or interesting has long since 
been hidden or moved to what they consider to be a secure 
location.
    No, I think U.N. inspections is an idea that has been tried 
and doesn't work and we shouldn't feel that it would give us 
any kind of security whatever.
    Senator Nelson. Mr. Berger.
    Mr. Berger. I think there's one other dimension, however, 
to this issue. I am skeptical that we could achieve a weapons 
inspection regime--let's say the one outlined by Ambassador 
Gallucci yesterday that was robust, that actually had some 
military pop behind it, unfettered, that would alleviate our 
concerns about Saddam Hussein's weapons of mass destruction.
    However, I do think that the process of seeking that kind 
of robust, unfettered regime is a useful device in focusing the 
world back on Saddam Hussein and away from us. He would have to 
explain why he doesn't want the world in, why he won't accept 
this. And the moral balance here shifts from whether we're 
acting unilaterally, whether we're acting legitimately, to what 
does he have to hide? Why won't he let the world in? So as a 
tactical matter, I do believe that we can use an absolutist 
position in the United Nations, an uncompromising, absolutist 
position, to serve our purpose of gaining some greater support 
in the world for an action we may have to take.
    Mr. Weinberger. Well, I would have to disagree, Mr. 
Chairman. You're never going to get an absolutist position out 
of the United Nations.
    Mr. Berger. No, I'm talking about an absolutist position by 
the United States.
    Mr. Weinberger. Yes, I know, and----
    Mr. Berger. I believe----
    Mr. Weinberger [continuing]. We can be very insistent, and 
they will do what they've always done. If Saddam knows that 
that's what we want, he'll say yes, and then when we go in, 
he'll say, ``Oh, yes, but,'' and you haven't focused world 
opinion any more than you have now. He's had 4 years in which 
he has succeeded in throwing out an absolute U.N. resolution. 
And asking for it again is asking for more useless promises 
from him.
    Mr. Berger. Well----
    Mr. Weinberger. And that's essentially what you're doing, 
that he may give a useless promise, and then all you've done is 
given him more time to develop these weapons.
    Mr. Berger. Well, I assume that we have the control of our 
own vote, and I assume that if we have the tenacity to go to 
war in Iraq, we have the tenacity to stand out ground in New 
York.
    And, therefore, if we say we will only accept a regime 
which we define as being an absolutist regime, one of two 
things will happen. He will say no, in which case I believe 
we're in a stronger position internationally, or he will say 
yes, in which case the inspectors will go in, and he will play 
games with them, and a very clear causus belli will have been 
established.
    So I don't see inspections as a very probable way of 
solving the WMD problem. I do see it as a useful mechanism for 
focusing the world back on Saddam Hussein, weapons of mass 
destruction, and the threat that he poses.
    Mr. Weinberger. If I disagreed again, I'd simply be 
repeating myself, so I won't take your time for that.
    Senator Nelson. Well, I'll ask you this final question. 
Then I'm going to turn it over to Senator Feingold.
    Give us your opinion if the President should consult with 
Congress before taking military action in Iraq.
    Mr. Weinberger. Well, I think it's always desirable to have 
congressional support, and I think there certainly would be and 
should be consultation. I think that we have to have in mind 
the Executive capabilities, the Executive prerogatives under 
the Constitution. And while I realize that doesn't involve 
declaring war, it does have the idea of giving the President 
very substantial freedom to do the things that he considers 
necessary in foreign policy.
    I think Madison perhaps said it best in the Federalist, 
``In foreign policy, the President is all.'' But I think there 
should be consultation. I think there would be. I think it's 
very desirable to have a full discussion of it. I think these 
hearings are very useful. I congratulate the chairman and you 
on holding them.
    I think that--I said some time ago, in setting out some 
criteria as to when we should our forces, that it is desirable 
to have as much support, certainly including congressional 
support, as you can, because I don't think you could fight a 
war against an enemy and against public opinion or 
congressional opinion, and I don't think you should try to do 
it in a democracy.
    So, yes, I think there should be consultation. I think 
there would be.
    Mr. Berger. I've discovered, Senator, that your view on--
what one's view of this subject depends on which end of 
Pennsylvania Avenue you happen to be sitting on at the time.
    But I do think that this is a major undertaking. The United 
States, in a sense, would be initiating a war, not without 
provocation, not without--necessarily without justification, 
but that has not generally been the way we've been--we've 
fought wars. It's not unique. I do believe this is a major 
undertaking, and I believe it's important for the American 
people to be supportive.
    You know, when I speak publicly, I often ask audiences, 
``Should we get Saddam Hussein?'' And 75, 80, 90 percent of the 
hands go up. But I think that that question ought to be asked 
after people have had a lively and informed consent in the 
sense that they understand this is not easy, this is a risky 
proposition, but the threat is also a serious one.
    So I think Congress becomes, as always, the vehicle for 
expressing American public support. And we've learned in the 
past that without sustained American public support, we can get 
ourselves in trouble.
    Senator Nelson. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and thanks for 
the courtesy of Senator Lugar, as well. I've had a chance to 
attend each of the five sessions here, and I'm really glad I 
had chance to hear some of this.
    I particularly appreciate the last exchange. I certainly 
come down on the side of Mr. Berger with regard to the issue of 
whether or not the Executive can simply go forward with this. 
In fact, I--to me, it's not just a question of whether it's 
advisable for Congress to do this. I think it's--all the 
arguments about how airing this with the American people and 
through Congress is very important. But I also believe it is 
constitutionally required that the U.S. Congress pass a 
resolution in the--under these circumstances, given the kind of 
operation that's being discussed.
    There is, in my view, no authority or evidence, to this 
point, that's been presented to me, as a Member of Congress, 
that--under Senate Joint Resolution 23, that we can act against 
Iraq without actual proof that Iraq was involved with September 
11. I also believe that the 1991 authorization simply cannot be 
used as a justification for the kind of operation that Mr. 
Berger was just referring to.
    But I do appreciate your being here, and let me just ask a 
couple of questions. What would be the cost to the multilateral 
coalition against terrorism if the United States were to begin 
a major military operation in Iraq tomorrow, sort of in 
concrete terms? What diplomatic work would need to be done to 
reduce the costs? Would our allies, or even states that are not 
allies, need certain commitments from us? And is it possible to 
significantly reduce those costs? For either one of you.
    Mr. Weinberger. Well, Senator, I would say that you 
certainly should expend a great deal of time and effort in 
trying to rebuild a major coalition. I think that this involves 
a considerable degree of consultation ahead of time. I think 
that it's important for those nations to be with us, and I 
think those consultations can continue what has actually been 
started, as I understand it--that is, the persuasion that we 
are serious, that we do make--plan to make a major commitment, 
and we plan to win. And I think that that needs to be done and 
emphasized in whatever way it can be done consistent with 
security of the operation, with all of our potential allies, 
including the existing ones.
    And obviously some of the moderate Arab nations should be 
brought in, as they were last time. We had--I think we had 31 
nations in the gulf war coalition, and I think that it worked 
extremely well, and I think we should certainly try to 
reconstitute as much of that as we can.
    Senator Feingold. How much success do you think we will 
have? How many of those countries do you think we can get?
    Mr. Weinberger. Well, I think, as I said earlier, I think 
before you were here, that success has many allies. And I think 
that if it's quite clear we're going in with the resources that 
we have and the resources necessary to win, that we'll pick up 
quite a few.
    And I think we have to realize the hatred that is felt for 
Saddam Hussein in the region. And his neighbors know him. And 
what they're afraid of is being caught out on a limb in which 
we've started down a road and turned back. They live there. 
They're there all the time. We're not.
    So I think that's a real fear that they have, and I think 
that has to be overcome, and I think it can be done best by 
consultation, by discussions ahead and by major efforts made to 
reconstitute as much of the coalition as we can.
    I don't have any idea how many we would get. Probably not 
31 at the beginning. But as things went on, and if the military 
operation showed signs of success, I would dare to venture that 
we'd pick up quite a few.
    Senator Feingold. Thank you, Mr. Weinberger.
    Mr. Berger.
    Mr. Berger. Senator, let me first make a distinction I made 
in my earlier remarks. I think the fight against terrorists and 
the threat of Saddam Hussein, while they are related, are not 
identical. We had a--Saddam was a threat before 9/11, and he's 
a threat whether or not he links up with terrorists. Therefore, 
it seems to me, one way to look at your question is what is--
what is the cost, in terms of the fight--the clearest and 
present terrorist threat--that is, the al-Qaeda, the Islamic 
Jihaddist militants?
    We're now in a phase of that, which I believe is a 
continuing threat. I believe the President is right, that we 
will be struck again. And I think he's right to say that and to 
press that to the fullest.
    We are now at a phase where military action is only one 
dimension, and may be a dimension of diminishing returns, in 
terms of the fight against--we'll call it al-Qaeda, the 
militant Islamic Jihaddist extremists. This now requires 
cooperation. It requires intelligence cooperation, it requires 
law-enforcement cooperation, it requires political cooperation 
to take down al-Qaeda cells as we did in Singapore, as we're 
doing in the Philippines and in Indonesia and elsewhere.
    So how do we preserve that support as we go into Iraq? And 
it seems to me a few things are important. No. 1, as I've said 
before, I do believe that it is important that the 
international community see us engaged in trying to end the 
violence and bring a new dynamic to the Middle East, because, 
at least with respect to potential support from the Arab 
countries that neighbor on Iraq, it will be more difficult if 
we are seen as not deeply engaged, not actively, energetically, 
consistently trying to stop the strategy of terror on the part 
of the Palestinians and to end the violence in the region.
    Second of all, I think we have to make our case--I agree 
with the Secretary that power does have a magnetic pull, and 
the exercise of power is, in some ways, self-reinforcing, but 
is it not, in my judgment, sufficient.
    It is important, I believe, that the world see what we're 
doing as a legitimate act. That doesn't mean--we're not going 
to get a U.N. resolution passed to do this, but I don't believe 
that we can be seen as acting on old business. And, therefore, 
we have to make our case to the world. And it seems to me, if 
we can make the case to the Senate and Congress and we can make 
the case to the American people, we ought to be able to make 
the case to our friends and allies. And if we can't make that 
case, then, we--acting alone is going to be, perhaps under 
extreme circumstances, necessary, but much more difficult.
    Senator Feingold. Thanks to both of you.
    Thanks, Mr. Chairman.
    The Chairman. Gentlemen, we've taken you longer than 
usually, but, as I said, you're pros, you're not surprised, I 
guess.
    I want to make it clear, which I hope it's clear--I know 
it's clear to both of you that--we've completed two days of 
hearings. There's much more to explore and--as I said, and 
Secretary Weinberger implied, I fully expect the administration 
will consult with this committee and with the Congress as a 
whole. And this is just the beginning of the process here.
    The debate, discussion, and decisionmaking goes on at the 
White House now, and it will continue to occur here. Both the 
Congress and the President have some difficult decisions to 
make here. Ultimately, whatever course of action is taken will 
be proposed by the President, and we will respond. And it is my 
hope and expectation that we have at least shed some light on 
the complexity of the problem, but I do not leave after 2 days 
concluding that it is not a soluble problem, that it is not a 
problem--that is, Saddam Hussein--that we can succeed in our 
objective, which I said at the outset, either we separate him 
from his weapons, or him from Iraq. And I think the latter is 
the more likely thing to happen, but I think it does matter how 
we do it, when we do it, and that the American people are fully 
informed and we have their fully informed consent.
    So you've been, as usual, both very good, and I cannot 
promise you I will not ask you back again. My expectation is I 
will be asking you again. I hope you will be as accommodating 
with your time as you have been in the past when we resume 
these hearings.
    I want to congratulate the staff--Tony Blinken, the new 
staff director, as well as the Republican staff director, and 
all the staffs for putting together what I hope everyone 
understands was a truly bipartisan and thoroughly balanced 
discussion of the problems that we face and the opportunities 
we have.
    And so we will--I leaned back to you a moment ago and 
indicated that I hope they will--not hope--I have asked them, 
so I do hope, since I've asked them, that they will summarize 
what we have learned here for us and put together a proposal 
for Senator Lugar and me--and hopefully, by then, Senator Helms 
and me--to consider as we proceed in the fall with further 
discussion of the issues relating to Iraq.
    With that, gentlemen, unless you have a closing comment----
    Mr. Weinberger. Senator, I would like to thank you and 
thank the committee and thank you, first of all for having the 
debate and thank you for the very fair and decent manner in 
which it's been conducted and in which we all had, not only an 
opportunity, but a very ample opportunity, to explain all of 
our views. So I congratulate you. I'm glad you had the 
hearings, and I will look forward to whatever comes out of it.
    Mr. Berger. And I certainly share that view, Mr. Chairman.
    The Chairman. Well, thank you all very much. We are 
adjourned.
    [Whereupon, at 5:05 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statements Submitted for the Record


   Prepared Statement of Phyllis Bennis, Institute for Policy Studies

    Nelson Mandela was right when he said that attacking Iraq would be 
``a disaster.'' A U.S. invasion of Iraq would risk the lives of U.S. 
military personnel and inevitably kill thousands of Iraqi civilians; it 
is not surprising that many U.S. military officers, including some 
within the Joint Chiefs of Staff, are publicly opposed to a new war 
against Iraq. Such an attack would violate international law and the UN 
Charter, and isolate us from our friends and allies around the world. 
An invasion would prevent the future return of UN arms inspectors, and 
will cost billions of dollars urgently needed at home. And at the end 
of the day, an invasion will not insure stability, let alone democracy, 
in Iraq or the rest of the volatile Middle East region, and will put 
American civilians at greater risk of hatred and perhaps terrorist 
attacks than they are today.
                      purported links to terrorism
    It is now clear that (despite intensive investigative efforts) 
there is simply no evidence of any Iraqi involvement in the terror 
attacks of September 11. The most popular theory, of a Prague-based 
collaboration between one of the 9/11 terrorists and an Iraqi official, 
has now collapsed. Just two weeks ago, the Prague Post quoted the 
director general of the Czech foreign intelligence service UZSI (Office 
of Foreign Relations and Information), Frantisek Bublan, denying the 
much-touted meeting between Mohamed Atta, one of the 9/11 hijackers, 
and an Iraqi agent.
    More significantly, the Iraqi regime's brutal treatment of its own 
population has generally not extended to international terrorist 
attacks. The State Department's own compilation of terrorist activity 
in its 2001 Patterns of Global Terrorism, released May 2002, does not 
document a single serious act of international terrorism by Iraq. 
Almost all references are either to political statements made or not 
made or hosting virtually defunct militant organizations.
    We are told that we must go to war preemptively against Iraq 
because Baghdad might, some time in the future, succeed in crafting a 
dangerous weapon and might, some time in the future, give that weapon 
to some unknown terrorist group--maybe Osama bin Laden--who might, some 
time in the future, use that weapon against the U.S. The problem with 
this analysis, aside from the fact that preemptive strikes are simply 
illegal under international law, is that it ignores the widely known 
historic antagonism between Iraq and bin Laden. According to the New 
York Times, ``shortly after Iraqi forces invaded Kuwait in 1990, Osama 
bin Laden approached Prince Sultan bin Abdelaziz al-Saud, the Saudi 
defense minister, with an unusual proposition. . . . Arriving with maps 
and many diagrams, Mr. Bin Laden told Prince Sultan that the kingdom 
could avoid the indignity of allowing an army of American unbelievers 
to enter the kingdom to repel Iraq from Kuwait. He could lead the fight 
himself, he said, at the head of a group of former mujahideen that he 
said could number 100,000 men.'' \1\ Even if bin Laden's claim to be 
able to provide those troops was clearly false, bin Laden's hostility 
towards the ruthlessly secular Iraq remained evident. There is simply 
no evidence that that has changed.
---------------------------------------------------------------------------
    \1\ Douglas Jehl, ``Holy War Lured Saudis as Rulers Looked Away,'' 
New York Times, December 27, 2001.
---------------------------------------------------------------------------
    Ironically, an attack on Iraq would increase the threat to U.S. 
citizens throughout the Middle East and perhaps beyond, as another 
generation of young Iraqis come to identify Americans only as the 
pilots of high-flying jet bombers and as troops occupying their 
country. While today American citizens face no problems from ordinary 
people in the streets of Baghdad or elsewhere in Iraq, as I documented 
during my visit to Iraq with five Congressional staffers in August 
1999, that situation would likely change in the wake of a U.S. attack 
on Iraq. In other countries throughout the Middle East, already 
palpable anger directed at U.S. threats would dramatically escalate and 
would provide a new recruiting tool for extremist elements bent on harm 
to U.S. interests or U.S. citizens. It would become far more risky for 
U.S. citizens to travel abroad.
                             the human toll
    While estimates of casualties among U.S. servicepersonnel are not 
public, we can be certain they will be much higher than in the current 
war in Afghanistan. We do know, from Pentagon estimates of two years 
ago, the likely death toll among Iraqi civilians: about 10,000 Iraqi 
civilians would be killed. And the destruction of civilian 
infrastructure such as water, electrical and communications equipment, 
would lead to tens, perhaps hundreds of thousands of more civilian 
deaths, particularly among children, the aged and others of the most 
vulnerable sectors. We can anticipate that such targeted attacks would 
be justified by claims of ``dual use.'' But if we look back to the last 
U.S. war with Iraq, we know that the Pentagon planned and carried out 
knowing and documenting the likely impact on civilians. In one case, 
Pentagon planners anticipated that striking Iraq's civilian 
infrastructure would cause ``Increased incidence of diseases [that] 
will be attributable to degradation of normal preventive medicine, 
waste disposal, water purification/distribution, electricity, and 
decreased ability to control disease outbreaks. . . .'' The Defense 
Intelligence Agency document (from the Pentagon's Gulflink Web site), 
``Disease Information--Subject: Effects of Bombing on Disease 
Occurrence in Baghdad'' is dated 22 January 1991, just six days after 
the war began. It itemized the likely outbreaks to include: ``acute 
diarrhea'' brought on by bacteria such as E. coli, shigella, and 
salmonella, or by protozoa such as giardia, which will affect 
``particularly children,'' or by rotavirus, which will also affect 
``particularly children.'' And yet the bombing of the water treatment 
systems proceeded, and indeed, according to UNICEF figures, hundreds of 
thousands of Iraqis, ``particularly children,'' died from the effects 
of dirty water.
    The most recent leaked military plan for invading Iraq, the so-
called ``inside-out'' plan based on a relatively small contingent of 
U.S. ground troops with heavy reliance on air strikes, would focus 
first and primarily on Baghdad. The Iraqi capital is described as being 
ringed with Saddam Hussein's crack troops and studded with anti-
aircraft batteries. What is never mentioned in the report is the 
inconvenient fact that Baghdad is also a crowded city of four to five 
million people; a heavy air bombardment would cause the equivalent 
human catastrophe of heavy air bombardment of Los Angeles.
                        the u.s. and our allies
    There is no international support, at the governmental or public 
level, for a U.S. attack on Iraq. Our closest allies throughout Europe, 
in Canada, and elsewhere, have made clear their opposition to a 
military invasion. While they recognize the Iraqi regime as a brutal, 
undemocratic regime, they do not support a unilateral preemptive 
military assault as an appropriate response to that regime. Yes, it is 
certain that if the U.S. announces it is indeed going to war, that most 
of those governments would grudgingly follow along. When President Bush 
repeats his mantra that ``you are either with us or with the 
terrorists,'' there is not a government around the world prepared to 
stand defiant. But a foreign policy based on international coercion and 
our allies' fear of retaliation for noncompliance, is not a policy that 
will protect Americans and our place in the world.
    In the Middle East region, only Israel supports the U.S. build-up 
to war in Iraq. The Arab states, including our closest allies, have 
made unequivocal their opposition to an invasion of Iraq. Even Kuwait, 
once the target of Iraqi military occupation and ostensibly the most 
vulnerable to Iraqi threats, has moved to normalize its relations with 
Baghdad. The Arab League-sponsored rapprochement between Iraq and 
Kuwait at the March 2002 Arab Summit is now underway, including such 
long-overdue moves as the return of Kuwait's national archives. Iraq 
has now repaired its relations with every Arab country. Turkey has 
refused to publicly announce its agreement to allow use of its air 
bases, and Jordan and other Arab countries have made clear their urgent 
plea for the U.S. to abjure a military attack on Iraq.
    Again, it is certain that not a single government in the region 
would ultimately stand against a U.S. demand for base rights, use of 
airspace or overflight rights, or access to any other facilities. The 
question we must answer therefore is not whether our allies will 
ultimately accede to our wishes, but just how big a price are we 
prepared to exact from our allies? Virtually every Arab government, 
especially those most closely tied to the U.S. (Jordan and Egypt, 
perhaps even Saudi Arabia) will face dramatically escalated popular 
opposition. The existing crisis of legitimacy faced by these 
undemocratic, repressive, and non-representative regimes, monarchies 
and president-for-life style democracies, will be seriously exacerbated 
by a U.S. invasion of Iraq. Region-wide instability will certain 
result, and some of those governments might even face the possibility 
of being overthrown.
                     the u.s. and international law
    We claim to be a nation of laws. But too often we are prepared to 
put aside the requirements of international law and the United Nations 
Charter to which we hold other nations appropriately accountable.
    When it comes to policy on Iraq, the U.S. has a history of 
sidelining the central role that should be played by the United 
Nations. This increasingly unilateralist trajectory is one of the main 
reasons for the growing international antagonism towards the U.S. By 
imposing its will on the Security Council--insisting on the 
continuation of economic sanctions when virtually every other country 
wants to lift them, announcing its intention to ignore the UN in 
deciding whether to go to war against Iraq--the U.S. isolates us from 
our allies, antagonizes our friends, and sets our nation apart from the 
international systems of laws that govern the rest of the world. This 
does not help, but rather undermines, our long-term security interests.
    International law does not allow for preemptive military strikes, 
except in the case of preventing an immediate attack. We simply do not 
have the right--no country does--to launch a war against another 
country that has not attacked us. If the Pentagon had been able to 
scramble a jet to take down the second plane flying into the World 
Trade Center last September, that would be a legal use of preemptive 
self defense. An attack on Iraq--which does not have the capacity, and 
has not for a decade or more shown any specific intention or plan or 
effort to attack the U.S.--violates international law and the UN 
Charter.
    The Charter, in Article 51, outlines the terms under which a Member 
State of the United Nations may use force in self-defense. That Article 
acknowledges a nation's ``inherent right of individual or collective 
self-defense if an armed attack occurs against a member of the United 
Nations, until the Security Council has taken measures necessary to 
maintain international peace and security.'' [Emphasis added.] The 
Charter does not allow military force to be used absent an armed attack 
having occurred.
    Some administration spokespeople are fond of a sound-bite that says 
``the UN Charter is not a suicide pact.'' Others like to remind us that 
Iraq (and other nations) routinely violate the Charter. Both statements 
are true. But the United States has not been attacked by Iraq, and 
there is simply no evidence that Iraq is anywhere close to being able 
to carry out such an attack. The U.S. is the strongest international 
power--in terms of global military reach, economic, cultural, 
diplomatic and political power--that has ever existed throughout 
history. If the United States does not recognize the UN Charter and 
international law as the foundation of global society, how can we 
expect others to do so?
            how do we get serious about military sanctions?
    Denying Iraq access to weapons is not sufficient, nor can it be 
maintained as long as Iraq is surrounded by some of the most over-armed 
states in the world. An immediate halt on all weapons shipments to all 
countries in the region would be an important step towards containing 
military threats.
    We should expand our application of military sanctions as defined 
in UN Resolution 687. Military sanctions against Iraq should be 
tightened--by expanding them to a system of regional military 
sanctions, thus lowering the volatility of this already arms-glutted 
region. Article 14 of resolution 687 recognizes that the disarmament of 
Iraq should be seen as a step towards ``the goal of establishing in the 
Middle East a zone free from weapons of mass destruction and all 
missiles for their delivery and the objective of a global ban on 
chemical weapons.''
                        what about negotiations?
    We are told we must attack Iraq preemptively so that it can never 
obtain nuclear weapons. While we know from IAEA inspectors that Iraq's 
nuclear program was destroyed by the end of 1998, we do not know what 
has developed since. We do know, however, that Iraq does not have 
access to fissile material, without which any nuclear program is a 
hollow shell. And we know where fissile material is. Protection of all 
nuclear material, including reinstatement of the funding for protection 
of Russian nuclear material, must be a continuing priority.
    We should note that U.S. officials are threatening a war against 
Iraq, a country known not to possess nuclear weapons. Simultaneously, 
the administration is continuing appropriate negotiations with North 
Korea, which does have something much closer to nuclear weapons 
capacity. Backed by IAEA inspections, the model of negotiations and 
inspections is exactly what the U.S. should be proposing for Iraq.
                              inspections
    There has been no solid information regarding Iraq's weapons of 
mass destruction since UNSCOM and IAEA arms inspectors left Iraq in 
December 1998 in advance of the U.S. Desert Fox bombing operation. 
Prior to their leaving, the inspectors' last report (November 1998) 
stated that although they had been stymied by Iraqi non-compliance in 
carrying out some inspections, ``the majority of the inspections of 
facilities and sites under the ongoing monitoring system were carried 
out with Iraq's cooperation.'' The IAEA report was unequivocal that 
Iraq no longer had a viable nuclear program. The UNSCOM report was less 
definitive, but months earlier, in March 1998, UNSCOM chief Richard 
Butler said that his team was satisfied there was no longer any nuclear 
or long-range missile capability in Iraq, and that UNSCOM was ``very 
close'' to completing the chemical and biological phases.\2\
---------------------------------------------------------------------------
    \2\ Butler meeting with UN-accredited disarmament organizations, 
New York, 12 February 1998.
---------------------------------------------------------------------------
    Since that time, there have been no verifiable reports regarding 
Iraq's WMD programs. It is important to get inspectors back into Iraq, 
but U.S. threats have made that virtually impossible by setting a 
``negative incentive'' in place. If Baghdad believes that a U.S. 
military strike as well as the maintaining of crippling economic 
sanctions, will take place regardless of their compliance with UN 
resolutions regarding inspections, they have no reason to implement 
their own obligations. If the United States refuses to abide by the 
rule of international law, why are we surprised when an embattled and 
tyrannical government does so?
    Throughout the 1980s Baghdad received from the U.S. high-quality 
germ seed stock for anthrax, botulism, E.coli, and a host of other 
deadly diseases. (The Commerce Department's decisions to license those 
shipments, even after revelations of Iraq's 1988 use of illegal 
chemical weapons, are documented in the 1994 hearings of the Banking 
Subcommittee.) It is certainly possible that scraps of Iraq's earlier 
biological and chemical weapons programs remain in existence, but there 
is no evidence Iraq has the ability or missile capacity to use them 
against the U.S. or U.S. allies. The notion that the U.S. would go to 
war against Iraq because of the existence of tiny amounts of biological 
material, insufficient for use in missiles or other strategic weapons 
and which the U.S. itself provided during the years of the U.S.-Iraq 
alliance in the 1980s, is simply unacceptable.
                       what about the opposition?
    General Zinni has described an opposition-led attack on Iraq as 
turning the country into a ``Bay of Goats.'' Nothing has changed since 
that time. Almost none of the exile-based opposition has a credible 
base inside the country. There is no Iraqi equivalent to the Northern 
Alliance in Afghanistan to serve as ground troops to bolster a U.S. 
force. Some of the exile leaders closest to the U.S. have been wanted 
by Interpol for crimes in Jordan and elsewhere. The claim that they 
represent a democratic movement simply cannot be sustained.
                 what happens after ``regime change''?
    There is no democratic opposition ready to take over. Far more 
likely than the creation of an indigenous, popularly-supported 
democratic Iraqi government, would be the replacement of the current 
regime with one virtually indistinguishable from it except for the man 
at the top. In February 2002 Newsweek magazine profiled the five 
leaders said to be on Washington's short list of candidates to replace 
Saddam Hussein. The Administration has not publicly issued such a list 
of its own (though we should note they did not dispute the list), but 
it certainly typifies the model the U.S. has in mind. All five of them 
were high-ranking officials within the Iraqi military until the mid-
1990s. All five have been linked to the use of chemical weapons by the 
military; at least one, General al-Shammari, admits it. Perhaps we 
should not be surprised by Washington's embrace of military leaders 
potentially guilty of war crimes; General al-Shammari told Newsweek he 
assessed the effect of his howitzer-fired chemical weapons by relying 
on ``information from American satellites.''
    But the legitimacy of going to war against a country to replace a 
brutal military leader with another brutal military leader, knowingly 
promoting as leaders of a ``post-Saddam Iraq'' a collection of generals 
who have apparently committed heinous war crimes, must be challenged.
    And whoever is installed in Baghdad by victorious U.S. troops, it 
is certain that a long and likely bloody occupation would follow. The 
price would be high; Iraqis know better than we do how their government 
has systematically denied them civil and political rights. But they 
hold us responsible for stripping them of economic and social rights--
the right to sufficient food, clean water, education, medical care--
that together form the other side of the human rights equation. 
Economic sanctions have devastated Iraqi society--and among other 
effects, the sanctions have made the U.S. responsible for the 
immiseration of most of the entire Iraqi population. After twelve 
years, those in Washington who believe that Iraqis accept the popular 
inside-the-Beltway mantra that ``sanctions aren't responsible, Saddam 
Hussein is responsible'' for hunger and deprivation in Iraq, are 
engaged in wishful thinking. The notion that everyone in Iraq will 
welcome as ``liberators'' those whom most Iraqis hold responsible for 
12 years of crippling sanctions is simply naive. Basing a military 
strategy on such wishful speculation becomes very dangerous--in 
particular for U.S. troops themselves.
                                 ______
                                 

   Prepared Statement of J. Daryl Byler, Director, Mennonite Central 
                    Committee U.S. Washington Office

                              introduction
    Mennonite Central Committee (MCC) is a relief, development and 
peacemaking agency of Mennonite and Brethren in Christ churches in the 
United States and Canada. MCC has personnel in some 57 countries, 
including Iraq since 1998. MCC seeks to demonstrate God's love through 
committed men and women who work among people suffering from poverty, 
conflict, oppression and natural disaster.
    MCC's humanitarian assistance in Iraq has included food, medicine, 
school kits, sewing kits, school rehabilitation projects, and efforts 
to increase and improve tomato production. MCC material and food aid to 
Iraq has totaled $3.5 million in the last decade.
    Perhaps even more important than these relief and development 
efforts has been MCC's focus on relationship-building. In addition to 
having MCC staff present in Baghdad since 1998, MCC has sponsored 
numerous learning trips to Iraq. As director of MCC's Washington Office 
I traveled to Iraq twice, in October of 1998 and again in May of 2002. 
In my most recent trip, we met with church leaders and U.N. and Iraqi 
government officials.
                               testimony
    From our tradition as an historic peace church and out of MCC's 
experience in Iraq, we strongly urge the Senate to oppose military 
action against Iraq. The consequences of a military invasion are many, 
and there are compelling nonviolent alternatives to war. Many points 
similar to those below were issued in a 20 April 2002 statement by the 
MCC Executive Committee.
1. War will cause enormous human suffering
    For more than 20 years, ordinary Iraqis have suffered from the 
aftermath of the Iran-Iraq and Gulf wars and from the impact of 
comprehensive U.N. sanctions intended to contain and control the Iraqi 
government. According to UNICEF (May 2002 figures), one in eight Iraqi 
children currently dies before their 5th birthday and one in three 
suffer from chronic malnutrition. The UNICEF director told our 
delegation that, in 1989, Iraq ranked 3rd out of 16 Middle Eastern/
North African countries on the Human Development Index. By 1999, Iraq 
ranked 13th and perhaps ranks even lower today. One-fifth of Iraqi 
children weigh less than 5.5 pounds at birth, making them more 
vulnerable to diseases.
    While the U.N.'s oil-for-food program has halted the decline in 
most sectors, the director of UNICEF told our delegation that the 
education sector has not yet hit bottom. Some 3,000 to 4,000 schools 
need to be rehabilitated and another 5,000 new schools are needed. With 
the lack of a cash component in the oil-for-food program, teachers in 
Iraq are paid only $5 per month.
    A U.S. invasion of Iraq will only make a bad situation worse. The 
likely and foreseeable consequences of another war include the deaths 
of thousands of innocent Iraqi children and civilians, in addition to 
significant U.S. casualties.
    Furthermore, war will divert critical development resources toward 
emergency relief. CARE International--who has been rebuilding Iraq's 
water infrastructure, damaged in previous wars--told our delegation in 
May 2002 that they are already making contingency plans to refocus on 
emergency relief if the United States declares war on Iraq.
2. War will make the United States and the Middle East less secure, not 
        more
    War against Iraq will increase anti-American sentiment in the 
region and around the world. One Iraqi told our MCC delegation that a 
whole generation of Iraqi youth are growing up with ``bitterness in 
their bellies'' toward the United States. Whereas many Iraqis of the 
previous generation were educated in the West, the current generation 
of Iraqi youth know only of U.S. bombs and sanctions.
    War will provide yet another example that the world's superpower is 
unilaterally able to impose its will and wish on less powerful 
countries. One Iraqi evangelical church leader told our delegation, 
``We hope that someday your country will stop doing everything with 
force.''
    War will increase the divide between the United States and the Arab 
world, and will strengthen the view that the United States has a strong 
anti-Muslim bias. By some estimates, there are up to one million Iraqi 
Christians, 3-5% of the population. A U.S.-led war may well make their 
situation more vulnerable, to say nothing of the increased difficulties 
it will create for Muslims in the United States.
    War will also destabilize the region by fueling the more radical 
elements of society. Furthermore, war could well lead to internal 
fragmentation in Iraq, creating long-term uncertainty and instability. 
The longstanding divisions within Iraqi society are well-documented in 
books like Sandra Mackey's, ``The Reckoning.''
3. There are no compelling moral grounds for declaring war
    As an historic peace church, Mennonites and other Anabaptist groups 
oppose all war. But a war against Iraq fails to meet even the more 
popular ``just war'' criteria--e.g., just cause, likelihood of success, 
proportional to provocation, all alternatives exhausted, no significant 
collateral damage, etc.
    By failing to uphold even these minimal standards for launching and 
fighting a war, the United States will certainly develop a moral 
laryngitis to speak to other situations of conflict in the world. If 
the United States so readily resorts to war to settle its differences, 
what voice will it have to encourage peacemaking between Indians and 
Pakistanis or between Israelis and Palestinians?
4. There are no compelling legal grounds for declaring war
    The United States has established no credible link between Iraq and 
the events of September 11. Military action against Iraq would be a 
preemptive strike based on speculative threats, not a matter of self-
defense. As such, it appears to violate the UN Charter and raises 
serious questions about U.S. respect for and commitment to 
international law. It sets a dangerous precedent of preemptive military 
attacks for other countries who may feel threatened by their neighbors.
5. There are good alternatives to war
    At a minimum, the United States should have direct face-to-face 
conversations with the Iraqi government before going to war. One Iraqi 
minister appealed to our MCC delegation to encourage such face-to-face 
dialogue and, specifically, invited members of Congress to visit Iraq.
    It is more productive for the United States to address specific 
objectionable behaviors in face-to-face conversation than to trade 
harsh rhetoric through the media or to paint, with broad brush strokes, 
a whole country as evil.
    The United States should also work in good faith with other 
countries to reintroduce U.N. weapons' inspectors. Iraq has no 
incentive to cooperate with weapons inspectors when the United States 
has publicly declared its intentions of overthrowing the Iraqi 
government. Furthermore, a regional approach to disarmament holds more 
promise than simply shining the spotlight on Iraq. Indeed, the cease-
fire agreement ending the Gulf War called for a ``Middle East zone free 
from weapons of mass destruction.''
    Finally, international tribunals provide opportunities to 
adjudicate allegations against perpetrators of crimes against humanity 
without subjecting entire populations to the devastating effects of 
war.
                               conclusion
    Responding to a question about a possible U.S. invasion of Iraq, an 
Iraqi evangelical Christian told our MCC delegation two months ago, 
``The United States will do what it wants to do. We will trust God.''
    What will the United States do?
    More than a decade ago, the United States went to war with Iraq 
because of its aggression against Kuwait. Now the United States is 
considering its own military aggression.
    The U.S. Congress can help cast a more compelling vision and choose 
a more hopeful path. We are at a critical juncture in human history. If 
the United States does not in this moment of crisis demonstrate a 
resolute commitment to the rule of law, show respect for the 
international will and vigorously uphold human rights, how will it 
encourage the development of these values around the world?
    There is a more positive path forward. War is not the answer. It 
should be a strong word of caution that our European and Arab allies 
are steadfast in their opposition to declaring war on Iraq.
    I urge you to carefully calculate the costs of war and to seriously 
consider the alternatives.
    Thank you for the opportunity to submit this testimony.
                                 ______
                                 

   Prepared Statement of Dr. Peter L. Pellot, Emeritus Professor of 
Nutrition, University of Massachusetts in Amherst and Dr. Colin Rowat, 
            Lecturer in Economics, University of Birmingham

   potential civilian consequences of increased u.s. military action 
                              against iraq
Introduction
    This note outlines some potential consequences for Iraq's civilian 
population of increased U.S. military action designed to topple the 
Iraqi regime. These depend substantially on the actual conduct of any 
such action which is, at present, unknown. Thus, this note combines 
information from Iraq's experience in the Gulf war with more recent 
information on civilian vulnerability.
Nutritional considerations and vulnerabilities
    In 1990-1991 widely varying estimates of Iraqi food reserves were 
cited. One month after sanctions imposition, on 13 September 1990, 
Marjatta Rasi, chair of the Security Council's Iraq Sanctions 
Committee, estimated Iraqi food stocks to be ``enough to last anywhere 
from two months to more than six months.'' \1\ The previous week, U.S. 
officials on the Sanctions Committee had blocked Bulgarian baby food 
shipments to Iraq, arguing that ``that there is enough food stockpiled 
in Iraq and Kuwait to last a year''; U.S. officials had previously 
estimated Iraqi stocks to last three months.\2\
---------------------------------------------------------------------------
    \1\ 14 September, 1990. ``U.N. Council Votes Strict Limits On Food 
Aid to Iraq and Kuwait'', Paul Lewis, New York Times.
    \2\ 8 September, 1990. ``Baghdad `has enough food for a year' '', 
Leonard Doyle, The (London) Independent.
---------------------------------------------------------------------------
    By February 1991, vegetable oil, sugar, tea and dairy products were 
reportedly depleted by February; wheat shortages were possible before 
the May-June harvest; rice supplies were short, livestock were being 
slaughtered. Fruit and vegetables were scarcer, but severe shortages 
were not expected.\3\
---------------------------------------------------------------------------
    \3\ 26 February 1991. ``Iraq's Food and Agricultural Situation 
During the Embargo and the War'', Susan B. Epstein, CRS Report for 
Congress.
---------------------------------------------------------------------------
    Estimates of current levels of preparedness are also speculative. 
There are some indications that Iraqis are hoarding supplies but,\4\ 
having depleted their savings over the early 1990s, and they may not be 
in a position to build up substantial personal reserves. It is rumored 
that the Iraqi government has been stockpiling foodstuffs in 
preparation for war. The 1990s have eroded health as well as savings.
---------------------------------------------------------------------------
    \4\ 26 July 2002. ``Waiting for war exacts terrible toll'', Yasmine 
Bahrani, USA Today.
---------------------------------------------------------------------------
    Despite significant increases in the food ration since the ``oil 
for food'' programme began in 1996, child malnutrition rates in the 
South/Center of the country do not appear to have improved 
significantly and nutritional problems remain serious and 
widespread.\5\ Wasting in under five-year-olds is unacceptably high at 
around 10%. The indication of high levels of malnutrition supports UN 
findings that infant and child mortality have more than doubled since 
the end of the 1980's.\6\ Classical recognizable signs of severe 
malnutrition such as marasmus and kwashiorkor continue to be observed 
in hospital pediatric wards. The nutritional status of school children 
aged five to eight years based primarily on stunting and those aged 
nine to 15 years based on low BMI (Body Mass Index) is a cause for 
concern especially for those from rural areas and poor households. 
Micronutrient deficiencies are common and iron deficiency anemia is 
high. The existing food rations do not provide a nutritionally adequate 
and varied diet. Although, since its effective implementation in 1997, 
the ``oil for food'' program has halted further deterioration in the 
nutritional situation, these activities have not by themselves been 
able to reverse this trend. In spite of the fact that the ration is 
reasonably adequate in food energy and total protein, it is lacking in 
vegetables, fruit, and animal products and is therefore deficient in 
micronutrients and animal protein.
---------------------------------------------------------------------------
    \5\ 2000. ``Assessment of the Food and Nutrition Situation: Iraq'', 
Food and Agricultural Organization of the United Nations. Rome Italy, 
ES:TCP/IRQ/8924.
    \6\ 27 May 2000. ``Sanctions and childhood mortality in Iraq'', 
Mohamed M. Ali and Iqbal H. Shah, The Lancet, (9218) pp. 1851-57.
---------------------------------------------------------------------------
    The monthly food basket has lasted up to three weeks depending on 
the type of ration.\7\ This deficit has to be made up by food 
purchases, further straining resources. Many households cannot afford 
to supplement their diet with an adequate variety of non-ration foods 
and intakes of micronutrients such as iron and Vitamin A remain far 
below requirements. Adequate amounts of items such as meat, milk and 
vegetables are too costly for many families to purchase to supplement 
their diet given the parallel decline in the economy and the residual 
effects of the recent drought on the availability of crops and 
horticultural products. Consequently a significant portion of the 
population requires special attention, particularly the most vulnerable 
population groups of women and young children whose coping strategies 
are quickly being eroded. As is now well recognized, even mild 
malnutrition leads to greater susceptibility to infectious diseases 
with increased mortality as a consequence of the poor water quality and 
deficient sanitation.
---------------------------------------------------------------------------
    \7\ FAO 2000.
---------------------------------------------------------------------------
    Against Iraqis' vulnerable nutritional status, the sanctions on 
Iraq are looser in theory than they were in 1991. In practice, the 
humanitarian program's escrow account is almost $2.1 billion in 
deficit, preventing the ordering of new supplies.\8\ Orders awaiting 
delivery mean that the consequences of this shortfall are likely to be 
felt in the coming months rather than immediately. As the Sanctions 
Committee remains deadlocked over oil pricing formulae,\9\ optimism is 
not warranted. In fact, suggestions that the deadlock may deepen as the 
U.S. administration seeks to deny the Iraqi government access to oil 
revenues are grounds for pessimism.\10\ In the event of military 
action, most civilian trade is likely to be interrupted.
---------------------------------------------------------------------------
    \8\ 23 July 2002. ``Weekly Update (13-19 July 2002)'', UN Office of 
the Iraq Programme.
    \9\ 29 July 2002. ``Talks on Disarmament and Oil Pricing at an 
Impasse'', Middle East Economic Survey, A9-A1O.
    \10\ 29 July 2002. ``US raises pressure on Iraq using oil 
revenues'', Roula Khalaf, Financial Times.
---------------------------------------------------------------------------
    A 20 February UNICEF brainstorming exercise imagined

        that interruption of food distribution is possible. Pregnant 
        and lactating women as well as young children are the most 
        likely victims. Chaos would be the immediate effect. Very rapid 
        intervention by the [World Food Program] (in the midst of 
        chaos) would be required to avoid further deterioration of 
        malnutrition and even famine on a large scale.\11\
---------------------------------------------------------------------------
    \11\ 20 February 2002. ``Food Security in Iraq: Some Food for 
Thought'', Carol de Rooy, Unicef Baghdad.

    It asked: ``Does the WFP have the capacity to rapidly distribute 
350,000 metric tons/month [the current Government food ration] in S/C 
Iraq if required?''
Damage to civilian infrastructure
    Iraq's electrical grid is likely to be one of the first targets of 
U.S. military action. In 1991, ``electrical power was the most severely 
damaged component of the whole Iraqi target system'' with Baghdad 
losing power 10 minutes into the air war, and not regaining power until 
after the cease-fire, nearly three months later.\12\ This quickly 
caused ``the loss of perishable foods, such as frozen meat and 
refrigerated produce.'' \13\
---------------------------------------------------------------------------
    \12\ 1993. The Gulf Conflict 1990-1991: Diplomacy and War in the 
New World Order, Lawrence Freedman and Efraim Karsh, Princeton 
University Press, p. 322.
    \13\ Epstein.
---------------------------------------------------------------------------
    Orders were given that ``electrical targets will be targeted to 
minimize recuperation time'' \14\, including by the use of carbon-fiber 
warheads to short-circuit facilities. Nevertheless, post war 
assessments estimated that it would take five to nine years to restore 
Iraq's electrical power system.\15\ There is some evidence that initial 
repairs were conducted more quickly than expected,\16\ but the most 
recent evidence suggests that Iraq's electrical supply is still at 38% 
of installed capacity during peak summer load.\17\ Iraq is ``dependent 
on electrical power for water purification and distribution, sewage 
treatment, and the functioning of hospitals and health care centers'' 
\18\ as well as for the refrigeration of food and storage of medicines.
---------------------------------------------------------------------------
    \14\ 1995. The Generals' War: the Inside Story of the Conflict in 
the Gulf, Michael R. Gordon and Gen. Bernard E. Trainor, Little Brown, 
p. 316.
    \15\ Freedman and Karsh, p. 322.
    \16\ Gordon and Trainor, p. 519 note 18.
    \17\ 20 November 2001. Report from the Electricity Working Group to 
the Iraq Sanctions Committee, Slide6.
    \18\ 26 Septeqiber 1991. ``The Effect of the Gulf Crisis on the 
Children of Iraq'', Harvard Study Team, New England Journal of 
Medicine, pp. 977-980.
---------------------------------------------------------------------------
    Damage to water treatment plants had removed some 2.5 million 
Iraqis from the government water supply and left those still connected 
to it receiving one quarter their pre-war levels in quantitative terms; 
water quality had declined. This led directly to an outbreak of 
diarrheal diseases, typhoid and cholera as well as decreasing the 
ability of Iraq's medical system to maintain public health.\19\
---------------------------------------------------------------------------
    \19\ 17 July 1991. ``Report to the Secretary-General dated 15 July 
1991 on humanitarian needs in Iraq prepared by a mission led by the 
Executive Delegate of the Secretary-General for humanitarian assistance 
in Iraq'', Sadruddin Aga Khan, S/22799, para. 16-17.
---------------------------------------------------------------------------
Mortality estimates
    U.S. estimates of the direct casualties of the Gulf war are as low 
as 10,000 deaths. The Iraqi government has reported a figure of 20,000 
deaths, 1,000 of which were civilians, and 60,000 wounded.\20\
---------------------------------------------------------------------------
    \20\ Freedman and Karsh, p. 408.
---------------------------------------------------------------------------
    Studies of post-war Iraqi child mortality have sought to identify 
indirect deaths as well. A 1991 international study of 16,000 Iraqi 
households in 1991 concluded that ``the Gulf war and trade sanctions 
caused a threefold increase in mortality among Iraqi children under 
five years of age'', estimating that `an excess of more than 46,900 
children died between January and August 1991.'' \21\ Subsequent 
correspondence noted that the largest rises had occurred in regions 
affected by the 1991 uprising, leading to the suggestion that as few as 
21,000 excess under five child deaths may have been caused by the 
``Gulf war and trade sanctions alone''.\22\ This discrepancy may also 
reflect greater damage done in southern Iraq by Desert Storm itself and 
greater vulnerabilities both there and in Iraqi Kurdistan.
---------------------------------------------------------------------------
    \21\ 24 September 1992. ``Effect of the Gulf War on Infant and 
Child Mortality in Iraq'', Asherio et al., New England Journal of 
Medicine, pp. 931-936.
    \22\ 6 May 1993. ``The Gulf War and Infant and Child Mortality in 
Iraq'', Arthur Bierman, The New England Journal of Medicine, 
correspondence.
---------------------------------------------------------------------------
    A 1998 study of Iraqi child mortality that examined associated 
social indicators concluded that the rise in under five child mortality 
in Iraq ``mainly associated with the Gulf war'' was, at minimum, 25,000 
but more likely to be around 56,000.\23\
---------------------------------------------------------------------------
    \23\ March 1999. ``Morbidity and Mortality Among Iraqi Children 
from 1990 to 1998: Assessing the Impact of Economic Sanctions'', 
Richard Garfield, Kroc Institute Occasional Paper, 16:OP:3.
---------------------------------------------------------------------------
Iraqi Kurdistan
    Iraqi Kurdistan is generally held to enjoy better living conditions 
than does South/Central Iraq. Its inhabitants receive a higher per 
capita allocation under the ``oil for food'' program; its climate is 
more amenable to agriculture, receiving more rain; KDP-controlled 
regions have benefited from the Iraqi-Turkish diesel trade; the UN 
distribution system may be more efficient than the Iraqi government 
system.
    At the same time, it is subject to particular vulnerabilities. 
Unlike in South/Center Iraq, the ration in Iraqi Kurdistan is 
distributed by the UN, and stored in warehouses in South/Center Iraq. 
As UN staff are likely to evacuate rapidly upon the escalation of 
hostilities, the ration system can be expected to collapse. It is not 
known whether Kurdish regional authorities have stockpiled reserves. 
Against this, winter rainfall was good this year, leading to an 
expected wheat harvest of 500,000 metric tons.\24\ Nevertheless, in 
February, Save the Children UK, an NGO working in Iraqi Kurdistan since 
1991, warned that Iraqi Kurds were highly dependent on the ration 
system for their food and that its diminution could, ``send Kurds 
living in Northern Iraq over the edge into a humanitarian 
catastrophe.'' \25\
---------------------------------------------------------------------------
    \24\ 24 May 2002. ``The Humanitarian Programme in Iraq Pursuant to 
Security Council Resolution 986 (1995)'', Benon Sevan, Executive 
Director, UN Office of the Iraq Programme, para. 52.
    \25\ 4 February 2002. ``Save the Children warns of potential 
humanitarian crisis in Iraq'', press release.
---------------------------------------------------------------------------
    In 1991, nearly two million Kurds fled to Iran and Turkey. The 
conditions of those in Turkey were sufficiently appalling to generate 
an international uproar; during the worst period, the U.S. State 
Department and relief agencies estimated the refugees' daily death toll 
at 500-1000.\26\ A withdrawal of UN staff may suffice to trigger a 
similar exodus. The Turkish authorities may now be more hostile to 
Iraqi Kurds, having been surprised and disturbed by the establishment 
of the Kurdish Autonomous Region. Iran may already be preparing to 
accept refugees from Iraq,\27\ but the ability to provide for them may 
be complicated by the U.S. administration's harsh stance towards Iran 
in spite of the latter's assistance during the Afghan campaign.
---------------------------------------------------------------------------
    \26\ 1999. Sanctioning Saddam: the Politics of Intervention in 
Iraq, Sarah Graham-Brown, I. B. Tauris, pp. 23-24.
    \27\ 9 June 2002. ``Iran vows to accept refugees if war breaks out 
in Pakistan, Iraq'', Agence France Presse.
---------------------------------------------------------------------------
Co-mingilng of civilian and military targets
    In 1991, Iraqi assets were exposed to systematic destruction by 
Coalition forces. While their positioning away from civilian centers 
likely reduced civilian casualties, it is unlikely that they will be so 
deployed again. It is possible that the increased accuracy of U.S. 
munitions will be sufficiently able to discriminate between military 
and civilian targets to hold civilian casualties low. At the same time, 
U.S. forces have no recent live experience in the co-mingled 
environment that they may face in Iraq.
Contingencies
    It is feared that, if the Iraqi government is faced with its 
overthrow, it will not hesitate to use any non-conventional resources 
at its disposal. Given its record of harsh measures against the Iraqi 
population, it is possible that these will not only be deployed on the 
battlefield or against Israel and other neighboring countries 
supporting military action, but against U.S. forces in Iraqi urban 
centers. Iraq's civilian population is unlikely to be equipped for such 
a possibility and may suffer substantial casualties. Some international 
NGOs working in Iraq are aware that they have no experience operating 
in environments contaminated with non-conventional weapons.
    Armed conflict uncoordinated by the U.S. may also occur. As 
previously mentioned, a large proportion of child deaths following the 
Gulf war may have owed to the civil war. While an uprising of this sort 
may not be repeated, there is the new possibility of Turkish military 
action, both in Iraqi Kurdistan, and possibly reaching as far in as 
Kirkuk.\28\
---------------------------------------------------------------------------
    \28\ 21 July 2002. ``Would Turkish troops cross into Iraq?'', 
Fikret Bila, Milliyet.
---------------------------------------------------------------------------
Concluding remarks
    As a team leader of successive FAO missions in Iraq, one of us must 
emphasize the reality of the human tragedy in Iraq caused by the 
sanctions. These have had a major effect on food availability, 
nutrition and health, especially for children. From a country that was 
edging towards Western standards in health and nutrition, Iraq has, 
since 1990, experienced a precipitous decline towards poor Third World 
status. Thus, the potential civilian consequences of new military 
action are enormous for the vulnerable majority of the population. 
These are likely to be far greater than in 1990 because of the 
continuous decline in the overall infrastructure and the consequent 
deterioration in health status that have both occurred as direct and 
indirect effects of the economic sanctions over the last 12 years.

                                   - 

</pre></body></html>
